<html>
<title> - SEXUAL EXPLOITATION OF CHILDREN OVER THE INTERNET: WHAT PARENTS, KIDS AND CONGRESS NEED TO KNOW ABOUT CHILD PREDATORS</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



HEARINGS

BEFORE THE

SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

OF THE 

COMMITTEE ON ENERGY AND 
COMMERCE
HOUSE OF REPRESENTATIVES


ONE HUNDRED NINTH CONGRESS

SECOND SESSION


APRIL 4, APRIL 6, AND MAY 3, 2006

Serial No. 109-126

Printed for the use of the Committee on Energy and Commerce





Available via the World Wide Web:http://www.access.gpo.gov/congress/house



U.S. GOVERNMENT PRINTING OFFICE

WASHINGTON : 2006

For sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; DC area
(202) 512-1800 Fax: (202) 512-2250  Mail: Stop  SSOP, Washington, DC 
20402-0001
































                     COMMITTEE ON ENERGY AND COMMERCE
                       Joe Barton, Texas, Chairman           
Ralph M. Hall, Texas                           John D. Dingell, Michigan                         
Michael Bilirakis, Florida                      Ranking Member                    
  Vice Chairman                                Henry A. Waxman, California
Fred Upton, Michigan                           Edward J. Markey, Massachusetts
Cliff Stearns, Florida                         Rick Boucher, Virginia
Paul E. Gillmor, Ohio                          Edolphus Towns, New York
Nathan Deal, Georgia                           Frank Pallone, Jr., New Jersey
Ed Whitfield, Kentucky                         Sherrod Brown, Ohio
Charlie Norwood, Georgia                       Bart Gordon, Tennessee
Barbara Cubin, Wyoming                         Bobby L. Rush, Illinois
John Shimkus, Illinois                         Anna G. Eshoo, California
Heather Wilson, New Mexico                     Bart Stupak, Michigan
John B. Shadegg, Arizona                       Eliot L. Engel, New York
Charles W. "Chip" Pickering,  Mississippi      Albert R. Wynn, Maryland
  Vice Chairman                                Gene Green, Texas
Vito Fossella, New York                        Ted Strickland, Ohio
Roy Blunt, Missouri                            Diana DeGette, Colorado
Steve Buyer, Indiana                           Lois Capps, California
George Radanovich, California                  Mike Doyle, Pennsylvania
Charles F. Bass, New Hampshire                 Tom Allen, Maine
Joseph R. Pitts, Pennsylvania                  Jim Davis, Florida
Mary Bono, California                          Jan Schakowsky, Illinois
Greg Walden, Oregon                            Hilda L. Solis, California
Lee Terry, Nebraska                            Charles A. Gonzalez, Texas
Mike Ferguson, New Jersey                      Jay Inslee, Washington  
Mike Rogers, Michigan                          Tammy Baldwin, Wisconsin
C.L. "Butch" Otter, Idaho                      Mike Ross, Arkansas
Sue Myrick, North Carolina
John Sullivan, Oklahoma
Tim Murphy, Pennsylvania
Michael C. Burgess, Texas
Marsha Blackburn, Tennessee
                          Bud Albright, Staff Director
                         David Cavicke, General Counsel
            Reid P. F. Stuntz, Minority Staff Director and Chief Counsel
                               __________
                               

                  SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS
                        Ed Whitfield, Kentucky, Chairman
Cliff Stearns, Florida                       Bart Stupak, Michigan  
Charles W. "Chip" Pickering,  Mississippi     Ranking Member
Charles F. Bass, New Hampshire               Diana DeGette, Colorado
Greg Walden, Oregon                          Jan Schakowsky, Illinois
Mike Ferguson, New Jersey                    Jay Inslee, Washington
Michael C. Burgess, Texas                    Tammy Baldwin, Wisconsin
Marsha Blackburn, Tennessee                  Henry A. Waxman, California
Joe Barton, Texas                            John D. Dingell, Michigan
  (Ex Officio)                                (Ex Officio)









  


















                                  CONTENTS

                                                                   Page
Hearings held:
   April 4, 2006.................................................     1
   April 6, 2006.................................................   238
   May 3, 2006...................................................   423
   
Testimony of:
   Cooper, Sharon W., Developmental and Forensic Pediatrics, PA, 
     Department of Pediatrics, University of North Carolina 
      Chapel Hill................................................    17
   Berry, Justin.................................................    75
   Eichenwald, Kurt, Reporter, The New York Times................    85
   Allen, Ernie, President and Chief Executive Officer, National 
    Center for Missing and Exploited Children....................   126
   Aftab, Parry, Executive Director, WiredSafety.................   144
   Schroeder, Teri L., President/Program Director, i-SAFE America   187
   Sullivan, Shannon, Teen Angel, WiredSafety....................   201
   Mercer, William W., United States Attorney for the District 
    of Montana; Principal Associate Deputy Attorney General, 
    United States Department of Justice..........................   256
   Swecker, Chris, Acting Assistant Executive Director, Federal 
    Bureau of Investigation, United States Department of 
    Justice......................................................   268
   Kardasz, Dr. Frank, Sergeant, Phoenix Police Department; 
    Project Director, Arizona Internet Crimes Against Children 
    Task Force, United States Department of Justice                 275
   Waters, Flint, Lead Special Agent, Wyoming Division of 
    Criminal Investigation, Internet Crimes Against Children 
    Task Force Technology Center, United States Department 
    of Justice...................................................   285
   Clark, John P., Deputy Assistant Secretary, United States 
    Immigration and Customs Enforcement, United States Department 
    of Homeland Security.........................................   290
   Kezer, William E., Deputy Chief Inspector, United States Postal 
    Inspection Service...........................................   295
   Weeks, Grier, Executive Director, National Association to 
    Protect Children.............................................   347
   Allen, Masha..................................................   444
   Grace, Nancy, CNN Nancy Grace.................................   449
   Fisher, Hon. Alice S., Assistant Attorney General, Criminal 
    Division, United States Department of Justice................   470
   Roldan, Raul, Section Chief, Cyber Crime Section, Cyber 
    Division, Federal Bureau of Investigation, United States 
    Department of Justice........................................   487
Additional material submitted for the record:
   Kezer, William E., Deputy Chief Inspector, United States 
    Postal Inspection Service, response for the record...........   409
    Waters, Flint, Lead Special Agent, Wyoming Division of 
     Criminal Investigation, Internet Crimes Against Children Task 
     Force Technology Center, United States Department of Justice, 
     response for the record.....................................   411
   Swecker, Chris, Acting Assistant Executive Director, Federal 
    Bureau of Investigation, United States Department of Justice, 
    response for the record......................................   412
   Kardasz, Dr. Frank, Sergeant, Phoenix Police Department; 
    Project Director, Arizona Internet Crimes Against Children 
    Task Force, United States Department of Justice, response for 
    the record...................................................   417
   Plitt, James, Director, Cyber Crimes Center, Office of 
    Investigations, United States Immigration and Customs 
    Enforcement, United States Department of Homeland Security, 
    response for the record......................................   421
   Weeks, Grier, Executive Director, National Association to 
    Protect Children, response for the record....................   422
   Fisher, Hon. Alice S., Assistant Attorney General, Criminal 
    Division, United States Department of Justice, response for 
    the record...................................................   582
   Marsh, James R., Esq., response for the record................   585
   Allen, Faith, response for the record.........................   616
   Roldan, Raul, Section Chief, Cyber Crime Section, Cyber 
    Division, Federal Bureau of Investigation, United States 
    Department of Justice, response for the record...............   618













 
 SEXUAL EXPLOITATION OF CHILDREN OVER THE INTERNET:  WHAT PARENTS, KIDS 
AND CONGRESS NEED TO KNOW ABOUT CHILD PREDATORS


TUESDAY, APRIL 4, 2006

House of Representatives,
Committee on Energy and Commerce,
Subcommittee on Oversight and Investigations,
Washington, DC.


The committee met, pursuant to notice, at 10:06 a.m., in Room 2123 of the 
Rayburn House Office Building, Hon. Ed Whitfield (Chairman) presiding.
	Members present:  Representatives Walden, Ferguson, Burgess, 
	Blackburn, Barton (ex officio), Whitfield, and Stupak.
	Staff present:  Mark Paoletta, Chief Counsel for Oversight and 
	Investigations; Alan Slobodin, Deputy Chief Counsel for Oversight 
	and Investigations; Kelli Andrews, Counsel; Karen Christian, 
	Counsel; Michael Abraham, Legislative Clerk; Edith Holleman, 
	Minority Counsel; and David Nelson, Minority Investigator/
	Economist.
Mr. Whitfield.  I would like to call this hearing to order.  Today�s 
subject of our hearing is "Sexual Exploitation of Children Over the 
Internet:  What Parents, Kids and Congress Need to Know About Child 
Predators."
	Today, we are going to have five panels of witnesses on this very 
	important subject matter.  The first panel which we will 
	introduce a little bit later, will be Sharon Cooper who is with
	the Developmental and Forensic Pediatrics for the Department of 
	Pediatrics at the University of North Carolina Chapel Hill.  
	I welcome all of you here today and this will be the first of 
	several hearings on issues relating to the sexual exploitation of 
	children over the Internet.  Today�s hearing aims to protect our 
	children�s--if you will excuse me one minute.  May I have a glass 
	of water?  Today�s hearing aims to protect our Nation�s children 
	by putting a spotlight on how parents and children can better 
	
	In the early 1990s, before the advent of the Internet, it seemed
	in the United States that commercial child pornography was on the 
	decline.  This was due to several factors, especially several
	U.S. Supreme Court decisions that removed any first amendment 
	protection for the possession or distribution of child 
	pornography. These decisions were coupled with aggressive law 
	enforcement efforts primarily targeting the U.S. mail system, 
	which was the means of transporting these images.  Unfortunately, 
	the Internet reversed this trend.
	With the growing use of the Internet, the number of child
	predators who seek to make, distribute, and view images of 
	children being sexually abused continues to skyrocket.  This is 
	due to the anonymity, accessibility, and ease with which child 
	predators can operate on the Internet.  The extent of the problem 
	is staggering.  Some examples of statistics that our witnesses 
	today at the hearing will discuss more fully include: one in five 
	children report being sexually solicited over the Internet and 
	only 25 percent of those children that are sexually solicited 
	online tell their parents; 3.5 million images of child sexual 
	exploitation over the Internet have been identified in the 
	United States alone.  The commercial enterprise of online child 
	pornography is estimated in 2005 to be approximately $20 billion, 
	and it is an industry on the rise.  The National Center for 
	Missing and Exploited Children receives approximately 1,500 tips 
	a week on its cyber tip line about suspected online child 
	pornography.  Child predators that are found in possession of 
	child pornography typically have thousands of images of sexual 
	abuse of children on their computers.
	In my own State of Kentucky, a man was arrested last month and, 
	according to a press release, agents from the immigration and 
	customs enforcement reportedly discovered over 400,000 images 
	of child pornography on his computers.  Thinking about the 
	number of children that were abused in order to create all of 
	those images is sickening and intolerable.  We must do everything 
	possible to stop it.
	I want to particularly thank all of our witnesses today for 
	appearing before the subcommittee.  We appreciate your taking the 
	time to speak to us about an important issue concerning our most 
	vulnerable citizens, and that is our children.  You will hear 
	today from a young man named Justin Berry and he will tell a 
	story about his experience in this horrible world of online 
	child exploitation.  He will also talk to us about how he 
	received a free webcam and was preyed upon and exploited by 
	child predators.  I believe Mr. Berry is brave to come forward 
	and speak publicly to this subcommittee about matters that are 
	very personal to him and painful for him to even talk about.  
	Justin, we appreciate your willingness to share your experiences
	with us, as well as, with parents and children around the 
	country who may learn some valuable lessons from your story.
	We will also hear from Mr. Kurt Eichenwald, who as a New York 
	Times reporter exposed this world that captures children like 
	Justin.  Mr. Eichenwald feels so strongly about the dangers he
	has uncovered that he has taken the extraordinary step to come 
	to testify about how readily available this material is over 
	the Internet.  He will provide a firsthand account of how 
	predators lure and manipulate children over the Internet.
	In addition, I would like to thank Dr. Sharon Cooper who as I
	said, is on the first panel.  She altered her travel plans for a 
	trip to Germany in order to be here and testify today.  I believe 
	your testimony will be invaluable in helping us understand what
	happens to children like Justin who fall victim to these 
	predators and what the modus operandi of these predators are so 
	parents and children can keep a watchful eye.  We appreciate you
	making a special effort to be here.
	Today we will also here testimony from Mr. Ernie Allen from the 
	National Center for Missing and Exploited Children.  Mr. Allen 
	and his staff at the center have done a phenomenal job of working 
	to keep children safe.  We look forward to hearing about the 
	Center�s role as a clearinghouse for tips regarding child 
	pornography over the Internet by way of their cyber tip line, as 
	well as future plans they have to help stem the tide of child
	sexual exploitation over the Internet.  I believe the one 
	valuable lesson that can come out of this hearing is that parents,
	children, and of course Members of Congress become well versed in 
	what the cyber tip line is and how and when to use it.
	On our last panel, I am very happy to say, we have representatives 
	from WiredSafety and i-SAFE America to tell us more about how 
	they promote safety over the Internet for children.  We are also 
	interested in hearing first hand from your teenage witness, who is
	a Teen Angel from WiredSafety and an I Mentor for i-SAFE America, 
	on how they communicate Internet safety to their peers.  
	I must note that we also have today a witness who was subpoenaed 
	by the full committee to appear to testify.  His name is Ken 
	Gourlay from Michigan.  We will hear more about why Mr. Gourlay is
	here through Justin�s testimony.  I have been advised that 
	Mr. Gourlay intends to invoke his Fifth Amendment privilege against
	self-incrimination and will decline to answer the subcommittee�s 
	questions, but we are hopeful maybe he will decide to speak, 
	because it is critical that we confront his explanation for his 
	actions.
	At Thursday�s hearing, we are going to be focusing on the U.S. law 
	enforcement�s efforts devoted to eradicating the sexual 
	exploitation of children over the Internet and learn more about 
	the challenges facing law enforcement in this area.
	[The prepared statement of Hon. Ed Whitfield follows:]
	
	
Prepared Statement of the Hon. Ed Whitfield, Chairman, Subcommittee on 
Oversight and Investigations

GOOD MORNING. 
	TODAY THE SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS HOLDS THE 
	FIRST OF SEVERAL HEARINGS ON ISSUES RELATING TO THE SEXUAL 
	EXPLOITATION OF CHILDREN OVER THE INTERNET.  TODAY�S HEARING AIMS 
	TO PROTECT OUR NATION�S CHILDREN BY PUTTING A SPOTLIGHT ON HOW 
	PARENTS AND CHILDREN CAN BETTER EDUCATE THEMSELVES ABOUT THE 
	DANGERS OF CHILD PREDATORS ON THE INTERNET.  
IN SO DOING, WE WILL HEAR THE STORY ABOUT ONE CHILD�S EXPERIENCE IN THIS 
HORRIBLE WORLD OF ON-LINE CHILD EXPLOITATION.  AND, WE WILL LEARN HOW THE 
INTERNET HAS FUELED THE HIGHLY LUCRATIVE BUSINESS OF SELLING SEXUALLY 
ABUSIVE IMAGES OF CHILDREN AROUND THE WORLD.  
IN THE EARLY 1990�S, BEFORE THE ADVENT OF THE INTERNET, IT SEEMED IN THE 
UNITED STATES, COMMERCIAL CHILD PORNOGRAPHY WAS ON THE DECLINE.  THIS WAS 
DUE TO SEVERAL FACTORS-ESPECIALLY SEVERAL U.S. SUPREME COURT DECISIONS 
THAT REMOVED ANY FIRST AMENDMENT PROTECTION FOR THE POSSESSION OR 
DISTRIBUTION OF CHILD PORNOGRAPHY. THESE DECISIONS WERE COUPLED WITH 
AGGRESSIVE LAW ENFORCEMENT EFFORTS PRIMARILY TARGETING THE U.S. MAIL 
SYSTEM, WHICH WAS THE MEANS OF TRANSPORTING THESE IMAGES.  UNFORTUNATELY, 
THE INTERNET REVERSED THIS TREND.
WITH THE GROWING USE OF THE INTERNET, THE NUMBER OF CHILD PREDATORS WHO 
SEEK TO MAKE, DISTRIBUTE AND VIEW IMAGES OF CHILDREN BEING SEXUALLY ABUSED 
CONTINUES TO SKYROCKET.  THIS IS PRIMARILY DUE TO THE ANONYMITY, 
ACCESSIBILITY AND EASE WITH WHICH THESE CHILD PREDATORS CAN OPERATE ON THE 
INTERNET.  
	THE EXTENT OF THE PROBLEM IS STAGGERING.  HERE ARE SOME EXAMPLES OF 
	STATISTICS THAT OUR WITNESSES AT THE HEARING WILL DISCUSS MORE FULLY:
	1 IN 5 CHILDREN REPORT BEING SEXUALLY SOLICITED OVER THE INTERNET.  
AND ONLY 25% OF THOSE CHILDREN THAT ARE SEXUALLY SOLICITED ON-LINE TELL THEIR 
PARENTS.
	3.5 MILLION IMAGES OF CHILD SEXUAL EXPLOITATION OVER THE INTERNET HAVE
	BEEN IDENTIFIED_IN THE UNITED STATES ALONE.
	THE COMMERCIAL ENTERPRISE OF ON-LINE CHILD PORNOGRAPHY IS ESTIMATED, 
	IN 2005, TO BE APPROXIMATLEY $20 BILLION U.S. DOLLARS.  IT IS AN 
	INDUSTRY ON THE RISE.
	THE NATIONAL CENTER FOR MISSING AND EXPLOITED CHILDREN GETS 
	APPROXIMATELY 1,500 TIPS A WEEK ON ITS CYBERTIPLINE ABOUT SUSPECTED 
	ON-LINE CHILD PORNOGRAPHY.
	CHILD PREDATORS THAT ARE FOUND IN POSSESSION OF CHILD PORNOGRAPHY 
	TYPICALLY HAVE THOUSANDS OF IMAGES OF SEXUAL ABUSE OF CHILDREN ON 
	THEIR COMPUTERS.  
	IN MY HOME STATE OF KENTUCKY, A MAN WAS ARRESTED LAST MONTH AND, 
	ACCORDING TO A PRESS RELEASE, AGENTS FROM THE IMMIGRATION AND 
	CUSTOMS ENFORCEMENT REPORTEDLY DISCOVERED OVER 400 THOUSAND 
	IMAGES OF CHILD PORNOGRAPHY IN HIS COMPUTERS.  

THINKING ABOUT THE NUMBER OF CHILDREN THAT WERE ABUSED IN ORDER TO CREATE 
ALL OF THOSE IMAGES IS SICKENING AND INTOLERABLE.  
THIS MUST BE STOPPED.
	TODAY WE WILL HEAR FROM SEVERAL PANELS OF WITNESSES WHO WILL HELP 
	US CONFRONT THESE UNSETTLING FACTS AND PROVIDE INFORMATION ABOUT 
	WHAT WE CAN DO ABOUT IT.  I WANT TO THANK ALL OF THE WITNESSES 
	APPEARING BEFORE THE SUBCOMMITTEE TODAY.  WE APPRECIATE YOUR 
	TAKING THE TIME TO SPEAK TO US ABOUT SUCH AN IMPORTANT ISSUE 
	CONCERNING OUR MOST VULNERABLE CITIZENS-OUR CHILDREN.
WE WILL HEAR TODAY FROM MR. JUSTIN BERRY.  MR. BERRY WILL TELL US HIS 
ALARMING STORY ABOUT HOW A 13 YEAR OLD GETS A FREE WEBCAM AND IS  PREYED
UPON AND EXPLOITED BY CHILD PREDATORS.  I BELIEVE MR. BERRY IS EXTREMELY 
BRAVE TO COME FORWARD AND SPEAK PUBLICLY TO THIS SUBCOMMITTEE ABOUT 
MATTERS THAT ARE VERY PERSONAL TO HIM AND PAINFUL FOR HIM TO TALK ABOUT.  
WE APPRECIATE YOUR WILLINGNESS, JUSTIN, TO SHARE YOUR EXPERIENCE WITH 
US-AS WELL AS WITH PARENTS AND KIDS AROUND THE COUNTRY WHO MAY LEARN 
SOME LESSONS FROM YOUR STORY.  
WE WILL ALSO HEAR FROM MR. KURT EICHENWALD, WHO, AS A NEW YORK TIMES 
REPORTER, EXPOSED THIS WORLD THAT CAPTURES CHILDREN LIKE JUSTIN.  
MR. EICHENWALD FEELS SO STRONGLY ABOUT THE DANGERS HE HAS UNCOVERED 
THAT HE HAS TAKEN THE EXTRAORDINARY STEP TO COME TO TESTIFY ABOUT 
HOW READILY AVAILABLE THIS DISGUSTING MATERIAL IS OVER THE INTERNET. 
HE WILL PROVIDE A FIRST HAND ACCOUNT OF HOW THESE PREDATORS LURE 
AND MANIPULATE CHILDREN OVER THE INTERNET.  
IN ADDITION, I WOULD LIKE TO THANK DR. SHARON COOPER, WHO WILL APPEAR 
ON THE FIRST PANEL, FOR ALTERING HER TRAVEL PLANS TO GERMANY IN ORDER 
TO BE ABLE TO TESTIFY TODAY.  I BELIEVE YOUR TESTIMONY WILL BE 
INVALUABLE IN HELPING US UNDERSTAND WHAT HAPPENS TO CHILDREN LIKE 
JUSTIN WHO FALL VICTIM TO THESE PREDATORS AND WHAT THE MODUS OPERANDI 
OF THESE PREDATORS ARE-SO PARENTS AND KIDS CAN KEEP A WATCHFUL EYE.  
TODAY WE WILL ALSO HEAR TESTIMONY FROM MR. ERNIE ALLEN, FROM THE 
NATIONAL CENTER FOR MISSING AND EXPLOITED CHILDREN.  MR. ALLEN AND HIS 
STAFF AT THE CENTER HAVE DONE A PHENOMENAL JOB WORKING TO KEEP OUR 
CHILDREN SAFE.  THE CENTER HAS BEEN ENORMOUSLY HELPFUL TO COMMITTEE 
STAFF ON MANY ISSUES RELATED TO THIS INVESTIGATION AND WE CAN�T THANK 
THEM ENOUGH.  I LOOK FORWARD TO HEARING ABOUT THE CENTER�S ROLE AS A 
CLEARINGHOUSE FOR TIPS REGARDING CHILD PORNOGRAPHY OVER THE INTERNET 
VIA THEIR CYBERTIPLINE -- AS WELL AS FUTURE PLANS THEY HAVE TO HELP 
STEM THE TIDE OF CHILD SEXUAL EXPLOITATION OVER THE INTERNET.
I BELIEVE ONE VALUABLE LESSON THAT CAN COME OUT OF THIS HEARING IS 
THAT PARENTS, KIDS AND OF COURSE MEMBERS OF CONGRESS BECOME WELL VERSED 
IN WHAT THE CYBERTIPLINE IS - AND HOW AND WHEN TO USE IT.  
ON OUR LAST PANEL, I AM VERY GLAD TO HAVE REPRESENTATIVES FROM WIRED 
SAFETY AND I SAFE AMERICA TO TELL US MORE ABOUT HOW THEY PROMOTE SAFETY 
OVER THE INTERNET FOR CHILDREN.  WE ARE ALSO INTERESTED IN HEARING 
FIRST HAND FROM YOUR TEENAGE WITNESSES "A TEEN ANGEL FROM WIRED SAFETY 
AND AN I-MENTOR FROM I SAFE AMERICA" ON HOW THEY COMMUNICATE INTERNET 
SAFETY TO THEIR PEERS.
I MUST NOTE THAT WE ALSO HAVE TODAY A WITNESS WHO WAS SUBPOENED BY THE 
FULL COMMITTEE TO APPEAR TO TESTIFY. HIS NAME IS KEN GOURLAY FROM 
MICHIGAN.  WE WILL HEAR MORE ABOUT WHY MR. GOURLAY IS HERE THROUGH 
JUSTIN�S TESTIMONY.  I HAVE BEEN ADVISED THAT MR. GOURLAY INTENDS TO 
INVOKE HIS FIFTH AMENDMENT PRIVILEGE AGAINST SELF-INCRIMINATION AND 
WILL DECLINE TO ANSWER THE SUBCOMMITTEE�S QUESTIONS.  YET I AM HOPEFUL 
HE WILL DECIDE TO SPEAK, BECAUSE IT IS CRITICAL THAT WE CONFRONT HIS 
EXPLANATION FOR HIS ACTIONS. 
WE HAVE A LOT OF GROUND TO COVER.  LET ME KNOTE THAT, AT THURSDAY�S 
HEARING, WE WILL FOCUS ON THE U.S. LAW ENFORCEMENT EFFORTS DEVOTED TO 
ERADICATING THE SEXUAL EXPLOITATION OF CHILDREN OVER THE INTERNET AND 
LEARN MORE ABOUT THE CHALLENGES FACING OUR LAW ENFORCEMENT EFFORT IN 
THIS AREA.  
I NOW TURN TO THE RANKING MEMBER, MR. STUPAK FOR HIS OPENING STATEMENT.  

	Mr. Whitfield.  I now turn to the Ranking Member of the 
	subcommittee, Mr. Stupak of Michigan, for his opening statement.
	Mr. Stupak.  Thank you, Mr. Chairman and thank you for holding 
	this hearing.
	This investigation is certainly among the most important 
	conducted by the Oversight and Investigations Subcommittee.  I 
	feel most Americans have no idea of the dimension of the 
	problem.  Because of the anonymity provided by the Internet and 
	because of the marketing potential of the Internet, children that 
	are being exploited, manipulated, and violated and whose lives 
	and images of the predatory practice are digitized, displayed, 
	and transmitted instantly around the world in astonishing 
	numbers.
	The statistics as you said, Mr. Chairman, are shocking.  One in 
	five children report receiving a sexual solicitation over the 
	Internet.  Today there are over 3.5 pornographic images of 
	American children in circulation on the Internet.  The sale of 
	these images over the Internet brought in $20 billion to 
	traffickers in 2004.  To compare, music sales over the same 
	period were just $3 billion.  This $20 billion was spent to 
	view photographs and videos of children being raped and 
	tortured.  Since 2004, the child exploitation industry has only
	grown.  The images have become more graphic as video capabilities 
	have expanded and the content of those videos have become more 
	heinous.
	Who are these children that are solicited and abused?  It is the 
	little children who make up the vast majority of the victims of 
	child pornography.  Over 90 percent of arrested children 
	pornographers possess images of children under age 12.  Forty 
	percent have pictures or videos of children under the age of 
	six, and almost 20 percent possess images of children less than 
	three years of age.  A couple of weeks ago, the Attorney General 
	announced a Customs bust that involved among other crimes the 
	portrayal of a rape of an 18 month old girl.
	Who produced this most sickening material?  The National Center 
	for Missing and Exploited Children will tell us that 80 percent 
	of all child pornography is produced by parents, other 
	relatives, or family members.  Every American parent should 
	know what we will hear today.  Parents need to learn and teach 
	their children tools to protect themselves against these 
	predators. Hopefully, today�s hearing will reduce the 
	unmonitored use of web cameras, picture phones, and other 
	equipment that enable these people to prey on and abuse our 
	children.
	Today we will also hear the tragic story of Justin Berry.  It 
	is a story of the seduction and sexual abuse of a 13-year-old 
	boy who was led on a pornographic exploitation, multiple 
	molestations, and drug use, all of which were a constant 
	reality in his life for 5 years.  We will learn how adults, as 
	well as Justin himself made money from Justin�s online 
	performances.  One of the accused molesters is under subpoena to 
	appear before us today and he will I understand he will evoke 
	his Fifth Amendment right not to testify.  Justin Berry could 
	have a very different life had there been no Internet connection 
	in his room.  The chat rooms which are a magnet where these 
	twisted minds can congregate and exploit our children. 
	Unfortunately, just as the Internet has changed just about every 
	aspect of our lives, it has also virtually eliminated the 
	barriers that once discouraged child pornography.
	The National Center for Missing and Exploited Children and similar 
	crime operations at the International Customs Enforcement and the 
	FBI do wonderful work with a handful of agents and tech 
	specialists.  We will hear about their efforts at a hearing we 
	have scheduled for Thursday.  Still our law enforcement can do 
	better.  Justin believes that there has been an ineffective 
	response by the Justice Department to prosecute the persons who 
	paid to watch his websites.  Questions have been raised about 
	the low number of prosecutions in the United States.  For 
	example, in one of the larger busts involving effective work 
	for law enforcement in the U.S., Australia, and other 
	countries, there is confirmed information that 21,000 Americans 
	had paid to subscribe to websites that saved images of the 
	sexual exploitation of children.  Nine hundred Australians were 
	similarly identified.  As of the end of this past year, some 338 
	convictions have been obtained in the U.S. while some 500 
	arrests or convictions or expected convictions have been made in 
	Australia, a country with a legal system as protective of 
	individual rights as ours.  I want to know why we conduct less 
	than 2 percent of these voyeurs of child sexual violence while 
	the Australian authorities can put away 55 percent.  What I do 
	know is that the lack of prosecution threatens all of our children 
	to have over 20,000 of these criminals walking free amongst us 
	with the knowledge that even when police identify them they are 
	unlikely to be prosecuted only encourages further actions of 
	exploitation.
	I also know that as we reorganize our telecom industry which 
	transmits images and messages so efficiently over the Internet, 
	we should also hold those that make billions of dollars from the 
	data of image transmission accountable to eliminate those images 
	of sexually violated children; take the profit and communications 
	away and the problem will shrink proportionately.  
	The bottom line is that the darkest side of the Internet can 
	invade any American home.  Given the shortage of resources for 
	law enforcement to adequately protect our children and the lack 
	of will by Internet providers to police themselves, parents and 
	children must be vigilant.  
	With that, Mr. Chairman, I would yield back the balance of my 
	time.
	Mr. Whitfield.  Thank you, Mr. Stupak.
	At this time, I recognize the Chairman of the Full Committee, 
	Mr. Barton of Texas, for his opening statement.
	Chairman Barton.  Thank you, Chairman Whitfield, for holding 
	this hearing.
	I have three grown children, two teenage stepchildren, three 
	grandchildren, and an infant son who is seven months old.  Of 
	all the hearings that we have done in all the years that I have 
	been on this committee and this subcommittee, which is over 
	20 years, I have never been more revolted in preparing for a 
	hearing than in reading the materials I have had to read for 
	this one.  My mind simply cannot conceive of a parent 
	exploiting their own children for profit for sexual purposes 
	and I cannot conceive of anyone in this universe wanting to 
	perform, or watch performed, sexual acts on an infant.  I 
	simply cannot comprehend that.  Yet that is what we are here 
	today to investigate.  
	Child pornography is apparently a multi-billion--my staff 
	analysis says $20 billion a year business.  In spite of all 
	the rhetoric, I will not say we are doing nothing, as that is 
	not fair to our law enforcement agencies and all the groups 
	here that are trying to help, but we are doing very little to 
	counteract it and everyone agrees that it is a growing problem. 
	What kind of society do we have if we cannot protect infants 
	from sexual exploitation?  One of the agency�s material shows 
	that almost half of the incidents of sexual exploitation of 
	children are by family members.  What kind of family is that?  
	I just cannot understand it.	So, I believe this is one that 
	you can expect the subcommittee and the full committee, if we 
	need to, to do everything possible, and I mean everything.  Not 
	just hold hearings, but if we need legislation, if we need to 
	go to our Federal law enforcement agencies that have tended to 
	not treat this as seriously as they should; whatever we need to 
	do on a bipartisan basis, we are going to do.  I think I am a 
	tolerant person and I am appalled, I mean absolutely appalled 
	at what is happening on the Internet with regards to sexual 
	exploitation of the children of the United States, and the 
	children of the world.
	So I am very appreciative of the staff�s work on both sides of 
	the aisle, and very appreciative of Mr. Stupak and 
	Mr. Whitfield�s personal involvement.  I am very, very 
	supportive of doing whatever we can to really turn the tide on 
	this. 
	And with that, Mr. Chairman, I ask that my formal statement be 
	considered in the record and I yield back.
	[The prepared statement of Hon. Joe Barton follows:]

Prepared Statement of the Hon. Joe Barton, Chairman, Committee on Energy 
and Commerce

Thank you, Chairman Whitfield for holding this hearing on the sexual 
exploitation of children over the Internet.  As Justice Brandeis wrote,
"sunlight is said to be the best disinfectant." If there was ever a 
case for sunlight and disinfecting, it is the toxic world of online 
child pornography.
Child porn is a $20 billion a year business, and it is growing daily on 
the Internet.  The more you know about it, the more revolted you become.  
There are accounts of children "some as young as eighteen months old" 
being raped on camera for profit.  Less than a month ago, based on an 
investigation by agents from United States Immigration and Custom 
Enforcement and international law enforcement, 27 people in the United 
States and abroad were charged with trafficking in pornography.  Among 
their alleged crimes were the production of live, pay-per-view
molestations of children which were carried over the Internet by 
streaming video.  
These are actions so repugnant that they are difficult for the mind to 
even acknowledge, much less grasp and consider.   
With the ability to post and trade images anonymously over the Internet,
current estimates indicate that there are three million images of child 
pornography on the Internet today.  While law enforcement is working 
to tackle this epidemic of abuse, their resources are taxed as an 
endless supply of child pornography is pumped into the Internet by 
individuals around the globe.
No one wants to believe that predator�s abuse and torture children and 
sell or swap the pictures of that abuse.  We do not like to think that 
even though our children have been warned by about strangers, children 
are still logging onto the Internet and meeting strangers child 
predators and pedophiles.  But according to one estimate, one in five 
children report that they have received a sexual solicitation over the 
Internet.
It is because this problem is so horrific that we need to know more 
about it.  Our nation�s parents, children, and educators need to know 
exactly what dangers are lurking on the Internet.  They need to 
appreciate how serious this problem is so that they can prepare their 
children for what "or who" is waiting for them online.     
One of our witnesses today, Justin Berry, will speak personally to the 
horrors of child sexual exploitation on the Internet and its impact on 
its victims.  Justin�s life is a terrible lesson to every parent and 
child in America.  It began when Justin went online to meet and 
communicate with other children his age.  Instead, he was greeted 
almost immediately by child predators who, by pretending to be his 
friends, convinced him to engage in sexual acts.  First it was through 
a webcam, and then it was in person.  Again, at the encouragement of 
these predators, Justin turned these performances into an online 
pornography business.  Justin, I want to thank you for appearing here 
today to tell your story.  I know it must be painful to talk about 
your involvement in the pornography industry and the abuse you 
suffered.  I hope that your story might prevent others from following 
your path or convince a victim to seek help. 
With Justin today is New York Times Reporter Kurt Eichenwald, who, 
when researching an story on cyber fraud, found Justin�s websites and 
eventually persuaded Justin to seek help.  Justin credits Mr. Eichenwald 
as being the person who rescued him from the world of child pornography.
Today�s testimony will shine a bright light on a business that has 
flourished in the dark corners of the Internet.  I hope that what the 
public learns today will help children to recognize a child predator if 
they meet one online.  Finally, by speaking frankly about the impact of 
child pornography on its victims, this hearing will make plain that 
parents, educators, law enforcement, and lawmakers must make every 
effort to protect our children and put an end to an industry that 
profits from the abuse and degradation of children.
I look forward to hearing from the witnesses and yield back the balance 
of my time.

	Mr. Whitfield.  Thank you very much, Mr. Chairman.  We 
	appreciate your being here and the leadership you continue to 
	provide on this issue and all of the opening statements will 
	be a part of the record without objection.
	At this time, I would recognize Dr. Burgess for his opening 
	statement.
	Mr. Burgess.  Thank you, Mr. Chairman.  I too will thank you and 
	Chairman Barton for having this hearing.  I will submit my 
	formal remarks for the record.
	I do not know that I have much to add to what has already been 
	spoken, but a newspaper, not from my district but from a county 
	just west of my district, Wise County, the Wise County 
	Messenger, has in its March 26 edition a story about yet another
	case, a brother and sister linked in a child porn case and 
	apparently the data is in the process of being collected by the 
	Forth Worth Branch that investigates this type of crime.  It 
	just underscores how it is pervasive in every community.  This 
	is a very rural area that is being described here in this 
	newspaper article and it is as Chairman Barton points out just 
	absolutely unconscionable that this activity is taking place 
	literally right within our own communities.  
	And I also want to thank Mr. Chairman for bringing to light some 
	of the tools that are available for parents who do want to be 
	proactive and protect their children and I think that is an 
	invaluable part of the hearing and this service that we provide 
	today.
	So with that, I will yield back.  Thank you, Mr. Chairman.
	Mr. Whitfield.  Thank you, Dr. Burgess.
	At this time, I recognize Mr. Walden for his opening statement.
	Mr. Walden.  Thank you very much, Mr. Chairman.
	I concur with the comments of my colleagues about how disturbing 
	this information is and about what is going on the Internet.  As 
	a father of a 15-year-old, soon to be 16, I think I share the 
	concern that most parents across America indeed the world 
	probably have about how awful this is.  And I appreciate, 
	Justin, your being here today and coming forward not only 
	before this committee but also for your diligence in trying to 
	work with the Department of Justice and all the frustration that 
	you expressed in your testimony in that process.  And I think 
	for me as a member of this committee, how important it is to 
	get this information on our record.  I want to know what is 
	going on at the Child Exploitation and Obscenity Section.  And 
	why they conducted themselves the way they did as certainly it 
	has been alleged in your testimony and that of others.
	I was just reading some remarks that Mr. Eichenwald gave at 
	Marquette University just a few days ago and his detailed 
	description about COS handled this case is extraordinarily 
	disturbing.  And for me as a member of this oversight committee, 
	as Vice Chairman, I am going to be asking some tough questions 
	later in the week when we have the Justice Department here.  
	It strikes me as absolutely perverse in the justice system that 
	in effect the victim who comes forward to not only identify a 
	problem but help round up those who are perpetrating this 
	disgusting and terrible crime against humanity that somehow the
	victim is treated as the perpetrator and the fact that there 
	are lots of other kids out there you are trying to save from 
	this problem on the Internet.  They seem to be lost in time.  
	And for me COS has a lot of explaining to do and our Department
	of Justice has a lot of explaining to do.  
	And I again, appreciate your courage in coming forward along 
	with the others and Dr. Cooper, thank you for rearranging your 
	schedule to be here, we are really looking forward to your 
	comments.
	Thank you, Mr. Chairman.
	Mr. Whitfield.  Mr. Walden, I am delighted that you focused your 
	opening statement on that point because all of us are a little 
	bit puzzled by what is going on over at the Child Exploitive and 
	Obscenity Section of the Justice Department.  That is something 
	that we hope to get into today and certainly on Thursday as well.
	At this time, I recognize the gentlelady from Tennessee, 
	Mrs. Blackburn, for her opening statement.
	Mrs. Blackburn.  Thank you, Mr. Chairman.
	I also want to join my colleagues in thanking you for holding the 
	hearing today.  I want to thank our witnesses also for making the 
	effort to be here.  And I also want to thank our staffs and the 
	committee staff for their diligence and their work on this issue.  
	This is not an easy issue and it is a very unpleasant issue 
	digging through, reading the material, and we thank you all for 
	your cooperation in submitting that.
	Online child pornography is something that is increasingly used 
	as an avenue by those that are child predators and that seek to 
	do our children harm and exploit innocent, precious, precious 
	children.  Just the fact that there are millions of images that 
	are transmitted daily, videos that are transmitted daily, on 
	these acts that are being done to these children and transmitted 
	over the Internet.  And as our Chairman said, the fee for that 
	is a $20 billion a year industry.  That is sickening to my soul,
	absolutely sickening.  And parents and children do need to be
	aware of the dangers that exist on the Internet and they do need 
	to be aware of the mechanisms that they can use to report these 
	instances where adults may be trying to seduce children and to
	move these precious vulnerable children into dangerous 
	situations.
	And I do hope, Mr. Chairman, that we are able to correct some of 
	the problems and look at some of the avenues of getting 
	information to parents.  Law enforcement also has got to be 
	diligent and they have got to be prepared to shut down this 
	despicable industry because there is no justifiable reason for 
	this repulsive action of child pornography.  It is horrible.  It 
	is a detestable mark on our society.  And it is with sadness that
	we have to admit there are such sick and revolting people that 
	walk on the face of this earth that they would want to watch, to 
	copy, and to sell this type information to others.
	I am looking forward to what we are going to hear today.  Again,
	I thank you all for taking your time to be here and to work with 
	us and work with families to be certain that law enforcement and 
	us, each of us that we are doing what we need to do to address 
	the issue.
	Thank you, Mr. Chairman.  I yield back.
	Mr. Whitfield.  Thank you, Mrs. Blackburn.
	At this time, I recognize the gentleman from New Jersey,
	Mr. Ferguson.
	Mr. Ferguson.  Thank you, Mr. Chairman.
	I want to echo your comments and that of Mr. Stupak and our other
	colleagues up here.  I particularly want to echo the comments of 
	Chairman Barton in his expressions just of being mystified and 
	revolted in our preparation for this hearing.
	The questions that many of us ask and all of us probably ask of 
	ourselves is what does it say about those who have been involved 
	in this--as we are hearing this morning--industry?  What does it 
	say about those who would exploit children, young kids for these 
	purposes?  And I have, my wife and I are blessed to have four 
	little ones in our house.  But I think that an important question 
	would be to ask ourselves this morning is what does it say about 
	us in this Congress if we do not act, if we do not conduct these 
	hearings, if we do not take our responsibility seriously to 
	ensure that these types of exploitations and problems and 
	challenges do not happen again?  It is our responsibility, 
	certainly part of our responsibility to act.  
	I also want to thank our witnesses for being here today.  
	Justin, in particular, I appreciate you being here today.  I 
	applaud the courage of those who are coming forth to educate 
	members of this subcommittee about this topic.  It is not an 
	easy topic to deal with, it is graphic and it is gruesome, and 
	more often than not it is hard to hear about, but it is a topic 
	that cannot be ignored.  Last year in New Jersey, in my home 
	State, police arrested 39 people across the State in connection 
	with a child Internet pornography ring that in one of the more 
	horrifying videos depicted the rape of a 5-year-old girl.  
	Today�s technology holds tremendous potential to enhance our 
	lives; however, this advancement of technology is opening the 
	door to a whole new generation of criminals, the child predator 
	who takes advantage of children in the worst way by using this 
	technology to prey upon children in the safety and the confines of 
	their own home.  There is no question in anybody�s mind that we 
	must pay serious attention to this horrific industry and take 
	steps to stop it.  We must let the children and the parents of 
	this country know that we will not allow this practice to 
	continue.  We will not allow them to be exploited or harmed or 
	taken advantage of.  People who are engaging in this type of 
	activity must face serious consequences and it is our 
	responsibility, as I said earlier, to let our children know that 
	we will protect them at all costs.  And I think of our formative 
	ones in our house and am well aware of the dangers facing them 
	and all of our children in the world today.  It is the 
	responsibility of parents to stop at nothing to protect our 
	children from those who prey upon their innocence by taking 
	advantage of them in ways that frankly many of us thought was 
	simply unimaginable.
	Luckily, this industry is beginning to be brought into the 
	limelight.  There are now groups and law enforcement 
	organizations that have made finding and punishing these
	criminals a priority, but they cannot do it alone.  We must 
	give them the tools to find these predators and bring them 
	to justice and we must let our children know that they are
	not alone.  Organizations like i-SAFE have made it their 
	mission to educate children about how to use the Internet 
	safely and what warning signs to look out for.  This group 
	has educated over 43,000 students on Internet safety and 
	implemented 20 parent education organizations in New Jersey 
	alone.  I commend them for their programs and I sincerely 
	hope that they and others continue this type of activity in 
	the future.  
	I hope that this hearing serves to draw further attention to 
	this terrible industry and I would like to thank you, 
	Mr. Chairman and Mr. Stupak, for holding this hearing and I 
	look forward to hearing from our witnesses both today and 
	later in this week.
	I yield back.
	Mr. Whitfield.  Thank you very much, Mr. Ferguson.
	I guess that concludes the opening statements.  
	Mr. Stupak.  Mr. Chairman, if I may?
	Mr. Whitfield.  Yes, sir.
	Mr. Stupak.  Mr. Chairman, I would like to submit the statement
	of the Honorable John Dingell, the Ranking Member of the 
	Energy and Commerce Committee, his opening statement for the
	record, please.
Mr. Whitfield.  Without objection, so ordered.
[The prepared statement of Hon. John D. Dingell follows:]

Prepared Statement of the Hon. John D. Dingell, a Representative in 
Congress from the State of Michigan

Mr. Chairman, thank you for opening this important investigation and 
convening the first hearing today. This hearing will examine one of 
the most disturbing topics affecting the safety and health of our 
youngest citizenry. Those who have found the Internet a most expedient 
venue for peddling the worse kind of smut, not only profit from some of 
the most heinous crimes imaginable, but also encourage its creation 
around the world. 
Let us be clear about this. This is not about pornographic images of 
adults. What we are investigating today is the purveyance of live and 
videotaped broadcasts, as well as photographs, of sexual and other 
physical assaults on children -- many prepubescent but some as young 
as toddlers and infants -- for the purpose of producing images for 
sale or trade over the Internet. The Internet has regrettably provided 
the medium for the exponential growth in these deplorable crimes. 
The uses of the Internet by tech-savvy pedophiles are many. Among 
their most common uses are pay-to-view Web sites and peer-to-peer chat 
rooms. Some of these chat rooms provide opportunity to trade images. 
Unfortunately, the price of admission is often new material; hence, the
ease of contact via the Internet has contributed to the incentives and 
growth of the horrendous abuse endured by these young victims, usually 
within their own home. 
Other chat rooms contain the candid thoughts of millions of adolescent
and even preteen subscribers. Molesters, often initially posing as an
adolescent themselves, use these chat rooms to seduce unsuspecting 
children into meetings for their heinous pleasure and/or profit. 
I suspect we will learn more about the ways and means of the Intern
et perverts today and at future hearings. What is certain is that this
global problem has deep and dirty tentacles right here in the United 
States. 
Taking away the profit and anonymity from these criminals may not put 
an end to these crimes. Reducing the convenience and incentives for 
the depraved individuals who use the Internet for such activities, 
however, will be an important start. As this Committee works on 
increasing broadband competition and Internet use across the country,
we must also work toward eliminating the scourge of child pornography
from the Internet. 

	Mr. Stupak.  Thank you.
	Mr. Whitfield.  Thank you.  
	At this time, we will call our fist witness, Dr. Sharon Cooper. 
	And as I had mentioned in my opening statement, Dr. Cooper was
	scheduled to be in Germany today and postponed that trip, so
	we generally appreciate that, Dr. Cooper, and if you would
	come forward and sit here in the center would be great.  Now, 
	Dr. Cooper is not only a physician, but she is involved in 
	forensic pediatrics.  As I said, she is the head of the 
	Development and Forensic Pediatrics, I guess within the 
	Department of Pediatrics at the University of North Carolina at 
	Chapel Hill.  We welcome you today and we look forward to your 
	testimony.  As you may understand, this is a hearing of the 
	Oversight and Investigations Subcommittee and we generally take 
	testimony under oath.  I would ask you; do you have any 
	objection to testifying under oath today?
	Dr. Cooper.  No, I do not.
	Mr. Whitfield.  The rules of the House and rules of the
	committee, you are entitled to be advised by counsel about your
	constitutional rights.  Do you desire to be advised by legal 
	counsel today?
	Dr. Cooper.  No, I do not.
	[Witness sworn]
	Mr. Whitfield.  Thank you, Dr. Cooper, you are now sworn in and
	you will be recognized for five minutes for your opening 
	statement.

TESTIMONY OF SHARON W. COOPER, M.D., FAAP, DEVELOPMENTAL AND FORENSIC 
PEDIATRICS, PA, DEPARTMENT OF PEDIATRICS, UNIVERSITY OF NORTH CAROLINA 
CHAPEL HILL

	Dr. Cooper.  Thank you, sir.
	My name is Sharon Cooper and I am an Adjunct Professor of 
	Pediatrics at the University of North Carolina at Chapel Hill.  I 
	have worked as a pediatrician for 30 years and in the area of 
	forensic pediatrics since 1980.  As a doctor who works with 
	maltreated children, a forensic pediatrician has advanced 
	understanding of the nexus of medicine and the law and focuses on
	assuring that children will have the correct diagnosis if they 
	are victims of child maltreatment.
	Serving as a multidisciplinary child abuse team member for 
	27 years, I have examined thousands of children who have been 
	the victims of child sexual abuse, as well as other forms of
	child maltreatment.  I have lectured throughout the United 
	States and internationally providing more than 200 trainings in 
	the areas of child sexual exploitation, physical abuse, child
	neglect, and child homicide.  I spent 21 years as an active 
	duty Army officer providing general pediatric developmental and 
	behavioral pediatric, and forensic pediatric care for members 
	of the armed services.  I continue as an instructor for the 
	Department of the Army Medical Education Center and School at
	Fort Sam Houston, Texas, which provides the multidisciplinary 
	training to family advocacy program members in branches of the 
	services.  
	Since my retirement from the Army, with the rank of colonel 
	9 years ago, I focused my area of expertise on child sexual 
	exploitation, child and youth development, behavior, and all 
	aspects of child maltreatment.  I have been an instructor for 
	the National Center for Missing and Exploited Children in 
	Alexandria, Virginia for nearly 6 years and have been provided
	training on victim impact on children depicted in child sexual
	abuse images and exploited through prostitution.  In addition, 
	I teach prosecutors, law enforcement officers, judges, and 
	healthcare providers on how to medically analyze these 
	pornography images and facilitate the evaluations of such 
	images with the children�s agents.  I have worked with the 
	Child Victim Identification Program and the National Center.
	I have taught at the International Center for Missing and
	Exploited Children and the Microsoft Corporation providing 
	similar training to law enforcement officers in the U.S., 
	Canada, Europe, Russia, Southeast Asia, and the Middle 
	East.  
	As a forensic pediatrician, I have also provided medical 
	care directly to children who have been sexually abused 
	and pornographically photographed or videotaped.  These 
	clinical evaluations have included family and investigator
	interviews, review of the pornographic images, victim 
	medical interviews, full medical examination, and case 
	conferences.  I have also evaluated children who have been 
	exploited through prostitution both from within their 
	families, as well as by acquaintances and intimate 
	partners.
	In addition to having to evaluate children and youth 
	victimized in this manner, I have also analyzed thousands 
	of images of child pornography.  These images were stored
	as computer files, videotapes, DVDs, Polaroid�s, and other 
	images.
	Child sexual exploitation is the most underreported form of 
	child abuse.  Child pornography on the Internet, in 
	particular, has untold impact upon victims.  The possession
	and distribution of these images which are in fact digital 
	crime scenes, promote the need for more and more plentiful 
	and more graphic images.  The two most commonly cited 
	reasons that individuals collect these images are for sexual
	gratification through masturbation and as a plan for action. 
	Many criminology studies have been done to show the 
	motivation of individuals who would collect these images and
	this research has revealed that there is a one and three 
	chance to as high as three out of four chances that an 
	individual with such images has already sexually abused a
	child.
	Child pornography constitutes insult to injury to a victim.  
	The injury is child sexual abuse.  The insult is the 
	memorialization of that child sexual abuse from time 
	untold.  It is very important for us to recognize that child
	pornography is a phenomenon which we must pay close 
	attention to and seek to eradicate.
	I am very pleased to be here before the committee today and 
	look forward to answering any questions that you may have.
	[The prepared statement of Sharon W. Cooper, M.D., 
	follows:]

Prepared Statement of Sharon W. Cooper, M.D., FAAP, Developmental 
and Forensic Pediatrics, PA, Department of Pediatrics, University 
of North Carolina Chapel Hill

SUMMARY

Child sexual exploitation is the most underreported form of child 
abuse today.  Boosted by the Internet, these sexual abuse images
constitute a digital crime scene, and a significant percent of
such images online are of children less than 5 years of age. 
Driven by a offender pool which has anywhere from a one in three 
chance to a three out of four chance of having already sexually 
abused a minor, the supply and demand for this multibillion dollar 
industry continues to grow.  Initially, the National Center and 
Missing and Exploited Children� monitored a database of 100,000 
images.  Today, this number of images has ballooned to more than 
3 million.  Children are often sexually abused and pornographically
photographed by family members and familiar acquaintances.  
The presence of extremely graphic sadistic images of very young 
toddlers reinforces the skill of offenders who choose the most
vulnerable of victims who are not only often preverbal, but who are
also most likely to have trouble qualifying as a competent witness
at a criminal trial.
The link of pornography to the other four types of sexual 
exploitation:  prostitution of children and youths, cyber-enticement,
child sex tourism and human trafficking is well described.  
Professionals in the child abuse multidisciplinary teams must work 
ardently to become educated regarding this form of abuse. 
Recognizing the impact of child sexual abuse images on the Internet
and predator dynamics is essential to reversing this exploding and
extremely dangerous crime in America today.

My name is Sharon Cooper and I am an adjunct professor of Pediatrics 
at the University of North Carolina at Chapel Hill, School of 
Medicine.  I have worked as a Pediatrician for 30 years and in the 
area of Forensic Pediatrics since 1980.  As a doctor who works with
maltreated children, a Forensic Pediatrician has an advanced 
understanding of the nexus of medicine and the law, and focuses on 
assuring that children will be correctly diagnosed as victims of
child maltreatment when that diagnosis is considered.  Serving as 
a multidisciplinary child abuse team member for 27 years, I have 
examined thousands of children who have been the victims of child 
sexual abuse as well as other forms of child maltreatment.  I have 
lectured throughout the United States and internationally, providing
more than 200 trainings in the areas of child sexual exploitation, 
child sexual abuse, physical abuse, neglect and child homicide.  I
spent 21 years as an active duty Army officer providing general 
Pediatric, Developmental and Behavioral Pediatric and Forensic
Pediatric care for children of members of all branches of the armed 
forces.  I continue as an instructor for the Army Medical Education
Department Center and School at Fort Sam Houston, Texas which 
provides multidisciplinary team training to Family Advocacy Program
members in all branches of the services.  Since my retirement with
the rank of colonel from the United States Army 9 years ago, I have
focused my areas of expertise on child sexual exploitation, child 
and youth development and behavior, and all aspects of child 
maltreatment.  I have been an instructor at the National Center for 
Missing and Exploited Children in Alexandria, Virginia for nearly 
six years, and have provided training on the victim impact on 
children depicted in child sexual abuse images and exploited through
prostitution.  In addition, I teach prosecutors, law enforcement 
officers, judges and health care providers how to medically analyze 
child pornography images.  I have provided even more in depth 
training regarding the determination of probable victim ages to the
analysts of the Child Victim Identification Program of the National 
Center for Missing and Exploited Children as well as similar 
professionals of the Canadian Cybertipline.  Working with the 
International Center for Missing and Exploited Children and the 
Microsoft Corporation, I have provided similar training to law 
enforcement officers in the US, Canada, Europe, Russia, Southeast 
Asia and the Middle East.  

As a Forensic Pediatrician I have provided direct patient care to 
several children who have been sexually abused and pornographically 
photographed or videotaped.  These clinical evaluations have included 
family and investigator interviews, review of the pornographic images, 
victim medical interviews, behavioral analyses, and full medical 
examinations as well as case conferences after the medical assessment. 
I have also evaluated children who have been exploited through 
prostitution both from within their families as well as by acquaintances 
and intimate partners.  In addition to having evaluated children and 
youths victimized in this manner, I have also analyzed thousands of 
images of child pornography.  These images were stored as computer
files, videotapes, DVDs, Polaroid pictures, and published images in 
trade magazines.  The overwhelming majority of this contraband was 
computer stored images and videotapes, confiscated during 
investigations by Internet Crimes against Children (ICAC) teams and 
almost all federal criminal investigative agencies.  I have published 
in this area to include an article with Attorney Damon King of the 
Child Sexual Exploitation and Obscenity Section. of the Department of 
Justice.  I have served as an expert witness in family court and 
criminal prosecutions involving child pornography in state, federal 
and court martial proceedings.  


I have recently completed a textbook on the subject of child sexual 
exploitation in 2005 which has been endorsed by the National District 
Attorney�s Association.  The text, entitled Medical, Legal, and Social 
Science Aspects of Child Sexual Exploitation: A Comprehensive Review 
of Pornography, Prostitution, and Internet Crimes has four other
co-authors:  Richard Estes, DSW, ACSW, Angelo P. Giardino, MD, PhD, 
FAAP, Nancy D. Kellogg, MD, and Victor I. Vieth, JD.  This compendiu
of nearly 60 contributors from 8 different countries provides a 
thorough background of the five types of child sexual exploitation:  
child pornography, prostitution of children and youths, 
cyber-enticement, child sex tourism, and the human trafficking of 
children and youths, both domestically and internationally.  The text 
has a supplemental CD-ROM which includes further information in this 
area with case reports, training modules, selected readings and in 
particular an emphasis on the medical care of victims of these forms 
of child abuse.

Child sexual exploitation is cited to be the most underreported form
of child abuse.  Child pornography on the Internet in particular has 
as yet untold impact upon victims.  The possession and distribution 
of these images, which are in fact, digital crime scenes, promotes a
need for newer, more plentiful and more graphic images.  The two most 
commonly cited reasons that individuals collect these images are for 
sexual gratification through masturbation and as a plan for action.  
Criminology studies to date from the US Postal Inspection Service, 
the Toronto Child Sexual Exploitation Unit and the Federal Bureau of
Prisons here in the US reveal that those who possess these images 
have a 1 in 3 chance to as high as 3 out of 4 chance of having 
already sexually abused a child.  Further research from the National 
Juvenile Online Victimization (N-JOV) Study (Wolak, Mitchell & 
Finkelhor, 2003) has revealed that from 2000-2001, offenders
primarily collected child pornography of children between the ages of
6 and 12 years.  It is important to know, though those offenders are
often diverse in the content of their child pornography collections 
and during that same period, nearly 50% of collected images were of 
children less than 5 years old.  Such young victims are prime targets 
for sex offenders because of their preverbal nature and the fact that 
they often unable to be made competent on a witness stand in criminal 
proceedings.  

Child pornography constitutes insult to injury for a victim:  the 
injury is child sexual abuse in all of its methods of victimization. 
The insult is the memorialization of that exploitation for an untold 
amount of time.  Many of the images which I see on a regular basis 
show severe vaginal and anal assault against toddlers, bondage of 
these children with gags in their mouths, ligatures around their 
necks, and on occasion, physical beatings in conjunction with video
clips of brutal oral, vaginal and anal penetration.  In addition, 
recent research has shown that 88% of girls who have been sexually
abused do not make a disclosure during childhood (Hansen, 1999).  
Numerous case examples of victims of child sexual abuse and 
pornography production, denial of the existence of photos or 
videotapes etc. is also very common, even though children do 
acknowledge the sexual abuse.  Training for interviewing and 
treating such children and youths as well as those who have been
groomed into compliant victimization is both essential and an 
immediate priority.  Programs such as Finding Words and other
forensic interviewing curricula must include the evaluation of 
these types of victims.  

It is very important to understand that child pornography is a 
common thread in all forms of child sexual exploitation: 
prostituted children and youths, cyber-enticement, child sex 
tourism and human trafficking of children.  The bottom line is 
that children have become a commodity for a practice that seeks 
to normalize sexual harm.  Preferential sex offenders who produce 
these images have been reported to be responding to special 
requests from like minded online offenders, or strictly as a means 
of financial gain.  Infant and toddler sexual abuse is a frightening 
and sobering reality particularly in light of the National Institute
of Justice report in 1994 which cited that victims of child sexual 
abuse were twenty-eight times more likely to be arrested in their 
lives for prostitution, than children who had never been sexually 
abused.  Recent high profile multiple victim and multiple offender 
sex rings have alerted those of us who work in this area to the fact 
that immense technology exists in support of these types of heinous 
crimes against our most important national treasure, our country�s 
future, our children.  I urge you to read the attached document, "Unto 
the Third Generation" written by one of our co-authors, Attorney Victor 
Vieth, Director of the American Prosecutor�s Research Institute�s 
National Child Protection Training Center.  I look forward to providing 
whatever information that I can to the members of this committee and 
express my appreciation for the opportunity to answer any of your 
questions.  

	Mr. Whitfield.  Dr. Cooper, thank you.  Thanks so much for your 
	testimony.
	Did you read the December 19, 2005 story in the New York Times 
	about Justin Berry?
	Dr. Cooper.  Yes, I did.
	Mr. Whitfield.  Well, could you explain how an online predator 
	is able to actually convince a child to do some of the things 
	that Justin did, like perform sexual acts on a webcam for money?  
	How can they actually do that?
	Dr. Cooper.  I think that the important phenomenon for us to 
	understand is that online predators befriend adolescents.  They 
	become closer to them than many times their family members are.  
	They are frequently in touch with them several times a day.  In 
	addition to giving them numerous awards and rewards for their
	discussion online, they become their closest friends.  And 
	because of that, and because of the adolescent�s mind which is 
	very much in the sexually explorative phase in child 
	development, it is not unusual for sexual exploration to be part 
	of that relationship.  So we find that many adolescents who 
	become exhibitionistic on the Internet are doing so partly 
	because of sexual exploration and sexual development, and also 
	because of a normalization of sexual harm that is very prevalent 
	in our society today.  Sexualized images are everywhere to be 
	found on the television, in their music, in music videos, in 
	magazines, it is very, very common and so consequently it is
	easy for me to understand how an adolescent who is reaching out
	for some type of companionship online could fall prey and become
	a compliant victim.
	Mr. Whitfield.  So these so-called predators, they actually form 
	a close friendship with the child by way of the Internet 
	initially and then maybe start talking to them on the phone or 
	meet them somewhere.
	Dr. Cooper.  That is correct, sir.  I have taken care of several
	adolescent victims who have had their first relationships via an 
	online partnership.  And first of all, it is odd that we would 
	think this is hard for teenagers because adults do the same 
	thing.  We have lots of online dating today.  Lots of Internet 
	chat rooms between adults and kids are very much the same way. 
	I think what is more important is that predators recognize the 
	vulnerability of children and they frequently will be there at 
	all times of the night, frequently contacting the children after 
	their parents have gone to bed, giving them cell phones so that 
	they can have direct contact and the parents will not know. And 
	this secrecy, as well as attention that is provided to teenagers 
	is very, very convincing to young children.
	Mr. Whitfield.  Now, we all know what the word predator means, 
	but looking at that term as it relates to sexual exploitation of 
	children on the Internet, how would you actually define the term 
	predator?
	Dr. Cooper.  I would say that a person who is a predator on the 
	Internet is a person who commodifies children.  They do not see 
	children as beings, but as a commodity and what purpose and 
	function do they serve for that person�s sexual gratification or 
	monetary benefits.  So they are a predator from the standpoint of 
	certainly presenting themselves as harmful to a child, but the
	most important thing is that they will look upon this child as a 
	checkmark if you will among the whole group of children that they
	are seeking to exploit in this manner.
	Mr. Whitfield.  And so it starts out as a friendship that 
	eventually ends up with the predator providing gifts and/or money 
	or some other inducement.  Is that correct?
	Dr. Cooper.  That is correct.
	Mr. Whitfield.  Now, could you explain from your professional 
	experience how say Justin�s experiences, what kind of impact does 
	that have on a child over time?
	Dr. Cooper.  If I were to use an example such as the case of 
	Mr. Berry, I would have to say that this is a life changing event. 
	Child sexual abuse in and of itself is the beginning of this 
	process for him.  And much of the research tells us that 86 percent 
	of children who are sexually abused, whether that occurs in early 
	childhood or in adolescent years, will have long-term 
	consequences.  Typically the most common problems that we will
	see are going to be depression, anxiety, and post-traumatic 
	stress disorder.  But we also think that kids who are exploited 
	online have an additional phenomenon and that is the paranoia 
	that other people will be able to know what has happened to them 
	and the fact that other people may discover those images at any
	time in the future.  This causes a degree of computer absorption,
	a paranoia regarding peer groups that children who have been 
	sexually abused and others do not know or may be able to hide 
	better.
	Mr. Whitfield.  Now I have read Justin�s testimony and I have 
	also read stories about other young people who have been 
	solicited over the Internet.  One of the things that is kind of 
	puzzling about this is once they actually meet the predator and 
	they are sexually exploited or molested, there seems to be a 
	tendency to continue to meet with the predator even after that. 
	How does that happen and why does that happen?
	Dr. Cooper.  What frequently occurs is that that initial meeting 
	on the part of the child and the predator is one of explanation. 
	Initially the child sees themselves as an equal to that predator. 
	What they do not recognize and as time goes on, they are not in 
	control of that relationship.  They would like to be in control 
	of that relationship, but this other person continues to, I would
	say, digitally stalk them, to being in touch with them all the 
	time, to encourage them to continue to meet, that they cannot 
	live without them.  This type of attention and inducement is 
	very difficult for anybody, including an adolescent to resist. 
	It causes them to feel better about themselves initially, until 
	they discover that they are being exploited and it is not their 
	choice to continue in those relationships.
	Mr. Whitfield.  Now, in your testimony, you described child 
	pornography as a digital crime scene.
	Dr. Cooper.  That is correct.
	Mr. Whitfield.  When you said those three words, would you 
	elaborate on that just for a few minutes?
	Dr. Cooper.  Yes, I would be happy to.  For a long time,
	healthcare professionals and others in the field of child abuse 
	had a hard time acknowledging that child pornography was real.  
	They thought perhaps these images were morphed and thought that
	these were not truly children, they were adults made to look 
	like children.  It took a lot for individuals to finally come 
	to recognize that these are actually children.  What we are 
	seeing is very similar to a video camera in a convenience store. 
	You are seeing the actual real time sexual abuse of a child. 
	When we see online images or if we see videotapes that have 
	been made of children, by sex tourists who have gone outside 
	the country and made their own videotapes, we are looking at 
	a crime scene.  The fact that it is online makes it a digital
	crime scene.  And it is very important for us to recognize that 
	in the United States, we call this child pornography, but in
	Europe, in many of the other countries outside of this country,
	these are referred to as child sexual abuse images.  So that 
	the public will not be confused if this is a voluntary modeling,
	it is not voluntary modeling, it is in fact a crime.
	Mr. Whitfield.  Now, in your professional capacity have you had 
	the opportunity to interview or study or meet with the so-called 
	predators at all?
	Dr. Cooper.  I have had the opportunity to testify in court 
	cases in fact of individuals who have exploited children through 
	either pornography and many times pornography and prostitution 
	together because that is a very common connection.
	Mr. Whitfield.  And that motivates a predator?
	Dr. Cooper.  I would say that there are three common reasons, 
	although the researchers, the best researchers for this have been 
	in Ireland who have gone into the prison system and interviewed 
	collectors of child pornography.  The three most common reasons 
	that are cited are, number one for sexual gratification.  These 
	individuals will look at images in order to fantasize about their
	own relationship with that child.  A second reason that they will
	collect images or seek to make images is because it is a plan 
	for action.  That is the most important one that I think we will 
	need to be aware of.  When an individual is looking at child 
	pornography online, many of these individuals are planning how 
	they are going to commit a contact offense with another child.  
	They are using what they are seeing online, both to normalize and
	justify their behaviors.  Particularly if they see hundreds and
	hundreds of images online, they come to the belief that this is 
	common, everyone is doing it, and so, therefore, I am going to 
	do it too.  They will use what they see as a plan for action. The 
	third reason is because it allows them to be a collector, in fact 
	and with their likeminded friends, they can speak of the fact 
	that they have numerous images within their collection.
	Mr. Whitfield.  Now, would you say that, and I know it is 
	difficult to generalize, but predators who are engaged in this 
	activity, I am assuming most of them have full-time jobs.  They 
	may be a professional, they may come from any walk of life.  Is 
	that correct?
	Dr. Cooper.  There is a very interesting phenomenon about child 
	pornography, that is correct, that they do come from all walks of 
	life.  There may very well be small town individuals who have very 
	minimal resources, who still are downloading child pornography.  In
	one particular case that I am familiar with in my State, an 
	individual was marketing his seven-year-old daughter by sending 
	pictures of her on the Internet and he did not even have his own 
	computer, he was using the county library computer to do this. So 
	you can have individuals who are not wealthy well-to-do 
	individuals, are still very much involved in this practice.
	Mr. Whitfield.  It would not be unusual for them to send over the 
	Internet, a webcam of them actually molesting the child on, I 
	mean, televised while they are doing it, right?
	Dr. Cooper.  They would have live webcam situations.  You have
	almost all of those, a receiver of that information so you 
	usually have at least two individuals who are intentionally 
	communicating with images.  As you are aware, the most recent and 
	high profile case that occurred two weeks ago is associated with 
	27 individuals who were live web casting to each other and 
	talking so that they could ask for certain sexual acts to be 
	performed on a given child so that they would have the 
	opportunity to watch this.
	Mr. Whitfield.  Well thanks, Dr. Cooper, my time is expired and 
	I recognize Mr. Stupak.
	Mr. Stupak.  Well thank you.  
	Thank you, Dr. Cooper, for rearranging your travel schedule to
	be with us here today on this important issue.
	Dr. Cooper.  Thank you.
	Mr. Stupak.  You mentioned a small town and actually my staff 
	being well prepared went to the Michigan site for a public sex 
	offender registry and this was just from my small town, I come 
	from a very small town but it is seven pages, there are 39 people 
	there.  And I will quite tell you as I just thumbed through it 
	here quickly I was quite surprised.  These public sex offender 
	registries we hear a lot about, are they any kind of a deterrent?  
	It seems they catch a lot of attention but is it some kind of
	deterrent to a kind of sexual abuse we are seeing on the 
	Internet?
	Dr. Cooper.  Sir, I would say that the presence of being a 
	registered sex offender may deter a person from having a contact 
	offense with a child in their neighborhood; however, I believe 
	that it does contribute to individuals going online more, because 
	unless their sex offense results in a parole or a probation, or 
	that they cannot access or use a computer, individuals are more 
	likely to go online to access images of children for the purpose of
	sexual gratification through masturbation because they are fearful
	to actually have contact offenses.  What we also know is that sex 
	offender registries have a higher association of spawning child 
	sex tourists.  Americans are the most common child sex tourists 
	and one of the main reasons they leave the United States to 
	travel to third tier countries in order to have sex with children 
	is because they are registered sex offenders.  And so it sort of 
	switches or transitions the victims from American children to 
	foreign national children.
	Mr. Stupak.  I see.  In this and I just read that, I was just 
	looking at again just very quickly.  Are you surprised that the 
	number of people registered here who are only 20, 21, 22.  Is there 
	any kind of, in your research or studies, is there any kind of 
	profile of the person who is trying to obtain this information over 
	the Internet?  I mean, I got all ages on this list and I do not 
	know what the offenses are for but is there any kind of profile 
	that has developed through your work?
	Dr. Cooper.  We know that the majority of individuals who are 
	seeking either to contact children or who are collecting images 
	are male, almost 99 percent are male.  They tend to be 
	non-Hispanic white males.  We also know that they have the highest 
	incidents of committing this crime between the ages of 26 and 35. 
	That is your most common age, however, we are beginning to see 
	younger and younger offenders if you will, to include youth 
	offenders because of the availability of child pornography on the 
	Internet.  I believe that we are in a bit of a quandary to decide
	what to do about teenagers, for example, who are downloading 
	images because we are not sure if the images titled 13-year-old
	daughter, for example, and a 15-year-old is accessing that image, 
	we would be a little confused as to whether or not that actually 
	would constitute child abuse or sexual exploration.  So you can
	see that while we have the young offenders, they are breaking a low
	but we are not positive about the positive there.  On the other 
	hand, we have definitely older people who are clearly accessing 
	images of very young children.  There is no doubt that they are
	doing that with informed consent so to speak.
	Mr. Stupak.  Let me ask you this in your research and I see you 
	have a couple of your books there.  One part was, in your 
	research is about the law but just the public sex offender 
	registry, each State has them, would those convictions for a
	sexual possession of pornography, children, would that 
	necessarily be on these offenders if the list teaches things a
	little different as to what offenses make up to find yourself 
	on a public sex offender registry?  It is my understanding some
	States even if you are convicted of the crimes we are talking
	about today you do not appear on the sexual offender list.
	Dr. Cooper.  That is correct, sir.  It really depends upon the 
	State and the judge, how that final sentencing is going to be. 
	Our goal is to educate prosecutors, juries, and judges that 
	if you are going to not have any type of incarceration as the
	sentence for this kind of crime, the least that should happen
	is that a person should become a registered sex offender.
	Mr. Stupak.  So that would be one area where Congress probably
	would have an opportunity to act on since the Internet is
	interstate commerce and no doubt about that.
	Do you think child pornography is becoming more acceptable in
	our society?  You mentioned that if I am convicted here in the 
	United States, then I will just go elsewhere to get around the
	limitations that may be placed upon me here in the United 
	States.
	Dr. Cooper.  I believe that child pornography in our society, 
	no, I do not think it is becoming more acceptable, although it
	is becoming more common.  What I do believe is that people 
	who are sexually abusing their children are changing.  They 
	are becoming more exhibitionistic with respect to how they 
	sexually abuse their children.  Ten years ago, before we had 
	public access to the Internet so readily, parents were sexually
	abusing their children but they were not taking videotapes and 
	making pictures and putting them on the Internet.  Now that is 
	what we are beginning to see, which means that they see their 
	children not only as their victims but as a commodity for money
	to the public and those who are likeminded and would like to 
	have access to their children in that sense.  So I see the 
	commodification of children as a bigger problem in our society 
	and the fact that we fail to see them as individuals who will 
	be highly harmed by knowing that their images are on the 
	Internet.
	Mr. Stupak.  You indicated in your answer that while it is not 
	more acceptable, it is more common in children in the ways they
	become more of a commodity, a commercial enterprise.
	Dr. Cooper.  This is correct.
	Mr. Stupak.  Because of the growing use of the Internet, are
	consumers then often required not only to purchase images but 
	also to provide their own unique picture, I do not want to say
	unique but provide something which will not only be it for 
	purchase for the personal satisfaction but also then are they 
	required then to provide pictures or to put the pressure upon 
	them to access?
	Dr. Cooper.  Yeah, absolutely, correct.  There are several 
	episodes of discussions on the Internet between individuals who 
	want new images.  They may want, for example, the reset of a
	known series that they have.  A series may have 30 or 40 images,
	and they only have 15 so they want the rest.  The key thing 
	though, is that they will usually be required to provide their
	own images in order to, as a trading in order to do that.  There
	are certain situations where they are asked to provide new images 
	that have never been on the Internet before, and this is what 
	encourages individuals to sexually abuse their own children in
	order to make those images available.  Those have a higher 
	desirability because more people already have many of the hundreds
	of thousands of images that are already on the Internet.
	Mr. Stupak.  Let me ask you this.  And I do not mean this in any 
	way a reflection upon baseball.  What I am going to say is are 
	they trading them--like when I was growing up we traded baseball 
	card and certain things, certain cards you wanted, certain stars. 
	Is it like that on the Internet?
	Dr. Cooper.  Very much it is that way, particularly when you have
	collectors who want to complete their series, or if you have 
	individuals who have a certain fetish.  For example, one case that 
	I worked in, the individual had a child smoking fetish and he 
	wanted pornographic images of children, all of whom were smoking.  
	So they work very hard to find other people who have those kind 
	of images and frequently those are homemade images.
	Mr. Stupak.  Let me ask this question because I mentioned in my 
	opening and in my research and someone mentioned, our staffs have
	really done a good job in helping us prepare for this but in our 
	research in everything we have done here, it appears that about 
	60 percent of these victims are under the age of 12.  So did you 
	and you mentioned it earlier, could you explain what you mean by 
	grooming children into compliant victimization?
	Dr. Cooper.  Yes, I will.  And if I could make a comment--
	Mr. Stupak.  Sure.
	Dr. Cooper.  --of the 60 percent who are under 12, the reason 
	that 60 percent are under 12, is because it is easier to charge
	when children are pre-pubescent appearing.  You will have plenty 
	of adolescent victims whose images are also on the Internet.  But
	because they are adolescents, it is more difficult to tell that 
	they are less than 18, which is the standard of the law.  You will 
	have adolescent victims and they would be marketed under gold 
	banners, and others with still underage minors, but it is much 
	easier to charge and successfully prosecute children who do not 
	appear to have any sexual maturation which classically is children
	under 12.  Now in answer to your question regarding complaint 
	victimization, when children see or are shown images of other
	children who are being sexually abused and this is a common 
	behavior of cyber enticers who will send pornographic images to 
	children in order to help them understand that everybody does 
	this, it is okay.  When that happens, children will come to 
	believe that this is something that lots of other kids do so 
	maybe it is not that bad and they become a compliant victim in 
	that situation and can actually recruit other victims. 
	Mr. Stupak.  Now then what happens to the very young victim after
	they are rescued from their abusers after years of grooming and 
	being used in child pornography images?  What kind of a child is
	left us?
	Dr. Cooper.  A very damaged child.  The National Institute of 
	Justice tells us that they are 28 times more likely to be arrested 
	for prostitution in their lives than other children.
	Mr. Stupak.  It looks like my time has expired.  Thank you, 
	Mr. Chairman and thank you again for your testimony and being 
	here today.
	Dr. Cooper.  Thank you.
	Mr. Whitfield.  Thank you.
	At this time, I will recognize the Chairman for his 10 minutes of
	questions. 
	Chairman Barton.  Thank you, Mr. Chairman.  I have been in my
	office watching the hearing on television.
	Dr. Cooper, let us set aside the tragedy of this for a moment; 
	what is the societal poison or wrong that happens as a result 
	of child pornography?  What happens to us as a society because of
	this?
	Dr. Cooper.  Sir, I would say that our society responds as it 
	did to violence on television.  We become tolerant to the 
	presence of really significant violence and we fail to recognize 
	after a while that it is indeed violence.  The same is true with
	child pornography.  If we do not respond with an absolute zero 
	tolerance type of response, we will begin to accept the form of 
	child abuse.  I think the other important point is that because 
	this is a technology driven type of crime, many people fail to 
	recognize that we are talking about child sexual abuse.  In fact, 
	I sit on several committees, national committees, that have had a
	hard time grasping that we are really talking about child sexual 
	abuse with the digital moralization.  So we have had a tough time
	getting our child protection services workers to the table for
	example because it has been hard for them to understand that this
	is not a victimless crime.  Five years ago, that was the most 
	common statement, this is a victimless crime.
	Chairman Barton.  Well do the children that are molested, as 
	adults, do they manifest any social behavioral problems, law 
	enforcement run-ins on a higher level of incidents than children 
	that are not exploited as children sexually?
	Dr. Cooper.  Yes, they do, sir.  When they have been exploited
	especially visually, you are much more likely to accept yourself 
	that way.  To become a marketer or to be easily marketed by others
	is the next that follow to this type of exploitation so many that
	prostitution has a much higher occurrence in individuals who are 
	exploited in this manner.  And in fact, Dr. Richard Estes research
	from the University of Pennsylvania, revealed when he went to 
	codify the cities he went out of State to juvenile detention 
	centers talking to kids who had been arrested for prostitution.
	There was an overwhelmingly large number of these children who 
	had been already prostituted and pornographically photographed 
	from within their families before they ran away and ultimately 
	were being prostituted on the streets.
	Chairman Barton.  And when you talk about, excuse me, digital 
	molestation what is the minimum standard that would be considered 
	to be sexually exploitive?
	Dr. Cooper.  In the United States, images revealed new lascivious, 
	if you will, visualization of the genitals of a child.  The child
	may be dressed but their clothes, their position, the way that the 
	individual closeness from inside of camera is focusing typically 
	on the genital area.  That is the beginning of an exploitive image
	for the U.S.
	Chairman Barton.  Now is that under current law, is that illegal?
	Dr. Cooper.  That is illegal under the Protect Acts; however, many 
	images of nude children who are then shown in various sexually 
	explicit poses without any evidence of actual sexual assault are 
	considered erotica in the United States, although they are 
	considered pornography in Canada just across the border.
	Chairman Barton.  So if a parent were to take his or her child and 
	pose them without their clothes on and send that over the Internet 
	that would be illegal today?
	Dr. Cooper.  It would depend upon how they are posed.  And let me 
	give you an example.  One of my patient�s in my child abuse clinic 
	stepfather posed her, 11-year-old, posed her at a table with her 
	breasts lying on grass and put little bunny ears above her breasts 
	and took pictures of this.  This is not considered to be 
	pornographic because it was not genital.  The effect on the child 
	as you can imagine was significant.  The Walgreen Department 
	Store that made these pictures out of the film called law
	enforcement right away because they thought this was child 
	pornography but it did not meet the letter of the law under that 
	circumstance because it was not genital exposure.  
	Chairman Barton.  Is there any indication that because of the 
	Internet, parents that exploit their children is growing as a 
	percent of the population?
	Dr. Cooper.  I think so because I have been seeing child sexual
	abuse cases since 1980 and I cannot recall seeing as many parents 
	who have taken pictures of their children like they are now and 
	beginning to put them on the Internet, to exchange them with each 
	other.  This is very much a concerning trend.
	Chairman Barton.  Now under current law, a parent that does 
	that, if caught and convicted, does the parent lose custody of 
	the child?
	Dr. Cooper.  Almost always that would be the case, yes.
	Chairman Barton.  What about the amounts of money?  We were 
	briefed that in one of the cases they were taking in several 
	million dollars a month.
	Dr. Cooper.  That is correct.  The Avalanche case is a good 
	example.
	Chairman Barton.  Under current law, does that, can that money 
	be forfeited like in a drug case or does it stay in the account
	of the exploiter and they do their time and it is their money?
	Dr. Cooper.  Recently, sir, in Kentucky, I testified in a 
	deposition for that purpose so that money that was obtained by 
	in this particular case from an individual who was making child
	pornography, and as a Federal employee had his own money from 
	his retirement.  That particular U.S. Attorney made the 
	appropriate motions to have his retirement pay closed in a fund 
	for the child victims for their mental health services for 
	several years to come.  So that degree of restorative justice 
	is definitely available and it is something that I have only
	seen once, but would really like to see happen more.
	Chairman Barton.  Well, is that something that we need to look 
	at, at the Federal level, a special statute of enforcement and
	penalties for parental molestation and asset forfeiture is that
	something that would be helpful?
	Dr. Cooper.  Definitely, sir.  This was a stepfather to this 
	child.  There were several victims, but the primary victim was 
	this child.  I think that would be a very good idea.
	Chairman Barton.  Is most of the money that changes hands done 
	by credit card?
	Dr. Cooper.  And PayPal accounts, yes, usually through credit 
	accounts and PayPal.
	Chairman Barton.  Is that something that we need to look at?  
	Are there any under current law, penalties towards a credit 
	card company that knowingly and willfully accepts funds, 
	transfers funds of a child pornographic nature?
	Dr. Cooper.  I definitely believe that is something that the 
	Congress should consider, sir, because we are doing the best 
	we can do from the victim level, but when we have this much 
	money driving the train, it is very hard to interrupt that
	kind of process without some type of very high level 
	regulation or mandatory perusal.
	Chairman Barton.  Okay.  I think, Mr. Chairman, that is enough
	questions for this witness.  
	Thank you for your work in this effort area and thank you for
	testifying today.
	Dr. Cooper.  Thank you, sir.
	Mr. Whitfield.  Thank you, Mr. Chairman.
	I might mention that on Thursday we are going to have another 
	hearing on this issue relating to law enforcement and we are 
	going to get into more detail about the methods of payment.
	And at this time, I recognize Dr. Burgess for his 10 minutes.
	Mr. Burgess.  Thank you, Mr. Chairman.
	Thank you, Dr. Cooper for being here and being so generous 
	with your time this morning.
	Dr. Cooper.  Yes, sir.
	Mr. Burgess.  You probably already answered this but let me 
	ask it again just so I am sure that I understand it.  I get 
	the impression that of course child exploitation and child 
	sexual abuse has been with us for a long, long time 
	unfortunately.
	Dr. Cooper.  That is correct.
	Mr. Burgess.  But get the impression that the Internet has
	caused a change in this.  Is that a correct assumption?
	Dr. Cooper.  That is true.  I would agree.  The Internet has 
	made it all different.  There are five different types of
	child sexual exploitation, but the Internet facilitates 
	every single one of those types of child sexual exploitation.  
	Mr. Burgess.  And you alluded a minute ago to somebody who 
	took their pictures to Walgreen�s to be developed and the 
	developers obviously alerted someone if there was a problem 
	or there may be a problem here, but the Internet and digital 
	photography is where they cut out the middleman in many 
	respects so that now the availability of creating images is 
	can be done within the privacy of one�s own home without
	involving a third party such as Walgreen�s.  Do you think 
	that has had an effect?
	Dr. Cooper.  Very much so, sir.  I think the ability for
	collectors to be anonymous and for producers to be anonymous
	has made this a much more difficult crime for all of us to 
	be able to attack.  The greatest individuals who suffer are 
	the victims, because we see the images but we do not know 
	who these children are.  It is very challenging to try to 
	track down where these images may have come from and who 
	these children might be.  It has been very challenging to 
	do that.  
	Mr. Burgess.  You used a word that I guess didn�t even know 
	was a verb but the word commodification of children and I 
	guess just coming from a perspective where we have to be 
	protective with the most vulnerable members of society, the 
	fact that we are turning them into a commodity is a 
	disturbing, a very disturbing concept for most of us up here. 
	But, and the Chairman has asked this, but are there ways,
	other specific steps that you think we could take or that 
	could be taken by legislative bodies to make it more difficult 
	to commodify our children and to provide more protection to 
	the most vulnerable members?
	Dr. Cooper.  Yes, sir, I think that there are some steps that 
	can be taken.  One of the most important is to try to go back 
	to our media the value of children, and to not allow children
	to be depicted in the media as a commodity, as we are beginning
	to see very, very commonly.  This is one of the things that 
	really contributes.  In my discussions with outreach programs 
	in various parts of the United States, this is one of the 
	phenomena that is contributing to the compliant victim.  When 
	children see other kids on TV, especially teenagers on TV who 
	are being treated in very sexually exploitive ways either 
	through music videos, on videogames, et cetera, it causes 
	children to believe themselves to be available in that manner.
	And that is the entertainment media and it is very 
	challenging.  I think we all have to pay attention to the huge
	messages that are being promoted every day, with respect to 
	the whole commodification of children in the media.  There 
	is one thing, this is not obscenity per say, but it certainly
	is a message that all parents need to be more aware of when
	they see music videos with young teenagers who are being
	presented as if they were being prostituted, or as if they 
	were being exploited and this is 24 hours a day on cable
	TV.  It is really easy to see how kids will think this is
	okay for them.
	Mr. Burgess.  Or in fact during the presentation of the 
	Oscars but let us--
	Dr. Cooper.  Exactly right.
	Mr. Burgess.  Let us stay on this for a minute because this 
	too predates the Internet.  And I guess the question I would 
	have is is the Internet a causer and effect here or is it 
	merely a facilitator and now changes this behavior to one that
	can be accomplished at warp speed if you will?
	Dr. Cooper.  It really does, sir.  In fact, you can usually 
	see some imagery on television and the next day it will be on 
	the Internet and it will be the same imagery which will be on 
	the Internet for the next 6 weeks.  It may not be on TV anymore, 
	but it will be on the Internet for the next six weeks and 
	children can finally download that information or they can just 
	look at it on their computers in their home and then as they 
	get their cell phones with cameras and start to take pictures 
	and transmit to each other.  You can really understand how this 
	would not be seen as terribly abnormal because they see it on 
	the Internet every day in their bedrooms.
	Mr. Burgess.  So to some degree the Internet may be an accelerant 
	for this fire and not in fact the cause of this?
	Dr. Cooper.  That is correct.
	Mr. Burgess.  That is what this Chairman has done but that is 
	what is going to make it so difficult for us legislatively to 
	deal with this and we feel it is important work that we do 
	need to take on.  But for people who are parents who are 
	concerned about their children, is there a particular type of 
	profile that the parents ought to be aware of or particular 
	types of behavior that they have to be aware of in their
	children that should cause some alarm bells to go off?
	Dr. Cooper.  Well the first thing that I think is important
	for parents to understand, there used to be like the i-SAFEty 
	Program is one but there are several programs.  The National 
	Center has one called Net Smarts as well.  Parents really 
	need to be educated from the preschool time period about the 
	risks for child pornography and child sexual abuse because, 
	remember that we have very young children who have been 
	sexually abused these days and it is important for parents 
	to understand how that can happen, and how to protect their
	children.  I think the hardest part is for us to help parents 
	recognize that these children are being abused within their 
	own homes.  There is almost always a non-absenting parent in 
	that home, so we need to empower parents.  Healthcare 
	providers need to be talking to parents when children are 
	infants about the importance of protecting their children, 
	not just from the normal constant safety that we speak of, 
	but the issues of sexual exploitation, sexual abuse which 
	many parents would never think would be relevant information
	for an infant who is less than 12 months of age.  However, 
	the Internet is showing us that this is an important 
	phenomenon that we need to be discussing with parents across 
	the board.  The majority of offenders are indeed men.  So 
	it is important for us to help parents understand that.
	Mr. Burgess.  What type of outreach program do you have for 
	healthcare providers?  Because that is, I have got to tell 
	you as someone who just recently left the healthcare 
	providing field, I do not know that this would have crossed 
	my radar screen in dealing with a patient with a problem.
	Dr. Cooper.  You are absolutely right.  For those of us 
	who work in child abuse, we are more tunnel-visioned with 
	respect to child safety from abuse.  General healthcare
	providers, family medicine, and pediatrics need to be 
	much more aware of the fact that child pornography exists,
	that these are little children, they are not victimless
	and it is not a virtual crime, it is a real crime.  We 
	need to add to our ancillary guidance, in our well child 
	checks, et cetera, sports physicals, questions to the 
	children and also advice to parents about how to keep 
	children safe but also how to make sure that they are not 
	exposed every day to those mind changing media driven 
	messages that can cause their pre-teens and teenagers to 
	become compliant victims.
	Mr. Burgess.  That is an enormous task of education, 
	re-education of healthcare professionals.  Do you have some 
	programs currently that are ongoing to do that, to accomplish 
	that?
	Dr. Cooper.  There are some online programs but I am a member 
	of the American Academy of Pediatrics and it is my goal to 
	try to bring this into our well child checks.
	Mr. Burgess.  Well, again, for parents who are watching this
	hearing today and I hope that some are, what are some of the 
	things that they can themselves do to increase their 
	involvement in their children�s lives to put another barrier 
	between their child and the potential for abuse?
	Dr. Cooper.  The most important thing that I think parents 
	should do is first of all communicate with their children from
	the time they are very young.  Do not wait until they are 13
	and 14 to start talking to them.  The second point is to be 
	aware of social networking sites such sites as MySpace, the 
	FaceBook, Zanga.com, where children are beginning to do online 
	diaries and put their own pictures of themselves which is a
	risk.  That is a bit of a risk in particular because many 
	children when they are 13 and 14 years of age will be a little
	exhibitionistic.  That is just a part of being an adolescent
	but it is a little dangerous to be that way online as we have 
	seen from the case of Justin Berry.  He was only 13 and all he 
	had to do was take his shirt off and all of a sudden men were 
	responding to him in that situation.  So I think talking to 
	children from the very beginning, from the time they are very 
	young, helping them to recognize and helping parents to 
	recognize that the majority of offenders are not strangers. 
	That is the other important point.  Many parents speak to
	their children about being aware of strangers but the majority
	of sex offenders are acquaintances and/or relatives.  The 
	third point is to be careful not to let children have Internet
	access in their bedroom.  They can have a computer in their
	bedroom, but not Internet access in their bedroom.  That 
	should be where parents can monitor their usage.
	Mr. Burgess.  Thanks again, Dr. Cooper.  You have been very 
	generous of your time and we really appreciate your rearranging 
	your schedule to be with us today.
	Dr. Cooper.  Thank you.
	Mr. Burgess.  Mr. Chairman, I will yield back.
	Mr. Whitfield.  Thank you, Dr. Burgess. 
	And I recognize Mr. Walden for 10 minutes.
	Mr. Walden.  Thank you, Mr. Chairman.
	I do not know that I have got that many additional questions.  
	You have done a marvelous job and my colleagues have asked all
	the questions I was thinking of as well.
	Dr. Cooper.  Thank you, sir.
	Mr. Walden.  As I listened to Dr. Burgess the things what can 
	parents do, you certainly addressed those issues and 
	enlightened us about how severe this problem is, so I appreciate 
	your testimony today and the questions and unless you have 
	anything else to add.
	Dr. Cooper.  I remember that Mr. Barton had asked how could 
	have individual have an interest in an 18-month-old and I 
	wanted to respond to that question.
	Mr. Walden.  Sure.
	Dr. Cooper.  What we do know about individuals who sexually
	abuse infants and toddlers is that their sexual abuse is not
	really sexually driven from the standpoint of sexual desire 
	for such a young child as a sexual partner, but the more 
	common driving force with that young of a victim is the power 
	and control motivation.  And in fact interviews with convicted
	predators who have sexually abused children as young as 
	18 months have spoken of that fact.  The cognitive distortion 
	that we see in sex offenders is that their power and control 
	is for the purpose of making that toddler a perfect sexual
	partner by the time they become an adolescent.  So it is very
	important for us to recognize that cognitive distortions
	clearly already exist in sex offenders and the Internet can
	promote more of those cognitive distortions.
	Mr. Walden.  Let me just ask one question as I have read 
	through the testimony and heard about how the Federal 
	agencies have responded in this case and we will hear more 
	directly from them.  What is your experience in terms of 
	agency response--State, local, and Federal in these cases?
	Dr. Cooper.  And that is a very good question.  I will tell 
	you that I began my work in child sexual exploitation with
	the U.S. Postal Inspection Service who has been incredibly
	excellent with respect to their recognition of child
	pornography as it is ordered online and delivered through 
	the mail.  They are very, very proactive and very 
	hardworking group of people.  The Internet Crimes Against 
	Children�s Task Forces which are present in almost every 
	State now usually will have a local law enforcement officer 
	representative.  For example, in my county in North Carolina, 
	we have one person in our sheriff�s department who sits on 
	that team and then we have a State-level investigator who 
	sits on that team, and then a fellow FBI-type investigator 
	and then a customs individual.  So I interact pretty
	regularly with each one of these individuals in a team 
	standpoint whenever there is a new case.  My role is to 
	analyze the images and to make sure that they meet the 
	definition of the law.  I would say that they work very 
	well together but they are not enough, clearly not enough
	individuals.  Law enforcement training needs to be a
	continuously funded phenomenon.  I speak in probably 10, 
	at least 10 to 12 trainings a year in the United States 
	that are all law enforcement trainings all about sexual 
	exploitation online predators.  So I think that funding
	for that continued education is going to be very important.
	Mr. Walden.  All right, thank you very much.  I would 
	yield back.  
	We again appreciate your rescheduling and your testimony 
	and the good work you do around the country.
	Dr. Cooper.  Thank you, sir.
	Mr. Whitfield.  Thank you, Mr. Walden.
	And I will recognize the gentleman from New Jersey for
	10 minutes.  Mr. Ferguson.
	Mr. Ferguson.  Thank you, Mr. Chairman.
	Dr. Cooper is there a link between being in possession of
	child pornography and actually assaulting a child?
	Dr. Cooper.  Yes, sir, there is.  That has been studied now 
	in three different venues.  The U.S. Postal Inspection 
	Service first looked at that and found that in 35 percent of
	the cases that they had investigated there was also evidence 
	of a contact offense having already occurred.  The Toronto 
	Child Sexual Exploitation Police Unit also looked at this 
	question and nearly one out of two, 35 percent of their 
	cases were also minimum contact offenses.  Then of course 
	the Federal Bureau of Prisons has looked at it from a 
	different perspective.  These are already incarcerated child 
	pornographers who are in sexual treatment programs.  In that 
	particular situation where individuals are in therapy and 
	will acknowledge under that umbrella whether or not they have
	or have not sexually abused children.  Close to 76 percent of 
	those individuals acknowledged that they had already sexually 
	abused children at the time, by the time they were collecting 
	child pornography.  So we feel that there is definitely a link 
	between collecting child pornography and offending against 
	children.  Sadly for me as a forensic pediatrician, now that I 
	see younger children in my clinic, I am beginning to see 
	children who are telling me about their victimization and I
	have seen what they are telling me on the Internet.  So I know
	that the aspect of a plan of action, the Internet providing a 
	plan of action for offenders is clearly becoming evident.
	Mr. Ferguson.  So the evidence suggests that there is a link. 
	Do we have an idea of that causality?
	Dr. Cooper.  Yes.  That we believe and what the research out 
	of Ireland showed when the applied psychologist went into the 
	prison system and this would be Taylor and Quail who go in 
	the prison system to talk to convicted pornographers.  The 
	most important causality is that seeing child pornography 
	makes would be offenders believe that this is acceptable 
	behavior, that it is normal and that normal people do it.  So, 
	therefore, the normalization of sexual harm is what encourages 
	them to proceed.  
	Mr. Ferguson.  So with all of the images that are available 
	online, with all of the material that is out there, I mean, are
	we creating child predators with the availability and the ease 
	with which one can access child pornography, these exploitative 
	images, this material?  Are we, because that is so easily 
	available, are we creating people who exploit and abuse 
	children?
	Dr. Cooper.  That is a very good question and I will tell you 
	that there are reports of individuals who have nearly sexually
	offended against a child, who after beginning to see many of 
	these images on the Internet, develop that kind of distortion 
	that this is a common practice, and who may have fantasized,
	but never acted on a child and now are beginning to because 
	of what the have seen on the Internet.
	Mr. Ferguson.  Those are all the questions I have.  Thank you, 
	Dr. Cooper, I yield back.
	Dr. Cooper.  Thank you.
	Mr. Whitfield.  Thank you very much, Mr. Ferguson.
	And Dr. Cooper, we generally appreciate your being here today 
	and as we said a couple times before rearranging your schedule,
	your testimony is certainly very important and your 
	professional insights will be quite helpful to us.
	Dr. Cooper.  Thank you.
	Mr. Whitfield.  And we hope that we can stay in touch with you 
	as we move forward on this issue.
	Dr. Cooper.  And sir, if I may, I would like to be sure to leave 
	a copy of our textbook and our CD-ROM with you for your use if 
	it can be of any benefit.
	Mr. Whitfield.  Thank you very much and we appreciate your being
	here.
	At this time, I would like to call the second panel of witnesses.
	First, we have Mr. Justin Berry who is with us today.  He was
	the topic of a number of articles in the New York Times about 
	how a 13-year-old young man becomes involved in this sordid 
	online world.  Justin, if you would have a seat.  And then also 
	we have Mr. Kurt Eichenwald who is a reporter with the New York 
	Times.  I am going to ask unanimous consent that we enter into
	the record five articles in the New York Times that 
	Mr. Eichenwald wrote on this subject, as well as a speech that 
	he gave at Marquette University.  The title of the first article 
	is "Through His Webcam a Boy Joins a Sordid Online World."  The 
	second one was "Where the Credit Card Trail leads."  The third, 
	"A Shadowy Trade Migrates Through the Web."  Fourth, "Documenting
	a Crime That Thrives on Anonymity."  Fifth, "Making a Connection
	with Justin," and then the speech at Marquette University.
	[The information follows:] 



Mr. Whitfield.  I might also add that in my opening statement, I talked 
about Mr. Eichenwald being so disturbed and interested in this issue that
he came to testify, but I would like to set the record straight that we 
did subpoena Mr. Eichenwald because he is a reporter and so we appreciate 
him complying with our subpoena and being here in response to that.  We 
also have Mr. Steve Ryan with us today who is an attorney with Manatt, 
Phelps & Phillips, and it is my understanding, Mr. Berry, that he, 
Mr. Ryan, is representing you and acting as your legal counsel.  Is that
correct?
	Mr. Berry.  Yes, sir.
	Mr. Whitfield.  Okay.  And as you all know, this is an Oversight 
	and Investigations hearing and we do take testimony under oath. 
	Do either of you have any difficulty or object to testifying 
	under oath?  Now, Mr. Eichenwald, do you have legal counsel
	with you today?
	Mr. Eichenwald.  I do, sir.
	Mr. Whitfield.  And would you identify him?
	Mr. Eichenwald.  He is David McCall, the gentleman behind me who 
	is the counsel for the New York Times.
	Mr. Whitfield.  Okay, and Mr. David McCall who is the legal 
	counsel with the New York Times, we appreciate your being here, 
	Mr. McCall.  Now, I understand you are not going to be testifying. 
	Mr. Ryan may actually testify depending on how the questions go.  
[Witnesses sworn]
	Mr. Whitfield.  Thank you, all of you are sworn in now and I will
	recognize Mr. Justin Berry for his opening statement.  And 
	Justin, we do appreciate your being here today.  We know it has 
	been a difficult road for you and your being willing to testify
	can be a tremendous help to many young people throughout the 
	country and also to the committee as we search for ways to deal 
	with this issue so thank you. 

TESTIMONY OF JUSTIN BERRY, C/O STEPHEN M. RYAN, ESQ., MANATT, PHELPS & 
PHILLIPS LLP; AND KURT EICHENWALD, REPORTER, THE NEW YORK TIMES 

	Mr. Berry.  Thank you.  Chairman Whitfield, Ranking Member 
	Mr. Stupak, and other members of the committee, my name is 
	Justin Berry and I am 19 years old.  I am here to speak upon 
	the danger facing this Nation�s children, one that threatens 
	not only their emotional health, but their physical safety.  
	This danger is Internet child pornography, particularly 
	involving the use of inexpensive web cameras which are used by 
	adult predators to exploit children.
	I speak from experience.  For 5 years, beginning when I was 13 
	years old, I operated a pornographic website featuring images 
	of myself fluttered on the Internet by webcams.  I was paid by 
	more than 1,000 men to strip naked, masturbate, and even have 
	sex with female prostitutes while on camera.  My business was 
	assisted by adult criminals, including companies that process 
	credit card payments.
	I am not proud of the things I have done nor will I personally 
	attempt to avoid responsibility for those decisions.  While I 
	did not comprehend the magnitude of what was happening when I 
	was 13, as I grew older, I progressively became corrupted and 
	acted in shameful ways.  Still, I repeatedly attempted to pull 
	away from this sick business, but each time I fell back into 
	this criminal world that had first seduced me and eventually 
	controlled me.  
	My experience is not as isolated as you may hope.  This is not 
	the story of a few bad kids whose parents paid no attention.  
	There are hundreds of kids in the United States alone who are 
	right now wrapped up in this horror.  Within each of your 
	congressional districts, I guarantee there are children who 
	have used their webcams to appear naked online, and I guarantee 
	you there are also children in your district on the Internet 
	right now being contacted and seduced by online sexual predators.
	I was an honor student and I was class president.  My mom had
	used all the latest child protective software.  She checked 
	what was happening in my room.  She occasionally took away my
	computer keyboard but she was no match for the child predators
	who worked hard to make sure my child porn shows continued.
	In my personal opinion, the law enforcement effort is no match 
	for them either.  Until recently, I never understood why these 
	child predators always laughed about the Government.  Now, I 
	know that the child predators are at least partially right. 
	They have little to fear from law enforcement.  Based on my 
	case, efforts to prosecute these people are riddled with 
	mistakes and bureaucracy.  Unless something changes, hundreds 
	or even thousands of children will be lost forever.
	I obtained a webcam at 13 after signing up for an account with 
	earthlink.net.  The company, as a promotion, sent me a free
	Logitech webcam.  As a child drawn to computers, I was 
	enthralled.  I plugged the device into my computer and then 
	followed the instructions on the software.  Within minutes my 
	webcam image was loaded onto a website called spotlife.com.
	Like many young teenagers, I hoped my webcam would improve my 
	social life.  I did not have a lot of friends and I was very 
	lonely.  I hoped the webcam would help me meet other teenagers
	online and hopefully a few girls my age.  That never happened. 
	No teenager out of the webcam pornography business ever 
	contacted me but I did hear from my child predators.  Within 
	minutes of appearing on spotlife, I received an instant message
	from an adult male.  This man I now know was a child predator. 
	I did not understand at that time.
	More child predators followed.  Looking back today, my thoughts
	seem foolish but at 13, I believed these people were my friends.
	They were kind.  They complimented me.  They wanted to know 
	about my day, and they were endlessly patient in listening to 
	me, and they were generous.  In no time, one of these men told 
	me he wanted to send me a gift.  He showed me how to set up a 
	wish list on Amazon.com which allowed everyone who knew my code 
	name to send me a present without requiring me to disclose my 
	address.  Soon I was swamped with videos, CDs, and computer 
	equipment including better webcams all free from my new friends.
	I always rushed back from school to scoop of the packages that
	were on my doorstep before my mother got home from work.
	My new friends were kinder and more generous to me than anyone 
	I had ever known.  I trusted them, and that is when everything 
	changed.  One afternoon, a few weeks after setting up my webcam,
	one of these men approached me online with a proposal.  He 
	would pay me $50 if I took off my shirt for a few minutes while
	sitting in front of my webcam.  He explained to me how to set 
	up an account on Paypal.com, an instant online money payment 
	system.  I was excited about the $50, an amount that struck me 
	at the time was a huge sum of money.  Taking off my shirt seemed
	harmless, I did it at the pool.  The money arrived and I took
	off my shirt.  My viewers complimented me and it felt good.
	The weeks that followed are a blur, but I now understand that by 
	removing my shirt, I had signaled that I could be manipulated. 
	More gifts and money arrived along with increasingly explicit 
	requests.  They wanted me to take off my pants, remove my 
	underwear, and eventually masturbate on camera.  The seduction 
	was slow.  Each request only went a bit further than the last 
	and the horror of what was happening did not strike me at that
	time.  
	I wish I could say I hated what was happening.  Perhaps that
	would absolve some of my sense of guilt.  But the truth is I
	did not.  As more clothes came off, more people contacted me.  
	The compliments were endless, the gifts and payments terrific.  
	I thought I had achieved online what eluded me in real life.  
	I was popular.  Everyone wanted to know my thoughts.  
	Everyone wanted to give me things.  I was the king of my own 
	universe.  All I had to do in exchange was strip and masturbate
	while alone in my room.  
	Men began to reach out to me.  One man, Ken Gourlay approached 
	me online to discuss my interest in computers.  He operated 
	his own web hosting company called Chain Communications.  I was 
	awed.  Here was someone running a real Internet business, 
	talking to me, a 13-year-old kid and treating me as an equal. 
	In the months that followed, Ken raised the possibility of
	hiring me at Chain as an executive director of sales and 
	marketing.  It seemed like a dream come true.
	As I was working for him, Ken recommended that I attend elite 
	computer camp at the University of Michigan where I could 
	obtain advance certifications.  My mother agreed to send me 
	there that summer while I was still 13.  At that time, I 
	thought it was just luck that Ken and Chain were both based in 
	Ann Arbor, Michigan.  I now know that I had been set up. 
	Ken picked me up at camp one day to show me Chain and he took 
	me to his home where I was sexually molested by Ken for what 
	proved to be first and many times by him and other adult men.  
	With the help of my family and my psychologist, I know 
	understand that my molestation by Ken was the turning point
	that sent me on a path to self-destruction.  Afterwards, Ken 
	apologized, promising me it would never happen again, but it 
	did.  
	By this time, I had formalized my webcam business.  I had
	opened a site called justinscam.com, where child predators could
	come and watch, and offer me money and gifts to do what they 
	wanted.  After my first molestation, I began to act out 
	sexually.  I was reckless.  Part of me wanted to die.  And 
	every day on camera, part of me did.
	The next stage emerged with the help once again of Ken 
	Gourlay.  I decided I should sell monthly memberships for a 
	new site jfwy.com.  Ken offered to set up the membership 
	section and host the business at Chain.  People could now, 
	using the site programmed by Ken, pay me a monthly membership
	fee through Paypal and watch all they wanted.
	Another computer executive, Gilo Tunno, was one of my members. 
	He had been an engineer at Intel and a principal designer of 
	the Pentium 4 processor.  I was so impressed.  So when Gilo 
	Tunno told me he wanted to hang out with me in Bakersfield, 
	California where I lived and bring me presents, I agreed.  I
	met him and we went to his hotel.  At some point, he gave me 
	a $1,500 projector and other gifts.  We talked about Intel 
	and computers.  And then he molested me. 
	I look back on those events with Gourlay and Tunno and feel
	ashamed.  All of my explanations seem inadequate.  How could 
	I get myself into that situation?  How could I not see it?  
	But this is one of the issues I wish to stress.  Webcams and 
	instant messaging give predators power over children.  The 
	predators become part of that child�s life.  Whatever warnings 
	the child may have heard about meeting strangers, these people 
	are no longer strangers.  They have every advantage.  It is the 
	standard seduction of child predators multiplied on a geometric 
	scale.
	I no longer cared about anything other than getting as much 
	money as possible.  When another teenager in my town found the 
	videos from my website and distributed them to my classmates, 
	I felt compelled to leave.  My father lived in Mexico.  I 
	wanted to establish a relationship with him.  My mother said I 
	could visit him for a week.
	My week-long visit to Mexico was extended again and again.  At 
	one point, my father asked where all my money was coming from.  
	I told him about my business and he offered in his words to 
	help maximize the earning potential.  I had already established
	a new site called mexicofriends.com which featured me engaging
	in sex with Mexican women.  My father helped by hiring 
	prostitutes for me to have sex with on camera.  The number of 
	members, of paid members skyrocketed.  I was 16 years old.  
	I became even more self-destructive.  I abused marijuana 
	terribly and consumed so much cocaine that I am amazed I 
	survived.  My life was a swirl of drugs, money, and sex.  When
	a paying member of my site, Greg Mitchel, offered to come to
	Mexico and pay me gifts, I accepted.  He, too, sexually 
	molested me.  But I no longer cared, I just wanted his money. 
	I had become exactly what my members viewed me to be, what their
	degrading conversations convinced me I was:  a piece of meat
	for sale to the highest bidder.
	Just after my 18th birthday I tried to leave the business. 
	Money was still coming in from mexicofriends but I wanted 
	nothing to do with it.  I used it to purchase clothes and 
	other items for homeless people in California.  I rented a
	truck and delivered the materials myself.  I was looking for 
	my own redemption but I failed.  I was still addicted to drugs
	and Greg Mitchel urged me to return to the business as his 
	partner.  Together, he said, we could set up a new website, 
	justinsfriends.com.  I resisted for months, but I could not find
	my way in the real world anymore.  Depressed and high on drugs 
	every day, I agreed to return to porn.  The site was fully 
	operational in June of 2005.  
	That same month, I met Kurt Eichenwald, a New York Times
	reporter who was working on a story about webcam pornography. 
	He urged me to quit drugs and get out of the business and I 
	did.  He asked for my help in exposing this world and I agreed. 
	When I told him of the other children who were being exploited a
	nd molested by adult men, he convinced me it was important to 
	tell law enforcement what I knew.  I agreed even though I feared 
	this meant that I could be sent to prison.  I believed that
	the Government would protect the children being abused.  I
	believed they would act quickly.  I was wrong.
	My lawyer, Stephen Ryan of Manatt, Phelps & Phillips, a former
	Federal prosecutor, contacted prosecutors of the Department of 
	Justice and was put in touch with the Child Exploitation and
	Obscenity Section on July 14, 2005.  He informed them that the
	adults I had worked with suspected I was seeking out law
	enforcement.  He told them my life was potentially in danger and 
	that evidence was being destroyed.  He provided the DOJ with a
	written proffer of my testimony and described the physical
	evidence of IP addresses, credit card information, and other 
	proof I could make available.  Mr. Ryan insisted that DOJ 
	provide me with immunity for the testimony to protect me.  He 
	was confident they would respond promptly.  Mr. Ryan was wrong
	also.
	Almost 2 weeks passed.  Finally, we informed the Child
	Exploitation and Obscenity Section that I was flying to
	Washington, not at government expense, and would be available to 
	meet with them for 2 days, July 25 and July 26.  At almost the
	last minute, CEOS scheduled the meeting.
	In our meetings, I identified children who were currently 
	being exploited and molested, as well as other men who were 
	committing the crimes.  I identified the adult child molesters 
	such as Mr. Mitchel, Mr. Tunno, and others.  I told of the
	Internet locations where evidence of these crimes could be found. 
	I informed them that I had names, credit card numbers, IP
	addresses of approximately 1,500 people who paid to watch child
	pornography from my websites and identified the businessmen, 
	the adult businessmen who facilitated the credit card payments 
	necessary for these business.  The FBI case agents I spoke with
	were very professional and of the highest integrity.  I cannot
	say enough good things about them.  The Child Exploitation and 
	Obscenity Section did not make me confident.
	Weeks passed seemingly without progress.  I cannot describe the
	agony of that time.  Each night I wondered were the children I
	knew being molested that night?  Were they being filmed?  Why 
	was no one stopping this?  I understood it would take time to 
	decide whether I should have immunity or not, but why couldn�t 
	they rescue the children in danger?
	In late August, my lawyer informed CEOS in writing that if they 
	did not act, he would take me elsewhere to get State law 
	enforcement officials to begin the work on the matter.  Mr. Ryan 
	began discussions with the California Attorney General Lockyer, 
	whose staff agreed to consider taking the case.  Also at that 
	time, I believe the New York Times was preparing a story about 
	the Government�s failure to do anything about my case.  I 
	remember Kurt asking me what I would tell other cam kids who 
	wanted to disclose their ring of predators to law enforcement.  
	I told Kurt knowing my message would be heard by other kids that
	no one should ever step forward again.  I got the distinct 
	feeling that the CEOS prosecutors did not know what to do with
	me or my information.
	Then, everything changed.  It was so sudden that I have come to 
	believe the CEOS feared the New York Times was going to report 
	the delay.  Whatever the cause, I was granted immunity.  My 
	lawyer turned over the physical evidence.  The following week 
	on September 12, 2005, Greg Mitchel was arrested.  I expected 
	this to be the first of many prosecutions.  Again, I was 
	wrong.
	I wish I could say the prosecution story had a happy ending. 
	It did not.  At that time, I was concerned I would be killed 
	by the adults who would be harmed by my testimony and were 
	frantically searching for me.  After the Mitchel arrest, a 
	sensitive government document was deliberately unsealed from 
	court records.  It is my understanding that this was done by
	the U.S. Department of Justice.  While the names were blacked 
	out, the document clearly identified potential defendants 
	under investigation, as well as the fact that I was a witness 
	against them.  Worse, it warned all the adult perpetrators 
	across the country that I was cooperating with law enforcement. 
	The local U.S. Attorney quoted in the newspapers based on the 
	release of the document.  All of it appeared on the Internet 
	where the adult perpetrators looking for me could read it.
	I feared for my life.  CEOS then offered me government 
	protection which I need in part because CEOS or the U.S. 
	Attorney�s office had deliberately stopped the release of 
	the affidavit.  I declined the offer.  I did not trust CEOS 
	to protect me.  I feared the actions of CEOS from that day 
	forward although not nearly as much as I feared the anger 
	of the predators.  
	Today, I have been off drugs for 9 months and just finished 
	my first quarter at college.  My grades are good and I have 
	friends.
	Had I not met Kurt Eichenwald, I would have never had this 
	chance at a new life.  I will never be able to repay what he
	has done for me.  In a profession which is taught to get the 
	story, he did that, but he treated me with the compassion of 
	a Good Samaritan.  I have my life back.
	Every day, I have regrets, not just for the dreadful 
	decisions I made in the past years but for failing to have
	the impact that I had hoped on this illegal trade.
	I have never been asked by law enforcement about any of 
	the 1,500 names I provided them.  Some of those who molested 
	me, like Mr. Gourlay, and who made all of this possible, 
	are continuing to live their lives, unaware or uncaring about 
	any government inquiry.  People like Mr. Brown who operate 
	the credit card infrastructure of web cam child pornography 
	have been permitted to continue their work, seemingly 
	undisturbed by any law enforcement effort.  I have watched 
	as my former members go online to attack me, boldly 
	proclaiming themselves as my former customers and having no 
	fear that their self-disclosure could result in their arrest. 
	Events have proved them right.
	Since I left the child pornography business last summer, I 
	have risked everything to tell these facts to persons who 
	care, like this committee.  It is my hope that Congress will 
	do everything it can to see to it that children are protected 
	and that our law enforcement effort is competent to combat 
	this evil.  Thank you.
	[The prepared statement of Justin Berry follows:]

Prepared Statement of Justin Berry, c/o Stephen M. Ryan, Esq., Manatt, 
Phelps & Phillips LLP

Chairman Whitfield, Ranking Member Mr. Stupak, and other Members of 
the Committee.
My name is Justin Berry and I am 19 years old. I am here to speak about
a danger facing this nation�s children, one that threatens not only 
their emotional health, but their physical safety.  This danger is 
internet child pornography, particularly involving the use of inexpensive 
web cameras which are used by adult predators to exploit children.
I speak from experience. For five years, beginning when I was 13 years 
old, I operated a pornographic website, featuring images of myself loaded
onto the internet by webcams.  I was paid by more than 1,000 men to strip
naked, masturbate and even have sex with female prostitutes while on 
camera.  My business was assisted by adult criminals, including companies 
that process credit card payments.
I am not proud of the things I have done.  Nor will I personally attempt 
to avoid responsibility for those decisions.  While I did not comprehend
the magnitude of what was happening when I was 13, as I grew older, I 
progressively became corrupted and acted in shameful ways.  Still, I
repeatedly attempted to pull away from this sick business.  But, each 
time, I fell back into this criminal world that had first seduced me, 
and eventually controlled me.
My experience is not as isolated as you might hope.  This is not the 
story of a few bad kids whose parents paid no attention.  There are 
hundreds of kids in the United States alone who are right now wrapped up 
in this horror.  Within each of your Congressional districts I guarantee 
there are children who have used their webcams to appear naked online, 
and I guarantee you there are also children in your district on the 
Internet right now being contacted and seduced online by sexual predators.
I was an honor student, I was class president.  My mom used all the 
latest child protective software.  She checked what was happening in my
room.  She occasionally took away my computer keyboard.  But she was no 
match for the child predators, who worked hard to make sure my child 
porn shows continued.
In my personal opinion, the law enforcement effort is no match for them
either.  Until recently, I never understood why these child predators 
always laughed about the government.  Now I know the child predators are 
at least partially right.  They have little to fear from law enforcement. 
Based on my case, efforts to prosecute these people are riddled with 
mistakes and bureaucracy.  Unless something changes, hundreds, or even 
thousands, of children will be lost forever.

THE BEGINNING
I obtained a webcam at 13 after signing up for an account with 
earthlink.net.  The company, as a promotion, sent me a free Logitech 
webcam. As a child drawn to computers, I was enthralled. I plugged the 
device into my computer, and then followed the instructions in the 
software.  Within minutes, my webcam image was loaded onto a website 
called spotlife.com.
Like many young teenagers, I hoped my webcam would improve my social 
life. I didn�t have a lot of friends and I was very lonely.  I hoped the
webcam would help me meet other teenagers online, maybe even find a few 
girls my age.  That never happened.  No teenager outside of those in the
webcam pornography business ever contacted me.  But, I did hear from many 
child predators. Within minutes of appearing on spotlife, I received an 
instant message from an adult male.  This man, I now know, was a child 
predator.  I did not understand that at the time.
More child predators followed.  Looking back today, my thoughts seem 
foolish, but at 13, I believed these people were my friends.  They were
kind.  They complimented me.  They wanted to know about my day, and were 
endlessly patient in listening to me.
And they were generous.  In no time, one of these men told me he wanted 
to send a gift.  He showed me how to set up a "wish-list" on Amazon.com,
which allowed anyone who knew my codename to send me a present, without 
requiring me to disclose my address.  Soon, I was swamped with videos,
cd�s and computer equipment "including better webcams" all free from my 
new friends.  I always rushed back from school to scoop up whatever 
package was on my doorstep, before my mother got home from work.
My new friends were kinder and more generous to me than anyone I had 
ever known.  I trusted them.  And that was when everything changed.  
One afternoon, a few weeks after setting up my webcam, one of these
men approached me online with a proposal.  He would pay me $50 if I 
took off my shirt for a few minutes while sitting in front of my 
webcam.  He explained how to set up an account on Paypal.com "an instant 
online money payment system.  I was excited about the $50" an amount
that struck me at the time as a huge sum of money.  Taking off my shirt
seemed harmless; I did it at the pool.  The money arrived, and I took
off my shirt.  My viewers complimented me, and it felt good.

BECOMING A PLAYER IN THE WEBCAM PORN INDUSTRY
The weeks that followed are a blur, but I now understand that, by 
removing my shirt, I had signaled that I could be manipulated.  More 
gifts and money arrived, along with increasingly explicit requests.  They
wanted me to take off my pants, remove my underwear, and eventually 
masturbate on camera.  The seduction was slow; each new request went only
a bit further than the last, and the horror of what was happening did not
strike me at the time.
I wish I could say that I hated what was happening.  Perhaps that would 
absolve some of my sense of guilt.  But the truth is, I did not.  As more
clothes came off, more people contacted me.  The compliments were 
endless, the gifts and payments terrific.  I thought I had achieved 
online what eluded me in real life: I was popular. Everyone wanted to 
know my thoughts.  Everyone wanted to give me things. I was the king of 
my own universe.  All I had to do in exchange was strip, and masturbate,
while alone in my room.
Men began to reach out to me.  One man, Ken Gourlay, approached me online 
to discuss my interest in computers.  He operated his own web hosting 
company, called Chain Communications, and I was awed.  Here was someone, 
running a real Internet business, talking to me, a 13-year-old kid, and 
treating me as an equal.  And, in the months that followed, Ken raised the 
possibility of hiring me at Chain, as executive director of sales and 
marketing.  It seemed like a dream come true.
As I was working for him, Ken recommended that I attend an elite computer
camp at the University of Michigan, where I could obtain advanced
certifications.  My mother agreed to send me there that summer, while I
was still 13.  At the time, I thought it was just luck that Ken and Chain 
were based in Ann Arbor.  I now know I had been set up.  Ken picked me up 
at camp one day, to show me Chain.  He took me to his home.  There, I was 
sexually molested by Ken, for what would prove to be the first of many 
times by Ken, and other adult men.
With the help of my family and my psychologist, I now understand that my 
molestation by Ken was a turning point that sent me on a path to 
self-destruction. Afterwards, Ken apologized, promising me it would never 
happen again.  But it did.
By this time, I had formalized my webcam business.  I had opened up a site
called justinscam.com, where child predators could come and watch, and
offer me money and gifts to do what they wanted.  After my first 
molestation, I began to act out sexually.  I was reckless.  Part of me 
wanted to die.  And every day on camera, part of me did.

MEMBERSHIP SITES

The next stage emerged with the help, once again, of Ken Gourlay.  I 
decided that I should sell monthly memberships for a new site, jfwy.com. 
Ken offered to set up the membership section and host the business at 
Chain.  People could now, using the site programmed by Ken, pay me a 
monthly fee through Paypal, and watch all they wanted.
Another computer executive, Gilo Tunno, was one of my members.  He told 
me he had been an engineer at Intel and a principal designer of the
Pentium 4 processor.  I was so impressed.  So when Gilo Tunno told me he 
wanted to hang out with me in Bakersfield, California "where I lived" 
and bring me presents, I agreed.  I met him and we went to his hotel. 
At some point he gave me a $1,500 projector and other gifts.  We talked 
about Intel and computers.  And then he molested me.
I look back on those events with Gourlay and Tunno and feel ashamed.  
All my explanations seem inadequate.  How could I get myself into that 
situation?  How could I not see it?  But this is one issue I wish to
stress.  Webcams and instant messaging give predators power over
children.  The predators become part of the child�s life.  Whatever
warnings the child may have heard about meeting strangers, these people 
are no longer strangers.  They have every advantage.  It is the standard 
seduction of child predators, multiplied on a geometric scale.
I no longer cared about anything other than getting as much money as 
possible.  But when another teenager in my town found videos from my 
website and distributed them to my classmates, I felt compelled to leave.
My father lived in Mexico.  I wanted to establish a relationship with 
him.  My mother said I could visit him for a week.

MEXICO
My week long visit to Mexico was extended and extended again.  At one 
point, my father asked where my money came from.  I told him about my 
business.  And he offered, in his words, to help "maximize the 
earnings
potential."  I had already established a new site, called 
mexicofriends.com, which featured me engaging in sex with Mexican
women.  My father helped by hiring prostitutes for me to have sex 
with on camera.  The number of paid members skyrocketed. I was 16 
years old.
I became even more self-destructive.  I abused marijuana terribly, 
and consumed so much cocaine that I am amazed I survived.  My life 
was a swirl of drugs, money and sex.  When a paying member of my 
site, Greg Mitchel, offered to come to Mexico and bring me gifts, 
I accepted.  He, too, sexually molested me.  But I no longer cared.
I just wanted his money.  I had become exactly what my members 
viewed me to be, what their degrading conversations convinced me I
was: a piece of meat, for sale to the highest bidder.
Just after my 18th birthday, I tried to leave the business.  Money
was still coming in from mexicofriends, but I wanted nothing to do 
with it.  I used it to purchase clothes and other items for homeless 
people in California.  I rented a truck and delivered the materials 
myself.  I was looking for my own redemption.  But I failed.  I was
still addicted to drugs, and Greg Mitchel urged me to return to the 
business as his partner.  Together, he said, we could set up a new 
website, justinsfriends.com.  I resisted for months, but could not 
find my way anymore in the real world.  Depressed and high on drugs 
every day, I agreed to return to porn.  The site was fully operational
in June, 2005.

GETTING OUT
That same month, I met Kurt Eichenwald, a New York Times reporter who 
was working on a story about webcam pornography.  He urged me to quit 
drugs and get out of the business, and I did.  He asked for my help in
exposing this world, and I agreed.  And when I told him of other 
children who were being exploited and molested by adult men, he 
convinced me it was important to tell law enforcement what I knew.  I 
agreed, even though I feared this meant I could be sent to prison.  I
believed that the government would protect the children being abused.  
I believed they would act quickly. I was wrong.
My lawyer, Stephen Ryan of Manatt, Phelps & Phillips, a former federal
prosecutor, contacted prosecutors of the Department of Justice ("DOJ") 
and was put in touch with the Child Exploitation and Obscenity Section 
(known as "CEOS") on July 14, 2005.  He informed them that the adults 
I had worked with suspected I was seeking out law enforcement.  He told
them my life was potentially in danger, and that evidence was being 
destroyed.  He provided DOJ with a written proffer of my testimony, and
described the physical evidence of IP addresses, credit card 
information, and other proof I could make available.  Mr. Ryan insisted 
that DOJ provide me with immunity for my testimony to protect me.  He 
was confident they would respond promptly. Mr. Ryan was wrong also.
Almost two weeks passed. Finally, we informed the Child Exploitation and
Obscenity Section that I was flying to Washington, not at government 
expense, and would be available to meet with them for two days, July 
25 and July 26.  At almost the last minute, CEOS scheduled the meeting.
In our meetings, I identified children who were currently being 
exploited and molested, as well as the men who were committing the 
crimes.  I identified the adult child molesters such as Mr. Mitchel, 
Mr. Tunno, and others.  I told of the Internet locations where evidence
of these crimes could be found.  I informed them I had the names, credit 
card number and computer IP addresses of approximately 1,500 people who 
paid to watch child pornography from my sites, and identified the adult 
businessmen who facilitated the credit card payments necessary for these
businesses.  The FBI case agents I spoke with were professional and of
the highest integrity.  I cannot say enough good things about them.  But 
the Child Exploitation and Obscenity Section did not make me confident.
Weeks passed, seemingly without progress.  I cannot describe the agony 
of that time.  Each night I wondered, were the children I knew being 
molested that night?  Were they being filmed?  Why was no one stopping
this?  I understood it would take time to decide whether I should have
immunity.  But why couldn�t they rescue children still in danger?
In late August, my lawyer informed CEOS, in writing, that if they did 
not act, he would take me elsewhere to get state law enforcement 
officials to begin work on the matter.  Mr. Ryan began discussions with 
California Attorney General Lockyer, whose staff agreed to consider 
taking the case, Also, at that time, I believe the New York Times was 
preparing a story about the government�s failure to do anything about
my case.  I remember Kurt asking me what I would tell other camkids 
who wanted to disclose their ring of predators to law enforcement.  I 
told Kurt, knowing my message would be heard by other kids, that no
one should ever step forward again. I got the distinct feeling that
the CEOS prosecutors did not know what to do with me or my 
information.
Then, everything changed.  It was so sudden that I have come to 
believe the CEOS feared that the New York Times was going to report
the delay.  But whatever the cause, I was granted immunity.  My l
awyer turned over the physical evidence.  The following week, on 
September 12, 2005, Greg Mitchel was arrested.  I expected this to 
be the first of many prosecutions.  Again, I was wrong.  
I wish I could say the prosecution story had a happy ending.  It 
did not.  At that time, I was concerned I would be killed by the 
adults who would be harmed by my testimony and who were frantically
searching for me.  After the Mitchel arrest, a sensitive government 
document was deliberately unsealed from court records.  It is my 
understanding this was done by the U.S. Department of Justice.  While 
names were blacked out, the document clearly identified potential 
defendants under investigation, as well as the fact that I was the
witness against them.  Worse, it warned all the adult perpetrators 
across the country I was cooperating with law enforcement.  The local 
U.S. Attorney was quoted in the newspapers, based on the release of 
the document.  And all of it appeared on the Internet, where the adult
perpetrators looking for me could read it.
I feared for my life.  CEOS then offered me government protection, 
which I needed, in part, because CEOS or the U.S. Attorney�s Office 
had deliberately sought the release of the Affidavit.  I declined 
their offer.  I do not trust CEOS to protect me.  I feared the 
actions of CEOS from that day forward, although not nearly as 
much as I feared the anger of the predators.

CONCLUSION
Today, I�ve been off drugs for nine months, and just finished my 
first quarter at college.  My grades are good, and I have friends.
Had I not met Kurt Eichenwald, I would never have had this chance at 
a new life.  I will never be able to repay what he has done for me. 
In a profession which is taught to "get the story," he did that, 
but he treated me with the compassion of the Good Samaritan.  I 
have my life back.
But every day, I have regrets, not just for the dreadful decisions 
I made in past years, but for failing to have the impact I had 
hoped on this illegal trade.
I have never been asked by law enforcement about any of the 1,500 names 
I provided them.  Some of those who molested me, like Mr. Gourlay, and 
who made all of this possible, are continuing to live their lives, 
unaware or uncaring about any government inquiry.  People like Mr. 
Brown, who operate the credit card infrastructure of webcam child 
pornography, have been permitted to continue their work, seemingly 
undisturbed by any law enforcement effort.  I have watched as my former
members go online to attack me, boldly proclaiming themselves as my 
former customers, and having no fear that their self-disclosure could 
result in their arrest.  And events have proved them right.
Since I left the child pornography business last summer, I have risked
everything to get to tell these facts to persons who care, like this 
Committee.  It is my hope that the Congress will do everything it can 
to see to it that children are protected and that our law enforcement 
effort is competent to combat this evil. Thank you.

	Mr. Whitfield.  Well, Justin, thank you very much for your 
	testimony.  It was quite revealing and we genuinely appreciate 
	the information that you provided.  
	Mr. Eichenwald, you are recognized for your opening statement.
Mr. Eichenwald.  Mr. Chairman and members of this committee, my name is 
Kurt Eichenwald and I am a senior writer with the New York Times.  My 
appearance today is somewhat unusual.  As a matter of policy, the Times 
instructs its reporters to decline requests to testify in judicial and 
legislative settings because it can serve to undermine our work if we 
are seen by the public as an extension of the Government.  In this 
instance, the Times accepted a subpoena from the committee on my behalf 
after the committee agreed that I would be asked to provide only 
published or publicly disclosed information.  To the extent that the 
committee seeks information about reporting processes, I will have to 
respectfully decline to answer.  Nor do I believe it is my place to 
offer policy suggestions.  Within that framework, I offer the following
testimony which may assist the committee in its exploration of this 
important issue.
	On December 19, the New York Times published a front page 
	article that was the culmination of my 6 month investigation 
	into the world of webcam child pornography.  This was an 
	extraordinary project not only for me, not only for the Times, 
	or for journalism in general.  This was an instance in which
	the very reporting could by its very nature result in a crime 
	committed by the reporter.  There was a great deal of 
	consultation with the lawyers, a great deal of consultation
	with the FBI to ensure that at no point did I violate a law. 
	Through that care, we were able to lay bare a nightmarish 
	Internet world that grew without attracting significant 
	attention from law enforcement or child advocates.  As a 
	citizen, I was dumbfounded by what I found.  As a father, I
	was terrified.  
	Like most people, I gave little thought during my life to the
	scourge of child pornography, but I now know that we are 
	fighting a losing battle.  The predators are sophisticated in 
	the use of computers and talented in their manipulation of 
	children.  They count on our willingness to avert our eyes from 
	the unpleasant to succeed in their pursuit of illegal images of
	minors.  And we have been far too willing to comply.  That is 
	part of why the child pornography business has exploded in the 
	past decade.  As many of you noted in your opening statements 
	it is now a $20 billion a year industry.
	Webcam pornography has emerged in just the last few years but 
	it is already a significant part of this elicit industry.  I 
	have submitted copies of my articles which explain facets of 
	this business, as well as the events that led to my discovery 
	of Justin, who served as my guide into this world, showing me 
	the mechanisms used to seduce children into degrading and 
	harmful behavior.  
	Let me stress, this is not a problem involving just Justin 
	Berry or a handful of bad kids.  Hundreds of minors have been 
	lost to the lure of performing in online pornography.  I 
	interviewed a number of them.  They include children from every
	walk of life, wealthy and middle class, poor, honor students 
	and those struggling with their grades, children of divorce 
	and with intact families.  The only shared characteristic I 
	found was a loneliness that these minors feel is alleviated by
	meeting people online and in person through the webcam 
	business.
	Entire infrastructures have emerged to sustain this business,
	including both witting and unwitting corporate participants.  
	You have already heard how predators have turned the ingenuity
	of some of our greatest online companies against our children. 
	Wish lists with companies like Amazon.com and American Eagle 
	Outfitters, a wonderful convenience for gift giving, have 
	become mechanisms for seducing children.  Online payment
	systems such as Paypal.com have been used to facilitate 
	transfers of cash.  Communications programs from companies 
	like AOL and Yahoo! are used both for direct conversations 
	between predators and children, and for the transmission of
	illegal video images.  We have heard a lot today about chat 
	rooms.  They are no longer necessary.  A predator can reach each 
	child individually though these communication systems.  Many of 
	these programs and services can be obtained by children in 
	minutes without requiring accurate identification, or proof of
	your age on parental consent.  
	In addition to the unsuspecting companies, there are businesses 
	that know exactly what they are doing.  In my reporting, I 
	discovered credit card processors who provided support for webcam
	child pornography.  I found web hosting companies that offered 
	servers for the illegal businesses.  I even found a company that
	provided streaming video to sites operated by minors on condition 
	that the company president be allowed to watch the pornographic 
	performances for free.
	I also located scores of marketing sites known as portals which
	were used to direct potential customers to the webcam child 
	pornography sites.  These portals, many of which temporarily shut
	down since publication of my article, underscore the scope and 
	magnitude of this business.  I have provided the committee with 
	the listing maintained by a single portal of the almost 600 
	teenage webcam sites that it marketed.  Perhaps most disturbing 
	was that major American and international companies advertised
	on these marketing portals for child pornography.  The 
	advertisements, copies of which have also been provided to the 
	committee appeared immediately above images used by boys and 
	girls to market their pornographic sites.  Apparently, these 
	companies were attempting to win business both from customers and
	the teenage pornographers themselves as it offered services to 
	help efficiently run for-pay sites.  The advertisers included 
	Logitech and Creative Webcam, both webcam manufacturers, as well 
	as Verotel, an international credit card processing company.  I 
	might note that the advertisements I found on archive.org for some 
	of these portals which you know the addresses for are as we speak
	being changed.  I do not know how it is possible but ads that 
	were there when I began my reporting are now disappearing.  
	Fortunately, I maintained copies.
	But the for-pay sites of adolescents are only one level of this 
	illicit business.  I am told thousands of other children have 
	become unknowing participants in the online pornography industry.
	These minors perform not for money or gifts, but because they
	have been tricked into stripping and masturbating online for
	what they believe is a single viewer.  These performances are
	recorded and then posted on for-pay pornography sites without
	the knowledge or consent of the minors.  In my reporting, I
	found websites dedicated to offering webcam videos of hundreds of
	girls and boys who had been duped into such performances. 
	Surprisingly, a predator showed me a site he found so offensive 
	involving hundreds and hundreds of boys who had been lured into, 
	tricked into a single online performance.  I note this because 
	each one of those videos had an image of the child, a 
	non-pornographic image that the potential customer could use to 
	decide which video to watch.  We talk about the safety of
	putting computers outside the children�s bedroom.  I checked.  Of
	the numbers I examined, about 40 to 50 to 60 percent of the 
	single frame images advertising these pornographic videos were 
	from computers in dining rooms, living rooms, offices, only the 
	minority were in what appeared to be the child�s bedroom.  That 
	site boasted of being the largest such site in the world.  It was
	shut down only after I called for a comment from its credit card 
	processor, Verotel, the same company advertising its services on
	the portals.  
	There is a business infrastructure for this part of the industry 
	as well.  There are people who make their living trolling the 
	Internet for children with webcams, luring them into sexual 
	performances, and selling the resulting pornographic videos.  To
	aid such people and others in disguising their true identities, 
	there is software available that allows anyone to make a recorded
	video appear to be a live webcam transmission.  The result is that 
	a middle age man can portray himself as a teenage boy or girl, 
	complete with the video needed to convince any doubters.  In my 
	reporting, I discovered a group of predators who took bets among 
	themselves about how many online approaches it would require to 
	convince a girl with a webcam to take off her clothes with the 
	resulting recorded video shared among the bettors.  By the time I
	found this group, they had played their game dozens of times.  
	They appear to have never failed to convince their target to 
	strip.  
	To aid in their hunt for adolescents, these adults again use 
	legitimate businesses.  Justin explained how predators used 
	spotlife.com to find him.  Numerous listings of children, 
	including sites such as myspace.com and buddypick.com are now 
	the favorite sites, the virtual Sears catalog for pedophiles. 
	Using these sites in combination, predators can search for 
	children by age, location, and sex.  They can obtain enormous 
	amounts of identifying data including whether a child operates
	a webcam.  I have witnessed conversations among child predators 
	online where they discussed the latest minor located from 
	these sites.  Often predators share information obtained from 
	the minor, both from site posting and from direct conversations.
	Even social networking sites that boast of being safe engage 
	in reckless behavior requiring personal data from minors before
	allowing access to their sites, reinforcing the children�s false
	view that providing such information is harmless.  
	When I explained how predators used these systems to the 
	producers for Oprah Winfrey, they asked me for a demonstration. 
	We limited my search to minors within 20 miles of my location.  
	Meaning if I was a pedophile, I could personally meet those 
	minors within the hour.  The producers timed me.  It took only
	a minute and 30 seconds before I was in direct contact with a 
	16-year-old girl.  By that time, I knew her name, address,
	school, plans for the evening, and other identifying information,
	including the younger sisters� names and ages.  We repeated the 
	test searching for a boy within the same distance, this time we 
	wanted to make it harder, asked me to make sure the kid had a
	webcam.  I was in contact with a 14-year-old in two and a half
	minutes.  In both instances, I told these minors what I was 
	doing and advised them not to speak with strangers online.  Both
	replied contrary to the obvious that they never did.
	From what I have witnessed, it is difficult to protect a child
	once he or she has accepted the predators as allies.  They 
	assist children with strategy and money in outwitting their
	parents so that the shows could go on.  That is exactly what 
	happened in Justin Berry�s case.  These predators are insidious.  
	They advise the minors to make sure that they claim to be over 
	18, suggesting that otherwise the children might get in
	trouble.  Then when the predators are caught, they claim they
	were deceived by the child�s often laughable claim to having 
	been an adult, even the children who had not yet reached 
	puberty.
	Of course, as you see in Justin�s story, there is the 
	possibility and I would say the probability that a child 
	performing online will be molested.  After my story, a
	university professor emailed me and made postings about the 
	Internet to complain that statistically few viewers of child 
	pornography become molesters.  As you have heard, his 
	statistics are bogus, but his argument applied to this 
	circumstance is ludicrous.  These are not instances where 
	pedophiles are obtaining images of children they cannot
	identify.  Here, a single child is being set upon by hundreds 
	of predators all in direct daily contact.  The entreaties to
	meet begin quickly.  Numerous minors told me of predators 
	pleading for meetings, more than a few, I believe agreed to go.
	I have found oftentimes that adults react to these facts with 
	incredulity.  They cannot comprehend how a child could be so 
	easily lured into pornography or speak so readily to a stranger. 
	I think our first panel today gave quite a number of answers to
	those questions.  You also have to understand the environment 
	where the minors find themselves.  They are not being approached 
	by some stranger in the park.  Rather, they are in their own 
	homes feeling safe.  They feel comfortable on the Internet in 
	ways we may not recognize.  Internet communication has all the 
	elements of true social interaction, but remains shallow.  So it 
	is both socially fulfilling and emotionally non-threatening.  
	There is no one else there, just a small solid device nearby. 
	There is a level of unreality about it and on the part of the 
	minors a simple lack of comprehension.
	There also appear to be few protections.  You have heard that 
	the predators often laugh at Federal law enforcement.  They 
	believe arrest is rare and prosecution followed by jail time 
	even rarer.  I was dumbfounded by the willingness of online 
	pedophiles to identify themselves, to publicly discuss their 
	crimes in non-protected publicly accessible sites and chat 
	rooms.  What became obvious as I disclosed in my article, is 
	that our Federal law enforcement effort to combat this threat 
	appears to be hobbled by fractured responsibilities, 
	bureaucratic mindsets, and a simple inability to respond.
	In interviews with law enforcement personnel around the 
	country, I repeatedly heard of frustrations about the Child 
	Exploitation and Obscenity Section, or CEOS, serving as an 
	impediment in the aggressive pursuit of criminal cases.  For 
	example, one law enforcement official told me that CEOS often 
	makes arguments against bringing cases in child pornography 
	cases that would embarrass a defense lawyer.
	I saw the reasons for this aggravation in Justin�s case.  From 
	the time that the Government was notified of Justin�s 
	information to the point where the children in direct danger 
	were saved, more than 50 days passed.  As you heard, efforts 
	by Justin�s lawyer to push the Government into action were met
	with silence.  Requested subpoenas were not issued for weeks.  
	Delays were imposed because bureaucratic approvals were sought 
	from people on vacation.  Important data offered to the 
	Government by Justin has even at this late date not been 
	collected.  It has only been reviewed by me.  As for the 
	material the Government did collect, weeks passed before a 
	forensic computer specialist could examine it, about average
	for the Justice Department.
	Some people identified as perpetrators literally could not get 
	themselves arrested if they tried.  As I reported in the Times,
	one of these potential defendants, Justin�s father, who at the 
	time lived in Mexico, attempted, through his lawyer, to turn 
	himself in at the American consulate in Mexico City.  I 
	personally witnessed a conversation where Justin was informed 
	that CEOS had held that this potential defendant could not be 
	prosecuted because even though he was playing a role in
	broadcasting child pornography into the United States, he did 
	so from across the border.  When the problem of Mr. Berry 
	attempting to surrender himself to the Government presented 
	itself, there was a great deal of discussion as I understand
	it among law enforcement personnel.  They discussed until 
	Mr. Berry changed his mind.  He has since fled Mexico.  
	These kind of problems spread throughout the Government; for 
	example, agents of Immigration and Customs Enforcement, ICE, 
	an excellent organization from what I have seen, have been 
	months investigating a child rapist who had separately been 
	identified to CEOS by Justin as one of his molesters.  This 
	is Mr. Tunno who Justin spoke about a few minutes ago.  Indeed, 
	Justin possessed video evidence of the crime that had been
	emailed to him by Mr. Tunno.  These ICE agents at the time 
	were unknowingly searching for Justin who they knew solely as 
	a boy from Bakersfield that they suspected had been abused by 
	this serial molester.  Those agents heard 4 months after 
	Justin�s meetings with CEOS that the boy they were searching 
	for was already a Federal witness.  That information was not
	passed on to them by CEOS, instead, they learned it from me,
	a newspaper reporter in the course of an interview.  
	Justin Berry stepped forward at a time the Government did not
	know he existed.  He is, to experts� knowledge, the first such
	teenage witness to ever turn over this kind of vast evidence to
	the Government.  Given the way his case was handled, including 
	the meager results and the longstanding threat that it would be 
	Justin who would be prosecuted, it is hard to imagine other 
	teenagers wrapped up in this world will risk their freedom or 
	safety to follow in his footsteps.
	Each year, each week, each day, the predators are becoming more
	sophisticated with computers facilitating the growth and 
	evolution of child pornography.  It is why this business is 
	exploding.  My reporting has shown me that we are woefully 
	behind.
	Thank you.
	[The prepared statement of Kurt Eichenwald follows:]

Prepared Statement of Kurt Eichenwald, Reporter, The New York Times

My name is Kurt Eichenwald and I am a senior writer with the New York 
Times. My appearance today is somewhat unusual. As a matter of policy,
the Times instructs its reporters to decline requests to testify in 
judicial and legislative settings, because it can serve to undermine 
our work if we are seen by the public as an extension of the government.
In this instance, the Times accepted a subpoena from the committee on 
my behalf after the committee agreed that I would be asked to provide
only published or publicly disclosed information. To the extent that 
the committee seeks information about reporting processes, I will have 
to respectfully decline to answer. Nor do I believe it is my place to 
offer policy suggestions. But, within that framework, I offer the 
following testimony, which may assist the committee in its exploration 
of this important issue.
	On December 19, the Times published a front page article that 
	was the culmination of my six month investigation into the 
	world of webcam child pornography. The story laid bare a 
	nightmarish Internet world that grew without attracting
	significant attention from law enforcement or child advocates.
	As a citizen, I was dumbfounded by what I found. As a father, 
	I was terrified.  
	Like most people, I gave little thought during my life to the 
	scourge of child pornography. But, I now know we are fighting 
	a losing battle. The predators are sophisticated in the use of 
	computers and talented in their manipulation of children. They 
	count on our willingness to avert our eyes from the unpleasant 
	to succeed in their pursuit of illegal images of minors. And we
	have been far too willing to comply. That is part of why the 
	child pornography business has exploded in the past decade, 
	making it a multi-billion dollar industry. 
	Webcam pornography has emerged in just the last few years, but 
	is already a significant part of this illicit industry. I have
	submitted copies of my articles which explain facets of this 
	business, as well as the events that led to my discovery of
	Justin Berry, who served as my guide into this world, showing
	me the mechanisms used to seduce children into degrading and 
	harmful behavior.
	Let me stress: this is not a problem involving just Justin or 
	a handful of bad kids. Hundreds of minors have been lost to the
	lure of performing in online pornography. I interviewed a number 
	of them. They include children from every walk of life - wealthy 
	and middle class, honor students and those struggling with their 
	grades, children of divorce and with intact families. The only 
	shared characteristic I found is a loneliness that these minors
	feel is alleviated by meeting people online "and in person" 
	through their webcam business. 
	Entire infrastructures have emerged to sustain this business, 
	including both witting and unwitting corporate participants. You
	have already heard how predators have turned the ingenuity of 
	some online companies against our children.  Wish lists with 
	companies like Amazon.com and American Eagle Outfitters "a 
	wonderful convenience for gift giving" have become mechanisms 
	for seducing children. Online payment systems, such as 
	paypal.com, have been used to facilitate transfers of cash.
	Communications programs from companies like AOL and Yahoo are 
	used both for direct conversations between predators and 
	children, and for the transmission of illegal video images. 
	Many of these programs and services can be obtained by children 
	in minutes, without requiring accurate identification or proof
	of either age or parental consent. 
But, in addition to the unsuspecting companies, there are businesses 
that know exactly what they are doing. In my reporting, I discovered 
credit card processors who provided support for webcam child pornography.
I found web hosting companies that offered servers for the illegal 
businesses. I even found a company that provided streaming video to 
sites operated by minors, on condition that its president be allowed 
to watch the pornographic performances for free. 
I also located scores of marketing sites, known as portals, which were 
used to direct potential customers to the webcam child pornography 
sites. These portals "many of which have temporarily shut down since 
publication of my article" underscore the scope and magnitude of 
this business. I have included as an exhibit to my remarks the
internal listing maintained by a single portal of the almost 600
teenage webcam sites that it marketed. Perhaps most disturbing was 
that major American and international companies advertised on these 
portals. The advertisements appeared immediately above images used by 
boys and girls to market their pornographic sites. Apparently, these 
companies were attempting to win business both from customers and 
teenagers themselves, as they offered services to help efficiently run
for-pay sites. The advertisers included Logitech and Creative Webcam, 
both webcam manufacturers, as well as Verotel, an international credit 
card processing company. 
But the for-pay sites of adolescents are only one level of this illicit
business. Untold thousands of other children have become unknowing
participants in the online pornography industry. These minors perform, 
not for money or gifts, but because they have been tricked into stripping
and masturbating online for what they believe is a single viewer. Those 
performances are recorded and then posted on for-pay pornography sites, 
without the knowledge or consent of the minors. In my reporting, I found 
websites dedicated to offering webcam videos of hundreds of girls and 
boys who had been duped into such performances. One that boasted of being 
among the largest such sites in the world was shut down only after I 
called for a comment from its credit card processor, Verotel  the same 
company advertising its services on the portals. 
	There is a business infrastructure for this part of the industry 
	as well. There are people who make their living trolling the 
	internet for children with webcams, luring them into sexual 
	performances and selling the resulting pornographic videos. To
	aid such people in disguising their true identities, there is
	software available that allows anyone to make a recorded video 
	appear to be a live webcam transmission. The result is that a 
	middle aged man can portray himself as a teenage boy or girl,
	complete with the video needed to convince any doubters.  In 
	my reporting, I discovered a group of predators who took bets
	among themselves about how many online approaches it would 
	require to convince a girl with a webcam to take off her 
	clothes, with the resulting recorded video shared among the 
	bettors. By the time I located this group, they had played
	their game dozens of times; they never failed to convince the
	target to strip. 
	To aid in their hunt for adolescents, these adults again use 
	legitimate businesses. Justin explained how predators used 
	spotlife.com to find him. Numerous listings of children 
	including sites such as myspace.com and buddypic.com  are 
	now the favored sites, the virtual Sears catalogue for 
	pedophiles. Using these sites in combination, predators can
	search for children by age, location and sex. They can obtain
	enormous amounts of identifying data, including whether a 
	child operates a webcam. I have witnessed conversations among 
	child predators online, where they discuss the latest minor 
	located from these sites. Often, predators share information
	obtained from the minor  both from site postings and from direct
	conversations. Even social networking sites that boast of being 
	"safe" engage in reckless behavior, requiring personal data from 
	minors before allowing access to their sites reinforcing the 
	children�s false view that providing such information is 
	harmless. 
	When I explained how predators used these systems to producer
	s for Oprah Winfrey, they asked me for a demonstration. We 
	limited my search to minors within 20 miles of my location 
	meaning, if I was a pedophile, I could personally meet these
	minors within the hour. The producers timed me. It took only 
	one minute and thirty seconds before I was in direct contact 
	with a 16 year old girl. By that time, I knew her name,
	address, school, plans for the evening and other identifying 
	information, including her younger sisters� names and ages. 
	We repeated the test, searching for a boy with a webcam
	within the same distance. I was in contact with a 14 year 
	old in two and a half minutes. In both instances, I told 
	these minors what I was doing, and advised them not to speak 
	with strangers online. Both replied, contrary to the
	obvious, that they never did.
	From what I have witnessed, it is difficult to protect a 
	child once he or she has accepted the predators as allies. 
	They assist children "with strategy and money" in outwitting 
	their parents, so that the shows can go on. And these 
	predators are insidious. They advise the minors to claim 
	they are over 18, suggesting that otherwise, the children might 
	get in trouble. Then, when the predators are caught, they 
	claim they were deceived by the child�s often laughable claim 
	to being an adult  even with children not yet in puberty.
	Of course, as you see in Justin�s story, there is the 
	possibility that a child performing online will be molested. 
	After my story, a university professor emailed me to complain
	that statistically, few viewers of child pornography become 
	molesters. His argument, applied to this circumstance, is 
	ludicrous. These are not instances where pedophiles are 
	obtaining images of children they cannot identify. Here, a 
	single child is being set upon by hundreds of predators, all 
	in direct, daily contact. The entreaties to meet begin 
	quickly. Numerous minors told me of predators pleading for 
	meetings; more than a few agreed to go. 
	I have found oftentimes that adults react to these facts with 
	incredulity. They cannot comprehend how a child could be so 
	easily lured into pornography, or speak so readily to a 
	stranger. The answer comes from an understanding of the 
	environment where the minors find themselves. They are not 
	being approached by a predator in the park. Rather, they are
	in their own homes, feeling safe. They feel comfortable on 
	the internet, in ways we may not recognize. Internet 
	communication has all of the elements of true social 
	interaction, but remains shallow. So it is both socially
	fulfilling, and emotionally non-threatening. There is no one
	else there, just a small, silent device nearby. There is a
	level of unreality about it, a simple lack of comprehension.
	There also appear to be few protections. You have heard that 
	the predators often laugh at federal law enforcement. They 
	believe arrest is rare, and prosecution followed by jail time 
	even rarer. I was dumbfounded by the willingness of online 
	pedophiles to identify themselves, to publicly discuss their
	crimes. But what became obvious, as I disclosed in my article,
	is that our federal law enforcement effort to combat this 
	threat appears to be hobbled by fractured responsibilities, 
	bureaucratic mindsets, and a simple inability to respond. 
In interviews with law enforcement personnel around the country, I
repeatedly heard of frustrations about CEOS serving as an impediment
to the aggressive pursuit of criminal cases. For example, one 
prominent law enforcement official told me that CEOS often makes 
arguments against bringing cases in child pornography cases that would
embarrass a defense lawyer.
I saw the reasons for this aggravation in Justin�s case. From the time
that the government was notified of Justin�s information to the point 
where the children in direct danger were saved, more than 50 days passed.
Efforts by Justin�s lawyer to push the government into action were met 
with silence. Requested subpoenas were not issued for weeks, delays were 
imposed because bureaucratic approvals were being sought from people on 
vacation. Important data offered to the government by Justin has, even at
this late date, not been collected and has only been reviewed by me. As 
for the material that the government did collect, weeks past before a 
forensic computer specialist could examine it -- about average for the 
Justice Department. Some people identified as perpetrators literally 
could not get themselves arrested if they tried: As I reported in the 
Times, one of these potential defendants, Justin�s father, who at the 
time lives in Mexico, attempted through his lawyer to turn himself in 
at American consulate in Mexico City. I personally witnessed a 
conversation where Justin was informed that CEOS had held that this 
potential defendant could not be prosecuted because, even though he 
was playing a role in broadcasting child pornography into the United 
States, he did so from across the border. 
The problems spread throughout the government. For example, agents 
with Immigration and Customs Enforcement (ICE) had for months been 
investigating a child rapist who had separately been identified to 
CEOS by Justin as one of his molesters; indeed, Justin possessed video 
evidence of the crime. These ICE agents at the time were unknowingly 
searching for Justin, whom they knew solely as a boy from Bakersfield 
who they suspected had been abused by this serial molester. Those 
agents heard four months after Justin�s meeting with CEOS that the boy 
they were searching for was already a federal witness. But that 
information was not passed to them by CEOS; instead, they learned it 
from me, a newspaper reporter, in the course of an interview. 
Justin Berry stepped forward at a time the government did not know he
existed. He is, to experts� knowledge, the first such teenage witness 
to ever turn over this kind of vast evidence to the government. Given 
the way his case was handled -- including the meager results -- it is
hard to imagine other teenagers wrapped up in this world will risk their
freedom or safety to follow in his footsteps. 
Each year, each week, each day, predators are becoming more 
sophisticated with computers, facilitating the growth and evolution of
online child pornography. My reporting has shown me, we are woefully 
behind. Thank you. 

	Mr. Whitfield.  Mr. Eichenwald, thank you for your testimony.  I 
	also want to thank you for the articles that you wrote in the New 
	York Times which bring this matter to the attention of the entire 
	country.  We really appreciate your testimony.
	At this time, I am going to recognize the full committee Chairman,
	Mr. Barton of Texas, because he has a meeting down at the White 
	House and he is so interested in this issue and wanted to ask 
	some questions.
	Chairman Barton.  Thank you, Mr. Chairman.  I want to thank you 
	and Mr. Stupak for allowing me to go out of order.  I appreciate 
	that.  I do have an engagement at the White House in 15 minutes 
	so I am going to have to leave after these questions.
	I have been listening in my office on the television to the
	testimony of both witnesses and I do want to thank each of you 
	for appearing.  It is a great credit to your courage, Mr. Berry,
	that you are here and it is a great credit to the journalism 
	profession, Mr. Eichenwald, that you are here.  I must remind my
	friend from the New York Times that when this committee does 
	issue a subpoena it is outweighed.  I mean, you seem to think you
	are doing us a favor by showing up and you are, but you would have
	showed up whether you wanted to or not if you had insisted not to 
	be here.  Having said that, we are very pleased that you are 
	here, do not think this is any kind of an argumentative situation.
	My first question is to you, Mr. Berry.  I cannot fathom how you
	could conduct the activities that you conducted in your home 
	with a mother who appears to have been as concerned as you 
	indicated she was.  How did you get around her efforts to prevent
	you from doing what you did?
	Mr. Berry.  To tell you the truth, that is probably the most 
	asked question that I have recently encountered.  My mother is 
	great, she is wonderful, I love her a lot, and she cares for me 
	more than I can imagine.  Her efforts were no match for the 
	pedophiles.  They were no match for the predators.  Whenever I 
	needed to, whenever I felt that I needed some more space outside
	my home, one of the perpetrators came down to Bakersfield, 
	California where I lived and rented me an apartment on the 
	street.  When I was--
	Chairman Barton.  So you did this outside your home?
	Mr. Berry.  It started in my home, went to the apartment which 
	this individual that I had--
	Chairman Barton.  Where did your mother think you were when you
	were at this apartment?
	Mr. Berry.  I would tell her I was going to a friend�s house or
	something like that.  Being as I was not 18, I could not rent 
	the apartment myself so this individual signed the lease and 
	after that, I had recently, I had graduated high school early at 
	16 and my mom told me I could not move out of the house until I 
	graduated high school, so I took care of that.  After a few 
	months had passed, I had moved to Mexico with my father.
	Chairman Barton.  Your father encouraged this apparently.  He 
	thought he could profit by it.
	Mr. Berry.  Correct.  I told my father about the business when
	he asked where all my money was coming from and he helped me.
	Chairman Barton.  Well what did your mother think about where 
	all this money, or did you hide your money from your mother?
	Mr. Berry.  Living two separate lives and having to come home and
	be the Justin that I was for the family, and then living a 
	different life in Mexico was very difficult.
	Chairman Barton.  Now you indicated that you were an honor student
	and that you were president of your class.  Is that right?
	Mr. Berry.  Correct.
	Chairman Barton.  But you also said you were very lonely.  Can you
	reconcile that?  I mean how can you be the president of the class 
	and be lonely?
	Mr. Berry.  For me, I am not sure on why I felt certain ways or
	why I did certain things.  All I know is these people, I thought 
	they were my friends. 
	Chairman Barton.  Did your friends at school, were they aware of 
	what was going on or did you hide that from them, too?
	Mr. Berry.  I hid this from everyone for years.  I did not tell 
	anyone until recently.
	Chairman Barton.  So where you actually lived, your what we call 
	traditional friends in school, in church, and the neighborhood 
	thought you were just a normal teenager.
	Mr. Berry.  That liked to sit on the computer a lot, yeah.
	Chairman Barton.  Which is fairly normal for teenagers these days,
	that is what teenagers do.
	Mr. Eichenwald, what should we do about these credit card 
	companies that knowingly or maybe even unknowingly foster this 
	kind of activity?  Are there some remedies that are not in current
	law that you would recommend?
	Mr. Eichenwald.  Mr. Barton, in truth, I do not know.  The danger 
	of a reporter is that we come in and we know what we have reported,
	we know what we have found, and it gives us the view of an expert.
	I do not know the laws governing credit card companies.  I do not
	know what standards are in place now which is why I was saying I
	do not think it is my place to offer policy pronouncements.  I 
	think anything I would say would be hardly uninformed.  
	Chairman Barton.  Do you care to, either one of you, foster an 
	opinion about we are having a markup starting this evening and 
	then beginning, and then continuing tomorrow on the new video 
	services bill in which one of the big debating points right now 
	is the concept of Internet neutrality and freedom of the 
	Internet.  Are their exceptions to total freedom of the Internet
	and if so is this one of them?  Should there be some laws, 
	explicitly Internet, concerning Internet behavior for child 
	pornographic activities.
	Mr. Eichenwald.  I have never understood why there was a 
	difference between the Internet and the mails and walking down 
	the street with a bag in your hand.  Child pornography is 
	illegal and those who facilitate child pornography are committing 
	a crime.  If a credit card company is involved in the business 
	and it can be demonstrated that they are for example involved 
	in multiple lines of child pornography, if I was a prosecutor, 
	I would certainly like to have that case.  The bottom line 
	issue, I think sometimes we tend to think ourselves too much 
	into a spiral.  If someone is engaging in an act that is illegal,
	they should be prosecuted whether they are an individual, a 
	company, or whatever other level of involvement there is here. 
	I can tell you for however disturbing these issues have been
	and I deeply appreciate what I have heard from the members about
	how disturbing these things are, I can tell you that the reality
	of what I have witnessed over the last number of months is far 
	worse than anything you can imagine.  It is far worse than 
	anything you would want to imagine.
	Chairman Barton.  Right.
	Mr. Eichenwald.  This working on the story resulted in many, many 
	months of being unable to sleep.  There were images I could not 
	get out of my head when the lights went out.  Ultimately, I have
	been, as a result of my reporting diagnosed with post traumatic 
	stress disorder.  Fortunately, the Times is making sure I am 
	taking care of that.  I say all that to underscore that if there 
	are people involved in this business, whether they are on the 
	Internet or not, this has nothing to do with freedom, this has to
	do with sexual abuse, and those people should be prosecuted.
	Chairman Barton.  Mr. Berry, do you have a comment on that?
	Mr. Berry.  No, sir, I do not.
	Chairman Barton.  Okay.  Last question.  You ask topical questions.
	We have had a testy relationship with the Justice Department.  We,
	being the committee in this investigation, although the Attorney
	General has been very cooperative and we are getting cooperation,
	could they have done more in your case, Mr. Berry to go after the 
	perpetrators and if so, what should they have done that they have
	not done?
	Mr. Berry.  When we came forth to the Department of Justice and 
	told them, when I went and spoke with them and told them about 
	the children who were being abused and molested and exploited by 
	these adult perpetrators, sitting there and wondering every night,
	were these children that I knew being molested, why weren�t they
	safe, and having to wait there 50 plus days, almost 2 months 
	knowing that these children are in the hands of these 
	perpetrators, that ripped me apart.  
	Chairman Barton.  Mr. Ryan, would you want to comment on that?
	
	Mr. Ryan.  I would, Mr. Chairman.
	Chairman Barton, let me give an example of a question that I 
	think the Chairman might ask on Thursday of the Department.  
	Given that we turned over approximately 1,500 IP addresses, 
	matching credit card information, and other identification for 
	people who are paying for child pornography, as a policy call, I 
	am not sure you would want to prosecute all 1,500 of those cases.
	But I sure think that you would want law enforcement to get 
	search warrants and go get the computers of those people and
	leave their wives and daughters and other people in their house
	asking that person why it was that the FBI or ICE or another, 
	the Postal Service who do excellent work, had dropped by to 
	seize it.  I think the Department needs to explain whether its
	policy is to indict those people or to do something with them.
	I think--
	Chairman Barton.  Well we want them to do their investigation
	and we have every indication from staff interviews that they 
	are conducting an active investigation.  I do not want to come
	across as being too negative.  My question is, is it a fair 
	policy question that even given limited resources and all the 
	various issues that you had to deal with at the Federal level
	in determining to go ahead and prosecute, is it a fair 
	statement that Mr. Berry, and you as his attorney, feel like 
	they could have been more aggressive with the information 
	that you provided them?
	Mr. Ryan.  Yes, sir. 
	Chairman Barton.  Mr. Eichenwald, do you have a comment on the 
	generic ability to prosecute these types of cases?
	Mr. Eichenwald.  I do.  Also on the comment of an aggressive, 
	they are aggressively investigating.  I have written about law 
	enforcement issues for almost 20 years.  Normally, I am not in 
	this field, I am dealing with corporate crime, the most complex
	area of criminal prosecution.  There you are dealing with 
	thousands of pieces of paper, sometimes millions of pieces of 
	paper.  You are dealing with multiple witnesses, many of whom 
	have financial interests not to testify.  I have never seen a
	case in my experience move slower than this one.  There were 
	identified again at the beginning, multiple levels of people.  
	You had identified particular perpetrators who had access to 
	specific children, children whose names we knew, children whose 
	faces we could describe, we knew where they lived, who were 
	being filmed and molested.  I must admit, I, to this day, do not
	understand what was happening over those 55 days.  I do sit in 
	horror worrying about the day I hear that on day 35, something 
	happened to one of those children that was preventable.  I cannot
	explain what happened there.
	Then there is the next level.  I mentioned in my opening comments,
	my opening remarks the credit card processor.  Justin mentioned
	the credit card processor.  I was there at the beginning when 
	Mr. Ryan was speaking to CEOS on, I believe it was on July 26 
	and saying the centerpiece of this case is meova.net, the 
	company that is processing the credit cards.  Justin Berry is a
	spoke.  Meova is processing credit cards for child pornography.
	They are the hub.  Not only that, the individual who was the 
	president of meova.net had previously been subject to a child 
	pornography investigation which he had escaped by saying oh, he
	did not know there was child pornography involving what he was
	doing.  Mr. Ryan strongly recommended that the way to maximize 
	the impact of Mr. Berry�s information was to immediately go 
	after meova.net and to immediately seize its information, arrest 
	its president because you had direct evidence that he was 
	processing credit cards for child pornography.  Hopefully flip
	him or a member of his organization to make this case branch out
	in the many directions it seemed like it could go.  To date, 
	none of that has happened because meova.net is still around.  The
	president of the company, we are now 9 months later, the president
	of the company is still wandering around.
	In the Enron case, which I covered, it took 6 months until you
	had a senior executive indicted.  A month later you had another 
	senior all the way up to the chief financial officer.  We are 9 
	months down the line and we have two low-level people who were 
	molesting children or filming children, and they were arrested 
	55 days after the information was provided to the Government.  
	You then have the areas of people who were involved in the 
	infrastructure of this business who were identified by Justin 
	where their information was contained in the documents and files 
	turned over by Justin.  These people are not secret.  I wrote 
	about them in the New York Times.  I had always believed that I
	would be able to name people in the paper by the time the story
	ran.  It never occurred to me that there would be no action by
	the Government.
	I also want to recount a story that was probably the more 
	horrific moment in terms of my interactions with Justin. 
	Eventually, at a point when I really was wrestling with do we 
	have to write a story about the Government�s failure to do 
	anything here.  Eventually, Justin was granted immunity.  One 
	individual who was endangering children was arrested, a few 
	weeks later another individual who was endangering children 
	was arrested.  Justin kept coming back to me and saying what
	about the other men who molested me?  What about what they 
	did?  Finally there was a day he said to me with tears in his
	eyes, why is it the Justice Department does not care about the 
	men who molested me?  To this date, none of those men have been
	prosecuted.  None of those men have been arrested, except for 
	Mr. Mitchel who had the distinction of being the sole person 
	who was identified as endangering other children who also had 
	molested Justin Berry.  So, if you ask if this is an active 
	investigation or what more could they have done, in truth, the 
	better question is what less could they have done.
	Chairman Barton.  Well, I have spoken directly with the Attorney
	General of the United States on this and am absolutely confident 
	that he is personally committed to actively pursuing the 
	specifics and the generic investigation.  We will have the 
	Justice Department here on Thursday.  And again, they have an
	active criminal investigation underway so they are not going to 
	be able to talk on the specifics, but the fact that you two here
	are testifying in an open hearing, and being as brave as each of
	you are, is going to help activate those investigations even 
	more, I am very sure.  But I appreciate your testimony and again,
	I want to thank Mr. Stupak and Mr. Whitfield for letting me go 
	out of order.  I appreciate that.
	Mr. Whitfield.  Thank you.  
	At this time, I recognize the gentleman from Michigan, Mr. Stupak.
	Mr. Stupak.  Thank you.
	And before the Chairman leaves, Mr. Chairman, I hope we could if
	Justice is coming in Thursday, we could pin Justice down because
	as you were asking Mr. Eichenwald his comments just sitting here,
	I already knew Justice would say well it is an active 
	investigation, therefore we cannot answer half of our questions.
	So I hope we would take Justice in closed session or something 
	because if we let them off the hook, this is just going to drag
	on and on.  We have seen it so many times in this committee so 
	I would hope that--
	Chairman Barton.  We are not going to let anyone off the hook.
	Mr. Stupak.  All right, very good.
	And since we are on the lines of law enforcement and having been 
	there for a number of years myself, Mr. Ryan or Mr. Eichenwald 
	if you care to comment on action by the Government.  I see a
	number of things and tell me what I am missing or what else 
	should be on this list.  First, I am sure is their lack of 
	financial resources.  Next, the lack of cooperation I have heard
	between ICE and FBI and Justice, inadequate laws either updated 
	or not caught up with the computer, or conflicting laws between 
	State and Federal, and the credit card processing which I bring 
	up again because we have seen it last year in this committee 
	alone on the Internet pharmacy where people are buying drugs
	improperly, illegally to great harm.  We also saw it in masking
	of drug testing and now we see it on child pornography.  Credit 
	card processing seems to be as you said the hub of the wheel if
	you will, and not just merely a spoke.  And we have had 
	MasterCard, Visa, and all the rest of them in here and they keep 
	saying we will get back with you on how we can best crack down
	on this and yet to this day we have never heard that happen.
	When I look at the problems of law enforcement and the issues
	or excuses they use not to move forward on this, is there 
	anything else missing?  Financial resources, lack of coordination,
	inadequate laws, conflicting laws, or processing of credit cards,
	any other area we should explore if we are going to do true law 
	enforcement, truly aggressive enforcement?
	Mr. Ryan.  Congressman, I think there are very few impediments
	to prosecution in this area and frankly, there may be 
	distractions in the post 9/11 world that have taken some of the
	squads that may have worked this area before, and that would be
	quite legitimate that there may have been an emphasis on 
	counterterrorism and other issues.  If I could be bold enough, I 
	would recommend to the committee that you privately convene the 
	credit card industry at a roundtable here with staff, the members 
	coming in the late part of that meeting and ask them what they 
	would like to do here, because I think the kind of credit card 
	companies we are talking about here are not Visa and MasterCard 
	or the standard companies.  These are companies we believe are 
	heavily involved in an illegal business knowingly.  So the 
	question then is how can we identify those companies and I 
	believe there are ways of doing that and I think industry knows 
	them as well.  And I do believe that cooperation between the 
	business community and the law enforcement community in the area 
	of child pornography can be increased without violating
	personally identifiable information of normal citizens and I 
	think that is the challenge for the Congress with regard to 
	that.  The challenge for law enforcement here I would rather
	have a horse that I had to say whoa to rather than one I�ve got 
	to hit all the time and say giddy up.  I think the question for 
	this committee in a sense with Justice is not so much if a law
	is inadequate, as is the level of energy enough and is the
	ambition of the 26, 27-year-olds, which we all were at one 
	point, prosecuting the Department of Justice being unleashed 
	on these people.
	Mr. Stupak.  Well, but the credit card processing if its 
	MasterCard or Visa that are being embarrassed then what I am 
	saying, wouldn�t they have a greater interest to try to see 
	who is processing these credit cards and for what purpose.
	Mr. Ryan.  I think the legitimate credit card industry could
	be uniquely helpful to the committee privately in helping the 
	committee understand, and helping law enforcement understand,
	what it is that they may be able to do to help on this 
	problem.
	Mr. Stupak.  Sure.  You brought up 9/11 and I do not want to
	necessarily tie this in here, but it seems like on 9/11 we 
	did not have coordination or Justice talking to this agency 
	or that agency, and it seems now when we are 5 years post we
	are still not cooperating or talking with each other from a 
	law enforcement point of view.  And the victims here are 
	children around this country.
	Mr. Ryan.  Well let me say something.  As a prosecutor for 
	the Department of Justice, and I treasure the time that I 
	spent there, I think it is the responsibility of the lead 
	prosecutor in these cases to marshal the agents and their 
	energy.  The 1811s are not responsible for these cases; the 
	prosecutors are responsible for coordinating with them so
	that the good work that the agents do will result in 
	prosecutions to tell them what element is still missing that 
	they want them to go get.  And I think that we have to ask
	the Department of Justice about its leadership role in this
	case.
	Mr. Stupak.  Part of this, I do not know if it is 
	inexperience or what, but why would you put Justin Berry,
	your witness here, disclose his identity as he testified to
	in the court case which actually threatened his life and had 
	made him now a greater victim than what he may have been?
	Mr. Ryan.  I have to say Mr. Berry is one of the bravest and 
	frankly he is a very smart young man.  He understands the 
	danger that he undertook.  He was at the height of danger last
	summer when these people were really looking for him and they
	are amateurs in a lot of ways, but amateurs can kill you just
	the same as professionals.
	Mr. Stupak.  And certainly I would echo those comments but at 
	the same time who left them out there?  Law enforcement, if you 
	will, Justice left him hanging.  He is still out there.
	Mr. Eichenwald.  I would interject--there was a point after the 
	Justice Department unsealed the affidavit that revealed Justin�s
	role in this case, there was a lot of backpedaling and
	apologizing.  And Justin was offered, I know this because it 
	happened while I was sitting there, Justin was offered whatever 
	levels of protection could be brought forward.  At this point, 
	we are 70 days into it and Justin truly had absolutely no faith 
	in the Justice Department and he said to me if I ask for 
	something, they will know my address and if they know my address,
	how do I know they are not going to open the document and unseal
	it somewhere.  And there was a point where he was told that the 
	Justice Department would do anything he asked to make him feel
	safe.  And his response was telling.  His response was tell 
	them to stop being so stupid.
	Mr. Stupak.  Well, Justin, thank you again for being here and 
	for helping parents and young people across this Nation.  Let 
	me ask you this question and if you can answer it.  Is there 
	any reason why a 13-year-old needs a webcam?
	Mr. Berry.  That is a very simple answer, no.
	Mr. Stupak.  And they put this out as a promotion if you would
	sign up with their service?
	Mr. Berry.  Correct.
	Mr. Stupak.  Okay.  And the spotlife.com was that pre-noted or
	anything or--
	Mr. Berry.  Spotlife.com, I do not believe it exists at the
	current date.  There are other sites that are similar and just 
	like it.  That company is owned by Logitech which is the
	manufacturer of the webcams.  So spotlife.com was a way that 
	Logitech, I guess they envisioned that these webcams they can 
	communicate through the Internet, meet new people.  It was a 
	site like that.  
	Mr. Stupak.  It just made it all so convenient.
	Mr. Berry.  It just did.
	Mr. Stupak.  Let me ask this.  You mentioned that your mother
	had child protection programs, took away your keyboard, but the 
	folks you were dealing with where sophisticated enough to work 
	around that.  Explain that for me, how did you get around it? 
	Because I am sure that parents buy things and say we have this 
	protection out here.
	Mr. Berry.  You know, I am not a computer genius, I know a 
	little bit, however, with the help of these people.  Let us 
	just say my mom takes away my keyboard.
	Mr. Stupak.  Okay.
	Mr. Berry.  And the next day I hop on the Internet and I say,
	okay, I need another keyboard, what am I going to do here?  
	Let us say I am discussing this with these people, I could 
	have ten keyboards FedEx�d to my house by same day delivery 
	if I needed it.
	Mr. Stupak.  Sure.
	
	Mr. Berry.  These pedophiles are no match for any parent out 
	there.
	Mr. Stupak.  If you can answer this, maybe you cannot.  What was 
	the greater gift if you will that you received when you first
	started down this unfortunate road?  Was it the physical presents
	that were left at your doorway or was it the compliments, the 
	companionship, the popularity, or as you said the king of the 
	universe.  Was that the motivating force or was it the physical
	gifts?
	Mr. Berry.  I really could not tell you exactly what I was 
	thinking or what drove this.  All I know is these people are the
	most manipulative and the most relentless people that I have
	ever encountered in my life.
	Mr. Eichenwald.  If I could add, I have the unfortunate 
	distinction of having read many of the conversations that Justin 
	had with these predators.  And when he says they are relentless,
	that is truly the correct word.  They would act to remove any 
	impediment to these shows.  The moment depicted in the story 
	was when Justin had a girlfriend and she found out what was 
	going on and was basically begging him to stop.  And this, every
	element of his life was repeated to these people and they begin
	telling Justin how terrible it is she is saying this, how 
	terrible.  She is willing to let you spend your money on her, 
	but she does not want you to earn it.  And the line that I 
	quoted was from one person, "She may not love you, Justin, but 
	your friends in this room do."  That is the entire mindset.  
	They will remove anybody.  They will take care of any
	impediment.  They are 1,500 people acting to subvert the actions 
	of a single parent and they win.  
	Mr. Stupak.  Let me ask one more thing, if I may, Mr. Chairman.
	Mr. Whitfield.  Yes, certainly.
	Mr. Stupak.  We talked earlier with Dr. Cooper about the benefits 
	of your personal gratification or else the commercialization if 
	you will of this pornography.  But you brought in a third
	element, the advertising that are on these sites.  I mean, have 
	we become as a society so accepting of it that we advertise on 
	these sites?  I mean, I was shocked to hear that.  Could you 
	explain that a little bit more?
	Mr. Eichenwald.  The advertising is not taking place directly 
	on the children�s sites.  The minors or there have been sites 
	that have been put up called portals which are basically--the
	advertising is not taking place directly on the children�s sites.
	If you are looking for webcam child pornography, it is hard to 
	find. You have to know where to go.  Well the portals solved 
	that problem.  The portals are a listing of webcam sites which a 
	customer goes in and votes for their favorite site.  The more 
	outrageous the behavior of the child, the more votes the child 
	gets.  These votes become this self-reinforcement, this element of 
	a kid feels good about herself or himself because they are getting
	more votes than other people and so they do things to get votes. 
	I saw people who said I will let you watch me sleep.  I saw, if 
	you do this, I will do that.  There were some very explicit 
	offers of what would happen if people voted for them.  Getting 
	higher votes moves you higher up the list.  Being higher up the 
	list gets more customers.  That little competition is going on 
	right beneath an ad for Logitech or an ad for Verotel.
	The companies, I do not know if they simply do not look at what 
	is going on in the places they advertise but the committee has 
	some samples of a particularly well-known portal and what was 
	there.  And you have, you know, I am a 14-year-old, you watch 
	me in my bed, I mean, they are not being subtle.  They are not 
	making a secret.  And also you get down to what is it people 
	think is being paid for?  These are children in front of a camera 
	charging money.  What in the world does anyone imagine is going 
	on there?  And so I think what we have is not that we are just, 
	we have fallen so far is that we fall to the level of well I can 
	deny it.  You know, I do not explicitly know what this is.
	Mr. Stupak.  Sure.
	Mr. Eichenwald.  But anybody who looked at it for 10 seconds would 
	know exactly what it is.
	Mr. Stupak.  Thank you again, Mr. Chairman.
	Thank you, witnesses.
	Mr. Whitfield.  Justin, in your testimony, you talked about spotlife
	as and I believe that was the vehicle by which you were first
	introduced into this world.  Is that correct?
	Mr. Berry.  That is correct.
	Mr. Whitfield.  And would you elaborate on that just a little bit
	about exactly what spotlife was.  I know there are other similar 
	vehicles today but would you elaborate on that just a little bit?
	Mr. Berry.  What spotlife.com was was an Internet website similar 
	in nature to what he, Kurt, spoke about, however this is a little
	bit different.  What it does is it was a website which allowed 
	viewers like yourself, the nice lady sitting next to you, whoever 
	it might be to go on these websites, browse through a directory, 
	and view the different web cameras that are hooked up through this
	software.  Thereafter that the guests of the website if there was 
	contact information on there, could contact that person with a 
	camera and after that they would begin speaking.  So it is basically
	an automobile to communicate with the webcam user themselves. 
	Mr. Whitfield.  And you had a webcam at that time.  Correct?
	Mr. Berry.  Yes, sir.
	Mr. Whitfield.  And then you, I think in your testimony you, 
	someone	contacted you and said that if you would take your shirt 
	off, they might give you $50?
	Mr. Berry.  Yes, sir.
	Mr. Whitfield.  And that was the first time that you had ever 
	had an experience like that.  Is that correct?
	Mr. Berry.  Correct.
	Mr. Whitfield.  And so it just kind of went on from there?
	Mr. Berry.  From there it escalated.
	Mr. Whitfield.  Okay.  Now I read a lot of this testimony and I
	read the newspaper articles that you wrote, Mr. Eichenwald, and 
	of course talked to Mr. Ryan some.  I have not talked to the 
	Attorney General, although the Chairman has, but I must say 
	without hearing from their side, it does appear to me that the 
	child exploitation and obscenity section of the Justice 
	Department has a lot of explaining to do because you did give 
	them 1,500 names with addresses, with credit card numbers and 
	everything else, and I find it just unbelievable the different 
	stories that I have heard about this investigation and it appears 
	that this center, this section in the Justice Department is 
	failing miserably on this issue.  So I am looking forward to 
	Thursday when they do come and testify.  Hopefully, we can get 
	some answers from law enforcement and follow up on this as well.  
	But Mr. Eichenwald and Mr. Ryan, I know that when Greg Mitchel 
	was, he was convicted I believe.  Was he convicted?
	Mr. Ryan.  Mr. Chairman, he was indicted, arrested, has plead 
	guilty, and on April 12 he will be sentenced.
	Mr. Whitfield.  Okay.  But one of the reasons that he is going to 
	be convicted and will be sentenced is because of the evidence 
	that Justin provided.  And what is the explanation for the 
	Justice Department unsealing that information?
	Mr. Ryan.  Mr. Chairman, I wrote a letter recently to the 
	Department and I would ask that you put that letter and the 
	Department�s response to me in the record.  We summarize it as 
	follows.  The understanding that I have is that the unsealing of
	the affidavit that identified Mr. Berry not by name but for 
	those who are looking for him, identified that he was cooperating.
	I believe the Department�s position is that it was a mistake that
	it was done.  In my experience when a prosecutor makes a 
	mistake, and we do make mistakes as lawyers, you try and put 
	the milk back in the bottle.  That is you reseal the affidavit.
	I am not aware that any effort was ever made to reseal the 
	affidavit but that affidavit once it was released would have 
	given notice to everyone in the business who had done 
	facilitation of the business like the credit card business to 
	dump the server box for example, drop it off a bridge, put it 
	in a dump, erase the random access memory, you know, do various 
	things.  But I do believe, I take at face value the 
	Department�s representation that they really had not intended to
	do that and that it was  a mistake which is in the letter that I 
	received last night about 5:00 in preparation for this hearing.
	Mr. Whitfield.  Okay.  So they basically said it was a mistake 
	but that was a mistake some time ago and there has been no effort
	to reseal.  Is that your understanding?
	Mr. Ryan.  You know, traditionally, Mr. Chairman, these things do
	happen at a court.  It could be the fault of the prosecutor, it 
	could be the fault of a court official.
	Mr. Whitfield.  Right.
	Mr. Ryan.  What you simply do is reseal the information--
	Mr. Whitfield.  Right.
	Mr. Ryan.  --and try and pull it off the Internet which you can 
	do.
	Mr. Whitfield.  Right.  Ryan, at the time that you were 
	negotiating with the Justice Department for immunity for 
	Mr. Berry, there was valid reason for Justin to be concerned, 
	right, about his life.  I mean, did you feel at any time that
	his life was in danger?
	Mr. Ryan.  Mr. Eichenwald and I both observed emails of people
	who were frantically looking for him at various points.  One of
	those was--well there were these emails that reflected that.  It
	was our judgment that it was best for him to be at a location 
	that is not identified.  We have never altered that practice.  
	Mr. Eichenwald and I continue today to advise Justin to not 
	describe for example here where he lives.  And it is just best for 
	him that way.  And I have to say that law enforcement offered us 
	their protection.  But I took seriously the concern that some of
	these child molester perpetrators might hurt him if they knew 
	where he was.  I actually took it as a potential threat.
	Mr. Eichenwald.  Mr. Chairman, I was a direct witness to the 
	magnitude of the hunting that was going on.  The most frightening 
	day in all of this in an array of frightening days, Mr. Mitchel 
	had somehow figured out that Justin had possession of his mother�s 
	cell phone and was sending text messages to it.  And Justin was 
	very upset by this and basically gave me the cell phone which by 
	the way is still in my possession.  That cell phone, he would say, 
	I have money for you.  There was another child that Mr. Mitchel 
	was filming.  He would say, Justin this other child is very upset,
	he wants you to call him, please call, very manipulative acts.  
	And then there was the day when the message arrived and I looked 
	at it and it was my home telephone number and with no other 
	explanation.  And apparently, Mr. Mitchel in his efforts to find 
	Justin had somehow obtained Justin�s cell phone records and found 
	that he had called a number he did not recognize.  I showed that 
	message to Justin.  I showed Justin all the messages that came in.
	And he panicked.  He looked at it, I think rightfully as a 
	potential threat to my family.  And he devised what I thought was 
	a fairly brilliant response.  We were planning to go the next day 
	to Bakersfield for me to examine some of the hard drives that 
	contained the conversations I mentioned earlier and Justin
	contacted Mr.  Mitchel and engaged in a rambling conversation 
	which was basically all fake saying send me my money, wire it to
	me, send it to Bakersfield.  The idea being he would pick it up 
	in Bakersfield and then no one would ever come and look for 
	anyone in my home where I have two children.
	Mr. Whitfield.  Right.
	Mr. Eichenwald.  That took place the evening before we left and
	by the time we arrived in Bakersfield the next morning, there 
	were people hunting for Justin at the airport and they had already
	gone to his home the night before around, I believe it was around
	10:00 at night thinking that he was with his mother.  And from
	what we were told by his mother, there was a hotel by hotel search
	going on.  We had hoped to go to Justin�s house to pick up these
	hard drives.  We obviously could not and we ended up going to stay
	at the home of a friend of Justin�s mother and all of the equipment
	was brought over to us.  But the speed with which we were talking,
	he was talking to somebody in Virginia and suddenly there are 
	people hunting for him in California who I believed was a very 
	strong suggestion of the level of potential danger that this 
	young man was facing.
	Mr. Whitfield.  Thank you.  And in his testimony he talked about 
	Ken Gourlay who actually is going to be testifying or appearing 
	later.  And that Ken Gourlay talked him into going to a computer
	camp up in Michigan and subsequently molested him there according 
	to the testimony.  Did Justin tell you that Ken Gourlay molested 
	him?
	Mr. Eichenwald.  Yes.  And there has been nothing that has been 
	more emotionally traumatic for Justin than in recounting the 
	events involving Ken Gourlay.  I was very surprised he was able to
	get through his testimony today.  He has never been able to have a
	full presentation/discussion about what happened with Ken Gourlay 
	without either becoming enraged or beginning to sob.  And he also 
	at one point showed me a video in which Mr. Gourlay, it was taken 
	in Mexico in which Mr. Gourlay is in the video, walks behind the
	camera and begins operating the camera and the video becomes 
	pornographic so I had no doubt that the things being described by
	Justin and Mr. Gourlay�s involvement were--
	Mr. Whitfield.  So there is no question in your mind from the
	evidence that you saw that Mr. Gourlay was involved in production
	of child pornography.
	Mr. Eichenwald.  Not at all.
	Mr. Whitfield.  Thank you.
	At this time, I would recognize the gentleman, Dr. Burgess from
	Texas.
	Mr. Burgess.  Thank you again, Mr. Chairman.
	Mr. Eichenwald, do you, I think you spoke to it but there were 
	times you were concerned for your own safety.  Is that correct?
	Mr. Eichenwald.  I was more concerned for my children.  I know 
	people who might feel my looking at people who do accounting fraud
	and I normally do not have to worry about are they going to come 
	and balance my kids� checkbooks and there was a very large emotional
	element in this for me in terms of dealing with the reality of what
	was happening to other children, seeing my own children, realizing 
	that Justin�s members in my hometown included a pediatrician, 
	included teachers, included a lawyer who represents children and 
	family issues.  And I probably became more than a little paranoid
	about the safety of my own children but there were instances such
	as this situation with Mr. Mitchel where I was truly concerned for
	the safety of my kids.
	Mr. Burgess.  And Justin, were you concerned about your mother�s
	safety during this time?
	Mr. Berry.  Throughout all of this, I was very concerned.  I was
	very concerned about the safety of me, the safety of my little 
	sister.  I just--these people are relentless.
	Mr. Burgess.  And when you say there were people hunting for you
	at the airport in Bakersfield when you arrived, how does that 
	occur?  How does someone hunt for someone in an airport?  Were
	you paged over the air, were there people that you recognized?
	Mr. Berry.  Actually, when we got to the airport, Kurt and I, my 
	mother was there to pick us up from the airport.
	Mr. Burgess.  We have got five of those.
	Mr. Berry.  All right.
	Mr. Burgess.  Okay, go on, maybe six.  
	Mr. Berry.  All right.  When my mother came to the airport to 
	pick us up, she informed Kurt and I that my father had been 
	looking for me and Kurt as well.  Whenever we arrived, she said 
	that staying at the house was not an option because an individual 
	had come by that previous night asking if I was there as well, 
	and let me know what was going on in that situation when I
	arrived.
	Mr. Eichenwald.  When we arrived on our plane it was one of those 
	situations, I failed to turn off my phone when I was in flight 
	and as we landed, the message--
	Mr. Burgess.  I am shocked.
	Mr. Eichenwald.  Yeah, I am sorry.  We landed.  I immediately
	had a message and my phone rang, his phone rang.  His phone rang
	with a phone call.  It was his mother who was fairly frightened 
	who was saying there are people here.  There were people who had 
	come as well as people who were up from Mexico, including his 
	father.  They had come up the night before because they were 
	involved in these activities and we were told that there were
	people at the airport who were looking for Justin.
	Mr. Burgess.  Would you have been able to identify them?
	Mr. Eichenwald.  I would not have been, I will say, no.
	Mr. Burgess.  Justin, would you have been able to identify those
	people at the airport?  Did you call law enforcement and say 
	arrest these men?
	Mr. Berry.  Well I never saw anyone with my own eyes, no.
	Mr. Eichenwald.  And law enforcement as you can imagine when we
	were at, the Bakersfield circumstances were high pressure enough.
	It was immediately after these events that Justin contacted
	Mr. Ryan and solidified that relationship and Mr. Ryan immediately
	contacted the CEOS.  That is why when I say it was July 14, the 
	reason why is we were in Bakersfield on July 13.  
	Mr. Burgess.  Let me go back to something just for a minute if I 
	could, Justin.  I appreciate you being here and know this must be
	difficult but you said that someone rented an apartment on your 
	behalf while you were still in high school or just graduated from
	high school?
	Mr. Berry.  That is correct.  Gilo Tunno who was originally of 
	Portland, Oregon, at the time.  I had been contacted by this 
	individual over the Internet instant messaging and spoken with 
	him.  He offered to come to Bakersfield, California, and rent an
	apartment, sign the lease in his name because I was not 18 at the
	time.
	Mr. Burgess.  But and so this was an apartment that someone rented
	that they allowed you to use.  They did not rent you an apartment,
	did they?
	Mr. Berry.  No, they rented it for me.  
	Mr. Burgess.  Now is it--
	Mr. Eichenwald.  When Mr. Tunno arrived in Bakersfield, I have 
	the records from that apartment rental.  He rented the apartment 
	and then made sure there were two things in the apartment, Internet 
	access and cameras.  This was not Mr. Tunno�s apartment.  This was 
	Justin�s apartment that was rented for him by Mr. Tunno for the 
	purpose of making sure that the shows continued.  Justin�s mother 
	was coming by his room too much and so that was going to be a 
	problem.  Once the apartment was rented, there was no problem 
	anymore.
	Mr. Burgess.  Now has this person been arrested?
	Mr. Eichenwald.  That is the individual I mentioned who was 
	arrested subsequently for raping an 8-year-old boy.  That was 
	the fellow who was being investigated by the Immigration and 
	Customs Enforcement agents who were trying to figure out who 
	the kid was in Bakersfield who they believed had been molested
	by Tunno.  And again, that was information--they only learned 
	that Justin-- they spent 4 months of their time trying to find 
	somebody who was already a Federal witness and they learned that 
	Justin was a Federal witness.  They learned that this boy had
	come forward not only saying yes, he had been molested but that
	there is video evidence of it in the course of an interview with 
	me.
	Mr. Burgess.  Well Mr. Eichenwald, I mean you said it so
	eloquently, you are concerned about where are the arrests of the 
	people that molested Justin and I guess I would ask the same 
	question and what has been done to preserve evidence, what has
	been done to make certain that prosecution of these individuals
	is still possible?
	Mr. Eichenwald.  I am not sure I understand.
	Mr. Ryan.  Let me, I want to make sure that something is clear.  
	This particular individual is a guest of the United States before 
	Justin came forward to law enforcement.  He was convicted based on 
	other activities.  Law enforcement did catch him, the ICE agent. 
	We are cooperating with the case agents to help on additional 
	work in that case.
	Mr. Burgess.  I see.  But Mr. Eichenwald, you had or gave us 
	testimony that Justin had said to you when are they going to 
	arrest the people who molested me.  And I guess I would ask the
	same question.  What is being done in that regard?  What is being 
	done to hold those individuals accountable, to present evidence, 
	to preserve evidence?
	Mr. Eichenwald.  I could not tell you.  Again, some of the 
	evidence regarding some of those individuals is contained on the 
	laptop computer that Justin described to the Government back in
	July.  No one has ever picked it up.  I mean, that is why we talk 
	about an active investigation when you say there are four hard 
	drives, I believe it was four hard drives, it may have been six.  
	The number of hard drives and there is a laptop computer all of
		which contain evidence.  And they picked up the hard 
		drives but they do not pick up the computer.  I mean, it 
		is sort of you are left scratching your head.  I cannot
		tell you what is being done.  I cannot tell you why 
		things are the way they are.
	Mr. Burgess.  Well if we can get some answers when the Department is
	in here on Thursday.  Mr. Eichenwald, I just commend what you did. 
	A good deal of likelihood that Justin would not be alive today had
	you not intervened.  It certainly, I mean it is a fantastic story 
	that you just literally stumbled upon one day.  Is that correct?
	Mr. Eichenwald.  One of the very strange things about the webcam 
	pornography business is that if one, I mentioned the competition. 
	If one site or one group of sites become successful, the 
	competitors will start to launch very devious ways of attacking
	them.  What happened for me is I came across one of these devious
	attempts to attack a site.  I had just come back from a book
	tour on my last book about Enron and decided I wanted to do
	something international on the same area I deal with so I did 
	a search for, a did a Google search for Interpol fraud alerts 
	and in the course of looking through what popped up, I came 
	across what purported to be a posting by a Tallahassee law firm 
	about an Interpol investigation involving eight, I believe it
	was State Attorneys General who were looking at fraud, a fraud
	case involving a series of websites.
	Most of those websites were a credit process or many of those
	websites were credit card processors.  The posting was detailed,
	I was delighted.  This was a story that was wrapped up in a bow. 
	I just had to figure a little bit out.  I would call the law 
	firm and I have something in the paper.  As I went down looking
	at what each site was I came across a site called Mexicofriends.
	Given that it was a fraud case and it was called Mexicofriends,
	I thought money laundering, there was something good here.  
	Mexicofriends at that point was a dead site so I stuck the word 
	Mexicofriends into Google as a single word, and found a bunch 
	of people talking about somebody named Justin who was obviously 
	a porn star.  I did not understand what, that had to do with 
	fraud, but it sounded like it was getting to become a more 
	interesting story on some level.
	And eventually once I had what I could get out of those 
	listings, I went to something called archive.org which is a site
	that preserves images of old websites and in the course of 
	looking at what are these things that I have not been able to
	find, I put in mexicofriends.com and up popped an image that it 
	looked like something you would find in a seventh grade school
	book.  It was not pornographic, it was a photograph of Justin at
	the age of 14.  Now right now he is 19 and I think he looks 
	about 16.  When he was 14, he looked like he was about 12 or 11. 
	And as I am looking at that, I very quickly came to realize that 
	this image, this person I am looking at was Justin.  Is the 
	person who I had already knew was some sort of porn star.  And 
	the level of disconnect in my head was huge.  I did not know 
	what I was looking at, what I was dealing with.  I do know that
	I was abjectly horrified.  And I did not at that time think wow 
	a news story.  In fact, my thought was I have to figure out if 
	this is real.
	And about that same time I found out that the original posting, 
	the Tallahassee law firm I was going call, the Tallahassee law 
	firm and say well what is this and what about this kid, it ended 
	up that the original posting was a fake.  It had been posted, I 
	believe by a competitor to a number of sites that use different 
	credit card processors to say there is a criminal investigation 
	so all the customers should not go there, they should come over
	here.  I subsequently understood the bulletin board it was posted 
	on was one used by webcam operators. 
	So once I realized that was fake, now I just had a kid out there 
	wrapped up in child porn but maybe that was false too because 
	all I had was an image that could have been cropped out of any 
	seventh grade school book and I began trying to figure out if it 
	was real, not for the purpose of doing a story because truthfully 
	I did not, it did not occur to me there would be a story there,
	not bother to get law enforcement.  There was a posting for 
	Justin�s instant message address.  Actually, there were postings 
	for his email which he never responded to any of them, apparently
	he did not use them anymore.  And then there was a posting for his
	instant message address.  I put that in my buddy list.  He 
	eventually signed on.  I tried to contact him twice.  Both times I
	was too aggressive in my questioning.  I started off by saying 
	something like how old are you and he immediately blocked me.  
	But after that, I went onto a third screen name and tried a much 
	slower approach and it was not until a number of days after that, 
	I cannot tell you how long it was when I finally became convinced 
	that he was a real person and that he was a real teenager because 
	I was asking him what do you want to accomplish in your life? 
	What is it you want to do?  And he replied I want my mother and
	my grandmother to be proud of me.  And at that moment, I knew I 
	was dealing with an abused, sexually abused child.  And subsequent
	to that, made a rapid arrangement to meet him in Los Angeles at 
	which point I revealed, and at that point I began to realize 
	there was a story here and I was in the problem of not having
	identified myself as a reporter.  So when we met, I immediately 
	identified myself as a reporter, explained who I am, what I do, 
	and after about an hour of questions from him and then began 
	asking him details about this webcam world.
	Mr. Burgess.  Mr. Chairman, you have been very generous.  I just 
	would ask if I could ask a question to be answered in writing by 
	Mr. Eichenwald.  I know you must have thought about the issue of 
	freedom of the press for a place like myspace and yet restriction 
	of online predators and I actually would be very interested in the
	journalist take on freedom of the press versus controlling the 
	abuse of the Internet for child pornography.
	So with that, I will yield back.
	Mr. Whitfield.  At this time, I recognize the gentlelady from 
	Tennessee, Mrs. Blackburn.
	Mrs. Blackburn.  Thank you, Mr. Chairman.  I appreciate that and
	I am going to be respectful of your time and of the committee
	member�s time today.  We truly appreciate the time that you have 
	given.
	Mr. Eichenwald, your series is riveting and having read through 
	that it is well done.  I am glad you did it.  But you know, I 
	think that reading it and listening to you and Justin today, it 
	just shows us time and again the frustration that our 
	constituents have and rightfully so many times in trying to deal
	with the Government, in trying to deal with government agencies,
	and trying to deal with the bureaucracy, whether it is with this
	issue or whether it is with other issues.  And I thank you for 
	what you did and for the accountability that you have called us 
	into by placing some criticism and some questions and laying
	those on the table for us to consider.  Addressing the moral
	security of this Nation, there is nothing greater that we do.  
	And it is a responsibility that we take as being a very 
	important responsibility and our constituents should be able 
	to trust that we are mindful of the need to protect and address
	the moral security of this great Nation.
	Mr. Eichenwald, reading your articles and then looking through 
	the testimony and I know you said that it is hard to get in here
	and kind of quantify the scope of online child pornography and
	you mentioned there are five, you had at least 585 sites that 
	were created by teenagers.  Is that correct?
	Mr. Eichenwald.  That is an internal listing off a single 
	portal.  I have actually provided that listing to the committee.
	Mrs. Blackburn.  And so that was one portal.
	Mr. Eichenwald.  That was one portal.
	Mrs. Blackburn.  Wow.  Okay, and do we have any way of knowing 
	when you are on the Internet, when you go through one of the 
	servers how many sites there are that deal with child 
	pornography?  Do we have any idea of the scope of the number 
	of those sites?
	Mr. Eichenwald.  I have, I know that what I have read in the 
	interviews with law enforcement and interviews with folks from
	the National Center for Missing and Exploited Children whatever 
	number we were to pick today would not be true tomorrow because 
	the number is growing and growing very, very quickly.  I just
	saw last night in fact that there is an organization that 
	basically does Internet security and spam, capturing spam and 
	one of the interesting things they do is they analyze the spam 
	that they capture.  And just last night, I saw this, they have 
	come out with a report that the fastest growing piece of spam 
	they are getting now is for new child pornography sites.
	Mrs. Blackburn.  Okay.  Now do we know how many of those within
	this universe of new sites that continue to pop up on an ongoing
	basis, do we have any idea if most of those sites are housed on 
	U.S. soil or offshore?
	Mr. Eichenwald.  The best analysis actually comes out of Britain.
	Right now the British are from what I have read, the British 
	identify two areas of the world as being the primary locations 
	for the production of child pornography.  Eastern Europe is 
	number one and the United States is number two.
	Mrs. Blackburn.  Okay, I thank you.  Thank you very much.
	Justin, how long--and I never found this in your reading.  How 
	long did it take before you mom picked up that something was not
	right with all of this new equipment and your attraction to the 
	Internet?  How long did it take her to kind of chew into this?
	Mr. Berry.  Up until recently here, when I told her.
	Mr. Eichenwald.  And if I could add in, I mean, Justin�s mom, 
	you know, he comes at--what happened when he was 13 and 14, he
	was a 13 and 14-year-old.  I hear about it as a parent.  His 
	mom began to notice there were problems, that he was not acting
	quite the same way, that he was behind closed doors more often 
	she tried to get him to come on out, open the door, she began 
	to sense he was withdrawing.  She took him to see a mental
	health counselor who diagnosed him at the time as having ADD 
	which he does not have.  In fact, at the time, from what I have 
	heard the belief now is that he was already experiencing 
	problems from trauma, from the trauma of what was happening to
	him.  And in terms of the equipment, he did have his own 
	website development company and he was actually designing 
	websites through real companies and actually getting paid for 
	it.  And so it was not unusual for him to have money or equipment.
	You know he could hide the more outrageous sums and just make 
	sure that anything that she caught onto he would just say well
	that is from my website development business.
	Mrs. Blackburn.  Okay.  Mr. Ryan, let us go to the cell phone 
	records.  I think that all three of you mentioned that one of
	the predators, Mr. Mitchel had purchased Justin�s cell phone
	records.  Do you know what avenue he traveled to purchase those 
	records?
	Mr. Eichenwald.  I do not know if he purchased them or not.  I 
	just know that he--
	Mrs. Blackburn.  He had those.
	Mr. Eichenwald.  He suddenly was instant messaging Justin; a 
	phone that he believed reached Justin but it was actually 
	reaching me.  He instant messaged my home phone number.
	Mrs. Blackburn.  Okay.  Well the cell phone record issue is one 
	that this committee is addressing and whether it is pedophiles 
	or identity thieves or drug traffickers or those that would seek
	to do an individual harm getting access to those records.  That
	is something that is of great concern to us.
	I want to again thank you all for your time and for being here.
	And Mr. Chairman, I will yield back my time so that we can move
	onto the other panels today but I thank you.  We will have some
	other questions that we will submit to be answered in writing.
	Mr. Walden.  [Presiding]  Thank you.  The gentlelady yields back
	her time.
	I want to thank all of you for being here today obviously.  And 
	Mr. Eichenwald, I read the comments that you gave in a speech 
	to Marquette University where you were somewhat less than kind, 
	but obviously truthful about your views regarding CEOS.  And in 
	those comments, you said it became obvious no matter how urgent 
	the situation, no matter how many times CEOS was told that the 
	witness�s life was in danger, no matter how many times they were 
	told of other children in peril, no matter how many times they 
	were told about evidence being destructed, they would not act 
	with any exigency.  Is it as bad as you say it is?
	Mr. Eichenwald.  I can only speak to this circumstance.
	Mr. Walden.  Right.
	Mr. Eichenwald.  And in this circumstance it was as bad as I say 
	it is.  It was very hard to understand.  And I need to take a 
	step back and let you recognize the strangeness of this 
	situation.  There has been a wide belief that the New York Times
	made the decision to persuade Justin Berry to become a Federal 
	witness because we were offended by the fact that there were 
	people who paid him for pornography.  That is completely untrue. 
	I would have been delighted to simply write the story and expose 
	this but when Justin began to reveal that there were real 
	children that he knew of who were being harmed and exploited and
	abused by real adults that he knew of and proceeded to show me
	evidence of this or certainly things that were suggestive that 
	this was happening, I went to the executive editor and said we
	cannot just sit here and work on a story while children are 
	being molested and raped.  And so I was authorized to go back 
	and tell Justin you need to become a Federal witness.  The whole 
	idea that there would be some huge delay when someone is coming 
	in and saying this is what is happening, I have personal 
	knowledge of it, I being Justin.  I mean there is one of the 
	individuals, probably the individual he was most worried about 
	I know from a filing in Mr. Mitchel�s case that the Government 
	obtained a videotape of this boy on July 26, the second day that 
	Justin Berry was speaking to them.  And so they were--
	Mr. Walden.  That was a result of that discussion?
	Mr. Eichenwald.  As a result of that discussion they were aware 
	that this existed.  They knew that Justin specifically knew this
	kid.  And they knew that he had said a man who molested me was in
	the room when that video was taken and other videos are being 
	filmed.  There was where Justin had a very difficult day when a 
	video of that kid was posted that had been filmed obviously in a 
	hotel room.  And it was a question of how bad is this going to 
	get.  And so during that whole period of time, the difficulty for
	me was not having enough to write.  Not having--I cannot prove 
	anything yet.
	Mr. Walden.  Right.
	
	Mr. Eichenwald.  My reporting was not sufficient, but knowing in
	my gut and in my heart what is going on and also knowing that 
	ll anybody had to do was go serve a search warrant and they 
	would have all that they needed.
	Mr. Walden.  And 1,500 names and credit card information data 
	points that were given to the Justice Department and all the 
	other information that you brought forward, do you know if the 
	Department of Justice has arrested any of those people?  Justin,
	do you want to--
	Mr. Berry.  I know that Mr. Mitchel has been under arrest, 
	Mr. Tunno has been previously arrested.  He is working with 
	that on a different case.
	Mr. Walden.  Right.
	Mr. Berry.  Mr. Richards is another individual who was 
	endangering children and there are others that have molested
	me that have not been arrested.
	Mr. Walden.  All right.
	Mr. Eichenwald.  I would also mention that Mr. Tunno�s arrest 
	had nothing to do with this case.
	Mr. Walden.  Right, yeah, I understood that from the other
	testimony.
	Mr. Ryan, you were a Federal prosecutor.  Correct?
	Mr. Ryan.  Yes, sir. 
	Mr. Walden.  I am not an attorney but explain to me this affidavit
	process.  When the affidavit was released and made public--
	Mr. Ryan.  Congressman, it is very traditional in law enforcement.
	There is a covert phase of your investigation and the covert 
	phase is very, very important because during that covert phase,
	you can get ready, for example, to serve search warrants in 
	Boston.
	Mr. Walden.  Right.
	Mr. Ryan.  And in Roanoke, and in Bakersfield all at the same 
	time.  And we are very good at that as a Justice Department.
	Mr. Walden.  Right.
	Mr. Ryan.  I mean as a youngster, I was taught the business by
	agents and older prosecutors.  In this case, an affidavit that 
	depended on Justin�s testimony was the basis for the arrest 
	warrant and search of Mr. Mitchel�s residence.  That was a
	very important case and I credit the Justice Department and 
	CEOS for prioritizing that.  
	Mr. Walden.  Okay, but what about the release of that 
	information and the exposure of Justin and the exposure of 
	these other men.
	Mr. Ryan.  That case it was unforgivable in my opinion.
	Mr. Walden.  But has it been resealed today?
	Mr. Ryan.  No.
	Mr. Walden.  Should it have been resealed?
	Mr. Ryan.  Yes.
	Mr. Walden.  If you were the prosecutor in charge, what would 
	have happened?
	Mr. Ryan.  If I had been anywhere near this case, I would have
	just immediately filed a one page application with the court 
	to reseal the affidavit.
	Mr. Walden.  And have you asked the Justice Department to 
	reseal this or was that your role?
	Mr. Ryan.  I said unprintable things to the Department of Justice
	when this was released.  I asked them why frankly they could
	screw up a one car funeral by--
	Mr. Walden.  What was the reaction to you about A, releasing 
	this and B, did you make a request that it be resealed and what 
	did they say if you did?
	Mr. Ryan.  The conversations on that, I would have to--let me 
	try and recall them as best I can for the record but the bottom
	line is nothing happened.  And--
	Mr. Walden.  So you did ask them to reseal and they have not 
	resealed?
	Mr. Ryan.  You know, I do not recall asking them to reseal it. 
	I do remember telling them at the time that it was an 
	outrageous piece of malpractice--
	Mr. Walden.  Did they explain why they released the in
	formation--
	Mr. Ryan.  There is a letter that is the best department 
	explanation that I received last night at 5:00.
	Mr. Walden.  And what does that letter say and could you provide 
	it for the committee?
	Mr. Ryan.  I can.  
	Mr. Walden.  Mr. Ryan, it is intriguing to me.  This happened 
	in September, right, that the affidavit was released?
	Mr. Ryan.  Yes.
	Mr. Walden.  And you got the letter how many hours before our
	hearing?
	Mr. Ryan.  Well I raised it in a different context.  Mr. Berry
	was never contacted to participate and provide a victim witness 
	statement in the sentencing of Mr. Mitchel and I thought that 
	since the Department had relied on his information to obtain 
	the arrest and search warrant that they would be interested in 
	using him as the key victim because he had been abused by 
	Mr. Mitchel and it was in that letter that I pointed out, I 
	guess ironically, that the Department had released the affidavit,
	they might want to come back and ask us for the information so 
	that the court would know about the abuse.
	Mr. Walden.  All right.  
	Mr. Berry, I just have less than 2 minutes and I have to ask 
	you what may be a difficult question for you to answer.  But
	you have testified that during a certain summer, Mr. Gourlay
	who I think is here in the audience, took you to his home and
	sexually molested you, you were 13 years of age.  And he was 
	what, in his 20�s at that time?
	Mr. Berry.  I believe so, yes.
	Mr. Walden.  And were you scared?  Were you upset?
	Mr. Berry.  Upset is not even the word.  
	Mr. Walden.  And he promised it would never happen again and
	yet it did?
	Mr. Berry.  That is correct.  He promised me it would never 
	happen again and it did.
	Mr. Walden.  And he took advantage of you again.  The question,
	I think probably a lot of parents have is having been through 
	what you have been through, having seen that happen and happen
	again, why were you not able to cut off contact with 
	Mr. Gourlay?  And this is not an attack on you, but what is 
	it that allows somebody to grip you like that to the point
	that you were scared, you were upset, you were all these 
	things and yet being in your life.
	Mr. Berry.  As a 13-year-old being molested and abused, I do
	not know exactly what my thoughts were.  All I know is that 
	I buried those emotions until recently and right now it really
	hurts.
	Mr. Walden.  What advice would you have for other young people
	who may be in a similar predicament?  How could they break it 
	off where at that age you were not able to?  What would you 
	tell them?
	Mr. Berry.  Yeah, truthfully I am not too sure.  I am really 
	not.  I do not know if I would listen myself.  I was pretty
	stubborn as a kid as most teenagers are.
	Mr. Walden.  I understand that.  All right, well thank you for
	your courage and for being here today.  My time has expired. 
	The Chair recognizes the gentleman from New Jersey.
	Actually, Mr. Ferguson, we are going to recess for 5 minutes 
	to take a bit of a break and give our witnesses a bit of a 
	break.  We forget that sometimes and the committee will resume 
	its business in 5minutes.
	[Recess.] 
	Mr. Whitfield.  The hearing will reconvene and the Chair will
	recognize the gentleman from New Jersey, Mr. Ferguson, for his
	10 minutes of questions.  Mr. Eichenwald is coming back in so
	Mr. Ferguson you are recognized.
	Mr. Ferguson.  Give Mr. Eichenwald a chance to take his seat.
	Mr. Eichenwald.  My apologies.
	Mr. Ferguson.  Get back settled, not at all.  
	Mr. Eichenwald, in your testimony, you referred to sites like 
	myspace.com and buddypick.com and you called them a virtual 
	Sears catalog for pedophiles.  Can you explain why that is 
	the case and if you would, would you try and be concise?  Why 
	do you believe that is the case?
	Mr. Eichenwald.  Kids put up the images.  They put up their 
	contact information, many times to attract attention to their
	site; they pose in provocative ways.  There will be shirtless 
	shots.  There will be everything there to suggest which kid 
	is comfortable with what.  And whenever there is a kid who is
	found who is more explicit than the usual, not illegally
	explicit, just explicit, just sexualized, I have watched these 
	conversations.  Those kids begin to be discussed by the 
	predators.  There are postings about them and the links to 
	their sites are posted.  
	Mr. Ferguson.  I know you said that you were not here to make 
	public policy recommendations, I understand that.  But what do 
	you believe the ISPs should do with regard to these sites?
	Mr. Eichenwald.  The ISPs have a responsibility.  I truthfully
	do not know.  I mean the reason I do not make public policy 
	pronouncements is because I simply do not know the mechanics and
	mechanisms.  And ultimately, I am not sure what an ISP is capable
	of doing or should be required to do.  I think I would say Steven
	Ryan knows a lot about that.
	Mr. Ryan.  Congressman, I think this is--
	Mr. Ferguson.  Just pull the microphone closer to you, please and
	turn it on.
	Mr. Ryan.  My technological guru.  Congressman, I think the 
	legitimate ISPs do a lot in this area.  The problem of course is 
	they have to balance the rights of privacy of legitimate
	subscribers and also not invading communications.  I think it 
	would be very useful for the committee frankly to have a 
	roundtable discussion without the press here, with staff, with
	the Members coming in at the end to find out what the ISP 
	industry can do in this area.  I really do think that industry 
	could be an important partner with law enforcement.  There is a 
	center that has been established in Pittsburgh that is a 
	cooperative center between State and Federal law enforcement and 
	in my corporate capacity when I am representing corporations, we
	have established relationships with that Internet clearinghouse 
	center for law enforcement and we do make referrals there.  So I 
	think there is important work that is being done by the private 
	sector with the law enforcement community in this area.  I think 
	it would benefit the committee to know more about that.  
	Mr. Ferguson.  Okay, I appreciate that.  
	Justin, Mr. Berry, your testimony, you mentioned that child 
	predators over the Internet are laughing at law enforcement.  
	What do you mean when you say that?
	Mr. Berry.  When I was still in this business, I talked to or 
	spoke with one of the child predators and told them I was going
	to turn them in to law enforcement.  Their response to that was 
	they laughed at me and they told me that I would be the one in 
	trouble.  And that I would be the one being prosecuted for child 
	pornography.  I wish I could say that would be true or would not 
	be true.  These people, the law enforcement efforts I do not 
	know what is going on in all the cases.  All I know is what is
	going on in this case and it seems that they are right.
	Mr. Ferguson.  These folks are technologically savvy.
	Mr. Berry.  Some are, some are not.
	Mr. Ferguson.  I am talking about the folks that you described 
	as the predators, the folks that are laughing at law enforcement.
	These are folks that are Internet savvy, they are technologically 
	savvy.
	Mr. Berry.  Like I said, some are, some are not.
	Mr. Ferguson.  Why do you think it is difficult for law 
	enforcement to find these folks, the folks that are making and 
	distributing this material and buying these images of children?
	Mr. Berry.  Maybe asking them would be a better question.  I do 
	not know if--
	Mr. Ferguson.  Well we will.  I promise we will.  I wondered if 
	you maybe had any theory or any thoughts with regard to this.
	Mr. Berry.  I have been heavily disappointed by what has happened
	in regards to this case.  And I can see if that is a reflection 
	on the United States and how they feel and how they prosecute 
	child pornographers, well I can see why they would feel that way.
	Mr. Eichenwald.  Congressman, there is one individual I would 
	strongly recommend the committee speaking with.  I will have to 
	get you his name later.  He is an art professor at a university 
	who as an experiment in 2000, spent many months trafficking among 
	the predators basically doing what I have been doing and watching
	their conversations.  And actually it was from what I interviewed
	him in the course of my article and he is the first one who told 
	me about how the predators truly laugh at the Federal enforcement
	effort.  That they believe the only people who get caught are the
	ones who are just too dimwitted to figure out how to handle the
	situation.  A lot of it does have to do with the technological 
	capacity of the people who are the predators.  They share
	information on how to avoid leaving footprints, how to avoid 
	leaving any evidence that they have been to sites, any evidence 
	of what they put on their computers.  Mr. Tunno, who we have 
	heard about a number of times, who is involved in this situation, 
	actually had invented a computer that had no hard drive so when 
	it was unplugged from the wall, the illegal images or whatever 
	other evidence was on the computer would disappear.  These are 
	smart people.  They are sophisticated people.  They know that, 
	if child pornography is what they want, they know how to get it,
	requires them to be technologically sophisticated and 
	unfortunately they are ahead of the game.
	Mr. Ferguson.  I am advised by staff that professor�s name is
	Philip Jenkins.
	Mr. Eichenwald.  That is it, yes.
	Mr. Ferguson.  He has been interviewed by the committee staff. 
	That is the professor you were talking--
	Mr. Eichenwald.  He is a wonderful resource because he is a 
	person who has been for many months and he wrote a fabulous book
	about this--for many months talking with these people and his 
	information dates back to 2000.  But from a historical basis in 
	particular, it really underscores the obsessive nature of the 
	online predator as well as the technological sophistication and 
	their contempt for Federal law enforcement.  
	Mr. Ferguson.  Now Mr. Chairman, we are obviously continuing our 
	investigation into this subject and I would imagine and I would 
	hope frankly as we learn about whatever inadequacies there may
	be in the law, that as we look at legislation to correct and 
	address problems in the law in terms of prosecution, information
	available to those clearinghouses and whatever else, I would 
	respectfully suggest that we might name that legislation for 
	Justin Berry.  He has been through a lot and he has experienced 
	a lot.  He has done some difficult things and courageous things.
	By his own admission he has made mistakes and it has taken a 
	lot for him to appear before the committee today.  And I would 
	hope that we would consider that.  
	I have a couple of more questions for Mr. Berry.  What do you 
	think would be a fair sentence for the men that you say 
	molested you?
	Mr. Berry.  These people, these predators are not going to 
	stop.  If you arrest them, they are going to go back and find 
	another kid and they are going to keep doing it until they are 
	put away.  I would hope they would get life.
	Mr. Ferguson.  You testified, Mr. Berry, that you now see Ken 
	Gourlay�s molestation of you as the beginning of your downturn,
	the beginning of this spiral that you entered into in your 
	teenage years.  Why do you think that?
	Mr. Berry.  When I was molested by Ken, before that I was a 
	happy kid.  I went to school, I played in sports, I had a few
	friends.  Afterwards, now that I look back in retrospect, my 
	life from there on has changed dramatically.  I would have never
	imagined I would have done the things that I have done and I am 
	not proud of it.  I cannot say exactly how it affected me, all I
	know is to this day right now I am seeing a psychologist and I am 
	a pretty messed up kid.
	Mr. Ferguson.  Thanks very much for being here today and we 
	appreciate your testimony.  Mr. Eichenwald, we appreciate your 
	testimony as well the work that you have done in uncovering this 
	situation. 
	And I yield back, Mr. Chairman.
	Mr. Whitfield.  Thanks, Mr. Ferguson and we appreciate your 
	suggestion and I do think that we obviously are going to be 
	looking at legislation to enforce the firewalls relating to this
	issue and it is a complex issue and we will need to work on that.
	Your suggestion in naming that after Justin Berry is something 
	we definitely will consider and will follow.
	Mr. Walden?
	Mr. Walden.  Mr. Chairman, if I might.
	Mr. Berry is there anybody in this room who you believe molested you?
	Mr. Berry.  Yes, Ken Gourlay.
	Mr. Walden.  Thank you.
	Mr. Whitfield.  Are there any other questions of this panel?  
	Okay, well I am going to thank the three of you very much for 
	your time, for your testimony.  Justin, we know that it was quite
	difficult for you and we look forward to staying in touch with 
	you through our committee and wish you the very best in pursuit 
	of your college degree.  And Mr. Ryan, thank you very much for 
	your testimony.  And Mr. Eichenwald, we once again thank you for
	the articles you wrote in the New York Times to focus attention 
	on this issue.
	And with that, we will release this panel and we will call up 
	the next panel which will actually be the third panel.  And 
	that is one person and that is Mr. Ken Gourlay who is 
	accompanied by his attorney.  I believe his name is James Rasor
	with the Rasor Law Firm in Royal Oak, Michigan.  
	And Mr. Gourlay, if you would have a seat at the table.  Now 
	Mr. Gourlay, you are aware, you have watched the other panels
	and you are aware that the committee is holding an investigative
	hearing and in doing so we have the practice of taking testimony 
	under oath.  Do you have any objection to testifying under oath 
	today?
	Mr. Gourlay.  No, sir.
	Mr. Whitfield.  Under the rules of the House and the rules of the 
	Energy and Commerce Committee, you are entitled to be advised 
	by legal counsel about your constitutional rights.  Do you 
	desire to be advised by counsel during your testimony today?
	Mr. Gourlay.  Yes, sir.
	Mr. Whitfield.  And would you identify your counsel for the 
	record, please?
	Mr. Gourlay.  Mr. James Rasor.
	Mr. Whitfield.  And you are Mr. Rasor?
	Mr. Rasor.  Good afternoon, Mr. Chairman.
	Mr. Whitfield.  Okay, thank you.
	Mr. Rasor.  Jim Rasor of the Rasor Law Firm in Royal Oak.  A
	pleasure to be before the committee today.
	Mr. Whitfield.  Okay.
	Mr. Rasor.  And I think this has raised some very interesting 
	questions in testimony.
	Mr. Whitfield.  Thank you.  Now I want to make it aware that 
	the legal counsel will not be testifying in this panel but will 
	be here for the purpose of the advising Mr. Gourlay on his 
	constitutional rights.  
	[Witness sworn]
	Mr. Whitfield.  You are now under oath, Mr. Gourlay and do you 
	have an opening statement that you would like to make?
	Mr. Gourlay.  No, sir.
	Mr. Whitfield.  All right.  Mr. Gourlay, you heard Justin Berry
	testify under oath that you initially contacted him online when 
	you saw him on his webcam and then you continued to contact him
	through instant messaging regarding his interest in computers. 
	He was a 13-year-old boy at the time and you were a man in your
	20�s.  According to Mr. Berry�s sworn testimony today you 
	invited him to attend a computer camp near your home in Michigan 
	and during that trip you sexually molested him, the 13-year-old
	boy, for the first of what would be many times.  In addition, 
	Mr. Berry testified that you and your company, Chain 
	Communications or www.thechain.com, were involved in commercial 
	enterprise which made money from the sexual exploitation of 
	minor children over the Internet.  Mr. Gourlay, did you ever have
	sexual contact with Justin Berry when he was under the age of 
	18 years old?
	Mr. Gourlay.  I will decline to respond based on Fifth Amendment
	privilege.
	Mr. Whitfield.  Are you refusing to answer any questions that 
	we may ask you today based on the right against self-incrimination 
	afforded to you under the Fifth Amendment of the U.S. Constitution?
	Mr. Gourlay.  Yes, sir.
	Mr. Whitfield.  And is it your intention to assert this right in 
	response to all further questions from the subcommittee today?
	Mr. Gourlay.  Yes, sir.
	Mr. Whitfield.  Given that if there are no further questions from 
	the members, I will dismiss you at this time subject to the right 
	of the subcommittee to recall you if necessary.  So at this time, 
	you are excused.
	Okay, at this time, I would call up the fourth panel of witnesses 
	and that is Mr. Ernie Allen who is the President and Chief
	Executive Officer for the National Center for Missing and 
	Exploited Children and is located in Alexandria, Virginia.  
	Mr. Allen, we appreciate your being here today.  I have enjoyed 
	our conversations with you prior to this hearing and the great
	work that your National Center for Missing and Exploited 
	Children is performing and I would like to recognize you 
	5 minutes for your opening statement on this important subject 
	matter.

TESTIMONY OF ERNIE ALLEN, PRESIDENT AND CHIEF FINANCIAL OFFICER, NATIONAL
CENTER FOR MISSING AND EXPLOITED CHILDREN

Mr. Allen.  Thank you, Mr. Chairman, members of the committee.  I am
delighted to be here as you discuss this important issue.
	I have submitted written testimony but per your request, I 
	would like to do a brief summary focusing particularly on the 
	scope of the problem of child pornography.  You have heard from 
	other witnesses this morning that this is an exploding problem 
	not just in the United States but around the world.  You have 
	heard that the latest estimates are that commercial child
	pornography is a $20 billion industry and non-commercial child 
	pornography is an even larger share of Internet child pornography.
	But I would like to make a couple of key points that I think are 
	important to this Congress.  One is that while this is a global 
	phenomenon, we believe that the majority of the consumers are 
	Americans.  Secondly, we believe that the majority of the
	victims are Americans, and we also believe that the age of the 
	victims being used and exploited in child pornography is 
	becoming younger and younger and the images are becoming more 
	graphic and more violent.



	What I would like to do briefly is direct your attention to the 
	screen.  You have asked for some visual information.  As the 
	committee knows, in 1998, the Congress asked our center to become
	the 911 for the Internet on these kinds of issues.  We have 
	created a Cyber TipLine that has handled 385,000 reports of child
	sexual exploitation; 350,000 of those reports are on child 
	pornography alone.



	Mr. Whitfield.  Excuse me, Mr. Allen, what was the year that you
	started this?
	Mr. Allen.  In 1998.  But just to give you an idea, the first year
	of the Cyber TipLine we handled 4,800 reports.  In 2004, we handled
	112,000 reports.  So this is a growing phenomenon.
	One of the key issues we are tying to address is who these children
	are.  In the aftermath of the Ashcroft Decision by the Supreme Court
	3 years ago, increasingly defendants are now arguing these are not 
	real kids.  These are virtual images.  So judges and prosecutors
	are asking that we try to figure out who these children are.  We 
	have been able to identify working with Federal law enforcement in
	the United States and law enforcement around the world, 660 
	children have been identified but we have reviewed 3.7 million 
	images so this is a huge and growing phenomenon.


	One of the other points I would like to make to the committee is 
	that overwhelmingly the perpetrators of these offenses are not 
	strangers to the children.  Almost half of the offenders have 
	been members of the child�s family.  Another 32 percent have been
	family friends and associates.  The phenomenon that we talked 
	about in Justin�s panel that preceded this, the sort of 
	self-produced images, that covers 5 percent of the reports we 
	have received but is a growing share of the problem with the 
	advent of the webcam and other technology. 




The age of the children who we are identifying in these images, 73 percent
of the victims had been pre-pubescent.  And of the offenders that we have
identified, 39 percent of the offenders have had images of children 
younger than 6 years old, 19 percent younger than 3 years old.



	Now a couple of quick examples.  I talked about the importance 
	and in each one of these cases obviously we have eliminated any 
	possibility of identifying who the children are.  In the recent 
	case, ICE agents made a child pornography arrest involving an 
	offender but there were six young girls in these images who we 
	were not able to identify rapidly.  What our center is trying to
	do is to place these children somewhere on planet Earth so we 
	can identify the appropriate law enforcement agency.  In this 
	case, there was some evidence in the background, a television set
	with an advertisement that enabled us to narrow, identifying the 
	company that produced this cup to narrow the focus to several 
	Midwestern States; a grocery bag on a shelf that similarly helped 
	us hone in on where these children were; an envelope on a desk 
	that enabled us to reduce the focus to one city.  And then in one
	of the images, it is very difficult to see but there is, the 
	child had had--she was drugged and had her Brownie or Girl Scout
	uniform removed.  Through enhancing this image, we were able to 
	identify the last two digits of the scout troop.  And through the
	other information and in localizing the information, we were able
	to identify the six children and the offender who is currently 
	being prosecuted in that State.  This is an ongoing challenge.  



	I want to give you just a quick example of the kinds of sites 
	that are out there.  And we are currently working with law 
	enforcement not only State and Federal but around the world to 
	identify these sites and then use every legal means to shut them 
	down.  This is one example.  This is--obviously we have removed 
	images from the sites--but this is an active child pornography 
	website.  As you can see, you are encouraged to join.  This is a
	fee-based commercial site, $150 a month and you are offered the 
	opportunity to provide credit card information or other method of
	payment information.  What is happening in so many of these cases 
	is that the individuals are purchasing access to this illegal 
	content, using credit cards and other methods of payment
	information and we are working very hard to end that.  Credit
	card information--it is hard to see from here, it is on the
	bottom of the screen.



	One of the steps we have tried to take, I know in the earlier 
	panel you talked about the difficulty of prosecution and law 
	enforcement simply because the magnitude of the challenge is so 
	great.  What we have tried to do is to create a financial 
	coalition.  We brought together credit card industry leaders, 
	banking leaders, Internet industry leaders with the premise that 
	you cannot possibly prosecute everybody.  And at a minimum, what 
	we can do is following the money, stop the payments under 
	existing terms of service agreements under existing law, and 
	shut these sites down.  If we take away the profitability, it 
	is going to be very difficult for them to sustain themselves.  
	And the process that we have developed just to show you 
	quickly, we are going to use our Cyber TipLine to identify the 
	reports, aggressively identify these sites.  Once that is done, 
	our analysts will visit the sites and confirm that it is illegal 
	child pornography.  Then what we will do is work with Federal 
	law enforcement to perform test transactions.


What the financial industry has told us is that credit card companies 
do not often know what the purchase is for.  If we can identify the 
merchant bank for them in a timely way, they can use their legal 
leverage to stop the payments and use their licensure provisions to put 
the pressure on the banks to terminate these relationships.  Once we 
have done that, the companies will provide us the details of that 
transaction, the credit card company will isolate the transaction and 
the location of the merchant.  The credit card company will amend the 
information in the database and one of two things will happen.  We are 
going to provide it to law enforcement for 3 days so that law enforcement
can make a determination of whether it wants to initiate a criminal 
investigation.  That will always be the first priority.  But if it does
not act within those 3 days, then we would provide that information to
the appropriate financial institution, issue a cease and desist letter, 
and ask them to take administrative action to shut down the businesses.  

	The last thing, Mr. Chairman, that I want to do is show you a
	highly edited photograph.  We hear from people every day that 
	well, child pornography, isn�t that just adult pornography? 
	Aren�t these 20-year-olds in pigtails dressed to look like 
	they are 15?  This is a real image that flowed through our 
	Cyber TipLine.  The child was identified.  The predator was 
	identified, has been arrested, and prosecuted.  The child is
	getting help.  This little girl was 5 years old.  As you will
	notice in the image, she had a dog collar around her neck.  And
	in the second photo, the child was covering her face with her 
	hands because she did not understand what was going on and was 
	so traumatized and terrified by what was happening she would
	rather have been dead.  This is an insidious problem, it is a 
	growing problem, and America needs to wake up to it and do more.
	Thank you, Mr. Chairman.
	[The prepared statement of Ernie Allen follows:]

Prepared Statement of Ernie Allen, President and Chief Executive Officer,
National Center for Missing and Exploited Children

Mr. Chairman and distinguished members of the Committee, I welcome this
opportunity to appear before you to discuss how the Internet is used 
to commit crimes against children. Chairman Whitfield, you are a 
tireless advocate for child protection and I commend you and your 
colleagues for your leadership and initiative.  The National Center for 
Missing & Exploited Children ("NCMEC") joins you in your concern for 
the safety of the most vulnerable members of our society and thanks you 
for bringing attention to this serious problem facing America�s 
communities.
Let me first provide you with some background information about the 
National Center for Missing & Exploited Children (NCMEC).  NCMEC is a 
not-for-profit corporation, mandated by Congress and working in 
partnership with the U.S. Department of Justice as the national 
resource center and clearinghouse on missing and exploited children. 
NCMEC is a true public-private partnership, funded in part by 
Congress and in part by the private sector. Our federal funding 
supports specific operational functions mandated by Congress, 
including a national 24-hour toll-free hotline; a distribution 
system for missing-child photos; a system of case management and 
technical assistance to law enforcement and families; training 
programs for federal, state and local law enforcement; and our 
programs designed to help stop the sexual exploitation of children. 
These programs include the CyberTipline, the "9-1-1 for the Internet," 
which serves as the national clearinghouse for investigative leads and
tips regarding crimes against children on the Internet.  The Internet
has become a primary tool to victimize children today, due to its 
widespread use and the relative anonymity that it offers child 
predators.  Our CyberTipline is operated in partnership with the 
Federal Bureau of Investigation ("FBI"), the Department of Homeland 
Security�s Bureau of Immigration and Customs Enforcement ("ICE"), the 
U.S. Postal Inspection Service, the U.S. Secret Service, the U.S. 
Department of Justice�s Child Exploitation and Obscenity Section and 
the Internet Crimes Against Children Task Forces, as well as state and 
local law enforcement. Leads are received in seven categories of crimes: 
possession, manufacture and distribution of child pornography;
online enticement of children for sexual acts;
child prostitution;
child-sex tourism;
child sexual molestation (not in the family);
unsolicited obscene material sent to a child; and
misleading domain names.
This last category was added as a result of enactment of the PROTECT 
Act in 2003.
These leads are reviewed by NCMEC analysts, who visit the reported 
sites, examine and evaluate the content, use search tools to try to 
identify perpetrators, and provide all lead information to the 
appropriate law enforcement agency. The FBI, ICE and Postal Inspection 
Service have "real time" access to the leads, and all three agencies 
assign agents and analysts to work directly out of NCMEC and review 
the reports.  The results: in the 8 years since the CyberTipline began
operation, NCMEC has received and processed more than 385,000 leads, 
resulting in hundreds of arrests and successful prosecutions.
However, despite our progress the victimization of children continues
and there is evidence that it is increasing. The number of reports of 
online enticement of children to the CyberTipline increased 400 percent
since 1998. Our records show a significant and steady increase in 
these reports over the years. This upward trend is very disturbing and 
shows the seriousness of this issue. But this is not the only evidence.
According to a recent study, one in five youth ages 10 to 17 who used 
the Internet regularly received a sexual solicitation over the Internet 
within the previous year. However, less than 10% of sexual solicitations 
were reported to authorities. 
These numbers are powerful testimony to the fact that children are at 
risk and that we must do more.	
Over the years as technology has evolved so, too, have the methods for
victimizing children.  The Internet has provided a veil of apparent 
anonymity, enabling predators to seek out children, win their confidence 
and then victimize them.
As technology evolves, so does the creativity of the predator.  Today,
we are hearing a great deal about new innovations, including the use of
webcams, social networking websites and Internet access on cell phones. 
These innovations are popular and are utilized by millions of Americans. 
Yet, as with every other new program or service, there are those who 
would use them inappropriately and for unlawful purposes.
For example, there has been great attention to the social networking 
websites.  While they are marketed to and primarily utilized by young 
adults, kids are attracted as well, and there have been instances in 
which offenders have taken advantage of the images and information
displayed to target kids.  
Some of the social networking sites link defined communities of 
registered users, such as students attending a particular college or 
high school.  Others are open to anyone over a certain age. These 
websites permit registered users to create an online profile, including
photographs, with categories of interest such as music and sports, as 
well as an online journal. They are highly personalized and often
extremely detailed. Children consider this to be an easy way to connect
with friends, find new friends and share their thoughts and feelings.
However, child predators consider these sites to be an easy way to 
find child victims. They can use the information posted by children 
to pretend to be someone with shared interests, then develop a 
�cyber-relationship� that can lead to that child being victimized. The 
number of reports involving online journals received by our 
CyberTipline has increased. In recent years, many kids were using their 
email profiles and chat rooms in a similar fashion to share their 
hobbies and interests and make "friends".� However, those forums didn�t 
have nearly the same implications as the social networking sites given
the enormous universe of users.  This recent phenomenon reinforces the 
importance of education messages where we engage teens to be a part of 
their own online safety.
Today, NCMEC is working with leaders in many industries who are involved
in the burgeoning field of social networking in order to explore 
improvements, new approaches and better ways to attack the problems. 
Further, we are also working on plans to bring together key business, 
law enforcement, child advocacy, governmental and other interests and 
leaders to explore ways to more effectively address these new issues
and challenges.   
Webcams offer the exciting ability to see the person you�re 
communicating with over the Internet. While this has many benefits, such 
as allowing divorced parents to have "online visitation" with their 
children in distant states, it, too, can be used to exploit children. 
Many children are victimized inadvertently, by appearing on their 
webcams without clothes as a joke, or on a dare from friends, unaware 
that these images may end up in a global commercial child pornography
enterprise. Other children are victims of blackmail, threatened with 
disclosure to friends and family if his or her �performance� before 
the webcam doesn�t become more sexually explicit. Too much technology 
and too much privacy, at a sexually curious age, can lead to 
disastrous consequences.
The teenage years are a time of personal exploration. This is only
natural. However, the new form of social interaction is over the 
Internet, exposing children to, literally, a world of potential danger.
Finally, let me briefly report to you on the exploding problem of 
child pornography via the Internet.  Child pornography has become a 
global crisis.  A recent report by McKinsey Worldwide estimated that 
today commercial child pornography is a $20 billion industry worldwide,
fueled by the Internet.  Its victims are becoming younger.  According 
to NCMEC data, 19% of identified offenders had images of children 
younger than 3 years old; 39% had images of children younger than
6 years old; and 83% had images of children younger than 12 years old. 
There is also strong evidence of increasing involvement by organized 
crime and extremist groups.  Children have become a commodity in this
insidious crime.
We are particularly concerned about the linkages between child 
pornography and the financial system.  In a recent case investigators 
identified 70,000 customers paying $29.95 per month and using their 
credit cards to access graphic images of small children being sexually 
assaulted.
That is just not acceptable.  As a result we have convened a Financial 
Coalition Against Child Pornography.  At this point it includes as members
18 major financial and Internet companies, including MasterCard, Visa, 
American Express, Bank of America, Citibank, Microsoft, America Online, 
Yahoo and many others.  We are bringing new financial institutions into 
this Coalition every day.
Our goal:  To eradicate commercial child pornography by 2008.
How are we going to do that?    We are going to follow the money.  First, 
we will aggressively seek to identify illegal child pornography sites with
method of payment information attached.  Then we will work with the credit 
card industry to identify the merchant bank and stop the payment.  Then 
we will shut down the sites.
In each case we will work hand-in-hand with federal, state, local or
international law enforcement, and the first priority will be criminal 
prosecution.  However, our fundamental premise is that it is impossible 
to arrest and prosecute everybody.  Thus, our goal is twofold:
To increase the risk; and
To eliminate the profitability.
We have created working groups of industry leaders explore the best 
techniques for detection and eradication.
In addition, these companies have asked NCMEC to serve as the global
clearinghouse for this effort, sharing information and working together
on this effort in a truly collaborative way.
We need to do a better job as a nation of identifying and addressing the
greatest risks to our children today.
NCMEC urges lawmakers, law enforcement and the public to take a serious 
look at the dangers threatening our children today, and to move decisively
to minimize the risks posed by those who exploit new technology and target
our children.
Now is the time to act.
Thank you.

	Mr. Whitfield.  Well, Mr. Allen, thank you, and once again we 
	appreciate your being here and the great work that you are doing
	in this important area.
	I know you had showed us the images of this little 5-year-old 
	girl prior to the hearing today and it is unbelievable that 
	someone would exploit a child in that way.  And I believe that 
	you are telling me that the person who was indicted, convicted, 
	and sent to prison in this case actually had a site that was 
	generating in the neighborhood of $2 million a month in revenue.
	Is that correct?
	Mr. Allen.  Well it was a different site but that is right.  I 
	mean one of the things that really awakened us to this problem, 
	we thought the child pornography problem had been virtually 
	eradicated because the Supreme Court of the United States in 
	1982 said it is not protected speech.
	Mr. Whitfield.  Right.
	Mr. Allen.  It is child abuse.
	Mr. Whitfield.  Right.
	Mr. Allen.  But what awakened us was one lead we received that 
	led to an investigation of Federal law enforcement and local law 
	enforcement of a mom and pop website.  They decided they were not 
	making enough money doing what they were doing so they set up a
	child pornography website.  When that was shut down by local law 
	enforcement, these people had 70,000 customers paying $29.95 a 
	month and using their credit cards to purchase access to graphic 
	images of young children being sexually assaulted.
	Mr. Whitfield.  Unbelievable.  And they were both convicted.  Is 
	that correct?
	Mr. Allen.  They were both convicted.  The husband is doing 
	60 years in prison and the wife is doing 20.  They were making 
	$2 million a month net. 
	Mr. Whitfield.  Okay.
	Mr. Allen.  And I think, Mr. Chairman, one of the most 
	frightening aspects of this problem is that it has reached beyond
	pure pedophilia and organized criminals and other entrepreneurs 
	now suddenly recognize that children are a commodity.
	Mr. Whitfield.  Right.
	Mr. Allen.  And this is a way with relatively low risk and high 
	profitability to make a lot of money.
	Mr. Whitfield.  Yeah.  Well you are the real experts in your 
	organization in this field and I assuming that you would consider 
	the $20 billion figure we hear per year on this type of activity 
	is probably a conservative figure.
	Mr. Allen.  I do not think there is any question about that and
	I sincerely believe that we really do not know how big the figure
	is.
	Mr. Whitfield.  Right.  Well tell us a little bit about Cyber 
	TipLine.  How would children and parents actually find this Cyber
	TipLine?
	Mr. Allen.  Well Mr. Chairman, we are non-profit.  We are not 
	Proctor and Gamble.  We cannot advertise in the media but what we
	try to do is use free media and promote it in every way possible. 
	We for example, a number of Internet service providers provide 
	links on their sites, companies like AOL, Microsoft, Yahoo!, AT&T,
	Cox Communications.  And we try to promote it in every way we can.  
	The goal is if people encounter this kind of content, we want them
	to report it.  They can be anonymous but we really need to find 
	out about these sites.
	Mr. Whitfield.  All right.  You may have heard Chairman Barton 
	today talking about the fact that we are getting ready to mark up 
	a telecommunications bill that is going to change the way the 
	telecom business does business.  Would you have any thoughts or 
	suggestions on using that bill as a vehicle of some small steps 
	that we might take to make it easier to put these websites out of
	business or to prosecute?
	Mr. Allen.  Well, Mr. Chairman, I think there are a couple of 
	things.  One is I believe it is imperative that these companies 
	report suspected content like this.  As you know, the Congress in
	1998 also passed legislation called the Protection of Children 
	from Sexual Predators Act that mandates electronic service 
	providers to report child pornography on their systems to law 
	enforcement through the National Center for Missing and Exploited
	Children.  Now today, 215 ISPs including the major ISPs, are 
	doing that.  In addition, we are in discussions with the 
	wireless industry and two of the major wireless companies, 
	Verizon and Sprint Nextel, are currently reporting voluntarily.
	But there are still thousands of ISPs who are not reporting.  
	This is an issue that is moving into the wireless world.  And 
	I think a requirement that these companies when they encounter
	this kind of content report it, is imperative.  Identification 
	is the first step to eradication.
	Mr. Whitfield.  All right.  Well that is a good suggestion and I 
	know our committee does look forward to continue working with you 
	to explore additional options as we consider legislation on this 
	in the near future.  
	You had mentioned the Department of Justice.  Do you find
	yourself working closely with the Department of Justice and 
	specifically the Child Exploitation and Obscenity Section?
	Mr. Allen.  We do.  We work very closely with Federal law 
	enforcement generally and our Cyber TipLine.  The FBI�s Innocent 
	Images national initiative is connected online to all the leads 
	we receive.  CEOS is connected online.  The Homeland Security�s 
	Immigration and Customs Enforcement plus the FBI, ICE, and the 
	United States Postal Inspection Service all assign agents,
	inspectors, and analysts to work out of our center in Alexandria.
	So we are not law enforcement.  We are a non-profit mandated 
	by Congress working in partnership with the Department of 
	Justice.  What we are trying to do is build the cases for the
	appropriate law enforcement agencies.  We also work very 
	closely with the Justice Department-funded Internet Crimes 
	Against Children Task Forces, 46 of them around the country who
	are making hundreds of arrests and prosecution.  So we are 
	working with every agency that has some role in this issue.
	Mr. Whitfield.  Now I know that the Department of Justice 
	provides some funding for you through their--
	Mr. Allen.  Yes, sir.
	Mr. Whitfield.  --Congressional appropriation process but--and I 
	am not even going to ask you to comment but if you heard all the
	testimony today, you know that we have some real concerns about
	the effectiveness and the enthusiasm with which the Child 
	Exploitation and Obscenity Section appeared not to operate in 
	the Justin Berry case and that is something that we are going 
	to look at more closely.
	You testified in your opening that the goal was to eradicate 
	child pornography as a commercial enterprise by 2008.  Do you 
	think that is a reachable goal?
	Mr. Allen.  I have been accused of being naive in the creation
	of that goal but yes, sir, I do.  I think this is a challenge 
	of mobilizing these financial companies with law enforcement. 
	I firmly believe that the vast majority of this commercial 
	enterprise is accounted for by relatively few organizations 
	and people.  And I believe that it is like taking, tracking 
	down terrorist financing, and anything else.  I think you 
	follow the money.  You use the kinds of tools and resources
	you have and you shut it off.  I think that that is not going 
	to eradicate child pornography, but I think if we can get it 
	back to where it was and, in fact, I and the FBI and others 
	testified before Congress a decade ago that if there were no
	pedophiles there would be no child pornography.  I am skeptical
	that all 70,000 of those people accessing that one website in 
	Texas were pedophiles.  So something else is going on here.
	Mr. Whitfield.  Yeah.
	Mr. Allen.  There was research in 2002 by ETPAD International
	and the Bangkok Post that estimated that there were 100,000
	child pornography websites.  That was 2002.  But frankly, I 
	think this is an issue where law enforcement has come relatively
	recently to this process.  Once again, law enforcement has not
	been at the forefront of getting and being able to utilize the
	new technology.
	Mr. Whitfield.  Right.
	Mr. Allen.  And instant images is only 10 years old.  And so I 
	think that is realistic.  I think we can do that.
	Mr. Whitfield.  And did you also tell me that there is now 
	developing a tourism business in which pedophiles go on trips
	to foreign countries and young children are brought to their 
	rooms.  Is that correct?
	Mr. Allen.  Yes, sir.  It is a global enterprise.  And this 
	Congress had the wisdom in the Protect Act in 2003 for the 
	first time to provide legislation that enables the prosecution
	of U.S. citizens who go abroad for that purpose and there have
	been many charges brought just in the couple of years since 
	then.
	Mr. Whitfield.  Well, Mr. Allen, my time has expired. 
	I recognize the gentleman from Michigan, Mr. Stupak.
	Mr. Stupak.  Mr. Allen, I appreciate your enthusiasm in trying 
	to get it wrapped up by �08 but how is that possible when you
	get your ISPs you say there are 250 and reporting more, but 
	there are thousands more out there plus wireless providers.  
	How are you going to get the rest of them if you got 250 
	right now?
	Mr. Allen.  Well I think two responses to that, Mr. Stupak. 
	One is we need not just to wait for people to report it, we 
	need to aggressively go out and find it and we are trying to do 
	that.  And secondly--
	Mr. Stupak.  Who is we?
	Mr. Allen.  Well Federal law enforcement and the National 
	Center.  We have been using spidering technology to go out and 
	proactively search out illegal sites and we are going to 
	continue to do that.  Secondly, I believe that the key to this 
	is the financial industry.  And the good news is to this point
	we have been able to encourage and persuade 18 major companies 
	to join in a financial coalition against child pornography 
	including MasterCard, Visa, American Express, Discover.
	Mr. Stupak.  How many of these 18, did you ever check them 
	against Justin Berry�s list to see how many of the 18 were on 
	his list of 1,500 names and transactions?
	Mr. Allen.  Well now these and I am talking about, I mean, 
	when you spiral the web and look for active child pornography
	websites, the major sites that you find or the major methods 
	of payment that you find today are the third party payment 
	sites like Egold which is a part of this coalition and the 
	credit card companies.  Now a lot of those are bogus.  But 
	MasterCard, Visa, American Express have all said to us we do
	not want to make any money on this.  
	Mr. Stupak.  But what are they doing?  
	Mr. Allen.  Well they told us the same thing.  
	Mr. Stupak.  Yeah.
	Mr. Allen.  They have agreed to participate in this process in
	which--
	Mr. Stupak.  What does that mean, participate in this process? 
	What can they really do?
	Mr. Allen.  Well what they are going to do is take the
	information that we generate, they are going to share it within
	this network of companies.  They are going to, once we have 
	identified with them the merchant bank and law enforcement has
	said we are not going to investigate or prosecute on this one,
	they are going to take steps under their agreements.  I mean 
	credit card companies are just associations of banks to hold 
	the banks responsible because when a bank operates an illegal
	account and submits payment, it is not only a violation of the 
	law, it is a violation of their--
	Mr. Stupak.  Has any of that been done yet?
	Mr. Allen.  Just begun.  We just started this 2 weeks ago. 
	Hold us accountable, we are going to do that.
	Mr. Stupak.  Well what about this meova.net, the third party 
	that we heard so much about in the last panel?
	Mr. Allen.  We have no contact with them.
	Mr. Stupak.  Okay.
	Mr. Allen.  But we welcome everybody�s involvement and welcome 
	the committee�s help in bringing other financial institutions
	into this process.
	Mr. Stupak.  But isn�t that the name that in Justin Berry�s
	case, why these were paid was this meova group and not the big 
	credit card companies?  So how do you get them to participate?
	Mr. Allen.  Well we do it one at a time.  We basically leverage
	the relationships we are building with the credit card companies 
	and the banks and we--I mean I am not suggesting Mr. Stupak 
	that there is a quick, easy solution to this.
	Mr. Stupak.  No, there is not and that is what I am trying to
	drive at.
	Mr. Allen.  Yeah.
	Mr. Stupak.  How do we get it done?  Even if we put something 
	in legislation tomorrow, I am not too sure it is going to 
	either.  I think we have to have a more comprehensive approach.
	Two years ago, you testified before this committee about the use
	of peer-to-peer clipboards by child pornographers and pedophiles 
	as a way to share files without being identified.  This is often 
	the system that child pornographers and the customers use to 
	share files and individuals from all the world can use these 
	networks.  Could you describe how this works and whether there
	have been any advances?  Have you been in control of these 
	networks, these file sharing networks?
	Mr. Allen.  Well the way it works is that this it basically does 
	not require an ISP, this basically linked the files shared through 
	networks like Kazaa and other mechanism.  What is happening is
	there has been aggressive effort by Federal law enforcement and 
	the Internet Crimes Against Children Task Forces to make cases. 
	The case that the Attorney General and ICE announced a couple of
	weeks ago was in essence a peer-to-peer network, child 
	pornography on demand.  You know, it remains a challenge because
	it is harder to identify.  It is harder to capture that image at
	the moment that it is distributed than it is if it is 
	distributed through an ISP.  
	Mr. Stupak.  Well part of my concern is the music company shut 
	down Napster for illegal file sharing of copyrighted material. 
	Why can�t law enforcement be more aggressive in shutting down 
	these sites?
	Mr. Allen.  Well frankly, I think the largest challenge is
	again, I think law enforcement is overwhelmed by the magnitude 
	of the problem.  We would welcome, I mean, I do not speak for 
	the FBI or Homeland Security or anybody else, but I think this
	is a problem that is going to require more resources, more 
	personnel.  Innocent Images needs to get bigger.  The Cyber 
	Crime Center at ICE needs to get bigger.
	Mr. Stupak.  Throughout your testimony today and even the 
	earlier the testimony, everyone talked about the Federal law 
	enforcement, Justice, things like this, Department of Justice.
	Can you or do you work with State and local law enforcement?
	Mr. Allen.  Yes, sir, we do actively.  And I think a very 
	important point that needs to be made is that Federal law 
	enforcement cannot possibly do all of this.  What we have 
	emphasized very strongly is building State and local 
	capacity because in every one of these cases, just like 
	Justin in Bakersfield, there was a local victim.  The only 
	thing that is different about this is the medium that is 
	being used to transmit the image.
	Mr. Stupak.  Have you had any access to the information 
	that Mr. Berry provided Justice?  Have they worked with
	you at all, Justice like I--
	Mr. Allen.  I do not think we have seen that information.
	
	Mr. Stupak.  You also testified that a 1999 law that 
	requires Internet service providers to report child
	pornography on their sites or face substantial fines and that 
	was back in 1999 that law was passed.  Five years later in
	2004, the reporting mechanism had not yet been formalized. 
	Has any been formalized?  I mean, why should it take 5 years?
	If we knew it was a problem in �99 and we passed a law, it 
	is 5 years.  Has it been formalized or has it not?  What has 
	happened?  Has anybody been fined or anything ever happened
	with that?
	Mr. Allen.  No, sir it has not been formalized.  What we have 
	been advised by the Justice Department is that there was a flaw 
	in the statute that in essence it is a civil statute with a 
	criminal penalty and so we have met with many. The good news is 
	that the majority ISPs are complying.  We have developed our own
	system with them.  We work with the U.S. ISP Association but 
	anything this committee can do to make every electronic service
	provider in America have to report, I think it is a good thing.
	One of the real challenges quickly, Mr. Stupak is that a lot of
	these companies are saying to us that absent some safe harbor 
	provision, their concern is that when they transmit these 
	images to us they in fact may be violating the law.  So I know 
	the Justice Department is taking another look at that.  We 
	welcome whatever resolution can happen.
	Mr. Stupak.  Well I know Mr. Chairman, and I think members of 
	this committee should be--we passed the law in �99 and this is
	the first we have heard that there is a problem with it.  I 
	would think after 7 years someone would step forward and say 
	hey, we cannot do what you intended, to go after this Internet 
	pornography especially with children, because there is a flaw 
	in the law.  So thank you for that, we will note it for those 
	questions on Thursday.
	Since controlling peer-to-peer networks seems so difficult, do 
	you think the new financial coalition, the one you have listed 
	here against this child pornography to follow the many, will 
	eradicate child pornography?  What percentage of the child 
	pornography is shared without payment?  I think we have had a 
	lot of that where you had to produce a payment, plus you had 
	produced pictures, nude pictures, or fill in the blanks or I 
	call them trading cards if you will pornography.  Is that here
	today?
	Mr. Allen.  In our judgment, we think that the largest share of
	child pornography is distributed and shared without payment. 
	Even though the commercial site of this problem is a billion 
	dollar problem, we think the non-commercial side is larger.
	Mr. Stupak.  I think you mentioned it earlier, but if you could 
	take a moment and expand upon it.  I think you said law 
	enforcement lacks the resources.  What area do they lack the 
	resources?  I thought you indicated they could come to your shop 
	and do some work there but what are the resources that are 
	lacking?  Is it just training in what is going on?  Is it the 
	empire or what is it?
	Mr. Allen.  Well there has been an aggressive effort to train.  
	We have been training unit commanders and investigators in 
	computer facilitated crimes against children for some time. 
	Ten years ago, I was aware of one specialized unit in a local 
	police department; the San Jose Police Department had a kind of 
	an early cyber crimes unit.  The good news today is that most 
	major police departments now have specialized units.  The good 
	news today is that there are 46 Internet Crimes Against 
	Children Task Forces funded by Congress around the country that
	are State and local with Federal involvement.  But I just think 
	the sheer scale of this problem requires greater investment, 
	more people, more technology, more advanced technology, because
	it continues to evolve.  
	Mr. Stupak.  Let me ask you one more clarification.  I had asked 
	you earlier if your center has been provided any of the names or
	the information on the Justin Berry case.  It is my
	understanding that the FBI has an agreement to provide all the
	images to your center. 
	Mr. Allen.  That is right.
	Mr. Stupak.  So if your center--have you received those images,
	and if not and that means CEOS has not given you the images, 
	then the FBI--you have not seen them yet, have you?
	Mr. Allen.  Candidly not to my knowledge, no. 
	Mr. Stupak.  So you cannot give me comparisons then either 
	without the images.
	Mr. Allen.  That is true.  Now I will confirm that.  I do not 
	know that absolutely, but to the best of my recollection, I do 
	not believe we have received those images.  
	Mr. Stupak.  Any reason why not?  Not names but just images so 
	you could do you work?
	Mr. Allen.  Not to my knowledge.
	Mr. Stupak.  Okay.  Thank you.
	Thank you, Mr. Chairman.
	Mr. Whitfield.  Thank you, Mr. Stupak.  
	Mr. Allen, let me just ask one concluding question here.  Around 
	the world, do most countries have laws against child pornography 
	and child molestation?
	Mr. Allen.  The answer unfortunately, Mr. Chairman is no. 
	Through our international center, we just did an analysis, we
	have done a report that we are releasing on Thursday of the 184 
	member nations of Interpol.  Ninety-five of those countries have
	no law on child pornography at all.  About 135 or 140 including 
	some of those that do have some law do not criminalize the 
	possession of child pornography.  The good news is we reviewed
	this law based on five categories of statute.  The good news is 
	five countries including the United States have enacted laws in
	each one of those five areas.
	Mr. Whitfield.  Okay.
	Mr. Allen.  And another 22 have enacted laws in all areas except
	ISP reporting.
	Mr. Whitfield.  Okay.
	Mr. Allen.  But there is a lot of work that needs to be done 
	around the world as well.
	Mr. Whitfield.  Mr. Allen, I thank you very much.
	Ms. Blackburn, did you have any questions for Mr. Allen?
	Mrs. Blackburn.  Mr. Chairman, thank you.
	I do have a couple.  I do not know if--and I apologize I have 
	got constituents that were in and I had to jump out--and I think
	you have maybe answered these but let me just go back.  In your 
	very opening statement, you said something about looking at how 
	much of the industry is in the U.S. and how much is offshore and
	that was one of the questions that I had posed earlier to 
	Mr. Eichenwald.
	Mr. Allen.  Right.
	Mrs. Blackburn.  And the follow-up I have for you on that would 
	be, are you all doing the research so that we can begin to 
	quantify this and kind of get our arms around it?
	Mr. Allen.  We are trying, but it is very difficult to do because
	there is no real database to measure.  It is all sort of
	estimated.  The other thing that is clearly happening is, for 
	example, there was a case in January of 2005 in which the 
	business, the server, was Delarosa.  The financial support for
	the child pornography system was in the Caribbean, was offshore. 
	But the vast majority of the customers were Americans and the 
	vast majority of the victims, the child victims were Americans.  
	Mrs. Blackburn.  You know, Mr. Allen, to me listening to all of 
	this testimony today, it seems that the business of the child 
	pornography which is just so sickening when you hear about this 
	that it is labeled in some ways to identity theft, the pirating,
	the different types of theft or subversive type activity that 
	we see over the Internet and there seems to be some common 
	things that are developing and running through these businesses.
	Mr. Allen.  Well Congresswoman, we have heard from a number of 
	experts that there are five basic factors in play for the 
	reason why this has become not just an insidious crime but big 
	business.  One is that children are plentiful and easily 
	accessed.  Secondly that the production of the material has 
	become very inexpensive.  You do not need massive studios
	anymore.  Thirdly, that there is enormous consumer market for 
	the content.  Fourth, therefore it is incredibly lucrative, 
	incredibly profitable.  And five, at least comparatively there 
	is virtually no risk, particularly compared to drugs and guns 
	and tobacco and other kinds of commodities.  So what our focus 
	has been strategically working with law enforcement agencies 
	around the world is we have got to dramatically increase the 
	risk and we have got to dramatically reduce the profitability.
	Mrs. Blackburn.  Because at this time it is the lowest risk,
	highest profit area of the what we would call subversive or--
	Mr. Allen.  Right.  And that is why I wanted to add one other 
	thought to the Chairman�s question earlier about is the goal of
	eradicating commercial child pornography by 2008 realistic.  
	Well our basic premise is if you can eliminate the use of the
	credit card, we can take the credit card out of this process.  
	If you can eliminate the use of the third party payment 
	mechanism and we are working with the Egold�s and PayPal�s and
	those kind of companies, it is going to become more and more
	difficult to sustain the enterprise.  The payment mechanism is 
	going to have become a lot more sophisticated and farther 
	reaching.  Kurt talked this morning about the six steps removed.
	We just have to make it ten steps and then 14 steps.  If you
	have to pay cash, access to a child pornography website, the
	profitability compared to the investment drops dramatically. 
	And I think at that point, these are entrepreneurs.  These are 
	organized criminals.  They are going to look for some other way 
	to make money.
	Mrs. Blackburn.  Well I thank you.  I thank you very much for
	your patience with us today.  I thank you for the work that you 
	all are doing and I thank you for being accessible to us and 
	allowing us to have some time to visit with you on the issue.
	Mr. Allen.  Thank you very much.
	Mrs. Blackburn.  I yield back.
	Mr. Whitfield.  Thank you, Mrs. Blackburn.
	And Mr. Allen, thank you so much for being with us today.  We 
	look forward to continuing working with you on this issue and 
	thank you for the great job that you do at the center.
	Mr. Allen.  Thank you, sir.
	Mr. Whitfield.  I would call the fifth panel of witnesses, 
	please.  We have Ms. Parry Aftab who is the Executive Director 
	of WiredSafety from Irvington-on-Hudson, New York.  We have 
	Shannon Sullivan who is a Teen Angel with WiredSafety from
	Irvington-on-Hudson, New York.  We have Ms. Teri Schroeder who
	is President and Program Director of i-SAFE America from Carlsbad,
	California.  And then we have Moni Sallam who is a mentor at
	i-SAFE America from Carlsbad, California.  I want to welcome all
	of you today.  We genuinely appreciate your patience.  We 
	similarly look forward to your testimony because we know that
	you are doing some great work to assist our young people and
	others as we try to eradicate this problem.  And as you know, 
	this is an oversight investigation hearing and we normally do 
	take testimony, in fact, we always take testimony under oath. 
	Do any of you have any difficulty in testifying under oath 
	today?  And do any of you have legal counsel with you today?  
	[Witnesses sworn]
	Mr. Whitfield.  Thank you.  You are now sworn in and Ms. Aftab,
	we will ask you to give your opening statement first so you 
	are recognized for five minutes.


TESTIMONY OF PARRY AFTAB, EXECUTIVE DIRECTOR, WIREDSAFETY; TERI L.
SCHROEDER, PRESIDENT/PROGRAM DIRECTOR, I-SAFE AMERICA; SHANNON SULLIVAN,
TEEN ANGEL, WIREDSAFETY; AND MONI SALLAM, I-MENTOR, I-SAFE AMERICA

Ms. Aftab.  Thank you very much, Mr. Chairman.
	My name is Parry Aftab.  I am an Internet privacy and security
	lawyer or at least I used to be.  A number of years ago, I used 
	to represent corporations in cyberspace protecting them until 
	one day someone sent me an email telling me shut down the
	website, to put the people in jail.  
	I know a great deal about child pornography and I testified 
	before this House.  
Mr. Whitfield.  Maybe you could just turn off the sound on your computer, 
Teri, it might make it easier.  Thank you.  
Ms. Aftab.  I have testified before the House of Commons and the House 
of Lords, Parliament.  I advised the Singapore Government.  I do this 
all over the world so I knew a lot about child pornography.  But when I
went to this site, up came 150 names of images, just names.  I clicked 
on one of them and up came a picture of a little three and half year old
being raped.  She had her eyes closed in the way that those of who are
parents remember our children.  Mommy, you cannot see me, can you?  And 
we all pretend that our children are invisible.  No, where did you go?  
Oh, my goodness, you did, where you, you are gone, you are invisible.  
And then giggle and we tickle our children and we laugh about it.  This
little girl was being graphically raped and had her eyes closed hoping 
that she too would be invisible.  She was violated not only by the sexual 
molestation but by the fact that they expected her to pose for the cameras.
	I cried for an hour, I vomited for two, and I realized that 
	the reputation I had earned over the years as one of the first 
	Internet lawyers in the world could be used to do perhaps 
	greater good.  The companies I represented I thought would 
	follow me and the law enforcement that I had advised would as 
	well.  And we created the world�s largest Internet safety and
	help group.  It is called WiredSafety.  We have 11,000 
	volunteers in 76 countries around the world.  Not one of us is
	paid a dime.  We have no offices, we operate from our homes and
	offices and cell phones.  If you dial the telephone number on 
	our websites, my cell phone will ring.  I sold my house, a very
	expensive one in New Jersey, and emptied my bank accounts and 
	this is what we do.  
	It started out in the early days where we were dealing with a
	child�s sexual exploitation.  We also do a tremendous amount of 
	work in identity theft.  We protect everybody of all ages in 
	cyberspace and on wireless devices and interactive cell phones 
	and gaming devices, on anything that can go wrong, from cyber 
	terrorism to ID theft to fraud but my heart is with the children.
	For years, I looked for this little girl.  I never found her but 
	instead we found many others.  We have and this has never been a
	public statement of ours before, we have been working very 
	closely with the National Crime Service in the UK for the last 
	7 years.  Together, we infiltrated some of the leading sex
	trafficking groups in the world and hundreds of people have gone 
	to jail because of our work.  The person who did that with the 
	National Crime Service is another one of my unpaid volunteers.
	I have been doing this for a long time.  It is what I am 
	supposed to be doing.
	A number of years ago, I met a young woman.  Her name was Kitty 
	Tarbucks.  Kitty was 13 from Connecticut when she met someone
	online she thought was Mark.  She thought he was 23.  She was
	a little bit heavy.  She was a member of the swim team.  She
	was not as popular because she was brighter than a lot of the
	other kids in the room.  She met him online.  She thought what
	the heck, he was in California, she was in Connecticut, she 
	is never going to meet him in real life.  So she chatted with
	him and she talked on the phone with him and she shared
	pictures with him and became friends.  She talked about 
	politics.  And he thought she was wonderful and pretty and 
	bright and smart.  Six months into the relationship, she shared 
	that she was going to a swim meet in Dallas, Texas.  He said,
	you know what, I will come out and I will meet you.  I will
	fly out from California to your swim meet and he did.  She 
	made arrangement with her roommate that she was going to
	walk down the hall to meet him in real life.  She really 
	wanted to and she will admit that to this day.  She found what
	room he was in and he was waiting for her.  She walked down 
	the hall, pushed the button the elevator and went upstairs. 
	She knocked on the door and it was answered.  Her first thought
	was oh, my gosh, he was an adult.  And he has got the ugliest
	white shoes I have ever seen in my life.  He opened the door, 
	she walked in and sat down on the sofa.  He shut the door 
	behind her.  He sat down and he said, you know, Kitty, it took
	so long to get the luggage in the airport and she said yes. 
	And the food at this hotel is not very good is it?  And she 
	said no.  I love your watch, he said, and starting touching it.
	And your hair is so beautiful and ran his fingers through it. 
	I have been thinking about doing this for a long time he said.  
	He reached out, kissed her, started to grope her, and began to
	molest her.  Luckily, her roommate had told her mom who was a 
	chaperone on the trip and her mom and the police and security 
	were at the door pounding until he opened.  They whisked him
	away and Kitty sat there in tears while she tried to reassemble
	her clothing.  The police came to her a few minutes later and 
	they said you talked to this man for 6 months?  We talked to 
	him for 5 minutes, he is a 41-year-old investment banker and
	his name is Frank Cusovich, not Mark.  What are you thinking?
	Years later she put him in jail for about two and a half years 
	under the Communications Decency Act, a section that was 
	actually maintained as constitutional, and she wrote a book 
	that was later renamed A Girl�s Life Online about her story.
	But we do this all over the world.  And I was working with a
	young family in the UK and little Georgiana was 13 and she had 
	met Johnny who was 16 from about 200 miles away.  And they were 
	talking on the phone.  Her parents knew and he said he wanted to 
	meet her and she said great, my mom will bring me and he said no,
	you bring your mom, I am not coming.  So she said to her mom, I
	do not know what to do, I have to lie to one of you, I am going
	to lie to him.  She said to her mom but when you drop me off,
	pull the car up about a half a block.  You will be able to see 
	me but I do not want him to know you are there and if everything
	is okay, disappear, come back later, we are going to the movies.
	She stood there alone in front of the movie theater when a 
	46-year-old approached.  She wondered why Johnny had sent his 
	dad.  He said, Georgie, I am Johnny.  Her first thought was oh 
	my gosh, he is an adult and he has got the ugliest brown shoes
	I have ever seen in my life.  
	Now I am a lawyer so I hear this, I talk to a lot of kid
	victims.  I immediately think about that I am from New Jersey. 
	We have this very ugly shoe store that sells only very ugly 
	shoes in New Jersey.  And I said what you need to do is stake
	out places like this because obviously the Internet sexual 
	predators wear ugly shoes.  And the child psychologists who 
	donate their time with us and the forensic psychologist turned
	and they said, describe my shoes, Parry.  Okay, no, no, look
	at me and describe my shoes.  Well how can I describe your 
	shoes if I am looking you in the eye and they said exactly.  
	When our children fall in love with a person they meet online
	who they think is now a perfect soul mate for them and they 
	meet them in real life and find out who they are, they all 
	become experts in men�s shoes.  They walk through it.  They 
	got through with the molestation.  They do things they 
	ordinarily would not have done because they are embarrassed. 
	They just think they led him on because of something else.
	Well if you went to Myspace about a month ago and you clicked 
	on safety tips, you would have learned all about us.  For the
	last year and a half we have been working on the inside with 
	Myspace and with Facebook, and with Febo, and all of the
	others.  We have done a great deal of work in cyber stalking,
	cyber bullying, and sexual predators and we deal with these 
	issues and provide this information to these sites.  
	One of the problems we are finding on social networking is
	that there are some benefits like we never thought there
	were.  It would have been much easier if I could find social 
	networking and say, you now, that it is terrible, let us shut 
	them down.  But we are finding kids who are raising money for
	charities and expressing themselves and writing music so a kid
	from Connecticut or California can write the words to it.  So
	we now have to do the hard thing.  We have to find a way of 
	making them safer, so we worked with Myspace in the west in 
	developing safety tips and links to my volunteers to help with
	these issues.  
	Not too long ago, I was in L.A. having lunch with a girlfriend
	and who walked in but Nick Lachey. If you do not have any 
	young kids at home, he is the one who is getting divorced from
	Jessica Simpson.  He is on the cover of Teen People and
	everything else.  So my girlfriend was there and she said look
	that is Nick Lachey and I said I will be right back.  And she
	said, we are from California, we do not approach celebrities.
	I said I am from New York, we do not admit they are celebrities.
	And I walked up to his table, I handed him my card, and I said
	Internet sexual predators Nick, are using your name to lure 
	kids.  If they find out, the kids have posted something that 
	they are fan of Nick�s, the predator becomes a close personal
	friend of his.  I am a close personal friend of Nick Lachey�s
	and if you send me a picture, I will get it to him.  He really 
	likes that picture.  Do you have a sexier one, something in a 
	bikini?  Anything else?  He turned white as a ghost.  He said 
	would any money--I should have said yes, but we run a charity
	that is all volunteers.  I should have said, yes, but I said
	no, just give me a public service announcement.  Two weeks 
	later he had Googled me.  He got Tom Patters who owns Polaroid 
	and everything else to write a $2 million check to create a 
	safer social networking site for teens called YFly.  When kids 
	are bothered by people posing as a teen they can click report
	the creep.
	I then reached out trying to find spokespeople.  I used to 
	represent a lot of them in the olden days and so many of them 
	now are getting arrested on drunk driving and everything else, 
	I was standing on a stage in Singapore and who popped through 
	a screen behind me but Spiderman.  And as part of our exhibits
	today, you will see the first of a series of Internet safety
	comics written by Marvel for us using all 4,000 of their 
	characters that they donated to us on a worldwide license.
	We do a lot of this work and it is going to take all of us.  
	There is far too much backbiting and knifing of MGAs in the
	back.  Unfortunately, there are enough children being hurt, 
	there is enough work to go around and each of us has our own 
	specialties.  What I suggest we do is look at some of the 
	models that we have used around the word.  UNESCO named me to 
	head up their efforts on these things for the United States.
	And we do not have in this country a national task force that
	is put together with the leading experts in the world on 
	Internet safety.  Instead, I am on a home office task force 
	in the UK and I advise the EU.  We need one here and that is 
	easy and that is cheap.  You get good at doing that when you 
	run a non-profit that is unfunded.  
	In addition, there are lots of questions about the statistic
	s.  Ernie, who I respect incredibly well, cannot give you the 
	statistics on how many kids have been victimized in what way 
	because they do not exist.  Because on a crime reporting form 
	there is no check, or no box you can check, saying that the 
	Internet was involved in some crime.  That is an easy fix to
	help us start tracking growth.  We need to know that if we
	are going to address it to see if we are making a difference.
	We need to get a lot of players together and work together. 
	And one of the things I learned a number of years ago is if 
	we are going to reach the kids, we have to do it in their own
	language in their own ways.  So I founded a group that is
	called Teenangels and it is part of our group.  And they train
	for a very long time.  It usually takes about a year to train
	a Teen Angel.  They are trained by law enforcement, AOL, and 
	Disney, and Oracle, and everybody else I know and the FTC and 
	they learn what everybody needs to know about privacy policies, 
	predators, piracy, illegal inappropriate use, and responsible 
	technologies.  And when they are done, they go out and create 
	their own programs and they are now advising all of those 
	companies.  They have got a new cell phone that Disney launches
	tomorrow that is a little safer because parents can control who
	can text message or call their kids.  And that came out of some 
	of the thinking of the Teenangels.  And Disney and AOL and the
	CTIA when you look at the Telecommunications Act that you are 
	reviewing, the CTIA has turned to my Teenangels and to us for 
	advise on how they can use our skills and things we know to make 
	things safer.
	So I would like to thank you so much for giving us the time
	today.  And I would like to introduce one of my very special 
	Teenangels who in addition to Nick Lachey and with Teen People 
	that is out on the stands right now was selected by Teen People
	as one of the top 20 mover and shaker teens in the country.  
	Shannon is 14 and here to talk about her experiences as a Teen
	Angel.
	[The prepared statement of Parry Aftab follows:]
	
	
Prepared Statement of Parry Aftab, Executive Director, WiredSafety

SUMMARY 
Our children are online. They do their homework, entertain themselves,
communicate with each other and us, research things, buy and compare 
prices online. They need the Internet for their education, their 
careers and for their future. Of all the risks our children face 
online, only one is certain. If we deny our children access to these 
technologies, we have guarantees that they are hurt. All other risks 
are avoidable through a combination of awareness, supervision and 
parental control and other technologies. More and more children being 
lured and stalked by online predators who gather information about 
them from chatrooms, instant messaging, e-mails, websites and the
like and use this information to become close to them.
With our children walking around with Internet access in their 
backpacks and pocketbooks, we can no longer rely on parents watching 
whatever they do from a central location computer. Our children need
to learn to use the "filter between their ears" and "ThinkB4TheyClick." 
This requires that we get them involved in framing solutions and
educating each other. It also requires that we find new ways of
building good cyber-citizenship and helping the kids and parents spot
risks in new technologies and protect themselves online.
But we also need to recognize that in most cases our children are
putting themselves in harm�s way. They are intentionally sharing risky
information online in profiles, blogs and on websites. They post their
cell numbers on their public away messages when using IM technologies.
And even when they are careful about protecting their own privacy, 
their close friends may expose personal information about them by 
posting photos and information on their profiles. They are also, in 
greater and greater numbers meeting people offline that they met online.
Family PC Magazine reported that 24% of the teen girls they polled and 
16% of the teen boys they polled admitted to meeting Internet strangers
in real life. Our children go willingly to offline meetings with these 
people. They may think they are meeting a cute fourteen year old boy,
but find that they are meeting a 47- year old child molester instead. 
This has to stop.
Smart kids are sharing sexual images online with people they don�t 
know, or e-mailing them to others they have a crush on and hope to 
entice. And with the newer video-chats and technologies, the predators 
have moved to luring our kids into posing and engaging in sexually 
explicit activities.
Yet, the actual statistics are lacking. Everything we know is largely
anecdotal. In 1999, the FBI�s Innocent Images (charged with 
investigating crimes against children online) opened 1500 new cases of
suspects who were attempting to lure a child into an offline meeting
for the purposes of sex. Based upon my estimates, about the same 
number of cases were opened by state and local law enforcement agencies
that year. The same year, approximately 25 million minors used the 
Internet in the U.S., Now, with more than 75 million young Internet 
users in the U.S. we don�t know if the number of instances have 
increased, decreased or remain flat, given the growth. The crime 
reporting forms don�t collect information about the use of the Internet
is child sexual exploitation crimes, or any other crimes. That has to 
change.
We also need to recognize the real risks and what is hype. 
Notwithstanding media reports to the contrary, to my knowledge, law
enforcement is not aware of anyone who is using the information 
children provide online to seek them out offline, by hiding behind a
bush or grabbing them on their way home from school. They currently 
agree to meetings (even if they don�t admit it to the police when 
things go wrong.) But it�s only a matter of time before this happens, 
since universal access to the Internet means that even violent 
sexual offenders who are online can use it for their own horrible 
purposes. 

OPENING STATEMENT
Thank you for inviting me to testify here today about ways we can
keep our young people safer online. This is a very important topic 
and one to which I have devoted my life over the last ten years. My
name is Parry Aftab. I am an Internet privacy and security lawyer 
and run the world�s largest Internet safety and help group, 
WiredSafety.org. We are an all-volunteer group and a charity formed in
the United States. We have approximately 11,000 volunteer from 76 
countries around the world, all devoted to helping create a safer 
interactive technology experience for users of all ages.

SNAPSHOT OF U.S. MINORS ONLINE AND HOW PREDATORS REACH THEM
It is estimated that approximately 75 million minors in the Unites 
States access the Internet either from home, schools, community 
centers and libraries or from some newer Internet-capable device.
This is up more than ten-fold since 1996, when only 6 million U.S. 
minors were online. Now our children are using cell phones with 
Internet and text-capability, interactive gaming devices (such as 
X-Box Live and Sony Playstation Network) with voice over Internet 
and live chat features, handheld devices with Bluetooth and other 
remote-communication technology (such as PSP gaming devices and
mobile phones) and social networking profiles (such as MySpace, 
Facebook, Bebo, YFly and others) where they can advertise their 
favorite things, where they live and pictures of themselves and 
their friends to anyone who wants to see them.
Ten years ago, when I first wrote my safety tips telling parents
to put the computer in a central location, that made sense. It was 
a central point, where parents could get involved and supervise 
their children�s interactive communications and surfing activities. 
Now, where they take their communication technologies with them in 
their pockets, backpacks, and purses, it is not longer as relevant 
as it once was. Now, instead of expecting parents to watch everything 
their children are doing online from the comfort of their familyrooms,
or kitchen counter, we have to do more. Now, we have to teach our 
children to use the "filter between their ears" and exercise good 
judgment and care when using any interactive device. While teaching
parents how to supervise their children online was a challenge (I have 
written the leading books, worldwide, for parents on Internet safety),
teaching children to "ThinkB4uClick" is much harder.
When I was growing up (in the days before electricity and indoor 
plumbing, when we had to walk up hill, both ways!, in blizzards to get 
to school ), parents used to blame us for not behaving.  We were 
disciplinary problems. Now pediatric neuro-psychologists tell us that 
preteens and young teens are hardwired, through immature brain 
development, to be unable to control their impulses at this age.  Either 
way, we recognize that preteens and teens take risks, don�t appreciate 
the consequences of their actions and act before they think. When their 
audience was their school friends, family and neighbors, the risks were
containable. When they act out where 700 million Internet users can see,
it takes on a much deeper significance.

Putting Their Heads into the Lion�s Mouth
Now, I will share something very controversial. While educators and 
child psychologists understand this, most parents will be shocked at 
the suggestion that their preteens and teens are in control of their 
safety online and putting themselves at risk, often intentionally. But 
unless we accept this, and direct our attentions at solutions aimed at 
this reality, we are all wasting our time. We will focus on the much 
smaller segments of preteens and teens who are being victimized through
not fault of their own - those who are targeted at random. All others 
need to change their online behaviors. And that�s where we need to 
devote all our attentions.
For this to happen, you need to understand the truth. For years we have
told parents and minors not to share too much personal information 
online. "You can be tracked down in real life," we told them. But, 
notwithstanding anything to the contrary reported in the media and by 
some local law enforcement officers, to my knowledge, to this date, no
preteen or teen has been sexually-exploited by someone who tracked them
down from information they posted online. In each and every case, to my
knowledge, to teens and preteens have gone willingly to meet their 
molester. They may have thought they were meeting someone other than the 
46 year old who is posing as a teen, but they knew they didn�t know this
person in real life. They are willingly agreeing to meet strangers 
offline.
What does this mean? It means we can do something about this. It means 
we can educate teens and preteens about the realities of meeting people
in real life they only know in cyberspace. It means we can create 
solutions. It means that this is, at least for the time being, 100% 
preventable. It means that what we do today will have an immediate impact 
on the safety of our youth. It means we have to join together and work 
on things that are effective and abandon those that are not.
But we have to act quickly. When I testified before the U.S. House Of 
Representatives, Committee On Commerce, Subcommittee On 
Telecommunications, Trade, And Consumer Protection on October 11, 2000, 
I cautioned:
Law enforcement is not aware of anyone who is using the information 
children provide online to seek them out offline, by hiding behind a 
bush or grabbing them on their way home from school. But it�s only a 
matter of time before this happens, since universal access to the Internet
means that even violent sexual offenders who are online can use it for
their own horrible purposes. (See Testimony of Parry Aftab, Esq. U.S. 
House Of Representatives, Committee On Commerce, Subcommittee On 
Telecommunications, Trade, And Consumer Protection on October 11,
2000.)

Luckily, while our young people are sharing much more information online 
than ever before, to my knowledge, predators aren�t using it to hunt 
down our children offline. They are like vampires. They need to be 
invited in. Sadly, our teens and preteens are too often doing just that.
They are inviting them to offline meetings, phone calls and videochats.
But, as an expert in cyberrisk management, I can tell you that this is 
good news. Because we have a single point of risk - our children, 
preteens and teens. If we stop their risky and unsafe behaviors, and 
teach them when to reach out for help, we can manage this risk. We can 
keep our children safe.	
Our children are mainly at risk because of their own actions.  Some 
are intentional. Others are inadvertent. They may willingly engage in 
communications with people they don�t know in real life "RL," agree 
to meet them offline or send them sexually-provocative images or 
perform sex acts on webcams they share with people they encounter 
online. They cyberbully each other by advertising their victims for
sexual services, posting real or manufactured sexually explicit 
images of them online or by passing online rumors able their sexual
preferences or activities.
Preteens and Teens at Risk: Most of the high risk preteens and teens
fall into three categories: those who are naive and looking for love
and affection (typically the "loners" and "shy" preteens and teens),
those who already engage in other high risks activities, such as drug 
and alcohol abuse, driving too fast or doing risky things for the 
thrill of it (often the student leaders, athletes, cheerleaders and 
very competitive teens, the risks takers and thrill seekers looking 
to let off steam or impress their peers) and those who don�t realize 
that what they do online is real, the ones who are looking to appear 
older, cooler, more fun and more popular (most of the teens and 
especially preteens fall into this category at least once). Sadly,
most of our preteens and teens fit one of these categories. Sadder
still is the fact that in recent years we have learned that most 
preteens and teens are potential victims. 
Naive, loners and socially-shy preteens and teens: Some believe 
that they are communicating with a cute 14 year old boy, who they 
later discover isn�t cute, isn�t fourteen and isn�t a boy. Most of 
the reported cases fall into this category, and until the death of
Christina Long four years ago this May, experts all believed that
all victims fell into this category. They are conned, and easy to
spot online. Predators can seek them out, and find their 
vulnerabilities. They are groomed with care, and often fall in love 
with their molesters. Sadly, when the molestation finally occurs, 
not only are their bodies broken, their hearts and trust are too.
They need to understand how the predators work online. Too often 
they tell me that they can "tell" how old someone is online. They
can�t. No one can. Many predators spend years cultivating the right
tone and language to look like a fellow teen online. 
These preteens and teens are sitting ducks. While they may have 
learned not to fall for the "help me find my puppy" ploy offline, 
they need to learn how that same ploy (appeal for assistance) works
online. They need to know how to spot the risks and the predators, 
when online everyone can look like a cute 14 year old boy. They need 
to learn that romance shouldn�t occur only in cyberspace, and that 
parents can get involved to help them meet their soul-mate, assuming
they really are. So, if they aren�t, and turn out to be a 46 year old 
child molester, they can come home safely and help put that molester 
behind bars where they deserve.
Risk-takers, Thrill-seeking preteens and teens: Some preteens and
teens (mainly teens) are looking for the thrills and challenge of
engaging in a relationship (or at least prolonged communication) with
an adult. They "play games" with the adult, and are intentionally extra
sexually-provocative. They think they are smart enough to do this 
without getting hurt.  They see this as a game, without realizing the
consequences of their actions. And crossing the sexual line isn�t as
frightening online as it would be in real life. The problem is that 
the consequences are not as apparent, the realities not as immediate.
They take risks. And they think they can handle them. (They don�t often
understand the consequences, though.) They often willingly engage in 
sexual communications with men they know are adults. That�s part of the
thrill. They are also often willing to engage in sexual activities with 
the adult, but don�t realize what that can mean when things go very
wrong. We rarely hear about these kinds of victims, because they never 
report it when things go wrong. They feel as though they "asked for it,"
or are to blame. When we hear of these cases, it�s because they are
killed or kidnapped. (Christina Long was in this category. She was the
first confirmed murder victim of an Internet sexual predator in the 
U.S. and died four years ago this May.)
Friends are the answer here. If we can get friends too help watch out 
for each other, it is less likely that they will meet adults in real 
life, or if they do, got alone. Also, finding cool spokespeople, like 
Nick Lachey, to explain that it isn�t cool to be stupid and campaigns 
such as our "Don�t Be Stupid" help. So do real life stories from 
victims themselves about how they got caught and advice from the 
trenches. Kateisplace.org has sections specifically directed at this
type of victim. And Teen People is an important partner of ours in 
spreading the word.
Not really a drunken slut, just playing one online:  We�ve all been 
reading about this new trend in the news (often with me as the expert).
Good, respectful, otherwise well-mannered preteens and teens acting
out in cyberspace.  In profiles, blogs, on social networking sites 
and their away messages on IM, on their websites and interactive 
gaming bios, they act out. They pose in their bras, or worse. They 
simulate sexual activities (and in some cases post images of actual
sexual activities). They pretend to be someone or something other
than what they really are. And this alter-ego may be a sexually
promiscuous teen "up for anything." 
They don�t think it is cool to tell others they were home coloring 
with their five year old niece last weekend. Instead they claim to 
have snuck out after everyone was asleep to get drunk at a wild
party. To them it isn�t real. They lie. They pose. They do thing 
online they would never dream of doing in RL. They aren�t really 
drunken sluts - they are just playing one online. (Shannon, one of
our award-winning Teenangels, will share insight into why teens and 
preteens are doing this, during her testimony today.)

The Anatomy of a Cyberpredator: 
There have been many cases recently where pedophiles and other adults
have lured children into offline meetings and molested them. Luckily, 
there are even more cases when such attempts to lure a child have 
brought about the attention of law-enforcement groups. I debated 
whether I should discuss any of these cases, because I did not want to
sensationalize them. But if explaining the methods used by offenders 
might make parents more aware, and their children safer, it�s worth it.
Cyberpredators, just like their offline counterparts, usually aren�t
the scary, hairy monsters in trench coats we imagine standing on a
dark street corner. Many are the kind of person you would be inviting
to your home as a guest, and often have. They are pediatricians,
teachers, lawyers, clergy, vice cops, welfare workers, journalists, 
Boy Scout leaders, baseball coaches, scientists, etc. They are almost
always men. (Sometimes women are accomplices, but rarely are women 
the molesters.) They are often articulate and well-educated. They 
come in all shapes, sizes, and colors, and they can be very rich or 
out of work. But they have one thing in common: they want your 
child. 
Most of us are sickened at the thought of an adult having sexual 
relations with a child, but to be able to protect our children, we 
must get into the mind of the predator. First of all, predators 
often don�t see themselves as predators. They see themselves as 
loving partners with the children they molest. To them this isn�t
rape, it�s a seduction. And, as with any seduction, it�s a slow and
painstaking process. (Predators have been known to wait more than 
two years, collecting data on a particular child, before striking.)
That�s what makes them hard to detect. They don�t appear to your 
child to be dangerous. 
An FBI agent who shared a panel with me recently said it best: 
"Before the Internet, these people had to get physically close to
your children. They had to lurk near schoolyards, or playgrounds. 
Kids would see them. Adults would see them. It was a dangerous 
situation to be in for them, because everyone would notice an adult 
male lurking around children. They often had to take jobs and 
volunteer positions that allowed them to work with children in a 
position of trust in order to reach their victims. Now, however, the 
personal risks the pedophiles had to expose themselves to in order to
be around children are gone. Now they can be �one of the kids� and hang
out with your kids online without exposing themselves. As long as they 
don�t say or do something in the public room that makes them stand out,
they can stay there forever, taking notes.
And, many of them do. They have been known to create large databases on
children. They track the children�s likes and dislikes. They track 
information such as whose parents are divorced, who doesn�t like their 
father�s new girlfriend or their mother�s boyfriend, or who likes
computer games or a particular rock group. Kids often share personal 
information about their lives in chatrooms or on profiles. This is one 
reason why they shouldn�t. The more the predator knows about your child, 
the more easily they can "groom" them or appear to be their soulmate.
Some cyberpredators (known as "travelers" to law enforcement) seek out
the good kids, the smart ones, the ones who are not street-smart and are
from sheltered suburban or rural families. Many of our children match 
that profile perfectly. Others, however, target (or are targeted by)
popular, super achiever, risk preferring teens. It took the death of a
young teen from Connecticut, Christina Long, before we realized that 
many of the incidents involved teens who did not fit the loner profile.
What we learned was that these kids never report any attacks or 
exploitation. The only time we hear of these cases is when the teen is
kidnapped or killed. 
So who is a typical victim of an Internet sexual predator? Anyone
between 11-1/2 and 15. All are vulnerable.

It Doesn�t Take Torture for Them to Spill Their Guts
Here�s a mock chatroom discussion that my law-enforcement friends and I
agree is pretty realistic. Imagine a predatorial pedophile sitting and 
taking notes on this child, and using this information to lure them 
later. Would your child fall for this? Most, unfortunately, would. 
This one is more typical of a boy victim and predator communication 
than a girl victim communication.

Child: I hate my mom! I know it�s her fault that my parents are getting 
divorced.
Predator: I know. My parents are getting divorced, too.
Child: We never have any money anymore, either. Every time I need 
something, she says the same thing: "We can�t afford it." When my 
parents were together, I could buy things. Now I can�t.
Predator: Me too. I hate that!
Child: I waited for six months for the new computer game to come out. My 
mom promised to buy it for me when it came out. She promised! Now it�s 
out. Can I buy it? Nope. "We don�t have enough money!" I hate my mom!
Predator: Oh! I�m so sorry! I got it! I have this really kewl uncle 
who buys me things all the time. He�s really rich.
Child: You�re sooooo lucky. I wish I had a rich and kewl uncle.
Predator: Hey! I got an idea! I�ll ask my uncle if he�ll buy you one
too....I told you he�s really kewl. I bet he�d say yes.
Child: Really!? Thanks!!
Predator: BRB [cybertalk for "be right back"]... I�ll go and call
him.
� � �
Predator: Guess what? He said okay. He�s gonna buy you the game!
Child: Wow, really? Thanks. I can�t believe it!!!
Predator: Where do you live?
Child: I live in NJ. What about you?
Predator: I live in New York. So does my uncle. New Jersey isn�t
far.
Child: Great!
Predator: Is there a mall near you? We can meet there.
Child: Okay. I live near the GSP Mall.
Predator: I�ve heard of that. No prob. What about Saturday?
Child: Kewl.
Predator: We can go to McDonald�s too if you want. We�ll meet you 
there at noon.
Child: Okay. Where?
Predator: In front of the computer game store. Oh! My uncle�s name is 
George. He�s really kewl.
Child: Great... thanks, I really appreciate it. You�re so lucky to 
have a rich and kewl uncle.

Saturday arrives, and the child goes to the mall and meets an adult 
outside the computer game store. He identifies himself as "Uncle George"
and explains that his nephew is already at the McDonald�s waiting for 
them. The child is uncomfortable, but the uncle walks into the store 
and buys the $100 game. He comes out and hands it to the child, who is 
immediately neutralized and delighted. Stranger-danger warnings are not
applicable. This isn�t a stranger--he�s "Uncle George,"and if any 
proof was needed, the computer game is it. He gets into Uncle George�s 
car without hesitation to meet his friend at McDonald�s. The rest is 
reported on the 6 o�clock news.
It�s disgusting. It makes us sick to our stomachs, but it happens. Not 
very often, but often enough that you need to be forewarned. (Several 
thousand cyberpredator cases are opened each year by law enforcement
agents in the United States.) But no matter how often it happens, 
even once is too often. Knowing how they operate and the tricks of 
the trade will help us teach our child how to avoid being victimized.
Each case differs, but the predators tend to use the same general 
tactics. Aside from the "bait and switch" scam discussed above, they 
often attempt to seduce a child. They want the child to "want" them. 

The Script--How They Operate Online 
They begin by striking up a conversation with the child, trying to 
create a relationship of trust and friendship. They often masquerade 
as another child or teenager, typically of the opposite sex, unless 
the child has indicated homosexual interests. (The child may or may 
not know the "seducer�s" real age by the time they meet face-to-face.)
Phone calls usually start at this point. Sometimes gifts are sent to 
the child as well, which may include a Polaroid camera and film. Once
they have broken down barriers of caution, they begin introducing 
sexual topics gradually, often with the use of child pornography to
give the child the impression that other children are regularly 
involved in sexual activities. 
Then they begin to approach the child�s own sexuality and curiosity,
by asking questions and giving them "assignments," like wearing 
special underwear, sending sexually suggestive photos of themselves 
to the pedophile, or performing certain sexual acts. These assignments 
eventually broaden to the exchange of sexually explicit photographs 
(using the Polaroid, cell phone camera or digital camera) or videos of
the child. Finally, the pedophile attempts to arrange a face-to-face
meeting. (He may also have divulged his true age or an age closer to
his actual age at this point.) 

 Why It Works
All the lectures we have given our children from the time they are very
young about not talking to strangers aren�t applicable online, where 
everyone is a stranger. A large part of the fun online is talking to 
people you�ve never met. In addition, our children�s stranger-danger 
defenses are not triggered when other kids are involved. The warnings
apply only to adult strangers, not to other children. 
If any of us walked up to a child in a playground and tried to strike 
up a conversation, they would ignore us and probably run away. But if 
an unknown eleven-year-old came up to another eleven-year-old in the 
same playground, they�d be playing in ten seconds flat! That�s how the
pedophiles get in under our kids� stranger-danger radar'they pretend 
to be other kids. And children often believe what they read and hear.
They "know" things about the predator because they believe what he told 
them. They also believe what they read about him in his "staged"
profile, which supports what he told them. So it�s not just true, 
it�s confirmed. 
There are many stages at which the pedophile can be thwarted by an 
observant parent. In addition, children with healthy friendships and a
strong, open, and trusting relationship with their parents are less
likely to fall victim to pedophiles online. Pedophiles typically prey 
on a child�s loneliness. They feed the child�s complaints about her home 
life-creating an "us-versus-them" atmosphere. "Your mom is so mean to you! 
I don�t know why she won�t let you _____." (Fill in the blank with 
whatever we try and limit: makeup, malls, concerts, etc.) 
This atmosphere does two things: It creates a distance between the 
child and her parents, at the same time bringing the child into a 
special secret alliance with the pedophile. (You should know that boys 
are almost as often the victims of Internet sexual exploitation as girls
are, but they report it less frequently.) 
I have followed many cases over the last few years. In my role as 
WiredSafety executive director, I�ve also been responsible for reporting
several of these to law enforcement and for helping many families 
through the pain of prosecution. Sometimes we just help the families 
survive what the molestation has done to them. (The child isn�t the only 
victim-entire families are torn apart in the aftermath of a molestation.) 
Parents feel guilty for not having protected their child, siblings don�t 
know how to treat their fellow sibling--the pain can continue for a
lifetime, and even more. And, in addition to being hurt physically, the 
young victim�s heart is broken by the betrayal of trust. 

Anatomy of a Real and Early Case
One case I reviewed many years ago involved a New Jersey teenager and 
an Ohio adult predator. It was one of the earliest reported cases of 
cyber-predatorial conduct, discovered in 1996. Luckily, the liaison 
was discovered before the girl met the man face-to-face. But it had
gone on for a year and a half before being discovered by the girl�s 
mother. As you read the details, think about what could have been done
to discover the situation earlier and how you can use these 
precautions to protect your children.
Paul Brown, Jr., an Ohio resident, was forty-six years old. He was 
also unemployed, weighed over four hundred pounds, and lived in a 
basement. He had accounts with several ISPs. Mary (a hypothetical name
for the young girl involved) was twelve when her mother, a schoolteacher,
bought her a computer, reportedly because Mary was having problems 
making friends. When she got online, Mary posted a message on an online 
service, in the spring of 1995, looking for a pen pal. In her message 
she described herself as a teenage girl. Paul Brown, Jr,. responded to 
the message, using his real name (something they often do, surprisingly)
but identifying himself as a fifteen-year-old boy.
Brown and Mary maintained an e-mail and telephone relationship for 
several months. As the relationship became more involved, they began
writing letters, and Mary sent Brown a photograph. He told her that he
was living at home with his mother and was hoping to find a girlfriend.
In early August, Brown asked Mary for a "favor." "If I sent you a roll 
of film, could you get one of your friends to take pictures of you in 
different outfits and maybe hairstyles? Makeup if you use any, and 
different poses. Some sexy, if possible. Please. Baby for me. Thanx.
You�re the best. Love Ya."
Mary complied. For the next eight months, they continued to converse 
and correspond, and Mary sent additional photos. Brown encouraged her
with juvenile antics, such as using stickers in his letters to her 
saying things like "Getting better all the time!" In May 1996, Brown sent
Mary a special love note. "Saying I love you... seems to be an 
understatement. At the age of 14 you have captured my heart and made it 
sing... I love everything about you."
Shortly thereafter, Brown confessed to being in his twenties. He also 
suggested that Mary videotape herself in sexually provocative poses. She
did. After Brown had reviewed her videotape, he returned it to her with 
instructions to redo the tape and include views of her genitalia and
breasts. He later admitted to being divorced and in his thirties. He 
reportedly also sent her small gifts from time to time. 
A few months later, in response to Brown�s promise to pass copies of the
tape to four members of a rock band Mary admired, she sent additional 
videotapes to Brown. (Brown told Mary that he knew the band members very
well.) Each tape sent to Brown was designated for a different member of 
the band and contained sexually explicit conduct. Brown apparently had 
also sent her his size 48 underwear. When her mother discovered the
underwear, the authorities were notified. Tracing Brown through phone
records, special agents of the FBI in Cleveland seized the videotapes 
and photos of Mary and of more than ten other teenage girls from across
the country.
Mary was fourteen when this was all discovered. Brown pled guilty to 
enticing a minor to produce sexually explicit photos and videos and was 
sentenced to a little less than five years in prison (the maximum penalty 
for a first offense). In a written statement to Brown following all of 
this, Mary said, "I trusted you. I thought you were my friend." 
There are several things that stand out in this case. One, interstate 
phone calls were made by Mary. Parents should always be reviewing 
long-distance bills for suspicious calls. Two, Mary was lonely. These 
kinds of children are often the most vulnerable; a parent should be 
involved in their online friendships, and monitor their online lives. 
And, three, as hard as it is to know what our kids are doing when we�re
not  around, especially if you are a single parent, a year and a half 
is a long time for a relationship to be going on undiscovered. You should
spend time learning who your children�s friends are, online and off. But 
Monday-morning quarterbacking is always easier than playing the game in 
real time. We may look at the situation and say that could never happen 
to one of our kids. However, there but for the grace of God go all of 
us....
Knowing your child is lonely and has problems making friends is the first
sign that the child may fall prey to a pedophile or cyber- predator. 
Predators can spot lonely children. They can also spot kids who are new 
online and may not yet know all the rules. Most teens, when surveyed, 
admit to having been propositioned online. But what may be obvious to a 
cyberstreetsmart kid may not be so obvious to a child not yet familiar 
with cyberspace. Pedophiles befriend these kids and patiently build trust 
and a relationship--looking toward the day when they can meet face-to-face. 
Encourage your children to make online friends, but learning about their 
online friends is an important way to avoid these secret relationships. 
Education is important in avoiding this danger, too. (Had Mary been 
forewarned about how pedophiles operate online, she may have been more 
attentive to how old Brown sounded on the phone, and been more aware of
his classic tactics.) So is control over incoming and outgoing 
information when younger children are involved, using technology 
blockers, monitors, and filters. These kinds of situations can be 
avoided if you plan ahead, educate and communicate with your children, 
and keep your eyes open.

 Getting in Under Your Radar: 
Even when parents are watching, bad things can happen.
I included the Paul Brown case in my first book, A Parents� Guide to 
the Internet. (He was sentenced in 1997, when I wrote the book.) I 
included it because it was a good example of how cyberpredators 
typically operate, and suggested that if the mother had been a bit more
attentive, it might have been discovered earlier. I was right about how
cyberpredators operate. I was wrong about how being attentive might 
have avoided the sexual exploitation. It takes more. It takes both an 
attentive parent and a teenager who has been taught how these pedophiles 
operate online.
In November 1998, I met a mother who did everything right. She was
attentive and inquisitive about her daughter�s online relationships. She
asked the right questions. She had a good relationship with her 
daughter, and yet Charles Hatch, a child molester from Utah, got in 
under everyone�s radar and sexually exploited her thirteen-year-old 
daughter. 
Jennifer (not her real name) was eleven and a half when she first met 
"Charlie" online. She thought he was a few years older, and was 
intrigued about befriending a slightly older teenage boy. Jennifer was
an honors student and had already been taking advanced college courses 
while still in middle school. She lived in a loving and warm household 
with her mother and father. She also had siblings and half siblings 
from her father�s previous marriage. They were all close. 
Jennifer�s mother, Sharry (also not her real name), talked to Jennifer 
about her online friend, Charlie. She insisted on talking to Charlie 
himself, by phone, once he and Jennifer had started calling each other.
He passed the phone call test, and Sharry was convinced that he really
was the teenage boy he professed to be. Either he had manipulated his 
voice to sound younger or he had a younger person make the call. 
Charlie even called and spoke to Jennifer�s brothers, talking about 
when he would be their brother-in-law someday, after he and Jennifer 
were married. He pleaded with Jennifer to come and visit him in Utah. 
Sharry invited him to visit them instead. But Charlie always had a 
reason he couldn�t come. 
As things progressed, Sharry insisted on talking to Charlie�s mother. 
He first avoided it by saying she was sick, later that her sickness had
become cancer, and that eventually she died from the cancer. The family 
fell for this, hook, line, and sinker. Most caring families would. 
Although the "relationship" progressed for almost two years, it remained 
relatively tame. Charlie was romantic rather than predatorial, and he 
sent her expensive gifts, including a Polaroid camera. (Remember the 
Polaroid camera Paul Brown sent?)
Jennifer was inexperienced with boys and dating, and Charlie seemed to 
know not to push her too fast. But about a year and a half after they met 
online, Charlie sent her sexually explicit photos of himself from the 
neck down. She became very uncomfortable and pulled back. But several
tragedies occurred around the same time, which made Jennifer easier 
prey. Her father was hospitalized with a serious illness, and her 
sixteen-year-old half brother died of a brain hemorrhage. 
Charlie, like all good predators, knew when to strike. He told Jennifer 
that she owed him sexually explicit photos of herself, since he had
sent those of himself. When she refused, he told her that she would be 
left alone, since her family was dying or would die--and he threatened 
to leave her.  Reluctantly, after fighting against it as hard as she 
could, she acquiesced and sent him sexually explicit photos of herself. 
When Sharry was cleaning Jennifer�s room, she discovered a letter in
which Charlie had set forth the sexual poses he wanted Jennifer to 
photograph. Sharry sent him a letter, confronting him. She said that
he didn�t sound like a teenager in the letter. She told him that if he 
ever contacted her daughter again, she would inform the police. He 
never replied, and Jennifer was not permitted to use the Internet for
months.
One day, just when Jennifer and Sharry thought that the whole episode 
was past them, the phone rang. It was a detective from Utah, who 
informed Sharry that Jennifer�s photos had been discovered in Hatch�s
day planner by a coworker. He wasn�t sixteen--he was thirty-six. He 
was a former teacher who had been dismissed by the school after having
been accused by a student of sexual abuse. (The school hadn�t taken 
any other action.) He was currently employed by the welfare office in
Utah, and was married with children and step-children. 
Six months later, Charles Hatch was convicted of sexual exploitation in 
a Utah federal court. He began his six-and-a-half year sentence in early
June 1999. As a condition of his plea, he will not be permitted to use 
the Internet. This mother has become a dear friend of mine, after seeking
WiredSafety� help in getting through this. She was the first parent to 
speak out publicly about her child being targeted by a sexual predator 
online.
Unfortunately, the predators are willing to try many different ploys 
until one finally works.

Using Celebrity�s Names
I was having lunch in Los Angeles with one of my girlfriends when Nick 
Lachey walked into the restaurant. She pointed him out to me and I 
immediately grabbed my business card and approached his table (to the 
utter embarrassment of my friend). I introduced myself and told him I 
needed his help. I explained that predators were using his name and the 
name of other celebrities to lure kids into meetings and unsafe
activities. They find teens who post their favorite celebrities on 
their profiles, websites or other online communications. Then they 
create a profile claiming to be a close personal friend of that 
celebrity. They offer to forward a pic of the teen to the celebrity, 
and seek sexier and sexier pics as time goes on, ultimately ending
with an offer to introduce the teen to their favorite celebrity in 
real life. Years ago, Justin Timberlake was the most popular of these 
celebrity lures. Nick is now. He listened intently and turned white 
when he realized people where using his name to hurt his young fans. 
He offered his help. 
When I left his table, he has agreed to do a public service announcement
to help teens understand that is anyone claims to be a close personal
friend of a celebrity, they aren�t. Or won�t be for long. I was very 
excited, but not as excited as I was two weeks later when someone from
Nick�s office called asking me to help them create a safer teen-only 
social networking site called YFly.com. I agreed and YFly.com became a 
reality with the financial assistance of Tom Petters (and the Petters 
Group), and the creativity and energy of its founders, Drew Levin and 
Daniel Perkins. I joined the team to set up a safer network and create 
the most advanced educational and awareness content online, just for 
teen users. The young users can click on "Report the Creep" if they 
suspect someone is an adult posing as a teen.
It�s a beginning. Finding safer technologies and services is part of 
the solution. So is awareness using teenspeak.
Shannon, one of our Teenangels is 14 years old. She was selected by 
Teen People as one of the twenty teens who will make a difference. She 
has gone them one better...she is already making a difference. It is 
with pride that I introduce Shannon Sullivan, one of my Teenangels.

Common Internet Sexual Predator Ploys...How it works online
WiredSafety has done a substantial amount of research on how predators 
operate offline and online. Working with missing children organizations 
internationally, Internet providers, law enforcement and victims and 
their families, we have developed a substantial knowledge base about
how teens and preteens are lured into offline meetings and online 
sexual exploitation. From the young victims of sexual predators and 
online sexual exploitation, we have learned the typical [ploys and how
they unfold. By handling online one-to-one help for victims of
cybercrime and cyberabuse, we have learned what parents and teens need
and how to get them assistance quickly. WiredSafety has stood on the 
front line against Internet criminals and abusers since 1995.
There are certain tactics that sexual predators use offline to prey on
children offline, whether they are strangers or someone known to the 
child. Interestingly, these same ploys are often used online, by
Internet sexual predators, with some "virtual" modifications. Only a 
few ploys, which are aided by the anonymity of cyberspace, are unique 
to cyberpredators. Until our recent work, no one has pulled together a 
list of common predator ploys used by offline sexual predators and 
compared them with the ploys used by online sexual predators. Our 
researchers are developing additional materials and studies to expand
what we have already learned.
This new research is crucial to keeping our teens and preteens safer. 
Protecting young people from Internet sexual exploitation is much 
easier if the young people are aware of the kinds of tricks and ploys 
used by the predators. If they are alert to possible "ploys" they are 
less likely to be caught off-guard.� Many of these ploys are used over
and over again by perpetrators and taught to others within their child
molester communities. They include: asking you child for assistance 
(this is the help me find my puppy ploy, when used offline), the love 
and affection, confidence and trust ploy (where the child is groomed
to fall in love with their online soul mate), the curiosity ploy, the 
fear tactic, the games and fun, the fun and job offers and the modeling,
talent scout or beauty contest ploys.
"Don�t talk to strangers" is probably the most common warning parents 
give their children in an attempt to prevent abduction or exploitation.
Unfortunately, these warnings don�t work in cyberspace, where one of 
its greatest benefits (and the most fun for teens) is being able to 
communicate with strangers. In addition, unlike the perception of a 
"stranger" as the raincoat clad, dirty, bearded man who lurks on street
corners or in playground, Internet "strangers" quickly become Internet 
"friends" and the stranger danger radar is no longer working. The kids,
tweens and teens are no longer treating them with care, and have let 
them into their inner-circle. That�s where the real dangers begin. These 
child molesters can get in under your and our children�s stranger danger
radar. 	Sometimes this happens because they believe their net 
friend is another young person. And a "stranger" is never another young
person. Unlike the offline counterpart ploys, a 47 year old can easily 
masquerade as a 13 year old online. Or someone can be three or four
different people at the same time online, engaging in conversations 
with themselves in a public setting, allowing young by-standers to 
think they are trustworthy, or famous or otherwise worth talking to.
Online our children are in the dark, literally.
With the number of young sexual predator victims growing, and the amount
of contact information young people are sharing online in blogs, 
profiles and away messages putting them at greater risk, awareness and
prevention in these areas is crucial. Partnerships with Internet 
service providers, media and entertainment companies and learning from 
and sharing what we know with each other is what needs to be done. And, 
it is worth the effort. Our children are entitled to sleep more safely 
at night, and enjoy the wonders of the Internet...without fear of being 
preyed upon or hurt.

Parents are the Beginning
From the time I published my first book for parents on Internet safety 
in 1997 (A Parents Guide to the Internet) we have been educating parents 
on how they can stay ahead (or at least on par :-)) with their children
and teens online. Our quick guide - Parenting Online, is available 
online without charge and has been copied and distributed by hundreds
of groups and schools around the United States. It includes a 
parent/child contract, a quick guide to parental control technologies 
and our very popular "Common Sense to Cybersense." (A copy of this guide 
is attached as part of the Parenting Online Guide.)
Now, many parents want something quick. They are happy that expert 
groups such as WiredSafety.org understand all the issues and that they 
can turn to us. But they are being pulled in so many directions just by 
virtue of their parenthood, that they want "Just the Facts...Madam." Our 
new programs, called Internet Safety 1-2-3 make it easy for parents to
spot the risks by age, and also by technology. Our new automated Family 
Internet Safety Plan works using this new approach (patent pending) to 
help parents understand what works for them and what things they need
to do to keep their family safer, given the technologies they use, the
ages of their children and their value system. (A quick example of the 
kinds of things covered is attached as an Appendix 3 in our "Cheatsheet
on Risks by Age".)
Our children are worth it, and so is the Internet. Too often blamed for
everything from the Black Plague to the sinking of the Titanic, the 
Internet is a wonderful tool for learning, communication and 
entertainment. It levels the playing field between the haves and the 
have-nots. All children look alike online. No one is classified by their 
race, ethnic origin, religion, accent or physical ability. Online they 
are all just children. And like it or not, the Internet is here to stay.
We�re all in this together.  Let�s work together to make the Internet 
fun, safe, private and educational for children. And let�s work together
to make sure that the children�s Internet industry, which has so much to
offer our children, flourishes!
For the children.
I remain willing to help, and provide input and expertise in any way this
Subcommittee can use my help and expertise.
I wish to thank the Subcommittee, its chairman and all its members for 
inviting me to present this testimony on such an important subject.
Parry Aftab, Esq.

                 
     
       
  

	Mr. Whitfield.  Thank you, Ms. Aftab.  And we want to hear from 
	Ms. Sullivan in just 1 minute but right now I want to recognize 
	Mrs. Schroeder for her 5 minute opening statement.
Ms. Schroeder.  Thank you very much.  I wanted to thank you, Chairman, 
for inviting me here to testify today.  
	And what I would like to do is talk about what i-SAFE has been 
	doing for the past 6 years.  We have been in Congressional 
	Appropriations for the past 6 years.  We are in all 50 States and 
	we are in 15 countries.  Predatory acts against our children are 
	the most heinous acts that we have ever seen.  We have heard it 
	today from Justin and we have seen it time and time again with many,
	many children.  And we look at this in terms of, and we ask 
	ourselves how can this be, you know, in terms of families, we are 
	here to protect children.
	Our Nation now is being faced with a new technological challenge 
	which is these kids know a lot more about technology than parents. 
	They know a lot more about technology than their teachers.  This
	is their world.  In my day, when I would come home from school, I 
	would pick up the telephone and we would be talking to one another.
	Today, what the kids do is they go home, they fire up their 
	laptops, and they get on the buddy list and that is their friends.
	And we have heard testimony today in terms of how do you define a 
	friend, how somebody tries to make a friend online, and how that 
	is all done under the guise of anonymity.  
	If you would look at the screen that I have here on the Internet 
	landscape and as you see here, 90 percent of the kids and this is
	an assessment that we did with over 200,000 students in the 
	schools and they have Internet access.  If you look at the fact 
	that 25 percent of those kids and we really do believe that this 
	is a low number, they spend at least 5 hours a week online.  If 
	you look at also too the way the Internet is is that the kids 
	like to be by themselves.  We heard this with Justin in his room.
	This is where he was comfortable in terms of he needed to talk 
	to people.  And as you can see here with the statistics that 
	we have with them, the numbers are quite high when you start 
	looking at the fact of in fifth grade 40 percent.  That is 
	small.  In fifth grade, we are still chaperoning our kids but 
	yet they feel so comfortable on the Internet in terms of being
	alone.  Also here, if you look at the statistics that we have 
	and there is no right or wrong answer from these kids.  I mean 
	they--we did pre, post, and delayed assessments, but 33 percent 
	of them said that they fee freer in cyberspace.  And I actually
	have had the opportunity to do site visits in these schools and
	some of the questions that we asked them is why do you feel 
	freer in cyberspace.  And it is just one of those that they feel
	that they know these people.  We heard from Justin and how he 
	was enticed and he did things that in real life you would think 
	that is something that nobody would ever do.
	But also, too what we looked at was the fact that the students
	and we went ahead and did a survey of 30,000 students with 
	30,000 parents and we asked them, do you tell your parents what
	you are doing online?  And what was interesting after this
	survey was the fact that the kids said no but the parents said
	yes.  And actually this was published by the Justice Department 
	when we were through with it, and what we found out with the
	conclusion of this that this is the digital divide.  We went
	ahead and asked the kids in terms of would your parents approve
	of what you did on the Internet?  Many of the kids said no and
	the parents said that well of course I would, I trust my kids 
	in terms of what they do on the Internet.  We look at the risky
	online behavior of students.  As kids grow older, they take
	risks and that is inherent within them.  That is how they learn
	to be able to do things in terms of they take risks riding bikes,
	they take risks in everything that they do in life and one would 
	hope as they grow and they become much more mature, that those 
	risks are much more calculated and they do not become risks but 
	more so it is one model of appropriate behavior.
	We went ahead and in the school districts we asked the students 
	in terms of how many of them gave out personal information and
	what we found out from these kids was the fact that many of them 
	said well I do not tell people my name.  And one of the 
	activities in the classroom is the fact that they will have to 
	go and actually tell what is their screen name and they had 
	discussed is that identifiable information?  How much of your 
	screen name does that say about you?  And what we found out was 
	the fact if you look here, there is a very high percentage of 
	kids that what they do is they will put a screen name down and 
	then describe maybe their age, their location, what they like, 
	what they do.  
	We found out, too that after education, NIJ gave a $3 million
	grant to an entity in Virginia to study us for 2 years.  We were
	selected on an efficacy study and we presented that study to 
	you in November.  And what they told me when they presented it 
	was is that they saw that this is probably the fastest crime 
	prevention in terms of preventativeness that really made a 
	difference.  And one of the questions I asked was why?  Why did 
	they see that of all the crime prevention that they had ever 
	looked at before?  And you know it was a real easy answer, which
	is this is their world.  This is their cyberspace.  They know
	all about it.  And after the curriculum, what we found out here
	was that 84 percent of the students they were a lot more careful
	in terms of the information that they gave out.  They also were 
	a lot more careful in terms of what they were sharing information
	because now they are a lot more knowledgeable about I understand 
	now in terms of what that information can do and where it can go.
	Also in actual property.  Many of the students did not understand 
	what is that?  Isn�t everything free out there?  They did not 
	really grab the concept of this is actually stealing.
	We look at the fact of meeting face to face and you can see here 
	many of the students there is not any student that you would 
	talk to that said yes, I do want to meet a pedophile online.  
	There is just, I mean, that is just not going to happen to them.
	And we have talked to millions of kids.  But the fact is while
	they are looking at that saying that they are a lot more careful 
	in terms of being a willing participant.  When they start 
	giving gifts, they start thinking this is not normal.  One of 
	the activities in the fourth grade class was the fact that the 
	kids turn around and they have something and they are to give 
	it to their best friend.  And if it contains a value, let us 
	just say $50, you do not want to give that away.  Well then
	why would you think that somebody that you do not know would 
	send you money in the mail?  
	Up here is a chart and it is a map of the United States.  This
	year, i-SAFE will have educated 1.8 million students.  And those
	are audited figures.  Those are classroom instructions that we
	get from the school.  We have cooperative agreements with the
	schools.  And so as you can see here that, those are pretty 
	significant numbers in terms of the desktops, the numbers of kids 
	that we actually touch their lives every single day.  
	And one of the big things that we have found is is that the 
	peer-to-peer, you are hearing it, peer-to-peer from the kids and
	I have with me one of our I Mentors and he is from the State of
	Maryland.  And what I wanted to actually show today and I have
	here in terms of we use Kentucky as a model.  Kentucky was one 
	of our original States that we actually implemented in and it
	was a State that just took off with a vengeance, particularly 
	with those mentors.  It was amazing to see what they did in 
	their State, in that particular State.  When you look at the 
	model of Kentucky, we formed the partnership with the Department
	of Education, with law enforcement, with the Attorney Generals,
	with the parent organizations, with the school organizations. 
	We did 120 man professional developments in that State, 88 parent
	programs.  And as you can see in that State alone there are over
	112,000 students that have received the curriculum.  
	Also looking in terms of the educators on a national perspective,
	we have done almost 2,000 professional developments nationwide 
	and we do train the trainers so we form a strategic development,
	a partnership with the Department of Education and it�s 
	institutionalized within their school day.
	And you do not want to forget the parents because the fact is 
	that parents they are trying to catch up with what their kids 
	are doing.  I was on the last two Dateline segments with Chris 
	Hansen on how to catch a predator.  And the big one that was
	just on television a few months ago, I addressed the issue of
	parents.  And it is not the fact that parents do not care, it 
	is just that many parents and including myself grew up in the 
	television age, so you cannot grab the concept of can that 
	computer really do that?  Or, you know, if the computer is
	upstairs in their bedroom, many parents today are thinking, I
	am really glad that my son or daughter is at home, it is 10:30 
	at night, but the question is who are they up there with?
	Mr. Whitfield.  If you could summarize, Ms. Schroeder.
	Ms. Schroeder.  Yes.  What we have looked at today is the fact 
	that kids are having two way communication.  We did a project 
	with VeriSign and we gave kids their first digital ID and it 
	was called the i-STIK Project.  Kentucky participated in that as
	well.  So they see what kids are doing with social networking, 
	they are in school, they are doing their homework online.  And on
	this particular project what we did there are the kids actually 
	had a digital ID, they went to a local area and right now what we 
	are working with is YAHOO.  We had Myspace contact as well 
	regarding, because of the problem that they are having, Microsoft, 
	and looking at the fact of being able to give these kids their own
	digital ID so it would authenticate them.  So what happens is is 
	that you are in a green space where there is other kids.
	What I would like to do is just show you brief video on the 
	mentor in Kentucky.
	[Video]
	Thank you very much.
	[The prepared statement of Teri L. Schroeder follows:]

Prepared Statement of Teri L. Schroeder, President/Program Director,
i-SAFE America, Inc.

Thank you, Chairman Whitfield and Ranking Member Stupak for inviting me 
to testify before the House Subcommittee on Oversight and Investigations 
at the hearing entitled "Sexual Exploitation of Children over the 
Internet:  What Parents, Kids and Congress Need to Know about Child 
Predators."
Predatory acts against our children are among the most heinous of crimes 
perpetrated within our society. Historically, communities as a collective 
take deliberate and specific actions to protect their children in an
effort to prevent these heinous acts. These protective actions include: 
education -- teaching children to be wary of strangers, to recognize and 
avoid dangerous situations, to cry for help when they feel threatened.
Our nation is now faced with technological advancements that allow even 
the youngest of children to have access to the Internet.  Students today 
explore the wonders of the world by transporting themselves through 
cyberspace. They can travel to the brightest most intellectual domains 
of the universe and conversely, they may travel to the darkest most 
detestable realms of the human imagination; and they travel this world 
alone.  A universal paradigm shift has occurred in the methods and means
available to child predators in pursuit of their prey; and as such a 
universal paradigm shift has occurred on the preventative tactics that we 
employ in our efforts to protect our nation�s youth against these 
predators. 
The content of my testimony today will address the ramifications of 
this universal shift as our nation�s youth explore the wonders of the 
Internet.  We truly are a global economy and as such our nation�s youth 
are cyber citizens engaging in online activities.   Those activities
include socialization (two way communication whether that be through 
email, chat or instant messaging), games, shopping, entertainment and 
education.    
I will be addressing the role of education and youth empowerment and the
need to empower our nations youth with the appropriate tools to minimize
the number of predatory acts predicated against them.  It is imperative 
that a proactive well-balanced approach be deployed to support the 
challenge of embracing the activities of our nation�s youth online.   
i-SAFE America is dedicated to: 1) implementing a standardized Internet 
safety education program throughout the nation that provides kids and
teens with essential tools to reduce the risk of their being victimized 
while engaged in activities via the Internet; and 2) launching an Outreach 
Campaign that empowers students to take control of their online 
experiences and make educated, informed, and knowledgeable decisions as
they actively engage in cyber activities.  From September 2005 through 
March 2006 i-SAFE educated over 1.3 million students nationwide.  That 
number continues to increase monthly as the i-SAFE program is expanded 
throughout school districts.
The i-SAFE Internet safety curriculum is a teaching and learning 
experience, which incorporates best practices as they are defined by 
the latest educational research, and correlates them to accepted 
educational standards.  This is accomplished by providing a broad range
of materials and formats which meet a variety of teaching and learning 
needs for students and educators in grades Kindergarten through 12.  
Topics are centered on up-to-date information pertinent to safety 
issues, which confront today�s youth through continuing advances in
Internet technology.  
The curriculum creates a successful learning environment through a
model of integrated critical thinking activities and guided 
opportunities for youth empowerment.  Active participation in i-SAFE 
student activities promotes acquisition of knowledge, analysis of 
online behaviors, construction of solutions to Internet safety 
problems and issues, and involvement in the spread of Internet 
safety concepts to others through peer-to-peer.  Through this process,
students enhance and enrich their own lives, the lives of other 
students, and the community at large as they engage in creating a 
safer cyber community.
Our children now live in two diverse worlds: their physical world and 
the world of cyberspace. As such, they essentially live in two cultures
that often conflict. Previously, many of the lessons learned in the 
physical world don�t seem relevant in cyberspace as these children 
reach out to strangers as friends. This paradigm shift demands new 
innovative educational programs, and tools, for our children; their 
parents and the community. It is essential that children, as they 
travel their world of cyberspace alone, be provided with the knowledge
and tools they need to independently recognize and avoid dangerous 
situations online; to actively engage learned proactive techniques to
more safely interact with strangers online; to critically appraise 
situations in which they find themselves; and to react appropriately 
when they find themselves in uncomfortable, compromising, or
threatening situations. 
Students today will be global citizens for the rest of their lives. 
Students view the Internet in a much different way than adults.  
	I would now like to address the "Parents Internet 
	Assumptions" and the "Youth Perceptions/Behavior regarding 
	the Internet."  At the time of this report approximately 
	100,000 students had participated in the survey process;
	students participating in our US program by grade level were:
15,000 K - 2 students
22,200 grades 3 & 4
62,800 grades 5 - 12

	The i-SAFE assessment results show that in most cases there is 
	a noticeable difference in a student�s participation in risky 
	behavior from grade to grade. Older students are more likely to
	take risks and/or feel safe in the Cyber world. This finding 
	reinforces the need to introduce and educate our youth in the 
	early grades. For example: When asked if they had visited an 
	"inappropriate" website; 15.5% of 5th graders said yes vs. 36% 
	for 10th graders.
	Relative to gender; males are more prone to visit an 
	inappropriate place on the Internet than females (31.3% vs. 
	18.7%) and are likewise greater risk takers when asked if they 
	were willing to meet someone from the Internet "face to face" 
	(19.2% vs. 11.2%). Males were more likely to play games as 
	their primary online activity while females were more likely 
	to chat or use email.
Also, based on pre assessment results; it is evident that once a youth 
enters cyberspace there are no significant differences in behavior 
between ethnic groups. Therefore, the Internet has become the great
equalizer.  90.4% of students� in grades 5-12 and 84% of students� in
grades 3 & 4 have Internet access. And on an average 37% of all 3rd &
4th graders use some form of Internet communication; that figure rises
to the 80-90% level in the upper grades. Interestingly, about 45% of 
students in grades 8-10 stated that online communications were their 
main method in keeping in contact with friends.  In addition students 
in grades 5-12 stated that:
23% are online for more than 5 hours a week (86% are online at least
3 hour a week).
8% have been asked to keep their Internet friendship a secret.
12% have been upset by something that was said by a stranger they 
met on the Internet.
32% have the skills needed to get past filtering software and 20% 
have actually used those skills to get past filtering software.

Digital Divide Between Parents & Youth
	There is a gap between what parents say they know and what 
	youth claim they share with their parents. In an i-SAFE 
	survey with over 2,000 parents, the vast majority (94%) of 
	parents stated they had a pretty good idea about their
	child�s online behavior. In contrast, only 54% of the students
	said they share where they go and what they do on the Internet
	with parents.   Our results also show that these differences 
	between parents and students generally increase with increasing
	age.

 EMBED Excel.Chart.8 	Of the parents surveyed, 93% felt that they
 had set ground rules for their child�s online activities. However, 
 the percentage of students acknowledging that their parents had 
 established rules for their Internet use drops to 63.7% (see chart
 below).

 EMBED Excel.Chart.8 
	In addition, 21% of the students stated that their parents 
	complained about the amount of time they spent on the Internet
	but 29% also felt that their parents really had no idea how 
	much time they were actually spending online. 62% of the 
	parents polled indicated that they were NOT concerned about 
	the amount of time their child spends online. Interestingly, 
	on average, 25% of the students stated that their parents, on
	some level, would disapprove of their online activities and
	13.8% actually keep their Internet activities secret from 
	their friends and family. The gap between what youth believes 
	to be their parent�s level of awareness regarding their online 
	behavior and what parents have stated is significant and merits
	continued attention.

At Risk Behaviors
	There are other individual statistics that underscore the need 
	for constant Internet safety education.  For example, the 
	Internet has become a focus for youth to find entertainment,
	make new friends and make purchases.  On an average 29% of 
	the students have shared such information when going online. 
	That figure goes up in the 50% in the higher grades. 
 EMBED Excel.Chart.8 
	Two other factors compound this issue. More than half of all 
	students prefer to be alone when accessing the Internet (see 
	graph below). Combine that desire with a student having their 
	own computer in their room (22% overall stated that the computer 
	they use is in their bedroom); and students feel empowered or 
	freer to do what they want on the Internet than they do in the 
	real world (33%).

 EMBED Excel.Chart.8 
	It should be pointed out that even in the very early grades our
	youth are being exposed to the cyber world. It is folly to 
	suggest, as some have stated, that "kids that are young are
	not Internet savvy."   The vast majority of K-2 teachers (54%) 
	stated that at least 50% of their students have used a computer
	at home and 16% of the teachers indicated that at least 50% of
	their students have used email.   A significant number had also
	gone into chat rooms. The age demographics of these students 
	consist of 5, 6, & 7 years olds.
	28% of all students in grades 5-12 (43-52% in the upper grades) 
	have downloaded music or movies from the Internet. On an average,
	65% were against any type of fee being charged for the service. 
 EMBED Excel.Chart.8 


In real life Kids/Teens spend twice as much time with peers as with 
parents or other adults.  However, through the guise of anonymity the 
Internet provides a medium which allows a student to believe that the 
communication they are having online is a respective peer when in many
instances it is an adult.  Even though students may be aware of the 
dangers inherent in communicating with someone online, we continue 
to see they make decisions about engaging in a behavior as if it 
were a one-time thing.
Risk taking is a natural part of kids/teens lives.  They take risks
in order to grow, trying new activities, generating new ideas, 
experimenting with new roles.  However, they can also find themselves 
in trouble with their risk taking.  Concern over such risk behaviors 
have led to the creation of many types of intervention.  Some of these
interventions have attempted to manipulate kids/teens beliefs, values
and behaviors hoping to get them to act more cautiously.  Other 
interventions have attempted to improve their stability to make
sensible decisions, hoping to get them to make wise choices on 
their own.  Having general decision-making skills enable kids/teens
to protect themselves in many situations.

Education Makes A Difference
	The good news is that in-classroom education and outreach 
	efforts do make a difference.  Students taking i-SAFE post 
	assessments, immediately after completion of the i-SAFE 
	curriculum, demonstrated a significant rise in their 
	Internet dispositions.

84% of students stated an intention to be more careful about where 
they go and what they do on the Internet.

89% indicated that they would be more careful about the email 
attachments that they open.

88% will be more careful about sharing personal information with 
those they meet in chat rooms and other places on the Internet.
	
	On an average, 80% of the students polled after completing 
	the i-SAFE program were going to be more careful about 
	downloading music from the Internet. However, older students
	were more inclined to download and less concerned about
	being careful.
 EMBED Excel.Chart.8 
	An area that attracts quite a bit of attention is child 
	predation. Our pre assessment data shows that on an average 
	about 15% of the youth were willing to meet someone new from
	the Internet "face to face". After the i-SAFE program 82% 
	of all students stated that they would be less likely to 
	meet someone face to face.

EMBED Excel.Chart.8 
	Though individual statistics can be interesting and in some 
	cases alarming, the real power of the data lies in the 
	overall trends that reveal the impact of emerging cultural 
	and social changes brought about by the Internet. The 
	increasing amount of time spent in the Cyber world, the 
	ability to remain "anonymous", the perceived lack of rules, 
	the ease of access; all contribute to a revolution in the way 
	our youth interact with each another, the way they make 
	friends, and the social skills they develop.
	It is widely recognized and accepted that the main activity of
	kids/teens, as cyber citizens, is online two-way communication.
	That communication consists of chat, email and instant 
	messaging.  The nucleus of the Internet affords the opportunity
	of two-way communications and inherently the computer does not 
	know whether the users communicating are that of a child or an
	adult.  This means of communication allows users, regardless 
	of age, gender or socioeconomic status to openly and freely
	exchange ideas and information.  Our nation�s youth has now 
	coined a new term for "hanging out with my friends" and 
	actively searching for new friends is done through a click of 
	a mouse.  
	 Kids/teens rarely "travel" with their parents or a chaperone 
	 to many of the online areas.  Buddy lists and instant 
	 messaging has replaced the traditional "telephone and phone
	 book."  Without education and the appropriate tools to raise 
	 their awareness and to empower them to recognize the danger 
	 of being alone in a room full of strangers, our nations youth 
	 will continue to be at risk for exploitation. 
Let me begin by addressing specific examples of how dramatically the 
protective actions that have been employed historically have been 
impacted by this technologically-enabled, Internet-driven, paradigm 
shift. 
Education:   Parents teach children to be wary of strangers on the 
street, in public places, and at the front door; but now, the strangers
that these children meet -- are not on the street--they are in 
cyberspace.  And, to the detriment of the parents, many of their
children are more "Net" savvy than either parent. This inequality of 
knowledge hinders parents in their abilities to address cyber safety 
issues and to properly instruct their children about the dangers of 
meeting strangers online. 
Historically, when parents taught their children to recognize and 
avoid dangerous situations, those situations were based on tangible,
physical elements within their community. Now, danger lies in an
amorphous cyber-world cloaked in the allusion of anonymity. 
Parental Supervision: Many of our children�s activities have
dramatically shifted from participatory activities (easily supervised
by a parent and often enjoyable to watch) to solitary activities -
engaged through the computer keyboard or joystick - that do not lend 
themselves to easy supervision nor enjoyment by a non-participant 
(such as a parent). Children may spend hours playing solitary games 
online, or they may play in tandem with their cyber friends, or they 
may even play with total strangers they connect with online in an 
Internet gaming community.
The Internet has broadened a child�s ability to meet other people and 
acquire "friends." Historically, children made friends at school,
through family acquaintances, and from participating in community 
organizations. A child is no longer confined to the local community 
from which to socialize and gain friends; literally, cyberspace 
eliminates all geographical barriers and frees a child to roam the 
world in search of that one, special "friend." Predators are also 
free to roam. 
The degree of difficulty for parents to monitor, or to simply meet, 
their child�s friends has increased tremendously.  
Preventative Tactics: A commonly employed tactic for protecting our
children is to provide an adult chaperone as our children explore
outside of their community. Now, children explore the wonders of 
the world by transporting themselves through cyberspace and they 
travel this world alone, without the care and protection of a 
chaperone.
Physical Barriers. Historically, parents routinely lock their doors
at home each night to keep intruders out; schools monitor persons 
who enter the campus.  There are innumerable, vulnerable children 
who are isolated, lonely, and bored who constantly search the
Internet for other children with whom they can make friends and 
chat. As these children search the web for friends so too the 
predator searches the web for prey. The predator will find the child, 
the child will find a "friend," and the outcome will be devastating. 
The effectiveness of currently employed physical barriers has been 
severely compromised. Predators lure and seduce their victims from 
within the privacy of the victim�s own home and operate in a world
that is no longer constrained by physical limitations or 
geographical barriers.  They stalk their prey through cyberspace and 
the ramifications of this universal, paradigm shift are staggering. 
When  taken as a whole they can be overwhelming, perhaps paralyzing;
but - if ignored - the ramifications will be devastating to our youth.
To approach any entity of this magnitude and to effect change it is 
advisable to search for a common element, theme; or component against
which a focused solution may be enjoined. 
Up to this point in my testimony, I have provided insight into the 
incredible paradigm shift that has occurred in our society and how 
this new paradigm directly affects the safety of our children. To 
illustrate the critical points, I mapped the ramifications of this 
paradigm shift to a common element in cyberspace: two-way communication 
(ie. chat room, instant messaging and email)
The remainder of my testimony will focus on potential solutions that 
we as a society may embrace as our children extend into the farthest
reach of cyberspace; as they interact virtually with persons throughout
the world and as they evolve as "Net" citizens.
As Judith F. Krug, Director of the American Library Association�s 
Office for Intellectual Freedom, stated in her testimony before the 
COPPA Commission on August 3, 2000: "The children of today will be
Net citizens for the rest of their lives. They need to be taught the 
skills to cope in the virtual world just as they are taught skills to
cope in the physical world. Children should be educated in appropriate
increments and appropriate settings on how to avoid inappropriate 
Internet content, to report illegal or unsafe behavior and to engage
in safe interaction online. Children who are not taught these skills
are not only in danger as children in a virtual world, they also will 
grow into young adults, college students and an American workforce 
who are not capable of avoiding online fraud, Internet addictions and
online stalking."
It is imperative that any domain that engages in the attraction of
kids/teens recognize how children actually use the Internet.  It is 
equally important to promote the online social activities within the 
domain to support the academic strategies that teach children to make
safe and wise choices about using the Internet and to take control 
of their online experiences: where they go, what they see, to whom 
they talk, and what they do.
Our nations youth need to be given the tools to assist them in the 
acquisition of skills that will allow them to evaluate independently
the information they are acquiring and exchanging online. By
improving their "information and media literacy," they will become 
safe and responsible cyber citizens thus vitiating the "digital 
divide" that exists today between Youths Perception/Behavior 
regarding the Internet and those of their Parents.
Currently, both businesses and governmental agencies have begun to
embrace digital certificate technology as an electronic means for 
identifying participants in transactions that occur online. They 
leverage this technology as a method for verifying and 
authenticating a person�s electronic identity. The simplest way to 
view a digital certificate is as an electronic ID card. However,
digital certificate technology is far from simple.  Given that the 
intent of this testimony is to identify and express how technology 
can be used, rather than to define the intricacies of the technology, 
I will refer to digital certificate technology in the simplest terms 
possible for the reader to understand.
A certification authority issues digital certificates. A
certification authority can issue various levels of digital 
certificates that are dependent upon the amount of authentication 
that is required to ensure that the person who is applying for the 
digital certificate is in fact the person that he or she claims to
be. In other words, to obtain a digital certificate a person must 
present proof of identity and the "level" of the certificate 
obtained depends upon the amount of proof required. 
Example: 	Level 1 certificate	-	any photo ID 
required
Level 2 certificate	-	government issued photo ID required
Level 3 certificate   -	government issued photo ID required plus 
passport or birth certificate
Level 4 certificate	-	all requirements of Level 3 plus
a background check
Level 5 certificate	-	DNA
How could digital certificate technology increase the safety of 
children who frequent a particular chat room or deploy two-way 
communications on the World Wide Web?
A public- or private-sector chat room provider could engage digital 
certificate technology as a means for permitting or denying access 
to any given chat room or online area that allows two way communication.
Conceivably, a chat room provider could institute a policy that only 
children under the age of 13 are allowed to participate in a particular
chat room. The intent of this policy is to provide a safer online 
environment by making their "best effort" at excluding adults and
potential pedophiles from the chat room. To enforce the "under the age
of 13" policy, the chat provider would require all participants to 
login using a Level 3 digital certificate. Through the use of the digital
certificate and the chat provider�s policy of restricting access, the
children participating in this chat room have a lessened degree of risk 
than those children that participate in unrestricted chat rooms.        
This technology exists and i-SAFE, through the empowerment of our 
partnership with Verisign, has launched the first tool for our nation�s 
youth, using digital certification.  The unprecedented Digital 
Credential program, "i-STIK" works to reduce the vulnerability of 
America�s students in all grades, K-12, with a unique digital
credential that helps protect students as they engage in two way
communications online.
The Digital Credential is in the form of s small USB Token, which 
can be carried on a key chain and used at school, home; or on any 
computer with a USB port.  The Digital Credential allows the kids 
and teens to enter an age centered chat room, or conduct two way 
communication, with confidence that everyone logged in will be who 
they say they are -- chatters actual ages and genders can be confirmed
from the digital credential token.  The digital credential helps to
safeguard the integrity of the child�s online experience.
The digital credential is distributed through the i-SAFE Safe School 
Program at the time of enrollment (with parental consent) helping 
confirm to parents that this program is offered through a trustworthy 
source.
The schools database, which remains with the school, provides all the 
necessary information contained on the digital credential and validation 
is provided to assure that the token is valid at the time of usage. 
Neither i-SAFE or Verisign has access to this information. The identity 
of the student is never disclosed, just the students age and gender.  
The program allows for easy revocation of the credential when the 
student transfers, graduates or is not longer enrolled in the schools. 
I am showing you screen shots of how this new tool will be deployed and
the interaction between the user and technology.



We currently use digital certificates to execute online financial 
transactions. Businesses use this technology to protect their monetary 
assets.  In September of 2005 there was a deployment of a pilot project 
that allowed parents to opt in to have their son/daughter be issued 
their first digital certificated which is being deployed nationwide as
the " i-STIK.".  



Protecting our children is at the very heart of this hearing. Thank you 
Chairman Whitfield and Ranking Member Stupak for inviting me to testify
before the Subcommittee on Oversight and Investigations.  In my testimony,
today, I addressed the paradigm shift that has occurred within our society 
due the advancements in web technologies and the advent of two way 
communications that could be deployed to facilitate the establishment of 
an enjoyable environment for our nations youth.  I have touched upon one 
technological approach that i-SAFE is launching to empower our nations 
youth with a "tool" to help protect our children from falling victim to 
online predators.  
In conclusion, there is no single solution for protecting our children. 
However, the value of empowering our children - through "education" -- 
with the knowledge and critical-thinking skills that they need to be
able to independently assess the every-day situations they will 
encounter, while online, cannot be overstressed. Children must be able 
to effectively protect themselves from cyber predators, to recognize 
potentially harmful or inappropriate actions, to actively disengage 
from negative behaviors or compromising situations, and to seek help
when threatened. These lessons are learned. Education and empowerment
are key. 




References:

NTIA and Economics and Statistics Administration. A Nation Online:  
"How Americans Are Expanding Their Use of the Internet" published by 
the National Telecommunications and Information Administration, U.S. 
Department of Commerce, Economics, and Statistics Administration 
(02/02)
www.ntia.doc.gov/ntiahome/dn/html/anationonline2.htm

i-SAFE America student assessment data, 2005

  	Mr. Whitfield.  Thank you, Ms. Schroeder, very much.  
	And Ms. Sullivan you are testifying also.  Is that correct?
	Ms. Sullivan.  Yes.
	Mr. Whitfield.  Well you are recognized for 5 minutes, Shannon 
	Sullivan who is a Teen Angel with WiredSafety.
Ms. Sullivan.  Thank you, Mr. Chairman.
	I am Shannon Sullivan.  I am 14 and I live in New Jersey.  
	About a year and a half ago, my mom found me posting personal 
	information on a social networking site.  My photos, address, 
	the school I attended was all up on myspace.com for 7 billion 
	people to see.  I was oblivious at the time that it was not 
	just my friends looking at my page, it was anyone who wanted 
	to.  So we got into contact with Parry and she came to my school 
	and she did a presentation on Teenangels and Internet safety and
	immediately my friends and I wanted to help.  We realized that
	what we were doing was unsafe and was not going to help us in 
	the long run.  So we wanted to reach out and prevent other kids 
	from doing what we did.
	So we went through a long training session.  It takes about a 
	year to become a Teen Angel and we are now Teenangels.  We 
	graduated after we became Teenangels.  And now we go out to our
	high school and we form other chapters of the Teen Angel Program.
	And our main goal is to spread Teenangels to as many places as we
	can because the more people we have protecting kids, teens, and 
	teaching parents and adults about the dangers of Internet, the 
	safer the Internet will be.  The Internet is everything nowadays.
	It is like your car.  You know, you can go anyplace you want on 
	the Internet and when it is used improperly, it can be a very 
	scary place.
	So I saw that there was a big problem with Myspace.com so my 
	friends and I wrote a guide, a Teenangels guide to Myspace and 
	it is all in chat lingo.  You probably did not understand it,
	but it helped a lot of kids because it is a lot easier for 
	teens to understand what you are saying when a teen is saying
	it to you.  You know you do not want to listen to your parents,
	you know, oh, do not go with that, do not go on the Internet
	after 10:00.  But if your friend is telling you how to be safe 
	on the Internet, you will listen a lot more.
	I really wanted to become a Teen Angel because I thought it was 
	very important for me to reach out to those teens who are 
	oblivious as I once was.  A lot of teens I see are posting very
	explicit pictures of themselves on the Internet and they do not
	realize how that can hurt them when they make goals or when they
	apply for college.  Something they did when they were 12 can come 
	back and bite them.  And it is very scary so if we reach out to 
	them now, then things will be different in the future.
	It is amazing how much Teenangels has impacted my life and other 
	people�s lives.  As Parry said, I was nominated and honored by 
	Teen People as one of the top 20 teens who change the world.  And
	when I met the other teens who had changed the world, it was an 
	amazing experience because I realized that things I do just to 
	help one person be safer on the Internet can help a lot more 
	people.  
	YFly is a safe social networking site.  I do have a Yfly.  It is
	basically like any other social networking site except it is only 
	for 13 through 18-year-olds.  It is a step closer to preventing
	kids from getting in trouble on the Internet.  As Teenangels, we 
work with many corporations such as AOL, Disney, Marvel Comics, 
Microsoft, Yahoo!, and Google, and we help them make the Internet and
 other interactive games and cell phones, make them safer.
	We are all unpaid volunteers and we do this from the bottom of 
our heart.  We want to help other teens.  We are not just teens who 
want to make a difference, we are teens who make a difference.
	Thank you.
	[The prepared statement of Shannon Sullivan follows:]

Prepared Statement of Shannon Sullivan, Teen Angel, WiredSafety

Opening Statement:
Thank you for inviting me here today to share information about
 Teenangels, WiredSafety.org and how we can protect everyone online. 
My name is Shannon Sullivan, and I am 14 years old from New Jersey. I 
have been a Teenangel for one year. I became one after my mother found 
out I had a MySpace.
I have recently been honored by Teen People Magazine as a 
representative of Teenangels for our role in helping change the world. 
That is a big challenge. But it is one that teens can live up to.
Teenangels are more than teens who learn how to use the Internet and 
other interactive technologies more safely. They are experts who 
advise many leading corporations.  They have become well-known for 
their special insight into technology from a teen�s perspective. 
Teenangels now advise major corporations on Internet and technology 
uses, including Disney, the CTIA, Microsoft, AOL, Yahoo!, Marvel and 
others. They assist law enforcement agencies in designing more 
effective undercover investigation methods. They work with large 
industry groups, such as the Motion Picture Association of America, 
in building educational programs and public service messages.
They have helped create safer interactive gaming technologies, safer 
cell phone features and more secure social networking programs. They 
have hosted briefings at the House of Parliament, conducted training 
for law enforcement agencies and written articles for leading 
magazines. They do presentations within their community for parents, 
students and senior citizens on safe use of the Internet and new 
interactive technologies. They spend a great deal of time on Internet 
sexual predators issues, anti-piracy and cyberbullying. We teach 
good cybercitizenship and responsible technology use, not only safety 
and privacy.
Teenangels are 13-18 year olds who train in all aspects of Internet 
and interactive technology safety, security and responsible use. 
(Tweenangels is the younger and lighter version of Teenangels, comprised
 of 9 to 12 year olds.) Once we are trained by Parry Aftab, leading 
law enforcement agencies and industry leaders around the world, these 
special teen experts create their own programs to teach safe and 
responsible technology use.
Some Teenangels are technological experts, creating animations, 
Flash applications, videos and computer games that help deliver 
their messages. Others concentrate on law and policy. Many have 
good public speaking, research or writing skills. The best thing 
about Teenangels is that it helps young people develop their own 
talents and help others at the same time.
We challenge teens and preteens, "Think you know more than most 
adults about the Internet? Share what you know, and learn more 
from the experts. Be part of the solution. Be a Teenangel!"
It is important that we teach young people that being safe isn�t 
lame. That it�s not cool to pretend you were out drinking all 
weekend, or to pose in your bra online. Many teens and preteens 
are lying about their ages to use social networking websites. 
And when they are there, they are often doing high risk things. 
But, it�s important that parents understand that most teens and 
preteens are using the technology safely and responsibly. We just 
need to address them in our own language.
Recently, Teenangels began working with Nick Lachey. When Parry 
wasn�t able to attend a luncheon with Teen People introducing me 
(she was in Spain launching her new book), Nick came instead. He 
learned that Internet sexual predators were using his name to lure 
teens into sending sexual pics online. Since he first met Parry he 
has donated his time to helping us keep kids safer. He is even
 helping us with public service announcements and a fun new 
animated educational series we are producing using Teenangels to 
teach safer and more responsible technology use.
Teenangels is now working with Nick�s new site, YFly.com, to help 
create a safer teen social networking site. We helped create Don�t
 Be Stupid to teach teens that engaging in reckless behavior online 
is stupid, not cool.
As Teenangels, we have the mission of helping make the Internet 
safer. We need your help to do that. First I would like to thank 
you for helping us by providing funding. We just received an 
earmark from Congress, through the Department of Justice, for 
$50,000. Since Teenangels hold bake sales and wash cars to raise 
money for our programs, this will change our world. We cannot 
thank you enough!
Next, I would like to share our wish list and thoughts about what 
we can all do to help keep young people safer online.....
Thank you for your time and caring enough to hold this hearing. 
And thank you for taking the time to listen to teens. It�s nice 
to be included. And I will remember this day forever. On behalf 
of all my fellow Teenangels and Tweenangels, thank you.

Shannon Sullivan, age 14
Teenangels.org

 Appendixes

Appendix A: (from Teenangels.org)

Safety Tips From the Mouths of Teenangels ������������������� ������������������� 
(The Real Experts)... 
While we have more extensive safety tip lists in Parry�s book, here 
is a summarized version of the tips we thought were most important! 
As Teenangels, safety is our biggest concern. So here are some tips 
and ideas that we and others have to share. Some of the best 
suggestions come from TEENS, just like you! 
If you have a safety tip or story of something that has happened to 
you and how you handled it, please send it to us. We would love to 
hear from you! Email�Teenangels.
Thoughts for Parents, Teens & Kids from the Teenangels 
Parents... Don�t be afraid of the Internet. It�s an extremely useful 
tool & can�t be dismissed because it is new & sometimes confusing. 
The Internet can be an excellent way for you & your children to bond 
& share a common interest. Be open with your kids & get involved. 
Most of all, learn all that you can about being safe, keeping your 
child safe, & taking advantage of the Internet�s myriad uses. Tell 
your children not to be afraid to come to you with problems of any 
kind. 
Teenagers...Although the Internet is a great way to meet new people, 
do research, and chat with friends, there are dangers. Be aware of 
these dangers. Always use common sense. Although you may think that 
bad things won�t happen to you, they most certainly can. Be open with 
your parents about what you do online. Don�t meet people offline that 
you met online! Make sure a site is secure and trustworthy before 
giving in your personal information. Obey the law and don�t steal 
music, motion pictures and software! Balance the time you spend 
online and offline. Remember your friends in real life and don�t take 
them for granted. Go outside & enjoy life beyond cyberspace. 
Kids... While it�s great to chat with people in kid-safe chat rooms 
online, you should spend time with friends in real life. School,
 family, & friends should always come before the Internet. Always 
tell your parents about what you do online. Let them sit with you, 
& teach them about the Internet. When they do sit with you, don�t get 
mad at them. Just know they care about you & don�t want to see you hurt 
in any way. Always remember that people online don�t always tell the 
truth. Don�t give out a lot of information about yourself. If anything 
bad ever happens to you on the Internet, always tell your parents or 
someone you trust. Always remember that it�s never your fault.

 Appendix B: Don�t Be Stupid!

For Teens:

Don�t Be Stupid! 

What you need to know about cyberdating and staying safe

The Downers:

You never really know who someone is online. They may sound hot and 
their pic may be even hotter, but they could be someone you don�t 
expect. They could be your little brother�s snotty 12-year old friends 
having fun at your expense. Or three 15-year old mean girls posing as 
a heart throb to set you up for humiliation. Or they could be some 47 
year old pervert. Either way, who needs it?

And even if it is a cute 16-year old guy or girl, there is no guarantee 
that when things are over, that sexy pic you shared with them won�t end 
up on some website or profile somewhere. Or they could use the password 
you shared with them to change your profile, pose as you and harass 
your friends or even lock you out of your own account. Or they could
 cyberbully, flame, cyber-harass or cyberstalk you or your friends-When 
you breakup, all bets are off!
The Buck Stops Here...You Need to Protect Yourself Online

Smart teens have been fooled by slimy adults posing as teens. There is 
no safe way to meet someone you only know online, (with maybe from a 
few phone calls to help), in RL. If you�re thinking about meeting 
someone, think again. Talk to your friends. Check out Katiesplace.org 
and learn about how others have been hurt by adults posing as teens. 
Smart teens like you. Don�t do it!
We can�t emphasize this enough! But, we also know that if you are 
convinced that this is a cute 16 year old boy or girl is the love of 
your life and destined for you from birth, you may ignore this advice 
and plan on meeting them in RL. If you are intent on taking this risk, 
do what you can to minimize it. Make sure you follow these Don�t Be 
Stupid tips:
1. Don�t disclose too much personal info. Start by assuming that the 
person on the other end is a predator. That means no full names, street
 addresses, RL schedules or telephone numbers that can be reverse 
searched (check it out online or where you work, or similar info about 
your friends that can be used to find you offline. It�s always a good 
idea to use a disposable e-mail address or IM account, something you 
set up just for this and that you can drop if things start going 
downhill (like yahoo, hotmail or MSN.) Make sure that this new screen
 name doesn�t give away any information about who you are in RL either
 (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b0e4d9d6d681898981f0">[email&#160;protected]</a>[fill in the blank]). 
2. Play detective. Photos can give away more information than you ever
 intended. Things in the background of the photo, like the license plate
 on your car, your house, the store where you work, the school or camp
 sweatshirt you�re wearing or a pic with you in front of your school 
can be risky. So can photos posted by your friends. While you may be 
very careful about what you are sharing online, they may not be as 
careful. If you link to their profile and haven�t told anyone where 
you live, but they post their best friends (including you), everyone 
can now figure out what town you live in and where you go to school. 
They just need to cross-reference a bit. The same thing happens with
 everything you or your friends post. Look over your profile and the 
profile of your friends. If you were a detective for Law & Order, 
could you find yourself in RL? If so, change whatever is giving too 
many clues away. Password protect it and guard your password, and ask 
your friends to do the same. Start a rule - never post info about a 
friend or their pic without asking first. 

3. Say Cheese! There are three issues about pics online - posting 
something you�ll regret, shooting a lame pic or posting a pic that 
can be abused or misused by others. Sometimes to get attention, teens 
pose in provocative ways or snap a pic when they are doing things 
their parents would not want to see. Unfortunately, parents do see 
them. And so do principals and predators (and shortly college 
admission staff).

We all know that lame "MySpace" pose - bad lighting, cheeks sucked in,
 lips pursed, head tilted up, with a flash in the mirror. :-) Is that 
really how you want to be remembered? 

Putting your best foot forward and using a good pic or a fun one is 
much better than doing the "I am so hot I can�t stand it" pose. Boys 
posing shirtless and trying to make their pecs look bigger by 
crossing their arms underneath them, or girls posing in a bikini top 
(or worse) or very low cut pants will get you attention. But not the 
attention you may want. And cyberharassment where an innocent G-rated 
pic is manipulated and used to make you look bad or to morph your 
head on someone else�s naked body is commonplace. You can avoid that 
by using photo-editing software to pixilate or blur the image, turn 
it into a sketch or cartoon, sepia or black and white. This makes 
your photos harder to abuse and less attractive to the harasser or 
a predator. 

Our new Best Food Forward (BFF) tips teach you how to make the 
impression you want to make, without being lame or stupid. You can 
read about them at Teenangels.org or at our Don�t Be Stupid tips at 
YFly.com. These will help you come across the way you want to 
online.
4. Look for the red flags. Beware of others online who:
ask too many questions
post things that don�t make sense
move too fast
promise you ridiculous things (if it seems too good to be true, it�s 
not true!)
like everything that you like, exactly the way you like it
know too much about you
engage in cybersex
just don�t feel right or make you uncomfortable
are evasive
can�t keep their story straight 
initiate sexual conversation or innuendo
don�t know the things most teens know (just know the experienced 
predators make it their business to know these things)
pressure you to send sexy pics or meet in RL 
give you the creeps

5. ThinkB4UClick. It�s so easy to do things online that you would 
never do in RL. You don�t have to look the other person in the eye. 
No one else is there to tell you to cool it. You are stronger, 
smarter, more empowered and braver online. You may not like your 
coach, principal or former best friend or boy or girl friend. 

You take their pic and morph it onto someone else�s naked body. You 
post sex ads using their name and contact info. Maybe you take a pic 
of them with your cell phone in a locker room, bathroom, at a slumber 
party or in the changing room at the Gap. You build a profile telling 
everyone what a slut they are, or post these pics online anonymously. 
Or you send sexual images of yourself to someone you like, thinking 
they will want to go out with you if they see how sexy you are. They 
don�t, but share the pic with their fifty nearest and dearest 
friends - who show it to their friends and so on and so forth....

You think no one can find you, trace you or figure out who you are 
(you�re wrong!). There is nothing between your impulse and your 
click...no time to think about it, no time to calm down. No time to 
use the "filter between your ears." 

You are also typing fast and aren�t proofreading your text-messages, IM 
or posts, and often send it to the wrong person on your buddy list or 
misspell their screen name. You may forget to type in "jk" or the word 
"not." You may find yourself in trouble without knowing why. Think 
R-E-S-P-E-C-T! (Now do it like Aretha, with lots of style!) Taking that 
extra second to make sure you send it to the right person, aren�t 
misunderstood and are willing to be accountable for what you are doing 
and saying online is crucial. It will save you lots of grief later!

 Appendix C

For Teens:

Finding Love in all the Cyberplaces...Don�t Be Stupid!If you decide 
to meet someone in-person, and ignore everything we taught you -- at 
least follow these tips and trust your gut. If something feels wrong, 
get out of there and report it. And remember that about 30% of the 
victims are boys. They just don�t report it. So be careful!1. Go 
public. Find out what they will be wearing and arrange for a place to 
meet. Then get there early and stake things out. The idea is to spot 
them before they spot you. Make sure that you meet in a well-lighted 
public place. It should be big and public enough so you can he help if 
you needed it, but not so big, crowded and noisy that you wouldn�t be
heard or couldn�t get help. Don�t meet in an amusement park, where 
screaming is part of the scenery. A mall is a good choice, but sit 
back and watch and see who shows up. If they are not what was promised, 
run...do not walk...home, to the security office or to the local 
police department. Make sure someone calls the police. 

Never meet at your place or theirs. Never get in a car with them. Go
with lots of friends (preferably Sumo wrestlers). Ignoring these tips 
could cost you your life. Really. Several smart teens have been killed 
in the US over the last four years by people they met online. Don�t 
become a victim.2. Bring backup. If you are going to meet, bring a 
lots of friends (preferably big ones :-)), and someone where you are 
going. Leave information about the person you are meeting. The bad
guys will try and get you to erase the e-mails or bring your laptop or 
hard drive with you, so they can destroy the evidence. Best case 
scenario, trust your parents or another adult family member. This has 
saved more than one teen from being kidnapped, raped or killed.
3. Find your own ride. Don�t accept a ride from them or offer a ride 
to them...even if they appear to be cute and cuddly. Stay in control
of where you go and how you are going to get there and back. Bring a
cell phone and make sure it�s charged. Have others check in on you 
too.

4. Take it slow. Even if that�s not your style, make it your style for 
any cyberdating situations. Just because they have told you their 
favorite bands, movies and food doesn�t mean you have any idea who they
really are. Treat it like a first date. It will feel weird at first. 
You feel closer than you would on a first date. They will know lots of 
things about you that you have shared. Often very personal things. But 
start from scratch. Don�t move faster than you are comfortable doing 
and don�t feel pressured. Keep others around for awhile as you get to 
know each other and trust your instincts.

5. Rat on the Creep! Your parents will kill you if they found out you 
met someone from the Internet in RL. But if you don�t report it to 
someone, this creep may kill some teen in reality! Most of the time 
when police arrest an Internet sexual predator, they find lots of 
e-mails on their computer threatening to call the police if they 
bothered the teen one more time. Had someone actually called the 
police, another teen might have been saved. Even if you won�t tell 
your parents, find a way to report the creep. Check out Katiesplace.org 
for ways you can do that and more safety tips and real stories about 
real teens.

copyright 2006, Parry Aftab, all rights reserved. For permission to 
reprint this, contact Parry at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="cd9dacbfbfb48dbaa4bfa8a9beacaba8b9b4e3a2bfaae3">[email&#160;protected]</a>
 Appendix D
For Teens:

Finding a Better Faith

A fictional account

I thought I had met my dream guy. I really did. Now, I see where my 
mistake was, sure. It was in believing what I saw in the movies and on 
television. Believing what I read in magazines about true love and soul 
mates. I believed in the Madison Avenue picture of love, romance and 
happily ever after, and glossy views of happiness and popularity. I was 
taught these things my whole life by my everyone I knew and from books, 
movies, and songs. I was told that if I were good enough, thin enough,
charming enough, pretty enough, and exciting enough my life would be 
fulfilling, happy and exciting. But no one ever tells you how dangerous
this blind belief can be.
When I was a freshman in high school, I was miserable. I lived in one of 
those towns where the same kids are in your grade all the way through
school, so everyone gets to know each other pretty well. They knew me in 
middle school when I had acne and bad clothing and was shy and 
self-conscious. And then I grew out of that, but no one much noticed. I 
know I was pretty in the year or two before I died because people started
noticing me -- people who didn�t go to my school, who didn�t remember how 
I used to be awkward. 
And it felt good. I felt different and happy and hopeful. I thought to 
myself that maybe now I would have a boyfriend. Maybe he just couldn�t 
find me before because I was shy and awkward, and it�ll definitely happen 
now that I�m in high school and all the older boys can see how pretty I 
had become in the last few years. But it didn�t. No one looked at me any 
differently than they ever had and I got depressed. I thought to myself 
that high school might just be middle school again "that maybe nothing 
would be different and I would have to go through three more years of 
being lonely and waiting until something better happened. For a while, I 
got resigned myself to this fate and then something changed and I got up 
one morning and said no. I think I said it out loud, actually, it�s kind 
of funny to think of now. I decided that I would say no to this fate" 
that I wouldn�t be alone and I wouldn�t be miserable -- not anymore. I 
decided that I would meet someone and I would have a boyfriend within a 
month or two "do or die" that I would take my life into my own hands. 
And that I did. 
I started going online and searching for people to talk to people who 
would be more mature and would understand me. I sorted through people�s 
profiles on Friendster and Xanga.com and set up my own. And then I met 
someone, and it was just as easy as I ever dreamed it could be. We IMed
for hours, about everything and I felt, for the first time, that someone 
really understood me. Sounds pretty silly now. We talked about our 
families, our dreams, books that had changed us  everything. I thought 
I was falling in love. I knew I had found "the one." I was the lucky 
one, and had found my soul mate early.
When he asked me if I wanted to meet, at first I said no, that I didn�t 
know him well enough. He didn�t push it, and instead, we started talking
on the phone. He had a very deep voice, which didn�t surprise me because
he said he was 18, but it probably should have. Anyway, a month later he 
said he had to meet me. He said he couldn�t� stand it anymore "that he 
loved me" and said that if I wouldn�t meet him he would come find me 
because if he didn�t see me he�d die. In the end, it didn�t quite work 
that way, though.  
I realized that my parents would kill me if a random guy showed up at 
the house looking for me. I couldn�t have that happen, so I agreed to
meet him. It was stupid, I know, but I was told more time than one that 
it�s okay to do stupid things when you�re in love.
I met him at the mall, in the food court. He was 37, not 18. I started 
crying and told him that he lied to me and I never wanted to see him
again. I felt betrayed, and confused. He handed me the rose he had 
brought and a book of poems. I just stared at them, having problems 
separating the 18 year old I knew so well, form this man standing in 
front of me with tears rolling down his cheeks.
While he cried quietly, he told me that he loved me so much -- that he 
knew I would never date him if I knew how old he was, which is true. I
worked up the courage to leave. But he started making a big scene -- 
pleading with me not to leave him. Telling me how much he loved and 
appreciated me, when no one else did. I was afraid someone I knew or 
who my family knew might see so I agreed -- his last request -- to go 
outside to talk. 
He said he had a present for me in his car, and could he just give it 
to me. I said ok, probably the stupidest thing anyone�s ever done. He 
clamped his hand over my mouth so no one could hear the screams. Then 
he pushed me in his car, throwing a blanket over me and holding me 
down so no one could see. He poured some smelly chemical over the 
blanket near my face. At first I held my breath, but finally had to 
take a breath. I knew I was in trouble, and felt dizzy immediately. I 
must have passed out. I don�t know how long it was before I woke up, 
and realized this wasn�t a horrible dream. It was real. He took me 
someplace in the woods, dragged me from the car and tied me up. He 
beat me, while he raped me, crying and telling me he loved me the whole 
time.  I felt like my insides were being ripped out. That was how I lost
my virginity. And my innocence. And more.
I still feel like its all my fault. Why did I believe him? Why did I 
believe that anybody normal could be that into me? Even after all this
time, the only answer I can come up with is that I had believed in 
make-believe. If I hadn�t wanted to fall in love so badly, if I hadn�t 
needed someone wanting me to validate how I felt about myself, I wouldn�t 
have let my judgment get clouded. I would probably be alone in my room, 
depressed, but I�d be better off than I am now.
So believe in happily ever after, but reality too. It�s okay to be 
hopeful because life would be too hard without it. But don�t let it 
cloud your better judgment. Have faith in yourself and don�t waste it on 
people who may or may not love you or save you or complete you. And don�t 
trust people � at least for a while, at least till you know who they 
really are and what they are capable of. And never just because you talk
with them online and on the phone and think you know them. Love and 
loneliness don�t excuse stupid behavior, and they certainly don�t buy 
you another chance to fix it. 
I will never know what could have happened in my life � who I could have 
met or what I might have done, because he killed me before leaving my 
body for some hikers to find weeks later.  I was almost unrecognizable. 
My parents had to identify me, and the hair, clothes and complexion I 
worked so hard to make perfect weren�t even identifiable anymore. I was 
ashamed that I had done this to my parents, and my little sister, and
most of all to myself.
My friends didn�t envy my "kewl" new life. They, instead, mourned me, 
and even my dearest friends talked about how "stupid" I was. 
My little sister couldn�t stop sobbing. She held my hand, and clung to 
the casket when they tried to take it out of the church. I tried to hold
her hand back, but nothing happened. I wanted to reach out and comfort 
her. But from now on, she wouldn�t have a big sister to do that anymore.
She couldn�t climb into my bed and tell me about her kitten and why she
wanted to be "just like me" when she grew up. 
I hope she wouldn�t be just like me. I hope she is smarter than I was, 
and not as trusting. Not as naive
I wish I had a second chance. I wish I could warn others about this 
kind of thing. But I can�t. I�m dead. 
This "love of my life", my "soul mate" didn�t only rob me of my innocence 
and any chance at happiness -- I�ll never know if I could have made it. 
I never got a fair shot. If you�re in the same situation I was in, I 
can�t say if it�ll ever get better, or if you�ll ever be successful, 
or rich, or pretty, or lose the weight, or get the guy, but I can say 
you better hang around and try, because I�d do just about anything for 
the second chance. A chance to find someone real. A chance to know if I 
could have been happy. 

 Appendix E

About Teenangels from a school technology director in Wisconsin:

About 5 years ago, I got a phone call from one of the parents in our 
school district asking that her daughter�s Internet and email privileges 
be revoked.  She decided that her daughter would no longer be allowed to 
be part of the "Cyber World."
When I spoke more with this parent, I learned that the daughter had been 
harassed online.  She had given out personal information and was now 
receiving inappropriate emails and phone calls at her home.
I immediately looked for resources online to help this family.  The 
Internet is such an incredible resource -- wanted to find a way to 
convince the family that education regarding Internet use was a better 
solution than instituting a complete ban for their high school daughter.
As a result of my searches, I happened on information about Parry -- I 
contacted her and she agreed to speak at a school assembly with a parent 
information meeting to follow.  After Parry�s talk, I literally had a 
line of students in my office -- these students wanted to help other 
teens to be safe online.  From that group, our TeenAngel chapter was 
started.
The Teens devoted an entire Spring Break to intensive training and the 
rest is history.  Our TeenAngel chapter works to educate Teens (and 
parents) about online safety.  We have a "Tech" division that works on 
programming and helps community members with problems ranging from P.C. 
trouble to instructions on virus removal.
Our teens are highly motivated and highly technologically savvy.  Among 
other things, our group has attended the Wired Kids Summit in Washington 
D.C. working with legislators and corporate executives to help make the 
Internet a safer place for kids.  One of our teens was featured on "The 
John Walsh Show" in their "Hometown Hero" segment.  Locally, our teens 
have presented to numerous school, church, and parent groups as well as 
presented at state conferences focusing on issues relevant to Teens.
This is a great program.  In our high school, it has become a place and 
program for our "Tech" guys to devote their energy and talent.  

 Appendix F

From Katiesplace.org, written by one of our Teenangels who wants to teach 
others how to avoid being victimized in the way she had been.

When Your Mentor Becomes Your Tormentor - Alicia�s Story 
You never notice yourself growing. It�s so gradual, so smooth a process 
that the daily or even monthly changes are simply undetectable. Mirrors 
don�t help -- its only in comparing photographs, in seeing yourself at
different stages, that one can notice the differences. 
My relationship online with Mac grew just that slowly. When we were 
first introduced online, he was courteous and interested and subtle, 
none of those childish IMs which are so common, among young teens,
flaunting their new-found sexuality like so many new toys. He didn�t 
try to have cyber sex with me, didn�t make crude comments or ask me to 
go on the webcam. It doesn�t work like that. He was thoughtful and 
gentle and nice, and, of course, entirely deceptive, and so we became 
friends. Just friends. And it was all very innocent - for a time. 
It was in the slowest, least noticeable way that he eased me into a more 
intimate relationship online. He was an expert, but, of course, I didn�t
know that at the time. The way the conversation moved into more 
personal territory never felt threatening because it moved so slowly. We
would talk for a few minutes more each day, about something a little 
more personal each day, and some days we could talk about nothing 
personal at all. He never pushed, never insisted and so convinced me 
that I wanted to tell him personal things, or �parrot� those things 
that he so wanted to hear from me. And I did. 
So we talked about everything -- not just the sexual stuff. He was 
interested in me, as a person -- my thoughts, my goals, my relationships
with friends and family members. He gave me adult advice and always
took my side. He was my advocate, unconditionally, at a time in my
early teenage life where that was just what I needed. School was: well 
it was school, mean girls and nasty boys and everyone trying to be all 
that they�re not- And my family and I, were very close, but we didn�t 
always see eye-to eye about everything, sometimes they just seemed to 
think that I was still a child. But there was always Mac, and I could 
count on him to see things my way Always online. Always ready to talk. 
Always on my side. It was the most comforting thing imaginable. 
Soon enough, he wasn�t just someone that I could trust, he became the
someone I needed � I began to believe that he was the only one I could 
depend on to understand the real me, which is exactly what he wanted, 
of course. Somehow, in this process, this grooming of me, he had changed 
me, had destroyed my ability to reason. Imagine, I walked out the door, 
right out of my own front door into the darkest iciest winter night, with 

no money and no coat, to meet a madman who I thought was my best friend. 
Was I crazy? No. Was I duped? Entirely. When I review it all, comparing my 
mental photographs of our relationship at different times, I think, how 
could it have happened? How could my sanity, my reason, my mental state 
have decayed like that -- how did he make me shrink away to nothing? How 
could I have gone from being a smart, sane girl having casual 
conversations with an online friend to doing something I would have sworn
I could never do "who" shy timid little me?--never!!!!- meeting a total 
stranger in the dark, cold night -- leaving home in the middle of a happy, 
loving, family holiday meal? My only answer is that I wasn�t crazy - I 
was just under the spell of an incredibly skillful manipulator who knew 
that slow and steady wins the race -- or at least the hearts of young 
girls. He took me apart and put me back together and bit by bit, day by 
day, byte by byte, he became the focus of my life and the one who 
understood me best. Why wouldn�t I want to meet someone like that
IRL? It felt right. 
And yet it was so wrong. The moment he persuaded me into the car, I 
immediately knew that I was in trouble. I knew. I had this terrible 
sinking feeling in the pit of my stomach as we drove down my street, 
out of my neighborhood, and then, onto the turnpike. Trapped "Quiet" 
he said. "Let�s keep the trunk empty." I kept my eyes cast down, 
stealing quick furtive glances up at him from the corners of my eyes. 
Somehow, I instinctively knew that he was like a savage beast, and that 
I had only to make full eye contact to engage his anger, to force him 
to attack. I stared down at his shoes as we drove. At his pants, his 
socks, I studied them, eyes cast down. I could describe it all to you 
today -- that image, that feeling, trapped -- t will haunt me forever. 
Those hours sitting there, the waiting. 
What terrible fate awaited me when we arrived at his home? I never 
envisioned anything as terrible as the reality. When we arrived at his 
home it was -- worse than even I had imagined it could be. It was way 
worse than a bad after-school movie. It was Friday the 13th and Texas- 
Chainsaw-Massacre! And he had it planned -- days before, maybe months 
before, maybe the first time we ever spoke. I was stripped, tortured, 
beaten. --. Raped. Those words still stick to the roof of my mouth and
are glued thickly to my tongue. I listened through the windows to cars 
passing by, to the voices of neighboring families going out for lunch 
and to the mall and coming home again at night, yet there I remained,
collar around my neck, chained to a post, naked. This was me at age 13. 
Waiting for death. How would he do it? Would he stab me, would I bleed 
to death, my blood adding yet another stain to the filthy carpet-- 
Would he beat me to death with whips and fists, chained helpless, unable
to defend myself? 
Into this morbid fantasy, unbidden, a fairy tale that my mother had read 
to me while tucked warm and safe into my silken little �blankie� kept 
flashing into my mind. The one of an Arabian slave girl held captive by
her master. The tale unfolds that at the moment her stories ceased to 
entertain him, to amuse him - then he would kill her, with this in mind,
the helpless slave fought for her life with the only weapon she had - 
her mind... And she became my inspiration. I would persevere, I would 
not die. My captor would not win this battle. I knew that my family 
loved me, that they would move heaven and earth to find me. But I had
to stay alive until they did. So I struggled, silently, determined to
win back the life I had left behind. My life that somehow had seemed 
to become so empty, so sad� why? I understood now, in those cold hours
alone, waiting for the monster�s return, it all began to come clear. 
I wanted my life back! I wanted to feel my mom�s gentle kisses 
good-night and my dad�s crushing hugs, I wanted to run outside into the 
sun, to add my voice to the other happy children�s, far, far away from
the dark coldness of his dungeon. I wanted to experience anything-- 
anything - except what was happening to me. I desperately wanted to
live! 
So I waited it out. I prayed. It might not seem, to you, like the most 
courageous thing to do -- I didn�t fight him, didn�t engage his anger. 
But, somehow, I knew that he would kill me, throw me away like trash in 
some cold shallow grave if I resisted anymore. He enjoyed my pain. So, 
I just wasn�t there I left -- mentally anyway. This wasn�t happening to
me. I escaped into my head and tried desperately to hang on to my 
sanity. It took my whole being to merely breathe. One breath at a time 
I waited for my death. I knew that one wrong move would cost me my life 
and so I simply waited, telling myself "today, yeah today they�ll find 
me "rescue me," convincing myself that this would not be how it all 
ends, that my parents would not find their only daughter�s dead and
battered body in this evil man�s filthy house. I couldn�t, I wouldn�t, 
let it end that way. So I resolved to live. Breath by breath. Moment by 
moment. 
And I did. I made it through, a miracle of survival, when so many other 
girls have been less fortunate. And I can�t say if it was faith, or luck, 
or personal resolve that saved me. And it doesn�t really matter. I truly
feel that something greater than myself has directed me. I am alive. I 
was given the second chance that so many others had been denied. 
I promised myself in those dark and painful days and endless nights that
if I were spared, if I were given a second chance at life, I would share 
my horror, to teach others - maybe you - how to avoid becoming his next
victim. I would help them understand that the mentor you thought you 
found online might become the tormenter who steals your heart, your 
innocence and your faith in mankind. And ultimately, your life".. Mac 
failed. While the emotional and physical scars may last a lifetime,
he didn�t shake my faith in myself or in mankind. He may have stolen 
days, weeks, months, he may have taken my childhood, but the rest of my
life is mine. And I have reclaimed it. I will not allow him to torment
me anymore. Only I have the power to control my future. I refuse to be 
defined by his betrayal of my trust, by his cruel sadistic acts or by
those dark days, however devastating they may have been. I have a
mission and an important role to play. I want to inspire others to move 
on, past their exploitation, to find their own life mission. I was 
spared and given a second chance. And I don�t intend to waste it. I 
will continue to speak to young people and dedicate my life to helping 
catch criminals, like Mac. I am also helping, here, to build 
KatiesPlace.org and as a volunteer with WiredSafety.org and others. 
So, please don�t remember me as the girl who was torn, twisted,
confused, lured abducted and abused. Remember me for what I will 
accomplish. Please don�t let this tragedy define me. I am so much more 
than that. And so are you. Join me in this mission. Together we can 
change the world, one child, and one life at a time. You can read about
miraculous rescues and the dedicated and courageous men and woman 
responsible for bringing victimized children to safety here at 
KatiesPlace.org. And you can e-mail me through this site. Please, be 
safe "be aware"

	Mr. Whitfield.  Well thank you very much Ms. Sullivan, we
	appreciate your testimony and look forward to asking you some
	questions later on.  
	Mr. Sallam, you are recognized for 5 minutes for your opening 
	statement and thanks for being with us today.
Mr. Sallam.  Thank you, sir.
	As you know, my name is Moni Sallam.  I am a ninth grader at
	Riverdale High School in Howard County.  The Internet has opened 
	up a new world of opportunity and dangers for kids today.  On the 
	plus side, we have instant access to any information, music, 
	cultures, and opportunities that probably would have taken you 
	months to access if at all when you were a kid.  On the negative
	side, kids can talk to anyone they know or do not know at any 
	time of the day or night.  Kids are contacted on a daily basis
	by people they do not know.  School bullies do not just find you
	at recess, they taunt you at any time of the day or night and 
	they get others to join in too.
	The major problem is that due to a lack of education, kids make 
	bad decisions while online.  Kids give out their personal 
	information, they share pictures of themselves with people they 
	do not know, and they download music illegally.  That is the 
	reality of kids today.  Online predators know this and use the 
	Internet to lure kids to danger.
	It is all about education.  Just like other safety issues like
	bike and water safety, education is the only way to help kids 
	behave responsibly online.  A perfect example is if you ask kids
	or teens if they would ever get into a car with a stranger, 
	probably 100 percent of them would say no.  The reason is that 
	we are told from the time we are old enough to play outside never 
	to talk to strangers, never to get near a car with strangers. 
	Kids know to look both ways before crossing the street.  They 
	know to wear helmets when riding a bike because we are taught
	these things from an early age.  On the other hand, if you ask 
	kids or teens if they would ever meet a stranger in person who
	they met online, an alarming number of them would say they saw 
	nothing wrong with it.
	Although informed people know that the Internet is a new way
	predators lure kids to danger and there are plenty of examples of
	tragedies that have happened to kids who met predators online.  
	In my county alone, predators have been arrested for pretending 
	to meet kids and trying to lure other kids to meet them.  This 
	is happening across the Nation.  Internet safety education from
	an early age is required to change attitudes and behavior.  
	Internet safety education is key to changing if you are going to 
	be online.  That is why i-SAFE is doing an amazing job.  i-SAFE 
	empowers kids like me with the decision tools we need to keep us 
	safe and act responsibly online.
	Thank you.
		Mr. Whitfield.  Thank you, Mr. Sallam.  How old are you 
		by the way?
	Mr. Sallam.  I am 14.
	Mr. Whitfield.  Oh, yeah.
	And Ms. Sullivan, you have graduated from high school or--
	Ms. Sullivan.  No, from grammar school.  I am 14 also.
	Mr. Whitfield.  You are 14.  So having--
	Ms. Aftab.  Very articulate.
	Mr. Whitfield.  Yeah, I almost felt guilty asking them how old 
	they were after our subject matter here today, but how did you 
	two come in contact with WiredSafety and i-SAFE?  Ms. Sullivan,
	how did you become aware of WireSafety?
	Ms. Sullivan.  Well my mom is a computer teacher at the grammar
	school I attended and she got in contact with Parry and Parry 
	came to my school to do a presentation on Internet safety because 
	a lot of my friends were posting personal information on the 
	Internet using Myspace.com.  So once she came, she told us very 
	frightening stories about kids who listed personal information, 
	who talked to strangers on the Internet, and she made us aware of 
	the dangers that we were putting ourselves in.
	Mr. Whitfield.  So were you shocked from what she said?
	Ms. Sullivan.  I was sitting on the edge of my seat.
	Mr. Whitfield.  Were you?
	Ms. Sullivan.  Yes.
	Mr. Whitfield.  Do you feel like or do you or some of your friends 
	maybe had been contacted by predators but you had not really 
	proceeded with them or--
	Ms. Sullivan.  None of my friends have but I have many stories of 
	people who have so I think that is why it is our job to aware these 
	teens of what they are doing and how to keep themselves safe.
	Mr. Whitfield.  And did you make contact on the Internet with 
	people you really did not know or--
	Ms. Sullivan.  No, I only used the Internet to talk to my friends.
	Mr. Whitfield.  Okay.  Mr. Sallam, what about you?  How did you 
	become aware of i-SAFE?
	Mr. Sallam.  I first became aware of i-SAFE when I was in seventh 
	grade.  I was watching TV actually and I happened to come across an
	i-SAFE professional development program just like Ms. Schroeder
	talked about in her presentation.  And I watched it and I just
	realized that this is a huge problem and it could affect people that
	I know.  And I was actually first worried about how my sister would 
	be reacted by this big issue.
	Mr. Whitfield.  Do you think that any of your friends or classmates
	have viewed child pornography online?
	Mr. Sallam.  No, sir, I do not think.
	Mr. Whitfield.  You do not.  
	Ms. Schroeder, I know that you all have been quite successful in
	Kentucky with these programs that you have talked about and it is
	my--is it--am I correct that you are teaching this program now in 
	every school district in Kentucky or is that right?
	Ms. Schroeder.  Yes.
	Mr. Whitfield.  Now how were you able to accomplish that and how
	many other States do you teach in every school district in the
	State?
	Ms. Schroeder.  What we did this past year was Microsoft
	actually provided funding for us and we took our professional 
	development online so we created I-learnonline and they provided
	funding for the professional development for educators, as well as 
	the youth for the mentor side and they are just now providing 
	funding for the parents, as well as for 50 plus.  So what happens 
	is, the way that we are able to do this now is that educators on 
	their own can actually go in and review our module.  And when they
	are through completing the module, they get professional 
	development credit and then a gateway opens up and they have access
	to all the curriculum and the activities, the workbooks for the 
	kids electronically.
	Mr. Whitfield.  Well we thank you for the great job you are 
	doing in Kentucky and elsewhere and how old is i-SAFE?  How
	old is it?
	Ms. Schroeder.  We were formed in 1998.
	Mr. Whitfield.  Ninety-eight, okay.  
	And Ms. Aftab, how do you identify students to be Teenangels? 
	How do you go about that?
	Ms. Aftab.  The Teenangels identify themselves.
	Mr. Whitfield.  Okay.
	Ms. Aftab.  They share a belief that every child has something to 
	offer.  And when they see me on television, if I do Dateline or 
	Good Morning America, or something often the kids will see that. 
	We are in magazines.  I do eight interviews a day sometimes.  And
	so when kids see us or they see us in person or they want to make
	a difference, they will reach out to us.  The program is free
	along with everything else we do.  We who run it are also unpaid 
	volunteers.  I have one of them from Stone Ridge School here in
	Bethesda, Maryland, who is sitting back there with one of her 
	Teenangels.  The training is we email it out to them and help 
	them do it and the kids come to us.  And what we find is some 
	kids are really great at public speaking.  Others may be shy but 
	they are terrific at research.  And part of Teenangels, 
	Teenangels is a little different from I-Mentor in that the kids 
	who are Teenangels have to undergo extensive training and 
	independent research.  They have actually developed new product. 
	They have to go out and research new interactive devices.  They 
	developed safer cell phone settings that are now being adopted
	by Disney.  They have come up with safer interactive gaming for 
	X-Box Live.  So when they learn and we have all of the experts 
	teaching them about everything they need to know, they develop 
	things.
	The Motion Picture Association of America honored one of my 
	Teenangels who came up with a 30 second PSA--he is 15--called 
	use it and lose it.  It�s about bringing your video camera into 
	a movie theater and what is going to happen.  This 15-year-old 
	had social anxiety disorder and his mother came to me and asked 
	if he could be a Teenangel.  And I said well we work in chapters
	generally but she asked me if would make an exception and he has
	done extraordinary things.  And a young girl from Pittsburgh who 
	is 13 who had met an Internet sexual predator in their live, who
	was rescued 4 days later by the FBI where she was found chained
	to the floor, came to us and she wanted to be a Teenangel too. 
	So the kids who come to us and want to make a difference, we 
	give them a way to do it.
	Mr. Whitfield.  All right.
	Ms. Schroeder would you or Mr. Sallam explain the mentor program 
	at i-SAFE?
	Ms. Schroeder.  What happens with the mentor program is they 
	actually go through a training.  We have our own mentoring 
	network.  And so what the kids actually learn to do is they
	become a little bit different than what the cyber angels do 
	because this is--
	Ms. Aftab.  Teenangels.
	Ms. Schroeder.  I am sorry, Teenangels.  This is in school.  So 
	for instance as you saw with the Kentucky kids, high school kids, 
	they will actually get service learning credits.  We have service
	learning curriculum and they actually decide to adopt a class and
	they will actually go in and train that class and/or they may go
	into a lower division school and then they work the kids for the
	younger kids say K, first, or second grade and they may go in and 
	do learning with them because we have a literacy curriculum as
	well.  So there are various things that the kids can do from 
	peer-to-peer in terms of being able to help promote Internet 
	safety.  We also have school assemblies so the kids actually 
	participate in the school assemblies.
	Mr. Whitfield.  And how many mentors are there around the 
	country?
	Ms. Schroeder.  Right now we have 156,000 I think that are 
	actual certified mentors.
	Mr. Whitfield.  One hundred fifty-six thousand?
	Ms. Schroeder.  One hundred fifty-six thousand that are certified
	mentors.  Now those are, the certified mentors, are the ones that
	actually conduct the training.
	Mr. Whitfield.  I see.
	Ms. Schroeder.  So every single student that goes through the
	curriculum, they actually become mentors because it is part of 
	the curriculum that they do in the classroom.
	Mr. Whitfield.  And how many Teenangels, Ms. Sullivan or 
	Ms. Aftab?
	Ms. Aftab.  We are a different program.  Ours is a train-the-
	trainers program so the Teenangels reach out and train others.
	Mr. Whitfield.  Okay.
	Ms. Aftab.  We have 450 certified Teenangels who are the right 
	age right now, a lot of them have grown up.  And we have about
	3,400 in the pipeline.  Until recently, I had actually
	hand-trained all of my Teenangels.  It was the most fun I have
	had.  Now their training is put onto CDs so that anywhere we are
	not, the Teenangels can.  And we are working with the scouts and 
	with other organizations.  In fact, we have got a new Teenangels
	chapter that is starting with Camp Fire Girls and Boys in 
	Anchorage, Alaska.
	Mr. Whitfield.  Really?
	Ms. Aftab.  Yeah.
	Mr. Whitfield.  Do you operate in other countries as well?
	Ms. Aftab.  Seventy-six countries around the world.
	Mr. Whitfield.  And what about i-SAFEty?
	Ms. Schroeder.  Fifteen countries and schools.
	Mr. Whitfield.  Okay.  And how many Teenangels are back here in 
	the corner this morning?
	Ms. Schroeder.  One and one want to be.
	Mr. Whitfield.  One and one want to be, okay.  Well--
	Ms. Aftab.  They have to miss school to do this.  But they are 
	now.  The interesting thing is they are doing hard consulting 
	for big corporations.  They are working on the inside with
	Myspace and Facebook and with Yahoo! and Google and Disney and
	Microsoft where they are helping advise on new product and ways 
	that they can be misused and used by kids.
	Mr. Whitfield.  So all of our mentors and Teenangels, they are 
	all quite proficient and we know they will do well in whatever 
	they decide to pursue.
	Ms. Aftab.  And we are lucky to have them.
	Mr. Whitfield.  Yeah, absolutely.  
	I want to thank you all for the great job that you are doing for
	these programs and the good work that you are doing.  And 
	particularly want to thank the Teenangels and the mentor and 
	mentors for their assistance you are doing with other students.  
	And at this time, I recognize Mr. Stupak.
	Mr. Stupak.  Thank you.
	Ms. Sullivan or Mr. Sallam, what do you feel these sites--Myspace 
	and there is another one we saw today Spotlife and Buddypicks--
	now what do you think of those as a general rule?  Are they 
	useful or helpful?
	Ms. Sullivan.  They are a good way to keep in touch with your 
	friends.  Many teens are enticed by social networking sites 
	because you can make it all about you.  Sites like Myspace, you
	can change the background to whatever you want, whatever font you
	want, you can put funny pictures, you can put pictures of
	yourselves and your friends, you can comment on your friends� 
	pages.  It is very teen orientated.  So they really enjoy it.  It
	can be useful because it is different than just IM you friends it
	is more like staying in touch with your friends, more extensive, 
	but they can be misused.  You can post personal information.
	Mr. Stupak.  Well, do you think the benefits outweigh the risk?
	Ms. Sullivan.  Excuse me?
	Mr. Stupak.  Do you think the benefits of these sites outweigh the
	risk?
	Ms. Sullivan.  No, I do not.  There is too many risks because
	many--
	Mr. Stupak.  Then why have them?
	Ms. Sullivan.  Because--
	Mr. Stupak.  I mean you are the experts.  I mean I have never been 
	on the Internet and I could not tell you from the bottom, but I 
	guess I am just trying to get your own feelings on it because it
	has been a tragic story what we have heard about today and
	unfortunately it is being repeated time and time and time again in
	this country and more offshore and everything else.  So I just want
	to learn the value of these sites and if we cannot monitor them or 
	police them better than what we are doing.
	Ms. Aftab.  And how can you use them safely I guess.
	Ms. Sullivan.  Yeah.  It depends how the teen or the child is using 
	it.
	Mr. Stupak.  Sure.
	Ms. Sullivan.  If someone has their profile set on private for only 
	their friends to see and they are not talking to strangers or people
	they do not know, then it is safe.  It is a good place for them to
	be.  But otherwise if they are letting anyone who has a myspace or
	commenting, people they have never met, and people they never will
	meet, then it can be dangerous.  So it depends on how you look at 
	it.  If you see that your child or teen is being safe on it and 
	they are using it to contact their friends then it can be safe and 
	it does have benefits.  But otherwise, if they are posting too 
	much personal information and they are talking to people they do 
	not know, then it is dangerous.
	Mr. Stupak.  So I bet you a month does not go by here where there
	is an embarrassing email that came out of some office here.  The 
	issue is not when the sender sent that email to the other office 
	probably thought it would go no further but somehow inadvertently, 
	however, it gets sent all over and suddenly my privacy is 
	everybody�s public knowledge and not only is it embarrassing for 
	the office that originated the email but it just, I think sort of 
	reminds us that what we may think and what we believe and sitting
	behind that desk and doing your emails or going to your myspace,
	while we think it is private, it is really not and that is why I
	think we are all vulnerable and not just young people and us too 
	with our emails.  So I was just wondering about that.
	Mr. Sallam, let me ask you this, the Chairman asked you and you
	sort of said no but these porn sites, there has been gregarious
	talk about sitting home or you are surfing the net.  Do you have
	discussions with your friends about the fact porn sites are out 
	there?  As you surf you may hit them, things like that?
	Mr. Sallam.  That is a tough question.
	Mr. Stupak.  Yeah, I mean what I wanted to get at is--
	Mr. Sallam.  When you are surfing the Internet, the fact that 
	stuff is out there and we do like stumble upon it and it is 
	especially with myspace like some people post pornographic 
	images on their myspace so it is sort of people who have 
	myspace, it is sort of easy to stumble upon something like 
	that.
	Mr. Stupak.  Do you talk about it with your friends?
	Mr. Sallam.  Not really.
	Mr. Stupak.  Couldn�t that be a deterrent in the programs you 
	are doing?  I mean, we all know they are out there, acknowledge
	they are out there and discuss it, why you are not to go there
	and the dangers involved in it?
	Mr. Sallam.  Yeah, of course there is always a bad aspect of 
	looking at these pornographic images, the factor of getting a 
	virus, but it does not really come up in discussion with my 
	peers.
	Mr. Stupak.  Okay.  Ms. Schroeder, would you submit the FCACY 
	study on the i-SAFE Program?  I would be interested in learning
	a little bit more about that.  And you said it has been around 
	since about 1998.  Has there been some studies as to the 
	effectiveness of the program?
	Ms. Schroeder.  Yes.  MIJ did a 2 year study on i-SAFE and they
	presented it to me about 2 months ago so, absolutely, I will 
	request that study.
	Mr. Stupak.  The 2 year program you said or 2 year study, I am 
	sorry, has there been anything else who have measured the
	effectiveness of i-SAFE?
	Ms. Schroeder.  Well we do pre-polls and delayed assessments and 
	actually we have our national assessment center so we are 
	providing assessment data.  We even provide it to the FBI because
	we do trainings for them as well and I would be happy to provide 
	that to you.
	Mr. Stupak.  You mentioned the FBI, do you work with local law 
	enforcement and things like--
	Ms. Schroeder.  Yes, we do.  We have--
	Mr. Stupak.  There is at least one more.  Maybe three more.  It 
	looks like a new agenda, three more.  Okay.
	Ms. Schroeder.  We have our i-SAFE Task Force and our i-SAFE Task
	Force actually is a partnership with local law enforcement, FBI, 
	the Attorney General�s office.  School resource officers from 
	around the country actually are trained and they participate, as 
	well as FBI and their outreach department, so they are actually 
	teaching the classes, as well as in schools.
	Mr. Stupak.  In your testimony, I think you mentioned something 
	about 30 minutes once a week for 5 weeks.  Do you have any 
	follow-up with that because I would think there may be more to 
	this?
	Ms. Schroeder.  Yes, we do.
	Mr. Stupak.  Well what is that? What does that consist of follow 
	up?
	Ms. Schroeder.  What happens is is that the classroom curriculum 
	actually is comprised of a 30 minute segment because you have to 
	fit it into a class day.  So once it is implemented into a school 
	district and/or a classroom, it really is up to that teacher in 
	terms of that.  We create and we have five core modules and then
	we have supplemental modules.  So what the teachers usually do 
	is they always do the five core modules and then after that they
	go and they do the supplemental modules.  The way that we follow
	up with them is the fact that we are always supplementing the
	information.  For instance when cyber bullying came out, we 
	created a cyber bullying curriculum.  So they go online, they 
	request that curriculum.  It has its own life within that school 
	district in terms of its being taught all the time.  And then 
	students too as well, they have their school assemblies that they
	are doing as well and then that involves, they will bring local 
	law enforcement in and we have our parent nights. 
	Mr. Stupak.  Okay.  You just mentioned cyber bullying again.  
	Explain that for us for the record so we know what is cyber
	bullying.
	Ms. Schroeder.  Yes.  What that is is you know you would be 
	bullied on the school grounds?  Well now what kids have done is 
	they have taken it online.  So for instance if I am a student 
	and I have something to say about you I will blog it or I will 
	go and maybe post different pictures about you, crop them, then
	I will go and call attention to them.  So for instance for me 
	as a student when I come back to school the next day everybody
	knows about it not just a few kids that on a school ground it 
	would just be one on one.  One situation that was such a tragedy 
	was a student in Vermont and actually his father was an IBM 
	executive and they contacted us.  IBM did and said this is what
	is happening to one of our executives and that is when we really 
	looked into this.  In this particular situation, this boy was
	bullied at his school, it then went on and on and he ended up 
	taking his own life.  Ms. Teen New Jersey who is a spokesperson 
	for us, her parents moved her three States when she was bullied 
	online as well. 
	Mr. Stupak.  Okay.  You are also promoting the digital
	certificate technology for children.  
	Ms. Schroeder.  Correct.
	Mr. Stupak.  And one of the requirements to obtain such a 
	certificate is they have a government-issued photo ID, do I 
	understand it?  Do many students have such a photo ID?  I do not
	usually think that the school IDs are accepted as a government 
	ID cards or government-issued ID cards.  Where would students
	use them?
	Ms. Schroeder.  The way that this technology works is it is
	called the i-STIK.  
	Mr. Stupak.  Okay.
	Ms. Schroeder.  On the first day of school when parents actually 
	sign the acceptable use policy, they will say yes my son or 
	daughter can have an i-STIK.  So next to biometrics it is actually
	authenticated there at the school.
	Mr. Stupak.  I see.
	Ms. Schroeder.  So we did a study with ten States and most kids 
	took their i-STIK and went to the school administrator, they had
	their ID there, they knew that that was Susie Brown and Susie 
	Brown was issued that i-STIK and so that, it is just very simple.
	It is actually like an ATM card.  It can be used anywhere on the
	Internet.  Right now it is empowered by VeriSign and also eBay;
	Yahoo! was actually participating in this study as well.  And we 
	are looking at this being a place where if you are a student, you
	would be able to go to these areas online and it would be able to
	authenticate you so it only knows in terms of male, female, age 
	range, and demographics in terms of West Coast, East Coast.
	Mr. Stupak.  And that is a pretty safe, secure site so no one can 
	access this information?
	Ms. Schroeder.  Well, the goal is that you are educated so when 
	you are actually getting into an area if I am going to go chat or
	communicate, then it will only allow other people within those 
	parameters to chat or communicate with me.  So it really empowers 
	the students quite a bit because now they choose where they want 
	to go.
	Mr. Stupak.  Thank you, Mr. Chairman.
	Mr. Whitfield.  Thank you, Mr. Stupak.  
	I am going to just ask one other question of Ms. Aftab and then we 
	will conclude the hearing.  But and you had a lot of experience with 
	this.  You were a lawyer prior to getting involved in WiredSafety.  
	And do you find that parents� perceptions of what their children are 
	doing online differ significantly from the reality of what their 
	children are doing online?
	Ms. Aftab.  Yes, and Mr. Chairman, I have actually written all of the
	leading books for parents on Internet safety in the United States and 
	around the world.  And WiredSafety, the volunteers before me have been 
	doing this for 11 years so it was a long track record here.  Parents
	are clueless, totally clueless.  And even the parents who use the 
	Internet are clueless.  And it is interesting, we have been talking
	about this for years and I will go out and I address 1,000 parents a
	month and 5,000 students myself in person and every single month, 
	and when I go out to them, the parents keep saying not my kid.  And
	I say your kids are communicating with strangers, no.  Twenty-four 
	percent of the teens that were polled by family PC magazine, teen
	girls admitted to meeting strangers off line that they met online, 
	24 percent.  And 60 percent of the survey that we did with the 
	University of Southern Florida in 1999, 60 percent of the teen 
	girls, 11,000 teen girls between the ages of 13 and 16 engaged in 
	cyber sex, admitted to it.  One of the girls said that she would 
	not, she had cyber sex but she did not go all the way.  I always 
	joke, that means she did not use punctuation.  But these kids are
	doing this because they can and the parents have always said not
	my kid.  And then myspace became popular.  And myspace has put fear
	in the hearts of parents everywhere and I think it is seriously 
	overblown.  They have the most liberal law enforcement, pro-law
	enforcement policy on the Internet today.  So they get it but the 
	parents do not.  So now the parents are saying not my kid, my 
	cherubic 13-year-old, 14-year-old would never do those things and
	they go onto their site and they see them posing in their bra, or 
	licking their lips and arching their back and they are thinking oh 
	my goodness.  And a lot of these kids who are home coloring with 
	their 5-year-old niece over the weekend are pretending that they 
	were out drinking last weekend.  So they are not really a 
	drunken slut, they are just playing one on myspace.  And their
	parents have no idea.  And so what we now need to do is awaken 
	parents, get them to open their eyes at the same time they do 
	not throw out the Internet which all of our children need.  We 
	have hearings about the dangers online and the terrible things 
	that can happen to children but the greatest single risk our 
	children face in connection with the Internet today is being 
	denied access.  We have got a solution for everything else.
	Mr. Whitfield.  Ms. Aftab, I thank you very much.  And 
	Ms. Schroeder for the good work that you are doing.  And
	Ms. Sullivan and Mr. Sallam, we really appreciate your being
	here and the great leadership that you are providing.  
	Before concluding, I would ask unanimous consent that we enter
	into the record the letter from the Department of Justice from
	Mr. Ryan regarding Justin Berry�s--both letters to and from. 
	And oh, yes, Ms. Schroeder, we would like to put your overheads
	in the record as well.  Do you have problem with that?
	[The information follows:]

Ms. Schroeder.  Not at all.
	Mr. Whitfield.  Okay.
	Ms. Schroeder.  Thank you.
	Mr. Whitfield.  With that, the record will remain open for 
	30 days and I think Dr. Burgess may have some additional 
	questions and if he does we will get them to you all.  But that 
	concludes today�s hearing and thank you very much for your 
	patience.
	[Whereupon, at 3:36 p.m., the subcommittee was adjourned.]



SEXUAL EXPLOITATION OF CHILDREN OVER THE INTERNET:  WHAT PARENTS, KIDS 
AND CONGRESS NEED TO KNOW ABOUT CHILD PREDATORS


THURSDAY, APRIL 6, 2006

House of Representatives,
Committee on Energy and Commerce,
Subcommittee on Oversight and Investigations,
Washington, DC.


The subcommittee met, pursuant to notice, at 10:00 a.m., in Room 2322 of 
the Rayburn House Office Building, Hon. Ed Whitfield (Chairman) presiding.
	Members present:  Representatives Bass, Walden, Ferguson, 
	Burgess, Blackburn, Barton (ex officio), Stupak, DeGette, 
	Inslee, and Whitfield.
	Staff Present:  Mark Paoletta, Chief Counsel for Oversight and 
	Investigations; Alan Slobodin, Deputy Chief Counsel for Oversight 
	and Investigations; Kelli Andrews, Counsel; Karen Christian, 
	Counsel; Michael Abraham, Legislative Clerk; Edith Holleman, 
	Minority Counsel; and David Nelson, Minority
	Investigator/Economist.
Mr. Whitfield.  This hearing will come to order, and today marks the
second day of hearings that the Oversight and Investigations Subcommittee 
is having on child pornography and sexual exploitation of children over
the Internet.
	Today, as I said, this is our second day of hearings on the sexual
	exploitation of children over the Internet.  Today, we hope to 
	gain a better understanding of how U.S. law enforcement is 
	working to combat the horrifying and growing commercial business 
	of sexually exploiting children over the Internet, and what is 
	being done to put those online child predators behind bars.
	The testimony we heard on Tuesday was disturbing.  For example, 
	in this $20 billion a year business of commercially exploiting
	children, the images of child victims are increasingly younger 
	and increasingly more violent.  I cannot fathom who these people
	are that seek to view these images of children being sexually 
	abused and, frequently, being abused on demand.  As one witness 
	on Tuesday described it, these images are digital crime scenes, 
	and it sickens both our heart and soul.
	Some of the most disturbing testimony at Tuesday�s hearing came
	from Justin Berry, a victim of online predators.  Justin�s 
	testimony about the Department of Justice�s handling of his case 
	was particularly troubling.  Justin testified that he himself
	has no faith in the Department of Justice�s Child Exploitation 
	and Obscenity Section.  This is a section of prosecutors in the 
	Department that are supposedly experts in handling cases like
	Justin�s.  When a victim witness has no faith in the people that
	are supposed to be his advocates, there is clearly something 
	wrong with the process.
	While I am sympathetic to the Department�s concern over
	discussing ongoing investigations, the allegations raised by 
	Justin Berry�s testimony on Tuesday raise important process
	questions that need to be addressed by the Department.  We have
	some specific questions for the Department of Justice at today�s
	hearing.  These questions include:  why has it taken so long for 
	the Department to act and rescue children in imminent danger of 
	being molested; why Justin�s father, Knute Berry, a man who 
	allegedly profited off of the sexual exploitation of his son, has
	not been charged or arrested; why there have been no arrests from
	the over 1,500 names of subscribers to Justin�s website, that 
	featured images of children being sexually abused, and which he
	supplied to the Department of Justice; why Aaron Brown, the
	person who ran a credit card processing company called Neova.net, 
	that processed the orders for sexually exploitive images of 
	children, has not been arrested and charged in connection with 
	Justin�s case; why Ken Gourlay has not been charged or arrested
	in connection with the alleged money he made hosting Justin�s 
	own website, nor for his alleged sexual abuse of Justin while 
	Justin was still a minor; and finally, why the Department of 
	Justice allowed an affidavit to be unsealed and remain unsealed 
	for 6 months, and still is unsealed today, in a criminal case 
	that had the effect of putting Justin Berry�s life in danger?
	We do not want these disturbing details about the handling of 
	Justin�s case to go unanswered by the Department, and hope that
	some insight will be gained through this hearing today, and 
	that is one of our clear intents.
	I would like now to briefly turn to the other witnesses that we
	will hear from today.  Law enforcement has a very difficult task 
	ahead, and is fighting an immense criminal enterprise of online 
	child predators.  We need to give law enforcement the necessary 
	resources to save our children from online predators.  I look 
	forward to hearing from the various law enforcement witnesses 
	today about their successes in the field, as well as concerns 
	and problems they face.  Child predators on the Internet are
	using all technological means available to avoid law enforcement 
	efforts, and law enforcement must respond in an effective way.
	Finally, it is critical that we have an understanding of what is 
	going on in the various State legal systems.  About 70 percent of 
	all prosecutions involving child pornography are handled at the 
	State and local level.  Therefore, the State laws regarding the 
	illegality of possession, manufacturing, distribution, and 
	enticing of minors in child pornography need to be as strong as 
	the Federal laws.  My home State of Kentucky, as an example, 
	recently passed legislation that will make possession of child
	pornography a felony instead of a misdemeanor.  I look forward 
	to hearing from witnesses, including Mr. Weeks from PROTECT, 
	about sentencing issues surrounding these cases involving the 
	sexual exploitation of children over the Internet.
	And at this time, I will recognize Mr. Stupak of Michigan for
	his opening statement.
	[The prepared statement of Hon. Ed Whitfield follows:]

Prepared Statement of the Hon. Ed. Whitfield, Chairman, Subcommittee on
Oversight and Investigations

GOOD MORNING.  
	TODAY THE SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS BEGINS 
	ITS SECOND DAY OF HEARINGS ABOUT SEXUAL EXPLOITATION OF CHILDREN 
	OVER THE INTERNET.  TODAY WE HOPE TO GAIN A BETTER UNDERSTANDING
	OF HOW U.S. LAW ENFORCEMENT IS WORKING TO COMBAT THE HORRIFYING 
	AND GROWING COMMERCIAL BUSINESS OF SEXUALLY EXPLOITING CHILDREN
	OVER THE INTERNET AND WHAT IS BEING DONE TO PUT THESE ON-LINE 
	CHILD PREDATORS BEHIND BARS.  THE TESTIMONY WE HEARD ON TUESDAY 
	WAS DISTURBING.  FOR EXAMPLE, IN THIS 20 BILLION DOLLAR A YEAR 
	BUSINESS OF COMMERCIALLY EXPLOITING CHILDREN--THE IMAGES OF CHILD 
	VICTIMS ARE INCREASINGLY YOUNGER AND INCREASINGLY MORE VIOLENT.  
	I CANNOT FATHOM WHO THESE PEOPLE ARE THAT SEEK TO VIEW THESE 
	IMAGES OF CHILDREN BEING SEXUALLY ABUSED AND IN MANY INSTANCES--
	ON DEMAND.  AS ONE WITNESS ON TUESDAY DESCRIBED IT--THESE IMAGES
	ARE "DIGITAL CRIME SCENES".  IT SICKENS MY HEART AND MY SOUL.  
	SOME OF THE MOST DISTURBING TESTIMONY AT TUESDAY�S HEARING CAME
	FROM JUSTIN BERRY--A VICTIM OF ON-LINE PREDATORS.  JUSTIN�S 
	TESTIMONY ABOUT THE DEPARTMENT OF JUSTICE�S HANDLING OF HIS CASE
	WAS PARTICULARLY TROUBLING.  JUSTIN TESTIFIED THAT HE HAS NO 
	FAITH IN THE DEPARTMENT OF JUSTICE�S CHILD EXPLOITATION AND 
	OBSCENITY SECTION.  THIS IS A SECTION OF PROSECUTORS IN THE 
	DEPARTMENT THAT ARE SUPPOSEDLY EXPERTS IN HANDLING CASES LIKE 
	JUSTIN�S.  WHEN A VICTIM WITNESS HAS NO FAITH IN THE PEOPLE THAT
	ARE SUPPOSED TO BE HIS ADVOCATES--THERE IS SOMETHING CLEARLY 
	WRONG WITH THE PROCESS.  WHILE I AM SYMPATHETIC TO THE 
	DEPARTMENT�S CONCERN OVER DISCUSSING ON-GOING INVESTIGATIONS, 
	THE ALLEGATIONS RAISED BY JUSTIN BERRY�S TESTIMONY ON TUESDAY 
	RAISE IMPORTANT PROCESS QUESTIONS THAT NEED TO BE ADDRESSED BY 
	THE DEPARTMENT.  WE HAVE SOME SPECIFIC QUESTIONS FOR THE 
	DEPARTMENT OF JUSTICE AT TODAY�S HEARING. THESE QUESTIONS 
	INCLUDE--
WHY HAS IT TAKEN SO LONG FOR THE DEPARTMENT TO ACT AND RESCUE CHILDREN 
IN IMMINENT DANGER OF BEING MOLESTED?
WHY JUSTIN�S FATHER-KNUTE BERRY-A MAN WHO ALLEGEDLY PROFITED OFF OF THE 
SEXUAL EXPLOITATION OF HIS SON HAS NOT BEEN CHARGED OR ARRESTED?
WHY THERE HAVE BEEN NO ARRESTS FROM THE OVER 1500 NAMES OF SUBSCRIBERS 
TO JUSTIN�S WEBSITE THAT FEATURED IMAGES OF CHILDREN BEING SEXUALLY 
ABUSED?
WHY AARON BROWN, THE PERSON WHO RAN A CREDIT CARD PROCESSING COMPANY --
CALLED NEOVA.NET-THAT PROCESSED THE ORDERS FOR SEXUALLY EXPLOITATIVE 
IMAGES OF CHILDREN, HAS NOT BEEN ARRESTED AND CHARGED IN CONNECTION
WITH JUSTIN�S CASE?
WHY KEN GOURLAY HAS NOT BEEN CHARGED OR ARRESTED IN CONNECTION WITH THE 
ALLEGED MONEY HE MADE HOSTING JUSTIN�S WEBSITE AND FOR HIS ALLEGED 
SEXUAL ABUSE OF JUSTIN WHEN JUSTIN WAS STILL A MINOR?
AND FINALLY-WHY THE DEPARTMENT OF JUSTICE ALLOWED AN AFFIDAVIT TO BE 
UNSEALED---AND REMAIN UNSEALED FOR OVER SIX MONTHS-- IN A CRIMINAL CASE 
THAT HAD THE EFFECT OF PUTTING JUSTIN�S LIFE IN DANGER?
WE DO NOT WANT THESE DISTRUBING DETAILS ABOUT THE HANDLING OF JUSTIN�S 
CASE TO GO UNANSWERED BY THE DEPARTMENT AND HOPE THAT SOME INSIGHT WILL 
BE GAINED THROUGH THIS HEARING.
	I WOULD LIKE NOW TO BRIEFLY TURN TO THE OTHER WITNESSES THAT WE 
	WILL HEAR FROM TODAY.  LAW ENFORCEMENT HAS A VERY DIFFICULT TASK
	AHEAD AND IS FIGHTING AN IMMENSE CRIMINAL ENTERPRISE OF ON-LINE
	CHILD PREDATORS.  WE NEED TO GIVE LAW ENFORCEMENT THE NECESSARY 
	RESOURCES TO SAVE OUR CHILDREN FROM ON-LINE PREDATORS.  I LOOK
	FORWARD TO HEARING FROM THE VARIOUS LAW ENFORCEMENT WITNESSES 
	TODAY ABOUT THEIR SUCCESSES IN THE FIELD, AS WELL AS, CONCERNS 
	OR PROBLEMS THEY SEE IN INVESTIGATION AND PROSECUTING THESE 
	CASES.  CHILD PREDATORS ON THE INTERNET ARE CLEARLY USING ALL 
	TECHNOLOGICAL MEANS AVAILABLE TO AVOID LAW ENFORCEMENT EFFORTS
	AND LAW ENFORCEMENT MUST RESPOND.  
FINALLY, IT IS CRITICAL THAT WE HAVE AN UNDERSTANDING OF WHAT IS GOING
ON IN THE VARIOUS STATE LEGAL SYSTEMS.  ABOUT 70% OF ALL PROSECUTIONS 
INVOLVING CHILD PORNOGRAPHY ARE HANDLED AT THE STATE AND LOCAL LEVEL.  
THEREFORE, THE STATE LAWS REGARDING THE ILLEGALITY OF POSSESSION, 
MANUFACTURING, DISTRIBUTION AND ENTICING OF MINORS IN CHILD PORNOGRAPHY
NEED TO BE AS STRONG AS THE FEDERAL LAWS. MY HOME STATE OF KENTUCKY 
RECENTLY PASSED LEGISLATION THAT WILL MAKE POSSESSION OF CHILD 
PORNOGRAPHY A FELONY INSTEAD OF A MISDEMEANOR.  I LOOK FORWARD TO 
HEARING FROM WITNESSES, INCLUDING MR. WEEKS, FROM PROTECT, ABOUT
SENTENCING ISSUES SURROUNDING THESE CASES INVOLVING THE SEXUAL 
EXPLOITATION OF CHILDREN OVER THE INTERNET.
	THANK YOU.  

	Mr. Stupak.  Thank you, Mr. Chairman.
	April is Child Abuse Awareness Month, and so, it is appropriate 
	we are holding these hearings.  As we learned Tuesday, this 
	problem has many sordid faces:  commercial websites, predator 
	seduction over peer-to-peer networks, pedophile groups that 
	demand and trade new materials as the price of admission to 
	complete their set of pornographic photos, and sex tourism, which 
	are trips organized by American men to foreign countries for the 
	purpose of sexually molesting and filming sex acts with young 
	people.
	We learned other disturbing facts too numerous to list here, but 
	a few that are noteworthy.  Victims of this disgusting trade are
	28 times more likely to become prostitutes 86 percent of the 
	victims develop serious, long term mental illness.  Eighty percent
	of these predators have material depicting victims under the age 
	of 12, 40 percent under the age of 6, and 20 percent under the 
	age of 3.  Unfortunately, yesterday�s news revealed that a Deputy
	Press Secretary at the Department of Homeland Security had been
	arrested by authorities who were posing as a 14-year-old girl. 
	The arrest occurred as the officer portraying herself as a 
	14-year-old girl was to pose nude for him on a webcam.
	As Mr. Justin Berry testified, there is no reason for a 13 or 
	14-year-old to have a webcam.  Mr. Chairman, the committee staff 
	has spent many hours interviewing key Federal officials who 
	investigate child pornography every day.  Unfortunately, they 
	are not here to testify today.  Today, we will hear from a few 
	frontline law enforcement officers, and some witnesses purporting
	to represent the frontline prosecutors and the Federal law 
	enforcement officers.  I say purportedly, because I don�t 
	believe that the most experienced witnesses are here today.
	On Tuesday, we heard a withering indictment of the Child 
	Exploitation and Obscenity Section at the Department of 
	Justice, CEOS.  CEOS are the prosecutors responsible for 
	coordinating these horrible cases nationwide.  Unfortunately, 
	the head of CEOS is not here.  Instead, Justice sent us a U.S.
	Attorney from the State of Montana to present its testimony.  I 
	hope this individual has some knowledge in this area he will be 
	talking about today.
	The Department of Justice is not the only agency that did not 
	provide its most knowledgeable staff as a witness today.  Both 
	the Federal Bureau of Investigation and the Bureau of 
	Immigration and Customs Enforcement, ICE, have incredible, 
	underfunded cybercrime operations with great expertise in 
	working these cases nationally and internationally.  These 
	critical law enforcement agencies have two of the most 
	articulate and committed special agents working on child
	exploitation.  These talented and dedicated supervisors, Arnold
	Bell of the FBI�s Innocent Images Unit, and Claude Davenport of 
	the Child Exploitation Section of the ICE Cybercrime Center, 
	have not been permitted to give testimony today.  Instead, the 
	individuals who will appear here have job titles bestowed upon 
	them by bureaucratic politicians.  Again, I suspect that they have 
	little recent law enforcement experience in the dirty world of 
	Internet child pornography and sexual exploitation.
	That makes our job extremely difficult, for us here in Congress 
	to do oversight work when agencies do not send the witnesses we 
	request.  I will be pressing for answers as to why those that 
	labor so hard to protect our children from the worst of all 
	crimes are denied adequate personnel and critical technical 
	resources.  The agents that actually work these cases need much 
	more recognition and support in what they receive from their 
	superiors.  These men and women are overwhelmed by the size of the 
	problem, and handicapped by timid prosecutions, at least on the 
	Federal level.  The FBI, ICE, and the Inspectors of the U.S. 
	Postal Service have brought down networks involving tens of 
	thousands of criminals that have, or likely will physically 
	molest children, yet despite their efforts, the Federal 
	prosecution of these perpetrators is rare.
	On the State and local level, the story is different but widely 
	variable.  We are aware of a county district attorney in New 
	Hampshire that averages one prosecution every 10 days of these
	predators.  He says he could do one a day if he had more 
	attorneys on staff.  He does have the assistance of the ICAC, 
	coordinated Federal and State local computer crime specialists,
	assisting him in developing the necessary cases and evidence, 
	but he still needs the manpower to present the cases in court. 
	I find the ICAC�s testimony about the Internet service providers
	being a major obstacle to the investigation of child exploitation
	over the Web particularly troubling.  I can�t help but believe 
	that the credit card companies and PayPal accounts also have
	responsibility to police their clients who are accessing these 
	child pornography sites.
	Yesterday, I was pleased that our colleagues unanimously 
	accepted my amendment in the Telecommunications markup to crack
	down on Internet child pornography.  My amendment orders the 
	Federal Communications Commission to devise regulations that 
	require both cable service and phone companies offering cable 
	service and technologies to prevent child pornography from being
	conveyed over Internet networks.  This will serve as a good start
	at curtailing child pornography on the Internet, but we also need
	stepped up law enforcement at all levels, Federal, State, and 
	local.
	Mr. Chairman, the Federal prosecution effort is far less vigorous 
	than that found on the State and local level.  As I noted Tuesday,
	in a major case where 20,000 verified American child sex 
	offenders are out still walking our streets, prosecutors have
	been able to convict less than 2 percent of the identified 
	perpetrators, while law enforcement in Australia obtained 
	convictions of over 55 percent of their countrymen identified in 
	the same international bust.  If Australia can do 55 percent, I 
	am sure we can do better than 2 percent here in this country.
	We, Congress, have a long way to go to assist law enforcement to
	help in this fight.  I hope that we don�t stop with this hearing 
	today.  As a former law enforcement officer, I will use every 
	opportunity to crack down on illegal Internet activity, bank card
	transactions, and inadequate Federal statutes that tie law 
	enforcement hands when pursuing child pornography perpetrators.
	With that, Mr. Chairman, I yield back, and I thank you for 
	having this hearing.
	Mr. Whitfield.  Mr. Stupak, thank you, and I want to also thank
	you for raising this issue of the witness from the Justice 
	Department today.  Of course, we are glad to have Mr. Mercer
	here.  He is a U.S. Attorney from Montana, and I know he has 
	experience in these child pornography cases, but we specifically 
	asked for Raul Roldan, who is the FBI�s cybercrimes expert, and 
	we also asked for Drew Oosterbaan, who is the Director of CEOS, 
	and neither one of them is here, but I did notice that Raul 
	Roldan was on CNN today on the Today Show, so he had time to go
	on television, but he didn�t have time to be here with us.
	At this point, I would like to recognize the gentleman from New 
	Jersey, Mr. Ferguson, for his opening statement.
	Mr. Ferguson.  Thank you, Mr. Chairman, and thank you for holding 
	this second hearing.
	Mr. Chairman, I, too, think it is outrageous that we have law 
	enforcement agencies that are willing to, and perfectly happy, 
	to send some of their most knowledgeable representatives to do 
	interviews on national media, but they can�t come before a
	subcommittee in the Congress to share their expertise and their 
	thoughts and strategies with the Congress and the American
	people.  I think it is outrageous.
	I certainly appreciate the witnesses for being here today.  I 
	appreciate the expertise and the insights that they will lend to 
	these hearings.  But I think it is a very, very serious issue, 
	and I hope that we will follow up on that.  I want to thank you,
	Mr. Chairman, and Mr. Stupak, for your leadership on this issue.
	I am happy to see that as parents and as Members of Congress who
	are serving on this committee, that we are making a concerted 
	effort to get to the bottom of an industry which so horribly 
	affects many children in our country.  I also want to thank the 
	witnesses for testifying and helping us get to the real causes
	of this problem, and why it is so pervasive in our society.
	I am sure that it is safe to say this past Tuesday�s hearing 
	touched and shocked every one of us who was there in that room, 
	or who got to watch it on television.  Although we have been 
	aware of this problem, many of us have been aware of this 
	problem, I think it is doubtful that prior to Tuesday, that any
	of us genuinely knew the details of this sordid world that so 
	many children find themselves victims of.
	The question running through everybody�s minds and my mind is 
	how, how could this happen to so many children?  How could it 
	be so easy for a sexual predator in today�s world of advanced
	crime fighting and investigative techniques?  And how is it 
	that we, as a society, seem to be incapable of putting a stop 
	to it?  I can�t thank enough organizations like WiredSafety 
	and i-SAFE, people like Kurt Eichenwald from the New York Times,
	who is here again today, who have brought national attention to
	this issue.  We must recognize that it is our job as Members of
	Congress to give these organizations and our law enforcement 
	officials the tools they need to fight this unbelievable crime.
	With yesterday�s revelations about a high ranking DHS official 
	being charged with online seduction, and yesterday�s announcement
	of 27 people being charged in an international child pornography
	ring, it is clear that we are just beginning to scratch the 
	surface of this industry, and we have a long, long way to go.
	Recently, the National Center for Missing and Exploited Children 
	reported that 39 percent of people who are caught with images of 
	child sexual abuse had images of children younger than 6 years 
	old.  We have a 6-year-old daughter.  Nineteen percent of people
	who have been caught with these images, one in five, were caught
	with images of children under three years old.  We also have a
	3-year-old daughter.  This evil is beyond our comprehension.
	As proven by these hearings, my colleagues and I have made a 
	commitment to do everything in our power to fight this problem, 
	and to punish offenders to the fullest extent of the law.  These
	people are not normal criminals.  Their offences go above and
	beyond typical crimes.  They steal the innocence of a child, and
	leave in their wake emotional and physical scars that will affect
	these young victims for their entire lives.  After hearing 
	Justin�s heart-wrenching testimony on Tuesday, it became 
	apparent that it is a problem within our justice system that 
	allows this industry to continue and remain profitable.  Justin
	told us that these predators laugh at law enforcement, but an
	estimated $20 billion industry that makes it profits by 
	violating children is absolutely nothing to laugh at.
	I am anxious to hear the testimony of our witnesses, and to have
	an opportunity to question them regarding what needs to be done 
	by lawmakers and parents and teachers and law enforcement
	officers, to put an end to this industry, and to find out how we
	have fallen so sadly short of our goals so far.
	Thank you again, Mr. Chairman, and thank you, Mr. Stupak, for 
	your commitment, and I look forward to hearing from the witnesses.
	Mr. Whitfield.  Thank you, Mr. Ferguson.  At this time, I will 
	recognize the gentlelady from Colorado, Ms. DeGette, for her
	opening statement.
	Ms. DeGette.  Thank you very much, Mr. Chairman.
	Mr. Chairman, this is a little unusual for this committee, because
	having jurisdiction over telecommunications and the Internet, we 
	are usually always jumping at the chance to talk about the wonders 
	of the Web.  And the Internet has been one of the most incredible 
	creations of the last century.  At the beginning of the new 
	millennium, we look forward to a future of untold promise and new 
	innovation that we can�t even imagine today, and I think what we
	are seeing this week, sadly, is sometimes this innovation can 
	move in ways that are horrific to us.
	The Internet has changed the way we do business, conduct 
	research, play, and communicate with each other, and it has made 
	many day-to-day activities like shopping so much easier.  Those 
	of us who have teenage children know that young people often are
	the ones who figure out the ways to use the Internet in new and 
	different, but that is the problem is the activities that have 
	been made easier by the Internet are being used now to commit 
	crimes against humanity in a much more facile way, and that is 
	the sexual exploitation of children.
	That is what we are faced with when we conduct these hearings 
	today.  Our technological pride and joy has been hijacked.  It 
	has enabled a plague of proportions that none of us here today 
	every imagined.  Cloaked in anonymity, and enabled by 
	technological innovation, this blight has been growing to extreme
	conditions under our very noses.  How do we preserve the things
	that we value about the Internet?  Can we find the right balance 
	between privacy and freedom, in eradicating this heinous 
	epidemic?  I don�t think we have the answers today, but that is
	what we are here to determine, and I would say we have a very 
	difficult job ahead of us.  We can�t stand idly by and let our 
	young people be devoured by this terrible use of technology.
	One thing that is clear to me, after hearing Justin�s testimony 
	and reading the newspaper articles and other materials, is that 
	these terrible predators are working a lot faster than we are, 
	and government, for a change, needs to thing about working faster
	than the people who are taking advantage of our kids.
	All of us agree that these hearings have been a horrific eye
	opener.  Mr. Ferguson talked about his young children, 3 and 6. 
	Well, I have two girls, who are age 12 and 16, and I don�t think 
	any of us realized how pervasive this child exploitation over 
	the Internet is.  I will tell you this, I certainly intend to 
	go home and talk to my two daughters about this problem, and 
	what they can do, when I go home tomorrow.
	We have learned that it is now an industry that now nets a 
	profit close to the gross product of some small countries, and
	so I, too, am glad, Mr. Chairman, that you and Mr. Stupak are 
	holding these hearings, because it is an issue that would be 
	easy for us to try to sweep under the rug.  But I think it is 
	too important for that, and so, I think every member of this 
	subcommittee needs to make a commitment right now to accomplish 
	three things as the result of these hearings:  first, to
	identify the problems with the Federal response to this crisis; 
	second, to figure out how we are going to address this scourge; 
	and third, to pledge that by the end of the 109th Congress, 
	which is about 15 weeks away, we will have made an impact on 
	this.
	What we should not do is have these hearings, make ourselves feel
	better, go home and talk to our kids ourselves, and then breathe 
	a sigh of relief that we fixed the problem, because that is not 
	going to fix the problem.  This scourge is just a mouse click away
	from directly impacting us, our families, and our communities, and
	so, I would say we have a moral imperative to take action.
	I share the disappointment that everyone else has, that the 
	witnesses that were requested from the FBI and the other agencies
	are not here today.  If there was ever an issue that the executive
	branch should work with the legislative branch on, it was this 
	issue.  This is an investigative hearing, and with all due 
	respect, we need facts, not generalized policy statements. 
	And so I just want to say, Mr. Chairman, as Americans, we should 
	be disgusted that our country is the number one consumer of child 
	pornography.  How did we get here, and how are we letting this 
	happen to our children?  We cannot let this issue go away.  We 
	can�t be a do nothing Congress, and if we can make an impact on 
	this issue, Mr. Chairman, I would suggest that everybody on both 
	sides of this committee can go home and hold our heads up very 
	proudly.
	So, I think let us commit together to get to work.  Thank you 
	very much.
	Mr. Whitfield.  Well, thank you, Ms. DeGette, and you raise some
	penetrating questions, and we hope to get those answers.  Ever 
	since Kurt Eichenwald wrote the first articles in the New York 
	Times about this issue, our committee has been focused on it, 
	and no one has been more focused on it than our full committee 
	Chairman of Energy and Commerce, Joe Barton of Texas, and at 
	this time, I would like to recognize Mr. Barton for his opening
	statement.
	Chairman Barton.  Thank you, Chairman Whitfield.
	I do have a formal opening statement, but I have to get 
	something off my chest.  We have been working on this 
	subcommittee, and Mr. Dingell and I, the full committee on this 
	issue for 6 months or so, maybe longer, and we keep trying to
	cooperate with the Justice Department and the FBI, and you 
	folks seem bound and determined to be as uncooperative as 
	possible.
	This is the opening statement time, so I am not going to ask 
	any questions, but I want you to know, Mr. Mercer, that I am 
	going to call the Attorney General one more time, and we had 
	better get the people we want to testify.  Not that you are not a
	credible witness, but I didn�t hear of all of Ms. DeGette�s 
	statement, but my guess is, having scanned your testimony, that 
	she has scanned it too, we don�t need to know specifics of case 
	investigations.  That shouldn�t be public.  But on behalf of the 
	people of the United States of America who we represent, as the 
	most closely elected officials to the people, we do deserve to
	get the witnesses that they are supposedly hands on, trying to 
	solve these problems, and we are not doing it.  You are not 
	giving them to us.  Your Department is not giving them to us, 
	and the FBI is not giving them to us.
	Now, I am told half the room are FBI agents, and when the second 
	panel comes, I am going to have some pretty straight questions
	for the FBI.  But we are going to get the facts one way or the 
	other.  This is just too important an issue to let bureaucratic,
	I am trying to think of the right word, turf wars impede it.  
	And when you have a Republican majority in the Congress and a
	Republican President, we ought to be able to work on a 
	bi-branch basis, if that is the right term, to get the facts 
	out, and that is not happening.
	So, Mr. Chairman, I am going to ask that my entire statement, 
	formal statement, be put into the record.  But this is probably
	the most important investigation.  We have got all the 
	investigations going on in all the other bodies and other 
	committees, but child pornography is the most pernicious thing 
	that is affecting our society at its very roots, and we need to 
	root it out, and we need to put an end to this Internet child 
	pornography system that is growing like a weed on our society,
	and one way or the other, we are going to get our executive 
	branch officials to cooperate with us and testify.  That is 
	just going to happen.
	So with that, Mr. Chairman, I am going to yield back.  But I
	want to thank you and Mr. Stupak for your perseverance on this 
	issue.
	[The prepared statement of Hon. Joe Barton follows:]

Prepared Statement of the Hon. Joe Barton, Chairman, Committee on 
Energy and Commerce

Thank you, Chairman Whitfield, for holding this second day of hearings
on sexual exploitation of children over the Internet.
Just two days ago, we heard testimony from witnesses who described the 
sickening world of Internet child pornography.  As repulsive as 
Tuesday�s testimony was regarding the magnitude of the child pornography
problem, I was just as troubled by the opinion shared by some of the 
witnesses that the fight against child pornography in the United States 
is, if not a losing battle, one that is not being won.
Only one conclusion could be drawn from the witnesses� testimony: the 
sexual exploitation and abuse of children over the Internet has reached 
a crisis point.  Today, we are here to learn about what is being done to
find, prosecute, and convict these child predators.
I look forward to learning whether the witnesses from the Federal Bureau
of Investigation, United States Immigration and Customs Enforcement, and
the United States Postal Inspection Service share this opinion and what 
they believe must be done to bring child predators to justice.  In
particular, I hope to hear more about the role of Internet Service 
Providers and credit card companies in these investigations, and whether 
more should be required of them with respect to retaining data and 
conducting due diligence of those who use their servers and financial
networks to distribute child pornography.
I also look forward to learning more about state efforts to prosecute 
those who commit crimes related to the sexual exploitation of children.
While the federal government is actively pursuing investigations of 
child predators, the vast majority of investigations and prosecutions of
these crimes are being conducted at the state and local level.  
Unfortunately, penalties for child sex crimes in some states are the 
equivalent of a slap on the wrist.  It is inconceivable to me that some
who possess, create, or distribute child pornography go home on 
probation.  Their victims don�t get off so easily.  They suffer for the 
rest of their lives.  
Finally, I believe this hearing should address some of the concerns 
raised by Justin Berry at Tuesday�s hearing.  Justin, Kurt Eichenwald, 
the New York Times reporter who investigated and reported Justin�s 
story, and Justin�s lawyer, Stephen Ryan, all testified that the Justice
Department has failed to adequately pursue investigations against the
men who molested Justin and the customers who sexually exploited him over
the Internet.  I have personally talked to Attorney General Alberto
Gonzales about these concerns, and he has assured me that his department 
is serious and is actively pursuing this investigation.  I don�t doubt
his word, but I do hope the testimony offered today by the Department of
Justice will provide further information about the status of the 
investigation.
In closing, I want to commend the law enforcement agents who are here 
today as well as their colleagues in the field.  I believe all my
colleagues join me today in saying that we are prepared to do everything 
possible to help you put an end to the child pornography industry and
bring child predators to justice.
I look forward to hearing from the witnesses and yield back the balance
of my time.

	Mr. Whitfield.  Well, thank you, Mr. Chairman, and we look
	forward to continue working with you as we attempt to get the 
	key witnesses before the committee.
	However, your opening statements in their entirety will be 
	placed in the record without objection.  And at this time, I 
	will recognize Dr. Burgess of Texas for--oh, I am sorry--
	recognize Mr. Inslee for his opening statement.
	Mr. Inslee.  I just want to follow on Chairman Barton�s 
	statement that this country really is enraged, and is demanding
	answers, and ultimately, we will obtain them, and we hope that 
	the message that is delivered is that we need to move forward 
	together quickly.  The country is not going to wait any longer.
	Thank you.
	Mr. Whitfield.  Thank you, Mr. Inslee.  At this time, we
	recognize Dr. Burgess of Texas.
	Mr. Burgess.  Thank you, Mr. Chairman.
	In the interests of time, too, I am going to submit a statement 
	for the record, because we do have a full day ahead of us, but I 
	just can�t help but observe that the one piece that I took away
	from Tuesday�s lengthy hearing was the comment that the 
	perpetrators were laughing at law enforcement, and law 
	enforcement is in this room today.  They are laughing at you on
	the Internet about this problem, and I want you to take that
	very, very seriously.
	I wanted to also take a moment of personal privilege, and once 
	again, recognize don�t tell anyone home in my district, but I 
	want to recognize the New York Times reporter for doing the 
	right thing, and I think if he had not stopped and picked up the
	person at the side of the road, they might not be with us today. 
	So Mr. Eichenwald, again, I want to congratulate you, and thank 
	you for doing the right thing when you were faced with a situation
	that you probably didn�t completely understand right at the 
	beginning.
	I, myself, have to wonder why it has gotten to this point.  I 
	mean, we are a society that puts warning labels on airplanes that
	says danger, you may die if this crashes.  Why don�t we put a 
	warning label on a webcam, not age appropriate for those under 
	18 years of age to use by themselves in their bedrooms for 
	longer than 12 hours at a time.  I wonder about America�s legal 
	system.
	We have heard testimony in this committee on multiple occasions 
	about the abuses of the class action system.  Where are the 
	lawsuits against the payment companies that allow this to 
	happen?  Why have they not stepped up to protect America�s 
	children, but mostly, I am embarrassed by the Federal agencies, 
	and by the fact that we haven�t taken definitive action in 
	Congress.  I know it is going to be difficult.  I want all of 
	us in the Federal government, those in Federal agencies and 
	those in Congress, to muster the institutional courage to do 
	the right thing. 
	With that, Mr. Chairman, I will yield back.
	Mr. Whitfield.  Thank you, Dr. Burgess.  And at this time, I
	will recognize the gentlelady from Tennessee, Mrs. Blackburn.
	Mrs. Blackburn.  Thank you, Mr. Chairman.  I thank you for the 
	work that you and the staff have done on this hearing, and the 
	series of hearings, and I thank you also, say thank you to our 
	witnesses for continuing to work with us, to be here and work 
	with us on the issue, as we seek to crack down on child
	pornography and sexual exploitation and abuse.
	This past Tuesday, the subcommittee did hear testimony from 
	Justin Berry on the pervasiveness of child predators on the
	Internet.  He described to us how the predators help to lure 
	teenagers, to setting up the websites, the webcam situation, 
	as Dr. Burgess just mentioned, and then, gradually lure them 
	into sexual acts for money.
	He also told this committee that the Department of Justice�s 
	CEOS has failed to act on information he provided to them at 
	the risk of his own life, to find over 1,500 child predators 
	and distributors of child pornography.  And I am looking forward
	to hearing from the Department of Justice on
	why this happened.  It is incomprehensible to me that there are
	people who are employed by the Federal government of this Nation 
	who will hide, arrogantly hide behind bureaucracy, stonewall
	behind bureaucracy, and allow this to happen.  That is 
	inexcusable.  It is absolutely inexcusable.
	The Federal budget should reflect our main priority, to defend 
	the citizens of our country.  To protect our children from those
	who would abuse them clearly falls into this area.
	I look forward to hearing from law enforcement on their efforts
	to shut down this industry, and send a message to these 
	despicable, despicable people that this country will not tolerate
	those who knowingly, who willingly, who seek to abuse our 
	children.
	Chairman Whitfield, I yield back my time.  I thank you for 
	looking into this delicate issue, and I hope to see some 
	positive results from the hearing.
	Thank you, sir.
	Mr. Whitfield.  And thank you, Mrs. Blackburn.  At this time, I 
	recognize the gentleman from Oregon, Mr. Walden, for his opening
	statement.
	Mr. Walden.  Thank you very much, Mr. Chairman.
	I have read through the testimony from our witnesses today, 
	last night, and I will tell you, after sitting through the 
	hearing last week, or earlier this week, I guess, and listening
	to what occurred there, I have got to tell you, my confidence is 
	pretty shaken in the Justice Department, and I hope we will hear 
	today that something is happening, more than what Mr. Berry 
	indicated, and his attorney.
	I want to know about the affidavit, why it was unsealed, why 
	wasn�t it resealed.  I think this case, to me, would send 
	certainly, a chill across the land, that if you are caught up 
	in one of these things, coming forward may not produce the 
	results that you think it may.  I mean, when Justin Berry sits 
	here and says he wouldn�t necessarily recommend that others
	bring their cases forward, something is broken, and I realize 
	you have got an open case, you may not be able to get into all 
	the details of the case.  My concern is looking at the system, 
	and to figure out if it is working, how is it working that we 
	don�t understand, and if it is not, how do we fix it?  And I hope
	we hear that today.
	Thank you, Mr. Chairman.
	Mr. Whitfield.  Thank you.  I think that concludes all the opening
	statements, so the first panel consists of one witness, and that
	is Mr. William Mercer, who is the Principal Associate Deputy 
	Attorney General, and also, U.S. Attorney for the District of
	Montana, of the U.S. Department of Justice, and we do welcome 
	you, Mr. Mercer, and I guess it is clear to everyone now, you 
	are not our first choice, but we know that you are a prominent 
	prosecutor, and we do look forward to your testimony.
	You are aware that the committee is holding an investigative 
	hearing, and when doing so, we have the practice of taking 
	testimony under oath.  Do you have any objection to testifying 
	under oath this morning?
	Mr. Mercer.  No, Mr. Chairman.
	Mr. Whitfield.  Under the rules of the House and rules of the 
	committee, you are entitled to legal counsel, but I am assuming 
	that you don�t need legal counsel.  Is that correct?
	Mr. Mercer.  That is correct.
	Mr. Whitfield.  Okay.  If you would, then, raise your right hand. 
	[Witness sworn.]
	Mr. Whitfield.  Thank you very much.  You are now under oath, 
	and you may proceed with 5 minutes for your opening statement.

STATEMENT OF WILLIAM M. MERCER, UNITED STATES ATTORNEY FOR THE DISTRICT
OF MONTANA, PRINCIPAL ASSOCIATE DEPUTY ATTORNEY GENERAL, UNITED STATES 
DEPARTMENT OF JUSTICE 


	Mr. Mercer.  Mr. Chairman, Ranking Member Stupak, and 
	distinguished members of the subcommittee, thank you for 
	inviting me to testify before you today about the Department of 
	Justice�s efforts to protect children from sexual exploitation 
	on the Internet.
	Unfortunately, the Internet can be used to facilitate the sexual
	exploitation of children.  Accordingly, the Department of 
	Justice is unequivocally committed to enforcing Federal laws in 
	these areas, and particularly, the possession, production, and 
	distribution of child pornography, and the use of the Internet 
	to coerce and entice minors to--
	Mr. Stupak.  Mr. Chairman, I am not sure his microphone is on.
	Mr. Mercer.  Oh, I am sorry.  I don�t have--now I do.
	Let me turn to child pornography.  Unfortunately, the very term 
	we commonly use to describe these awful images, child 
	pornography, does not adequately convey the horrors these images
	depict.  A more accurate term would be images of child sexual 
	abuse, because the production of these images involves the
	sexual abuse of a child.  These images are, thus, permanent 
	visual records of child sexual abuse.  In the past several 
	years, the children we have seen in these images have been 
	younger and younger, and very regrettably, the abuse depicted 
	has been increasingly more severe, and is often sadistic.
	As if the images themselves were not harmful enough, the sexual 
	abuse inherent in child pornography is increasingly exacerbated
	by pedophiles who choose to disseminate these images to 
	millions of people over the Internet with a few clicks of a 
	computer mouse.  Once on the Internet, the images are passed 
	endlessly from offender to offender, and perhaps used to whet 
	the appetite of another pedophile to act out the deviant 
	fantasies of the image on yet another child, thereby continuing 
	the cycle of abuse.
	The Department of Justice is absolutely committed to obliterating
	this intolerable evil.  We are equally concerned about the number 
	of online predators who lurk in chat rooms in search of kids who
	they hope to meet in person, for the purpose of engaging in
	sexual activity.
	I would like to focus on what the Department of Justice has done
	to address this problem in the last 5 years.  Prosecutors in 
	the Criminal Division�s Child Exploitation and Obscenity
	Section, in conjunction with Assistant U.S. Attorneys and FBI 
	agents with our Federal partners in the Bureau of Immigration 
	and Customs Enforcement, the United States Postal Inspection 
	Service, and the Secret Service, and our partners in State and
	local law enforcement, work continuously to identify the 
	vulnerabilities of the child pornography industry, and to attack
	them at every angle, both domestically and overseas.
	We are focusing our efforts on everyone, from the consumer to 
	the website operator to the facilitators, including those who 
	provide credit card processing and the subscription services.  
	For agents and Assistant U.S. Attorneys assigned to these cases, 
	and for the prosecutors in the Child Exploitation and Obscenity 
	Section who do this work every day, we do not take lightly the 
	fact that their work revolves around review of the most 
	troubling and graphic material, depicting children of all ages
	engaged in illegal sexual acts.  They are engaged in this
	effort because they know, from their professional experience
	and a number of studies, that their efforts are essential to 
	the prevention of future sexual abuse of children.  The leaders
	in the Department of Justice are truly grateful for their 
	efforts.
	A concrete reflection of our intensified efforts is the fact 
	that the Child Exploitation and Obscenity Section within the 
	Department�s Criminal Division has generated a more than 445 
	percent increase in its caseload, including child pornography
	cases and investigations, over the past 4 years.  In addition 
	to increasing the sheer number of investigations and 
	prosecutions brought by the Department�s prosecutors, the
	quality and import of the cases have increased substantially,
	with a focus on the producers, commercial distributors, and
	other high impact offenders.  The Department�s prosecutors in
	the 94 United States Attorney�s offices are critical to the 
	efforts to enforce Federal laws prohibiting crimes against 
	children.  According to the Executive Office of the U.S. 
	Attorneys, total Federal prosecutions of child pornography and 
	abuse cases rose from 344 cases in fiscal year 1995 to 1,576 
	cases in fiscal year 2005, a 358 percent increase during that 
	time period.  The number of Federal investigations of crimes 
	against children continues to increase at an exponential rate.
	Since the late 1990s, through the Department of Justice�s Office
	of Juvenile Justice and Delinquency Prevention, Congress has 
	funded Internet Crimes Against Children Task Forces.  The ICACs 
	have played a critical role in law enforcement�s efforts to stop
	Internet criminal activity which poses harm to children.  In just
	the first 6 months of calendar year 2005, ICAC investigations 
	resulted in 3,423 State charges and 563 Federal charges.  Moreover,
	the Attorney General has made very clear his and the Department�s
	commitment to protecting children from sexual exploitation over 
	the Internet.  On March 15, he announced a new Department 
	initiative, Project Safe Childhood, aimed at combating the growing
	threat of children being exploited online through child pornography 
	and enticement offenses.
	As this initiative is implemented in the coming months, it will 
	provide for even better coordination by law enforcement at all 
	levels in investigating and prosecuting child exploitation cases. 
	It will enable us to bring even more Federal prosecutions in the 
	area.  It will make more training available for officers and 
	prosecutors, and will further ongoing community education and 
	awareness efforts.  Through this comprehensive initiative, the 
	Attorney General has made clear that this is an important 
	priority for the Department.  Project Safe Childhood is a true
	partnership.  It involves the key entities in this battle,
	Federal law enforcement agencies and prosecutors, the ICACs, our 
	other partners in State and local law enforcement, the National
	Center for Missing and Exploited Children, and other nonprofit 
	organizations dedicated to the protection of children.
	As part of our strategy to focus on the most pervasive and
	detrimental forms of child pornography distribution, CEOS is
	currently coordinating 16 multidistrict operations involving 
	child pornography offenders.  These investigations of national 
	impact have the potential for maximum deterrent effect on 
	offenders.  Nearly each one of the 16 investigations involve
	hundreds or thousands, and in a few cases, tens of thousands of
	offenders.  It is our hope and desire to use the Project Safe
	Childhood initiative to ensure that the number of leads created
	from these major investigations are coordinated, pursued, and 
	prosecuted in State or Federal courts.
	The Department of Justice is also working to identify and 
	rescue victims depicted in child pornography.  Seven of these 
	previously unknown adult subjects appearing in child pornography 
	images have been profiled by America�s Most Wanted and with the 
	assistance of tips from viewers, six have been identified.  More 
	importantly, 35 victims so far, in Indiana, Montana, Texas,
	Colorado, and Canada, have been identified as a result of this 
	initiative.  All of the victims had been sexually abused over a 
	period of years, some since infancy.  The Department will 
	continue to ensure that this program is utilized to its maximum 
	potential.
	Finally, at the end of successful prosecutions, it is essential
	that the purposes of punishment established by the Congress in
	the Sentencing Reform Act are met.  Sentences in child 
	pornography cases, and coercion and enticement of minors for
	sexual purposes cases, must deter others from committing these 
	crimes.  They must also protect the public, promote respect for 
	the law, and incapacitate.
	Early last year, the Supreme Court issued a decision in United 
	States v. Booker, which altered Federal sentencing law.  Before
	Booker, Federal judges were required to sentence pursuant to 
	the sentencing guidelines.  The guidelines are now merely 
	advisory.  Recently, I testified before the House Judiciary 
	Committee on this subject, and noted the importance of making
	the guidelines binding again.  In this area, child pornography 
	and coercion and enticement, the Sentencing Commission reports
	the year after the Booker decision, Federal courts imposed 
	sentences below the applicable guideline range in 26.3 percent
	of the cases involving possession of child pornography, and 
	in 19.1 percent of the cases involving trafficking in child 
	pornography.  We believe that these non-guideline sentences
	jeopardize the purposes of punishment established by the
	Congress.
	I appreciate the opportunity to be here today.  As you noted, 
	Mr. Chairman, I have worn the hat of a U.S. Attorney for 5 years.
	I have been the Chief Deputy to the Deputy Attorney General of 
	the United States now for about 10 months.  I have been very 
	involved in the development of the Project Safe Childhood 
	initiative, both during my time as Chairman of the Attorney 
	General�s Advisory Committee, and now, as the Principal
	Associate Deputy Attorney General, and I am confident that I 
	can be helpful to this committee, in terms of understanding 
	what the Department has done, the tremendous efforts made on
	behalf of CEOS, and by a number of line prosecutors and 
	agents, and certainly want to help the committee in its 
	essential oversight function.
	I thank you for the opportunity to be here.
	[The prepared statement of William W. Mercer follows:]

Prepared Statement of William W. Mercer, United States Attorney for 
the District of Montana, Principal Associate Deputy Attorney General, 
United States Department of Justice

Mr. Chairman, Ranking Member Stupak, and distinguished Members of the
Subcommittee, thank you for inviting me to testify before you today 
about the Department of Justice�s efforts to protect children from 
sexual exploitation on the Internet.  While we recognize that the
Internet can deeply enrich our lives by greatly increasing our access 
to all types of information, we also know that it can be exploited
for criminal activity and can cause grave harm, including by 
facilitating the sexual exploitation of children.  Accordingly, the 
Department of Justice is unequivocally committed to enforcing federal 
laws in these areas.
The Attorney General himself has made very clear his and the 
Department�s commitment to protecting children from sexual exploitation
over the Internet.  On February 15th, he announced a new Department
initiative, "Project Safe Childhood," aimed at combating the growing 
threat of children being exploited online through child pornography 
and enticement offenses.  As this initiative begins to be implemented 
in the coming months, it will provide for even better coordination by 
law enforcement at all levels in investigating and prosecuting child 
exploitation cases; it will enable us to bring even more federal
prosecutions in this area; it will make more training available for 
officers and prosecutors; and it will further ongoing community education
and awareness efforts.  Through this comprehensive initiative, the 
Attorney General has made clear that this is a priority for the 
epartment.
Federal law, codified at Chapters 1 10 and 11 7 of Title 18, United 
States Code, prohibits all aspects of the child pornography trade, 
including its production, receipt, transportation, distribution, 
advertising, and possession, as well as the enticement of children to 
engage in unlawful sexual activity.  
Unfortunately, the very term we commonly use to describe these awful 
images - child pornography -does not adequately convey the horrors these
images depict.  A more accurate term would be "images of child sexual 
abuse," because the production of these images involves the sexual abuse
of a child.  These images are thus permanent visual records of child 
sexual abuse.  In the past several years, the children we have seen in 
these images have been younger and younger, and, very regrettably, the 
abuse depicted has been increasingly more severe and is often sadistic.
As if the images themselves were not harmful enough, the sexual abuse 
inherent in child pornography is increasingly exacerbated by pedophiles 
who choose to disseminate these images to millions of people over the 
Internet with a few clicks of a computer mouse.  Once on the Internet, 
the images are passed endlessly from offender to offender and perhaps 
used to whet the appetite of another pedophile to act out the deviant 
fantasies of the image on yet another child, thereby continuing the 
cycle of abuse.  The Department of Justice is absolutely committed to 
obliterating this intolerable evil.
The Department of Justice works continuously to identify the
vulnerabilities of the child pornography industry and to attack them 
at every angle, both domestically and overseas.  We are focusing our 
efforts on everyone, from the customer, to the website operator, to
the facilitators - including those who provide credit card processing
and subscription services.  A concrete reflection of our intensified
efforts is the fact that the Child Exploitation and Obscenity Section 
(CEOS) within the Department�s Criminal Division has generated a 
more than 445% increase in its caseload, including child pornography 
cases and investigations, handled in the past four years.  In 
addition to increasing the sheer number of investigations and 
prosecutions brought by the Department�s prosecutors, the quality
and import of the cases has increased substantially, with a focus
on the producers, commercial distributors, and other high-impact 
offenders.
The Department�s prosecutors in the 94 U.S. Attorney�s Offices are 
critical to the efforts to enforce federal laws prohibiting crimes
against children.  According to the Executive Office for United 
States Attorneys, total federal prosecutions of child pornography 
and abuse cases rose from 344 cases in FY 1995 to 1,576 cases in 
I?Y 2005, a 358% increase. The number of federal investigations of 
crimes against children continues to increase at an exponential rate.  
Because child pornographers continue to find ways to employ the 
everevolving technology of the Internet and computers to commit their
deviant crimes, we in law enforcement must respond to these 
technological advances in order effectively to combat these crimes. 
In order to ensure our ability to do so, the Criminal Division 
created the High Tech Investigative Unit (HTIU) within CEOS in August 
2002.  The HTIU consists of computer forensic specialists who team
with expert prosecutors to ensure the Department of Justice�s capacity
and capability to prosecute the most complex and advanced offenses 
against children committed online.  HTIU computer forensic specialists 
render expert forensic assistance and testimony in districts across
the country in the most complex child pornography prosecutions 
conducted by the Department. Additionally, the HTIU regularly receives 
and reviews tips from citizens and non-governmental organizations, 
such as the National Center for Missing and Exploited Children, and
initiates investigations from these tips.
It is important to know that the Department�s specialized expertise in 
this area housed at CEOS and its HTIU is disseminated nationwide, 
greatly enhancing federal law enforcement�s fight against child
pornography.  CEOS conducts advanced training seminars on the 
investigation and prosecution of child exploitation cases attended by 
Assistant United States Attorneys and federal law enforcement agents 
from all over the country.  CEOS also provides critical expert
assistance to the field in a variety of other ways.  CEOS attorneys 
are on call to answer questions from prosecutors in the field about 
how best to investigate or prosecute their cases. CEOS also keeps 
field agents and prosecutors abreast of current legal and technological
developments through such mechanisms as its quarterly newsletter. 
Most importantly, CEOS� expert resources are widely employed by the 
United States Attorncys� Offices to resolve the most difficult issues 
presented in child exploitation cases and to ensure a successful 
prosecution.
Child pornography is distributed over the Internet in a variety of ways,
including: online groups or communities, file servers, Internet Relay 
Chat, e-mail, peer-to-peer networks, and commercial websites.  The
Department of Justice investigates and prosecutes offenses involving
each of these technologies.  Sophisticated investigative techniques,
often involving undercover operations, are required to hold these 
offenders accountable for their crimes.  For example, an investigation 
of a commercial child pornography website requires us not only to
determine where the servers hosting the website are located and who 
are the persons responsible for operating the website, but also to 
follow the path of the financial transactions offenders use to 
purchase the child pornography, whether by credit card or other means. 
Such cases require detailed information about all aspects of the 
transaction in order to determine the identity and location of the 
offenders.  Additionally, many of these cases require coordination 
with law enforcement from other countries.  It is essential that these
complex cases be handled by law enforcement agents and prosecutors
with the necessary specialized expertise.
To defeat the misuse of these various technologies, however, the 
Department must demonstrate equal innovation to that being shown by 
the online offenders.  For example, CEOS� HTIU has developed a file 
server investigative protocol and software programs designed to 
identify quickly and locate individuals distributing pornography using
automated file-server technology and Internet Relay Chat.  Because 
file servers, or "f-serves,"
provide a highly effective means to obtain and distribute enormous 
amounts of child pornography files, 24 hours a day and 365 days a 
year, with complete automation and no human interaction, this 
trafficking mechanism is a premier tool for the most egregious child
pornography offenders.  The protocol recommends standards for 
identifying targets, gathering forensic evidence, drafting search 
warrants, and making charging decisions.  It is designed for both
agents and prosecutors to ensure that all aspects of these relatively
complex investigations are understood by all members of the law 
enforcement team.  The software program written by the HTIU automates 
the process of stripping from the computers used as file-servers all
of the information necessary to make prosecutions against all of the
individuals sharing child pornography with the file-server computer.
In addition, law enforcement has launched several national enforcement
initiatives against the use of peer-to-peer networks to commit child 
pornography offenses.  These initiatives encompass operations by the
FBI, the Department of Homeland Security, Immigration and Customs 
Enforcement (ICE), and state and local Internet Crimes Against Children
Task Forces, which are funded through the Department�s Office of 
Justice Programs.  To give you a sense of the scope and impact of federal
law enforcement�s operations, FBI�s "Operation Peer Pressure," as of 
January 2006, has resulted in over 300 searches, 69 indictments, 63 
arrests; and over 40 convictions.
In addition, in recognition of the growing threat to children posed by 
the Internet, as part of the fiscal year 1998 Justice Appropriations Act
(Pub. L. No. 105-1 19), the Department�s Office of Juvenile Justice and 
Delinquency Prevention (OJJDP) created a national network of state and 
local law enforcement cyber units to investigate cases of Internet
crimes against children.  The result is the Internet Crimes Against 
Children (ICAC) Task Forces.  The ICAC Task Force program helps state 
and local law enforcement agencies develop an effective response to 
cyber enticement and child pornography cases.  The help consists of 
forensic and investigative components, training and technical assistance,
victim services, and community education. Forty-six task forces have
been established throughout the nation.  The ICAC program was developed
to address the increasing number of children and teenagers using the 
Internet, the proliferation of child pornography, and heightened online 
activity by predators searching for unsupervised contact with underage 
victims.
ICACs have played a critical role in law enforcement�s efforts to stop 
Internet criminal activity which poses harm to children. In FY 2003, 
ICACs received 3,741 reports of Internet crimes against children, 
including but not limited to traveler. enticement and child pornography
complaints.  In FY 2004, that number rose to 24,138. I n FY 2005, ICACs
received 198,883 complaints of Internet crimes against children. The 
largest number of complaints (1 54,545) were reports of child pornography 
distribution, and the second largest number (34,062) were complaints of 
child pornography manufacturing.  The dramatic increase from FY 2004 to 
FY 2005 in the number of child pornography manufacturing and 
distribution complaints is linked to ICAC undercover operations in 
Internet based file sharing applications (i.e., peer-to-peer networks). 
ICAC Task Forces efforts are resulting in the prosecution of many cases.
For example, in the first six months of calendar year 2005, ICAC 
investigations resulted in 3,423 state charges and 563 federal charges.
Also, as part of our strategy to focus on the most pervasive and 
detrimental forms of child pornography distribution, CEOS is currently 
coordinating 16 multidistrict operations involving child pornography
offenders.  These investigations of national impact have the potential 
for maximum deterrent effect on offenders.  Nearly each one of the 
sixteen investigations involves hundreds or thousands, and in a few 
cases tens of thousands, of offenders.  The coordination of these 
operations is complex, but the results can be tremendous.  By way of
example, the FBI is currently investigating the distribution of child 
pornography on various Yahoo! Groups, which are "member-only" online 
bulletin boards.  As of January 2006, the FBI indicated that the 
investigation has yielded over 180 search warrants, 89 arrests, 162 
indictments, and over 100 convictions.
The Department of Justice is also working to identify and rescue victims 
depicted in images of child pornography. One method for achieving this 
goal is already underway.  The FBI Endangered Child Alert Program (ECAP) 
was launched on February 21, 2004, by the FBI�s Innocent Images Unit, 
and is conducted in partnership with CEOS.  The purpose of ECAP is 
proactively to identify unknown offenders depicted in images of child 
pornography engaging in the sexual exploitation of children.  Since 
ECAP�s inception, seven of these "John Doe" subjects have been profiled
by America�s Most Wanted, and with the assistance of tips from viewers,
six have been identified. More importantly, 35 victims (so far) in 
Indiana, Montana, Texas, Colorado, and Canada have been identified as
a result of this initiative.  All of the victims had been sexually
abused over a period of years, some since infancy.  The Department
will continue to ensure that this program is utilized to its maximum
potential.
The Department recently has had significant success in destroying 
several major child pornography operations.  Three examples are an
operation announced by Attorney General Gonzales on March 15, 2006,
in which 27 individuals in four countries have been charged with 
child pornography offenses, the case of United States v. Mariscal 
(S.D. Fla.), and the Regpay case, which was followed by Operation
Falcon (D.N.J.).
In the recent operation announced by the Attorney General, a private
Internet chat room was used by offenders worldwide to facilitate the
trading of thousands of images of child pornography - including 
streaming videos of live molestations.  The chat room was known as 
"Kiddypics & Kiddyvids," and was hosted on the Internet through the 
WinMX software program that also allowed users to engage in peer-to-peer 
file sharing.  The chat room was infiltrated in an undercover 
investigation, resulting in charges against 27 individuals to date in
the United States, Canada, Australia, and Great Britain (13 of these 
27 have been charged in the United States).  One of the 27 charged 
defendants is a fugitive.  Seven child victims of sexual molestation 
have been identified as a result of the investigation, and four 
lleged molesters are among the 27 defendants charged to date in the 
continuing investigation.  This investigation underscores the 
tremendous scope of many child pornography offenses and the necessity 
of an international law enforcement response.  Demonstrating our 
ability to work together effectively to fight these crimes, the 
Department of Justice, the U.S. Immigration and Customs Enforcement, 
state and local authorities, Internet Crimes Against Children Task 
Forces, and international law enforcement agencies have cooperated
successfully in this investigation.
In the Mariscal case, Angel Mariscal received a 100-year prison 
sentence on September 30. 2004 in the Southern District of Florida,
after he was convicted on seven charges including conspiracy to 
produce, importation, distribution, advertising, and possession with 
intent to sell child pornography.  Mariscal traveled repeatedly over 
a seven-year period to Cuba and Ecuador, where he produced and 
manufactured child pornography, including videotapes of Mariscal 
sexually abusing minors, some under the age of 12.  As a result of 
Mariscal�s arrest, his customers across the country were targeted in
Operation Lost Innocence, which was coordinated by the U.S. Postal 
Inspection Service and CEOS.  To date, Operation Lost Innocence has
resulted in 107 searches, 55 arrests/indictments, and 44 convictions.
The Regpay (D.N.J.) case, which led to Operation Falcon, is an example
of how one child pornography investigation into the activities of 
individuals involved in a commercial website operation can lead to the 
apprehension of thousands of other offenders.  Regpay was a Belarus-
based company that provided credit card processing services to hundreds 
of commercial child pornography websites.  Regpay contracted with a 
Florida company, Connections USA, to access a merchant bank in the 
United States.  In February 2005, several Regpay defendants pled guilty
to various conspiracy, child pornography, and money laundering offenses
in the District of New Jersey.  Connections USA and several of its 
employees also pled guilty in connection with this case.   The Regpay 
investigation spawned the U.S. Immigration and Customs Enforcement�s 
"Operation Falcon," an international child pornography trafficking 
investigation that, as of February 2006, has resulted in 372 open 
investigations, 579 search warrants, 341 domestic and approximately
703 foreign arrests, and 254 indictments, generating 241 convictions.
In addition to these efforts to protect children from online sexual
exploitation, the Department is also involved in two key efforts to
protect children from commercial sexual exploitation.  The first of
these is the "Innocence Lost Initiative," which combats domestic 
child prostitution.  The Innocence Lost Initiative is conducted by 
CEOS in partnership with the Violent Crimes and Major Offenders
Section of FBI Headquarters and the National Center for Missing and
Exploited Children, and has so far resulted in at least 139 open 
investigations, 505 arrests, 60 complaints, 70 indictments, and 67
convictions.  The second is our initiative to protect children from
child sex tourism. Since the passage of the PROTECT Act in April 
2003, which facilitated the prosecution of these cases, there have
been approximately 50 sex tourism indictments or complaints and at
least 29 convictions.  While investigations of these types of cases 
are harder to track, we believe the number of active sex tourism 
investigations is roughly 60.

Conclusion
In these brief comments, I hope to have given you a sense of the 
Department of Justice�s efforts to protect children from sexual 
exploitation on the Internet.  We consider this a critically important
task and will continue to do our utmost to protect children as well 
as society at large by enforcing these statutes.
Mr. Chairman. I again thank you and the Subcommittee for the 
opportunity to speak to you today, and I would be pleased to answer
any questions the Subcommittee might have.

	Mr. Whitfield.  Well, thank you for your testimony.
	Mr. Mercer, I want to get a better understanding of the 
	layers of organizational supervision over the CEOS section in
	decision-making at the Department, and it is my understanding
	that Drew Oosterbaan is the head of the section.  Is that 
	correct?
	Mr. Mercer.  He is the head of CEOS, yes.
	Mr. Whitfield.  Okay.  And that section is part of the Criminal
	Division.  Is that correct?
	Mr. Mercer.  That is correct.
	Mr. Whitfield.  And Mr. Oosterbaan reports to the Deputy 
	Assistant Attorney General for the Criminal Division.
	Mr. Mercer.  That is also correct.
	Mr. Whitfield.  And her name is Laura Parksy.
	Mr. Mercer.  That is correct.
	Mr. Whitfield.  And Mrs. Parsky reports to the Assistant 
	Attorney General for the Criminal Division, who is Alice 
	Fisher, is that correct?
	Mr. Mercer.  That is correct.
	Mr. Whitfield.  And Alice Fisher reports to Paul McNulty, the 
	Deputy Attorney General.
	Mr. Mercer.  That is correct, and that is who I work for.
	Mr. Whitfield.  And you work for McNulty.
	Mr. Mercer.  Correct.
	Mr. Whitfield.  And McNulty reports to the Attorney General, 
	Mr. Gonzalez.
	Mr. Mercer.  That is correct.
	Mr. Whitfield.  Okay.  And that is the line of review for any 
	decisions made by the Chief of the CEOS section?
	Mr. Mercer.  That is an accurate description of the hierarchy 
	that the Department of Justice has for that section.  That is
	correct.
	Mr. Whitfield.  Now, could you explain what your role is as 
	Principal Associate Deputy Attorney General, as it relates to
	the decision-making at CEOS, the Child Exploitation and 
	Obscenity Section?
	Mr. Mercer.  Yeah, and in fact, if I can give a little additional
	context, obviously, the Deputy Attorney General has general, as 
	sort of a chief operating official for the Department of Justice.
	The Federal Bureau of Investigation is part of the Department of
	Justice.  Many other components are part of the Department of 
	Justice.  There are occasions where the Office of the Deputy 
	Attorney General is asked to referee various conflicts, and in 
	this area, our office would get involved, to the extent that 
	there were different issues that needed to be resolved, where 
	say, an Assistant U.S. Attorney, or a U.S. Attorney challenged 
	the way a case was being worked, to the extent that there was a 
	conflict with another section of the Department.
	So, it is important, I think, for the committee to understand that
	CEOS plays a crucial role in coordinating cases, in leading these 
	multi-jurisdictional investigations, providing advice, training, 
	and counsel, but you also have within the United States, 93 U.S. 
	Attorneys and 94 districts, and you have a number of Assistant 
	U.S. Attorneys around the country that are also responsible for 
	prosecuting these cases.  As is reflected in my statement, that 
	is how we have been able to charge such a large number of cases.
	We have charged 1,500 cases involving child pornography and 
	coercion and enticement just in fiscal year 2005.
	Mr. Whitfield.  Okay.
	Mr. Mercer.  So, that is the role that we play, and I mentioned 
	this Project Safe Childhood initiative.  The Deputy Attorney 
	General has worked very closely with the Attorney General in
	shaping that initiative, which we believe is going to lead to
	even greater production in this area the committee is so 
	interested in.
	Mr. Whitfield.  Well, today, one of the focuses of this hearing
	relates to information that came out of Justin Berry�s testimony, 
	and that, particularly, relates to CEOS and their decisions,
	because he provided them with a lot of information regarding 
	1,500 people that were using his website, credit card numbers, 
	whatever whatever.  And so, I would like to ask you, do you have 
	any decision-making authority over CEOS yourself?
	Mr. Mercer.  No.  CEOS reports to the Assistant Attorney General 
	for the Criminal Division, but I think, given my role as a U.S. 
	Attorney, what I have seen in the country, what I have seen in 
	my work in the Deputy Attorney General�s Office, I can be helpful
	to the committee, not in terms of talking about this specific
	investigation, which the Department wouldn�t do.
	Mr. Whitfield.  Yeah.
	Mr. Mercer.  If the committee had said we want to ask about why a 
	person was charged, why a case was declined, why an investigation
	was pursued this way, that isn�t something we are going to do 
	during the pendency of a case, but I think I can be helpful, in 
	terms of understanding how these cases are made, and it would be
	of value to the committee.
	Mr. Whitfield.  Well, I do hope that you will report back to them 
	that, since you don�t have any decision-making over CEOS at all, 
	and you do have a broad background in criminal justice and 
	prosecution, but we were specifically interested in the CEOS
	decision-making as it relates to this case, and I hope you would
	convey our disappointment about that.
	Now, did you have any involvement in Justin Berry�s immunity 
	agreement?
	Mr. Mercer.  No.
	Mr. Whitfield.  All right.
	Mr. Mercer.  But again, Mr. Chairman, it wouldn�t matter who the
	Department�s witness was.  The Department doesn�t participate in 
	ongoing discussions when we have a case that is pending.  That is 
	something that certainly would not advance the purpose--
	Chairman Barton.  Would the Chairman yield on that point?
	Mr. Whitfield.  Yes, sir.
	Chairman Barton.  What is the appropriate title that I should 
	call you, Mr. Deputy, or Mr. Attorney General, or Mr. Associate 
	Principal Deputy?  I mean, I am a little confused here.
	Mr. Mercer.  I wear two hats.  I am the U.S. Attorney in the 
	District of Montana, and I am also the Principal Associate Deputy
	Attorney General, so--
	Chairman Barton.  What do you want me to call you?
	Mr. Mercer.  Mr. Mercer is fine.
	Chairman Barton.  Okay, Mr. Mercer.  Have you ever actually led 
	an investigation or prosecuted a case?
	Mr. Mercer.  Oh, yeah.  I was an Assistant U.S. Attorney for 
	7 years before I became a U.S. Attorney.
	Chairman Barton.  All right.  When you were leading this 
	investigation or prosecuting this case, I assume that you wanted 
	to talk to the witnesses, if possible, if you knew who they were,
	to the crimes that were committed.  Is that true or not true?
	Mr. Mercer.  Well, actually, the role of investigating cases is 
	typically carried out by investigative agencies, so in the FBI--
	Chairman Barton.  Well, let us say the investigative agency that 
	you were working with, you said this is the investigation.  Here 
	is who you need to go see.  They went out and came back, said oh,
	those people don�t want to talk to us.  But their best friends,
	or their boyfriend or their girlfriend, who they talked to the 
	case about, will talk to us, how did you take that?
	Mr. Mercer.  I am not sure I understand the question.
	Chairman Barton.  Well, let me be clear.  We didn�t ask for you. 
	Okay?  We have asked for Laura Parsky, who is in the direct line
	of chain of command.  We didn�t get her.  We have asked her for 
	Alice Fisher.  We didn�t get her.  We have asked for Drew 
	Oosterbaan.  We didn�t get him.  We got you.  Now, you are a 
	fine gentleman, but you are not even in the line of command.  
	You are staff.  You have no control over this.  You probably 
	had to be briefed to come testify.  Now, let me be straight.  I
	am calling the Attorney General, my friend from Texas, who I 
	know personally.  We are going to get the people we want, one 
	way or the other.  Do you understand that?  Not that I am not 
	impressed with your background, but when you are conducting your
	investigations, you don�t talk to secondary people.  You talk to
	the people you want to talk to.  When the FBI is conducting an 
	investigation, they talk to the people they want to talk to.  
	They don�t talk to, well, we can�t talk to you, but go see the 
	neighbor down the street.  Mr. Whitfield is much more polite than
	I am, but I am fed up with this.  I had to call the Attorney 
	General to get you here, and it is not that we are not impressed
	with you, don�t misunderstand me, but you are not the people that 
	are doing this.  We want to work with you, but in order to do 
	that, we have got to get the people that are actually doing the 
	work.  We could have picked somebody at random in the audience, 
	and gave them a 30-minute brief, and they could have testified 
	to what you testified to.
	Mr. Mercer.  Well, Mr. Chairman, I am confident that I can be 
	helpful to the committee.
	Chairman Barton.  Well, you had better start.
	Mr. Mercer.  Not only because I have done this work as an 
	Assistant U.S. Attorney, and then a U.S. Attorney, and then as 
	Chair of the Attorney General�s Advisory Committee.
	Chairman Barton.  Your credentials are not at risk.  We are not 
	questioning your credentials as an admirable citizen, but we are
	questioning the judgment of the Justice Department of the United 
	States of America, who seems to think they can thumb its nose at 
	the Congress of the United States.
	Mr. Mercer.  Well, we--
	Chairman Barton.  And that will not happen.  I am going to tell 
	the Attorney General straight, but you go back and tell him for 
	me, or report to the Deputy Attorney General, who will report to 
	the Attorney General, that we are going to hold another hearing, 
	and these people are going to be here.  Now, if you want to sit 
	out in the audience, that is fine.  If you want to stand up 
	beside him and hold their hand, that is fine.  They are going to
	be here, and hopefully, the cameras will be here, and the 
	committee will be here, and we will finally get this 
	investigation going.
	I yield back to you, Mr. Chairman.
	Mr. Whitfield.  Well, thank you, Mr. Chairman, and I think
	Mr. Mercer gets a clear understanding of how we feel about this
	issue, and there is a lot of cynicism about the Congress in a lot
	of different areas, but in this area of child pornography, when we
	do request certain people from the Justice Department, who are 
	involved in the investigations, they can talk to us specifically 
	about issues, and then they just thumb their nose and do not 
	attend the hearing, it does upset all of us, and it particularly 
	upsets us that in the Justin Berry case, when 1,500 names were
	given to the Justice Department, to the CEOS section, and 
	individual names and pictures of young children being molested, 
	in danger, given to the Department, and still no action has been 
	taken, it is something that we find particularly upsetting
	And let us see, my time has expired as well now, so I will 
	recognize the gentleman from Michigan, Mr. Stupak.
	Mr. Stupak.  Mr. Chairman, in light of not having the witnesses
	we need, why don�t we just adjourn this hearing until we get 
	the witnesses we need?  We have subpoena power on this 
	committee.  I urge that we use our subpoena power.  And we have 
	next panel, one, two, three, four, five, six, seven people, 
	that I don�t think are going to able to provide us any i
	nformation.  I mentioned two other people in my opening statement
	I would like to see here.  They are not here.
	You went through a list of people you requested.  They are not
	here.  I think on this side, on both sides of the aisle here,
	we are frustrated with not having the people who can answer 
	questions.
	Chairman Barton.  Will the gentleman yield?
	Mr. Stupak.  Yes, sir.
	Chairman Barton.  We may want to release Mr. Mercer, but some of
	the other witnesses that are here on the second panel, from the 
	Postal Service and the Immigration Service have been working
	with the committee, and I think we need to give them a chance 
	to testify.  I am not at all opposed, if it is the will of the 
	committee, to--
	Mr. Stupak.  Then I would move we let Mr. Mercer go until we get
	the people from Justice we need, and then, let us bring the 
	other witnesses up and do their opening statements.  We will 
	have votes here in a few minutes, and let them do their openings,
	and let us go move on, because we don�t want to waste everyone�s
	time with a witness that can�t answer questions.
	Mr. Whitfield.  Is there any objection to releasing Mr. Mercer? 
	Well, then, Mr. Mercer, you are released, and thank you for 
	being here today.
	At this time, I will call the second panel:  Mr. William Kezer,
	who is the Deputy Chief Inspector for the U.S. Postal Inspection
	Service; Mr. Raymond C. Smith, Assistant Inspector in Charge for 
	Child Pornography and Adult Obscenity, the U.S. Postal Inspection
	Service; Mr. John Clark, Deputy Assistant Secretary for U.S. 
	Immigration and Customs Enforcement, U.S. Department of Homeland
	Security; Mr. James Plitt, Director, Cyber Crimes Center, Office 
	of Investigations, U.S. Immigration and Customs Enforcement, at 
	the Department of Homeland Security; Mr. Frank Kardasz, Sergeant,
	Phoenix Police Department, Project Director for the Arizona 
	Internet Crimes Against Children Task Force; Mr. Flint Waters,
	Lead Special Agent of the Wyoming Division of Criminal 
	Investigation, Internet Crimes Against Children Task Force; and 
	Mr. Chris Swecker, who is the Acting Assistant Executive Director 
	for the FBI, U.S. Department of Justice.
	I want to thank all of you gentlemen for being with us here today,
	and as you know, this is an Oversight and Investigations hearing,
	and it is our practice to take testimony under oath.  Do any of 
	you object to testifying under oath, and do any of you have a 
	need for an attorney today?
	Then, if you would please stand, and I would like to swear you 
	in.  Raise your right hand.  
	[Witnesses sworn.]
	Mr. Whitfield.  Thank you very much.  All of you are now under
	oath, and Mr. Swecker, you are recognized for 5 minutes for your
	opening statement.

STATEMENTS OF CHRIS SWECKER, ACTING ASSISTANT EXECUTIVE DIRECTOR, FEDERAL
BUREAU OF INVESTIGATION, UNITED STATES DEPARTMENT OF JUSTICE; JAMES PLITT,
DIRECTOR, CYBER CRIMES CENTER, OFFICE OF INVESTIGATIONS, UNITED STATES 
IMMIGRATION AND CUSTOMS ENFORCEMENT, UNITED STATES DEPARTMENT OF HOMELAND
SECURITY; DR. FRANK KARDASZ, SERGEANT, PHOENIX POLICE DEPARTMENT, PROJECT
DIRECTOR, ARIZONA INTERNET CRIMES AGAINST CHILDREN TASK FORCE, UNITED 
STATES DEPARTMENT OF JUSTICE; FLINT WATERS, LEAD SPECIAL AGENT, WYOMING 
DIVISION OF CRIMINAL INVESTIGATION, INTERNET CRIMES AGAINST CHILDREN 
TASK FORCE TECHNOLOGY CENTER, UNITED STATES DEPARTMENT OF JUSTICE; 
JOHN P. CLARK, DEPUTY ASSISTANT SECRETARY, UNITED STATES IMMIGRATION AND
CUSTOMS ENFORCEMENT, UNITED STATES DEPARTMENT OF HOMELAND SECURITY; 
WILLIAM E. KEZER, DEPUTY CHIEF INSPECTOR, UNITED STATES POSTAL INSPECTION
SERVICE; AND RAYMOND C. SMITH, ASSISTANT INSPECTOR IN CHARGE, CHILD
PORNOGRAPHY AND ADULT OBSCENITY, UNITED STATES POSTAL INSPECTION SERVICE

	Mr. Swecker.  Good morning, Mr. Chairman, and I do appreciate the 
	opportunity to come here today to talk to the committee.
	Let me talk a little bit about our Innocent Images Initiative,
	and define the scope of the problem, as you already know.  As 
	the National Center for Missing and Exploited Children has 
	reported, one in five children will be solicited while online. 
	Unfortunately, only 10 percent of these children will ever report 
	it.  In its 8 years of operation, the Cyber TipLine has generated
	over 385,000 leads, and reports of online enticement have 
	increased by 400 percent.
	The FBI�s Innocent Images Initiative, formed in 1993, is comprised
	of 36 undercover operations nationwide.  These operations involve 
	FBI agents working online in an undercover capacity to seek child
	predators and individuals responsible for the production,
	dissemination, and possession of child abuse images.  This is 
	accomplished by using a variety of techniques, including 
	purchasing child abuse images from commercial websites, creating 
	online personas to chat in predicated chat rooms, and co-opting 
	predators� email accounts.  Our primary focus is addressing child
	pornography or documented child abuse websites, where predators
	are featured abusing children and profit from these terrible 
	crimes.  These investigations always span multiple jurisdictions,
	and usually expand beyond the borders of the United States.  The 
	FBI has taken a global approach in addressing this problem, by 
	closely partnering with several countries, who work side by side 
	with FBI agents in a task force setting.  As I sit here today, 
	officers from Norway, Thailand, the Philippines, and Belarus are
	working with our agents just a few miles from where we are here.
	Additionally, task force membership includes officers from 11 
	other countries and Europol.
	Other priorities include persons or groups who engage in 
	production of child abuse images, as the production of this 
	material signifies the violent rape or sexual abuse of a child.
	We also investigate sexual predators who travel from one 
	jurisdiction to another to engage in sex with minors.  These 
	persons are particularly dangerous, as they have gone beyond 
	merely looking at images, and have now engaged in activity to 
	make contact with a child.  However, these predators often find 
	a cadre of agents and task force officers on the other end.  
	Persons with large collections of child abuse images also 
	represent a danger, as we find a large percentage of those we
	arrest for possession are also committing contact offenses with
	minors.
	Over the past 10 years, the Innocent Images program has grown 
	exponentially.  Between fiscal years 1995 and 2005, there has 
	been a 2050 percent increase in cases opened, from 113 to 2,500.
	During this 10-year period, the program has recorded over 15,556
	cases opened, over 4,700 criminals charged, over 6,100 subjects 
	arrested, over 4,800 convictions obtained.  These cases, which 
	led to these statistics, were multi-jurisdictional with no 
	geographical boundaries, and both national and international in
	scope.
	We have come a long way from the early electronic bulletin 
	boards that predated the Internet.  Today, an estimated 
	21 million teenagers use the Internet, with 50 percent online 
	daily.  As these children use the computer more and more, online 
	predators take advantage of emerging technologies to facilitate 
	their unimaginable criminal activities.
	Today, this program is an intelligence-driven, proactive, 
	multi-agency initiative that pursues offenders who utilize 
	websites, chat rooms, peer-to-peer networks, instant messaging 
	programs, eGroups, newsgroups, fileservers, and other online 
	services.  To address all of our priorities, this program readily 
	draws on the resources of State, local, and Federal, and now
	international law enforcement partners.
	While conducting these investigations, agents have found 
	documented child abuse to be readily available using the most 
	basic of search terms.  As an example, child abuse images were 
	easily available when innocuous search terms, such as "Britney 
	Spears" or the word "young" were used.
	Through the use of covert techniques and administrative subpoenas, 
	agents can determine which individual users possess and distribute
	these images over the Internet.  Using search warrants, interviews,
	and computer forensic tools, our agents can strengthen their cases
	to eventually arrest and prosecute the criminals.
	As you may have noticed, I have not used the word "child
	pornography," because it does not adequately describe the type of
	crime that we are talking about today.  To some people, pornography 
	may imply adult models posing for the camera.  "Child pornography"
	does not describe the reality of the crime problem we are facing
	today.  This crime deals with the violent rape and sexual 
	exploitation of young children, some as young as a few months old. 
	Therefore, each image represents evidence of the criminal reality
	of a violent rape or sexual abuse.
	The FBI has partnered with the National Center for Missing and 
	Exploited Children in a significant and meaningful way. 
	Currently, there are two Special Agents and four FBI analysts 
	assigned full time at the Center, and in March of 2005, we merged
	our database, the Child Victim Identification Program, with that
	housed at the Center.  The merger has drastically increased the 
	number of known victims in the database, and has made the data 
	available to all other law enforcement agencies that investigate
	these violations.  Ultimately, this partnership benefits both the
	FBI and the Center, but more importantly, it benefits the public
	and the children we serve.
	I am not sure about time here, sir.  How much time do I have?
	Mr. Whitfield.  You are about 10 seconds over.
	Mr. Swecker.  Okay.  All right.  Well, I would just rest on the 
	rest of the data in my opening statement.
	Mr. Whitfield.  Okay.
	Mr. Swecker.  And I would just say that I am, first and foremost,
	I am a Special Agent.  I have come through the ranks.  I have 
	supervised investigations of this nature.  I hope I can help you 
	today.
	[The prepared statement of Chris Swecker follows:]

Prepared Statement of Chris Swecker, Acting Assistant Executive Director, 
Federal Bureau of Investigation, United States Department of Justice

Good Morning Chairman Whitfield, Ranking Member Stupak, and other members 
of the Subcommittee.  On behalf of the FBI, I would like to thank you for
this opportunity to address the FBI�s role in combating the sexual 
exploitation of children through the use of the Internet.	
As the National Center for Missing and Exploited Children (NCMEC) has 
reported, one in five children will be solicited while online. 
Unfortunately, only ten percent of these children will report it.  In 
its eight years of operation, the Cyber tipline has generated over 
385,000 leads and reports of online enticement have increased by four 
hundred percent.	
The FBI�s Innocent Images National Initiative is comprised of thirty 
six under-cover operations nationwide.  These operations involve FBI 
Agents working on-line in an undercover capacity to seek child 
predators and individuals responsible for the production, dissemination,
and possession of child abuse images.  This is accomplished by using a 
variety of techniques, including purchasing child abuse images from 
commercial web sites, creating on-line personas to chat in predicated 
chat rooms, and co-opting predators� e-mail accounts.   Our primary focus
is addressing commercial child abuse image websites where predators are 
featured abusing children and which profit from their terrible crimes.  
These investigations always span multiple jurisdictions and usually 
expand beyond the borders of the United States.  The FBI has taken a 
global approach in addressing this problem by closely partnering with
several countries who work side by side with FBI agents in a task-force
setting.  As I sit before the Subcommittee today, officers from Norway, 
Thailand, the Philippines, and Belarus are working with our agents just
a few miles from here.  Additionally, task force membership includes
officers from 11 other countries and Europol. 
 Other priorities include persons or groups who engage in the production
 of child abuse images, as the production of this material signifies the 
 violent rape or sexual abuse of a child.  
We also investigate sexual predators who travel from one jurisdiction to 
another to engage in sex with minors.  These persons are particularly 
dangerous as they have gone beyond merely looking at images and have now
engaged in activity to make contact with a child.  However, these 
predators often find a cadre of FBI agents and task force officers on the 
other end of their travel.  Persons with large collections of child abuse 
images also represent a danger as we find a large percentage of those we
arrest for possession, are also committing contact offenses with minors.  
 	Over the past 10 years, the Innocent Images program has grown
 	exponentially.  Between fiscal year 1996 and 2005, there has been
 	a 2050% increase in cases opened (113 to 2500).  During this
 	ten-year period, the program has recorded over 15,556 cases
 	opened; 4,784 criminals being charged; 6,145 subjects being 
 	arrested; and 4,822 convictions obtained.  The cases which led 
 	to these statistics were multi-jurisdictional with no 
 	geographical boundaries, and both national and international in 
 	scope.
We have come a long way from the early electronic bulletin boards that 
pre-dated the Internet.  Today an estimated 21 million teenagers use the 
Internet, with 51 percent online daily.  As children use computers more 
and more, online child predators take advantage of emerging technologies 
to facilitate their unimaginable criminal activities.
 	Today, this program is an intelligence-driven, proactive, 
 	multi-agency investigative effort, that pursues offenders who 
 	utilize websites, chat rooms, peer-to-peer networks, Instant 
 	Messaging programs, eGroups, NewsGroups, File Servers, and other 
 	online services to sexually exploit children.   To address all of 
 	our priorities, this program readily draws on the resources of its
 	federal, state, local, and now international law enforcement 
 	partners.     
While conducting these investigations, FBI agents have found child sexual
abuse images to be readily available using the most basic of search terms.
As an example, child abuse images were easily available when innocuous 
search terms were used, such as "Brittney Spears" or the word "young." 
 	 Through the use of covert investigative techniques and 
 	 administrative subpoenas, FBI agents can determine which 
 	 individual users possess and distribute child abuse images over
 	 the Internet.  Furthermore, utilizing search warrants, 
 	 interviews, and computer forensic tools, our agents can 
 	 strengthen their cases to eventually arrest and prosecute 
 	 these dangerous criminals.
As you may have noticed throughout my presentation, I have not used the 
phrase "child pornography," because it does not adequately describe the
type of crime we are talking about today.  To some people, pornography
may imply adult models posing for the camera.  Child pornography does 
not describe the reality of the crime problem we are facing today.  
This crime deals with the violent rape and sexual exploitation of young 
children, some as young as a few months old.  Therefore, each image 
represents evidence of the criminal reality of a violent rape, or sexual
abuse of a child.  
The FBI has partnered with NCMEC in a significant and meaningful way. 
Currently there are two FBI Special Agents and four FBI support personnel
assigned full time at the Center.  Further, in March of 2005, the FBI 
merged its Child Victim Identification Program (CVIP) Database with 
that housed at the National Center.  This merger has drastically 
increased the number of known victims in the CVIP database and has made
FBI data available to all other law enforcement agencies that investigate
these violations.  Ultimately this partnership benefits both the FBI and 
the National Center, but more importantly it benefits the children we
serve. 
In June of 2003, the FBI, along with our partners in the Department of 
Justice, Child Exploitation and Obscenity Section, and NCMEC implemented 
the "Innocence Lost National Initiative" to address the growing problem of
child prostitution.  Initially, the FBI identified 14 field offices with a
high incidence of child prostitution.  In FY 2005 and through the first 
quarter of FY 2006, an additional ten field offices were identified as 
areas in which these criminal enterprises were operating.  These criminal 
enterprises use the Internet to advertise the children they have forced 
or tricked into prostitution, often masquerading as escort services, 
which leads to further victimization of the children.
These investigations are manpower intensive, intelligence driven and 
make use of sophisticated investigative techniques such as Title III 
wiretaps.  To date, five FBI field offices have utilized Title III 
wiretaps in these investigations.  As a result, since FY 2004, 166 cases 
were opened, 28 criminal enterprises disrupted, 16 enterprises 
dismantled, 101 individuals indicted, 75 subjects convicted and 80 
seizures claimed.  Since the inception of Innocence Lost, over 300 
children have been recovered.
According to NCMEC, in FY 2005 there were 7,000 reports of endangered
runaways and 774 reports of children involved in or suspected of being 
involved in child prostitution.  FBI personnel assigned to the NCMEC 
review these intake reports daily and disseminate the information to 
the appropriate FBI field office for investigation. 

Conclusion
In closing, the FBI looks forward to working with other Law Enforcement 
agencies, private industry, and the Department of Justice�s prosecutors 
in continuing to combat this heinous crime problem.  The protection of 
our children requires the combined efforts of all sectors of our society.
I would like to express my appreciation to the Subcommittee for 
addressing this very serious problem, and I would also like to thank 
Chairman Whitfield, Ranking Member Stupak, and the Subcommittee for the
privilege of appearing before you today.

	Mr. Whitfield.  Thank you very much.  And Mr. Plitt, you are 
	recognized for your 5 minutes, and you are Director of the Cyber 
	Crimes Center at the Homeland Security.
Mr. Plitt.  Yes, Mr. Chair.  I appreciate the opportunity to present some
additional information about the Cyber Crimes Center today, its 
responsibilities with respect to investigating child exploitation.
	Our Cyber Crime Center is C3, recognized nationally and 
	internationally as a leader in the investigation of international
	criminal activities conducted or facilitated by the Internet.  
	Created in 1997, C3 brings the full range of ICE�s technical 
	services, such as digital media forensics, and cyber investigative
	services together in a single location to investigate the cyber
	aspects of violations of immigration and customs law.  Contrary 
	to general perceptions, C3 does not currently investigate what 
	would be termed as more traditional cyber crimes, as hacking, 
	denial of service, or phishing.  In addition to trans-border 
	child exploitation crime, C3 investigates other trans-border
	crimes, such as international money laundering, illegal cyber
	banking, illegal arms trafficking, derivative pharmaceuticals 
	sold over the Internet, intellectual property rights violations.
	C3 essentially serves as the mission control for ICE�s 
	Internet-related investigations by refining investigative leads 
	generated by domestic and international sources, validating those 
	leads, that constitute immigration and customs violations, and 
	working in partnership with the ICE field offices to implement 
	the various investigations through national training, best 
	practices.  Meeting with our foreign counterparts and more than 
	50 attach� locations, C3 builds strong international partnerships 
	that are crucial to the trans-border category of investigations.
	ICE derives its trans-border child exploitation investigative 
	authorities from its customs responsibility to prevent the 
	smuggling of contraband, such as child pornography, and its 
	immigration responsibility, to investigate and administratively 
	remove foreign nationals guilty of crimes of moral turpitude.  
	As a result, ICE limits its child exploitation investigations to
	two situations:  one, when there is a reasonable nexus to the
	U.S. border; and when, as a second situation, when ICE�s 
	assistance is specifically requested by international, Federal, 
	State, or local law enforcement prosecutors.  Currently, ICE 
	participates in approximately 60 of the Internet Crimes Against 
	Children Task Forces across the country, to assist their State
	and local law enforcement officers with the trans-border 
	component of their investigations.
	Through this trans-border specialization, ICE is able to focus 
	its resources to achieve better resource efficiency and develop 
	investigative projects that maximize the international
	partnerships.  C3�s Child Exploitation Section coordinates their 
	responsibilities through Operation PREDATOR, the program that 
	organizes trans-border child exploitation investigations, 
	including those of criminal alien child predators, international 
	child sex tourists, international smugglers and traffickers of 
	children for sexual purposes, and Internet child pornographers.
	ICE, through the Crimes of Exploitation Section, has achieved 
	notable operational efficiencies.  For example, with less than 
	3 percent of ICE�s worldwide investigative resources, ICE manages
	more than 1,000 investigations annually, concerning international
	child sex tourism, and international Internet child pornography 
	cases alone.
	Previous testimony from Mr. Clark is going to detail some of 
	those accomplishments.  C3�s Child Exploitation Section is also 
	responsible for managing and implementing all phases of the 
	systems development life cycle for the National Child Victim
	Identification System.  Mr. Clark will go into more detail about
	that, as well.
	And C3 is responsible for maintaining partnerships with 
	non-government organizations.  Some of the non-government 
	organizations would include the National Center for Missing and 
	Exploited Children, ECPAT, i-SAFE, and World Vision.  With respect
	to the Internet portion of ICE�s international child exploitation 
	investigations, C3 supports the ICE offices, and upon request, 
	foreign law enforcement operations, by providing training and 
	investigative support.  While prudence recommends that the 
	details of C3�s technical investigative methods perhaps not be 
	communicated in a public forum, some appropriate examples would
	include the development of undercover websites, making undercover
	purchases of websites, and communicating through undercover 
	methods with investigative targets.  C3 provides these services on
	investigations involving all Internet technologies, including
	commercial and noncommercial websites, peer-to-peer groups,
	newsgroups, and Internet Relay Chat channels.
	C3 will continue patrols on all these Internet environments for 
	the trans-border aspect of individual illegal downloads, criminal 
	conspiracies, and illegal commercial operations, through its 
	presence in public areas and court-ordered intercepts.  C3 draws on
	ICE�s renowned international money laundering prowess to trace 
	associated financial transactions, including the new e-currency 
	methods, and of course, to seize instrumentalities and proceeds.
	C3�s latest endeavor involves the development and implementation 
	of systems, telecommunications, and operational processes that 
	directly link to the international Internet child exploitation 
	investigative organizations of other countries.  The end result 
	is innovative, collaborative project, maybe the implementation of
	the first non-investigation-specific virtual, worldwide law 
	enforcement task force on trans-border child exploitation.
	In summary, ICE investigations focus on the trans-border aspect of 
	child exploitation over the Internet.  These investigations are 
	organized under Operation PREDATOR, and coordinated by ICE C3.  
	ICE is honored to work with any individual or organization that 
	is interested in protecting children, making the Internet a safe
	and enjoyable place.  ICE C3 knows that it cannot alone 
	substantially impact the macro problem of Internet child safety.
	A coordinated, cooperative approach between all the aforementioned 
	participants is vital, and the most important participants on 
	these teams are parents.  Parents are physically and emotionally
	closer to teach and guard the potential victims, the children.  
	Parents, in addition to the children, are also the most impacted
	by the offline consequences of online behavior.
	Thank you.
	Mr. Whitfield.  Thank you.  Dr. Kardasz, you are recognized for 
	5 minutes, and you are Project Director of the Arizona Internet 
	Crimes Against Children Task Force, and we welcome you.
Mr. Kardasz.  Thank you, Mr. Chairman, and distinguished members of the 
committee, thank you for permitting me to speak today.
	Arizona joined the ICAC, you will also hear it called ICAC, Task 
	Force Program in the year 2000.  We work cooperatively with our 
	law enforcement colleagues from the FBI, ICE, Postal Inspection
	Service, and the Secret Service.  Although the names of our 
	agencies differ, we share the common goal of trying to keep 
	children safe from Internet sexual predators and child 
	pornographers.
	The Arizona ICAC Task Force has recorded over 2,000 investigations
	and over 200 arrests.  Although Arizona has the toughest laws in 
	the Nation against child pornography, this has not stopped the 
	trafficking of unlawful images, and like all of our colleagues 
	nationwide, we have many more solvable case files at the ready 
	than we have personnel and resources to bring in the offenders. 
	Sadly, while these cases await investigation, children and teens
	continue to suffer at the hands of Internet sex offenders.
	I have had the opportunity to speak with many citizen groups 
	about Internet crime, and at the end of each presentation, there 
	is often some senior individual in the group who raises his hand 
	and says:  "Why don�t they just shut that dang Internet thing 
	off?"  As if we have a control panel somewhere with a dial that 
	we can turn, and it will regulate Internet misconduct.
	Your legislation is the closest thing we have to an Internet
	control dial, and although opponents of controls argue that 
	regulations are costly, imperfect, and violations of 
	Constitutional freedoms, I sometimes wonder what the framers of 
	the Constitution would have thought if they had known what we 
	know now about computers and the Internet.  Would they have 
	permitted the Internet crimes against children that we are 
	witnessing today?
	I would like to talk about two things today, the threat from 
	those predators who are using social networking sites, and the
	legal help we need regarding data retention by Internet service 
	providers.
	The luring of minors for sexual exploitation remains a 
	continuing threat to our youth.  Beyond the chat rooms that 
	predators have always frequented, social networking sites are 
	now wildly popular, and there are dozens of such free sites, 
	including MySpace, Xanga, Friendster, Facebook, and others.  
	Curious young people visit the sites every day, and post images 
	and personal information about themselves.  They can browse and 
	search for others, according to age, sexual preference, zip 
	code, and school name.  They can communicate with one another, 
	and then arrange to meet in person, and as you might imagine, the
	sites are also popular among sexual predators.
	We received a phone call a few months ago from an Arizona woman 
	who said that her young daughter, while using a social networking 
	site, was contacted by a man from their neighborhood who she knew 
	as a registered sex offender.  We found the man�s webpage, where 
	he described himself as a kindly lover of poetry, plants, and 
	flowers, who was seeking female friendship for dating.  Fourteen 
	other young people were listed on his profile as friends, with whom
	he had networked through the site.  There was no mention, of course,
	in his profile that he is a high risk registered sex offender in 
	Arizona.  Now, since that time, the original webpage is no longer 
	available at the site, but there is nothing stopping him from 
	re-subscribing to the same site, or one of the many other sites,
	under another assumed name.  The use of the sites by sexual 
	predators remains a serious threat to our safety and the safety of 
	our children.
	Now, this problem will likely get worse before it gets better, as 
	kids flock to the sites and more communities, schools, libraries, 
	and businesses provide unrestricted Internet access through
	wireless access points that sometimes leave law enforcement 
	investigations at a dead end.  My written attachments contain 
	some suggestions for improving the social networking site
	environment, but in the interest of time, I don�t want to 
	review them all now.
	I would like to talk about an item of great importance to my 
	investigative colleagues nationwide.  Last week, I sent a 
	survey to Internet crimes against children investigators at all 
	of our nationwide affiliates throughout the United States.  The 
	survey asked one question:  what law could be created or revised
	to assist investigators who work cases involving Internet 
	crimes against children, and the most frequent response 
	involved data storage by Internet service providers, and the 
	retrieval of data from Internet service providers.  What our 
	people are telling us is that investigators need ISPs to retain 
	subscriber and content information so that when legal process, 
	in the form of a subpoena or search warrant, are served, there
	is data remaining with the ISP that the investigator can use
	to find the offender.
	Now, most ISP organizations are operated by conscientious and 
	professional business people who are equally horrified, as are 
	we all, by Internet crimes against children.  Some ISPs have 
	graciously extended themselves to help investigators.  Some 
	reluctant ISPs will only assist to the extent that the law 
	mandates them to assist.
	Mandating that ISPs retain data is not a privacy violation. 
	Law enforcement only needs the data preserved, but not disclosed
	to us, except in response to legal process.
	Internet industry professionals may cite the financial burden of
	data storage, but consider the potential cost of not retaining 
	data.  For example, when law enforcement is seeking a predator 
	identifiable only by the information associated with a screen 
	name, but the responsible ISP did not preserve the information, 
	the investigation ends, while the predator roams free.
	Based on the requests of my colleagues, I respectfully ask for 
	two improvements to the law:  one, that Internet service 
	providers be mandated to retain information about subscribers
	for at least 1 year, with penalties for noncompliance; and two, 
	that Internet service providers be mandated to respond to 
	subpoenas involving crimes against children investigations 
	within 1 week of receiving a subpoena, and more quickly under
	exigent circumstances, where a child is missing.
	I will conclude by saying that investigators need your help in
	order to navigate those dark alleys of the Internet, where they
	work diligently to help protect children.  I recognize that 
	turning the Internet control dial comes with a cost, but 
	failing to turn the dial carries a greater human cost to our 
	young people.
	Thank you, sir.
	[The prepared statement of Dr. Frank Kardasz follows:]

Prepared Statement of Dr. Frank Kardasz, Sergeant, Phoenix Police 
Department, Project Director, Arizona Internet Crimes Against 
Children Task Force, United States Department of Justice

Congressman Stupak and distinguished members of the sub-committee,
thank you for permitting me to speak today. Arizona joined the 
Internet Crimes Against Children (ICAC) Task Force Program in 2000.
We work cooperatively with our law enforcement colleagues from the
FBI, ICE, Postal Inspection Service and the Secret Service. Although
the names of our agencies differ, we all share the common goal of 
trying to keep children safe from Internet sexual predators and child
pornographers.
	The AZ ICAC Task Force has recorded over 2,000 investigations,
	with over 200 arrests. Although Arizona has the toughest laws
	in the nation against child pornography, this has not stopped 
	the trafficking of unlawful images, and like all of our 
	colleagues nationwide, we have many more solvable case files
	at the ready than we have personnel and resources to bring in 
	the offenders. Sadly, while these cases await investigation, 
	children and teens continue to suffer at the hands of sex 
	offenders.
	I have had the opportunity to speak with many citizen groups 
	about Internet crime, and at the end of each presentation there
	is often some senior individual in the group who raises a hand
	and asks: "Why don�t they just switch that whole dang Internet
	thing off!"...as if we have a control panel somewhere with a 
	dial that we can turn and it will regulate Internet misconduct.
	Legislation is the closest thing we have to an Internet control 
	dial. Although opponents of controls argue that regulations 
	are costly, imperfect and violations of constitutional freedoms,
	I sometimes wonder what the framers of the Constitution would 
	have thought if they had known what we now know about computers 
	and the Internet. Would they have permitted the Internet crimes
	against children that we are witnessing today?
	I would like to talk about two things today: the threat from 
	those predators who use social networking sites, and the legal
	help we need regarding data retention by Internet service
	providers.
	The luring of minors for sexual exploitation remains a continuing
	threat to our youth. Beyond the chat rooms that predators have 
	always frequented, social networking sites are now wildly 
	popular. There are dozens of such free sites, including MySpace,
	Xanga, Friendster, Facebook, and others. Curious young people 
	visit the sites every day and post images and personal 
	information about themselves. They can browse and search for
	others according to age, sexual preference, zip code or school
	name. They can communicate with one another and then arrange to 
	meet in person. And as you might imagine, the sites are also 
	popular among sexual predators. 
	We received a phone call a few months ago from an Arizona woman
	who said that her young daughter, while using a social 
	networking site, was contacted by a man from their neighborhood 
	who was know to her as a registered sex offender. We found the 
	mans web page where he described himself as a kindly lover of 
	poetry, plants and flowers who was seeking female friendship 
	for dating. Fourteen other young people were listed on his 
	profile as friends with whom he had networked through the site.
	There was no mention on his profile that he is a high-risk 
	registered sex offender in Arizona. Since that time the mans
	original web page is no longer available at the site, but there
	is nothing stopping him from re-subscribing to the same site or 
	one of the many other sites under another assumed name. The use
	of the sites by sexual predators remains a serious threat to 
	the safety of our children. 
	The problem will likely get worse before it gets better as kids
	flock to the sites and more communities, schools, libraries and
	businesses provide unrestricted Internet access through wireless
	access points that sometimes leave law enforcement investigations
	at a dead end.  My written attachments contain some suggestions 
	for improving the social networking site environment, but in the 
	interest of saving time I do not wish to review them all now.
	I would like to talk about an item of importance to my 
	investigative colleagues nationwide. Last week I sent a survey 
	to Internet crimes against children (ICAC) investigators at all 
	of our nationwide affiliates throughout the United States. �The 
	survey asked one question: What law could be created or revised 
	to best assist the investigators who work cases involving Internet
	crimes against children?  The most frequent response involved 
	data storage by Internet service providers and the retrieval of 
	data from Internet service providers. What our people are telling
	us is that investigators need ISP�s to retain subscriber and
	content information so that when legal process in the form of a
	subpoena or search warrant are served, there is data remaining
	with the ISP that will help the investigator find the offender. 
	Most ISP organizations are operated by conscientious and 
	professional business people who are horrified by Internet crimes 
	against children. Some ISP�s have graciously extended themselves
	to help investigators. Some reluctant ISP�s will only assist to 
	the extent that the law mandates them to assist.
	Mandating that ISP�s retain data is not a privacy violation. Law 
	enforcement only needs the data preserved but not disclosed to
	us, except in response to legal process.
	Internet industry professionals may cite the financial burden of
	data storage, but consider the potential human cost of not
	retaining data.� For example, when law enforcement is seeking a 
	predator identifiable only by the information associated with his
	screen name, but the responsible ISP did not preserve the 
	information, the investigation ends while the predator roams 
	free.
Based on the requests of my colleagues I respectfully ask for two 
improvements to the law: 
That Internet service providers be mandated to retain information about
subscribers for at least one year, with penalties for non-compliance.
That Internet service providers be mandated to respond to subpoenas 
involving crimes against children investigations within one week of 
receiving a subpoena, and more quickly under exigent circumstances where 
a child is missing.
	I will conclude by saying that investigators need your help in
	order to navigate those dark alleys of the Internet where they 
	work diligently to help protect children. I recognize that 
	turning the Internet control dial comes with a cost, but failing
	to turn the dial carries a greater human cost to our young 
	people.
Thank you again.

Supplemental Materials to the Testimony of Dr. Kardasz

Internet Social Networking Sites�
Recent disturbing incidents involving Internet crimes against children 
have been prominent in the media. In some incidents, the crimes have 
involved suspects and victims who met each other via Internet social 
networking sites. Social networking sites are places on the Internet 
where people can meet one another, communicate and interact.�
Social networking and communication are normal parts of the human 
experience. The Internet has become an important venue for people to 
network and interact. Young people are naturally curious about 
themselves, about others, and about the world. The sites permit them 
to reach out to others from around the globe, sometimes with tragic 
results.� 
There are many social networking sites. Some of them are listed 
below: 
Myspace.com -Livejournal.com --Facebook.com -Friendsfusion.com --
Friendster.com -Intellectconnect.com --Dittytalk.com 
-Prisonpenpals.com --Cozydating.com --Zogo.com --Interracialsingles.net 
Why are the sites popular? 
Most of the social networking sites are free and supported by 
advertisers who hope users will buy products or services advertised 
on the sites. Young people who are curious and seeking relationships
and new experiences visit the sites to find others.� 

 How do the sites work? 
Any computer with Internet access can be used to permit someone to 
join a site. Some sites require only that the registrant provide an 
email address and often there is no verification process to check the
truthfulness of any of the information that a registrant provides. Most
sites require that users abide by conditions and terms of use meant to 
thwart improper conduct, but enforcement is often lax. Once a registrant
becomes a member, he or she can post personal information, images or 
other information depending upon the features available at the site. 
Unless a user chooses to enable privacy options, all the information 
posted may be visible to all other users of a site.� 

What are the dangers? 
Those who misuse the sites may do so in many ways including: 
Luring / enticement -- Internet sexual predators and know sex offenders 
have used social networking sites to locate and lure victims. 
Identity theft -- Criminals steal the identities of those who post 
personal information. 
Cyberbullying / harassment Agitators post derogatory, hurtful or 
threatening information about others. 
Stalking -- Stalkers can use personal information posted to the sites to
locate and pursue victims. 
Fraud schemes -- Criminals who wish to defraud others of money or 
property can�locate victims, gain their trust, and then take advantage
of that trust for criminal purposes. 
Inappropriate sexual content -- Some users post sexually explicit 
information that is inappropriate for young computer users. 

Prevention 
What can you do to protect yourself from those who misuse social
networking sites? 

Do�s and Don�ts 

Don�t - 
post personal images 
post your true full name 
post your home or cellular phone number 
post your true age or date of birth 
post your true home or business address 
post your school name or the grad that you are in 
post your calendar of upcoming events or information about your future 
whereabouts.

Do
discuss Internet risks with your child 
enter into a safe-computing contract with your child 
enable computer Internet filtering features if they are available from
your Internet service 
consider installing monitoring software or keystroke capture devices on
your family computer that will help monitor your child�s Internet 
activity 
know each of your child�s passwords, screen names and all account 
information 
put the computer in a family area of the household and do not permit
private usage 
report all inappropriate non-criminal behavior to the site through their
reporting procedures 
report criminal behavior to the appropriate law enforcement agency including
the NCMEC Cybertip line or the Internet Fraud Complaint Center 
contact your legislators and request stronger laws against Internet crime 
contact the corporations who place advertisements on the sites and let them
know that their advertising is helping to support inappropriate Internet
behavior. Also, let the corporations know that you intend to boycott or 
discontinue using their product or services because of the behavior they
are� supporting. 
visit the NCMEC Netsmartz Workshop at http://www.netsmartz.org for more 
information 
remember that every day is Halloween on the Internet. People on the Internet
are not always as they first appear.

Making Social Networking Sites Safer
The following suggestions would make social networking sites safer for users
and more law-enforcement friendly. 
On every social networking site web page, display a clearly visible 
hyperlink permitting users to easily report misconduct.
For new users, make the default settings for viewing and sharing all 
account information �private�. This means that new accounts would be
automatically set to exclude others and to not share information. The new
subscriber would have to actively choose to share account information by 
checking the appropriate boxes in the account settings section. 
On every web page, display a link to the national sex offender registry. 
Proprietors of social networking sites should install filtering software 
to eliminate users from posting obscene words. 
Require that all new users enter verifiable credit card information when 
first subscribing. 
Require that all subscribers pay a nominal monthly fee. 
Include a provision in the social networking sites terms of use that 
notifies users that they have no expectation of privacy with regards to 
any of the content they post and that law enforcement may obtain any and 
all of their postings through the use of a subpoena only - without a 
search warrant. 
Retain profile information for deleted accounts for 90 days. 
Remove the browse and search functions that permit users to locate one 
another. 
On every social networking site page, display a link to the Internet Crime
Complaint Center for incidents of theft or fraud. Their link is www.ic3.gov 
Include an admonition on social networking sites profile pages advising 
users that revealing personal information could lead to identity theft or
victimization by offenders who are intent upon harassment, stalking, fraud
or identity theft. 
Preserve changes to user�s pages and the Internet protocol address 
associated with the changes for 90 days.

Selected ICAC Case Studies -- Arizona ICAC Task Force

Milwaukee Boy Found in Phoenix Home of Sex OffenderFrom the Arizona 
Republic, Aug. 23, 2005, Reported by William Hermann 
Phoenix police say the experience of the 13-year-old Milwaukee boy they 
found Monday night in the company of a man they suspect of using the
Internet to lure the child to town is one that parents need to take to 
heart. Phoenix Police Sergeant Kardasz said Milwaukee police on Aug. 17 
had received a missing persons report from the boy�s mother. 
Investigators went into her son�s computer and found that he had been
communicating regularly with a person using a Phoenix wireless Internet
site. "We went to the address of the wireless user and pretty quickly 
found he was an innocent person whose wireless service was being used by 
someone else," Kardasz said. "Through investigative work my staff
established who was using the wireless connection, we watched his house, 
and soon the man drove up with the boy in his car." 
At about 11:30 p.m. police arrested Vernon Monk, 31."The suspect had no
ID and was using a false name and a fictitious license plate and 
pretending to be the boy�s father to people in the neighborhood," Kardasz 
said. Monk was arrested for custodial interference and booked into a 
Maricopa County Jail. Police also learned that there is an outstanding
arrest warrant on Monk from Seminole County, Okla., for a sexual offense 
against a minor. The boy was taken to the county�s Juvenile Court Center 
to stay until his mother could arrange for his return home.

Internet Sexual Predator / Traveler Arrested and ImprisonedOffender: 
David Jackson Donan, w/m, age 61
In September 2003, an investigation began involving an unidentified 
person using the Internet screen name "Brasshatter." Investigators learned
that "Brasshatter" intended to travel via commercial aircraft from 
Austin, Texas to Phoenix, Arizona for the purpose of meeting a minor to 
engage in unlawful sexual intercourse. "Brasshatter" was later identified
as David Jackson Donan, age 61, with residences in both California and
Texas. On October 20, 2003 Donan boarded a commercial aircraft and 
traveled from Texas to Arizona. To groom and entice his intended victim,
he brought several packages of the candy - Skittles. To aid in his 
intended unlawful sexual acts he brought nine sexual aide devices, KY 
Jelly, a male sexual enhancement drug, a prescription for Viagra, and a 
digital camera - all in his carry-on baggage. Donan was arrested without
incident upon his arrival at Phoenix Sky Harbor Airport. He made no 
statements and was booked.
Arizona ICAC investigators and FBI agents in Arizona, California, and 
Texas worked cooperatively in the subsequent investigation and search of 
Donan�s residences for evidence. They uncovered computer evidence, 
firearms and other sexual aid devices belonging to Donan. Later 
forensics examinations of his computer also revealed a collection of
child pornography. Computer evidence indicated that Donan had bragged
during Internet chat conversations about having victimized children while
he had visited Thailand many years ago. Donan waived his right to trial 
plead guilty to one count of the Federal offense: Travel with intent to 
engage in a sexual act with a juvenile (Title 18, Part I, Chapter 117, 
2423b). Donans� presentence report was not favorable with indications 
that he had prior "hands-on" offenses with as-yet unidentified victims. 
On September 29, 2004, he plead guilty in U.S. Federal District Court 
(Phoenix). Honorable Earl H. Carroll presided. Judge Carroll sentenced 
Donan to 7 years, 3 months prison, followed by one year residence in a 
transitional facility, $25,000 fine and lifetime supervised release.

International Cooperation Leads to Child Pornography TraffickerOffender: 
Lee McCulloch, w/m, age 26, resident of Gwent, South Wales, U.K.
Occupation: Factory worker, Marital status: singleArrest Location: 
Abertillery, Gwent - South Wales, United KingdomCharge: Distributing 
Indecent Photographs of Children (United Kingdom)Sentence: Eight months
prison, Sex offender registration for five years.Agencies involved: 
Arizona ICAC Task Force, Phoenix P.D., Phoenix F.B.I., Heddlu Gwent P.D. 
South Wales, U.K.
	In April 2003, an investigator from the Arizona Internet Crimes
	Against Children Task Force / Phoenix P.D. initiated an 
	investigation into an unidentified child pornography trafficker.
	the investigation led to an unknown suspect in the United Kingdom. 
	Working with the FBI and the Heddlu Gwent (UK) Police Department, 
	investigators assembled a case that led to the identification and 
	arrest of 26 year old LeeMcCulloch in South Wales, UK. McCulloch,
	a factory worker, used computers at his home in the United 
	Kingdom to collect and traffic images of child pornography with 
	other nefarious Internet associates. 
McCulloch, who is unmarried, was arrested on November 28, 2003. 
Investigators in the UK developed further information leading to twenty 
(20) other suspects there with whom McCulloch traded unlawful images of 
child pornography. On August 26, 2004, McCulloch was sentenced to 8 
months in prison in the UK and five years of sex offender registration 
status.

David Mojica Santos -Internet Sexual PredatorArrest Date/Time: 
October 8, 2003, 1530 hours.Offense: Luring a Minor for Sexual 
Exploitation
On October 8, 2003, David Mojica Santos, age 65, was arrested for 
luring a minor for sexual exploitation in northwest Phoenix. Santos 
first came to the attention of law enforcement in July 2003, when he 
used the Internet to solicit sexual conduct with a minor. Santos traveled
from his residence in Mesa to a location in Northwest Phoenix where he 
intended to meet a minor for sex. He was arrested, booked, and subsequently
released on bond. He later plead guilty to the court. 

SENTENCING HEARING -- STATEMENT OF SGT. KARDASZ
(The recent trend among judges in Maricopa County is to sometimes sentence
such offenders to probation only, with no jail time. Anticipating this, 
we prepared a detailed statement to the sentencing judge. Here is an
excerpt):
...Your Honor, the innocent children we struggle to protect are unable to
appear here today. They are children whose innocence was stolen by 
Internet sexual predators like this defendant. Most of those children 
will never come forward due to fear or a misplaced sense of guilt. A few 
of them, like 13 year old Kasie Woody of Arkansas, and 13 year old 
Christina Long of Connecticut, were forever silenced by Internet sexual 
predators. According to reports from the National Center for Missing and 
Exploited Children, one in five girls and one in ten boys will be sexually 
victimized before they reach adulthood, and less than 35% of these crimes
will ever be reported. 

The Internet provides an unparalleled opportunity for criminals to unearth
themselves and victimize unwary young people. Research indicates that of 
the estimated 24 million child Internet users, one in five received a 
unwanted sexual solicitation, but only one in four told a parent. Curious
and innocent youngsters are flocking to the Internet seeking friendship 
and information but are instead finding sexual deviants and predators. My 
undercover investigators and I have witnessed no shortage of adults 
chatting on the Internet with the stated intention of sexually victimizing
minors. �
Over the past few years our caseload has skyrocketed while our resources 
have not. Our investigation of this defendant revealed that his Internet 
chat was not an isolated incident but part of a series of ongoing offenses 
occurring against multiple victims over an extended period of time. He 
was not the unfortunate victim of a "sting" caught at the wrong place at
the wrong time. He is a practiced Internet sexual predator. Forensics 
analysis of his computer revealed that he did not spend his idle time 
enjoying normal retirement hobbies or mentoring his family or community
. This former missionary spent his day prowling cyberspace in search of
young sexual prey.  
We discovered Internet chat conversations he had with four as yet 
unidentified girls aged fifteen, fourteen and eleven. In each of the 
chats he quickly turned the conversation to sex and began to manipulate
each girl towards meeting him for sex. I am going to read brief excerpts 
of the chat conversations the defendant had with various young girls he 
contacted on the Internet. Much of the language is so sexually graphic 
that I will not repeat it verbatim. 
"Do you like older guys?""Have you had sex yet?""Are you curious about 
having sex?""Do you think you would like to have sex sometime soon?""I 
wish I was next door to you....and then maybe not. I might rape you." 
"What city do you live in....I was just wondering if there is a large
airport nearby." "You just don�t know how badly I want to (expletive 
deleted) you right now." 

And I will stop there your Honor because the conversations deteriorate
graphically from there. Your Honor, I have watched defendants in similar 
circumstances appear in these courtrooms arguing that everything they 
did was fantasy role-playing and that they were the unfortunate victims 
of zealous police operations. That�s hogwash. Was it fantasy when this 
defendant drove over 20 miles from Mesa to Northeast Phoenix for the 
expressed purpose of meeting a minor for sex? Was it fantasy when the 
defendant brought condoms with him to the meeting? Condoms that he
admitted that he does not use with his wife.  
Apologists for this defendant may look at his age and surmise that he
has little capacity for future offenses - I disagree. This defendant had 
the physical capacity to proudly display on the Internet, graphic sexual 
images of himself, captured with a computer web camera and in a variety 
of poses. In similar cases my colleagues and I have watched defendants 
receive minimal sentencing by other courts, only to re-offend later.
In one recent case the defendant mocked the court by continuing to 
solicit minors for sex while the defendant was out on bond only days 
after his original arrest. In another of our cases, the convicted 
defendant, while free on probation, immediately began producing, acting
in, and trafficking child pornography, including images of himself 
sexually abusing three young children under shocking and horrifying 
circumstances.
The Arizona law as it stands permits the court to exercise wide 
discretion in sentencing this offense. We trust that this court will
act in the best interest of our community and send a strong message to 
this and all other Internet sexual predators. Finally your honor, we 
request that this court�s judgment provide a message of reassurance to 
the children unable to appear in your courtroom today that their rights 
are being defended at this, the highest level of County justice. 
SENTENCE -On June 18, 2004, Santos was sentenced before Judge Hotham of
the Maricopa County Superior Court. He received ten months jail and 
lifetime probation.

Contact:
Dr. Frank Kardasz, Sergeant / Project Director
Phoenix P.D. / Arizona ICAC Task Force
620 W. Washington
Phoenix, AZ 85003
Desk: 602 256 3404
Email: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1f796d7e717431747e6d7b7e6c655f6f77707a71766731787069">[email&#160;protected]</a>
http://www.kardasz.org

	Mr. Whitfield.  Thank you very much.  Our next witness is the 
	Lead Special Agent of the Wyoming Division of Criminal 
	Investigation, and the Internet Crimes Against Children Task 
	Force.  Mr. Waters, you are recognized for 5 minutes.
Mr. Waters.  Thank you, Mr. Chairman, Congressman Stupak, and the 
distinguished members of the subcommittee.
	I welcome this opportunity to appear before you, and discuss how 
	the Internet is being used to commit crimes against children, 
	and how the Internet Crimes Against Children Task Force is 
	responding to that threat.
	First, I would like to speak to the issue of child pornography.  
	Now, in Wyoming, I am one of four investigators that are handling
	this.  We are the cops on the beat doing this.  This isn�t about
	a movie or a picture.  This is ongoing sexual abuse of a child.  
	This is not about pornography.  These are not baby in the bathtub
	movies.  These are not consenting adults.  Let us be clear, these
	are images that are crime scenes depicting the sexual abuse of 
	children, starting as young as infants.  These are not innocent
	images.  These are images depicting the complete destruction of 
	innocence.
	I would like to provide you with a little background information 
	about the Internet Crimes Against Children Task Force.  The ICAC 
	includes 46 regional task forces, State and local police officers,
	sheriff�s deputies, spending time at the computers, doing the 
	chat, working the crime scenes.  Through funding from the Office 
	of the Department of Justice, Office of Juvenile Justice and 
	Delinquency Prevention, we are able to bring these together with 
	a common goal, and we are able to have contacts in each 
	jurisdiction, as these investigations cross boundaries.
	We have a strong relationship with our Federal colleagues, and 
	we collectively strive to bring to bear the strengths of each 
	entity, in our mutual goal to protect children.  In fact, in 
	Wyoming, the ICAC that I represent, we have been active for 5 
	years.  We work very closely under the authority of the Attorney
	General, and we present frequently to the United States Attorney 
	for prosecution.
	I heard a citation earlier that 25 percent of these cases are 
	being prosecuted federally, 75 percent of these cases were taken
	to our State prosecutors, our DAs, and we are getting some 
	support.  We are getting outstanding support, in fact.  We work
	very closely with them to try and assure that we bring the best
	tools to bear.  We are facing quite a few new challenges.
	The ICAC Task Force Program designed a methodology to 
	investigate peer-to-peer file sharing environment.  We were 
	seeing a lot of these images showing up during our forensic 
	examinations of computers, originating from peer-to-peer.  Five 
	years ago, we were working a lot of paid websites.  Now, coming 
	from the peer-to-peer, I started to write software to try and 
	find out how bad this problem was, and we were amazed.  In under 
	24 months, our investigators, there are about 400 around the 
	world using this software, have identified over 4.4 million 
	transactions involving the trafficking of movies and images 
	depicting the sexual abuse of very young children.  I focused
	on images 8 years old and younger when I designed the system. 
	By country, Germany, 262,000 transactions; Canada, 294,000; the 
	United Kingdom, 305,000; and the United States, 1.9 million 
	transactions in under 24 months.  Over a million IP addresses.
	These file sharing networks have created an efficiency level 
	unprecedented in previous distribution technologies.  In 
	Wyoming, the smallest state by population, we have over 250
	search warrants that we could request if manpower permitted. 
	Our investigators are averaging over 70 hours a week very 
	frequently working on these investigations.  We are hitting
	as hard and as fast as we can.
	In addition to the ICAC investigative efforts in the 
	peer-to-peer environment, we are proactively working to put 
	ourselves between child predators and the children in our 
	care.  We sit in the chat rooms.  We pose as little boys, 
	little girls, maybe adults.  These are my two youngest.  In 
	2001, my wife sent this to me to work, to put on the wall.  I 
	was having a little bit of trouble dealing with some of the 
	bad guys we were facing, and I kept this on the wall.  This 
	was our Christmas card, 2001.  Next please.  On December 31, 
	while I was online posing as a 13-year-old girl, I was 
	contacted by a man who requested to meet me at a nearby mall 
	for sexual acts.  He was very descript.  I received this 
	picture of him.  Look at his eyes.  Go back.  It is the same 
	man.  A week after Christmas, we walked the mall, and watched 
	this individual for two and a half hours, waiting for him, so
	that we could arrest him in a safe manner, and eventually, we
	placed him into custody.  This is one of two times where my 
	undercover operations have revealed an offender who had exposed 
	contact to my own children.
		The investigators in Wyoming are in these rooms, were
		speaking to these individuals, and were pursuing arrests.
		Through our undercover chat operations and file trading 
		investigations, the ICAC investigators are executing 
		arrests and search warrants throughout the Nation.  These
		investigations often lead us to homes where children are 
		being physically and sexually abused, often starting at
		an early age.  The most recent one in Wyoming, the abuse
		was an act of abuse of a four year old, and we had no
		other leads.  The individual had no criminal history, no 
		priors, no other indication until his trafficking of images 
		on the peer-to-peer networks took us into his home, and 
		fortunately, in that case, we were able to rescue the child.
	I would like to speak again briefly about the images that we are
	running into, and this speaks to what Dr. Kardasz spoke.  During 
	undercover operations, an ICAC investigator in Florida received a 
	movie depicting the rape of a 2-year-old child.  In accordance
	with our policy, the movie was sent to the National Center for 
	Missing and Exploited Children.  The abuse was so horrific it 
	even shocked the seasoned analysts at the Center.  The ICAC 
	investigator received this movie in August of 2005.  Drawing on 
	our efforts on the peer-to-peer environment, we were able to 
	look back and trace this movie to a computer in Colorado, where 
	it had been made available for distribution in April of 2005, 
	several months prior to any other known existence on the Internet.
	Just as the ICAC investigators thought they were getting close to 
	the potential origin of this movie, all hope was destroyed.  The
	Internet service provider responded to us that they did not
	maintain records related to this account.  Efforts to find this 
	child fell short, and there was nothing that we could do about 
	it.  The safety of our children cries out for each of us to 
	take all steps necessary to eliminate this problem.  Technology
	has allowed us to more accurately gauge the scope of the
	societal problem of child sexual abuse.  The Internet is serving
	as the great connector for people who seek to harm children and 
	take pleasure in watching children being sexually abused.  
	Better cooperation from the Internet service providers would
	result in us being able to take more children out of the hands 
	of the predators.
	Mr. Whitfield.  Conclude, Mr. Waters.  Your statement has been
	fascinating.
	Mr. Waters.  Mr. Chairman, I thank you for the opportunity to 
	speak, and I will be happy to answer any questions now, or in 
	the future, later.
	[The prepared statement of Flint Waters follows:]

Prepared Statement of Flint Waters, Lead Special Agent, Wyoming Division
of Criminal Investigation, Internet Crimes Against Children Task Force 
Technology Center, United States Department of Justice

Congressman Stupak and distinguished members of the sub-committee, I 
welcome this opportunity to appear before you to discuss how the Internet
is used to commit crimes against children and how the Internet Crimes 
Against Children Task Force is responding to that threat.  Congressman 
Stupak, you are clearly an advocate for child protection and I commend 
you and your colleagues for your leadership and initiative. �
The Internet Crimes Against Children Task Force (ICAC) shares your 
concern for the safety of our children and we thank you for bringing 
attention to this issue.

Child Pornography
This isn�t about a movie or picture. This is about the ongoing sexual 
abuse of a child.  This isn�t about pornography.  These are not images
of consenting adults.  These are not "baby in the bathtub" movies. 
Let�s be clear, these images are crime scene photos depicting the sexual
abuse of children starting as young as infants.  These are not innocent
images.  These are images depicting the complete destruction of innocence. 

Who are these children?
The majority of the children depicted in these pictures are sexually 
abused by someone they should be able to trust, such as a parent or
another adult who has legitimate access to the child.  And, contrary 
to popular belief, the majority of children identified
in child pornography have been identified by the National Center for 
Missing and Exploited Children (NCMEC) as American children.  

Internet Crimes Against Children Task Force
I would like to provide you with some background information about the 
Internet Crimes Against Children Task Force. �ICAC includes forty-six (46)
regional Task Forces working in partnership with the U.S. Department of 
Justice, Office of Juvenile Justice and Delinquency Prevention.   These 
Task Forces are composed of state and local law enforcement agencies 
throughout the United States focused on investigation, education and
prevention related to the exploitation of children by means of the 
Internet.  The National Task Force has a strong relationship with our 
federal colleagues and we collectively strive to bring to bear the 
strengths of each entity in our mutual goal to protect children.
�The Wyoming ICAC, which I represent, has been an active participant in 
�the national Task Force program for five years.  Our Task Force consists
�of three state agents operating under the authority of the Attorney 
�General.  In Wyoming, we have a close working relationship with the
�United States Attorney and our Federal partners. 

We Are Facing New Challenges
In the last three years we have witnessed a monumental change in the 
trafficking of material related to the sexual abuse of children.  
Three years ago our national efforts identified over 2600 transactions 
where people were trading images of child sexual abuse via peer-to-peer
networks.  At that time, the operation was one of the largest proactive
Internet investigations ever.  We thought we had made a significant 
impact in the networks used to trade this material.  We were mistaken.  
Advances in Peer-to-peer file trading has generated a completely new 
barter system, encouraging people to move from using sexual abuse images
to validate their own interests in harming children to spreading the
material to as many other people as possible.  
The ICAC Task Force program has designed a methodology to investigate 
the Peer-to-Peer (P2P) file-sharing environment. 
In under 24 months, our efforts have identified over 4.4 million
transactions involving the trafficking of movies and images depicting 
the sexual abuse of very young children. 

By Country
Germany				262,000
Canada				294,000
United Kingdom		305,000
United States			1,900,000

These file-sharing networks have created an efficiency level 
unprecedented in previous distribution technologies.  Utilizing high 
speed Internet access, millions of computers are linked together 
allowing fast and easy distribution of child pornography.  It should not
be surprising to us that child predators in the United States have 
found a way to leverage the technology to their benefit.
In Wyoming, our small team has over 250 search warrants we could request
if manpower were not an issue.  Often our investigators average 70 
hours a week working these investigations.
In addition to the ICAC investigative efforts in the peer-to-peer 
environment, we are proactively working to put ourselves between child 
predators and the children in our care.  Highly-trained ICAC
investigators across the country are patrolling areas of the Internet 
where predators are known to lurk and children are vulnerable.  Each
week, ICAC investigators identify and apprehend criminals who solicit
sexual acts with undercover officers posing as children. 
Through undercover chat operations and file trading investigations
ICAC investigators are executing arrest and search warrants throughout
the Nation.
These investigations often lead ICAC investigators to homes where 
children are being physically and sexually abused.  These efforts
allow ICAC investigators to disrupt the pattern of abuse at an early
stage, sometimes before the child is even old enough to reach out for 
help.  
Sadly, this is not always the case.  During undercover operations an
ICAC investigator in Florida was sent a movie depicting the rape of 
a two-year-old child.  In accordance with ICAC policy the movie was 
sent to the National Center for Missing and Exploited children.  The
abuse was so horrific it even shocked the seasoned analysts at the
center.  The ICAC investigator received the movie in August 2005. 
Drawing on the previous coordinated efforts of the ICAC investigators
we were able to trace the movie to a computer in Colorado where it
had been made available for distribution as early as April 2005.  This
was several months prior to any other known existence on the Internet.
Just as ICAC investigators thought they were getting close to the 
potential origin of the movie all hope was destroyed.  The Internet
service provider used to trade this movie did not maintain any 
records related to the use of the account.  Efforts to find this child 
fell short and there was nothing law enforcement could do about it.
The safety of our children cries out for each of us to take all steps 
necessary to eliminate this problem.  Technology has allowed us to more
accurately gauge the scope of the societal problem of child sexual 
abuse.  The Internet is serving as the "great connector" for people 
who seek to harm children and take pleasure in watching children be 
sexually abused.  Better cooperation from ISP�s would result in us 
being able to save more children from the hands of those who want to
harm them.
The ICAC experience shows us that technology can allow us to 
proactively protect our children and identify predators.  The ICAC
Task Force Program is critical to the overall efforts to protect
children and we�ll continue to place ourselves between our nation�s 
children and Internet predators.  We thank you for your continued 
support of the ICAC Task Force Program and appreciate your interest
in this important issue. 
I will be happy to answer any questions related to this issue now 
or in the future.

	Mr. Whitfield.  Thank you very much.  Mr. Clark.  
	Mr. Clark is the Deputy Assistant Secretary for U.S. 
	Immigration and Customs, and you are recognized for
	5 minutes.
Mr. Clark.  Thank you, Chairman Whitfield, Ranking Member Stupak,
and distinguished members of the subcommittee.  
	I had spent quite some time over the last few days writing 
	up an oral statement off my written statement to sort of
	summarize some of the work and accomplishments ICE has done
	in the field of child predators Internet investigations. 
	I wanted to talk about why U.S. Customs originally, and ICE 
	now are involved in these investigations, starting with our
	traditional and long history working hand in hand with the 
	U.S. Postal Service, when much of the foreign material came
	into the United States through the mail, how in the �90s we
	began working these cases through the Internet.  I know I 
	was an ASAC out in San Francisco when we did one of the 
	first significant international child predator investigations,
	and back then, it involved a chat room in which individuals 
	were sharing pictures, videos, and there was, at that time, 
	on demand molestation among the members of the groups.
	Just in March of this year in Chicago, Attorney General 
	Gonzalez and Assistant Secretary Myers from ICE conducted a 
	press conference heralding the case we had taken down in 
	Chicago.  The technology had improved, but the situation is 
	the same.  It was on demand molestations of children by an 
	international group, actually started with the Edmonton Police 
	Service.  Toronto Police Service had done some undercover work
	on it, turned it over to ICE to continue in an undercover
	capacity, and when all was said and done, we arrested 
	individuals in the United States, Canada, Australia, and Great
	Britain.  Same types of work, just more significant or 
	sophisticated technology.
	I wanted to talk about how ICE is using its unique border 
	authorities to actually attack this problem from a 
	transnational, trans-border perspective.  There are many good
	law enforcement agencies here in the United States working it
	domestically, the ICACs, who we work with very often, my 
	colleagues on the board here, State, Federal, local, across the
	board, working it domestically, so in an effort to more 
	efficiently use our limited expertise, resources, we focus on
	the transnational, trans-border violations, in which there are
	persons or materials in a foreign country coming across to 
	those in the United States.
	I also wanted to recognize the excellent work by the 
	non-governmental organizations.  From the international 
	perspective, World Vision, whom we work with often.  Here, in 
	the United States, the excellent work done by the National
	Center for Missing and Exploited Children, NCMEC, on which I 
	am a board member, and who we have investigators assigned to
	their office to help coordinate a lot of the domestic 
	investigations between the ICACs, state and local agencies, and 
	the Federal agencies.
	I wanted to highlight that this is a global problem.  It is
	not a U.S. problem.  One of the things we are finding in ICE,
	in working with our foreign colleagues, is how widespread this 
	is, and on a good note, how the attention and the interest of
	our foreign law enforcement colleagues is on the rise.  We are 
	developing better and better relationships with our 56 overseas
	offices in developing these investigations, and one in 
	particular, Operation Falcon, that we took down a few years ago,
	but continues to follow up on a number of leads.  While in the 
	United States, we arrested 236 individuals, outside of the 
	United States, over a thousand individuals were arrested based
	on leads from Operation Falcon, and I believe the government 
	of Australia had its attention raised such that it is beginning 
	to look at changes in its child protection laws as a result of 
	that case.
	There were a number of other things about ICE I wanted to talk
	about, but I changed my oral testimony, because I think it 
	needs to address very briefly the incident that just happened
	a couple of days ago, in which the Public Affairs Officer of 
	the Department of Homeland Security was arrested, Brian Doyle. 
	That case just happened.  I can�t comment on the specifics of 
	the incident, but I think it has bearing on this hearing today,
	and why we are here.  The title of today�s hearing is "What 
	Parents, Kids, and Congress Need to Know About Child Predators," 
	and I think the allegations in that case are significant.
	I think what we need to know is that there is no profile, no 
	profession, no size and shape, age, color, of an individual, no 
	scarlet letter that they wear in public surroundings that 
	indicate who child predators are.  It is very unfortunate, 
	teachers, clergymen, law enforcement.  It doesn�t seem to
	matter.  There is no profession that we could say if they are 
	doing X, you can be assured that they are child predators, or
	if they are doing Y, you can be assured they won�t be child 
	predators.  It is an unfortunate situation.  We have thousands
	of law enforcement officers here in the United States dedicated 
	to these types of investigations, and thousands more 
	internationally doing the same.
	I think it is important for the public to realize, though, that 
	there will never be enough law enforcement officers to attack 
	this successfully unless families, parents, communities, and the
	public at large weigh in, and start paying attention to our kids.
	We can only do so much in law enforcement to attack it from a 
	criminal perspective, but the public and the families and the 
	parents need to listen to their kids.  They don�t have to tether
	their kids to their belts.  They don�t have to follow them in 
	mini-cams.  They don�t have to lock them away in houses.  They 
	shouldn�t get paranoid, but they should listen to their 
	children.  They should pay attention to what they are doing. 
	They should pay attention to where they are going, whether it 
	is around the block, in the mall, or on the Internet.  That is 
	very, very significant, and that is a message that has to be out
	to the public.  We can do a lot.  We are doing more, but we can�t 
	be everywhere, in terms of law enforcement, and the public, the 
	families, the communities have to pay attention to this very,
	very significant problem.
	I will pass along on my time.  I appreciate the opportunity to
	be here, and would be pleased to answer any questions.
	[The prepared statement of John P. Clark follows:]
Prepared Statement of John P. Clark, Deputy Assistant Secretary, United
States Immigration and Customs Enforcement, United States Department of 
Homeland Security

INTRODUCTION
Chairman Whitfield, Ranking Member Stupak and distinguished Members of 
the Energy and Commerce Oversight and Investigations Subcommittee, my 
name is John Clark and I am the Deputy Assistant Secretary of U.S. 
Immigration and Customs Enforcement (ICE). I appreciate the opportunity 
to share with you today how ICE is applying its expertise and authorities
to protect our children from Internet sexual exploitation. 
I am joined here today by my colleague James Plitt, the head of the ICE 
Cyber Crimes Center. Jim�s unit leads our agency�s efforts to combat 
the sexual exploitation of children on the Internet.

THE ICE MISSION 
Among the Department of Homeland Security law enforcement agencies, ICE 
has the most expansive investigative authorities and the largest number 
of investigators.  ICE is the nation�s principal investigative agency 
for violations related to our borders. Our mission is to protect the
American people by combating terrorists and other criminals who seek 
to cross our borders and threaten us here at home.  The men and women
of ICE accomplish this by investigating and enforcing the nation�s 
immigration and customs laws.  Working overseas, along the nation�s
borders and throughout the nation�s interior, ICE agents and officers
are demonstrating that our unified immigration and customs 
authorities are a powerful tool for identifying, disrupting and 
dismantling criminal organizations that violate our Nation�s borders.  
Our agents and officers make it harder for potential terrorists and 
transnational criminal groups to move themselves, their supporters or
their weapons across the Nation�s borders through traditional human, 
drug, contraband or financial smuggling networks, routes and methods. 
Since its creation in March 2003, ICE has employed our authorities
and capabilities against threats to our border, homeland and national
security within our broad jurisdiction, including the cross border 
Internet sexual exploitation of our children. 

PROTECTING CHILDREN
By virtue of our robust authorities and capabilities for investigating 
crimes with a border nexus, ICE makes major contributions in the fight 
against the sexual exploitation of children worldwide, including over 
the Internet and the importation of physical or electronic 
representations of child pornography.  We focus these ICE efforts 
under Operation PREDATOR.  
Launched by ICE on July 9, 2003, Operation PREDATOR is currently 
managed and administered by the Cyber Crimes Center, a headquarters 
unit of ICE�s Office of Investigations, which coordinates enforcement
efforts against child sex offenders both nationally and
internationally.  To date, ICE has successfully arrested more than
7,500 child predators.  Of these, more than 6,600 (88%) of the
arrestees have been non-U.S. citizens, and of those, more than 3,900
(59%) have been deported from the United States.
ICE�s Operation PREDATOR endeavors to apprehend and ultimately 
prosecute a variety of violators including individuals who:
Engage in the receipt, transfer, distribution, trafficking, sale, 
facilitation, and production of child pornography in foreign commerce,
including use of the Internet;
Travel internationally for child sex tourism or who facilitate such
travel; 
Engage in the human smuggling and trafficking of minors into the United 
States for illicit sexual purposes (sexual exploitation and/or 
prostitution) or worksite exploitation, and/or commit any crimes 
resulting in the harm, injury or death of a minor  not including the 
smuggling of children by parents for family unity reasons; 
Are foreign nationals/aliens who have been convicted of local, state,
or federal offenses against minors and are now eligible for removal
from the United States; and 
Are criminal aliens who have been previously deported from the United 
States for such offenses but have re-entered the country illegally.  

These five enforcement objectives/goals are integral components of 
ICE�s border security responsibilities and mission, since these criminal
activities involving child exploitation often transcend this country�s 
physical borders. The global Internet constitutes a powerful tool for 
those who prey upon children or profit from that predation.  Far more 
child pornography is now being transmitted globally in an instant in 
electronic format than ever was distributed in physical form by
couriers or packages arriving at international ports of entry or mail
facilities.
Operation PREDATOR is a critical element of ICE�s strategy for
identifying and defeating threats to public safety that arise from our
borders.  These threats often include foreign nationals who enter or
remain in this country illegally and become administrative fugitives 
or absconders and who may also be child sex offenders.  Other threats 
include criminal business enterprises with business models based upon 
the smuggling of alien children into this country for sex exploitation 
or prostitution.  Additional threats include U.S. citizens and/or 
lawful permanent resident aliens who travel to other countries with
the intent to engage in "sex tourism" with children.  In multiple 
cases we have seen these individuals actually return to the United 
States with trophy pictures and videos of their illicit exploits.  
To illustrate for the subcommittee our work, I would like to share
with you some powerful examples from ICE case files.

OPERATION FALCON
ICE initiated Operation FALCON in response to the threat to public
safety posed by REGPAY, a criminal businesses activity based in Minsk,
Belarus which provided third-party billing and credit card aggregating 
services to Internet child pornography websites.  A task force 
comprised of agents from ICE, IRS, FBI, Postal Inspection Service, and
the U.S. Attorney�s Office in Newark, New Jersey, launched 
investigations into individuals and corporations involved in the 
production and distribution of child pornography via the Internet. 
Conducted under the auspices of Operation PREDATOR, this revolutionary 
investigation employed the latest technology to not only target the 
purchases, but also identify, track, and apprehend the producers and 
webmasters leading to the seizure of proceeds from this multi-million 
dollar criminal enterprise.  Operation FALCON has yielded approximately
300 arrests in the United States and more than 1,000 arrests overseas.
Operation FALCON is a continuing investigation.   
Another ICE investigation that illustrates the enormity of the threat
to public safety that can be posed by a single individual involved in
Internet child pornography is that of a Louisville resident.  This 
individual was indicted by a federal grand jury in the Western District
of Kentucky on February 22, 2006, for receiving and possessing child 
pornography on his computer.  Previously, this individual was indicted
by a federal grand jury in the Eastern District of Virginia in 
December 2001, for similar charges involving possession and
transportation of child pornography.  This prior indictment was based
on an investigation conducted by the Naval Criminal Investigative 
Service (NCIS), and led to the issuance of an arrest warrant for the
individual.  He had remained a fugitive until January 31, 2006, when
agents from our Resident Agent in Charge Office in Louisville, 
assisted by NCIS agents and U.S. Marshals, arrested him at his 
residence.  At the time of his arrest, our agents executed a federal 
search warrant resulting in the seizure of 14 desktop computers, 
4 laptop computers, numerous removable hard drives, and computer storage
media.  Subsequent forensic analysis of the seized items revealed 
numerous images of child pornography.  This violator admitted that his
collection of Internet child pornography, which he stored on his 
computers, approached more than 200,000 still images and hundreds of 
video files.  He also stated that he was "addicted" to child pornography 
and had a sexual interest in children.  

COOPERATIVE EFFORTS
Because the Internet allows for the instantaneous transmission of massive
amounts of child pornography, including live video of real-time 
molestations, cooperation with our international partners is vital.  
ICE has received excellent cooperation from the Danish and Norwegian 
National Police agencies.  Together, we identify and target suspects who
receive and transmit child pornography via the Internet using 
"peer-to-peer" software applications that operate on worldwide 
file-sharing networks. Examples include the use of the "LimeWire" program
on the GNEUTELLA network and the "KaZaA" program on the FASTTRACK 
network. ICE has a similar ongoing enforcement initiative with the 
German National Police, which also attempts to identify and target
suspects who distribute child pornography on the Internet.
Additionally, ICE works closely with INTERPOL and EUROPOL to identify, 
arrest, and prosecute international violators with a nexus to the 
United States, in an effort to combat the international distribution
of child pornography and the use of the Internet to facilitate child
sex tourism.
ICE has partnered with the National Center for Missing and Exploited
Children (NCMEC) to investigate tips received from the NCMEC 
Cybertipline. The Cybertipline receives leads from persons reporting
the sexual exploitation of children.  I am a member of the board of
this unique organization, which has terrific outreach program for 
parents and their children on its "Netsmartz" Internet website.  
There, families can review numerous safety tips to help protect 
children from online child predators.     
In addition, ICE works closely with the DOJ-funded Internet Crimes 
Against Children (ICAC) Task Forces around the country on major 
child exploitation initiatives involving illicit computer-related 
child pornography.
One of the major "high tech" tools we are using to assist us with 
the investigation of child pornography crimes via the Internet is
known as the National Child Victim Identification System (NCVIS),
which is a cooperative effort among federal, state, local, and 
foreign law enforcement agencies and civilian entities. The program 
is managed and administered by our Cyber Crimes Center in Fairfax, 
Virginia.  The primary focus of NCVIS is to help all law enforcement
agencies identify victims of child sexual exploitation and to 
track the transmission and circulation of digital images via 
Internet websites, Email, Instant Messenger, Newsgroups, and Chat 
Rooms.  NCVIS is a secure computer-based initiative that was
conceived as an investigative tool to assist in child exploitation 
investigations and allows us to analyze specific child pornography 
images, which have been seized as evidence or otherwise, to 
determine whether they match already identified child victims or
actual child victims depicted in known child pornography 
magazines.  To date, the ICE Cyber Crimes Center has analyzed more 
than 150,000 images utilizing NCVIS, resulting in the 
authentication of more than 2,065 images used to facilitate the 
criminal prosecutions and/or sentencing of child predators.  In
addition, since its creation, we have enrolled more than 110,000 
images of child pornography into NCVIS of which more than 32,000 
are of known child victims.   
It is also important to note that our Cyber Crimes Center provides
extensive technical training in the areas of online investigations 
and computer forensic analysis to local, state, and other federal 
law enforcement agencies, as well as foreign police agencies.  Due
to the potentially harmful effects of viewing child pornography 
and, often times, dealing with its young victims, ICE has launched 
a proactive assessment program in an effort to prevent adverse 
emotional and psychological effects that may impact an ICE agent�s 
emotional health.

INTERNET PORNOGRAPHY TRENDS
No matter how successful our efforts are against these terrible 
crimes and those who commit them, the continuing advance of technology 
gives potential offenders new opportunities to prey upon children.  In 
fact, these offenders often are at the forefront of technological 
efforts to trade, share and transmit illicit images in the hope of
evading law enforcement detection and capture.
Chief among these avenues are the lesser known peer-to-peer software 
applications and programs that operate on worldwide file-sharing 
networks that can be employed to support the transmission of child
pornography images and videos.  In fact, investigative efforts by 
ICE and Canadian authorities recently identified a peer-to-peer
network that was developed and operated by an organized group of 
child predators to transmit alleged live video feed of children 
alleged to be as young as 18 months being sexually molested by members
of the group.  Other examples of technologies that have been misused 
by child predators include instant messaging and Internet Relay Chat 
programs, which facilitate real-time conversations and the exchange 
of child pornography.  Predators can also use these programs to make 
real-time contact with unwitting child victims.  In response to these
threats to public safety, ICE has launched several undercover
operations designed to identify and apprehend predators before they 
are able to make contact with our children.   

CONCLUSION
As the Department of Homeland Security�s largest investigative agency 
with unique authorities to protect the American people from threats 
that arise from our borders, ICE is uniquely equipped to enforce our 
nation�s laws against the threats posed by child predators who employ
the Internet as a tool to advance their crimes.
While ICE is a new agency, with newly unified immigration and customs
authorities, we continue to aggressively apply our investigative 
authorities and capabilities to identify and close vulnerabilities in 
our border and homeland security.  At the same time, we are bringing 
to bear the best of our former agencies� expertise, cultures, and
techniques, while building a new federal law enforcement agency that 
is more effective and efficient than the sum of its parts.  In case 
after case, ICE Special Agents are putting into practice the powerful
advantages that flow from our unified authorities, and are putting 
them to great use on behalf of the American people.  The net result
is a greater contribution to the Nation�s border security, which is 
a critical element of national security and public safety. 
My colleagues at ICE are grateful for the chance to serve the
American people and, on their behalf, I thank this subcommittee, 
its� distinguished members and Congress for the continued support of
ICE investigative endeavors. 

	Mr. Whitfield.  Thank you, Mr. Clark.  Mr. William Kezer is 
	the Deputy Chief Inspector, U.S. Postal Inspection Service, 
	and we recognize you for 5 minutes.
Mr. Kezer.  Good morning.  Excuse me.  Good morning, Mr. Chairman,
distinguished members of the subcommittee.  On behalf of the United
States Postal Inspection Service, I want to thank you for holding 
this hearing, and giving me the opportunity to discuss the subject of
child sexual exploitation, and the important role postal inspectors 
play in combating it.
	As one of America�s oldest Federal law enforcement agencies, 
	the Postal Inspection Service, founded by Benjamin Franklin, 
	has a long, proud, and successful history of arresting
	criminals who attacked the Nation�s postal system.  
	Approximately 1,900 postal inspectors are stationed throughout 
	the United States, and enforce more than 200 Federal laws 
	regarding crimes that involve the U.S. mail and the postal 
	system.
	The Postal Inspection Service has a longstanding reputation as
	a true leader in the battle against child exploitation.  Postal
	inspectors began investigating child pornography offenses in 
	1977, long before any other Federal agency addressed this
	problem.  Thousands of offenders have been arrested and convicted 
	under the new Federal laws.  In fact, more than 4,800 child 
	molesters and pornographers have been arrested by postal 
	inspectors since the enactment of the Federal Child Protection
	Act of 1984.  In 1997, the Postal Inspection Service began 
	tracking the number of child molesters identified and children
	rescued in our investigations.
	Since 1997, of the more than 2,400 arrests made by postal 
	inspectors, over 800 were child molesters.  That is one out
	of three.  Additionally, more than 1,000 children were rescued
	from further sexual abuse and exploitation.  And I might add 
	that 75 percent of our cases are prosecuted at the Federal 
	level.
	In carrying out its objective to combat child exploitation,
	the Postal Inspection Service is fortunate to work closely 
	with the U.S. Department of Justice, the Federal Bureau of 
	Investigation, the Bureau of Immigration and Customs 
	Enforcement, Interpol, the National Center for Missing and 
	Exploited Children, where we have a postal inspector assigned,
	and the Federally-funded Internet Crimes Against Children 
	Task Forces.  postal inspectors play a significant role, not
	just through the investigations they perform, but in their 
	efforts to raise public awareness about child sexual 
	exploitation.
	In May of 2001, the Postal Inspection Service launched a 
	national crime prevention initiative with the National Center
	for Missing and Exploited Children.  The goal of this 
	initiative was to raise public awareness of the online
	victimization of children.  As part of this initiative, a Postal
	Inspection Service employee designed an eye-catching poster with
	a powerful message urging all citizens to report suspected 
	child exploitation to the National Center for Missing and 
	Exploited Children�s Cyber TipLine.  This poster was displayed 
	in 40,000 post offices nationwide, and was viewed by as many as
	eight million postal customers on any given day.  This poster 
	is displayed here today.
	Postal inspectors make presentations and conduct training on 
	child pornography and child exploitation at local, national, 
	and international conferences.  Inspectors also make 
	presentations to civic organizations and school associations on 
	topics related to Internet safety.  For a small Federal law
	enforcement agency, the Postal Inspection Service delivers a
	powerful punch when it comes to investigating those who produce, 
	traffic, and possess child pornography, or otherwise sexually 
	exploit children.
	For the past 7 years, postal inspectors were recipients of the
	National Missing and Exploited Children�s Award.  The awards 
	ceremony and Congressional breakfast was held right here on
	Capitol Hill.  In 4 of the past 7 years, postal inspectors 
	were awarded top honors by being named Officers of the Year.  
	Mr. Chairman, as you can see, the Postal Inspection Service 
	has been a law enforcement leader in the investigation of 
	child sexual exploitation.  The American public can count on 
	our continued commitment to protect our most precious asset,
	our children.  Again, thank you for bringing this important
	issue forward.
	[The prepared statement of William E. Kezer follows:]

Prepared Statement of William E. Kezer, Deputy Chief Inspector, 
United States Postal Inspection Service

Good morning, Mr. Chairman, members of the subcommittee. On behalf 
of the United States Postal Inspection Service, thank you for holding
this hearing and giving me the opportunity to discuss the subject of
child pornography on the Internet and the significant role Postal 
Inspectors play in combating it.
�	I�m William Kezer, Deputy Chief Inspector, for the U.S. Postal
�	Inspection Service. The sexual exploitation of children spans 
�	all social and economic classes, and the perpetrators have no 
�	regard for the enduring grief and trauma they bring to their 
�	victims. The dangers of child pornography and other forms of
�	child sexual exploitation should never be minimized. Through
�	public awareness, vigorous investigations, certain prosecution,
�	and just sentencing, the incidence of this horrible crime can
�	be reduced. Lawmakers and law enforcers, as well as all members
�	of society, have an obligation to help protect children and 
�	their families. 
�
�The United States Postal Inspection Service (USPIS)
As one of America�s oldest federal law enforcement agencies, the U.S.
Postal Inspection Service founded by Benjamin Franklin, has a long,
proud, and successful history of fighting criminals who attack the 
nation�s postal system and misuse it to defraud, endanger, or 
otherwise threaten the American public. As the primary law enforcement
arm of the U.S. Postal Service, the USPIS is a specialized, professional
organization performing investigative and security functions essential
to a stable and sound postal system. As fact-finding and investigative 
agents, Postal Inspectors are federal law enforcement officers who 
carry firearms, make arrests, execute federal search warrants, and 
serve subpoenas. Postal Inspectors work closely with U.S. attorneys,
other federal law enforcement agencies, state law enforcement agencies,
and local prosecutors to investigate cases and prepare them for court.
Approximately 1900 Postal Inspectors are stationed throughout the 
United States and enforce more than 200 federal laws regarding crimes 
that involve the U.S. Mail and postal system.

Early Enforcement Efforts: Obscenity Investigations
For more than a century, the USPIS has had specific responsibility for
investigating the mailing of obscene matter. In the 1860s and 1870s, 
Special Agents (as Postal Inspectors were called then) had to contend 
with obscene material exported to the United Sates by European
producers. Special Agent Anthony Comstock, or "Mad Anthony," as he 
was known, waged a relentless battle against anyone who used the U.S.
Mail in an attempt to corrupt the morals of young people. In 1873 
Congress passed the Comstock Act, a forerunner to the existing postal 
obscenity statute (18 USC Section 1461). In a letter dated June 11, 
1875, now in the USPIS archives, Comstock wrote to his superior 
reporting on an investigation:

I have the honor to report that yesterday in the city of New York I 
caused the arrest of one Zephir M. Caille, of 261 West 27th St., and
doing business opposite 602 Broadway. He is charged with selling 
obscene pictures, and today waived examination at Tombs Police Court 
and was committed in default of $1,000-for trial in Special Sessions
court. I seized about 175 pictures in his possession. I have found 
I had a good case in State court and therefore I took him there
instead of waiting to work up a case in United States Court. He is
a Frenchman, and I am informed owned a set of 37 different negatives 
for printing obscene photographs and supplied the trade throughout 
the country, although ostensibly keeping a stand on Broadway.
I have the honor to be
Very Respectfully Sir:
Your Obedient Servant

Anthony Comstock
P.S. this fellow had a clasp knife sharpened as a dirk, but he did
not get a chance to use it as I ironed him.

Protecting Children From Sexual Exploitation: A National Priority
Through the years, child pornography has been investigated along with
obscenity matters; however, it was not until the late 1970s that 
Congress took action to create federal legislation protecting
children from sexual exploitation.
Prior to the late 1970s, most Americans were unaware of the 
proliferation and commercial distribution of magazines, films, and 
photographs depicting children in explicit sexual acts. Fortunately,
we have begun to come to grips with the horrors of child pornography
and to view it as it truly is, a manifestation of aberrant behavior
resulting in the sexual abuse and victimization of children.
In 1977 the Protection of Children Against Sexual Exploitation Act 
became law (18 USC Section 2251-2253). This was the first federal 
law specifically designed to protect children from commercialized 
sexual exploitation. It was the culmination of years of effort by 
Congress, the U.S. Department of Justice (DOJ), concerned members 
of the public, and the law enforcement community to take action 
against the pernicious effects of pornography and the sexual 
exploitation of children. Under this law, a child, or minor, was
defined as a person younger than age 16. In the landmark 1982
U.S. Supreme Court case, New York v. Ferber (1982), the Court 
found that child pornography is "intrinsically related to the 
sexual abuse of children. First, the materials produced are a
permanent record of circulation. Second, the distribution network
for child pornography must be closed if the production of material
which requires the sexual exploitation of children is to be 
effectively controlled. The Court ruled that the standards used to 
determine obscenity in adult pornography case are not applicable 
to child pornography, and child pornography is not protected under 
the First Amendment.
On May 21, 1984, seven years after the first federal child 
pornography statutes were enacted, President Ronald Reagan signed
into law the Child Protection Act of 1984. This act amended the 
original act and created some new statutes, making the federal 
laws against child pornography even more substantial. 
Postal Inspectors began investigating child pornography offenses
in 1977, long before any other federal agency addressed the 
problem. Recognizing that child molesters and pornographers often
seek to communicate with one another through what they perceive 
as the security and anonymity provided by the U.S. Mail, Postal 
Inspectors quickly established themselves as leaders in the battle
against child pornography using "undercover operations" to flush out
child pornography dealers who used the mail. Since that time,
thousands of offenders have been arrested and convicted under the 
new federal laws. More than 4,800 child molesters and child 
pornographers have been arrested by Postal Inspectors since the 
enactment of the Federal Child Protection Act of 1984.

Advent of the Internet 
Since the advent of publicly available Internet services, the 
opportunity for exchange and barter involving sexually explicit 
materials has dramatically increased the amount of child pornography 
available on line. Child molesters and pornographers frequently 
communicate in select online newsgroups and facilitate through 
technology video-graphic and still images of child sexual abuse,
both from existing collections as well as in response to requests 
for new materials. The increase in the number of victims, as 
manifested by newer child pornographic images and bolder production 
techniques, has necessitated an equally innovative investigative 
response. The Postal Inspection Service has risen to this challenge
and continues to ferret out, identify, and arrest offenders who 
traffick in child pornography videotapes and computer disks, or who 
otherwise sexually exploit children, through the U.S. Mail. Today,
almost all of the child exploitation investigations conducted by 
Postal Inspectors have a common nexus with the Internet and the
U.S. Mail.
Postal Inspectors have established a nationwide network of 
intelligence incorporating a wide variety of undercover programs
designed to identify suspects and develop prosecutable cases.
These undercover operations recognize the clandestine nature of 
their targets and capitalize on the inherent need of offenders to 
validate their behavior through contact with individuals like 
themselves. The investigative techniques used in these operations
include the placement of contact advertisements in sexually
oriented publications; the infiltration of Internet newsgroups and
chat rooms; and the use of confidential sources. The computer has
proven itself to be an invaluable investigative tool in identifying
individuals who are using the mail to traffick in child pornography 
or otherwise sexually exploit children. 
A technique employed by Postal Inspectors as part of conducting 
their undercover operations is to control the delivery of child 
pornography to the requestor�s address. Following its delivery,
an anticipatory federal search warrant is immediately executed on
the suspect�s property. The item just delivered, along with any
other relevant evidence, is then seized.  On March 21, 2006, in
U.S. v. Grubbs, the Supreme Court reported its unanimous
decision, ruling that anticipatory search warrants are lawful as 
long as sufficient probable cause exists when the warrant and 
supporting affidavit are presented to a magistrate.   

The Connection between Child Pornography and Child Molestation 
During fiscal year 1997, the USPIS began compiling statistical 
information on the number of child pornography suspects that 
were also child molesters. Additionally, the USPIS began to collect 
data on the number of child victims identified and rescued from 
further sexual abuse as a result of investigations conducted by
Postal Inspectors. Since 1997, 802 child molesters were identified
and stopped, and 1,048 victimized children were rescued. Of the 
2,433 individuals arrested by Postal Inspectors since 1997 for 
using the U.S. Mail and the Internet to sexually exploit children, 
actual child molesters were identified in one out of three cases.

Interagency Cooperation
In carrying out its mission to combat child pornography, the USPIS 
works closely with the DOJ, particularly, DOJ�s Child Exploitation 
and Obscenity Section, the Federal Bureau of Investigation, the 
Bureau of Immigration and Customs Enforcement, INTERPOL, the 
National Center for Missing and Exploited Children, and other 
domestic and international law enforcement agencies. Postal 
Inspectors across the country have formed working partnerships 
with the federally funded Internet Crimes Against Children (ICAC) 
task forces.
The USPIS is an active member of the Attorney General�s Federal
Agency Task Force on Missing and Exploited Children. A Postal 
Inspector is assigned full time to the National Center for 
Missing and Exploited Children, also known as the NCMEC, in 
Alexandria, Virginia. The National Center�s Cyber Tipline reports 
are regularly reviewed and forwarded to USPIS child pornography 
specialists in the field for follow-up investigation or referral 
to another law enforcement agency, as appropriate. 

Raising Public Awareness and Other Outreach Initiatives
Postal Inspectors play a special role not just through the
investigations they perform, but in their efforts to raise public
awareness about child sexual exploitation. In May 2001 the USPIS 
launched a national crime prevention initiative with the NCMEC 
to raise public awareness of the online victimization of children.
As part of the initiative, a USPIS employee designed an 
eye-catching poster with a powerful message urging all citizens
to report suspected child exploitation to the NCMEC�s Cyber Tip 
line. It was printed and displayed in 40,000 post offices 
nationwide where it was viewed by as many as 8 million postal
customers on any given day.
The USPIS has co-sponsored, exhibited, and presented at the 
National Symposium on Child Sexual Abuse, held in Huntsville, 
Alabama, home of the nation�s first Child Advocacy Center founded
by U.S. Representative Bud Cramer. In addition, Postal Inspectors 
have made presentations and conducted training on child 
exploitation at local, national, and international conferences
and through DOJ and NCMEC sponsored training programs. Postal 
Inspectors regularly make presentations to civic groups and school
associations on topics related to Internet safety.
Internationally, the USPIS has played an important role in 
INTERPOL�s Specialist Group on Crimes Against Children since the
group�s founding in 1991. Postal Inspectors have made 
presentations and provided training on child exploitation to 
delegates from countries around the world. In August 1996 the 
USPIS delegate to the Specialist Group on Crimes Against Children 
conducted work shops for delegates from more than 120 countries at 
the first World Congress on the Commercial Exploitation of Children,
held in Stockholm, Sweden. 
Postal Inspectors are so recognized for their expertise on the 
subject of child pornography and child exploitation that their views 
and experience have been published. Much of this testimony, in 
fact, derives from a treatment written by Postal Inspector Raymond
Smith, in the soon to be published book Medical, Legal, & Social 
Science Aspects of Child Sexual Exploitation --- A Comprehensive
Review of Pornography, Prostitution and Internet Crimes.

Commercial Child Pornography Distributors 
The U.S. Postal Inspection Service was the first federal law
enforcement agency to begin aggressively identifying, targeting,
and arresting commercial child pornography distributors. Under the 
1977 Protection of Children Against Sexual Exploitation Act, only 
the commercial distribution of child pornography was against the 
law.

Operation Special Delivery
In May 1996 the U.S. Postal Inspection Service announced the results 
of Operation Special Delivery, a highly successful, pro-active 
undercover operation. The operation shut down the largest known 
commercial child pornography business ever encountered by 
authorities in the United States up to that time. 
The ring-leader of the criminal enterprise, Troy Anthony Frank,
doing business as Overseas Male, produced child pornography 
using young Mexican males, some as young as 7-years of age, in
Mexico City and Acapulco, Mexico. The original videotapes were
then smuggled into the United States and distributed by mail 
from San Diego, California, to customers throughout the country.
Business records seized during the investigation revealed the
company made as much as $500,000 per year. Before the investigation
into the ring-leader Troy Frank concluded, he committed suicide.
As a result of Operation Special Delivery, Postal Inspectors 
identified a large number of mail-order customers who knowingly
purchased child pornography from Troy Frank. Over 130 searches
in 36 states in the United States were conducted, leading to the 
identification of numerous child molesters, pornographers, and
the rescue of child victims. Vast quantities of child
pornography material were found and destroyed. One hundred
offenders were ultimately arrested and prosecuted, among which
were members of the clergy, youth leaders, school teachers, 
police officers, an attorney, a history professor, a medical
doctor, and a school counselor. 

The Landslide Investigation and Operation Avalanche
There has been no investigation in the history of child 
pornography comparable to the Landslide investigation and 
Operation Avalanche. This landmark case was conducted under 
the direction of the USPIS and illustrates the success that 
can be achieved when domestic and international law enforcement 
work together. 
In 1999 an alert Postal Inspector in St. Paul, Minnesota, 
discovered an advertisement on the Internet that had been 
placed by Landslide Productions, Inc. Further investigation 
revealed that Landslide Productions based in Ft. Worth, 
Texas, sold subscriptions to child pornography Web sites.
The investigation was assigned to Postal Inspector Robert
Adams, now retired, in the Ft Worth USPIS office. Inspector 
Adams teamed up with Detective Steven Nelson, also now 
retired, of the Dallas Police Department�s Internet Crimes
Against Children (ICAC) Task Force, and they launched an
undercover investigation into the activities of Landslide 
Productions. Their work was the beginning of an investigation
of such unprecedented magnitude that, even early on in the
case, Postal Inspector Adams reported to his higher-ups he
"had a lion by the tail."
Owned and operated by Thomas and Janice Reedy, Landslide
Productions was a multi-million-dollar child pornography
enterprise. Using the screen names of "Houdini" and "Money," 
the Reedys used their business to advertise and sell prepaid 
subscriptions to adult and child pornography Web sites to 
customers from around the world. Landslide Productions was, 
in fact, a gatekeeper for a number of international Web 
masters, advertising and marketing child pornography from
countries such as Indonesia and Russia. 
Initially, the Reedys were bold in their online marketing, 
using banners such as "Child Porn-Click Here" and "CHILD <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="792b39293c57">[email&#160;protected]</a>"
They eventually changed their advertisements to more covert 
suggestions of the content of the Web site. For $29.95, an 
individual could purchase a 1-month subscription to any number
of graphic child pornography Web sites. Most customers used 
credit cards for their purchase; some customers mailed checks,
cash, or money orders to Landslide�s post office box address 
in Ft. Worth. The cash flow for Landslide Productions was 
significant at times, amounting to as much as $1.4 million per
month. Not surprisingly, the Reedys enjoyed the fruits of their 
labors, living in an upscale community in Fort Worth and 
driving top-end Mercedes Benzes. The Reedys were living a grand 
lifestyle at the expense of sexually abused and exploited 
children.
In September 1999 the investigation conducted in concert with 
the U.S. Attorney�s office for the Northern District of Texas, 
the Child Exploitation and Obscenity Section (CEOS) of the DOJ, 
and USPIS National Headquarters, gathered sufficient probable 
cause to obtain federal search warrants. On September 8 six 
federal and state agencies executed a series of federal search 
warrants on the primary business location of Landslide Production,
a secondary Landslide office in Dallas, Texas, and the Reedys� 
personal residence. The simultaneous raids, led by the USPIS, 
took more than 18 hours to complete. Under the direction of the 
USPIS�s Forensic and Technical Services Division, Digital Evidence
Section, careful efforts were taken to seize, secure, and protect
the numerous computer systems located within the properties searched.
The data extracted from the computer servers would later be known 
as the "Holy Grail." Among the evidence seized under the scope of 
the warrants were financial records. One of the operation�s Web 
masters received more than $98,000 in one month alone for providing
child pornography Web sites to its customers.
Through Landslide Productions� network of computer systems and the 
World Wide Web, the Reedys provided child pornography to thousands 
of paying customers throughout the world. The success of their 
endeavor was based on supply and demand. Customer demand escalated, 
promoting further production as well as demands for newer and more
novel material. Real children were sexually abused and their abuse
photographed or videotaped to satisfy the needs of a specific 
clientele.
In April 2000 the Reedys were charged in a Forth Worth U.S. District
Court. A federal grand jury returned an 89-count indictment against
them, charging conspiracy to advertise and distribute child 
pornography and possession of child pornography. Plea offers by 
the prosecutors were declined and the case went to trial. Defense
attorneys argued that the Reedys were not aware of the actual content
of the various Web sites they advertised; however, evidence obtained 
from the Reedys� computers revealed otherwise.
During the trial, a detective from the United Kingdom�s National 
Crime Squad summarized the inescapable bottom line issue with
regard to child pornography. The detective, by way of illustration,
told the story of two children who are well known in the world of
child pornography. Helen and Gavin are British children who were 
sexually abused and exploited by their stepfather. As the 
detective explained, the children are victimized again and again 
whenever their pictures are reproduced, sold and further 
disseminated. 
 	At the conclusion of the case, the jury found the defendants
 	guilty as charged on all counts of the indictment. On
 	August 6, 2001, Thomas Reedy was sentenced to 15 years in 
 	federal prison on each of the 89 counts charged. The judge
 	ordered that each 15-year term run consecutive to the 
 	previous term for a total of 1335 years. Janice Reedy was
 	sentenced to a 14-year term. On August 8 Attorney General 
 	John Ashcroft and the Chief Postal Inspector held a press 
 	event and publicly announced the investigation and results.
 	The sentences were appealed to the U.S. Court of Appeals for
 	the Fifth Circuit. On appeal, Thomas Reedy�s sentence was 
 	reduced to 180 years--in essence, a life sentence--and 
 	Janice�s remained the same.
Using intelligence gained from the Landslide investigation, Postal
Inspectors launched Operation Avalanche in collaboration with the 
federally funded ICAC Task Forces, resulting in the arrest of 
hundreds of offenders here in the United States. Internationally, 
Postal Inspectors worked with INTERPOL and other law enforcement
agencies around the world tracking down more Landslide customers 
and suppliers. More than 8,000 search warrants to date have been 
carried out, making this the largest global operation ever 
undertaken. 
No single offender profile could be created for those individuals 
who purchased child pornography from Landslide�s criminal business. 
Occupations of the offenders included, but were not limited to, 
attorneys, physicians, firefighters, professional counselors for
children, teachers, clergy, and law enforcement officers.
Through Operation Avalanche, vast quantities of child pornography 
were seized, scores of individuals arrested, and many children 
rescued from further sexual abuse and exploitation. 
On October 23, 2002, President George W. Bush was personally briefed
by representatives of the USPIS on the Landslide investigation and 
Operation Avalanche. Following the briefing, the President addressed
a group of law enforcement personnel and child protection advocates
gathered at the White House. In his statement, the President made a 
commitment to the American people: "Anyone who targets a child for 
harm will be a primary target of law enforcement. That�s our 
commitment. Anyone who takes the life or innocence of a child will
be punished to the full extent of the law" (Bush, 2002). The 
President used Operation Avalanche and the work of the Postal 
Inspectors as an example of the government�s aggressive efforts 
to combat the sexual exploitation of children.

Operation Lost Innocence
In September 2002 Angel Mariscal, an Ecuadorian national was 
arrested by the Postal Inspection Service in Miami, Florida. He was 
charged with distributing child pornography by mail and indicted on 
conspiracy charges to produce and ship child pornography. The 
investigation that ensued revealed a horrifying case of sexual abuse,
rape, and commercial exploitation of more than 150 child victims, 
unraveling an international child pornography ring of shocking 
proportions.
�	In 1989 Angel Mariscal began conducting a mail order child 
�	pornography business. He produced the child pornography 
�	outside of the United States, imported it into the United 
�	States, and then mailed it to customers who had previously 
�	placed orders in response to advertisements or catalogs.
�	The majority of the victims were Cuban and Ecuadorian 
�	children between the ages of 9 and 16. The child
�	pornography was personally produced by Mariscal and his
�	accomplices, featuring Mariscal himself as the one who 
�	raped and molested the children. When his business dissolved
�	in September 2002, the videotapes he produced sold for as 
�	much as $975. It was later learned that Mariscal was HIV 
�	positive.
�	In December 2002 Mariscal was indicted in the Southern District
�	of Florida on charges of Conspiracy to Produce Child Pornography,
�	Advertising Child Pornography, and Importation of Child
�	Pornography. Based on information provided by Postal Inspectors,
�	law enforcement authorities in Cuba and Ecuador arrested five 
�	co-conspirators and identified a number of child victims. Postal 
�	Inspectors participated in Mariscal�s arrest in Ecuador. He was 
�	tried and convicted in April 2004 and sentenced to 100 years in
�	federal prison -- in essence, a life sentence.
Although cases like these involving the commercial distribution of child
pornography frequently get the most public attention, they are not as 
common as investigations into non-commercial traffickers. Non-commercial 
cases involve perpetrators who exchange child pornography with others --
unlawfully receiving, distributing, and possessing child pornography for
their own personal use and sexual gratification. However, the 
investigation of non-commercial traffickers often leads Postal 
Inspectors to the very people who produce child pornography, and
ultimately to the identification and recovery of children who have 
been victimized. Following are significant investigations conducted by
Postal Inspectors into non-commercial traffickers of child pornography.

Non-Commercial Traffickers
Covington, Kentucky - In March 2006 Postal Inspectors were notified
about a package in the mail that was believed to contain child
pornography. The package was addressed to a Covington, Kentucky man.
Working with the Covington Police, Postal Inspectors searched the 
intended recipient�s residence and uncovered hundreds of sexually 
explicit magazines, videos and DVDs of minor males. The man used the 
U.S. Mail to receive and distribute child pornography, including
pictures taken by the subject himself. He was immediately arrested on
state charges of disseminating child pornography. Efforts are underway 
to identify the children depicted in the photographs. Federal 
prosecution is pending.  
Slinger, Wisconsin - In February 2006 first-degree homicide charges
were filed against a subject who, in a murder-for-hire scheme, 
conspired to have murdered his 16-year old stepdaughter, whom he 
allegedly sexually abused for ten years, as well as two others who had 
witnessed the abuse. The subject came to the attention of Postal 
Inspectors in June 2005 when he attempted to purchase child pornography
from an undercover operation run by Postal Inspectors. His abuse of his 
stepdaughter came to light in the course of the investigation. The
case was worked jointly with the Washington, Wisconsin County Sheriff�s 
Department and Wisconsin Department of Justice (ICAC). The subject
faces 60 years imprisonment on each conspiracy charge if convicted.
A cash bond of $500,000 was set.  
Meridian, Mississippi - In January 2006 a resident of Meridian,
Mississippi, was arrested after he traveled to Birmingham, Alabama, 
intending to have sexual intercourse with what he believed to be an
11-year old girl. The "girl" was actually an undercover Birmingham,
Alabama Police Officer working with Postal Inspectors and FBI 
Special Agents in an online sting operation. The subject 
corresponded with the undercover officers via the U.S. Mail, sending 
order forms and payment to the "escort service." The subject was 
interviewed and subsequently admitted to secretly videotaping children
from his church where he was actively involved in youth programs. The
children were filmed changing clothes. The investigation is continuing
with federal prosecution pending in Alabama and Mississippi.
�	Memphis, Tennessee -- In May 2005 a suspect and his "on-line
�	girlfriend" were sentenced in federal court for using the mail
�	and Internet to distribute and receive child pornography. The
�	suspect was sentenced to 15 years in prison and five years� 
�	supervised release; his girlfriend received five years in prison
�	and two years� supervised release. Postal Inspectors initiated 
�	the investigation when the suspect�s wife discovered CDs 
�	containing child pornography in their bedroom and a mailing 
�	envelope bearing the suspect�s name and address. A search warrant
�	was executed on the residence and tens of thousands of child
�	pornography images were discovered on his computer. Several
�	pornographic images of his neighbor�s granddaughter were also 
�	recovered. The suspect later pled guilty to producing the images 
�	and to using the mail and the Internet to distribute and receive
�	child pornography.   
�	Brimfield, Ohio -- In December 2005 a suspect pled guilty in 
�	state court and was sentenced to life in prison for the rape of
�	a child. The suspect was arrested six months earlier on charges 
�	of gross sexual imposition and felony rape following an 
�	investigation conducted by Postal Inspectors. Evidence seized 
�	during a search of the suspect�s residence revealed he had 
�	received child pornography via the U.S. Mail. The suspect later 
�	admitted to three separate instances of sexual conduct with
�	minors. Follow-up investigation led to the identification and 
�	interview of one of the victims, a 14-year-old girl who was 
�	only 8 years old at the time the molestation began, and the
�	daughter of one of the suspect�s co-workers. 
Kirkwood, Illinois - In January 2006 a Kirkwood, Illinois, man 
pleaded guilty to a 4-count federal indictment for production of 
child pornography and receipt of child pornography. The man came to 
the attention of Postal Inspectors during the course of an undercover
investigation. Inspectors determined that the suspect, a 31-year-old, 
married, father of a pre-school aged son, regularly contacted young
girls on the Internet and convinced them to meet him in local parks
where they would engage in sexual activity. He also convinced the 
girls to take sexually explicit photographs of themselves and mail 
the pictures to him. Three child victims were identified through 
this investigation. The man is scheduled for sentencing in April 
2006
�	Redwood City, California - Postal Inspectors arrested a 
�	41-year-old man in July 2005 for violating federal child 
�	pornography laws. The previous January, Customs and Border 
�	Protection personnel assigned to the international mail 
�	facility in Los Angeles intercepted a number of DVDs
�	containing child pornography that were addressed to the 
�	suspect. The DVDs were coming from Thailand. Postal 
�	Inspectors obtained and served a federal search warrant on 
�	the suspect�s home, seizing additional evidence consisting 
�	of CD-ROMs, ZIP disks, and his computer. Following a 
�	comprehensive review of the evidence, it was determined 
�	the suspect possessed in excess of 127,000 child
�	pornography pictures and videos. The National Center for
�	Missing and Exploited Children has positively identified 
�	over 400 of the children depicted in the images. The 
�	suspect is free on $100,000 bond pending trial. 

The Mighty Efforts of a Small Agency
For a small federal law enforcement agency, the USPIS deals a 
mighty blow to those who would use the mail to produce, transmit,
or possess child pornography, and who would otherwise sexually
exploit children. The expertise of Postal Inspectors is demonstrated 
by the number of times prosecutors and other law enforcement
agencies turn to the Postal Inspection Service for assistance with 
particularly difficult cases. 
In August 2000 a Postal Inspector in Tampa, Florida, was called 
upon by local law enforcement to assist in a missing child case when
it was suspected the child may have been lured away from her home
by an individual she met on the Internet. The parents found 
evidence of correspondence with the suspect in their daughter�s 
bedroom. A forensic examination of the child�s computer and other 
evidence obtained by Postal Inspectors resulted in the 
identification of the suspect who was believed to be living in 
Greece. Through coordination with the NCMEC, INTERPOL, the U.S. 
and Greek embassies, and with the assistance of the FBI in Greece,
the suspect was arrested in Athens on February 1, 2001.  The 
14-year old girl, having been traumatically sexually abused by 
the suspect, was recovered and reunited with her family. Postal 
Inspector April Hindin, the lead agent, was recognized for her 
tremendous work in this case when she was presented the following 
year on Capitol Hill with the National Missing and Exploited
Children�s Award.    
In addition to Postal Inspector April Hindin�s recognition, other
Postal Inspectors have received the prestigious National Missing 
and Exploited Children�s Awards for the past seven consecutive 
years. The awards are given at a Congressional Breakfast and Awards
Ceremony in cooperation with the NCMEC, here in Washington D.C. 
to investigators who have conducted outstanding investigations in 
the cases of missing and exploited children. Singled out in 1999,
2001, 2003, and 2004 Postal Inspectors were given top honors by 
being named Officers of the Year. No other agency has achieved 
such acclaim.
More than any award or other recognition, however, there is no 
greater satisfaction for a Postal Inspector than the knowledge they
have helped the very people in this world least able to defend 
themselves. For one Postal Inspector that moment came in 2003 when 
a former victim wrote:

When I was a little girl, when I was being photographed and raped, 
I used to try and send messages with my eyes down the lens, in the 
hope that one day a "good person" might see and come and help us. It
took years for me to realise (sic) that no one was looking at my 
face. You saw our face. We want you to know, that we know, how hard
this must have been for you all and we thank you from the bottom of
our hearts for your courage and fortitude. Your actions have changed
our lives and changed the future lives of thousands of innocent
children who were yet to come. Thank you Thank you Thank you.

We have come a long way since the first federal child exploitation 
laws were enacted in 1977, but we still have much further to go. Only
through our continuing efforts, both individually and collectively,
at all levels of government and private enterprise, can we ensure that
children are protected from this type of victimization, and if 
victimized, that they receive the services and assistance they need,
and that their offenders are caught and prosecuted to the full
extent of the law. Thank you for the opportunity to share with you 
the very special contribution that U.S. Postal Inspectors make in
the fight against the sexual exploitation of children through the
Internet.

	Mr. Whitfield.  Thank you, Mr. Kezer, and our next witness
	is Raymond Smith, who is the Assistant Inspector in Charge 
	for Child Pornography and Adult Obscenity, at the U.S. 
	Postal Inspection Service, and you are recognized for 5 
	minutes.
Mr. Smith.  Thank you, Mr. Chairman.  Good morning.  And members of 
the subcommittee.  I am very pleased to be here today on this 
particular topic, because I have devoted a great deal of my career
to investigating these types of crimes.  I investigated my first
child pornography case in 1982, and now I am able to manage our 
programs at the national level.
	People unfamiliar with the work of the Postal Inspection 
	Service often ask why are postal inspectors involved in 
	these things that, today, seem to involve so much of the 
	Internet?  The answer is, because along with the Internet,
	the bad guys are still using the mail.  In fact, 98 percent
	of the cases investigated by postal inspectors today 
	involve the mail as well as the Internet.  We have developed 
	a great deal of expertise using the computer and the Internet
	as an investigative tool to ferret out and identify the 
	offenders who are trafficking in child pornography videotapes,
	computer disks, or otherwise sexually exploiting children 
	through the mail.
	We know how these offenders think, how they operate, and what 
	their psychological needs are.  The worst of these offenders 
	exhibit highly compulsive and predictable patterns of behavior.
	They have a need to validate their behavior with like-minded 
	individuals through communication, not only on the Internet,
	but also in the mail.  Postal inspectors use a wide variety of 
	proactive undercover operations to identify suspects, and 
	develop strong cases for prosecution.  In many cases, we employ
	the use of controlled deliveries by mail, something only postal
	inspectors can do.  Following the controlled delivery, an 
	anticipatory Federal search warrant is executed on the suspect�s
	property, and the child pornography that was just delivered under
	controlled circumstances is recovered, along with any other 
	relevant evidence associated with the underlying criminal activity.
	Coincidentally, on March 21 of this year, in U.S. v. Grubbs, a 
	Supreme Court case, it was also a Postal Inspection Service case, 
	the Court came back unanimously upholding the lawfulness and use 
	of anticipatory search warrants.  Commercial child pornography 
	dealers have long been targeted by postal inspectors.  In 1996,
	Operation Special Delivery shut down the largest commercial 
	distributor at that time, grossing upwards of $500,000 a year. 
	After dismantling the business, postal inspectors took it over 
	in an undercover capacity, and targeted their customers across
	the country, resulting in over 100 successful prosecutions.  Many 
	of these individuals had been sexually abusing children.
	Perhaps the most celebrated commercial child pornography business 
	operating on the Internet was Landslide Productions, owned and
	operated by Thomas and Janice Reedy out of Fort Worth, Texas.  This
	company took in upwards of $1.4 million a month.  They were 
	advertising and selling child pornography websites to subscribers
	around the world.  Later to become known as Operation Avalanche, 
	this landmark case was conducted under the direction of the U.S.
	Postal Inspection Service, in close cooperation with the U.S. 
	Department of Justice Child Exploitation and Obscenity Section, 
	along with the Dallas Texas Police Department Internet Crimes 
	Against Children Task Force.  In the end, Thomas Reedy received
	180 years in Federal prison, in essence, a life sentence.  His 
	wife received 14 years.  Postal inspectors then worked with the 
	various Internet Crimes Against Children Task Forces across the 
	country, and arrested hundreds of paying subscribers in the 
	United States, then working through Interpol and with our 
	international partners, over 8,000 searches were conducted around 
	the world, making this the largest global operation ever 
	undertaken.  Huge amounts of child pornography were seized,
	scores of individuals were arrested, and many children were 
	rescued from further sexual abuse.
	Although commercial cases like these get the most public 
	attention, it is oftentimes the most typical noncommercial case
	that identifies child molesters, the producers of this material,
	and their child victims.  Just a couple weeks ago, in Covington,
	Kentucky, postal inspectors working with Covington PD arrested
	a man after a package containing DVDs of nude minor males was
	delivered in error to the Cincinnati Reds ballpark.  During 
	a search of the man�s home, hundreds of vintage child 
	pornography magazines, videotapes, and DVDs were discovered, 
	along with packaging material for receiving and distributing 
	child pornography through the mail, including pictures 
	apparently taken by himself of kids.  Efforts are underway to 
	identify these children, and Federal prosecution has been 
	authorized.
	In another case last week, a 15-year veteran of the Huntsville, 
	Alabama Police Department was arrested by postal inspectors on
	a Federal charge of production of child pornography.  This 
	offender, discovered after he traveled to Titus, Texas, to 
	sexually abuse a 14-year-old girl that he met on the Internet,
	continued to keep her in his confidence, and convinced this 
	girl, after mailing her a package of a sexual aid and a
	
	digital camera, to take pictures of herself.  The digital memory 
	card from that camera was then mailed back to the police officer
	in Texas.  Over 300 such images were produced by this young 
	child.  He is in custody.
	Deputy Chief Kezer mentioned the national awards received by 
	postal inspectors, but I must tell you this, more than any other 
	award or recognition, there is nothing greater than knowing that 
	you have helped one of the many, very many people in this world 
	least able to defend themselves.  For me, one of those occasions
	came in 2003, when a former victim learned of our Operation 
	Avalanche, and wrote to me.  I would like to read one paragraph 
	from her correspondence:  "When I was a little girl, and when I 
	was being photographed and raped, I used to try to send messages 
	with my eyes down the lens, and hope that one day, a good person 
	might see and come to help us.  It took years for me to realize 
	no one was looking at my face.  You saw our face, and we want 
	you to know that we know how hard this must have been for all of
	you, and we thank you from the bottom of our hearts for your 
	courage and your fortitude.  Your actions have changed the future 
	lives of thousands of innocent children who are yet to come.  
	Thank you, thank you, thank you.
	In closing, we have come a long way over the years, but we have
	still got much further to go.  Only through our continuing 
	efforts, both individually and collectively, at all levels of
	government service, and through private enterprise, can we help 
	ensure that victims and their families get the services and 
	assistance they need and deserve, and that their offenders will 
	face the swift and righteous justice that we, as a society, 
	demand.
	We all have the need here, and the obligation, to make this world
	a safer place for our kids.  Thank you.
	Mr. Whitfield.  Well, Mr. Smith, thank you, and thank all of you 
	for your testimony.  You have provided some tremendous suggestions 
	for us to consider.  You have provided some tremendous insights.
	We have two votes on the House floor right this minute, and so 
	what we are going to do is we are going to recess this hearing 
	until 12:15.  So, if you all wouldn�t mind coming back in at 
	12:15, we have questions for you.
	Mr. Stupak.  Mr. Chairman, if I may, let us see, the full chairman 
	is here, Chairman Barton, I see that the Attorney General, 
	Mr. Gonzalez, testified this morning 9:00.
	Chairman Barton.  I have already been down there.
	Mr. Stupak.  Okay.  Good.  Just wanted to make sure you are aware 
	of it, because on page 6 and 7 of his testimony, he talks about
	child pornography on the Internet.  It would be great if we could
	get him up here.
	Chairman Barton.  I have already been down there, and I have a 
	scout down there, so when he gets ready to leave, he has agreed 
	to talk to me.  We are going to have a little visit.
	Mr. Stupak.  Thank you.
	Chairman Barton.  We are ahead of you.
	Mr. Whitfield.  We will recess until 12:15.
	[Recess.]
	Mr. Whitfield.  The hearing will reconvene, and I apologize we 
	are 5 minutes late, but thank you for your patience.
	Dr. Kardasz, in your testimony, you talked quite a bit about 
	retaining data on subscriber and content information.  You are 
	the one that mentioned that, aren�t you?
	Mr. Kardasz.  Yes, sir.
	Mr. Whitfield.  As one of the possible solutions or helpful 
	solutions, would you elaborate on that just a little bit more, 
	and also, what would you anticipate would be the objections to
	doing that?
	Mr. Kardasz.  Every computer connected to the Internet is 
	identifiable by what is called an Internet Protocol address, 
	and it is a series of numbers.  It is similar to the numbers 
	you have connected to your cell phone.  You have got a cell 
	phone number.  So, through subpoena powers, we can start to
	trace that back, and in the cell phone industry, they keep 
	those records for long periods of time, but that is not always
	the case in the Internet service provider industry.  Some 
	providers keep those records, so that we can chase back the 
	offender for longer periods of time than others.  So, as in a 
	case that Special Agent Waters described, if we are trying to
	track back on an offender, and the subscriber information that
	is connected to that Internet Protocol address is not available,
	then we are at a dead end, and I think the objections would be 
	the cost.  Now, they are going to say, and I don�t disagree
	with it, that that is a lot of data that they are going to have
	to retain, and then, the subsequent searches they have to do 
	in response to our subpoenas is going to cost them some manpower,
	so I think that is what an IP address, and that is the data 
	storage that we need, and I think that is the issue, the cost.
	Mr. Whitfield.  And what would be the suggestion on the length
	of time to retain the data?
	Mr. Kardasz.  Well, when we get an investigation in, it is not 
	like we always get it in the next day.
	Mr. Whitfield.  Right.
	Mr. Kardasz.  So, sometimes, there is a long period of time 
	that passes before we get it in, it gets up to the 
	investigator�s queue, and he is able to work it, and then he 
	is able to get a subpoena out.
	Mr. Whitfield.  Right.
	Mr. Kardasz.  So, I have heard my colleagues bounce around 
	90 days would be nice, a year would be great, but the longer 
	period of time that it has to be kept, then, the more data 
	overall has to be stored by that Internet service provider, so 
	the more storage capacity they need, the more that might cost 
	them.
	Mr. Whitfield.  Now, I assume the entire panel would agree that 
	that would be an invaluable tool, and it would be a positive 
	development.  Is that true?  So, no one would object to some 
	statutory language, or action to that effect.
	What about applying this data retention to cell phone companies 
	that are also providing the ability of a person to exchange 
	images?
	Mr. Kardasz.  I am not familiar enough with the data retention 
	schedules that cell phone companies have now.  I get the sense 
	that they already retain some data, but it would be very 
	applicable to them.  Some of those cell phones now, as you 
	know, can also capture pictures.  We have had some child 
	pornography cases attached to those folks that are running 
	around with cell phones capturing child pornography on their 
	cell phone cameras.
	Mr. Whitfield.  Is there anyone on the panel that would want to 
	make any comment about the cell phone?  Okay.
	Mr. Waters, in your testimony, I know you showed the slide of 
	the two children with the Santa Claus, and make sure I 
	understand, those children were your children?
	Mr. Waters.  That is correct, Mr. Chairman.  My two youngest.
	Mr. Whitfield.  And they went to a local mall, and he was the 
	Santa Claus, and then, you set yourself in a sort of a sting 
	operation, and this is the same fellow.  Is that correct?
	Mr. Waters.  That is correct, Mr. Chairman.  My wife took them
	to the mall shortly after Thanksgiving, got the photos taken, 
	and then, towards the end of December, I was online in a Wyoming
	chat room, just sitting around, and I was contacted by this same
	person.
	Mr. Whitfield.  Was he convicted, or--
	Mr. Waters.  Yes, he was.
	Mr. Whitfield.  Okay.  Dr. Kardasz, you also mentioned something 
	about responding to subpoenas within a certain period of time.
	Mr. Kardasz.  Yes, sir.
	Mr. Whitfield.  Would you elaborate on that?
	Mr. Kardasz.  Well, Mr. Chairman, depending on which Internet 
	service provider we are working with when we send a subpoena, 
	they respond various lengths of time later.  Ideally, we would 
	like to get a response as soon as we can, particularly, in the 
	case where we are working an active Internet sexual predator, for
	example, we are online, pretending to be a child.  All we have 
	is a screen name, so we do a little research on that screen 
	name, and find out which Internet service provider sponsors that
	screen name.  Now, we can subpoena that Internet service provider
	to say who is this person, Joe Smith at Yahoo!, at AOL, we can
	subpoena Yahoo! or AOL, and say who is this person?  What is the 
	background information behind that subscriber?  So, then, 
	depending on which Internet service provider is involved, it
	takes them different periods of time.  If we could get that
	within--the quicker, the better, obviously, particularly if it
	is a missing child case that we are working.  But if we can turn
	those subpoenas around within 2 weeks, that would be a beautiful
	thing.
	Mr. Whitfield.  So, would all of you agree that one of the most
	difficult parts of your job is just trying to determine who the
	person is on the other line, right, or with the, as the website,
	or whatever.  And so, the data retrieval would be important, the 
	expedited response to subpoenas would be important.  Do any of
	you have any other suggestions of some mechanisms that could be 
	used to help you do your job better?  Yes, sir.
	Mr. Smith.  Mr. Chairman, we have no statutory authority or
	otherwise authority to get administrative subpoenas.  When we 
	enter into an investigation now, and we have an individual�s 
	screen name, we must get a Federal grand jury subpoena to serve
	on that Internet service provider in order to get the account 
	information.  A number of years ago, under the last 
	Administration, beginning with Attorney General Janet Reno and
	it was concluded by Attorney General Ashcroft, the FBI was 
	delegated administrative subpoena authority by the Attorney 
	General.  The authority went to the Attorney General, it was 
	delegated to each individual U.S. Attorney�s Office, and they
	in turn delegated it to the Bureau.  Bureau agents can now write 
	the administrative subpoena out quickly, get it out without
	going for a grand jury subpoena, and get that information back
	a lot quicker.
	The Immigration and Customs Enforcement, they use a tool which 
	I believe is called a customs summons, which is not necessarily 
	designed as an administrative subpoena, but it serves the same 
	purpose lawfully, and they are able to get that information.  
	Postal Inspection Service cannot.
	Mr. Whitfield.  So, Postal Inspection is the only agency in law
	enforcement that would not have the administrative--
	Mr. Smith.  No, at the Federal level, and I am not sure about 
	Secret Service.  I can�t comment on that.
	Mr. Whitfield.  Now, what is the difference in an administrative 
	subpoena and--
	Mr. Smith.  It expedites things.  Typically, we would have to go
	and make a phone call to an Assistant United States Attorney.  
	Oftentimes, we get multiple, multiple names or screen names in 
	an investigation.  Give you an example.  I am going to use the 
	Justin Berry case, and I don�t know all the intimate details with
	that case, but if there were 1,500 names, you have 1,500 screen 
	names that came forward, we might want to know who those people 
	are.  What does that screen name resolve back to on the actual 
	account information?  Who holds the account, where do they live,
	et cetera, et cetera.  We could conceivably go to a U.S. 
	Attorney�s Office, say I need 1,500 grand jury subpoenas, or 
	maybe one, and list out 1,500 names.  It just is cumbersome if
	we have to keep going back and bugging the U.S. Attorney�s Office
	every day of the week to get another grand jury subpoena.  With
	the administrative subpoena, it is a tool that the investigative 
	agency can use to serve.  Of course, it is all tracked and 
	recorded, and they have to account for that information to the 
	Justice Department.
	Mr. Whitfield.  Yeah.  Well, Mr. Swecker would be available to 
	the FBI, correct?
	Mr. Swecker.  It is available at the supervisory level.  It has 
	been delegated down, and he is correct, it gives you the ability 
	to move much faster, you are much more mobile and agile, because 
	probable cause evaporates very quickly in these cases, and you 
	really need to be able to move very quickly and able to get to 
	either the customers or the abusers themselves, so this gives 
	the ability to do that.
	Mr. Whitfield.  Do you know if that tool was used in the Justin
	Berry case, or can you talk about it?
	Mr. Swecker.  Sir, I would love to talk to you about the case,
	but I cannot.
	Mr. Whitfield.  All right.  How many FBI field agents are 
	devoted full time to child pornography, or child molestation 
	cases?
	Mr. Swecker.  We are funded for 127.  We actually have close to 
	250 agents working just Innocent Images, child abusers on the 
	Internet.
	Mr. Whitfield.  250?
	Mr. Swecker.  Yes, sir.
	Mr. Whitfield.  Now, we are told that there are six FBI special
	agents working at the Innocent Images National Initiative, that 
	in fact, two slots are not filled.  Even with having eight
	special agents devoted to this work full-time, given the
	magnitude, do you think that--well, he said 250, but we are 
	told that there are six FBI special agents working on the 
	Innocent Images National Initiative.
	Mr. Swecker.  There are six at NCMEC, at the National Center 
	for Missing and Exploited Children.  It is two agents, four 
	analysts.
	Mr. Whitfield.  Okay.  But we are told that two slots are not
	filled.  Is that correct?
	Mr. Swecker.  They are in the process of being filled.  There is
	normal rotation in and out.
	Mr. Whitfield.  Okay.  Okay.  Now, do you all feel that the 
	financial services industry could do more to assist law 
	enforcement in these cases, and if so, how do you think they 
	could be more effective in what they are doing?  How could they 
	assist you more?  Mr. Swecker.
	Mr. Swecker.  I watched Ernie Allen�s testimony yesterday, and I 
	think those types of initiatives, where you get cooperation 
	from these PayPals and credit card companies and financial
	clearinghouses that enable the payments, some of them, right now,
	it is voluntary cooperation, if there is some method of ensuring
	that they will be cooperative.  Some are more cooperative than 
	others.
	Mr. Whitfield.  Yeah.  Mr. Plitt, do you have any comment on 
	that?
	Mr. Plitt.  We agree.  We assist with those cases, and of course,
	our concern is that much of the money flows overseas.  We are
	looking at the trans-border side of it.  So, any international 
	cooperation from the credit card companies, financial services 
	companies in other countries, is what we target, and we also 
	invite.
	Mr. Whitfield.  And what about digital currencies?
	Mr. Plitt.  Digital currencies.  In the past, I would say 
	eighteen months, digital currencies have started to appear in 
	these cases, and they are absolutely important.  They allow the
	free, unmonitored movement of money between countries, and to 
	various Internet services.  The currency area is something we 
	have been looking at for a while now, and they are occurring in
	these child exploitation cases.
	Mr. Whitfield.  It seems to me the one impediment to effective 
	prosecution in these cases is we have so many agencies across so
	many jurisdictions, and it must require a lot of coordination,
	and working with each other, and teamwork.  You must all be 
	frustrated by the complexity of prosecuting.  Would that be 
	accurate?
	Mr. Swecker.  If I may.  There is plenty of work for everybody.
	And I worked drugs for a good part of my career, saw a lot of 
	overlap and duplication.  We are not seeing that in this area.  
	I think everybody recognizes the importance of it, and I think 
	it is better to have a good number of agencies working it.  The 
	National Center has been a very good clearinghouse for this type
	of activity.  NCMEC has been very effective in that area, 
	because we all have analysts out there.  We all have 
	investigators out there.
	Mr. Whitfield.  Well, I know that many law enforcement agencies
	have jurisdictional disputes, but hopefully, this is one area, as
	you said, where there can be more cooperation and less concern 
	about jurisdictional protections.  I am assuming that is the way
	you all feel about it.
	All right.  My time has expired, so I will recognize Mr. Stupak.
	Mr. Stupak.  Thank you, Mr. Chairman.
	Mr. Swecker, back in �99, Congress passed a law that required 
	Internet service providers to report any knowledge the ISPs may
	have of child pornography to the Cyber TipLine, which is run by
	the National Center for Missing and Exploited Children, and then,
	they must forward that report to law enforcement agencies, and 
	that is 42 USC � 13032, and we have fines in there for failing
	to report and all this.  But this law did not require the service
	providers to monitor, to actively monitor their networks, but
	still, if they came across it, they were supposed to report it.
	Tuesday, we learned from Mr. Allen that this law has never been 
	implemented, because the Justice Department said they refused to 
	issue the guidelines, or take any steps to implement it.  The 
	guidelines were drafted, we understand, in late 2000 under the 
	Clinton Administration.  Attorney General Ashcroft, for some 
	reason, did not want to implement it.  Any reason why?
	Mr. Swecker.  Sir, I am not sure.  It would be a great tool.  We 
	see that success in the bank secrecy area, with the banks making 
	referrals through the SAR process.  This would certainly be a 
	help to us.
	Mr. Stupak.  Were you aware of the law?
	Mr. Swecker.  I am aware of it, but I--
	Mr. Stupak.  Have you attempted to use it?
	Mr. Swecker.  Well, we don�t have any guidelines or regs to 
	implement it yet, so we haven�t been able to use it.
	Mr. Whitfield.  If I may interrupt.  Mr. Swecker, would you talk 
	to the appropriate people at Justice, and ask them to give a 
	formal response to Mr. Stupak�s question on that issue?
	Mr. Stupak.  Because it has been almost 7 years?
	Mr. Swecker.  Yes.
	Mr. Stupak.  And I think you mentioned, Doctor, about the ISPs,
	how important they could be to Internet service providers to 
	helping us, here is a law that Congress did in �99, it is not
	even implemented.
	Mr. Kardasz.  Well, Congressman, one important thing that 
	happened as a result of that law is that we got a flood of child
	pornography investigations that overwhelmed us, that came from 
	some of the responsible ISPs that, when they were finding child 
	pornography on their servers, they were reporting those to us,
	and we are still getting those investigations in today.  So, 
	part of that law is being implemented by those ISPs who have 
	chosen to abide by it.
	Mr. Stupak.  Sure.  Mr. Swecker, you mentioned--oh, Mr. Smith,
	you had a comment?  I am sorry.
	Mr. Smith.  Just to follow up on that, with that law that
	requires ISPs to report violations to the National Center, that 
	is the Cyber TipLine II part of the National Center, the I being 
	the public.  And as I understand it, the larger ISPs do, in
	fact, report the information, but hundreds and hundreds of small
	ones, if not thousands, do not, and then, there is no enforcement
	provision.  There is no penalty associated with non-reporting.
	Mr. Stupak.  Well, there is a civil penalty up to $100,000.
	Mr. Smith.  Okay.  I don�t know is it has ever been pursued.
	Mr. Stupak.  Well, testimony is showing that there are like 215 
	of the ISPs voluntarily report this stuff, but there are 
	thousands upon thousands of thousands out there, and that is not
	even counting the wireless that we are starting to see more and 
	more of now.  So, I mean, it has got to be a phenomenal problem, 
	but we are trying to design laws that will help you out, but when
	they sit for 7 years, and no, the first we learned about it was 
	Tuesday, that there was a problem with it, according to the 
	Attorney General, so that is why the full Chairman and everyone
	else wanted someone here to answer his questions.
	Mr. Swecker, you mentioned the Justin Berry case.  Is Justice in 
	lead on that case?  Who is the lead agency?
	Mr. Swecker.  We are the investigators, and we are the lead
	investigative agency on that.
	Mr. Stupak.  Who would be the lead person in charge of that?
	Mr. Swecker.  Within our agency, there are case agents around the
	country.  Arnold Bell coordinates the investigation from our 
	headquarters.  He is the Unit Chief of the Innocent Images Unit.
	Mr. Stupak.  Right, Mr. Bell, who we asked for today.
	Mr. Swecker.  I would say, sir, that we are trying very hard not 
	to jeopardize any future prosecution.  I think there is logic in 
	not commenting.
	Mr. Stupak.  And I don�t think this committee has ever 
	jeopardized one of your investigations, but I know Justin Berry 
	and everyone else would just like to know what the heck you are
	doing.  You got a very big black eye here Tuesday, and it is 
	getting bigger by the minute, but you just keep saying well, we
	can�t answer these questions.  No one has asked any inappropriate
	questions, and I am sure if it was an inappropriate question 
	which would jeopardize the investigation, the person, Mr. Bell 
	or others, would say I can�t answer that.  We will answer in 
	closed session.  So don�t give us that line.
	You indicated there were 250 agents that work on child 
	pornography in Justice?
	Mr. Swecker.  Within the FBI.
	Mr. Stupak.  Within the FBI.  So you have 250 agents assigned to
	doing child pornography, or do you just have agents who, from 
	time to time, may work on child pornography.
	Mr. Swecker.  That is actual agents working the system.
	Mr. Stupak.  Which their main emphasis would be child 
	pornography.
	Mr. Swecker.  Sole emphasis.
	Mr. Stupak.  Okay.  Mr. Swecker, how about forfeiture statutes.  
	I think ICE has used them.  Has Justice ever used forfeiture 
	statutes to get the assets of these individuals?  Have you ever 
	used that mechanism?
	Mr. Swecker.  We have.  I don�t have any numbers for you.
	Mr. Stupak.  You are familiar with them with drug cases, then,
	right?
	Mr. Swecker.  Absolutely, and white collar cases as well.
	Mr. Stupak.  Any reason why they could not be used here?  Is 
	there anything we have to do to change the law to make sure you
	could use them in child pornography?
	Mr. Swecker.  I think we have the forfeiture tools available 
	to us.
	Mr. Stupak.  Okay.
	Mr. Swecker.  That was one of the things that came into being 
	very early on.
	Mr. Stupak.  Okay.  Let me go back to the Berry case for a 
	minute.  If the FBI has an agreement, there is an understanding 
	out there, it is my understanding, to provide all images to the 
	National Center for Missing and Exploited Children, but Missing 
	and Exploited Children said they have never received anything. 
	So, CEOS, then, probably has nothing from the Berry case.  And 
	the Berry case has been sitting for over, I think, 71 days now,
	if I count.  So, what is going with that, then?  I mean, if 
	National Center has not received the information, then CEOS 
	wouldn�t have received the information.  It seems like it is 
	bottled up in Justice.  Is that right?
	Mr. Swecker.  Well, again, let me just talk generically, if I 
	may.
	Mr. Stupak.  Sure.
	Mr. Swecker.  When we get this volume of images in any case, we 
	have to review it, each one of them, and filter out regular 
	pornography, as opposed to child pornography.  What we forward 
	over, it has to be viewed, and some agent has to get on the 
	screen, or print it out, and look at the images, and then, it 
	goes over.
	Mr. Stupak.  Right.
	Mr. Swecker.  That is as far as I can go with that response.
	Mr. Stupak.  Okay.  Well, if you have got 250 agents exclusively
	doing it, I think someone could get to it in 71 days, I would 
	think.  Seven months, I am sorry, 7 months.  I said--can�t read 
	my own writing--7 months.  So, there is no reason for it.  And I
	can understand why Mr. Berry is frustrated.
	In our testimony Tuesday, I think it was, the reporter from the
	New York Times indicated that credit cards are really the center
	of this, sort of money.  Have you done anything to try to crack 
	down on credit cards, transactions that are used in child 
	pornography?
	Mr. Swecker.  Well, we can only address these credit card cases
	in the context of a case.  I mean, if we go beyond that, we are 
	not regulators, as we know, but we do find quite, I mean, this is
	a chokepoint for these types of cases.  It is a good place to get
	your leads, and it is good place to center, but I will say that
	we get thousands and thousands and thousands of these credit card 
	companies.  The volume is overwhelming.
	Mr. Stupak.  Well, with credit cards, we see with the Internet 
	pharmacy illegal sales.  We see it with drug masking chemicals 
	and devices for drug testing, and we see it with child 
	pornography.  Do you have any recommendations on what Congress 
	should be doing to try to crack down on credit cards being used 
	in an illegal manner like this?
	Mr. Swecker.  Sir, I would have to defer to main Justice on any 
	of those legislative solutions.
	Mr. Stupak.  Mr. Plitt, if I may, you testified that ICE, your
	main areas are border, and then, of course, international, to 
	help.
	Mr. Plitt.  Yes, trans-border.
	Mr. Stupak.  So, like on the Berry case, did you assist there, 
	since there is a tie in to Mexico?
	Mr. Plitt.  No, I believe that, if I recall correctly, the ICE 
	link to the Berry case came through the back door, if you will.  
	Another ICE arrest occurred, and the individual indicated that
	he had purchased, I believe, access to Mr. Berry�s site, so once
	that had occurred, we stepped back, because another agency was 
	handling this case, the Bureau.  There was one arrest, led to a 
	second arrest.  The second arrest was linked to Mr. Berry.
	Mr. Stupak.  Okay.  So, all right.  Dr. Kardasz, if I can, this 
	law we have been talking about a little bit, 13032, where 
	Internet providers, have you tried to access or use that law 
	much?  The Federal law, the one I have been speaking 
	42 USC � 13032, which Internet providers are supposed to 
	contact you?
	Mr. Kardasz.  No.
	Mr. Stupak.  I am sorry, they contact National Center.
	Mr. Kardasz.  No, the way that that law has come to me is just
	that the images--
	Mr. Stupak.  Comes--
	Mr. Kardasz.  --that law have come back to me, and I don�t work
	to enforce that law in any way.
	Mr. Stupak.  So, you are asking that these ISPs retain their 
	information for 1 year?
	Mr. Kardasz.  That would be ideal, sir.
	Mr. Stupak.  Okay.  And then, do you have anything like--in 
	Arizona, is that where you are working, right?
	Mr. Kardasz.  Yes, sir.
	Mr. Stupak.  Do you have anything like an administrative subpoena
	that Mr. Smith spoke of, that allows you to move rapidly?
	Mr. Kardasz.  We do.  It is very helpful.
	Mr. Stupak.  What do they call it out there?
	Mr. Kardasz.  Administrative subpoena, I believe.  But what it
	allows my investigators to do is to write up a subpoena at their
	desk.  The county attorney has authorized them to phone him, or
	contact him by email, tell the county attorney that they have an 
	ongoing felony investigation, give them a little bit of 
	background on what is going on, and then the investigator can fax
	the subpoena off to the Internet service provider, receive the 
	information back from the Internet service provider, which saves 
	the investigator from having to go find a grand jury, or some 
	other legal authority, to get the subpoena authorized.  So, that 
	is the manner in which it speeds up our work.
	Mr. Stupak.  Well, I guess in the bill we are marking up, what 
	we call a markup, I did an amendment to try to get the phone 
	companies and cables and others to develop new technologies to 
	try to prevent child pornography.  Hopefully, that will help you 
	in your work.  Technology as a free market system can come up 
	with, hopefully, that will assist you.
	And one more, if I may, Mr. Chairman.  Mr. Plitt, you indicated
	that ICE was familiar with the Justin Berry case because of the 
	arrest that was made.  Did CEOS ask ICE about Justin Berry at
	all?
	Mr. Plitt.  I don�t believe they did.
	Mr. Stupak.  Okay.  Thank you.
	Mr. Whitfield.  Thank you, Mr. Stupak.  At this time, we 
	recognize the gentleman from Rhode Island, Mr. Bass.
	Mr. Bass.  When Members of Congress from Kentucky look to the 
	Northeast, they see New England as one State.  I actually
	represent New Hampshire, but it is the same to you, sir.
	Mr. Whitfield.  Thank you for reminding me.
	Mr. Bass.  Mr. Waters, I was struck by your testimony, in which 
	you said there were 4.4 million images worldwide, and 1.9 
	million images which appear to be domestic, and I am assuming 
	that is because the source is a domestic address.
	Do you have a way of telling how many hits are occurring on 
	these websites?  And this isn�t a question just for you, but 
	for anybody.  Let us assume the data here is that you have two
	million images, in the United States.  That is your testimony. 
	I would appreciate comment from anybody here.
	Anybody have any idea how many hits there are on these--first 
	of all, how many websites are there, and how many hits are there 
	on them?  So, what is the size of the community?
	Mr. Waters.  Representative, the images that I spoke about,
	those are 1.9 million transactions, where people were offering 
	to traffic in those images.  Now, the 1.9 million, I can trace
	to IP addresses in the United States.
	Mr. Bass.  So, the 1.9 million are the hits.
	Mr. Waters.  That is correct.
	Mr. Bass.  Okay.  I am just trying to get--transaction means
	that you ask for something on the Internet, or receive something 
	on the Internet, and so, there were 1.9 million individual
	requests or receipts for information involving a picture of some 
	child on the Internet, or a message, or something, right?
	Mr. Waters.  That is correct.  This deals with, and this 
	particular investigation, a very small set of movies depicting 
	very young victims, very horrendous activity, when the 
	investigator types in, using the software and searches for
	those, that is the number of download candidates that have 
	been identified over that 24-month period.  We have turned a
	corner somewhat in this area.  It is now easier to download,
	and faster to download 20 minute, 30 minute movies depicting 
	these activities from these file sharing networks than from
	the websites.
	Mr. Bass.  Peer-to-peer you are talking about now.
	Mr. Waters.  That is correct.
	Mr. Bass.  And you have developed software to do what?
	Mr. Waters.  The software allows the investigators to regionalize
	their efforts, while contributing to the global network.  So, 
	the way it is set up, an investigator types in a search term
	consistent with these hardcore movies.  He receives a list of 
	download candidates for those movies, seven or eight thousand 
	at a time.  By submitting that list to servers in Wyoming, ICAC
	servers, he is given back a list that says of those, these nine
	are in your State, and then, he can focus his investigative 
	efforts on those nine.  But in the background, all of those are
	submitted to the central server, so from every other State, the 
	investigators, be it FBI, ICE, ICAC, can connect to that server 
	and receive the list of who saw what where.
	Mr. Bass.  Can you just review, how many sites are there,
	domestically, that provide Internet for child pornography, 
	roughly?  Do you know?
	Mr. Waters.  Well, these move beyond the typical definition 
	of
	a website.  These are actually computers in people�s homes,
	and there are millions.  We have identified in this case, 
	just using that series, over a million, 1.4 million unique 
	IP addresses.
	Mr. Bass.  What do you mean series?  You are talking about a
	specific movie or something like that?
	Mr. Waters.  A subset of movies related to these victims.
	Mr. Bass.  So, it doesn�t even start to address the whole
	breadth of all the pictures that may exist.  This isn�t the 
	whole scheme.  This is just one program, so to speak.
	Mr. Waters.  Correct.  This is just a subset, where I picked 
	very young and very typically violent images of young males 
	and young females.  Like I said, these are typically under 
	8 years old, just in that set.  We started out with about 
	two hundred images and movies.
	Mr. Bass.  And you got 1.9 million individuals that accessed 
	that.  How many pornographic, child pornography websites are
	there domestically?  Did you answer that question, or does 
	anybody know?  Nobody has any idea, do they?
	Mr. Waters.  I don�t think we know, sir.  One characteristic 
	you will see is that oftentimes, these websites will come up 
	very quickly, go down very quickly.  The site managers tend to
	do that, simply because it hides the ownership of the site.  
	So, it is oftentimes difficult to estimate exactly how many there
	are.
	Mr. Bass.  That leads me to another question.  Is there 
	technology being developed on the other side of this to deter
	you?  Is that a sophisticated, active industry in itself, to
	deter your investigation?
	Mr. Waters.  It is.  Of course, they seek to hide their 
	identities.
	Mr. Bass.  Nothing new there.
	Mr. Waters.  Yeah.  Right.  And the technology that they are 
	going to employ is technology that is already out there.  They
	very probably don�t have any research and development activities
	to develop their own technology.  They are using what is 
	available.  And peer-to-peer is a great example, because 
	peer-to-peer is now more frequently used.  It is easier to use,
	and of course, the users are becoming more sophisticated, as 
	generations go on.
	Mr. Bass.  How many rescues do you achieve in a given period?
	Mr. Plitt.  Rescues are--
	Mr. Bass.  Use your mic, please.  Your mic is off.
	Mr. Plitt.  ICE tries to specialize in the trans-border cases. 
	The rescues occur at the local level, so I would refer to the 
	ICACs on those.
	Mr. Bass.  You two gentlemen from the Postal Inspection Service,
	how many of your child pornography cases involve the Internet?
	Mr. Smith.  Today, about 98 percent.
	Mr. Bass.  Ninety eight percent?  Give me an example--
	Mr. Smith.  One aspect of the Internet or the other.  Let me 
	give you an example.
	Mr. Bass.  Okay.
	Mr. Smith.  This case that I just referenced, where the child 
	was victimized in Texas.  That started on the Internet, because
	the bad guy, the police officer in Alabama, contacted the child
	in Texas over the Internet, traveled to Texas, sexually abused 
	her, and then returned to Alabama.  They then communicated 
	through the mail after that.  He mailed her a package, which 
	the mother discovered.  That is how this case came to light. 
	In the package was a vibrator, a digital camera, and a seven
	page, handwritten letter giving her specific instructions what
	to do.  That is a violation of Federal law.  It is a 15-year 
	felony, just the mailing of the camera, if you--any communication
	facility to induce, coerce, or entice a minor to engage in that
	type of behavior.  It is a 15-year hit.  That is one example.
	In chat rooms, targets hook up with the children, bad guys start
	talking to the kids, and then, they want to go to the telephone.
	They will mail the kids calling cards.  Let us talk dirty on the
	telephone.  Oftentimes, we will have a commercial site, which
	may distribute product through the mail.  You have the newsgroups
	out there, where the bad guys all hook up with each other, or 
	in the chat rooms, and then, they end up mailing disks, DVDs, 
	things of that nature, back and forth, although the initial 
	contact is on the Internet.
	Mr. Bass.  So, it is safe to say that the Internet has changed 
	the nature of your investigations dramatically.
	Mr. Smith.  Dramatically.
	Mr. Bass.  Yes, sir.
	Mr. Kezer.  What you have to understand is the reason that 
	percentage is so high is because those are the cases that we are 
	targeting.  Although we are working on the Internet, we are 
	trying to identify cases that have the mail involved.  That is
	our mission.
	Mr. Bass.  One last question.  Hypothetically, if there was one
	thing that Congress could do that is not financial, because we 
	don�t have jurisdiction over financial services, it is not 
	judicial, because we can�t deal with subpoenas here, but it had
	to do with interstate commerce and telecommunications, to assist
	you A, in conducting your, doing your job, or B, suppressing the
	problem, what would you suggest we do?
	Anybody can comment.  And we have got 1 minute and 20 seconds,
	so there is no rush.
	Mr. Kezer.  Sir.  I don�t know who would be responsible for it, 
	but someone had made the comment earlier that law enforcement 
	can�t do it all.  It is absolutely essential that a comprehensive
	public education prevention initiative be developed, long term,
	nationally, and if at all possible, internationally.  It is 
	absolutely essential to curb this tide.
	Mr. Bass.  Anybody else?
	Mr. Plitt.  Yeah, I would like to second that.  We see so many 
	good initiatives, NGOs, that are trying to do the right thing, it
	is just that it is difficult for the person at the center of the
	problem, the child of the parent, to know where to go.  So, a 
	coordinated effort, which is education, which is outreach, even
	victim assistance, would be absolutely fantastic.
	Mr. Bass.  Well, education is also not within our jurisdiction. 
	The only suggestion I have heard all morning has been mandating
	that ISPs store their addresses longer.  Any other suggestions 
	besides that?  Because if this hearing is going to lead to 
	anything, it is going to have to lead to some sort of, if there 
	is a legislative initiative necessary, what role would the 
	Internet and telecommunications play in that solution?  Any of
	you gentlemen follow that?
	Mr. Waters.  Well, I think one other area that might be valuable 
	to us is if we can work more with industry, if there is some way
	that we can facilitate the corporations being able to come 
	forward with solutions for us.  There is a lot of--
	Mr. Bass.  Corporations--what do you mean by that?
	Mr. Waters.  Like Microsoft, for example.  As a good example,
	we have been working with them on tools to establish d
	e-confliction mechanisms, to allow us to share this information, 
	and get data faster to other law enforcement agencies.  We need 
	a serious partnership with business, as well, if that helps.
	Mr. Bass.  My time has expired, Mr. Chairman.
	Mr. Whitfield.  Thank you, Mr. Bass.  Mr. Smith, there is just
	one question, and we will go on to Ms. DeGette.  In this Texas 
	case, what was the age of the victim in that case?
	Mr. Smith.  Fourteen years old.
	Mr. Whitfield.  Fourteen, okay.
	Mr. Bass.  One more thing, if I may, Mr. Chairman.  Mr. Waters,
	the slide that you showed us, Santa Claus and all that, could 
	you provide that for the record?
	Mr. Waters.  I have, sir, yes.
	Mr. Bass.  Okay, good.
	Mr. Whitfield.  Ms. DeGette, you are recognized for 10 minutes.
	Ms. DeGette.  Thank you, Mr. Chairman.
	I want to try to get a sense of the scope of this issue.  As I
	understand it, the U.S. Postal Service has 35 agents working 
	specifically on this issue.  Is that correct?
	Mr. Kezer.  Thirty-five.
	Ms. DeGette.  And what about, Mr. Clark, what about ICE?  How 
	many agents are working from your agency?
	Mr. Clark.  I would have to defer to Mr. Plitt, who runs our 
	Cyber Center, and basically, coordinates our national program.
	Ms. DeGette.  Mr. Plitt.
	Mr. Plitt.  Yes, the total would be about 140.  That is about 90
	agents in the field.  On top of that would be another, let us 
	say 30 or so doing the actual technical forensics, on computers,
	who are not necessarily the case agents.  And then, between 10 
	to 12 at Cyber Headquarters.
	Ms. DeGette.  Okay.  And Mr. Swecker, the FBI, I think, has 
	about 250 agents working on this.  Is that right?
	Mr. Swecker.  That number fluctuates.  It is 250 on the street 
	working the cases.  There is another group at headquarters in 
	the Cyber Division, you might add 20 or 30 agents to that, and 
	those that are at the Center.
	Ms. DeGette.  And Dr. Kardasz, ICAC, how many agents from your 
	agency are working on this issue?
	Mr. Kardasz.  We have four in the Phoenix Police Department, 
	but we are networked through memorandums of understanding with
	about 44, 45 other local, State, and county agencies throughout
	the State of Arizona.
	Ms. DeGette.  So, you are mainly working with local law 
	enforcement agencies.
	Mr. Kardasz.  No--yes, ma�am, but we also work nationwide with 
	the other 46 regional task forces throughout the United States.
	Ms. DeGette.  Okay.
	Mr. Kardasz.  Each of them has groups like mine.
	Ms. DeGette.  Representatives from all these agencies, do you
	all think that you have enough people working on this issue?
	Mr. Kardasz.  No, ma�am.
	Ms. DeGette.  Do you, Mr. Swecker?
	Mr. Swecker.  We can always use more.
	Ms. DeGette.  Yeah.  Mr. Plitt.
	Mr. Plitt.  If we tripled our staff, we would still have 
	significant leads.
	Ms. DeGette.  Yeah.  And Mr. Smith, or Mr. Kezer, whoever.
	Mr. Kezer.  I don�t know if there is a law enforcement agency 
	that doesn�t believe that they could use more resources.
	Ms. DeGette.  Well, I mean, the reason I am asking the--I know 
	my Denver Police Department, they want more agents, too.  They 
	always want me to get Federal money for them, but the thing is, 
	in this situation with this type of cybercrime that is going on,
	it has exploded, it seems to me.  No one would disagree, would 
	you?  So, we have got, I heard today, 4.4 million images, 1.4 
	million users, according to someone�s testimony.  These other 
	countries around the world have maybe 300,000 or something like 
	that.  If someone can tell me, how many pending Federal cases do
	we have right now, involving exploitation of kids on the 
	Internet, sexual exploitation?  Does anyone know?  Mr. Swecker.
	Mr. Swecker.  I know we have an inventory of about 2,500, and 
	then you have heard of thousands of other investigations on the
	part of the Task Forces.
	Ms. DeGette.  How many cases are pending?  How many criminal
	investigations have been filed?
	Mr. Swecker.  You would have to aggregate them all up with all
	the agencies--
	Ms. DeGette.  Thousands?
	Mr. Swecker.  Thousands.
	Ms. DeGette.  Okay.  But we could potentially have many more 
	thousands, if we had enough investigators, right?  It seems to
	me that--I know this isn�t in the purview of our committee, and 
	that has stymied you guys a little bit, but it seems to me, 
	Mr. Chairman, we should really work with the appropriators and 
	the agencies, just to try to get them more resources to fight
	this, because I started my life out as a criminal defense lawyer
	, and for crimes like this, and we saw it happen in this country,
	when child porn was going out through the mail.  When you started 
	enforcing it, child porn went down, right?  I don�t know who can 
	answer that.  Mr. Swecker.
	Mr. Swecker.  It did go down.
	Ms. DeGette.  It did go down.  These are the types of crimes, if 
	you said to these perpetrators, you are going to go to jail for
	15 years, it wouldn�t deter all of them.  There are still 
	criminals out there.  But if they knew that they would be caught
	and prosecuted, it would sure help, wouldn�t it?
	Mr. Kezer.  Certainly.
	Ms. DeGette.  Yeah.  I have a couple questions for Dr. Kardasz,
	and you testified, I thought, very helpfully about some actual
	proposed solutions.  You said that the ISPs should retain the
	information on the subscribers for a year, and that they should 
	have to respond to subpoenas within a week or faster, if it is 
	an emergency, correct?
	Mr. Kardasz.  Yes, ma�am.
	Ms. DeGette.  Well, my question is what is happening right now?
	Can you give me some examples where failure to maintain data 
	has hurt or killed investigations?
	Mr. Kardasz.  Yes, and I think Flint Waters talked about--
	Ms. DeGette.  He did give an example.
	Mr. Kardasz.  There are other cases like that out there, that 
	because the particular Internet service provider didn�t retain
	the data, the investigation just dead ends.
	Ms. DeGette.  How often would you say that happens?
	Mr. Kardasz.  Well, it is hard to put a number on that, and I
	don�t want to give you a bad number.
	Ms. DeGette.  No.
	Mr. Kardasz.  Periodically.
	Ms. DeGette.  Okay.  And do you have an opinion why these ISPs 
	fail to maintain this information?
	Mr. Kardasz.  My sense is that it costs them money to do that. 
	It is not that they are evil.  It is not that they are trying 
	to protect these folks.  But data storage takes a box with 
	storage capacity in it, and it starts to fill up, and that costs
	money.  Retrieving that data takes somebody to go in, takes their
	time to go in and type in the information that they need, and 
	return that information to law enforcement.  So, it is a tie-up 
	of their personnel and their resources.  It is a cost issue for 
	them, I think.
	
	Ms. DeGette.  How often do we have these ISPs refusing to respond
	to subpoenas in a timely fashion?
	Mr. Kardasz.  I can�t respond to well from Arizona, because it 
	really hasn�t been an issue there with--
	Ms. DeGette.  Has it been--
	Mr. Kardasz.  --the ISPs that we have worked with.
	Ms. DeGette.  Anyone else have an opinion on that?  Yes, 
	Mr. Waters.
	Mr. Waters.  Yes, ma�am.  In some jurisdictions, it is as high 
	as 40 percent.
	Ms. DeGette.  Wow.
	Mr. Waters.  Where they either don�t respond, or they say they 
	do not have the records.
	Ms. DeGette.  And have there been efforts made to make these 
	folks voluntarily comply?
	Mr. Waters.  Yes, there have.  We have met with ISPs.  We have 
	also had some meetings facilitated by the National Center for 
	Missing and Exploited Children to help, and some ISPs are 
	becoming very cooperative and helping us.
	Ms. DeGette.  Can you tell me which ISPs are particularly
	uncooperative?  Look, these people are enabling the raping of 
	our children in this country.  I don�t have any sympathy for
	them.
	Mr. Waters.  The ISP that would not respond in the case in 
	Colorado, where we were trying to track down that 2-year-old 
	child was Comcast.
	Ms. DeGette.  Comcast.  Okay.  And what about some other ones
	that are uncooperative?
	Mr. Waters.  In Wyoming, we are actually having excellent 
	support.  I mean, Bresnan, AOL, they are all working very hard 
	for us.  So, that is the only one that comes to mind.
	Ms. DeGette.  Anyone else have some particular offenders you 
	want to identify?  And if people would like to do this 
	privately, we need to know, because we talk to these folks.  
	Yeah, so if you could supplement the record on that, that would
	be swell.
	Let me ask all of you, just one last question.  We have over 
	2 minutes, so we have more than ample time for even what 
	Mr. Bass was asking.  What can be done to improve cooperation on
	these issues between law enforcement agencies?  Let us start with
	you, Mr. Swecker.
	Mr. Swecker.  If you are talking about between law enforcement 
	agencies.
	Ms. DeGette.  Yes, sir.
	Mr. Swecker.  I think there is good cooperation as it is.  We 
	have the State task forces, the ICACs.  They are very well
	networked.  We have the National Center, which is sort of a 
	clearinghouse, and makes many referrals to the State and Federal 
	task forces.  I would go out on a limb, and say this is really a 
	bright spot in law enforcement, in that I don�t think they are 
	out there stepping on each other, and then, when they do, I think
	there is a recognition we need to come together and work them 
	jointly.
	Ms. DeGette.  Mr. Plitt.
	Mr. Plitt.  Yeah, I think all the agencies certainly represented
	here work together, and I think that you also see that over the 
	past several years, they have blossomed in their application of 
	the resources that focus on this problem.  It is almost time, 
	perhaps, to think about some areas of specialization.
	ICE, for instance, tries to specialize in the trans-border area.
	The reason we do that is to effectively apply the limited 
	resources that we have.  Just a thought.
	Mr. Swecker.  May I back up for one second?
	Ms. DeGette.  Yes, sir.
	Mr. Swecker.  One of the chokepoints is forensic examinations, 
	and I would venture to say that each State ought to have at 
	least a statewide forensic lab, if not regional labs, and 
	because that is an area where you get a pretty good backlog.
	Ms. DeGette.  What about prosecutions?
	Mr. Swecker.  Well, you can�t get a prosecution until you get
	that evidence--
	Ms. DeGette.  Right.
	Mr. Swecker.  --out of the computer, the ISP.  Right.
	Ms. DeGette.  So, that is part of--yeah.  Okay.  Dr. Kardasz.
	Mr. Kardasz.  I am very happy with the interagency cooperation I 
	have had with all my law enforcement brothers and sisters.  I
	can�t throw anybody under the bus on that.
	Ms. DeGette.  Mr. Waters.
	Mr. Waters.  We have had excellent support.  It is coordinated 
	through our United States Attorney�s Office, and we don�t have 
	any issue with folks not coming to the table.
	Ms. DeGette.  Mr. Clark is nodding in agreement, it looks like.
	Mr. Clark.  That is right.  I am in agreement with Mr. Plitt, 
	basically, on his answer.
	Ms. DeGette.  Mr. Kezer.
	Mr. Kezer.  I would have to concur.  The investigation of 
	these cases is a specialized field, and quite honestly, most 
	of the investigators know each other, or are familiar.  They
	go to training together.  We couldn�t get the work done unless 
	we were cooperating.  So I would concur.  It is very good.
	Ms. DeGette.  And Mr. Smith, do you agree?
	Mr. Smith.  I do agree, because we all bring, as a unique 
	agency, each of us are different.  We all have different
	jurisdiction and different authorities.  We all bring something
	different to the table, and we all take different investigative
	approaches to identify the bad guys.
	Ms. DeGette.  So, what it really sounds like to me, then, is
	the bottlenecks are the forensic labs, the numbers of 
	investigators we have, and bottlenecks with the ISPs getting
	information to you in a timely fashion, so you can investigate
	and find these perpetrators.
	Thank you, Mr. Chairman.
	Mr. Whitfield.  Thank you, Ms. DeGette, and at this time, we 
	recognize Ms. Blackburn for 10 minutes.
	Mrs. Blackburn.  Thank you, Mr. Chairman.  And thank you all for 
	your patience, for being here with us today, and for caring so 
	deeply about the issue.  It is evident that you all care about 
	your work deeply.
	Mr. Waters and Dr. Kardasz, each of you mentioned the activity, 
	talked a little bit about it by country, and I think Mr. Waters,
	your testimony, you give by country what you have identified,
	and of course, we see the transactions for the U.S. as a much 
	higher number than Germany, Canada, or the UK.
	Mr. Waters.  That is correct, ma�am.
	Mrs. Blackburn.  Okay.  Now, I would like to get inside that 
	number just a little bit, and then, I think it maybe was 
	Mr. Clark, with your testimony, you talked about ICE has 
	successfully arrested more than 7,500 child predators.  Of these,
	6,600 or 88 percent of the arrestees have been non-U.S. citizens,
	and more than 59 percent of those have been deported from the 
	U.S.
	So, my question to you is this.  Why the U.S.?  Are we a magnet
	for this?  Is there something that we are doing, or not doing,
	that would be pulling people that are not citizens here, and 
	finding them involved in this activity, the number of websites 
	is there--you want to get inside those numbers a little bit for 
	me, either of you?
	Mr. Clark.  First of all, the numbers are in terms of the 
	removals.  That brings in our immigration capabilities to the
	fore.  It is not our Internet investigations, per se, but it 
	is resident aliens who have been here, would otherwise be legal,
	but have committed child exploitation crimes, which makes them
	an illegal, and it allows us to remove them from the United 
	States.  So, that is part of those statistics there.
	In terms of the U.S. versus elsewhere, I would say one is
	probably greater Internet capability, more common in the United 
	States than elsewhere.  I would say probably greater recognition 
	in the United States, law enforcement and the public, and 
	greater use of the Internet.  But again, in my earlier 
	statement, I do think that the international community is 
	rapidly growing aware of the issue, and I would refer to the
	Australian government, in terms of following the Falcon arrests 
	in that country, looking to see what they can do, in terms of 
	their laws and regulations, in terms of child exploitation.  So,
	I think it is probably just something we have paid more attention
	to, have more capability of looking at, unfortunately, bad
	people have more access to and can use.  But I don�t think this
	is a cultural or a U.S. problem at all.  I think it is a global
	problem.
	Mrs. Blackburn.  Okay.  Mr. Waters, anything to add to that?
	Mr. Waters.  I would add the numbers that I represented are from
	an operation where we identified primarily movies, large movies,
	and they tend to traffic more over high speed Internet c
	onnectivity, and so, a high saturation of broadband Internet 
	leads to more individuals being able to participate in that 
	trafficking.  But we have clearly identified a large number 
	globally, and we have trained Interpol in how to use it, and 
	they are now actively searching as well.
	Mrs. Blackburn.  Okay.  Mr. Clark, I wanted to come back to 
	you.  Tell me why 3,900 of the 6,600 non-U.S. citizens who were
	arrested were deported instead of prosecuted.
	Mr. Clark.  I am not certain I would say they weren�t
	prosecuted.  I would have to--I am not certain the numbers, 
	3,900.  What would often happen is, in some cases, they have been
	prosecuted and released.  We have gone back out, and taken them 
	administratively, and removed them, based upon the fact that 
	their resident status or legal status, under the immigration 
	authority, is no longer there, so there might have been prior 
	criminal arrests and sentences served.
	Mrs. Blackburn.  Okay.  If you would, then, look back at that
	number one more time in your testimony, and then, kind of 
	clarify that for us, I think that would be great.  I would 
	appreciate that.
	Let us see, Mr. Waters, in your testimony, you talked about a
	situation where an agent witnessed the rape of a child taking
	place.  I think that is your testimony, and what I want to ask 
	you is, when you get information that there is something taking
	place, how often do you get that quickly enough to go in and 
	act, and how often have you been able to remove children from 
	those situations when you get the information timely?
	Mr. Waters.  I think a two-part answer there.  We typically 
	react just as fast as possible.  We have had several cases
	where, because--
	Mrs. Blackburn.  Well, is that hours, days?
	Mr. Waters.  Sometimes, it is hours.
	Mrs. Blackburn.  Hours.
	Mr. Waters.  I have had cases where I have gotten on a plane
	and flown to Houston that day, and--
	Mrs. Blackburn.  Okay.
	Mr. Waters.  And worked the case.  We have had several where 
	we respond immediately.  Depending on the type of material 
	that we are receiving, sometimes, the circumstances dictate 
	that we wait until we get a response from a service provider,
	to tell us where this person is at.  Sometimes, we have to 
	wait to get records from there, tying to, to give us a physical
	address.  So, occasionally, we are restrained by the logistics 
	of the companies to tell us where these offenders are.  But we 
	typically get on them as fast as possible.
	Mrs. Blackburn.  Any idea of the actual number of children that
	you all have pulled out and removed?
	Mr. Waters.  I can speak just to the last couple of months. 
	Maybe the last 6 months, we have had two out of Wyoming, we 
	are a fairly small State.  In our operation, we have had quite
	a few around the country.  We just had one, one of these
	peer-to-peer cases led to an offender in San Diego who was 
	working in a hospital, and was actively molesting four to five
	kids a week, coming into these wards, a respiratory therapist. 
	And in that case, they were able to take him out of a situation 
	where, of the 50 kids on the ward, quite a few of these he was 
	being able to molest.
	Mrs. Blackburn.  So, if the ISP providers, if they are going
	to give you the information, that is going to help you to 
	respond quickly.
	Mr. Waters.  Absolutely.
	Mrs. Blackburn.  What I am hearing is, as Ms. DeGette was 
	saying, many times that is your bottleneck.
	Mr. Waters.  That is correct.
	Mrs. Blackburn.  That is what slows you up.
	Mr. Waters.  Yes, ma�am.
	Mrs. Blackburn.  Okay.  Now, out of the ones that you have been
	able to respond quickly to over the past couple of months, what
	number were you hampered from responding in a timely--could you 
	have gotten in there and done your work?
	Mr. Waters.  Well, it is difficult to say.
	Mrs. Blackburn.  Okay.
	Mr. Waters.  I would have to draw a conclusion based on 
	information I didn�t get, so I don�t know how many of the
	records that failed to come back would have led us to a child in 
	danger.  But one is far too many.
	Mrs. Blackburn.  Okay.  In talking about your work with other 
	agencies, are all of you satisfied with the interaction that you 
	are getting from the Department of Justice?
	Mr. Waters.  If I can speak to that, we are very satisfied with 
	the support that we are getting.  In Wyoming, the United States
	Attorneys call our office to see if we have any cases we need
	help with.  If they don�t hear from us in a week or two, we 
	get a call, and they want to know how we are doing.
	Mrs. Blackburn.  Okay.
	Mr. Kardasz.  May I respond to that?
	Mrs. Blackburn.  Yes, you may.
	Mr. Kardasz.  The OJJDP grants that we work under are very 
	helpful, and the coordination that is done at the administrative
	level of the OJJDP really helps us locals to put our programs
	together, and then work with all the other Federal agencies.
	Mrs. Blackburn.  Okay.  All right.  And I think, Mr. Chairman, I 
	will yield back.
	Mr. Whitfield.  Thank you, Mrs. Blackburn, and at this time, I 
	will recognize Mr. Inslee for 10 minutes.
	Mr. Inslee.  Thank you.  Mr. Waters, you mentioned something like
	1.9 million images through the peer-to-peer system, and did that,
	at least in your first review, did each one of those cases, at 
	least on a prima facie basis, could constitute a crime in and of 
	itself, the retention of, receipt of those images?
	Mr. Waters.  Yes, sir.
	Mr. Inslee.  So, we had 1.9 million potential crimes.  How many
	of those have been prosecuted?
	Mr. Waters.  I don�t know nationally how many.  I can speak to 
	those that have reported back to me.  I know they did a sweep of
	about 40 in New Jersey, they did 70 in North Carolina.  We have
	done 40 or 45 in Wyoming.  I only know the ones that get back to
	me, and let me know how it has gone.
	Mr. Inslee.  So, that is about 165 out of 1.9 million.  The 
	1.9 million may not be separate individuals.  There might be 
	multiple same people.
	Mr. Waters.  Yes.  That is correct.
	Mr. Inslee.  So, let us cut it in half, and say 800,000.  So, 
	out of the, say, 800,000, we have had 165 prosecutions, and my
	constituents are going to ask the obvious question, so I will 
	ask it.  Why so little with that enormous floodtide?  Is it a 
	resource issue, and if so, could you describe how we could help 
	you in that regard?
	Mr. Waters.  Well, it is absolutely a resource issue.  We are 
	hitting them as fast and as hard as we can.  One of the biggest 
	things that we run into, again, are delays or lack of records. 
	So we have an IP address.  We can identify that there is an 
	offense, but we may not be able to identify an offender.  But by
	sheer numbers, it is just, we have more than I have the 
	man-hours to send guys out on.
	Mr. Inslee.  What could you usefully use, as far as increased 
	resources, what could you efficiently use to pursue these 1.9 
	million incidents, do you think?  A doubling, a tripling of your 
	resources?  What do you think?
	Mr. Waters.  Well, I think a tripling, we would still be falling
	behind.  As it stands right now, I am bringing in about six, 
	seven new leads in Wyoming a week.  We are currently able to hit
	one search warrant every week or every 2 weeks, so even if we 
	triple, we are still falling behind, as we are finding these 
	leads.
	Mr. Inslee.  So, I have this sense that if there were oh, bank 
	robberies where you had 1.9 million bank robberies, but only 165 
	prosecutions, there would be a very large hue and cry to solve 
	this problem, and that we would have resources to you to get 
	that done.  Do you kind of share that view?  I get this sense 
	that somehow, this has not received the priority that at least 
	I think most of us here would believe that it should.  Do you 
	have any sense of that?
	Mr. Waters.  I share that view, and I thank you for drawing 
	attention to that, because we have been yelling at every rooftop
	we can get on.
	Mr. Inslee.  So, let me ask some of the Federal personnel here,
	start with Mr. Swecker, for instance.  I have a sense, I think 
	you testified there was a 2,050 percent increase in images in 
	one of these databases in the last 10 years.  What increase in
	resources would you estimate there has been, if any, in the 
	last 10 years, to this problem Federally from Federal agencies,
	all told, or at least from yours?
	Mr. Swecker.  Well, we went from zero to 250.  We actually 
	have--that is a little lesser number than we had over the last 
	couple of years, because we, truthfully, have had to divert 
	some over to terrorism.  But we had to borrow those 250, or 
	reprogram those 250 from our Criminal Division.  So, where all
	that goes, to say that there is always room for more resources,
	I agree.  We could put a thousand FBI agents, and thousands more
	officers on it, and we wouldn�t put a dent in that number that
	you just gave.
	Mr. Inslee.  And what does this year�s budget do to help in that
	regard?  Do you have any idea?
	Mr. Swecker.  We have no enhancements for this--well, we got 22,
	I think we got 12 agents and ten analysts.  We got 22 positions.
	Mr. Inslee.  So, in the current budget, passed by this Congress,
	we have 1.9 million potential crimes, and we have got no increase
	in resources to deal with that, even though we could, at least 
	in one agency, triple it, and use it efficiently.  That is a fair
	statement.
	Mr. Swecker.  We have zero enhancements for �07.
	Mr. Inslee.  Okay.  I may note, that is not your gentlemen�s 
	responsibility.  It is ours at this table, just so the 
	responsibility is in the right location here.
	Mr. Swecker.  I would also go back to the forensic laboratories, 
	too, because I think those are critical.
	Mr. Inslee.  Mr. Waters, in the peer-to-peer situation, does 
	the problem with ISP records exist in that context, or is that
	a different situation?
	Mr. Waters.  It exists very much in that context.  In fact, it
	is most exaggerated, I think, in the context where we are 
	reliant on the IP address to find the offender.
	Mr. Inslee.  Okay.  I want to ask you about foreign 
	prosecutions, where there is a person outside the United States,
	when they are sitting at a computer that is involved in this, 
	what is our situation?  The father of a victim who testified 
	here last week was apparently, asserted was involved while in
	Mexico.  What options exist for us, what handicaps do we have
	in that kind of context?  And I will ask that to anyone in the 
	panel who wants to take that on.
	Mr. Plitt.  ICE was in that situation very frequently.  We do
	have some remedies.  We have quite a few countries that are,
	for lack of a better term, waking up, strengthening their laws, 
	if they have older ones, they are adding laws, if they don�t 
	have it.  I think that in the next few days, a report will be 
	released, out of NCMEC, I think, that will indicate that--and 
	it will surprise the panel here--few countries actually have 
	child exploitation laws on the books already, very few.  
	Nevertheless, the governments that we work with, they want to 
	help us in these cases as much as they can.  They are concerned
	about children, of course.  They are also concerned about their
	national reputations, and quite frequently, we will have the 
	law enforcement agencies from those countries work to get us 
	the evidence that we need, and in some cases, extradite.
	Mr. Inslee.  But is your understanding that we--I mean, do we
	have jurisdiction in a case where a person is sitting in 
	Mexico, and is abusing through the Internet inciting, exploiting
	a child, do we not have criminal jurisdiction to assert to 
	extradite that person, assuming that we have the resources to
	do it, and the case to do it?
	Mr. Plitt.  Assuming we have the resources, yes, we would.  A 
	very good example is the child sex tourism cases, where an 
	individual is traveling out of the country to have sex with a
	child.  If that individual is a U.S. citizen, that individual,
	upon return, or still in the country where the act occurred, 
	is subject to U.S. prosecution.
	Mr. Inslee.  Given the assertions by Mr. Berry, it is hard for 
	us to understand, given that, why there hasn�t been a
	prosecution, in Mr. Berry�s case, of this individual who was in 
	Mexico, allegedly exploiting him, I am having--understand who 
	is his father, so it is not an identification issue.  What 
	possible reason for there not for, that to be at least started
	on the prosecutorial trail?
	Mr. Plitt.  I don�t know.  Again, that case wasn�t brought 
	before ICE.  ICE had a linkage to it, simply because it had 
	arrested another individual that had dealt with Berry, and then 
	that was moved to another agency, I believe the FBI.
	Mr. Inslee.  Mr. Swecker, do you have any insights on that, on
	what possible reason there would be for not pursuing that?
	Mr. Swecker.  Well, let me just resort to talking generically 
	about the international investigations.  It is really hit or
	miss on an international level.  Eastern Europe is a problem,
	mainly from a training aspect, and the aspect of not necessarily
	having the laws to address it, and there is a need for some 
	international training in this area.  There is a need for some 
	strengthening of the laws in these areas, and then, they will
	not render their own citizens.  As a general rule, they won�t 
	render their own citizens back to the U.S.
	Mr. Inslee.  Well, let me just sort of interrupt you a second. 
	I have only got a little bit of time, but if you have got an 
	American citizen in Mexico, who is clearly identified as the
	father of the victim, who has these assertions, under American
	law, using American resources, using American tools, if you 
	will, why could we not pursue that without necessarily depending 
	on the investigatory resources of Mexico?
	Mr. Swecker.  We could, if there were charges filed, there 
	is--you have to have charges filed.  You can put a Red Notice 
	out through Interpol.
Mr. Inslee.  And I yield to Ms. DeGette.
	Ms. DeGette.  Thank you.  Well, from what we understand, the 
	Department of Justice refused to take jurisdiction on the case.
	Is that correct, Mr. Swecker?
	Mr. Swecker.  I have pretty strict instructions not to discuss
	that case.
	Ms. DeGette.  Mr. Plitt.
	Mr. Plitt.  Don�t know.  We are not--
	Ms. DeGette.  Well, but jurisdiction has been declined.  Why 
	can�t you discuss it?  It is not a case under investigation or
	prosecution.
	Mr. Swecker.  Well, there is always the potential for 
	prosecution in that case.
	Ms. DeGette.  Who would know?  When we bring the Attorney 
	General in, will he know?
	Mr. Swecker.  I would defer to main Justice.
	Mr. Stupak.  Well, Mr. Berry is here in this room.  Can any of 
	you give him any reassurance that someone is honestly looking at
	his case?  It has been 7 months, 1,500 names, websites, credit 
	cards, everything he provided you guys.
	Ms. DeGette.  Testimony.
	Mr. Stupak.  Testimony.
	Mr. Swecker.  This case is being aggressively investigated.
	Mr. Stupak.  That doesn�t do anything for Mr. Berry or for any 
	of us up here.
	Mr. Swecker.  I would defer to them, as to whether they are 
	satisfied.
	Mr. Inslee.  I just want to speak.  I am a former prosecutor,
	and feel very strongly about the integrity and success of 
	prosecutorial efforts, and this has been a huge black eye for 
	the country, and a lot of doubt created, so I think all of us 
	have an obligation to get with the task at hand.  Part of that
	includes cooperating with this panel, which I hope you will 
	spread that message, to the extent you can convince people, to
	figure out how to solve these problems.  I think that is very 
	important.
	My time is up.  Thank you.
	Mr. Whitfield.  Thank you, Mr. Inslee.  At this time, we 
	recognize the Chairman of the full committee, Mr. Barton.
	Chairman Barton.  Thank you, Mr. Chairman.
	I don�t think I am going to take 10 minutes.  And if this 
	ground has been plowed while I was gone, I apologize, but 
	Mr. Swecker, where are you in the chain of command at the 
	FBI?
	Mr. Swecker.  I am the Acting Executive Assistant Director for
	Law Enforcement Services, which puts me directly over both 
	Cyber and Criminal Divisions, directly in the chain of command
	on these violations.
	Chairman Barton.  And who do you report to?
	Mr. Swecker.  I report to the Deputy Director.
	Chairman Barton.  Who reports to?
	Mr. Swecker.  To the Director.
	Chairman Barton.  Director.  So, you are third down from the 
	Director, and you are in the operational chain of command. 
	You are not a staff assistant.
	Mr. Swecker.  I am directly accountable for anything, all 
	things cyber.
	Chairman Barton.  Okay.  Does the name, and if I am 
	mispronounce it, I apologize, Raul Roldan mean anything to you?
	Mr. Swecker.  Raul Roldan is one of our section chiefs.
	Chairman Barton.  And he reports to you?
	Mr. Swecker.  He reports to a Deputy Assistant Director, who 
	reports to an Assistant Director, who reports to me.
	Chairman Barton.  So, he is three down from you?
	Mr. Swecker.  Yes.
	Chairman Barton.  Now, why could he appear on CNN today, but he 
	couldn�t appear before this subcommittee?
	Mr. Swecker.  Well, I wasn�t involved in that decision, but my
	understanding is that he did not comment on this investigation
	whatsoever.  He was talking generically about crimes against 
	children on the Internet.
	Chairman Barton.  I didn�t ask that question.  My question is,
	we specifically asked for him.  We are not upset that we have 
	you.  You are at least a line officer, which is an upgrade from 
	the main Justice Department, but the specific person that we 
	asked for, they flatly refused to have him testify.
	I want to know why.
	Mr. Swecker.  I think there was concern that he would end up
	commenting on this case, and there were strict instructions not 
	to comment on this case.
	Chairman Barton.  Well, I want you to tell the Director, because
	I am going to tell him or ask him, if this gentleman doesn�t 
	testify voluntarily, he will testify under subpoena.
	Mr. Swecker.  Yes, sir.  I will pass that on.
	Chairman Barton.  And I mean, that is not a threat, that is a 
	fact.  So--
	Mr. Swecker.  I understand.
	Chairman Barton.  I am fed up with being told by my friends, we 
	have a taped message on the cell phone, or one of our committees,
	that the Justice Department wasn�t going to testify, period.  We 
	are going to change that.  And I thank you for coming.  I do have 
	some general questions.
	For my first question, and I don�t know if I direct it to you, 
	or our postal people, are the laws for transmission of Internet 
	child pornography the same as transmission of pornography, child
	pornography through the mail?  Is it the same law?
	Mr. Smith.  There is a number of statutes, but it is primarily 
	the same one, 18 USC � 2252, that is our bread and butter statute
	that we charge probably in 90 percent of the cases.  That 
	involves the unlawful receipt or distribution of any child abuse 
	images, child pornography, that travels interstate, foreign 
	commerce, over computers or via mail.
	Chairman Barton.  But it is basically the same.
	Mr. Smith.  Same statute covers them all.
	Chairman Barton.  Do we need a special statute specifically for 
	child pornography on the Internet, as opposed to through the
	physical mail?  Would that be helpful, or is that unnecessary?
	Mr. Smith.  No.  I think we have adequate legislation there.
	Chairman Barton.  Okay.  Is it illegal for an adult in the United
	States to possess child pornography, the possession is illegal
	in itself?  Okay.  Mr. Waters, who is one of our undercover 
	agents here, in order to prosecute a case, and I am talking 
	generically, do you have to watch a perpetrator commit an act 
	over the Internet as an eyewitness, or do you have to just 
	have knowledge of it, from the child who was abused in the 
	act?
	Mr. Waters.  We do not typically have to watch it.
	
	Chairman Barton.  You don�t.
	Mr. Waters.  No, sir.
	Chairman Barton.  So, what is the burden of proof?  What is the 
	standard of proof to prosecute?
	Mr. Waters.  Well, depending on the type of act, we still have
	the same burden to prove beyond a reasonable doubt what occurred,
	but frequently, we get this information from the victims that 
	were involved, from the forensic analysis of the computer.  Some 
	of these individuals even turn on their own webcam and film 
	themselves while they are committing the crime.  So, usually, it 
	is a combination of testimonial and physical evidence that allows
	us to overcome that burden.
	Chairman Barton.  And do you agree or disagree that we don�t 
	need any strengthening of the laws in this area?
	Mr. Waters.  I don�t know of any strengthening of the laws, 
	federally, that--
	Chairman Barton.  You don�t think it is necessary.
	Mr. Waters.  I believe we have adequate legislation.
	Chairman Barton.  Okay.  Okay.  Well, Mr. Clark testified that 
	law enforcement can�t do it alone, and I agree with that.  We 
	expect you folks to help us enforce it, but every one of us up 
	here, I believe, is a parent, and in my case, a parent and a
	grandparent, and we have to be involved, too, and the community
	has to be involved.  And I want to thank you, Mr. Waters, for 
	your testimony, and some of the displays that you put up.
	How did you get picked to be here, since you are from Wyoming, 
	just out of curiosity?
	Mr. Waters.  I believe I got picked because I work on the 
	technical side.  I spent a few years as a systems programmer,
	and so, when the ICAC Task Force runs into a technical
	challenge, I co-chair the Technology Committee, so at the--
	Chairman Barton.  Are you in Wyoming or here?
	Mr. Waters.  Cheyenne.
	Chairman Barton.  So, you had to fly in from Wyoming to be here.
	Mr. Waters.  Yes, sir.
	Chairman Barton.  Did anybody in the agency pressure you not to 
	testify?  Did you volunteer to testify?  I mean, I am glad you
	were here, because you are very credible and very committed, but 
	it is just odd we can�t get them to come from four blocks away, 
	and yet, they can fly you in from Wyoming.
	Mr. Waters.  Well, no one pressured me not to testify.  I am 
	here because of the program and working with OJP, Office of 
	Justice Programs.  They helped fund a lot of the work that we 
	are doing, and they asked, and I said I would be honored.
	Chairman Barton.  Okay.  And Mr. Swecker, I need to give you a 
	chance to stand on your soapbox a little bit, since I have.  Is 
	there anything that the Congress is not doing, that we should 
	be doing, to help the FBI prosecute these criminals?
	Mr. Swecker.  Well, we think we have the laws that we need.  I 
	think I would resort back to Mr. Stupak�s point, or Congressman
	Stupak�s point, about mandatory referrals.  We probably need to 
	get that going.  In the banking industry, we know that it has 
	been tremendously successful in getting suspicious banking 
	transactions referred to us.
	I would also, again, just beat the drum for the forensic 
	laboratories, because again, that is a chokepoint when it comes 
	to the forensic analysis.  We have the laws, but we need the 
	training.  We need to export the training to the State and local
	level as a much faster pace, and get the resources out there to 
	the State and local officers where they need it.
	Chairman Barton.  I am not disputing what you just said, but 
	I am confused a little bit.  Child pornography is obvious.  What
	is forensic about that?  What kind of a laboratory do you need 
	to dissect if you have a picture of a minor child engaged in a 
	sexual act with an adult, that that is a crime?
	Mr. Swecker.  It is getting to the picture.  It is pulling it out
	of the hard drive, or identifying the ISP, identifying the 
	specific addresses, of which there would be thousands, and 
	pulling all that information out of the computer.  That is what
	we are calling a forensic analysis.
	Chairman Barton.  I see.  Okay.  Thank you.  Thank you, 
	Mr. Chairman.
	Mr. Whitfield.  Thank you.  I do want to reiterate, you all did 
	indicate, though, that it would be helpful if we had the 
	mandatory data storage for a period of time, and that, as you 
	said, to clarify, the Internet service provider providing the 
	tip to the Cyber TipLine, though those are two areas that we 
	definitely could do something about within our jurisdiction.
	Ms. DeGette.  Mr. Chairman, also responding to the subpoenas
	within--
	Mr. Whitfield.  And responding to the subpoenas.  At this time, 
	we recognize Mr. Walden for 10 minutes.
	Mr. Walden.  Thank you, Mr. Chairman, and I want to follow up 
	a bit on the Chairman�s comments.
	As I understand it, under 42 USC � 13032, ISPs are required to
	report all child pornography images to NCMEC, correct?  Isn�t 
	that--whoever is the certified expert here?  I want to clarify 
	that the position of law enforcement here, that you would like 
	all ISPs to have to both register and report in known child 
	pornography, to the Cyber Hotline, and it is my understanding 
	there are only like 215 ISPs that are registered, and there 
	must be thousands out there.  Can any of you, or whoever feels
	comfortable, comment about that, and what progress needs to be
	made there, and what we could do to help along those lines? 
	Okay.  Somebody must have an answer here.  There are only 215 
	registered, there are thousands out there.  What enforcement 
	capability do you have?
	Mr. Smith.  The largest ISPs, I believe, are in compliance, from
	what I have learned in my conversations with Ernie Allen and
	John Rabin over at the National Center, but there are many, many
	smaller ISPs that either aren�t aware of the law, or they are 
	ignoring the law, whatever the case may be.
	Mr. Walden.  All right.  Thank you.  Mr. Swecker, you are in 
	charge of all things cyber, you said.  This must fall under your
	jurisdiction.
	Mr. Swecker.  It does.  I think there is some confusion on the 
	part of the industry as to the content of what they are supposed 
	to refer.
	Mr. Walden.  Okay.
	Mr. Swecker.  They are looking for a safe harbor, I think, that
	immunizes them against lawsuits for making the referral, plus I 
	don�t think they know whether they are able to send the images 
	across.
	Mr. Walden.  Sure.
	Mr. Swecker.  So, I think there needs to be some more specific--
	Mr. Walden.  Who comes up--you said, I think, that you don�t 
	really need any new laws to work in this area, so whose
	responsibility is it to clarify this?  Do you need clarifying 
	language from the Congress?  Do you issue directives and
	rulemakings?
	Mr. Swecker.  That goes to the Legislative Affairs Offices of 
	both Justice and the FBI, and I think they could, we could give
	you some more details on that.
	Mr. Walden.  That would be helpful, because it just strikes me, 
	if we have got the law in place, and you say it is, it is really
	functionally useless if it is not being enforced because there 
	is confusion.  And I know you all have your hands full, clearly,
	and probably literally, in some of these areas, and so, I guess 
	the question is what do we do to help, and how do we get it
	clarified?  If ISPs don�t know they are supposed to register,
	there should be a mechanism set up to help on that, and then, to
	clarify this issue.  Because I know we had testimony from the 
	gentleman from the New York Times that he had to work with an 
	attorney, be very careful as he did his investigation, not to run
	afoul of the law by going to a site clicking the wrong time runs 
	you afoul of the law.
	And Mr. Swecker, I want to go to you, because you work in this
	area.  Tell me just generically, if you have a child victim of 
	pornography, and some predator has abused some child, and it is
	going on, what sort of knowledge do you need as a prosecutor?
	Mr. Swecker.  To elicit the evidence from the victim, or--
	Mr. Walden.  To elicit the evidence from the victim, to pursue 
	the case, how urgently do you get involved?
	Mr. Swecker.  It is very urgent.  These have to be handled with
	a lot of care.  Victim/witness specialists need to get involved 
	very early on.  Child interview specialists need to get involved.
	We need to find the website.  We need to find the person that is
	actually abusing the child, and so that is what we are trying to 
	elicit from the child.
	Mr. Walden.  And so, you would bring the child in immediately, I 
	would assume.  You would interview them.  You would set up--if 
	they came in and said not only has this just happened to me, I 
	know it is going on to somebody else at this moment.  Tell me
	how the FBI responds.
	Mr. Swecker.  We need to get as much information as we can out 
	of the child, as to the identity and the location of the person 
	that is doing the abuse.
	Mr. Walden.  And so, once you do that, let us say you get IP 
	addresses, then do you turn that over to some sector within the 
	FBI?
	Mr. Swecker.  Well, the first step is to get the website, you 
	work on the Internet addresses that are accessing the website.  
	Our focus really is on the abusers before we go to the customers.
	It is on the website administrators.  It is on the financiers.  
	To draw an analogy, would be we don�t necessarily go after the 
	drug users.  We immediately go after the abusers.  Those would 
	be analogous to a distributor.
	Mr. Walden.  Okay.  All right.
	Mr. Swecker.  The person who is actually producing the 
	pornographic material.  That means a child is being abused.  That
	is where you want to go first.  Find the person who is actually 
	abusing.
	Mr. Walden.  And if you know of an abuse, if you are told there 
	is an abuse going on.  We have heard some testimony here and 
	elsewhere, that literally, some of these perpetrators use the 
	camera on themselves, in real time, you could watch on the 
	Internet, abuse going on.  Tell me what the FBI does, or the 
	Department of Justice does, if I walked in today, and said I 
	just was flipping through the Internet, and came across this.  
	Here is the address.  It is happening as we speak.
	Mr. Swecker.  Well, in that instance, I mean, I don�t know if 
	we could move quickly enough to get them while they were in the 
	act.  I mean, that has happened on occasion.  You have been 
	lucky enough, or you have been able to set up a situation where
	somebody was actually on the website, and actually either 
	accessing or producing that type of material.
	Mr. Walden.  But if a child presented himself or herself to one 
	of your officers, if I came to you and said I just came from the 
	credit union, and there is a guy with a gun in there in the face 
	of the teller, tell me what happens.
	Mr. Swecker.  Well, we could, as quickly as we could, we would 
	intervene.
	Mr. Walden.  If I come to you today, and say on the Internet 
	right now, at this address, this is going on.  Tell me what
	happens.
	Mr. Swecker.  Probably the quickest way to get to it is to pose 
	undercover, and try to attempt to get access while that person 
	is on, and that may be one of the quickest ways, when you have 
	a proactive situation like that, to get very quickly to the 
	person.
	Mr. Walden.  You are going to move proactively.
	Mr. Swecker.  Right.
	Mr. Walden.  Right away, even if it means sacrificing evidence,
	I would assume.
	Mr. Swecker.  You still have to find the location where they 
	are doing this from.
	Mr. Walden.  Sure.
	Mr. Swecker.  It could be a library.  It could be an Internet 
	cafe.
	Mr. Walden.  Let us say the child presents herself, and says
	here is the IP address.  This is the same person that molested
	me.  Here is the name.  Here is the address.  It is going on 
	now.
	Mr. Swecker.  We would attempt to get a search warrant, and go 
	out at that real time.  And I will defer to these other 
	investigators, who are actually on the street, to respond as
	well.
	Mr. Walden.  If you knew Bad Santa was operating in the 
	mall.
	Mr. Waters.  I am going into his living room.  If he is at
	home, and it is active.
	Mr. Walden.  You are going right now, aren�t you?
	Mr. Waters.  I am going right now.  I am calling the ISP, 
	finding out where it is at, and we are going to be in the 
	door.
	Mr. Walden.  All right.
	Mr. Waters.  If we are not close enough, we will get ahold of 
	the local PD, and they will be in the door.
	Mr. Walden.  So, does that happen in a matter of weeks, days, 
	hours, minutes?
	Mr. Waters.  It varies based on the case.
	Mr. Walden.  Sure.
	Mr. Waters.  But if I have credible information right then, I 
	have had cases where I call the ISP, and they give me an answer
	now.
	Mr. Walden.  Is that right?
	Mr. Waters.  We get an answer, there is an emergency clause 
	that allows us to get that, and we go.
	Mr. Walden.  And you go.  Okay.  Let me go to the issue of 
	affidavits.  Unlike some of my colleagues, I am neither an 
	attorney nor have I ever been a prosecutor.  And usually, in my 
	town meetings, when I say I am not an attorney, there is a 
	little ripple of applause.  No offense to attorneys.
	Explain to me on affidavits in criminal cases, circumstances 
	where victims� names are released.  Explain for me affidavits, 
	they get unsealed, victim�s names are put out in the public. 
	Is that sort of normal operation?  The court says keep this 
	sealed, and then, it becomes unsealed.
	Mr. Swecker.  Well, affidavits in this type of case are often 
	sealed, but they can�t stay sealed forever.  Eventually, 
	particularly when you start the judicial process.
	Mr. Walden.  You have a right to--
	Mr. Swecker.  They have a right to confront the witness against
	them.
	Mr. Walden.  Sure.
	Mr. Swecker.  And at some point, the affidavit is unsealed.  I 
	mean, you can get a search warrant on confidential information, 
	to protect the identity.  You don�t necessarily have to name 
	the person.  It depends on how much corroboration you have.
	Mr. Walden.  If an affidavit is accidentally unsealed, which I
	assume occurs from time to time, clerical error, and the victim
	tries to get it, and asks for it to be sealed again, what 
	obligation does the Government have to ensure that that victim�s
	identity or whatever, if it is allowed to be resealed, that the 
	affidavit gets resealed?
	Mr. Swecker.  I know what you are referring to, and I am trying--
	I will try to answer your question without getting into--
	Mr. Walden.  You are trying to dodge it.  I understand that.  I
	haven�t named names.
	Mr. Swecker.  --specific facts.  But the first step would be to
	notify the person, and offer protection.  That would be the first
	investigative step.  The rest of it would be up to a prosecutor 
	to reseal the affidavit.
	Mr. Walden.  What should--if it is supposed to be resealed, what
	sort of timeline should a victim anticipate for that resealing 
	to occur?
	Mr. Swecker.  I would have to defer to the prosecutors on that, 
	as to what a reasonable time--
	Mr. Walden.  Who is a prosecutor here who has ever been through
	one of these?  Have you ever, sir, from the great State of
	Wyoming?  You are an investigator.
	Mr. Waters.  Strictly an investigator.
	Mr. Walden.  Have you ever heard of this sort of circumstance?
	Mr. Waters.  We work in a different model.  We don�t typically
	put victims� names in our affidavits.
	Mr. Walden.  Really?
	Mr. Whitfield.  This is when we should have Mr. Mercer back.  We 
	released him this morning, but he is the U.S. Attorney for Montana.
	Mr. Walden.  Yeah, but--well, Wyoming is near Montana.  Which is
	are we getting closer to Washington?  I don�t know.  One final 
	question, if I might, Mr. Chairman.
	There has some concern been expressed about extraterritorial 
	application of the law, because in some cases, some of this child 
	pornography is actually being put on the Internet in a foreign 
	country, but it is received in this country because of the global
	nature of the Internet.  Is that an area where the law needs to be 
	changed, or can be changed?  Is that an area that precludes your
	ability to engage in enforcement?  Let us say if somebody were in,
	oh, Canada, or maybe Mexico, and transmitting this sort of 
	pornography.  Can you go after it?
	Mr. Clark.  I would say our laws are satisfactory.  Oftentimes, 
	the foreign laws aren�t as satisfactory, but we do have relatively
	good cooperation on a number of fronts with foreign governments, 
	as far as working those types of cases.
	Mr. Walden.  One final question.  Digital currency, this is sort 
	of new to me.  Can you explain?  I understand that is sort of the 
	new underground way to engage in payments without fingerprints, 
	if you will.  Digital currency.  Is this an area we need to 
	explore more?
	Mr. Plitt.  Yes, it probably is.  Digital currency is simply the
	situation where an individual put money on the Internet.  You 
	can do that through any brick and mortar location.  I will give 
	you an example in a second, but when the money is put on the 
	Internet account, then the money can be used on the Internet to 
	buy access to legitimate sites, to child exploitation sites, to
	buy items off of the Internet, regular merchandise.  It can also
	be taken off the Internet through another brick and mortar 
	location somewhere else in the world.  Currently, it is not 
	regulated.  A simple example I would give is that we had one 
	investigation where memberships were being purchased with
	e-currency, and a lot of the e-currency documents, if you will,
	were charged with money in Australia.
	Mr. Walden.  Okay.
	Mr. Plitt.  To the tune of approximately $30 million a year.
	Mr. Walden.  So this could get completely around the Bank 
	Secrecy, or whatever those--what is the law they have to follow
	in a bank?
	Mr. Plitt.  Bank Secrecy Act.
	Mr. Walden.  Yeah, if $10,000 in cash or more.  So you just do 
	it in a foreign country, put it in, pull it out somewhere else.
	Mr. Plitt.  Yes, and to date, though, the services, the 
	companies that provide the service, have been very, very
	cooperative with us to track that, yeah.
	Mr. Walden.  All right.  Well, if you have specific suggestions 
	in this area, I would certainly like to work with you on it.
	Mr. Plitt.  Very good.  If I could, one other response.
	Mr. Walden.  Sure.
	Mr. Plitt.  Since I have the mic.  You were asking about 
	victim/witness issues.  One to keep in mind is one that is very,
	very complex, and that is the child sex tourism cases, where 
	the individual was traveling to another country to have sex 
	with a child.  The logistics of bringing the child back, if 
	necessary to testify, parents, guardians, et cetera, is one that
	is coming up in these cases.  Just another comment.
	Mr. Whitfield.  Thank you, Mr. Walden.
	I think Mr. Walden�s line of questioning encapsulates the 
	concerns of many members of this committee about the 
	investigation we heard the testimony of on Tuesday, and that is
	why we do want to pursue further meetings with Justice, maybe
	in executive session, because I heard you speaking, Mr. Swecker,
	of victim/witness specialists, and I am assuming that that is a
	person who assists the victim, and in the testimony of our 
	hearing on Tuesday, in our meetings with the victim, I never 
	heard that any victim/witness specialist was assigned in that
	case.  And then, we know that evidence was given of child
	victims, and they were being abused in a real time manner, and
	action was not taken, and so, we have walked away from these
	hearings quite puzzled, because it appears that in that 
	instance, the victim of the crime was being treated more as a
	perpetrator of the crime, and so, I think that is really kind 
	of underlying the sentiment of the committee, and that is 
	something that we need to get into.
	But I want to thank all of you for your testimony.  We 
	appreciate your efforts to continue to bring these perpetrators
	to justice, and with that, this panel is dismissed.
	Now, at this time, we will call the third panel, which consists
	of one person, and that is Mr. Grier Weeks, who is the 
	Executive Director of PROTECT, from Ashville, North Carolina.
	Mr. Weeks, thank you very much for being with us, for your
	patience.  As you know, this is an Oversight and Investigations
	hearing.  We take testimony under oath.  Do you have any 
	difficulty with testifying under oath?  And I assume you do not
	need a lawyer with you.  So, if you would stand, and raise your 
	right hand.  
	[Witness sworn.]
	Mr. Whitfield.  You are sworn in now, and you are recognized
	for 5 minutes for your opening statement.  Turn your microphone 
	on.
	Mr. Weeks.  Is that better?
	Mr. Whitfield.  Yeah.



STATEMENT OF GRIER WEEKS, EXECUTIVE DIRECTOR, NATIONAL ASSOCIATION TO
PROTECT CHILDREN

	Mr. Weeks.  Thank you.  I am Grier Weeks, Executive Director of 
	the National Association to Protect Children, also known as 
	PROTECT.  We are a national membership association dedicated to 
	just one simple issue, which is child abuse, child protection.  
	We have members now in 50 States and 10 countries.
	One of the things we do the most is go around the country to 
	various State houses, and work on State legislation.  And one of
	the greatest problems we see is a spectacular national failure 
	to take these issues seriously at the State level.
	I will condense my remarks here, because I know you know at this
	point the nature of child pornography, and don�t need that
	characterized again.  I would say that as you go back out among
	your colleagues, and hear this material referred to as kiddy 
	porn, or trivialized in that way, you will be reminded of what
	we are up against.
	Two years ago, law enforcement agents in my home State of
	North Carolina, arrested a criminal, Brian Schellenberger, who
	was convicted of producing child pornography, and distributing 
	the images over the Internet.  Photos showed a 6-year-old girl 
	was kept in a cage, beaten, sexually tortured, and urinated and 
	defecated on.  The criminal penalty for being an accomplice to
	that crime, for possessing those images in North Carolina, is 
	a felony, is the exact same felony penalty you would get for 
	operating a bingo game without a license or cockfighting.  In
	California, the penalty is a misdemeanor, distributing it to
	others is a misdemeanor, using a child to distribute it to 
	others is a misdemeanor.  And under California law, even 
	manufacturing such a despicable product is a minor felony with 
	no minimum prison sentence.  In Colorado, Oregon, North Dakota,
	possession of these brutal images of children being raped and 
	humiliated is a misdemeanor.  In Iowa, it is an aggravated 
	misdemeanor, the equivalent of livestock abuse.  If you 
	compare the risk/gain ratio for trafficking in a product like 
	this, to the risk/gain ratio for those who traffic in cocaine,
	you will instantly understand why our national weakness on
	this issue has attracted so many new predators.
	Nationwide, an estimated 96 percent of those arrested for 
	child pornography possession are convicted, but fewer than 
	60 percent are ever incarcerated.  Of those convicted solely
	of child pornography possession, fewer than one in three serves 
	more than a year in jail.  This is despite the fact that child 
	pornography, like narcotics, is illegal contraband in and of
	itself, and easily prosecutable.  Let me just add that in the 
	State of Wisconsin, a WITI investigative reporter did a 
	painstaking investigation of how child pornography possession 
	cases were handled in his State, searched every single one of 
	them down, and found that 75 percent of the perpetrators did no
	time in prison whatsoever.
	PROTECT�s first point is this.  Unless and until the States are
	made to treat "simple possession" of child pornography as the
	egregious felony it is, and unless the funding is made available
	to aggressively investigate and prosecute possession of child 
	pornography, Federal efforts will be hopelessly diluted.  Let 
	me give you some examples.
	Instead of Federal resources being a multiplier of State efforts,
	as you would hope they would be, the lack of appropriate 
	legislation and resources is actually discouraging the States 
	from prosecuting these cases.  Until States get serious, U.S. 
	prosecutors will continue to pick up the slack for local
	prosecutors, who have grown dependent upon the Federal government 
	to prosecute their criminals for them.  I think all of the
	prosecutors you talk to will attest to that.
	Internet Crimes Against Children Task Forces, the ICACs you have 
	heard so much about, will continue to provide training and 
	technical assistance to frontline law enforcement agents who are
	so unsupported by their own States that they often have backlogs 
	of hard drives waiting to be analyzed, many of them containing
	evidence that could save a child immediately.
	And the mass, and this is the most important issue here, the
	mass of domestic criminal conspirators who create and feed the 
	insatiable demand that you have heard about will remain at large
	as limited Federal resources are triaged and focused on chasing 
	after the major cases of commercial manufacturers and 
	distributors.
	PROTECT�s second point is that the Federal government also must 
	get serious.  We are losing this war, and I don�t think we have
	heard that enough today.  We are drowning.  I think it is 
	obvious to everybody that was here that we are not supporting 
	our troops on the frontlines.  Recent estimates of the size of 
	the exploding global criminal market in child pornography are 
	in the multibillion-dollar range.  You have heard $20 billion 
	numerous times.  Yet, there really is no objective measure 
	whereby we can say we are serious about this.
	The FBI�s Innocent Images National Initiative is funded at a 
	level of about $10 million a year.  That is chump change.  By
	comparison, HUD recently announced it was awarding more than 
	that to build 86 new elderly apartment units in Connecticut. 
	It is a wonderful thing, but this is to put it in perspective.
	They spent almost seven times the Innocent Images budget just 
	on homelessness in Ohio.  The Administration has proposed 
	20 times the entire Innocent Images budget for abstinence-only
	education programs.  Another example, the Department of 
	Justice�s Internet Crimes Against Children Task Force program
	received about $14.5 million in FY 2006.  That is less than
	one-fifth the amount proposed for the new initiative to help 
	prisoners reintegrate into society.  Last year�s budget included 
	$211 million for the Department of Interior to do high priority 
	brush removal.  That is compared to $14.5 million.
	The law enforcement officers that came here today, and that come
	here every year, to testify on this issue, can�t get up here and 
	tell you that.  You heard one say he wouldn�t, if he had his
	budget tripled, he would still be behind.  But I honestly don�t 
	know how we can look him in the eyes, asking them to do probably
	the most unthinkable job on the planet, and this is what we put 
	into it.
	The radical increase in child pornography we see today is the
	direct result of failing to match our rhetoric about children 
	with the resources needed to fight this war, and we will hear a 
	lot of rhetoric this month.  It is Child Abuse Prevention Month.
	Our third and final point is simply that you heard a lot of
	experts with a lot of expertise, and I think that after these 
	hearings, they would be very eager to give you very specific 
	policy proposals, hopefully more than you have heard today.  But
	the expertise, really, that is needed here, is your expertise, 
	and I mean that in a meaningful way.  It is your expertise that 
	is needed.  How do we make this an urgent, serious issue, because
	nobody else you have heard from knows how to do that.
	Finally, I would like to just address a few loose ends that I 
	heard mentioned, and I knew you were looking for policy 
	proposals, and I would like to address a few of them.  On the 
	issue of Federal penalties, the Federal penalty for possession 
	of child pornography is a minimum of a fine.  So, I do think 
	there is a problem there.  The issue is not what is the maximum.
	The issue is what is the minimum.
	On forfeiture, I would strongly encourage you to look into that
	much more seriously.  There is much more that could be done, and
	it is an extremely--has a lot of potential, because any time you
	can give law enforcement that much more motivation to get out 
	there and do their jobs, and also, to benefit the efforts of law
	enforcement, it is very important.
	On telecommunications type of issues, we hear from the industry 
	that although there is the issue of reporting child pornography,
	there is a separate issue, and that is the filtering, 
	essentially, that they would do to detect it in the first place.
	And we got a comment the other day from one of the major 
	industry leaders, saying that they essentially could turn up 
	that filter, tighten it up, enhance it, and completely blow law
	enforcement out of the water.  And I think there was a 
	realization, all the way around, that you want referrals, we will
	give you referrals kind of thing.
	This is a huge problem.  We need them to find more, but we also 
	need to be ready to get it.  There is also an issue, I would 
	strongly urge you to talk to industry.  What they can do that 
	legislation may not be able to do, and certainly not law
	enforcement, is tell us what is next.  This is truly
	staggering.  The latest that I have heard is wireless Bluetooth
	technology being used to transfer child pornography where 
	perpetrators gather in a park, and just while they are standing 
	there, watching the pigeons, they are transferring child 
	pornography to each other.  My guess is at my age and my limited 
	technological expertise, that is not even the beginning of it, and 
	unless we are hearing from them about what is coming next, 10 
	years down the line, we are really losing.
	I would also mention to you another thing you may want to follow 
	up on, that we are hearing from industry, and that is that many 
	of these perpetrators are actually cataloging children.  These 
	images have a monetary value, but that value goes up
	tremendously when there is a name and address attached to it, and
	the latest thing that we are hearing is that people are actually 
	putting those names, addresses, elementary schools, and 
	identifying information with these photos, and selling them, and 
	cataloging them.
	Finally, just to respond to one other thing.  Well, let me talk
	about two other things.  One is that one of the witnesses on this
	last panel mentioned that, if you find the abuser, that is where 
	you want to go first.  I would say to you that is where you want
	to go first, if you have extremely limited resources.  And this 
	is the problem.  We cannot just focus on manufacturing.  It 
	would be like legalizing heroin, and saying we are going to go 
	get them in Afghanistan where they are growing the poppies.  If 
	we do not get serious about the--
	Ms. DeGette.  Can I interrupt you for a minute?
	Mr. Weeks.  Yes, ma�am.
	Ms. DeGette.  Because I see Justin leaving, and I have been meaning
	to thank him, Mr. Chairman.  I apologize to interrupt the witness,
	but I just want to thank you and your family, and everybody for 
	coming to these hearings, and for bringing this to us.  You do not
	know how much you have helped stop this practice, by coming to us.
	So, I just want to say thank you, and I hope you can come back to
	some of the other hearings that we will have.  And I hope you can
	be there when we pass the legislation that will help put a stop 
	to this.
	Mr. Whitfield.  Thank you, Ms. DeGette, and we met with Justin 
	earlier, and we all expressed our appreciation to him, and wish
	him the very best, and we will stay in touch with him.  Sorry, 
	Mr. Weeks.
	Mr. Weeks.  No, I am glad you stopped.
	My final point is simply on international treaties.  There was a 
	press conference held this morning that talked about the fact 
	that there were only five nations in the world that had serious 
	laws.  I have a little bit a problem with characterizing our 
	laws as all that serious, but the point is a serious one, and 
	that is that we need to recognize this as a human rights issue,
	and whenever human rights are discussed, the exploitation of
	children should be discussed, and I think you can advance the 
	effort there.
	Thank you very much.
	[The prepared statement of Grier Weeks follows:]

Prepared Statement of Grier Weeks, Executive Director, National 
Association to Protect Children

Chairman Whitfield, Congressman Stupak and distinguished members of the
Subcommittee, I am Grier Weeks, the Executive Director of the National 
Association to Protect Children, generally known as PROTECT. PROTECT is
a grassroots membership organization focused exclusively on child 
protection issues. We have members in all 50 states, and we pride 
ourselves on being one of the most nonpartisan organizations in America. 
As PROTECT works in state legislatures, one of the greatest problems we 
see is our national failure to aggressively respond to child pornography
and the use of the internet for both dissemination of such material and
direct exploitation of individual children.
 	People have argued for decades about what child pornography is,
 	yet there has been virtually no attention paid to what it is not.
 	It is our position that understanding what child pornography is
 	not is the key to understanding--and actually doing something 
 	about--what it is.  
A 2005 study funded by Congress studied child pornography possession
cases nationwide. In looking at the nature of the images being trafficked
on the internet, the study revealed the following: 
83 percent of possessors had images of children between ages 6 and 12
80 percent had images of sexual penetration of children--that is to say,
child rape
21 percent had images showing "children who were gagged, bound, 
blindfolded or otherwise enduring sadistic sex.
Only 1 percent were in possession solely of images that depicted simple 
nudity or what researchers termed "softcore" "pornography"

So we begin with the understanding that child pornography is not a 
"free speech" issue, nor does it have anything to do with definitional
arguments over whether a given image is "obscene." It is a human rights
issue of catastrophic proportions. 
Two years ago, law enforcement agents in Canada and the U.S. arrested a 
criminal in my home state of North Carolina. Brian Schellenberger was
convicted of producing child pornography and distributing the images 
over the internet. Photos showed that a six-year old girl was kept in 
a cage, beaten, sexually tortured and urinated and defecated on. 
The criminal penalty for being an accomplice to that crime, for
possessing those images in North Carolina, is a felonythe  exact same
felony penalty you would get for operating a Bingo game without a 
license or Cockfighting.
In California, the penalty is a misdemeanor.  Distributing it to others 
is a misdemeanor. Using a child to distribute it is a misdemeanor. Under
California law, even manufacturing such a despicable "product" is a 
minor felony, with no minimum prison sentence.
In Colorado', Oregon and North Dakota, possession of brutal images of
children being raped, sodomized and humiliated is a misdemeanor. In 
Iowa, it�s an "aggravated misdemeanor," the equivalent of Livestock 
Abuse. 
If you compare the risk-gain ratio for those who traffic in such a 
"product" to the risk-gain ratio for those who traffic in cocaine, you 
will instantly understand why our national weakness on this issue has 
attracted so many new predators.  
Nationwide, an estimated 96 percent of those arrested for child 
pornography possession are convicted. But fewer than 60 percent are ever
incarcerated. Of those convicted solely of child pornography possession,
fewer than one in three serves more than a year in jail. This is despite 
the fact that child pornography--like narcotics--is illegal contraband 
in and of itself, and is easily prosecutable.
PROTECT�s first point is this: Unless and until the States are made to
treat "simple possession" of child pornography as the egregious felony 
it truly is--and unless the funding is made available to aggressively 
investigate and prosecute possession of child pornography--federal
efforts will be hopelessly diluted.
Instead of federal resources acting as a multiplier of state law 
enforcement efforts, the lack of appropriate legislation and funding
is actually discouraging the individual states from protecting our
children.
Until the states get serious, U.S. prosecutors will continue to pick 
up the slack for local prosecutors, who have grown dependent upon the 
federal government to prosecute their criminals for them. Internet 
Crimes Against Children task forces will continue to provide training 
and technical assistance to front-line law enforcement agents who are
so unsupported by their own states that they often have long backlogs 
of hard drives waiting to be analyzed, many of them containing evidence 
that could save a child immediately. And the mass of domestic criminal
conspirators who create and feed the insatiable demand for more and 
more children to be raped on camera will remain at large, as limited
federal resources are triaged and focused on chasing after the "major
cases" of commercial manufacturers and distributors. 
PROTECT�s second point is that the federal government also must get 
serious. We are losing this war, and we are not supporting our troops 
on the front lines. 
Recent estimates of the size of the exploding global criminal market 
in child pornography are in the multi-billion dollar range. Yet, by no 
objective measure can we claim to be serious or prepared as a nation 
about stopping what is being done to these children.
The FBI�s Innocent Images National Initiative is funded at a level of 
about $10 million annually. By comparison, the Department of Housing 
and Urban Development just announced it was awarding more money than 
the entire Innocent Images budget to build 86 elderly apartment units 
in Connecticut and almost 7 times their budget just on the homeless in
Ohio.  The administration has proposed 20 times the entire Innocent
Images budget for abstinence-only education programs through the 
Department of Health and Human Services.
The Department of Justice�s Internet Crimes Against Children (ICAC) 
Task Force program received about $14.5 in FY 2006. That is less than
one-fifth the amount proposed for a new initiative to help former 
prisoners reintegrate into society. Last year�s budget included $211 
million for the Department of the Interior for "high-priority brush 
removal" and related projects. $14.5 million doesn�t clear much brush.
The law enforcement officers on the front lines of this war won�t 
come here and tell you what they honestly think of these priorities.
They will be grateful if you simply keep their budgets growing. And 
while we realize that your committee is not the one responsible for 
these spending priorities, I don�t know how any of us, as taxpayers,
can look these men and women in the eyes.
The radical increase in child pornography we see today is the direct
result of failing to match our rhetoric about children with the 
resources needed to fight this war.
Our third and final point is that while you have an incredible array
of experts at your disposal--all of whom, including PROTECT, are eager
to provide specific legislative and policy solutions--the expertise we
need most now is the expertise you possess: political leadership. 
On behalf of our members and the millions of Americans who believe that
nothing should be a higher priority than protecting children from 
predators, I ask you for that leadership and I thank you for the 
opportunity to testify in this important hearing.

	Mr. Whitfield.  Mr. Weeks, thank you very much, and tell me,
	did you form PROTECT yourself, or--
	Mr. Weeks.  No, actually, several people did.  There were a
	number of very prominent experts around the country, including
	Jay Howell, who started the National Center for Missing and 
	Exploited Children, who said for the longest time, the only 
	group in this country that didn�t seem to have a lobby is 
	abused kids, and that is why we exist.
	Mr. Whitfield.  And how old is it?
	Mr. Weeks.  We are about 3 years old.  We have changed the 
	laws in about seven or eight States now, and worked with both 
	Democrats and Republicans.
	Mr. Whitfield.  And you are funded by just private donations?
	Mr. Weeks.  Through our members.
	Mr. Whitfield.  Yeah.
	Mr. Weeks.  Right.
	Mr. Whitfield.  Well, thank you for the great work that you are
	doing.  Talking about the penalties for these crimes, and you
	mentioned in your testimony how there is this great disparity 
	going from State to State, and you mentioned in Iowa, it is a 
	misdemeanor similar to an animal abuse case.  Of course, any of 
	these crimes can be prosecuted under Federal law, I am assuming,
	and I guess it just gets down to a matter of whether or not
	interstate commerce is involved, and whatever.  But I find it
	laudable that you are trying to increase the penalties at the 
	State level, because we know that the largest percentages of the
	cases are prosecuted at the State level.
	And I was curious, when you lobby for tougher sentences in the 
	State legislatures, what are some of the reasons that you are 
	given for opposing what you are trying to do?
	Mr. Weeks.  It is pretty awful.  I mean, there is a widespread 
	tolerance for this, especially for possession, so-called simple
	possession.  You don�t hear that same excuse used for possession 
	of heroin.  I think we have heard it all, but we are now days 
	away from getting a major bill introduced in California, which 
	in California, as I failed to mention, there is also a statute 
	for luring a child over the Internet, and for the longest time, 
	there was a vigorous debate going on in committees about whether
	that should be an infraction or a misdemeanor.
	Mr. Whitfield.  Really.  And South Carolina, I understand, just
	recently passed some legislation that would make a person that 
	was twice convicted of child molestation eligible for the death 
	penalty.  Is that correct?
	Mr. Weeks.  Yes.  Let me just say this about that.  And we don�t 
	have a position on whether someone should be put to death, or go 
	for life, but we have a lot of these laws, often named after 
	dead children, that doesn�t do much.
	Mr. Whitfield.  Yeah.
	Mr. Weeks.  South Carolina is my family�s home, and I feel 
	entitled to say this, it is a little hard to take, given the 
	fact that South Carolina has a law on the books called assault 
	and battery of a high and aggravated nature, and the vast 
	majority of child sexual abuse seems to be plea bargained down 
	to that.
	Mr. Whitfield.  Yeah.
	Mr. Weeks.  So, you know, it is great to have tough laws on the 
	books, but if you are only using them for that tiny fraction of
	stranger abusers that gets all the media attention, it doesn�t do 
	a whole lot for kids.
	Mr. Whitfield.  But I guess the bottom line of this is while you 
	are trying to increase the penalties for possession of 
	pornographic material involving children, most of these child 
	molestation cases regarding children today appear to be more 
	and more aggravated.  There appears to be rape involved.  There 
	appears to be even torture involved.  There appears to be, in 
	some cases, I guess they are holding children against their 
	will.  Unfortunately, in some cases, you have parents involved 
	in this.
	Mr. Weeks.  In the majority of cases.
	Mr. Whitfield.  Which is almost unbelievable, but those crimes, 
	if they are being prosecuted on those crimes, I mean, those are 
	quite severe.  Would you agree with that?
	Mr. Weeks.  No.  Essentially our studies show that about 
	4 percent of cases nationwide, of all criminal cases, ever go to
	a jury.  So, start off with the vast, vast majority of them being
	plea bargained.
	Mr. Whitfield.  Okay.
	Mr. Weeks.  Even a smaller percentage of child sexual abuse cases
	ever go before a trial.  So, we are talking about how are cases 
	plea bargained?  They are plea bargained, and there is also
	charge bargaining that goes in.  What is happening now, with a 
	lot of these laws, like Jessica�s Law, is that you have these
	draconian sentences that sound great, but very few people will 
	ever be charged with them, and in fact, these cases are 
	trivialized to a great extent.
	Let me mention one thing related to that, though, and Chairman 
	Barton brought this up.  For decades, what we have heard is that
	we would love to prosecute these crimes against children, but 
	they are tough.  We have problems with young witnesses.  We have
	problems with evidence.  And it is very tough, and we have to
	plea bargain.  This is the exception.  We now have a type of 
	crime where you have hard, cold evidence.  And if we don�t put
	people away for that, shame on us.
	Mr. Whitfield.  Absolutely.  In your testimony, you talked about 
	the case in North Carolina, I believe, and where, the gentleman 
	was keeping a young girl in a cage.  Was that his daughter, or--
	Mr. Weeks.  That was a complicated story.  I hesitate to say,
	because I may be mixing it up with the second one.  I am not 
	sure.
	Mr. Whitfield.  Do you know what penalty he received for--
	Mr. Weeks.  He did get, I think, 100 years under the Federal 
	law.
	Mr. Whitfield.  So, he was prosecuted by Federal officials.
	Mr. Weeks.  Right.  And again, I want to emphasize, there may be
	some resistance among ideological conservatives to telling the 
	States what to do, and being heavy-handed about it.
	Mr. Whitfield.  Right.
	Mr. Weeks.  But the flipside of this is, they are using the 
	Commerce Clause to essentially slough this off on the Feds.  I 
	mean, we have heard top criminal justice policy people in State 
	legislatures essentially talk about these crimes as if they are 
	a Federal problem, even to the extent where one of the most 
	influential policymakers in a Sate capital told me, look, if you
	want us to be prosecuting these, then give us more money for 
	Federal prisoners that we are taking care of.  So, there is a 
	real disconnect there, and this is, I would think that the 
	staunchest conservative would be a heavy-handed Federalist on 
	this.
	Mr. Whitfield.  Well, I mean, I certainly don�t have any problem
	for ramping up and prosecuting more people at the Federal level
	on this, and I am sure the rest of us do not.  So, thank you 
	for mentioning that.
	One other comment I would just like to make.  You had mentioned 
	that industry told you that they could increase their filters 
	and blow the law enforcement out of the water.  Now, would you 
	elaborate on that a little bit?
	Mr. Weeks.  Well, yeah, I would love to, and let me say, I think
	it is fair to say that law enforcement is already blown out of 
	the water.
	Mr. Whitfield.  Well, okay.
	Mr. Weeks.  By any definition.
	Mr. Whitfield.  Right.
	Mr. Weeks.  But essentially, what they were saying is look, we 
	are reporting everything that we are detecting.
	Mr. Whitfield.  Yeah.
	Mr. Weeks.  But they could detect a lot more.
	Mr. Whitfield.  Yeah.
	Mr. Weeks.  And they are the ones that are going to be the most 
	sophisticated at detecting it.
	Mr. Whitfield.  Right.
	Mr. Weeks.  But there is a realization that if they greatly 
	increase their detection abilities overnight, that we won�t be 
	able to keep up with them, and that is the problem.
	Mr. Whitfield.  So, there are so many violations going on that 
	it would just swamp everybody.
	Mr. Weeks.  Right.  Well, there were several questions today 
	about the gentleman from Wyoming, who said there were over a 
	million IP addresses, and I am not sure everybody got the real
	story there.  The real issue, in my mind, is the number of IP 
	addresses, not the number of images.
	Mr. Whitfield.  Right.
	Mr. Weeks.  We are talking about a million computers.
	Mr. Whitfield.  Yeah, unbelievable.  Yeah.  Well, and you devote 
	full time to this project?
	Mr. Weeks.  Not just to child pornography, but to the work on
	child abuse legislation, yes.
	Mr. Whitfield.  Yeah.  Well, this is such an overwhelming 
	problem, and it is so complex, that is difficult not to become
	discouraged about it, right?
	Mr. Weeks.  Yeah, I think everybody, the ones that are looking 
	at this every day are the ones that I worry about, but I think 
	there is a common thread, which is if it doesn�t kill you, it 
	just makes you feel like, you know, you are doing the Lord�s 
	work, getting up every morning.
	Mr. Whitfield.  Yeah.  Well, thank you very much for being with
	us, and at this time, I will recognize Ms. DeGette for 
	questions.
	Ms. DeGette.  Thank you, Mr. Weeks.
	As I understand it, right now, the folks who testified earlier,
	the Federal prosecutions really take place involving cases 
	where there is some use, there is either international 
	trafficking, or there is some use of the U.S. mail.  Is that 
	correct?
	Mr. Weeks.  I think that is fair to say, yeah.
	Ms. DeGette.  Because of the way the Federal statutes are, to 
	prosecute--
	Mr. Weeks.  They are looking at getting the best bang for their 
	buck, and they are looking at interrupting commercial networks 
	and things like that.
	Ms. DeGette.  Right.  Well, there is no Federal statute that 
	makes it a crime to possess these materials unless there is some
	involvement of the Commerce Clause, correct?
	Mr. Weeks.  Right.
	Ms. DeGette.  So, it would have to be interstate.
	Mr. Weeks.  And if the Internet is involved, of course, that is 
	a given.
	Ms. DeGette.  Well, I mean, yes and no.  It would be, as someone
	who has been in, who has done criminal work before, I mean, if 
	you have got a situation where you have got a case where someone 
	was doing these horrible crimes within a State, and transferring 
	it within a State, while technically, you have got the Commerce
	Clause involved, because it is the Internet, from a law 
	enforcement standpoint, it is really going to be hard to 
	prosecute that by Federal authorities, right?
	Mr. Weeks.  Right.  Right.
	Ms. DeGette.  That is why we need tough State laws and Federal
	laws, right?
	Mr. Weeks.  That is one reason.
	Ms. DeGette.  Yeah.
	Mr. Weeks.  Another, though, is simply that unless the Federal
	government wants to increase its force by, you know, by fifty,
	it is going to have to work with the States, and create 
	incentives for the States to do their share.  And a related 
	issue, too, is that a study done, it was commissioned by 
	Congress, came out last year on people that possess child 
	pornography found that 40 percent of them were conclusively known
	to have also sexually abused children directly, and another 
	15 percent were known to have tried to lure.  So, you have 
	55 percent, representing a much larger percent, no doubt, that
	had actually molested children.  If we don�t have on the ground,
	local expertise and resources to fight this, what is going to
	happen is, every time that little 5-year-old-girl goes to 
	school, and discloses that she is being molested at home, that 
	guy may have child pornography.  It is a very high likelihood 
	that he has child pornography on his computer.  Now, are we 
	going to put together a case that involves dragging that girl 
	through the wringer in court, and many prosecutors will just 
	dismiss it out of hand, because she is too young, or are we going
	to actually go and get that hard drive, and that is the issue. 
	We are losing the ability to protect children in our local 
	communities every day.
	Ms. DeGette.  Right.  Well, and I am not trying to disagree with
	you in any way.  I think we agree.  What we need is tougher 
	enforcement of Federal laws and State laws and resources at all
	levels, and coordination.  And frankly, from listening to the
	second panel, I was a little encouraged in this hearing, that at
	least the levels of authorities seem to be coordinating.  I 
	mean, the problem is not, and the Chairman will tell you, we see
	a lot of situations where the agencies can�t even coordinate
	with each other.  So, the good news is, at least they have the 
	mechanisms to coordinate.  Do you agree with that?
	Mr. Weeks.  I have to take their word for that.
	Ms. DeGette.  Yeah.  And so, really, what we need is strong laws
	and resources, to help them carry out their charge, correct?  
	You need to answer in words.
	Mr. Weeks.  Yes, yes.  Excuse me.
	Ms. DeGette.  Thanks.  Now, so, with that in mind, are there 
	Federal statutes that you think we can strengthen, as well as 
	the State laws?
	Mr. Weeks.  I think that the penalties for possession need to 
	be increased.  Since Federal, since the guidelines were deemed 
	advisory only, that is a loophole now.  I think that most of the
	cases you hear about are not getting probation, because they are 
	just essentially cherry picking at this point, but that is a 
	loophole that is a serious issue.  I think that forfeiture is
	another major issue that should be looked at.  International 
	treaties.  I wish I was more of a telecommunications expert for 
	you.
	Ms. DeGette.  Yeah.  Okay.  Well, but you think we have the 
	adequate laws on the books to prosecute, to federally prosecute 
	cases, even when mail is not involved or international
	situations.  Do you think we can prosecute these cases, simply 
	because they are done on the Internet?
	Mr. Weeks.  I think we can prosecute them all day long and all
	night, yeah.
	Ms. DeGette.  All right.  I was appalled to hear that Colorado 
	is one of the States that just classifies this as a 
	misdemeanor, and I would imagine that States like Colorado and
	other States that classify it like this have not really looked 
	at their laws vis-a-vis the increase, as the Chairman said the 
	increasing violence and depravity of these Internet
	communications and the horrible abuse for the children.  Would
	that be your sense as well, working in these things?
	Mr. Weeks.  I am conflicted about that, and I will tell you why.
	I have a real hard time believing there are as many people left 
	in this country, especially in positions of leadership, who are 
	that clueless about the nature of child pornography.  I just 
	don�t believe it.  I think, it would be interesting to find out
	in your State, and other States like that, what has transpired 
	in recent sessions, whether or not they have tried to increase 
	the penalty.  Often, what it is, is unfortunately, is 
	prosecutors who just want so much discretion that they resist
	mandatory minimums and increased penalties.  But there is also--
	Ms. DeGette.  Well, part of what happened, and I will tell you,
	I was in the State legislature in Colorado in the early to mid 
	�90s.  During those years, we basically tripled, sometimes 
	quadrupled the sentences for the existing felonies in the State.
	And so, for example, where you had a crime where it might be an
	8 year maximum penalty, it suddenly went up to 36 years, and 
	then, you had the mandatory minimum sentences put in, and in 
	many cases, those increases were warranted.  Some of the maximum
	penalties for different felonies were too low.  In other cases,
	there was no judgment.  It was just a rush to increase the 
	penalties.
	Well, then, what happened, of course, in the late 1990s, in the
	past few years, the prisons and the criminal justice systems
	have become completely overloaded in States like my State and 
	other States.  So, I think the legislatures have now been loath
	to increase the penalties of other crimes because they don�t 
	have any place to put the perpetrators, which is a tragedy, 
	because what is happening is the perpetrators for these horrible
	crimes that are affecting younger and younger children are going
	away with a slap on the wrist, while other people, who have 
	committed crimes that are not crimes against people, economic 
	crimes and other kinds of crimes, are sitting in prison for 
	38 years, and that just seems insane to me.
	Mr. Weeks.  Yes.
	Ms. DeGette.  And you agree.
	Mr. Weeks.  I agree.
	Ms. DeGette.  And so, I imagine that is part of the explanation 
	of what has happened here.  But I will tell you this.  I intend 
	to call up my Senate President and House Majority Leader, who 
	are personal friends of mine, and see if they can�t get a late 
	bill introduced next week to fix this in Colorado.
	Mr. Weeks.  Please, and when you do, please make sure it is
	tougher than felony cockfighting, as it is in my State, because 
	making it a felony in and of itself is not enough.  But thank 
	you.
	Ms. DeGette.  Well, making it a felony, I mean, in a State like 
	Colorado, and you have to look at the different States, in a
	State like Colorado, making it a felony helps, because of the 
	penalty structure.
	Mr. Weeks.  Absolutely.
	Ms. DeGette.  And just one last question.  I don�t know if you 
	heard me ask the last panel, but for a crime like child 
	pornography, maybe not for the hardcore perpetrators who, as you
	say, are rapists and child abusers, but for people who possess 
	it, it would seem to me that tougher penalties at the State level
	and at the Federal level would begin to deter these crimes, 
	because simple possession of it, if someone knew they were going 
	to prison for a long time, that might make them think twice.  
	For the people who are perpetrating these horrible crimes, they 
	are a different story, and they need to be locked up for even 
	longer, but wouldn�t you agree, just if someone knew that there
	was a certainty that they could be arrested and prosecuted and 
	go to jail, that would really reduce the amount of possession.
	Mr. Weeks.  I absolutely agree.  I think to a large extent, it
	is the certainty of being caught and prosecuted that is the most
	important thing, and that is not there.
	Ms. DeGette.  Right.  Well, thank you very much, and thank you, 
	Mr. Chairman.
	Mr. Weeks.  Thank you.
	Mr. Whitfield.  Thank you, Ms. DeGette, and that concludes 
	today�s hearing, but before we adjourn, without objection, I 
	want to ask that the slides shown during the hearing by Mr. Flint
	Waters be entered into the record.  The slides from the 
	Immigration and Customs Enforcement, the Regpay article from 
	the Wall Street Journal, and then Chapter 26 from Dr. Cooper�s 
	book, and then, the record will be open for 30 days for any 
	additional information that may come in.
	[The information follows:]

 EMBED PowerPoint.Slide.8  
 EMBED PowerPoint.Slide.8 
                       
                          

	Mr. Whitfield.  But Mr. Weeks, thank you for the great job you 
	are doing.
	Mr. Weeks.  Thank you.
	Mr. Whitfield.  We really appreciate your willingness to come 
	and help us out, and I look forward to working with you in the 
	future.
	Mr. Weeks.  Thank you, Mr. Chairman.
	Mr. Whitfield.  And that adjourns today�s hearing.
	[Whereupon, at 2:20 p.m., the subcommittee was adjourned.]

 Response for the Record of William E. Kezer, Deputy Chief Inspector, 
 United States Postal Inspection Service

May 19, 2006


The Honorable Edward Whitfield
Chairman
Oversight and Investigations Subcommittee   of the Energy and Commerce 
Committee
U.S. House of Representatives
Washington, DC  20515-0001

Dear Mr. Chairman:

On April 6, 2006, the U.S. Postal Inspection Service was honored to 
testify before the Oversight and Investigations Subcommittee concerning
its efforts to combat the increasingly, menacing crime of sexual
exploitation against children.   Despite the overwhelming use of the 
Internet to perpetuate crimes involving child exploitation, many 
offenders also utilize the U.S. Mail, in concert with the Internet, to 
traffic in child pornography or otherwise sexually exploit children. 
Numerous examples of recent cases investigated by Postal Inspectors
with a common nexus to the Internet and the U.S. Mail were provided in
our oral and written testimony. 

When the U.S. Mail is used in connection with crimes involving the 
sexual exploitation of children, Postal Inspectors work diligently to 
identify and track down those responsible for the commission of these
heinous crimes.  We work closely with the various United States 
Attorneys and other agencies, such as the National Center for Missing
and Exploited Children in order to bring the alleged offenders before 
the federal judicial system.  The Postal Service has and continues to
be committed to fighting the war on crime against those individuals 
who prey on our nation�s children.  Presently, we have a number of 
Postal Inspectors assigned full-time to these types of investigations.  

Testimony elicited by the Subcommittee revealed several areas in which
Congress may aid law enforcement in these types of investigations.  
These include possible assistance within the jurisdiction of both the
House Energy and Commerce and House Judiciary Committees.  Assistance
suggested by several of the law enforcement witnesses at the April 
6th hearing included requiring Internet Service Providers (ISPs) to 
maintain subscriber data for a set time period (i.e., a minimum of 
90 days) and to respond promptly to subpoenas seeking subscriber 
information; providing for additional investigator resources assigned
to child exploitation investigations; providing for the means to 
reduce backlogs in the forensic examination of digital evidence; and, 
specific to the Postal Inspection Service, providing administrative 
subpoena authority in the area of child exploitation offenses. 









As a result of the hearing, the Postal Inspection Service, along with
other agencies, were asked to provide further comment on the benefits
of administrative subpoenas as a necessary law enforcement tool. The 
Postal Inspection Service was invited to formally request this type 
of investigative authority.  

It is our belief the ability to issue administrative subpoenas will 
greatly assist our efforts against child exploitation.  The testimony
of several witnesses at the April 6th hearing supported the fact 
administrative subpoenas help accelerate the process of identifying 
offenders who oftentimes hide behind screen names as well as websites
operated by child abusers and pornographers.  As you are aware, in 
1998 Congress passed The Child Protection and Sexual Predator 
Punishment Act of 1998.  Title III, Section 301 of the Act authorized 
the Attorney General to issue administrative subpoenas in child 
exploitation cases.  This authority is presently codified at 
18 U.S.C. �. 3486.  (Exhibit A) This authority has been delegated to 
the Federal Bureau of Investigation at the supervisory field level.

The U.S. Postal Inspection Service would benefit from having this 
investigative tool to aid in its law enforcement efforts against 
child exploitation.  As the Internet has changed the manner in which
child pornographers operate, so too, must the law enforcement tools 
used to investigative and arrest the perpetrators of these crimes adapt
to the changing environment.  

It appears an amendment would be needed to 18 U.S.C. � 3486 in order 
to include authority for the Postmaster General to issue administrative
subpoenas in criminal investigations involving child exploitation. 
(Exhibit B)  If such an amendment is enacted, the Postal Service would
then publish regulations authorizing Postal Inspectors in Charge at the
field level similar to the process used by the Federal Bureau of 
Investigation.  This amendment would greatly assist federal agencies in
the pursuit of those individuals who are sexually abusing and exploiting
our children.

The interest and assistance of the Subcommittee on Oversight and 
Investigations are welcomed and appreciated.  If you require any 
additional information, please contact Deputy Chief Inspector William
Kezer at 202-268-8709.

Sincerely,


L. R. Heath
Chief Postal Inspector

Enclosures



 Response for the Record of  Flint Waters, Lead Special Agent , Wyoming
 Division of Criminal Investigation, Internet Crimes Against Children
 Task Force Technology Center, United States Department of Justice


May 30, 2006


The Honorable Edward Whitfield
Chairman
Oversight and Investigations Subcommittee   of the Energy and Commerce 
Committee
U.S. House of Representatives
Washington, DC  20515-0001

Dear Mr. Chairman:

1.  You state in your testimony that a special agent from the Department
of Homeland Security worked with your task force.  Is this an employee 
of the Immigration and Customs Enforcement, or some other division?

Special Agent Balliett is an employee with Immigrations and Customs 
Enforcement.  She is assigned to our task force full time and routinely
handles cases throughout the region related to the trafficking of child 
sexual abuse images and Internet child victimization.  I can�t emphasize 
enough how the Federal support of our mission makes it possible to 
protect Wyoming children.  This cross-jurisdictional problem has 
overwhelmed state and local law enforcement.  Without the Federal
resources we have received, like a special agent from ICE and the ongoing
guidance and funding provided from the Office of Justice Programs, we 
would have failed.

2.  Under Wyoming law, if law enforcement has a current IP, e-mail and 
home address for an Internet user suspected of possessing child 
pornography, is that sufficient to obtain a search warrant and seize 
that computer?

If the suspicion of criminal conduct rises to a level of probable cause
we can obtain a search warrant to seize the computer.

I will make myself available for any further questions that may arise 
from this matter.

Respectfully,

Flint Waters,
Lead Agent, Wyoming ICAC

 Response for the Record of Chris Swecker, Acting Assistant Executive
 Director, Federal Bureau of Investigation, United States Department
 of Justice





 Response for the Record of Dr. Frank Kardasz, Sergeant, Phoenix Police 
 Department, Project Director, Arizona Internet Crimes Against Children
 Task Force, United States Department of Justice

Please describe the difficulty of tracking illegal Internet activity
that occurs through wireless access points. Are there tools to
determine where the activity originates?

The difficulty in tracking illegal Internet activity originating from
wireless access points might best be described by way of a true-life
example. 

In August, 2005, I received a call from an officer of the Milwaukee, 
Wisconsin Police Department. He was investigating the case of a missing
boy who had disappeared with someone the boy had met via the Internet. 
Milwaukee computer forensics examiners had looked into the contents of 
the boys computer. They found the screen name of the suspect with whom 
the boy had been chatting before he had disappeared. They subpoened the 
Internet service provider (ISP) associated with the suspect�s screen 
name. Subpoena results indicated that the Internet protocol address
affiliated with the screen name originated from an apartment in 
Phoenix, Arizona. Milwaukee PD provided me with the apartment address. 
My detectives and I immediately went to the Phoenix apartment. We 
quickly eliminated the apartment resident as a suspect but we learned 
that she possessed an unencrypted wireless router and the device 
provided free Internet access to everyone in nearby apartments. We 
began interviewing neighbors, asking them if they had observed a new 
boy in the area. Our diligence and luck prevailed. One local resident
said that a man living nearby had recently been accompanied by a boy
whom the man said was his son. 
We then conducted surveillance for several hours until the man and boy
appeared. Detectives apprehended the suspect, a wanted sex offender 
with felony warrants from prior offenses, and the boy, who had been 
molested by the suspect. 
The Phoenix suspect had used a laptop computer from his nearby apartment
to intercept the unencrypted wireless signal from his unsuspecting 
neighbor�s computer router. This permitted the offender to communicate
with the boy in Wisconsin and entice him into meeting. The boy is now 
back with his mother in Wisconsin. The suspect awaits trial. 
There were no special tools available to us that could have pinpointed 
the exact location of the offender who had used his neighbors 
unencrypted wireless access. We employed two old-fashioned police 
techniques; interviews and surveillance.
My colleagues nationwide have shared other similar stories with me
involving wireless access points used for criminal offenses. In some 
cases their investigations dead-end at a wireless access point that 
is providing unencrypted Internet service to everyone in antenna range.
In other cases interviews and surveillance fail because the elusive 
suspect(s) quickly move on to other wireless access points.
Countless libraries, coffee shops, airports, hotels and businesses now
provide free wireless Internet access either accidentally, because 
they fail to enable the encryption features to protect the signal, or
as a free-bonus customer service. While free wireless access is a 
welcome service for law-abiding citizens, it is also a tool for 
criminals.

Are there tools to determine where the activity originates?

The answer is yes and no. A subpoena or search warrant to the ISP 
associated with an Internet protocol (IP) address is the tool that 
we use to identify the specific location of the computer assigned 
to an IP address.
In some cases, the computer we identify is attached to a router that
is broadcasting a wireless signal to another computer, the exact 
location of which is unknown. If the wireless signal is being used by 
a remote computer, the investigation continues and becomes more 
difficult. There are technical surveillance tools, to wit, radio 
spectrum analyzers and direction finders, that can be used to further
hone in on the remote computer, but these tools are somewhat expensive 
for the average local law enforcement agency ($5,000 - $25,000), they 
require advanced training and are often inexact in a city environment 
where several wireless signals may be present at the same time.


In your testimony, you stated that the cell phone providers maintained 
their records for cell phone usage for long periods of time, but that
Internet service providers (ISP) did not. Internet service providers 
have alleged that they do not have storage space to maintain records 
for any length of time. Do you know why cell phone providers can store
this information for long periods of time, but Internet service 
providers cannot?

My comments about records preservation were based on my limited 
knowledge of the cell phone industry and from my experiences, mostly as
a cellular service consumer. I know that cell phone providers often 
closely track customer usage by the minute and cell phone providers 
often maintain copious records for billing purposes. I have reviewed cell
phone billing statements that gave long lists of individual calls 
including the numbers called from and to, the number of minutes used
during each call and the cost of each call. Maintaining so much data
likely entails computer servers with large data storage capacity.
Internet service providers do not normally bill customers on a 
per-minute basis so there is usually not a need to record the frequent
changes in Internet data-packet destinations that are needed for
billing purposes by cell phone companies. I have seen computer 
traceroute software that enables reporting of the location of each 
server through which data packets travel across the Internet but the
data storage capacities needed to track all of that information would
be incredibly large, and in most cases, unnecessary.
The datum that we believe would be most useful in order to have a
starting point for our investigations are, minimally, the subscriber
information. There is no privacy violation when ISP�s retain subscriber 
information and we in law enforcement could only subsequently obtain
the information through a subpoena or search warrant. I believe that 
Internet service provider can preserve this data. Many of them already
retain the data because without it, they are unable to bill customers 
who use their services.
If ISP�s are stating they cannot store the information, it is probably 
because they choose not to store it. Computer data storage capacity has 
increased exponentially in recent years and the cost of data storage 
has decreased. 
I am aware that data retrieval and subsequently reporting the information
back to law enforcement requires human intervention and entails labor
costs. 
It is my opinion that ISP�s can store the information if they choose 
to. It is also my opinion that some ISP�s will not satisfactorily store
data and recover data for law enforcement until the law mandates them
to do so.
Are you proposing that all records of individual Internet use be 
maintained by the service provider, including e-mails, instant messages
and chat room discussions, or only the IP addresses and other identifying
information about the addressee? If all you want is the background 
information to identify subscribers, do you believe that a lack of 
storage space is a problem for the ISP?
I am not proposing that all records of individual Internet use be 
maintained by service providers.
Maintaining ALL records, including the content of all emails, instant 
messages and chat room discussions for extended periods of time would 
present the ISP�s with a significant storage responsibility. Although it
is possible to preserve all of the data, it would require very large 
data storage capacities. 
Preserving all data, including the intimate details of private text 
messages and/or the images transmitted during private communications
would undoubtedly send privacy protection advocates into a lather!  
Even though the information would be retained by the ISP�s and not 
released to law enforcement except by court order, privacy advocates
would likely balk.
Basic subscriber information, that data which is presently available 
from cooperating ISPs through subpoena is the minimum we hope to mandate
that ISP�s preserve for law enforcement investigations. This information
would not be available to law enforcement except through subpoena or
search warrant.
Although I do not claim intimate knowledge of the specific equipment
or storage capacities presently available to all ISP�s, I do not 
believe that storing this information would present most ISP�s with
storage space problems.

Are administrative subpoenas only used for business records? 

In my work involving Internet crimes, our administrative subpoenas
have been used only for retrieving business records from Internet
service providers. As a wider practical matter, I am aware that 
administrative subpoenas can also be used to demand personal 
documents and other tangible things from not only businesses but
also from private citizens.

Under Arizona law, if law enforcement has a current IP, e-mail and 
home address for an Internet user suspected of possessing child 
pornography, is that sufficient to obtain a search warrant to seize
that computer?

No. In Arizona, a search warrant must be based on probable cause for
a felony offense and the warrant must be authorized by a magistrate. 
The required probable cause is described in the affidavit 
accompanying the search warrant. The affidavit is written by the
investigator(s) who work the case.
Although a current IP address and the physical "home" address where 
the felony offense originated would be two very important items 
towards obtaining a search warrant, detectives would also conduct
other investigative activities to build the necessary probable cause.
The activities could include surveillance of the location, records
checks and criminal history checks of the property owners, motor 
vehicle checks on vehicles frequenting the location, pretext visits
and/or calls to the location. The combination of several of these 
items, along with the physical "home" address associated with the
IP address would provide the probable cause needed for the search 
warrant.

 Thank you for the opportunity to respond to the preceding questions.
 Please contact me if you require additional information.

Regards,

Dr. Frank Kardasz, Sgt. / Project Director
Phoenix P.D. /AZ Internet Crimes Against Children Task Force
620 W. WashingtonPhoenix, AZ 85003
desk: 602 256 3404
email: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0a6c786b646124616b786e6b79704a7a62656f646372246d657c">[email&#160;protected]</a>
web site: http://azicac.net



 Response for the Record of James Plitt, Director, Cyber Crimes
 Center, Office of Investigations, United States Immigration and
 Customs Enforcement, United States Department of Homeland Security

	No response was received to the following question submitted 
	to Mr. Plitt.

The Honorable John D. Dingell
Question for Mr. James Plitt, Director
Cyber Crimes Center, Office of Investigations
U.S. Immigration and Customs Enforcement
U.S. Department of Homeland Security
April 6, 2006
Subcommittee on Oversight and Investigations
Hearing entitled: "Sexual Exploitation of Children Over the Internet: 
What Parents, Kids and Congress Need to Know About Child Predators"

1.	Please describe in detail the relationship between the Cyber 
Crimes Center of Immigration and Customs Enforcement and the Innocent 
Images National Initiative of the Federal Bureau of Investigation.  
When a child exploitation investigation involves trans-border movement
of images, which agency takes the lead in dealing with foreign 
agencies such as Interpol?  Do both agencies count that investigation
as one of their own?


 Response for the Record of Grier Weeks, Executive Director, National 
 Association to Protect Children

	No response was received to the following questions submitted 
	to Mr. Weeks.

The Honorable John D. Dingell
Questions for Mr. Grier Weeks, Executive Director
PROTECT
April 6, 2006
Subcommittee on Oversight and Investigations
Hearing entitled: "Sexual Exploitation of Children Over the Internet:
What Parents, Kids and Congress Need to Know About Child Predators"

-- SEQ CHAPTER \h \r 1-1.	Please describe state statutes of 
limitation for possessing and distributing child pornography and any 
problems that may result.  How successful has PROTECT been in 
increasing these time limitations?

2.	Mr. Swecker of the Federal Bureau of Investigations testified,
despite the public concern about child pornography, his office had not 
received any additional investigative resources in the FY2007 budget.
Does the same situation exist in the States?  Are state legislatures 
generally more willing to increase penalties for these crimes than to
increase resources to investigate and prosecute them?









 SEXUAL EXPLOITATION OF CHILDREN OVER THE INTERNET:  WHAT PARENTS, KIDS 
 AND CONGRESS NEED TO KNOW ABOUT CHILD PREDATORS


WEDNESDAY, MAY 3, 2006

House of Representatives,
Committee on Energy and Commerce,
Subcommittee on Oversight and Investigations,
Washington, DC.

The subcommittee met, pursuant to notice, at 2:25 p.m., in Room 2123 of
the Rayburn House Office Building, Hon. Ed Whitfield (chairman)
presiding.
	Members present:  Representatives Walden, Burgess, Blackburn, 
	Barton (ex officio), Stupak, DeGette, Inslee, Baldwin, and
	Whitfield.
	Also present:  Representative Gingrey.
Staff Present:  Mark Paoletta, Chief Counsel for Oversight and 
Investigations; Alan Slobodin, Deputy Chief Counsel for Oversight and 
Investigations; Kelli Andrews, Counsel; Karen Christian, Counsel; Michael
Abraham, Legislative Clerk; Edith Holleman, Minority Counsel; and David
Nelson, Minority Investigator/Economist.
	Mr. Whitfield.  I am going to call this hearing to order, and I
	apologize for our delay today.  There was a hearing in the 
	hearing room prior to our arrival and I certainly want to
	welcome those on the first panel.  We will have a second panel
	of witnesses as well.  Those buzzers that you hear going off 
	are calling us to votes on the floor.  We are going to have 
	three votes on the floor, so I apologize in advance for further
	delay, but we will go do the three votes, then we will come
	back.  We will do our opening statements, then we will swear in
	the first panel, and then we will get into the questions and 
	answers.  
	So please forgive us, and we will adjourn the hearing--not 
	adjourn, but recess the hearing until we can do these three 
	votes.  Thank you very much.
	[Recess.]
	Mr. Whitfield.  I will call the hearing to order, and once again
	apologize for the delay because of the votes on the floor.  We 
	are extremely enthusiastic that we have such a great panel of 
	witnesses today on a subject matter that is quite serious, and 
	one that is quite disturbing.
	This will be our third hearing on "Sexual Exploitation of 
	Children Over the Internet: What Parents, Kids, and Congress
	Need to Know About Child Predators."  Our first two hearings 
	brought to light many staggering and sobering facts about how 
	children are victimized over the Internet.  We know the number
	of sexually exploitative images of child victims continues to 
	rise, and that a large-scale commercial industry has developed
	around taking, trading, and selling sexually exploitative 
	images of children over the Internet.  We also heard testimony 
	at our last hearing from several law enforcement agencies that
	are trying to combat this problem and catch child predators.
	It is not an easy task.  Although the Immigration and Customs 
	Service, the Federal Bureau of Investigation, the U.S. Postal 
	Service, the Internet Crimes Against Children Task Force, and 
	many State and local agencies are working on putting child 
	predators behind bars.  The Internet has caused a proliferation
	of both the abusers as well as the images of the abused.
	At our last hearing, I was struck by how many different law 
	enforcement agencies are working on this problem, and yet, there
	does not seem to be any national strategy in place to deal with
	this growing problem.  I hope that through our hearing on this 
	topic, a national strategy will be put in place to ensure that 
	our children are safer and child predators are caught and put 
	behind bars.
	Today, we will continue to learn about this horrific problem.  
	We have a brave young lady with us today whom I had the 
	opportunity to visit with before the hearing, Masha Allen, and 
	I want to extend my most sincere thanks to you, Masha, publicly,
	for coming forward to tell us about your experience at the hands 
	of a pedophile who happened to be your adoptive father.  I also
	want to thank her mother, Faith Allen, for accompanying her 
	today.  Masha is now 13 years old, will testify about how she 
	was adopted when she was 5 years old from a Russian orphanage 
	by a divorced man living alone in Pennsylvania named Matthew 
	Mancuso.  Her adoptive father, Mr. Mancuso, sexually molested 
	Masha from the first day she arrived at his home as a 5-year-old 
	until law enforcement finally caught up with him 6 years later.
	Masha is a survivor, and she will be able to tell us as the 
	voice of a child victim and for victims everywhere how she 
	feels particularly violated by the sexually exploitative images 
	taken and posted by Mancuso over the entire Internet.
	We will also hear testimony from Nancy Grace, a former State
	court prosecutor in Atlanta, Georgia, who I understand handled
	a number of cases involving sexually abused children.  We also
	look forward to hearing from Ms. Grace about her media work 
	involving issues surrounding the sexual exploitation of children
	and specifically, over the Internet.
	Finally, we will revisit some questions that we previously had
	for the Department of Justice and Federal Bureau of 
	Investigation witnesses at our last hearing which were not 
	answered because we did not feel like the right witnesses were 
	present.
	I am very glad to see that the Department of Justice has sent
	us up one witness that the subcommittee did request, 
	Ms. Alice Fisher, who I had the opportunity to meet with
	earlier; however, we are still disheartened that we will once
	again not hear testimony from Mr. Andrew Osterbein, who is the 
	head of the section at the Department of Justice that actually 
	handles cases involving the sexual exploitation of children 
	over the Internet.  I know that Ms. Fisher oversees this 
	section, and I am hopeful that she will be able to add some 
	significant detail to how that section handles these types of
	cases, particularly when a cooperating child victim witness 
	is involved, and also, we want to hear, obviously, from law 
	enforcement on what we can do to help them do their jobs 
	better.
	A daunting challenge in combating the sexual exploitation of
	children over the Internet continues to be faced by all of 
	us involved in this issue, and we hope to learn more today 
	about the efforts of law enforcement in this area, and also to
	understand what the Department of Justice�s recently proposed
	legislative package will add to their efforts in this regard.
	I thank all of you for being here today.  There isn�t a more 
	important issue than this one on our plate, and we want to make 
	some efforts to curtail this, obviously, and prohibit it and be
	very stern in our enforcement of these statutes.
[The prepared statement of Hon. Ed Whitfield follows:]

Prepared Statement of the Hon. Ed. Whitfield, Chairman, Subcommittee on
Oversight and Investigations

GOOD AFTERNOON. I�D LIKE TO WELCOME EVERYONE TO THE SUBCOMMITTEE�S THIRD
HEARING THAT EXPLORES ISSUES RELATED TO THE SEXUAL EXPLOITATION OF 
CHILDREN OVER THE INTERNET.  OUR FIRST TWO HEARINGS ON THIS TOPIC HAVE 
BROUGHT TO LIGHT MANY STAGGERING AND SOBERING FACTS ABOUT HOW CHILDREN
ARE VICTIMIZED OVER THE INTERNET.  WE LEARNED AT OUR LAST HEARING THAT 
THE NUMBER OF SEXUALLY EXPLOITATIVE IMAGES OF CHILD-VICTIMS CONTINUES
TO RISE AND THAT A LARGE-SCALE COMMERCIAL INDUSTRY HAS DEVELOPED AROUND 
TAKING, TRADING AND SELLING SEXUALLY EXPLOITATIVE IMAGES OF CHILDREN 
OVER THE INTERNET.  
WE ALSO HEARD TESTIMONY AT OUR LAST HEARING FROM SEVERAL LAW 
ENFORCEMENT AGENCIES THAT ARE TRYING TO COMBAT THIS PROBLEM AND CATCH
THESE CHILD PREDATORS.  IT IS NOT AN EASY TASK.  ALTHOUGH THE 
IMMIGRATION AND CUSTOMS SERVICE, THE FEDERAL BUREAU OF INVESTGATION,
THE U.S. POSTAL SERVICE, THE INTERNET CRIMES AGAINST CHILDREN TASK
FORCE AND MANY STATE AND LOCAL AGENCIES ARE WORKING ON PUTTING THESE 
CHILD PREDATORS BEHIND BARS,  THE INTERNET HAS CAUSED A PROLIFERATION
OF BOTH THE ABUSERS, AS WELL AS, IMAGES OF THE ABUSED.  
AT OUR LAST HEARING, I WAS STRUCK BY HOW MANY DIFFERENT LAW ENFORCEMENT 
AGENCIES ARE WORKING ON THIS PROBLEM--AND YET, THERE DOES NOT SEEM TO
BE ANY NATIONAL STRATEGY IN PLACE TO DEAL WITH THIS GROWING PROBLEM.  I
HOPE THAT THROUGH OUR HEARINGS ON THIS TOPIC, A NATIONAL STRATEGY WILL
BE PUT IN PLACE TO ENSURE THAT OUR CHILDREN ARE SAFER AND THAT THESE 
CHILD PREDATORS ARE CAUGHT.
AT OUR HEARING TODAY, WE WILL CONTINUE TO LEARN ABOUT THIS HORRIFIC
PROBLEM. WE HAVE A VERY BRAVE YOUNG LADY HERE WITH US TODAY--
MASHA ALLEN.  I WANT TO EXTEND MY DEEPEST THANKS TO MASHA FOR COMING 
FORWARD TO TELL US ABOUT HER HORRIFIC EXPERIENCE AT THE HANDS OF A 
PEDOPHILE AND I ALSO WANT TO THANK HER MOTHER, FAITH, FOR ACCOMPANYING
HER UP HERE TO THIS HEARING.
MASHA, WHO IS NOW 13 YEARS OLD, WILL TELL US ABOUT HOW SHE WAS ADOPTED
WHEN SHE WAS JUST 5 YEARS OLD  FROM A RUSSIAN ORPHANAGE BY A DIVORCED 
MAN, LIVING IN PENNSYLVANIA, NAMED MATTHEW MANCUSO.  HER ADOPTIVE 
FATHER, MANCUSO, SEXUALLY MOLESTED MASHA FROM THE FIRST DAY SHE ARRIVED
AS A 5 YEAR OLD UNTIL LAW ENFORCEMENT FINALLY CAUGHT HIM 6 YEARS LATER.
MASHA IS A SURVIVOR--AND SHE WILL BE ABLE TO TELL US, AS THE VOICE OF 
CHILD VICTIMS EVERYWHERE, HOW SHE FEELS PARTICULARLY VIOLATED BY THE 
SEXUALLY EXPLOITATIVE IMAGES TAKEN AND POSTED BY MANCUSO OVER THE
INTERNET.   
WE WILL ALSO HEAR TESTIMONY FROM NANCY GRACE, A FORMER STATE COURT 
PROSECUTOR IN ATLANTA GEORGIA, WHO I UNDERSTAND HANDLED A NUMBER OF 
CASES INVOLVING SEXUALLY ABUSED CHILDREN.  WE ALSO LOOK FORWARD TO 
HEARING FROM MS. GRACE ABOUT HER MEDIA WORK INVOLVING ISSUES SURROUNDING
THE SEXUAL EXPLOITATION OF CHILDREN OVER THE INTERNET.  
FINALLY, WE WILL REVISIT SOME QUESTIONS THAT WE PREVIOUSLY HAD FOR THE
DEPARTMENT OF JUSTICE AND FEDERAL BUREAU OF INVESTIGATION WITNESSES AT
OUR LAST HEARING WHICH WERE NOT ANSWERED BECAUSE THE KNOWLEDGEABLE
WITNESSES WE REQUESTED WERE NOT SENT UP TO TESTIFY.    I MUST STATE
THAT THIS HAS BEEN AN EXTREMELY FRUSTRATING PROCESS TO GET THE WITNESSES
WE WANT--AND WHO WE BELIEVE WILL PROVIDE THE MOST THOROUGH ANSWERS-- 
FROM THE DEPARTMENT OF JUSTICE AND FROM THE FBI UP HERE TO TESTIFY.  I 
HOPE THAT TODAY IS THE BEGINNING OF THE END OF MY FRUSTRATION ON THIS 
POINT.  I AM VERY GLAD TO SEE THAT THE DEPARTMENT OF JUSTICE HAS SENT 
UP ONE OF THE WITNESSES THAT THE SUBCOMMITTEE REQUESTED--
MS. ALICE FISHER.  HOWEVER, I AM STILL DISHEARTENED THAT WE WILL, ONCE
AGAIN, NOT HEAR ANY TESTIMONY FROM MR. ANDREW OOSTERBAAN, THE HEAD OF 
THE SECTION AT THE DEPARTMENT OF JUSTICE THAT ACTUALLY HANDLES CASES 
INVOLVING THE SEXUAL EXPLOITATION OF CHILDREN OVER THE INTERNET.  I
KNOW THAT MS. FISHER OVERSEES THIS SECTION AND I�M HOPEFUL THAT SHE�LL
BE ABLE TO ADD SOME SIGNIFICANT DETAIL TO HOW THAT SECTION HANDLES THESE
CASES, PARTICULARLY WHEN A COOPERATING CHILD-VICTIM WITNESS IS INVOLVED.   
I AM ALSO PLEASED TO SEE THAT MR. ROLDAN AND MR. BELL, FROM THE FBI, 
ARE HERE TODAY TO TESTIFY.  MR. ROLDAN--I AM SURE YOU KNOW THAT WE 
REQUESTED YOUR ATTENDANCE AT THE HEARING WE HAD ON APRIL 6TH.  WE WERE
VERY DISTURBED TO LEARN THAT RATHER THAN ATTEND OUR HEARING, YOU WERE 
APPEARING ON MORNING NEWS SHOWS LIKE CNN AND THE TODAY SHOW.  WE�RE 
GLAD YOU MADE TIME FOR US TODAY AND LOOK FORWARD TO HEARING ABOUT THE 
WORK THAT INNOCENT IMAGES IS DOING TO COMBAT THIS GROWING PROBLEM.  
I UNDERSTAND THAT THE WORK THAT LAW ENFORCEMENT HAS CUT OUT FOR THEM IN
COMBATTING THIS PROBLEM OF THE SEXUAL EXPLOITATION OF CHILDREN OVER THE
INTERNET IS MASSIVE.  I HOPE TO LEARN MORE TODAY ABOUT THEIR EFFORTS IN
THIS AREA--AND ALSO TO UNDERSTAND WHAT THE DEPARTMENT OF JUSTICE�S 
RECENTLY PROPOSED LEGISLATION WILL ADD TO THEIR EFFORTS IN THIS REGARD.
	THANK YOU ALL FOR BEING HERE TODAY.  

	Mr. Whitfield.  So at this time, I will recognize our Ranking 
	Member, Mr. Stupak from Michigan, for his opening statement.
	Mr. Stupak.  Thank you, Mr. Chairman, and thanks for convening 
	this hearing.  This committee must take our time to adequately
	address a number of very serious issues involving child 
	pornography and exploitation on the Internet.  These include 
	sexual exploitation of very young children by members of their 
	own family; how to remove pornographic images of children from 
	the Internet; how to keep these images off the Internet; and 
	whether the Department of Justice and the Federal Bureau of 
	Investigation are aggressively investigating and convicting 
	individuals for these crimes.
	The sexual abuse and exploitation of children facilitated by the
	Internet is a criminal activity of horrible dimensions.  Last 
	month, we heard the story of Justin Berry, when he was a 
	13-year-old boy, was manipulated to perform sexual acts in from
	of a web camera for 5 years.  Unlike the case before us today, 
	the FBI and Department of Justice have largely failed to act on 
	the information provided by Justin that would have saved other
	children from sexual predators.  They failed to shut down or 
	arrest the Internet operator of Justin�s child pornography site.
	While the site is now shut down, the operator has fled the
	country.
	Today, we will hear another tragic story of child pornography, 
	this one involving a 5-year-old child adopted from a Russian
	orphanage for the sole purpose of sexual exploitation.  Masha 
	Allen, a young girl of great courage, will tell us of her 
	5 years of rape and how she became featured in one of the most
	sought after sets of child pornography images.  Masha�s adoptive 
	father specifically requested a blonde-haired, blue-eyed
	5-year-old girl, and three adoption agencies helped fulfill this
	wish.  The adoption agency that delivered Masha to this monster
	did not check the living and sleeping arrangements for the child.
	The agency did not interview the adoptive father�s estranged 
	daughter, whom he had previously abused when she was the same 
	age as Masha.  The agency did not perform follow-up home visits 
	after the adoption, as required.  The agency delivered a 
	5-year-old child into a living hell.  Masha was rescued only 
	after an undercover Illinois police officer corresponded with her
	adoptive parents--excuse me, her adoptive father, and obtained 
	his Internet address and a search warrant.  When executing this 
	warrant, authorities rescued Masha.
	Masha, now 13, will testify how her images became the most 
	sought-after images for pedophiles.  We will learn how, because
	of web file sharing, her terrible ordeal did not end with her 
	rescue.
	As the Supreme Court observed over 20 years ago in New York
	v. Ferber, and I quote "The distribution of photographs and 
	films depicting sexual activity by juveniles is intrinsically 
	related to a sexual abuse of children, and harm to the child is 
	exacerbated by their circulation."  
	Mr. Chairman, this Nation has done very little to stop the 
	Internet exploitation of children like Masha.  Last month, we 
	were shocked to learn that 80 percent of the pornographic images 
	on the Internet involve children less than 12 years of age.  
	Thirty-nine percent involve children under 6 years of age, and 
	19 percent portray children age 3 or younger.  Even more 
	disturbing is the fact that at least a third, and perhaps as many
	as 75 percent of the men caught with these images molest and rape
	their own children, just as Masha�s adoptive father did.
	Also today, we will finally hear from the Department of Justice.
	I will be interested to know why, after 8 months, there has been
	little follow up in the Justin Berry case, while other cases, 
	like Masha�s, received an immediate response with search warrants
	and arrests.  Is there a Constitutional, legal, or resource 
	impediment that Congress does not fully understand?  Why are 
	there so few of the tens of thousands of perpetrators who buy, 
	sell, and trade images of young children being raped and 
	tortured are not prosecuted.
	After our last meeting, U.S. Attorney General Gonzalez announced
	that his agency had rounded up 1,100 violent sexual offenders, 
	some of which were child molesters.  But from what this 
	subcommittee has heard, 1,100 is a small fraction of the true 
	number of sexual predators in our society.  So what is the 
	Justice Department�s plan for the rest of these people?
	Finally, Mr. Chairman, I know that you plan to call Internet
	service providers and related businesses that facilitate the 
	transmission of images over the Web.  It is important to learn
	what they believe can be done to prevent the dissemination of
	the estimated 3.5 million pornographic images currently on 
	the Internet.  I truly hope that when these companies testify, 
	they will have viable plans to remove the horrible images of
	Masha and other young victims from the Internet.  Voluntary 
	action to clean up the Internet has not been successful in 
	dealing with this problem.
	I look forward to continuing to work with you to make sure 
	Congress does everything it can to protect our children and 
	prevent images of abuse from flooding the Internet.  I yield
	back the balance of my time.
	Mr. Whitfield.  Mr. Stupak, thank you very much, and I am
	going to go out of order for just 1 minute.  Congressman 
	Phil Gingrey is on the first panel with us, and he is the 
	Representative and represents in the Congress Masha Allen and
	her mother, Faith Allen, and he has some amendments on the 
	House floor that he is going to have to take care of, so 
	Congressman Gingrey, I will recognize you now for any comment
	you would like to make about Masha and her family, or this 
	issue.
	Mr. Gingrey.  Thank you, Mr. Chairman and Ranking Member
	Stupak and members of the subcommittee.  Thank you for allowing
	me the opportunity to talk about a remarkable young lady,
	Masha Allen.  Masha is a strong, resilient 13-year-old girl who
	lives in Georgia�s 11th District, which I am honored to
	represent.  I want you to hear Masha�s story from her in her 
	own words so you can fully grasp what horrors she has lived 
	through, but I guarantee the first thing you will notice, as 
	I did, is her strength of spirit.  This little girl was forced
	to grow up too fast in order for her to process the numerous
	atrocities that she has experienced.  However, Masha�s 
	determined spirit gives her the power to stand up and tell her
	story, illustrating the fact that she is much more than a victim
	of child sexual exploitation.  Masha is a wonderful, willful 
	girl who has decided to be empowered by her situation, and to 
	do something to deter the disgusting world of Internet child 
	pornography that has grown to be a multi-billion dollar industry.
	There are many places in this young girl�s story where the
	system failed to protect her from the monster who adopted her. 
	Even before the horrible sexual exploitation began, it is 
	important to understand how she has come to be before you today.
	You should ask yourself, as I did, how the regulations that 
	exist in international adoption agencies failed, how follow-up
	visits or school intervention did not rescue this child much
	sooner, how our Federal laws have really abandoned this area of
	child welfare, and most importantly, what is Congress�s
	responsibility now that we have heard her story?
	The world of Internet child pornography is vast, it is dark, and
	it is deep.  These possessors of child pornography trade these 
	images like we would trade baseball cards, and the business 
	indeed is booming.  With the Federal government stretched thin 
	trying to investigate, prosecute, and convict these numerous 
	and varied possessors of child pornography, advocates are left 
	trying to find new avenues to expose these animals with the goal
	of deterring future acts of child pornography.  This is how the 
	idea of Masha�s Law came to fruition: the need to introduce
	legislation that updates a 20-year-old civil statute and brings
	it into the 21st Century.  Current civil law allows victims of 
	child sexual exploitation to recover damages of no less than 
	$50,000; however, Federal copyright law provides statutory 
	damages of $150,000 to be awarded to a copyright holder when a
	song is illegally downloaded from the Internet.  There is 
	something wrong with that picture.  Masha�s Law allows a civil 
	remedy for the dissemination of child pornography to be equal
	to other illegal downloads.  By increasing the amount of damages
	a victim is able to recover, the Government can accomplish in
	civil court what is a lengthy and complex process in criminal, 
	stopping the pictures.
	Congressman Tierney and I introduced H.R. 4703, Masha�s Law, as
	a companion to legislation in the Senate spearheaded by Senators
	Kerry and Isakson, to even out a horrible inequity that currently
	exists in Federal law.  It is one step that can be taken to stem
	the tide of child pornography; however, I know that it is just
	one step.
	As you listen to testimony today, keep in mind the responsibility
	of the Federal government to protect our children.  We need to 
	be proactive.  We need to respond to the reality that Internet
	child pornography is a growing business, one that victimizes our 
	children and leaves them with scars that may never heal.  As a
	physician Member of Congress, it is very important for me to
	convey to you what a devastating and lasting effect these images
	have on children.  The physical injuries they suffer as a result
	of child molestation may be more obvious; however, the 
	psychological damages are lengthy and they may not be fully
	realized until these children are well into adulthood.  Child 
	victims struggle with constant feelings of guilt and 
	responsibility for the abuse and betrayal, a sense of 
	powerlessness, and a feeling of worthlessness.
	In the case of Internet child pornography, these images are
	permanent proof of their exploitation.  Unfortunately, with 
	these images documented in cyberspace, they are irretrievable 
	and can continue to circulate forever, allowing the child to 
	be victimized each and every time the image is downloaded and
	viewed.  The reality of these crimes are horrible; however, I
	am encouraged when I see victims who have the courage to tell
	their story.  By supplying Americans with the knowledge of 
	these criminals and arming prosecutors with an avenue in civil
	court to attack their pocketbooks, we can take tremendous 
	strides toward ending the cycle of pornography.
	As I said earlier, I am proud to be here today with such an 
	amazing and courageous girl who is looking to turn her
	victimization into an avenue to stop this horrendous criminal
	behavior.
	This completes my testimony, Mr. Chairman, and thank you for
	giving me the opportunity to go out of order.
	Mr. Whitfield.  Thank you, Congressman Gingrey.
	At this time, I recognize Dr. Burgess for his opening statement.
	Mr. Burgess.  Thank you, Mr. Chairman, and thank you for having
	this important series of hearings.  As a father of three, I
	cannot comprehend how people can commit these types of crimes 
	against children.  And like my colleagues, I continue to be
	angered and astonished by the cruelty in the stories that we 
	hear.  Just last week, I read another story in my hometown
	newspaper about a local man charged with sexually abusing 
	children and posting their pictures on the Internet.  This is
	happening in our communities, and it must be stopped.  For the 
	sake of our children, we cannot afford to ignore the problem 
	any longer.
	Mr. Chairman, I view these hearings as having two main goals.  
	The first, of course, is to educate Congress and the public, and
	second, to implement stricter laws for deterrence and 
	retribution.  I, for one, have learned a great deal more than I
	ever wanted to know about this topic; however, it is crucial for
	the safety of our children for all of us to know about these 
	evils so that we can help end this abusive and dangerous 
	practice.  It is through the brave souls of children like Justin
	Berry and Masha Allen that we know so much about this secretive 
	world.  Masha, thank you for appearing before us today.  Your 
	courage and your dignity are apparent, and you are, in fact, an 
	inspiration to all of us.
	I also would like to thank my friend, Dr. Gingrey, for 
	introducing Masha�s Law.  When enacted, this law will help to 
	ensure that abused children receive a portion of the justice 
	they deserve.  I am a cosponsor of the bill and I encourage my
	colleagues to also cosponsor this important legislation.
	As I mentioned before, I feel that the goal of this hearing 
	should be stricter laws regarding this type of abuse.  
	Congressman Gingrey�s legislation is a good start.  I am also 
	aware that the Department of Justice has ideas regarding an 
	increase in penalties for Internet service providers not 
	reporting known violations.  Just one step, as Dr. Gingrey 
	said.  It is my sincere hope that these hearings will be a 
	catalyst for even more legislation named at curbing this 
	problem.  Our children are depending upon us to do this.
	Mr. Chairman, I believe, as we learned in other hearings, we 
	have to hold organizations and Federal agencies like the 
	Department of Justice accountable for enforcing these laws.  
	It does us no good to continue to pass laws if enforcement 
	is nonexistent.  
	Mr. Chairman, thank you again for your continued leadership 
	and dedication to this grave situation.  I look forward to 
	working with you and others on the committee as we continue 
	to seek solutions to the most egregious deviation from the 
	norm that I think I have ever seen.
	I yield back.
	Mr. Whitfield.  Thank you, Dr. Burgess.
	At this time, I recognize Ms. DeGette for her opening statement.
	Ms. DeGette.  Thank you very much, Mr. Chairman, and I want to
	add my thanks for this series of important hearings.  We are all 
	learning a shocking amount, and I am hoping that instead of just
	emoting for the next few months, we actually have legislation 
	that actually comes out of these hearings.
	I want to extend a special welcome to our first witness.  Masha,
	we are really privileged to have you here with us today.  You 
	had quite a journey in your life, and I know it has been hard, 
	but we think that there are many, many wonderful things ahead of
	you and this is just the first one of those many things.  You 
	are really brave and you, and also Justin, who testified before,
	are going to teach us a lot of things that we can help both make
	laws and enforce laws that will stop this from happening to other
	children.  So you are starting with what I hope will be a 
	lifetime of helping other people.
	Mr. Chairman, what happened to Masha is one of the worst cases
	any of us have ever heard about.  It really boggles the mind to 
	comprehend how someone as evil as this was allowed to adopt a 
	young girl.  I hope that some light will be shed on how this was
	allowed to happen, and while it is not under this committee�s 
	purview, maybe the hearing will spur some needed changes in the
	system, the adoption system, to make sure this never happens
	again.
	So Chairman, in preparing for this hearing, I learned that the 
	primary investigators on the case tracked down Masha�s adoptive 
	father by using an IP address.  They were able to locate his 
	whereabouts by obtaining the IP address, which then led them to
	his home.  Tracing pedophiles and others who produce and
	distribute child pornography through their IP addresses is an
	important tool used by law enforcement agencies.  In our last 
	hearing, by way of contrast, we heard some testimony from 
	investigators who actually saw a 2-year-old being raped live on 
	the Internet.  It was shocking.  They were able to trace this to
	my home State of Colorado.  They knew that the perpetrator and 
	the little child were in Colorado, but when they tried to 
	subpoena the IP address, those records had been destroyed by the 
	Internet service provider because ISPs do not keep those records 
	on any kind of consistent basis.
	After the hearing, Mr. Stupak and I had the idea, maybe we can
	do some simple legislation, and what that legislation would say
	is that Internet service providers have to maintain the 
	addresses for a period of 1 year.  This created havoc among the
	IP community, and I am horrified that the provider community is
	not working with us on this, because it seems to me to be a very
	simple piece of legislation.  I am going to continue to fight
	for it.  I am telling this to all the people sitting out there 
	in the audience.  We are not saying that the Internet providers 
	should keep all of the communications.   That would be 
	burdensome.  All we are saying is that they should have to keep 
	the IP addresses of their subscribers for a period of 1 year.  
	We are also not saying that we want anybody to violate folks�
	privacy rights.  Instead, just like if you were subpoenaing 
	bank records--and Ms. Grace knows about this.  She is a former 
	prosecutor and I used to be a public defender in my youth.  If
	the law enforcement investigators had probable cause, they could 
	go and get a warrant.  They could serve that warrant, and they
	could get that information from the Internet provider.  That
	seems to be a very minor burden to ask to be able to find these
	horrible criminals who are making crimes on the Internet.
	One last thing I will say that I have been thinking about is
	use of an Internet service provider is a contractual agreement.
	I would assume that all of the Internet service providers enter
	into a contractual agreement with their subscribers that they 
	will not commit crimes over that Internet service.  And so 
	therefore, if Internet service providers are obtaining evidence 
	of criminal activity under their contract with their
	subscribers, they should be able to turn that over to law 
	enforcement authorities.  I don�t understand what the big deal 
	is, but I will tell you this, Mr. Chairman.  I have heard that 
	our next hearing is supposed to be a hearing when the Internet 
	service providers come in, and I am very much looking forward 
	to asking them these questions.
	In addition, if we have a telecom bill that comes up on the 
	floor next week or the week after, I do intend to work with
	Chairman Barton, who has said he wants to work with me, and I
	know you do, too, Mr. Chairman, to make sure that we craft 
	something that is sensible, that is narrowly drafted, and that
	protects these kids so that all of the kids, just like Masha, 
	that we can find these criminals and we can bring them to 
	justice.
	Thank you very much, Mr. Chairman.
	Mr. Whitfield.  Thank you, Ms. DeGette, and we do look forward
	to the Internet service providers when they come to testify.  
	I know that Ms. Fisher is going to be making some comments, I 
	believe, about a recent meeting that she had with some Internet 
	service providers on this issue.
	At this time, I recognize the Vice Chairman of this 
	subcommittee, Mr. Walden, for his opening statement.
	Mr. Walden.  Thank you very much, Mr. Chairman.  I am actually
	going to waive my opening statement.  I very much appreciate 
	our witnesses today, but I want to reserve the extra 3 minutes
	I will get for questioning of this panel.  So I am going to 
	waive at this time.
	Mr. Whitfield.  Thank you very much.
	At this time, I recognize Ms. Baldwin for her opening statement.
	Ms. Baldwin.  Thank you, Mr. Chairman.
	I want to also acknowledge and commend the subcommittee�s work 
	in prior sessions examining the proliferation of child
	exploitation over the Internet.
	Sexual exploitation and the assault of minors is simply one of
	the most heinous crimes that can ever be committed, yet
	advancements in Internet technology have greatly enabled the 
	production, viewing, and trafficking of images that are the 
	result of such crimes against children.  I applaud this 
	subcommittee�s effort to shed light on these abhorrent but 
	burgeoning networks of child predators online, and to educate 
	the public, especially parents, about the dangers such
	individuals pose to children�s access to the Internet.
	Having read the New York Times article detailing the harrowing
	story of Justin Berry and his testimony before the committee 
	several weeks ago, it is clear to me that our Department of 
	Justice has some explaining to do over the way its Child 
	Exploitation and Obscenities Section handles child sexual 
	exploitation over the Internet.  Although I am disappointed, 
	as the Chairman is, that Mr. Andrew Osterbein, Chief of CEOS,
	still will not be testifying today, I hope that Ms. Fisher 
	will be able to offer some insight into the general operations
	of the Section in handling the referral of online child 
	exploitation cases.
	In addition, I am pleased that Mr. Roldan has finally agreed to
	testify before this subcommittee on its second panel today.  I
	hope we will have an informative discussion regarding the 
	operation of Innocent Images, especially the level of resources 
	that this Section has devoted to investigate sexually explicit 
	images of children online.
	Finally, I also want to acknowledge and thank Masha Allen for
	her courage and the courage you have exhibited in coming before
	this committee to testify today regarding your experiences.  It 
	is really unimaginable to me to know how the international 
	adoption process, which is aimed at giving children a new start 
	through a nurturing family, would become a tool of child
	predators.  Masha, your story is one of both despair and hope. 
	Our adoption system failed you in ensuring that a healthy, stable
	home was provided to you, and as a result, you have endured years 
	of inconceivable suffering.  But yours is also a story of hope, as
	law enforcement officers worked to bring you to safety and to
	provide you an opportunity to live a life free of violence.  I
	admire your courage very much.
	I hope that the hearings this subcommittee has been conducting 
	will lead directly to a reduction in such violent crimes against
	children.  Whether it is through informing parents of the dangers
	of online child predators, or a greater oversight of Federal 
	responses to the issue of child exploitation on the Internet, or
	new legislative proposals that would deter online pedophilia.  
	Again, I thank the subcommittee for holding this important 
	hearing.
	Mr. Chairman, I yield back my remaining time.
	Mr. Whitfield.  Thank you, Mrs. Baldwin.
	At this time, I recognize Ms. Blackburn for her opening 
	statement.
	Mrs. Blackburn.  Thank you, Mr. Chairman.  I appreciate that.  I 
	thank you for holding the hearing, for the time and effort that 
	you have put into it, and the work that the staff continues to
	do to help us and work with us on this issue.  I also want to 
	thank our witnesses.  We appreciate your time and the efforts 
	that you put in to preparing your testimony, and being here with
	us today.  Masha, we are especially happy and we are grateful 
	that you would agree to join us and be with us.
	This subcommittee started with these hearings, just as you have 
	heard other members mention today, with testimony from Justin 
	Berry about the pervasiveness of child predators on the
	Internet.  One of the things that has surprised us, it is like 
	anything else you begin to investigate and you look at it, and 
	you realize as you are peeling back the layers that it is much 
	deeper than you ever imagined it could possibly be.  So we know
	that there is a lot of work to be done on this.  Justin described
	for us how the predators help teenagers set up websites and 
	webcams and how they lure them into the sexual acts for money.
	He also told the committee that the Department of Justice�s 
	CEOS failed to act on information provided to them.  At the 
	risk of his own life, he provided that information of over 
	1,500 child predators and distributors of child pornography, 
	yet it seems that the Department of Justice is unconcerned 
	about the information or has chosen not to move forward.  We
	are looking forward to getting that answer, because it is 
	troubling when the FBI has used similar information in Operation
	Falcon and the Regpay investigations that led to hundreds of
	warrants and arrests and convictions.  It is very difficult for
	us to comprehend why the information from Mr. Berry has not led
	to similar actions.
	I would have to say, too, I am also concerned about the funding 
	for the Departments that are investigating child pornography and
	exploitation.  I have yet to hear from the Department about 
	their budget submissions to cover the exponentially increased 
	workload that has come from the investigations.  But not all 
	the blame should be put on the Department of Justice.  Right now,
	unfortunately, there are some Members of Congress who would
	rather see multi-hundred million dollar railroads and 
	multi-million dollar subsidies to corporations that already have
	$7 billion in revenues, but yet cannot adequately fund the 
	Departments that are trying to save our children from being
	victims of these crimes.
	The House has acted to implement a nationwide sex offender 
	registry and enhanced criminal penalties for crimes against 
	children.  The bill, the Child Safety Act, was passed by the 
	House this past September, but we have got some members in the
	Senate that have refused to allow the bill to be considered. 
	These members have put their unpolitical ambitions ahead of 
	the protection and welfare of our children.  That needs to
	stop.
	I have also had brought to my attention, and I would like to 
	bring to the attention of the committee, a recent investigation
	by News Channel 5 in Nashville, Tennessee, which is there in my
	district, and they found a fast-food restaurant franchise all 
	over the country that had been hiring sex offenders to work in 
	the restaurants.  This has seriously troubled me because of the 
	actions that we have seen of these despicable people and what 
	they go to to try to get close to the children so that they can
	proposition the children.  This is something we are still 
	working on, Mr. Chairman, and hope to have more information for
	the committee on that issue at some point soon.  We are also 
	looking at the work opportunity tax credit that is there to help
	in hiring and retraining expellant and wanting to be certain 
	that none of that money is directed towards individuals that 
	would have committed these crimes.
	Again, to our panel, I thank you.  I thank you so much,
	Mr. Chairman.  Thank you, and I yield back.
	Mr. Whitfield.  Thank you, Mrs. Blackburn.
	At this time, I recognize Mr. Inslee for his opening statement.
	Mr. Inslee.  Thank you.  I just hope that the courage of 
	Masha Allen and Justin Berry is matched with appropriations by 
	the U.S. Congress for resources to actually do something about 
	this instead of just talk about it.
	As a prosecutor, I learned that you could have all the laws on 
	the books and you can have all the fancy library books you 
	wanted in your library of all the great statutes that 
	legislators had passed with great fanfare, but if you didn�t
	have detectives, if you didn�t have Internet search tools, if 
	you didn�t have prosecutors, if you didn�t have victim advocates
	to help them through this process, this didn�t get shut down. 
	This is not getting shut down.  It is a $20 billion industry, 
	we are told, on the Internet.  To put that in context, it is a
	$3 billion industry for music, just to give a context to how 
	large this is.
	So while this has exploded exponentially, the United States 
	Congress, the way it is currently formed, has had tiny little 
	dribs and drabs of additional appropriations to get the 
	prosecutors, to get the detectives, to get this job done.  
	There is no secret here.  When Justin Berry had the courage to 
	come forward several weeks ago to talk about this, we learned 
	from these detectives that said I got stacks, I got boxes back 
	in my office that we can prosecute tomorrow if we had any 
	resources to investigate them.  So you will know whether Masha 
	Allen�s courage is matched by Congress when you see whether or 
	not we do the Federal appropriations to help the FBI and the 
	Justice Department to get to the bottom of this, and whether 
	also we help local communities with their local prosecution, 
	because they are just as important as the Feds are in this.  
	And instead, what this Congress has done is cut funding for 
	local law enforcement in the COPS program and a variety of 
	other places.
	So I just want to say I just hope that Congress will show 
	respect for Masha�s courage here with appropriations in 
	addition to our verbal thanks for her courage here today.  
	Thank you.	
	Mr. Whitfield.  Thank you, Mr. Inslee.
	The Chairman of the full Energy and Commerce Committee has just
	come in from a meeting, and at this time I recognize Chairman 
	Barton for any opening statement he may want to make.
	Chairman Barton.  Well, thank you.  I am not going to give an
	opening statement.  I do want to appreciate you, Mr. Chairman 
	and Mr. Stupak for continuing to focus on this issue.  I want 
	to thank the young lady here who is brave enough to come 
	forward.  I want to thank the media representatives who have stood 
	by her and helped to protect her and bring her story to the
	public.  I appreciate what you all are doing.
	This is an issue that this subcommittee takes absolutely 
	seriously.  I have four children and two stepchildren, of which
	three are still at home, and on a bipartisan basis, we are going
	to absolutely guarantee that when the hearings get through, if 
	there is legislation that can be passed at the Federal level to 
	help prevent this obscenity, we are going to do it. 
	I will be back to ask my questions, Mr. Chairman.  I will come
	back for the second panel.  I want to ask our friends at the 
	Justice Department some questions.  But on this panel, I just 
	want to say thank you and we will continue to work together to
	try to find ways to prevent this problem.
	Thank you, Mr. Chair.
	[The prepared statement of Hon. Joe Barton follows:]

 Prepared Statement of the Hon. Joe Barton, Chairman, Committee on 
 Energy and Commerce

Thank you, Mr. Whitfield, for holding this hearing.
	Today�s hearing marks the third in a series of hearings that  
	this subcommittee has held about the sexual exploitation of
	children over the Internet.  Our previous hearings have 
	revealed a shocking and revolting problem.  Unfortunately, 
	with regard to the Justin Berry case, these hearings also have
	raised serious questions about whether the Justice Department 
	and the Federal Bureau of Investigation are being aggressive 
	enough in pursuing those individuals who seek to abuse and 
	exploit children over the Internet.   
 Today, we are joined by two witnesses who can help explain how the 
 Justice Department and the FBI investigate and prosecute these cases:
 Alice S. Fisher, Assistant Attorney General for the Criminal Division 
 at Justice, and Raul Roldan, Section Chief of the Cyber Crime Section 
 of the Cyber Division at FBI.  I thank you both for taking the time to
 appear before us this afternoon although I am disappointed that Andrew
 Oosterbaan, the chief of the Child Exploitation and Obscenity Section 
 at the Justice Department, was not sent to this hearing.  
The recent arrests of 1,102 sexual offenders as part of the "Operation 
Falcon II" investigation are an example of the progress that is being 
made by the Justice Department, FBI, and other law enforcement agencies
in the war against the sexual exploitation of children.  I would like 
to take this opportunity to commend your departments for everything 
they did to make "Operation Falcon II"  a success.  Bringing these 
sexual predators to justice will undoubtedly help to make this world a
safer place for our children.  However, I think one thing this 
Committee�s investigation has shown us is that there is still much more
work to do.  
Therefore, in addition to learning how effectively these cases are 
investigated and prosecuted, I hope Ms. Fisher and Mr. Roldan can comment
on the role of Internet Service Providers and credit card companies in 
these investigations.  The previous hearings have demonstrated that the
war against child pornography is not simply a matter of law enforcement 
resources.  For example, at our last hearing, agents from the state 
Internet Crimes Against Children task forces explained that some of 
their investigations have been thwarted because Internet Service 
Providers did not retain the data that would allow them to identify
online child predators.  There may be other areas where more should
be required of the Internet and financial services industries with
respect to retaining data and conducting due diligence of those who use
servers and financial networks to distribute child pornography.    As 
the Committee moves forward with this investigation, we are simply
trying to better understand the scope of the problem, the adequacy of
law enforcement efforts to fight it, and what we should do legislatively
to help put an end to this epidemic of abuse.
We are also joined today by Masha Allen.  After being adopted from a 
Russian orphanage, Masha was raped and molested by her adoptive father,
Matthew Mancuso, who placed images of that abuse on the Internet.  
Thankfully, Mancuso was prosecuted, convicted, and is now incarcerated.
However, hundreds of images of Masha�s abuse are still on the Internet 
today.  For this reason, Masha bravely decided to come forward and tell
the public about the abuse she suffered and about the dangers lurking 
online.  I know appearing before us today must not be easy, Masha, but
I hope you will take some comfort in knowing that your story might help 
others.
With Masha today is our colleague, Congressman Phil Gingrey of Georgia.
Congressman Gingrey has introduced a bill, H.R. 4703, also known as 
"Masha�s Law," which he will discuss with us today.   This bill will 
increase the civil statutory damages available to victims of online 
child exploitation to $150,000, the same fine that is imposed on 
those who illegally download music from the Internet.  I thank the 
Congressman for taking the time to appear before the Committee this 
afternoon.
I look forward to hearing from the witnesses and yield back the
balance of my time. 
	
	Mr. Whitfield.  Thank you, Mr. Chairman, and I think that
	concludes all the opening statements, so we will now get to
	the testimony, which is where we learn most of the important 
	issues that we need to deal with.
	You are aware that--I would, first of all, say that on the
	first panel, obviously, there has been a lot of reference to
	Masha Allen.  Masha is on this first panel.  She is 13 years 
	old.  She was the young lady who grew up until she was 5 years 
	old in Russia.  She was adopted by a gentleman in Pennsylvania 
	and she will be testifying today.  In addition, Ms. Nancy Grace,
	who is with CNN and was a former prosecutor, and has had a lot
	of experience and interest in this particular subject matter.  
	We welcome her.
	In addition, although the next three people that I am going to 
	introduce are not going to be giving opening statements, they 
	may be answering some questions.  Mr. James Marsh, who is the
	attorney for Masha, and then Maureen Flatley, who works with
	Masha and her family and I understand she is an expert on 
	adoption agency practices and other child issues.  And then,
	of course, we are delighted that Masha�s adoptive mother,
	Faith Allen, is with us today, and we welcome you to the panel
	as well, Faith.
	So we take this testimony under oath because it is an 
	investigatory hearing, and I would ask you now, do any of you 
	have any objection to testifying under oath?  I would also 
	advise you that under the rules of the House and the rules of 
	the committee, everyone is entitled to legal counsel, and we know
	that Masha does have legal counsel.  I have already introduced 
	him.  But the rest of you, do any of you desire to be advised by
	legal counsel?  Okay.
	All right.  In case not, then I would ask all of you to stand and
	raise your right hand, and I will swear you in.
	[Witnesses sworn.]
	Mr. Whitfield.  Thank you very much.  You are now sworn in, you 
	are under oath, and we will begin the opening statements.
	Masha, we are going to recognize you first for your 5-minute 
	opening statement, and once again, we genuinely appreciate your 
	willingness to testify before the committee and help bring this 
	issue to the public.

STATEMENTS OF MASHA ALLEN, C/O JAMES R. MARSH, ESQ.; AND NANCY GRACE, 
CNN NANCY GRACE

	Ms. Allen.  Thank you.  My name is Masha Allen.  I am 13 years 
	old and I live near Atlanta, Georgia, with my mother, Faith
	Allen.
	When I was 5 years old, Matthew Mancuso, a Pittsburgh 
	businessman who was a pedophile, adopted me.  I was rescued
	almost three years ago when the FBI raided his home in a child 
	pornography citing.  After I was rescued, I learned that during
	the 5 years I lived with Matthew, he took hundreds of 
	pornographic pictures of me and traded them over the Internet.
	Thank you for conducting this hearing.  Also, thank you for 
	letting me have Nancy Grace here.  Nancy is really special to my
	family and me.  She has been an advocate for me and lots of 
	other kids.
	The Internet is everywhere in my story.  You need to do 
	something about it right away.
	I was born August 25, 1992, in Russia.  For the first 3 years of
	my life, I lived at home with my mother and siblings.  My mother 
	was an alcoholic.  When I was 3 years old, she tried to kill 
	me.  She stabbed me in the neck and I almost died.  The 
	Government took me away from her and I went to live in an 
	orphanage near my family�s home in Russia.
	Living in the orphanage was scary and dangerous.  There was 
	constant noise and the older children abused the younger ones. 
	I was afraid all the time.  I kept all my belongings under my 
	pillow because I was afraid that they would be stolen.  After 
	living in the orphanage for 2 years, I found out that I was going
	to be adopted.  Matthew visited the orphanage a couple of times.
	He seemed nice.  He gave me presents.  I asked if he was married 
	and if I would have a mother, but he said no.  He adopted me in 
	Russia in July, 1998.  After that, we left Russia and traveled 
	to his house outside of Pittsburgh.  The abuse started the night
	I got there.
	Matthew didn�t have a bedroom for me.  He made me sleep in his 
	bedroom from the very beginning.  He molested me all the time.  
	He made me dress up in adult clothes and even pretended to marry
	me.  Sometimes he kept me chained in the basement.  Because he 
	didn�t want me to grow up, he only let me eat a little bit of
	food: plain pasta, raw vegetables, no meat.  Five years after I 
	went to live with him, I was only gaining a little bit of weight.
	When I was rescued, I was 10 years old, but I only wore a size 
	6X.
	Matthew let me go to school and sometimes play with friends, but 
	he told me if I ever told anyone what was happening, that 
	something bad would happen to me.  Even though I was the size of
	a 5-year-old when I was 10, no one at my school ever said 
	anything to anyone.  No one from the adoption agency ever came 
	to check on me to make sure I was okay.  I never told anyone 
	about the abuse because I was afraid and I thought that no one
	cared.
	A lot of people ask me how anyone could let a pedophile adopt a
	little girl.  I didn�t know very much about my adoption until my
	lawyer investigated everything.  Now, I know there were three 
	adoption agencies involved with my adoption by Matthew.  The 
	first was Families Through International Adoption in Indiana.  
	I think Matthew found them on the Internet.  He went to an office
	they had in New Jersey.  The State of New Jersey found out that
	they were operating without a license and closed them down.  The
	same people who worked for that agency just started a new agency 
	in the same office in New Jersey that they called Reaching Out 
	Through International Adoptions.  The two agencies are fighting 
	over who was really responsible for Matthew adopting me, but 
	the name of the Families Through International Adoption is on 
	the home study, the immigration paperwork, and the Russian 
	government documents.  I think Matthew also paid Families Through
	International Adoptions.  Reaching Out Through International 
	Adoption was really just the same agency, the same people, with 
	different names.  A third agency did Matthew�s home study to 
	adopt me.  They were in Pittsburgh and were called the Family 
	Health Council, but they just changed their name to Adagio Health.
	I found out, after I was safe, that none of these agencies asked 
	Matthew any questions.  They never really checked him out.  They
	showed him pictures of me, probably on the Internet, before he
	had a home study to adopt me.  In some of the pictures they 
	showed him of me from the orphanage, I was naked.  He told them
	he was divorced and had a daughter that he wasn�t close to.  I 
	found out later that the reason his daughter didn�t talk to him 
	was because she was molested, too.
	While I lived with Matthew, no one from any of the adoption 
	agencies ever came to check on me, though the Russian 
	government requires it.  As my story came out, we found out two 
	other kids, a boy from Romania and a girl from Russia were 
	adopted by pedophiles, too.  Just so you know, 14 other Russian 
	kids have actually been murdered by their adoptive parents.  I
	am sure there are other kids in trouble, but no one seems to 
	care about any of this.  When I told my story in public for the
	first time, all the adoption agencies, not just Matthew�s, tried
	to cover up my story.  I lived with Matthew for 5 years.  The 
	whole time, he starved and molested me.  The whole time, he took
	pictures of me.  I didn�t know until later that he was putting 
	my pictures on the Internet to trade, maybe to sell to other 
	pedophiles.  I was rescued when the FBI discovered that Matthew 
	had a lot of child pornography on his computer.  They came to 
	raid his house; they didn�t know I would be there.  When the 
	FBI arrested Matthew, I was taken to the hospital, examined, 
	and then put in foster care.  My foster mother was Faith Allen.
	She understood what I was going through because she was 
	sexually abused when she was little.  She was a foster child 
	in Georgia when she was growing up.  As soon as I went to live 
	with her, I felt safe.  She adopted me on May 14, 2004.
	Matthew was prosecuted by the U.S. Attorney�s Office in 
	Pittsburgh on September 25, 2003.  He was convicted on child 
	pornography charges for all the pictures he had on his computer.
	He was only sentenced for 15 years in prison for that.  I was
	afraid he would get out of jail too soon.  He was convicted 
	again in Pennsylvania State Court on August 23, 2005, of 11
	criminal acts for some of the things he did to me.  He was 
	sentenced last November to 35 years in prison.  I was really 
	upset that he didn�t receiver a harder sentence.  I was even 
	more upset that he was sent to a hospital in Massachusetts so 
	he could be rehabilitated.  A person like Matthew can never be 
	rehabilitated.  Plus, in this hospital prison, he has free 
	healthcare, free mental health services, and can read 
	magazines, play ping-pong, and have hobbies.  No one cares 
	about rehabilitating me.  I just lost my Medicaid and my mom 
	has to work doubly hard to pay for the things that I need 
	while Matthew lays around in the hospital playing games.
	I was really mad that Matthew didn�t get a harder sentence and 
	that he went to an easy prison, but I got much more upset when
	I found out about the pictures of me that he put on the 
	Internet.  I had no idea he had done that.  When I found out 
	about it, I asked our lawyer to get them back.  He told me 
	that we couldn�t do that.  I found out that they would be 
	there forever.  That is when I got mad and decided to go 
	public with my story.  Usually when a kid is hurt, the abuser 
	goes to prison and the abuse is over, but because Matthew put 
	my pictures on the Internet, the abuse is still going on and 
	everyone can see them.  People are still downloading them.  We 
	get notices from the FBI every time someone is arrested for it.
	I want every single one of them to go to jail, and they will be
	punished, but that is a problem too.
	I found out last summer that if someone downloads a song off the
	Internet, the penalty is three times worse than if someone 
	downloads child pornography.  I couldn�t believe it.  How could 
	this be?  That is when I decided we had to change the laws about
	downloading child porn.  Senator Kerry and Senator Isakson and
	Congressman Gingrey and Congressman Tierney introduced bills in 
	Congress that make the penalty the same as downloading songs. 
	That was a few months ago.  There hasn�t been a vote on it.  I
	want every single Member of Congress to support these bills
	and want Congress to pass them right away.  There are lots of
	cases of people downloading our pictures, and I want every 
	single one of them to be punished as much as possible.
	There might be more pictures of me on the Internet than any
	other real child.  The police told my lawyer that a lot of 
	child pornographers, more than half even, have my pictures on
	their computers, and there are a lot of other kids like me, too.
	People who are doing this should be afraid.  We know who they 
	are.  A lot of people downloading those pictures are 
	professionals.  They are doctors and teachers and ministers who
	would like to put their pictures on the Internet and tell people 
	what they are doing.  People stopped downloading songs when they 
	found out they could be sued.  We are going to sue these guys 
	too, every single one of them.  I want to tell them you aren�t 
	doing this in secret anymore.  Everyone can find out who you are.
	I am really upset about the pictures on the Internet, and I am 
	upset about what Matthew did to me, physically.  A lot of people
	are surprised that I wanted to go public with my story, but I 
	have been on the Internet since I was 5 years old.  Going on
	television shows wasn�t going to hurt me.  I did it because I 
	don�t think anyone is doing enough about the things that 
	happened to me and a lot of other kids.  Talking to John 
	Quinones and Nancy Grace helped me.  They were my champions.  I
	felt in charge of my story because of them.  I know they will 
	help me to help other kids like me.  People need to know about
	this stuff.  The adults who let this happen have just tried to 
	cover it up.
	You have to do something about the Internet.  Matthew found the
	adoption agency on the Internet.  They let him look at my 
	pictures from Russia on the Internet, even though they didn�t
	know anything about him.  Other kids have been adopted by 
	pedophiles the same way.  Matthew put my pictures on the Internet 
	after he got me.  People are still downloading them, even though
	he has been in prison for 2 years.  We don�t even know whether he
	still makes money from them, even though he is in jail.  Even now
	that I am safe, the Internet is still a dangerous place for me to
	go.  The police detective who found Matthew�s home for the FBI 
	said I should never go to chat rooms even for fun things, because
	they almost always have pedophiles.
	Ten years ago, I was a scared little girl in a Russian orphanage.
	For 5 years, I was held hostage by a monster.  But in the last 
	2 years, a lot of amazing things have happened.  John Quinones 
	and Nancy listened to me and told my story to the whole world.  
	I called my Congressman, Dr. Gingrey, who didn�t even know me.  
	He introduced a bill in Congress right away to help me and other 
	kids like me.  Because of all these things, I believe I can do 
	something for other kids so they don�t have to go through what 
	I did.
	Some people say we can�t control what is on the Internet, but
	that is ridiculous.  If we can put a man on the moon, we can 
	make the Internet safe for kids.  That is just common sense.  I 
	am going to work hard to protect other kids and make sure people
	who hurt them are punished.  I hope you will help me.  You can 
	start by passing Masha�s Law right away.  That would be a good 
	start.
	Thank you.
	[The prepared statement of Masha Allen follows:]

Prepared Statement of Masha Allen, c/o James R. Marsh, Esq.

My name is Masha Allen.  I am 13 years old and live near Atlanta, 
Georgia with my mother, Faith Allen.  When I was five years old 
Matthew Mancuso, a Pittsburgh businessman who was a pedophile, 
adopted me.  I was rescued almost three years ago when the FBI raided 
his home in a child pornography sting.  After I was rescued I learned
that during the five years I lived with Matthew he took hundreds of
pornographic pictures of me and traded them over the Internet.  Thank 
you for conducting this hearing.  Also, thank you for letting me have
Nancy Grace here.  Nancy is really special to my family and me.   She 
has been an advocate for me and lots of other kids.  The Internet is 
everywhere in my story.  You need to do something about it right away.
I was born on August 25, 1992 in Novochakhtinsk, Russia.  For the first
three years of my life I lived at home with my mother and siblings.  My 
mother was an alcoholic.  When I was three years old she tried to kill
me.  She stabbed me in the neck and I almost died.  The government took
me away from her and I went to live in an orphanage near my family�s 
home in Russia.
Living in the orphanage was scary and dangerous.  There was constant 
noise and the older children abused the younger ones.  I was afraid all
the time.  I kept all of my belongings under my pillow because I was 
afraid they would be stolen.  After living in the orphanage for two years
I found out that I was going to be adopted.  
Matthew visited the orphanage a couple of times.  He seemed nice.  He 
gave me presents.  I asked him if he was married and if I would have a
mother but he said no.   He adopted me in Russia in July 1998.  After
that we left Russia and traveled to his house outside of Pittsburgh. 
The abuse started the night I got there.
Matthew didn�t have a bedroom for me.  He made me sleep in his bed from 
the very beginning.  He molested me all the time.  He made me dress up 
in adult�s clothes and even pretended to marry me.  Sometimes he kept 
me chained in the basement.  Because he didn�t want me to grow up, he 
only let me eat a little bit of food -- plain pasta, raw vegetables, no
meat.  Five years after I went to live with him I had only gained a 
little bit of weight.  When I was rescued I was 10 years old but I only 
wore a size 6X.
Matthew let me go to school and sometimes play with friends.  But he
told me if I ever told anyone what was happening that something bad 
would happen to me.  Even though I was the size of a five year old when 
I was ten, no one at my school ever said anything to anyone.  No one from 
the adoption agency ever came to check on me to make sure I was OK.  I
never told anyone about the abuse because I was afraid and I thought no
one cared.
A lot of people ask me how any could let a pedophile adopt a little 
girl.  I didn�t know very much about my adoption until my lawyer 
investigated everything.  Now I know there were three adoption agencies 
involved in my adoption by Matthew.  The first was Families Thru 
International Adoption in Indiana.  I think Matthew found them on the 
Internet.  He went to an office they had in New Jersey.  The state of 
New Jersey found out that they were operating without a license and 
closed them down.  The same people who worked for that agency just 
started a new agency in the same office in New Jersey that they called
Reaching Out Thru International Adoption.  
The two agencies are fighting over who was really responsible for 
Matthew adopting me.  But the name of Families Thru International 
Adoption is on the home study, the immigration paperwork and the 
Russian government documents.  I think Matthew also paid Families Thru
International Adoption.  Reaching Out Thru International Adoption was
really just the same agency and the same people with a different name.
A third agency did Matthew�s home study to adopt me.  They were in 
Pittsburgh and were called the Family Health Council.  But they just 
changed their name too, to Adagio Health.    
I found out after I was safe that none of these agencies asked Matthew 
many questions.  They never really checked him out.  They showed him
pictures of me, probably on the Internet, before he had a home study
to adopt me.  In some of the pictures they showed him of me from the
orphanage I was naked.  He told them he was divorced and had a daughter
that he wasn�t close to.  I found out later that the reason his daughter 
didn�t talk to him is that he molested her too.   While I lived with 
Matthew no one from any of the adoption agencies ever came to check on
me even though the Russian government requires it.  Since my story came 
out we found out that two other kids -- a boy from Romania and a girl 
from Russia -- were adopted by pedophiles too.   Just so you�ll know,  
fourteen other Russian kids have actually been murdered by their 
adoptive parents in America.  I�m sure there are other kids in trouble.
But no one seems to care about any of this.  When I told my story in 
public for the first time all the adoption agencies, not just Matthew�s
tried to cover up my story.
I lived with Matthew for five years.  The whole time he starved and 
molested me. The whole time he took a lot of pictures of me.  I didn�t
know until later that he was putting my pictures on the Internet to 
trade and maybe sell to other pedophiles.  I was rescued when the FBI 
discovered that Matthew had a lot of child pornography on his computer.
They came to raid his house. They didn�t know I would be there.
When the FBI arrested Matthew I was taken to the hospital, examined 
and then put in foster care.  My foster mother was Faith Allen.  She
understood what I was going through because she was sexually abused 
when she was little.  She was a foster child in Georgia when she was
growing up.  As soon as I went to live with her I felt safe.  She 
adopted me on May 14, 2004. 
Matthew was prosecuted by the US Attorney�s office in Pittsburgh and 
on September 25, 2003 he was convicted on child pornography charges 
for all the pictures he had on his computer.  He was only sentenced to
fifteen years in prison for that.  I was afraid he would get out of jail
too soon.  He was convicted again in Pennsylvania state court on 
August 23, 2005 of eleven criminal acts for some of the things he did to
me.   He was sentenced last November to 35 years in prison.  I was 
really upset that he didn�t receive a harder sentence.  I was even more
upset that he was sent to a hospital in Massachusetts so he could be 
rehabilitated.   A person like Matthew can never be rehabilitated.  Plus
in this hospital prison he has free health care, free mental health 
services and he can read magazines, play ping-pong and have hobbies. No 
one cared about rehabilitating me.  I just lost my Medicaid and my mom
has to work double hard to pay for the things I need while Matthew lays 
around the hospital playing games.  
I was really mad that Matthew didn�t get harder sentences and that he 
went to an easy prison.  But I got much more upset when I found out 
about the pictures of me that he put on the Internet. I had no idea he
had done that.  When I found out about it I asked our lawyer to get them
back.  He told me we couldn�t do that.  Then I found out that they would 
be there forever.  That�s when I got mad and decided to go public with 
my story.
Usually, when a kid is hurt and the abuser goes to prison, the abuse is 
over.  But because Matthew put my pictures on the Internet the abuse is 
still going on.  Anyone can see them.  People are still downloading 
them -- we get notices from the FBI every time someone is arrested for 
it.  I want every single one of them to go to jail and really be 
punished.   But that�s a problem too.
I found out last summer that if someone downloads a song off the Internet
the penalty is three times worse than if someone downs child 
pornography.   I couldn�t believe it!  How can this be?  That�s when I
decided that we had to change the laws about downloading child porn.  
Senator Kerry and Senator Isakson and Congressman Gingery and Congressman
Tierney introduced bills in Congress that make the penalty the same as 
downloading songs.  That was a few months ago.  There hasn�t been a vote
on it.  I want every single member of Congress to sponsor these bills and
I want the Congress to pass them right away.   
There are a lot of cases of people who downloaded my pictures and I want
every single one of them to be punished as much as possible. There might 
be more pictures of me on the Internet than any other real child.  The
police told my lawyer that a lot of child pornographers -- more than
half even -- have my picture on their computers.   And there are a lot 
of other kids like me too.   The people who are doing this should be 
afraid.  We know who they are.  A lot of the people downloading these 
pictures are professionals. They are doctors and teachers and ministers.
We�re going to put THEIR pictures on the Internet and tell people what 
they are doing.  People stopped downloading songs when they found out 
they could be sued.  We�re going to sue these guys too -- every single
one we find out about.  I want to tell them, "You�re not doing this in 
secret anymore.  Everyone can find out who you are!
I�m more upset about the pictures on the Internet than I am about what 
Matthew did to me physically.   A lot of people are surprised that I 
wanted to go public with my story.   But I�ve been on the Internet since
I was five years old.  Going on a television show wasn�t going to hurt 
me.  I did it because I didn�t think anyone was doing enough about the 
things that happened to me and to a lot of other kids.   Talking to 
John Quinones and Nancy Grace has helped me.  They were my champions.  I
feel in charge of my story because of them.  I know they will help me to
help other kids like me.  People need to know about this stuff.  The 
adults who let this happen have just tried to cover it up.
You have to do something about the Internet.  Matthew found the adoption 
agency on the Internet.  They let him look at my pictures from Russia on
the Internet even though they didn�t really know anything about him.  
Other kids have been adopted by pedophiles the same way.  Matthew put my
pictures on the Internet after he got me.  People are still downloading 
them even though he has been in prison for two years.  We don�t even 
know whether he still makes money for them even though he�s in jail. 
Even now that I�m safe the Internet is still a dangerous place for me 
to go.  The police detective who found Matthew�s house for the FBI said 
I should never go to chat rooms even for fun things because they almost
always have predators.   
Ten years ago I was a scared little girl in a Russian orphanage.  For 
five years I was held hostage by a monster.  But in the last two years a 
lot of amazing things have happened.  John Quinones and Nancy listened 
to me and told my story to the whole world.  I called my Congressman, 
Dr. Gingery, who didn�t even know me.   He introduced a bill in Congress
right away to help me and other kids like me.  Because of all these 
things, I believe I can do something for other kids so they don�t have 
to go through what I did. 
Some people say we can�t control what�s on the Internet but that�s 
ridiculous.  If we can put a man on the moon, we can make the Internet 
safe for kids.  That�s just common sense.  I�m going to work hard to 
protect other kids and make sure people who hurt them are punished.  I 
hope you will help me.  You can start by passing Masha�s Law right 
away!  That would be a good start!

Witness contact information:
James Marsh, Esquire
Marsh, Menken and Weingarden, PLLC
81 Main Street
Suite 305
White Plains, NY 10606
914.686.4456

	Mr. Whitfield.  Thank you very much, Masha, for your testimony. 
	At this time, I will recognize Ms. Grace for her 5-minute 
	opening statement.
Ms. Grace.  Thank you.  
	After growing up in a loving home where there was nothing the
	eye could see except soybean fields and pine trees, I suddenly 
	learned about a whole other world, a world I had never known 
	anything about, after the murder of my college sweetheart just
	before our wedding, my fianc�.  In deep grief, I answered the 
	call not just to be a crime victim, but to fight violent crime.
	I applied, entered, and graduated from law school and had the 
	opportunity to fight violent crime over 10 years in inner city
	Atlanta.  I learned about a world I never knew existed.  I 
	learned there were people who do not follow the rules as we know
	them.  During that time, I often represented the single most 
	innocent segment of America, its children.
	I learned in court that children speak a language all their 
	own.  Prosecutors and social workers are very hard-pressed to 
	understand it sometimes.  Once I broke that barrier, I was 
	pained to learn the suffering of our children.  No, not children
	far, far away in some other country, where we can go to bed at 
	night and put our head on the pillow and sleep, and think no, no,
	not here.  Not here in America.  They are here in our country, 
	in our States, on this very block.  Their suffering knows no 
	barrier, white, black, good students, bad students, the 
	well-to-do, the poor.
	I can�t begin to tell you what I saw with my own two eyes.  How
	many children ranging from infants to toddlers, elementary 
	schoolers, beaten, raped, used, covered in cigarette burns, 
	sometimes starved, left alone.  Child by child, case by case, 
	jury by jury, I tried so hard to make a difference so that one 
	day these children would know when they grow up that someone had
	fought for them when they were too powerless to struggle.
	As the years went on, I began to realize that I was simply
	putting a band-aid on a mortal wound.  That while I could detect,
	apprehend, and punish child predators, I had no way of stopping
	future predators.  What could be done, I wondered, besides 
	taking the individual offender off the street.  I didn�t know 
	the answer, so I, like you, just struggled every day and wrestled.
	My life path landed me at Court TV and CNN�s Headline News, and I
	have the opportunity to continue this battle in another forum.  It
	is there at Headline News I learned of Masha.  When I approached 
	Headline executives, we joined together to tell the world her 
	story.  Together, we join forces today to ask you for our voices 
	to be heard.
	All the statistics that you have heard became real for me when I
	met this girl, this little girl, a tiny girl with a big, big 
	voice.  As you know, her case highlights so many grievous 
	failings of our system, from illegal foreign adoption, what can
	go so horribly wrong, to undetected full-blown child molestation
	that went undetected by teachers, friends, neighbors from age 5 
	to age 10.  Most of us have memories of birthday cakes, of 
	Christmas trees, of dinner around the table when your parents 
	come home from work with your brother and your sister.  Not 
	her.  Her memories are fear and pain and sexual exploitation at
	the hands of a man we now know to be a virtual clearinghouse for
	the most horrific child pornography I have ever laid my eyes on.
	In addition to the outright abuse he heaped on his own child, 
	dozens and dozens, hundreds of photos of this girl will be 
	forever on the Internet.  Did you hear her say, I asked my 
	lawyer could he get them back?  Nothing she said hurt me so much
	as that, that innocence of a child believing she could take it
	all back and it would be okay.
	Now, technology has made it so easy for these twisted
	perpetrators to not only fill their appetite for our children,
	but allow them a window back into the child�s home, every home 
	in America where a child is sleeping, is playing, is setting the
	dinner table tonight, doing their homework.  In addition, the 
	so-called Super Highway is just that.  It is just a pit stop for
	predators to gather, to share stories, share their illegal 
	photos, and pass on tips to each other, and they do, to how 
	better meet, seduce, have sex with, and sometimes kidnap our 
	children.
	This child, a little girl, has been so very brave.  A staggering 
	majority of little children, child molestation victims, never 
	speak out.  They never make a peep.  Often, they can�t.  They go
	on living their lives in quiet desperation with the albatross 
	hanging around their neck of pain and helplessness like no 
	other.  Not only has this child come forward and spoken out, she
	has made her way here to our Nation�s capital.  How many of us 
	dreamed of being here one day to make a difference?
	As you all know, it is written in the oldest book of all, "A 
	little child shall lead us," and so she has.  She has displayed
	more courage in her short life than many of us will in a 
	lifetime.  I am here today before you, humble, on behalf of 
	every child victim I ever knew, every child victim I never met,
	for those who are too young or weak or innocent or simply afraid
	to speak out, to ask you, sirs and madams, for your help in
	passing legislation, forcing it through, that will stop child
	sex predators.
	I am so proud to be in this room today that you may often take 
	for granted.  My prayer is that you will use your power to
	protect the weakest among us.
	Thank you.
	[The prepared statement of Nancy Grace follows:]
Prepared Statement of Nancy Grace, CNN Nancy Grace

After growing up in a loving home, where there was nothing but soybean 
fields and tall pine trees as far as the eye could see, I suddenly 
learned about a whole other world.  Suddenly and without warning, I 
became a victim of violent crime when my fianc�, my college sweetheart 
was murdered shortly before our wedding. In deep grief, I answered the 
call not to simply be a victim of violent crime, but to fight it.  In 
that vein, I applied, entered, and graduated from law school and then, 
had the opportunity to fight violent crime for over ten years in the 
courtrooms of inner-city Atlanta.  During that time, I learned about a 
world I had never before known existed.  A world where rules, as we know
them, do not apply--where those more powerful or cunning prey on others 
that are weaker or simply more innocent than themselves.  During that
time, I often represented the single most innocent segment of American 
life, specifically, children.  
I learned in court that children speak a language of their own that 
prosecutors and social workers are hard pressed to understand.  Once I 
broke that barrier, I  was pained to learn the suffering of children--
not far, far away in another country so we could say "No, no-never here 
in America!" and put our head to our pillow at night to sleep easy, but
here, in this country, in this region, in this state".on this street.  
Their suffering knows no barrier, white, black, good students, bad 
students, the well-to-do, the poor.  
I can not begin to tell you what I saw with my own two eyes.  How many 
children did I see? Ranging from infants to toddlers to elementary 
schoolers beaten horribly, raped, used, covered in cigarette burns, 
sometimes starved, left alone.  Child by child, case by case, jury by 
jury, I tried so very, very hard to make a difference in these
particular children�s lives--so that one day they would know when they 
grew up, that someone had cared, someone had fought for them when they
were to young and innocent, too powerless to fight back.  
As the years went on, I began to realize that I was simply putting a
Band-Aid on a mortal wound-- that while I could detect, apprehend, and
punish child predators, I had no way of stopping future predators.  
What could be done, I wondered, besides taking that individual offender
off the street after-the-fact?  I didn�t know the answer--so I just kept
on and on and on.
My life-path landed me at Court TV and at CNN�s Headline News, where I
have the opportunity to continue my battle in another forum.  And it is
there, at Headline News, I first learned of Masha.  When I told 
Headline News executives of her story, the call to try and DO SOMETHING
was heard.  Together, we join forces in asking you for her, for our 
voices to be heard.
The threat of internet child predators is like no other.  Some studies 
put numbers of child internet victims at one in five young internet 
users. (Youth Internet Safety Survey, 2001).  When asked, many of the 
children stated the solicitation made them feel extremely upset or 
afraid.  Ninety-seven percent of the solicitors were strangers. (Id.)   
Shockingly, seventy percent of these unwanted solicitations happened 
when the child was using a computer in their own home.
These statistics became real to me the evening I met Masha, a tiny little
girl who now, has a big, big voice.  As you know, her case highlights so 
many grievous failings of the legal system, ranging from illegal foreign
adoptions and what can go so horribly wrong, to undetected full-blown 
child molestation that went undetected by teachers, friends, and 
neighbors from Masha�s age five to age ten.  Most of us have memories of
birthday cakes, Christmas trees. School bus rides and dinners around the
family table each night.  Not Masha.  Her early childhood memories are 
those of fear, pain, and sexual exploitation at the hands of a man we 
now know to be virtual clearing house for internet child pornography.  
In addition to the outright abuse he heaped on his own adopted child for
years, dozens and dozens of photos of her in pornographic poses remain 
forever in cyberspace, traded like baseball cards amongst child
predators.  It is horrific.  It is wrong.
And now, technology has made it so easy for these twisted perpetrators 
to not only fuel their own sick appetites for our children through 
internet child pornography, but to allow them a window into every home 
in America where a child is sleeping, playing, setting the table, doing 
their homework.  In addition, the so-called Super Highway is just that, 
and serves as a pit stop for predators to gather, share stories, share
their illegal photos, and pass on tips to each other as to how better 
to meet little children, then seduce, and even  abduct them.
This child, Masha, a little girl for Pete�s sake, has been so very, 
very brave. A staggering majority of child molestation victims never 
speak out, never make a peep, and go on living their lives in quiet 
desperation, never really being free of the albatross hanging around 
their necks, a hidden pain and feeling of helplessness like no other. 
Not openly has this child come forward and spoken out, she has made her
way here, to our nation�s capital, to ask for you to act.
As it was written "a little child shall lead us," and so she has.  She 
has displayed more courage in her short life than many will show in a 
lifetime.  I am here today on behalf of every child victim I ever 
represented, of every child victim I never met, on behalf of those who 
are too weak or young or innocent or simply too afraid to speak out, 
to ask you for your help in passing legislation that will not only 
crack down upon, but help stop ongoing child sex predators.  
I am so proud to be here today.  My prayer is that you will use your 
power to protect the weakest among us.
Thank you.

	Mr. Whitfield.  Thank you, Ms. Grace.  Your testimony was 
	certainly compelling, both of you.  You almost don�t know where
	to really start.  When you think about this subject matter, it 
	shows, I think, something systemically wrong with our society 
	because I have been told that in the U.S. this problem is so 
	pervasive that it is just mind-boggling for everyone.  We have
	heard testimony about Masha and what has happened to her, and 
	earlier today I found out that there have been 14 adopted 
	children from Russia that have been murdered by their American
	adoptive parents.  We can�t fathom why adoptions like this have
	been allowed to happen, why someone like Mancuso would be able
	to adopt a child from anywhere. 
	So one of the questions that I would like to get into to start 
	off with relates to this adoption issue.  It is my 
	understanding, and Mr. Marsh, you may be able to help in this,
	or Ms. Flatley or maybe Ms. Grace, that the name of the 
	adoption agency was the Families for International Adoption, 
	is that the name of the agency?
	Ms. Flatley.  Families Through International Adoption is the 
	agency of record.
	Mr. Whitfield.  Families Through International Adoption.  And 
	Mr. Mancuso initially went to New Jersey, is that correct?
	Ms. Flatley.  An office that they had in Cherry Hill, New 
	Jersey, correct.
	Mr. Whitfield.  And was that a licensed agency in New Jersey?
	Ms. Flatley.  It was not, and the State of New Jersey 
	ultimately suspended their operations.
	Mr. Whitfield.  And when did he actually adopt Masha, was it
	in 1998?
	Ms. Flatley.  The adoption was finalized, I believe, in July of
	1998.
	Mr. Whitfield.  And he went to Russia to pick her up, is that
	correct?
	Ms. Flatley.  Correct.
	Mr. Whitfield.  Now, Masha, when you first met Mr. Mancuso in 
	Russia, how was it explained to you about who he was or what he
	was or why he was there?
	Ms. Allen.  I knew that he was going to adopt me because I 
	found out, but they didn�t really tell me a lot about him, so
	yeah.
	Mr. Whitfield.  So the people at the orphanage in Russia told
	you that you would be adopted by an American?
	Ms. Allen.  Yes.
	Mr. Whitfield.  And I suppose at that time you were maybe 
	excited about it, because from what you said about the orphanage,
	that was a rather unpleasant experience also.  Is that correct?
	Ms. Allen.  Yes.
	Mr. Whitfield.  And how many times did you meet Mr. Mancuso and 
	spend time with him before you actually went to America with
	him?
	Ms. Allen.  About two or three times.
	Mr. Whitfield.  Two or three times?
	Ms. Allen.  Yes.
	Mr. Whitfield.  And how long did you stay with him?
	Ms. Allen.  He came like for the day to visit for a couple 
	hours sometimes.
	Mr. Whitfield.  How did you feel about it?  Did you want to go 
	to America?  Did you feel like that was in your best interest 
	at that time?
	Ms. Allen.  Well, he seemed nice.  He would bring me gifts.
	Mr. Whitfield.  And you knew that he was not married, correct?
	Ms. Allen.  Yeah, he told me he wasn�t.
	Mr. Whitfield.  I guess that was maybe disappointing for you, 
	but at the same time, it was an opportunity for maybe a new life
	for you.  Would that be accurate?
	Ms. Allen.  Yeah.
	Mr. Whitfield.  Now, when you arrived at Mr. Mancuso�s home, it 
	is my understanding that there was only one bedroom.  Is that 
	right?
	Ms. Allen.  Yeah, he only had one bedroom.
	Mr. Whitfield.  And that is when he told you that you would 
	actually be sleeping with him?
	Ms. Allen.  Yeah, he told me that because we got in late, and
	so we just went to bed like first thing.
	Mr. Whitfield.  And what did you think about that?
	Ms. Allen.  I didn�t--
	Mr. Whitfield.  Of course, you were very young at the time,
	weren�t you?
	Ms. Allen.  Yeah.
	Mr. Whitfield.  How old were you?
	Ms. Allen.  I was 5.  At first I thought it might be normal, 
	because you know how some little kids sleep with their parents,
	but then after the first night I figured out that there was 
	something wrong because he tried to touch me or something.
	Mr. Whitfield.  Now, I know this has been difficult for you, 
	but you did testify also that he actually kept you chained in 
	the basement or in a room or where?
	Ms. Allen.  In the basement.
	Mr. Whitfield.  How frequently were you chained in the 
	basement?
	Ms. Allen.  Maybe like once a month or something.
	Mr. Whitfield.  For how long?
	Ms. Allen.  A couple hours, or sometimes he would leave me down
	there for a while.
	Mr. Whitfield.  Now, why would he do that?
	Ms. Allen.  I don�t know.
	Mr. Whitfield.  He would just take you downstairs and chain you?
	Ms. Allen.  Yeah, he would take my pictures and--
	Mr. Whitfield.  Were you nude?
	Ms. Allen.  Yes, I was.
	Mr. Whitfield.  And did he have you chained to a bed or to a 
	post or--
	Ms. Allen.  Yeah, it was a post.  There were two of them.
	Mr. Whitfield.  Two posts?
	Ms. Allen.  Yes.
	Mr. Whitfield.  Your hands would be chained, or your legs?
	Ms. Allen.  Both.
	Mr. Whitfield.  Both?
	Ms. Allen.  Yes.
	Mr. Whitfield.  That went on for the entire period of time that 
	you lived with him?
	Ms. Allen.  Yes.
	Mr. Whitfield.  And did he ever tell you what he was going to do
	with those pictures?
	Ms. Allen.  No, he just said he was keeping them.  I don�t know.
	Mr. Whitfield.  So you had no idea that he was trading them over 
	the Internet--
	Ms. Allen.  No.
	Mr. Whitfield.  --all around the world?
	Ms. Allen.  At the time, I didn�t think that that was possible.  
	I didn�t know.
	Mr. Whitfield.  Was there ever a time that you were scared of him,
	that he might injure you physically or try to harm you?
	Ms. Allen.  I was always scared of him, but I don�t really think 
	that he--like he never hit me a lot or anything, but I was always
	scared of him.
	Mr. Whitfield.  Now, he did tell you frequently that if you told 
	anyone that you might be harmed.  Is that correct?
	Ms. Allen.  Yes.
	Mr. Whitfield.  Did you ever think about telling someone else? 
	I often wonder when a child is experiencing the type of things 
	that you are experiencing, and we talked to Justin Berry about 
	this as well.  Can you explain to us how you felt and why you 
	didn�t tell anybody?
	Ms. Allen.  I was afraid because I thought he would do something 
	to me, and I didn�t know what would happen.  At school, they 
	would never talk about any of this kind of stuff, so I was really
	confused, too.
	Mr. Whitfield.  Yes, yes.  Mr. Marsh or Ms. Flatley, how is it
	that an adoption agency--do you have any idea how much money 
	Mr. Mancuso paid this adoption agency?
	Ms. Flatley.  We are informed by a reliable source that it was
	probably in the neighborhood of about $15,000, which is 
	actually somewhat less than we might have expected.
	Mr. Whitfield.  And from the facts of this case and from the 
	information that you have seen on applications or whatever, is 
	there any reason that you can fathom why an adoption agency 
	would approve a gentleman like Mancuso to adopt any child?
	Ms. Flatley.  I think the question, Mr. Chairman, is more does
	an adoption agency like this ever decline to place a child with
	anyone.  The adoption, as we have discussed, was exceptionally 
	unregulated.  In fact, I wanted to share with Mr. Walden as an 
	aside that the two other children that we know of who were 
	adopted by pedophiles were adopted in Salem County, Oregon.  The
	perpetrators were prosecuted by the same State prosecutor, who 
	did a wonderful job, by the way.  So one of the underlying 
	issues here, and the thing that I think was of greatest concern
	to us is that when we began to investigate the circumstances 
	around Masha�s adoption, and we certainly believe that the 
	adoption agencies in this case might have been manipulated by
	him, although it turns out not to have been the case, that they
	have characterized on national television that the process that
	went on in Masha�s adoption was actually typical.  
	Mr. Whitfield.  Typical?
	Ms. Flatley.  It begs the question in our minds how many other
	Masha�s are there out there.  The fact is, no one knows.  But 
	the fact is, we are quite certain that there are.
	Mr. Marsh.  We also, in looking into this, Mr. Chairman, believe
	that the fragmentation in the adoption system worked to 
	Mr. Mancuso�s advantage.  He was dealing with a well-regarded
	agency in Pittsburgh to do the home study.  He was dealing with
	another agency headquartered out of State to do the adoption.  
	That agency was dealing with a facilitator in Russia to actually
	find the child.  The facilitator was dealing with a different 
	set of orphanages in Russia to identify and procure the child.
	So based on the fragmentation in the system, he was able to 
	basically pick and choose the avenue by which he wanted to
	adopt and I think this is definitely a factor that helped 
	facilitate.
	Mr. Whitfield.  Did you say a well-respected agency in
	Pittsburgh did the home study?
	Mr. Marsh.  We initially thought that it would be an independent
	social worker or someone very new that had signed off on the 
	home study, which really reads like a public relations 
	document.  In fact, I wish we had a copy here today because it
	is laughable.  On the last page of the document, the writer 
	refers to Mr. Mancuso as being a highly moral individual and
	an outstanding citizen.  I am not mincing words here.  It says
	that, ironically and unbelievably.  So we believe that it would
	be a rookie social worker doing the report that he could have 
	conceivably paid off, and in fact, it was a well-respected 
	agency that--
	Ms. Flatley.  And Mr. Whitfield, if I may add, we also believe 
	that one of the reasons this happened so readily is the U.S.
	State Department has effectively become a lobbying arm for the
	adoption industry.  We were quite disturbed to learn from the 
	Salem County, Oregon prosecutor�s office who prosecuted the 
	two other pedophiles who adopted children, one from Romania and
	one from Russia, that the U.S. State Department, this past fall,
	attempted to coerce him into deleting any references to adoption
	from his press releases, and in fact, furnished him by e-mail
	with a draft press release to substitute for the press release 
	that he had written.  Now, it should be noted that he really
	didn�t get the adoption connection at the time.  It appeared a
	coincidence to him.  But to the extent that you and we have 
	been hampered in our efforts to institute greater and more 
	effective regulation of adoption, it is in large part because, 
	in fact, the U.S. government has conspired with the system to 
	remain unregulated.
	Mr. Whitfield.  So in that instance, it sounds like the State
	Department was doing a cover-up as well as the adoption agency 
	wanted to cover up.
	Ms. Flatley.  Exactly.  When Masha�s story went public on ABC 
	News Primetime Live in December, 3 weeks before Primetime�s 
	story aired, when the adoption agencies--not just the ones 
	involved, I should say, but all of the adoption agencies 
	involved in international adoption, discovered that Primetime
	was doing a story on this, they inundated ABC News with over 
	3,000 e-mails attempting to coerce them into canceling the 
	story and/or censoring the story.  So to the extent that we 
	have a culture here in this industry that is not about the
	children, we have a more serious problem and the problem you
	see in front of you today.
	Mr. Walden.  Mr. Chairman, just a point of order.  Just for
	the record, it is actually Marion County.  It is the City of
	Salem, but I know we may want to follow up just for our 
	record, but I appreciate the reference.
	Ms. Flatley.  Very good, thank you.
	Mr. Whitfield.  At this time, I would recognize Mr. Stupak.
	We have, unfortunately, 7 minutes to cast a vote, five votes. 
	So we are going to recess and we will be back at 5:00.  I
	apologize once again, and Mr. Stupak will be recognized.
	Mr. Stupak.  Before we leave, Mr. Marsh, can you give us that
	document that you testified to where they described
	Mr. Mancuso--
	Mr. Marsh.  Yes, we can.
	Mr. Stupak.  --so we can have it for the record to complete your
	testimony.
	Mr. Marsh.  Absolutely.
	Mr. Stupak.  Thank you.
	[Recess.]
	Mr. Whitfield.  I apologize.  You have been very patient and at
	this time, I am going to recognize Mr. Stupak for his line of
	questioning, then I understand that some people on the first 
	panel, Ms. Grace in particular, have some time deadlines, so 
	I recognize Mr. Stupak.
	Mr. Stupak.  Well, thank you.  Let me thank all the witnesses 
	for their testimony, especially Masha, for your testimony.  I
	think we should also acknowledge your mother, Faith Allen, who
	is here with you, for her very important role that she plays in
	your life.
	Let me ask you, Masha, if I may, one question.  What is most 
	important to you, and from your testimony, I think I can 
	understand it, but I would like you to explain it.  Is it 
	getting your images off the Internet, is that the most important
	thing to you?
	Ms. Allen.  Yeah, it is very important for me, but I understand 
	that it is very unlikely that they all will be taken off.  The 
	thing that is most important to me right now is trying to help 
	other people and trying to get everyone aware of the topic.
	Mr. Stupak.  Okay.
	Mr. Marsh, you are Masha�s attorney, and I know you are
	contemplating a civil litigation against a number of parties 
	involved in the actual adoption.  We have a book here, it is 
	titled "Beyond Tolerance: Child Pornography on the Internet" by 
	Philip Jenkins, in which he describes the great difficulty in
	removing these images from the Internet.  There are literally 
	thousands of collectors all over the world who have thousands of
	images, some of them decades old.  In fact, they call them the 
	classic collections, if I am correct.  These people are 
	technologically very sophisticated and a click of the button can
	give them a new location and a new life.  So what can we in 
	Congress and law enforcement do to help remove these images?
	Mr. Marsh.  That is a very good question, Congressman.
	The first thought that I had when Masha asked me that question 
	last summer as to whether or not we could remove her pictures 
	from the Internet was in the nature of copyright law, whether 
	or not we could gain any sort of legal control over them so that
	we would have at least a remedy or a cause of action or some way
	to assert a legal claim over the images themselves.  I was quite
	frankly--
	Mr. Stupak.  Would you have to cert that through the victim?
	Mr. Marsh.  Excuse me?
	Mr. Stupak.  The copyright.
	Mr. Marsh.  We were actually quite surprised to find that that
	provision was already provided for in the criminal code--
	Mr. Stupak.  Sure.
	Mr. Marsh.  --and it involved what is the precursor to Masha�s 
	Law and had been on the book for 20 years.  I was, quite 
	frankly, very shocked to find that our current code provides 
	for civil remedies for a violation of the criminal possession, 
	distribution, and creation provisions.  Not surprisingly, I 
	guess, was that law had never been used in 20 years.  There were
	no reported decisions, and at the time we were developing a 
	strategy to deal with this, there did come a decision from the 
	Eastern District of Virginia which dealt with this law.  It was 
	the first reported case, and that is when we contacted our 
	friends on the Hill about enhancing this.
	Mr. Stupak.  Sure.
	Mr. Marsh.  And giving the victims an actual cause of action so 
	that they can go in and assert a legal claim over these images.
	Mr. Stupak.  So I take it that Virginia court then upheld the
	cause of action?
	Mr. Marsh.  The Virginia court did uphold the cause of action.
	Mr. Stupak.  For civil--
	Mr. Marsh.  For the civil--
	Mr. Stupak.  --remedies?
	Mr. Marsh.  --remedies, but it pointed out that due to a quirk
	in the law, the law--and your question is very relevant here--
	the law as written only allows a victim to file a claim when 
	they are age 18 or younger.
	Mr. Stupak.  Right.
	Mr. Marsh.  So once the victim hits age 19, they lose the cause 
	of action.  It was just based on inartful drafting.
	Mr. Stupak.  But no matter when images may have been taken--
	Mr. Marsh.  Exactly.
	Mr. Stupak.  They may have been 12 years old at the time.
	Mr. Marsh.  So part of what we are doing with Masha�s Law is we 
	are removing that limitation.  In terms of the--
	Mr. Stupak.  But if you file a claim--you are under 18, let us 
	say you have filed a claim that probably hasn�t been litigated,
	and then as we talked about the classic collectors may produce
	these images years later, would you be able to come back and 
	bring a claim?
	Mr. Marsh.  That is what Masha�s Law allows us to do.  It 
	basically eliminates the cap of age 18, so if you discover that 
	somebody has downloaded the images when you are 20 or 30 or 
	40, you still have the cause of action to pursue them.
	Mr. Stupak.  So caps lifted, how about statute of limitations?
	Mr. Marsh.  The statute of limitations, because of the way the 
	law is structured, you can get current downloaders--
	Mr. Stupak.  Correct, okay.
	Mr. Marsh.  We are actually receiving now notices through the 
	victims of crime--
	Mr. Stupak.  So every download or every transmission of the 
	image should be a new cause of action?
	Mr. Marsh.  That is correct, and that is how it is worded, and 
	that is what the criminal law recognizes.  In terms of the 
	international reach of the problem, I was, quite frankly, 
	shocked by a recent report by the International--it is basically
	the equivalent of the National Center for Missing and Exploited 
	Children--
	Mr. Stupak.  Right.
	Mr. Marsh.  Ninety-four countries have no laws regarding child
	pornography at all.
	Mr. Stupak.  But still underneath this civil remedy, if you 
	will, that may be available, you still almost have to go at it
	each image at a time.
	Mr. Marsh.  Absolutely, and that is what we are doing and that 
	is being facilitated for us by the Victims of Crime Act which 
	Congress passed 2 years ago.  We are now receiving notices from 
	the FBI and from the U.S. Attorney�s Office regarding every
	prosecution and every investigation involving Masha�s pictures. 
	So this really allows us, instead of being a needle in a 
	haystack, where do you start, how do you find these guys, how 
	do you find the perpetrators?  We are actually, under the 
	Victims of Crime Act, receiving notices of individual cases, and
	we are receiving dozens of those at a time of individuals who 
	have pled guilty or been convicted criminally of this crime 
	today, and then we can pursue civil remedies against each one of
	them.
	Mr. Stupak.  Let me ask you this.  Going back to Mr. Jenkins� 
	book, he states on page 215, let me just read this here.  "In 
	spite of all the enforcement efforts of recent years, it is 
	still remarkably easy for any reasonably discreet person to 
	pursue this highly illegal conduct indefinitely, as long as
	obvious traps are avoided.  Law enforcement agencies and their 
	political masters have just had a very poor idea of the 
	organization and the mechanisms of child porn subculture, and 
	above all, of its critical institutions, such as news groups and
	bulletin boards.  Do you agree with that?
	Mr. Marsh.  Absolutely I agree with that.
	Mr. Stupak.  Is it because of lack of resources, technical 
	know-how?
	Mr. Marsh.  I was surprised, Congressman, and we are always on the
	lookout technologically for Masha�s pictures, different means of 
	transmission, how are these pictures being distributed.  I was 
	actually surprised that something called the UseNet--I don�t know
	if you know what the UseNet is.  I used it 15 years ago prior to
	the Internet.  The UseNet is still out there and being used to 
	transmit binary pictures of child pornography.  Certainly, some
	of the earliest FBI stings involved the UseNet.  I thought it 
	had gone from the face of the Earth, but it is actively in place
	out there.
	What we are also seeing is that pedophile networks are using a 
	Napster-like technology to create basically parallel Internets 
	that only they have access to that are widely distributed, 
	widely diffuse.  There is no central server, and images and
	access to that basically underground Internet are strictly 
	controlled by masterminds in the business of child pornography.
	Mr. Stupak.  I was going to ask you this question, but let me go 
	to Ms. Grace, if I may.
	As you know, it is a crime for anyone other than law enforcement
	agencies to possess images of child sexual exploitation, so not
	even news gathering organizations can view it.  So the entire 
	field of knowledge, if you will, or knowing how horrible this 
	really is and how effectively or ineffectively the laws are 
	being enforced are really hidden.  Do you think there is a need 
	to have some broader public knowledge of exactly what is going
	on than there currently is?
	Ms. Grace.  Certainly, a broader public knowledge of what is 
	going on, but absolutely under no condition further 
	dissemination of child pornography and some misled attempt to 
	inform the public.  And as to the earlier question is how do
	you get these off the Internet?  There is no way.  They are 
	just like roaches, you can�t stop them.  But the ones that you
	can apprehend, they you can stop.  And I feel that just like 
	the orphanage that sent her here, the adoption agency that 
	mishandled it to another one that did a fake home study, they
	go off one title and spring up under another name.  If they
	could just be stopped, just like these--
	Mr. Stupak.  Sure.
	Ms. Grace.  Yes.
	Mr. Stupak.  Ms. Flatley, you were indicating a little bit about
	--and I would like to hear your views a little bit more on this 
	adoption, because the way Masha has described the problems with
	the due diligence done by the U.S. adoption agencies that 
	facilitated her adoption from a Russian orphanage, and by the
	agency that did the home study, it is our understanding that 
	although Mr. Mancuso had a large house, he had no bedroom set 
	up for Masha?
	Ms. Flatley.  Correct.
	Mr. Stupak.  One would assume that when you are doing an adoption
	home or foster home study, almost the first thing you do would 
	just look to see if the person is going to have their own room
	, a place to sleep--
	Ms. Flatley.  Exactly.  
	Mr. Stupak.  That the basic steps, it seems like even if they 
	were initially taken, there was no follow-up.  I find it sort 
	of outrageous, you take a look at it, even the Humane Society 
	does follow-up on placement of dogs and cats and things like 
	that, but we don�t do it for children?
	Ms. Flatley.  The standards are quite a bit lower for home 
	studies for foreign adoptions than they are, for instance, for 
	adoptions from foster care.  So one of the first exercises that 
	we went through when we obtained Mancuso�s home study, which we 
	did with some difficulty, was to compare his home study done in 
	Pennsylvania to the one that was done when Faith readopted Masha,
	and they are like night and day.  They have had to submit to all
	kinds of invasive tests, there were home visits and so forth.
	I think the thing that we found the most troubling about this 
	home study is that it is not clear from the language of the home 
	study that they ever visited Mancuso�s house even once.
	Mr. Stupak.  After the adoption?
	Ms. Flatley.  Before the adoption.  But there is a very vivid 
	description in the home study, which I believe we are having 
	faxed to the committee right now--
	Mr. Stupak.  Okay.
	Ms. Flatley.  --that there was no room set up for the child, 
	that there was an extra room, but it was a mix and match of 
	furniture.  Let us say for the sake of discussion that they might
	have tried to play that off by saying well, he hadn�t gotten the
	child yet and so therefore he wasn�t ready.  Any reasonable 
	person might suggest that you would go back to make sure that he
	had, especially because he was a single father.
	Mr. Stupak.  Well, international adoptions by U.S. child welfare
	agencies, are there any legal oversights?
	Ms. Flatley.  There is not only no real oversight, this has been
	a conspicuous exception to what is in every other respect in this
	country a broad regulatory framework at the Federal and the 
	State level.  The argument is often made by the industry to 
	foreclose more regulation, but adoption is a State law issue 
	and we can�t tell the States what to do.  That will come as 
	quite a shock to the States in a number of other important 
	areas.  More importantly, they extend that argument by saying in
	the case of foreign adoption that we simply can�t dictate to the
	foreign governments about what should happen.  But that is in 
	two important ways.  One is that the Russian government
	requires post-placement supervision, which almost never happens,
	or at least doesn�t happen enough, but the other issue is that
	we have had a number of foreign countries who have closed down
	international adoption to the United States because we 
	apparently suspend American child welfare law when these 
	children enter the country.
	So we have some real serious issues in terms of the regulatory 
	framework.
	Mr. Stupak.  Well, when these children enter the country, do 
	they come in as U.S. citizens then if the adoption is--
	Ms. Flatley.  They do and they don�t.  There has been a change 
	recently that Congress passed a couple of years ago, the Child 
	Citizenship Act, which now facilitates citizenship for kids 
	when they are adopted abroad before they enter the United 
	States as if they were born to their families, but that was 
	probably not in effect when Masha was adopted.  But more 
	importantly, so what?  What difference does it make, if they 
	are here as illegal aliens or they are adopted by American 
	families or if they are here to visit people, the child welfare
	system in this country would shut down if we said that families
	who had children had any kind of right to privacy when there was
	an issue of the best interest of the child.  And so the agency--
	and I have interviewed the agency at some length about why there
	wasn�t supervision, and they argued to me that, well, Mancuso 
	didn�t want to cooperate with the Russian standards.  Well, I 
	believe the Russian standards are the standards we should have, 
	and in fact, that the Russian standards for post-placement 
	supervision are not only quite a bit stronger than ours, we 
	don�t have any that are standard.
	The other issue is that adoption is largely inherently 
	interstate commerce.  Every single international adoption is--I
	believe that the Energy and Commerce Committee should have 
	jurisdiction over this issue.  I have said that for years.  But
	ultimately, if we are allowing children to enter this country 
	with people that we have not done adequate due diligence on, and
	then on top of it we are going to argue that we have no moral or
	legal authority to check on those children once they get here, 
	we are out of our minds.
	Mr. Stupak.  Well, I believe the chairman and everyone on this 
	committee would agree that the Energy and Commerce Committee 
	certainly has jurisdiction over this.  This subcommittee though,
	Oversight and Investigations, we do not write legislation.  We
	can only make recommendations, but we are very interested and we 
	will make sure we get those recommendations to the proper people.
	Ms. Flatley.  Thank you very much.
	Mr. Stupak.  Thank you.  Thank you all.
	Mr. Whitfield.  Thank you, Mr. Stupak.  Mr. Walden is going to
	be recognized next, but I understand, Ms. Grace, that you have 
	another commitment and we need to dismiss you.  But before you
	go, Mr. Walden, do you have a specific question for her?
	Mr. Walden.  I just have one quick question for Ms. Grace, and 
	first of all, I appreciate all the work you have done in this
	area, both as, I guess, a prosecutor, but also on the air, I think
	you have gotten the message out to Americans on the kind of problem
	that we have uncovered here and that you have continued to do work 
	on.
	I guess this morning you were on Good Morning America and had some 
	ideas about how we might be able to combat the proliferation of--
	Ms. Grace.  Yes, I did.
	Mr. Walden.  Can you share those ideas?
	Ms. Grace.  Yes, and I consider them to be more innovative than 
	simply increasing the time that felons would do behind bars, 
	which I coincidentally am all for.
	First of all, I feel that parents don�t know what their 
	children are doing online.  It is very obvious.  I mean, if you 
	look at Columbine, they were cooking up bombs in the garage and 
	they didn�t know that, much less where they go online.  I think
	that it would be a fantastic idea, and so easily done, just as 
	you get a readout of what calls you have made on your cell phone
	every month to pay another dollar to AOL and they could for $6 a
	month to get a readout of where your computer has gone.  Also, 
	when you buy a beer, not that any of you esteemed drink or 
	imbibe, but when other people buy a beer, look at it.  There is
	a warning there, and I don�t understand why on laptops and 
	desktops all over the country there is not a warning for adults 
	to see.  Also, I don�t know how many of you have a TiVo, but to
	get into the thing, you have to go through a tutorial.  And I
	don�t understand why every time you buy a computer, a new 
	computer, which can be controlled through interstate commerce,
	there is not a warning.  They are on microwaves, they are on
	beer bottles, they are on cigarettes, and none as to the dangers
	of the Internet.  We do public warnings all the time.  I have a 
	very extensive list of ideas which I will be happy to submit to
	the committee.
	Mr. Walden.  Thank you.  That would be most helpful.  I 
	appreciate it.  I realize you do have to leave.  I have got
	questions for the other panelists.
	Ms. Grace.  Yes, sir.
	Mr. Walden.  Thanks again for your good work.
	Ms. Grace.  And again, thank you for having me.
	Mr. Whitfield.  Chairman Barton, Ms. Grace is going to be 
	dismissed.  She has--
	Chairman Barton.  I don�t have any questions for this panel, 
	Mr. Chairman.
	Mr. Whitfield.  Ms. Grace, thank you very much for being with us,
	and thank you for the leadership that you are providing on this 
	issue.
	Ms. Grace.  We are focusing on you.  This committee is so kind
	to hear us tonight on our live show and taking calls from
	America, so I hope you listen.
	Mr. Whitfield.  Okay.
	Ms. Grace.  Thank you.
	Mr. Whitfield.  Thank you.
	Mr. Walden, you want to continue?
	Mr. Walden.  Yes, thank you, Mr. Chairman.
	Ms. Flatley, if I might ask you just a follow-up question.  I may
	have missed this in the intervening period.  What has become of 
	the agency in Pennsylvania that did the home study review that 
	said that her adoptive father was this marvelous moral character?
	Ms. Flatley.  As is the case with the other two social service 
	agencies involved in this, they continued to operate and thrive.
	I believe, although I am not positive, that the agency in 
	Pennsylvania may receive actually some Federal funding because 
	they do quite a bit of family planning.  They are all in 
	business.  They are all considered leaders--
	Mr. Walden.  Did they suffer any penalty?
	Ms. Flatley.  Absolutely none.  This is the first public
	discussion.  Today is the first day that their identities have
	been revealed publicly.
	Mr. Walden.  What is the name of the agency that did the 
	reviews?
	Ms. Flatley.  The agency in Pittsburgh was called the Family 
	Health Council at the time that the home study was done.  They 
	recently changed their name to Adagio Healthcare.  They are 
	based in Pittsburgh.
	Mr. Walden.  Mr. Marsh, are you Masha�s legal counsel?
	Mr. Marsh.  Yes, I am.
	Mr. Walden.  Is there not some grounds here for litigation?
	Mr. Marsh.  There are plenty of grounds, and to be quite frank
	with you, we have been so busy in the 6 months since I met 
	Masha trying to figure out exactly what happened, who were the
	players, how it happened, we have a fraction of the 
	documentation that we believe is out there.  Because of the
	confidentiality concerns, we are only able to get it through a 
	third party, not through the agencies themselves.  Despite 
	waivers and requests and letters, they are hiding behind 
	Mr. Mancuso�s right to privacy and refusing to release those 
	documents to us so we can gain a fuller understanding of exactly
	why this happened.  We know why it happened, excuse me, we don�t
	know exactly how it happened and we are going to get to the
	bottom.
	Mr. Walden.  Mr. Chairman, that almost sounds like something we 
	ought to be looking at and perhaps use our subpoena power to 
	get there.
	Ms. Flatley.  Well, if I may add that, when James and I because 
	involved in this case, we had a sense of what had happened, but
	even we, I don�t think, under any circumstances anticipated the 
	alacrity with which this adoption took place.  And we have 
	reached out to all the social service agencies involved because 
	we initially believed that they, in fact, had been somehow 
	manipulated and would want to join with us in helping to close 
	these loopholes and do a better job.
	As I said before, not only did they argue that this adoption was
	routine and this is how they always did business, but in fact, 
	when we began a discussion with them to obtain voluntarily from 
	them a copy of Masha�s home study, they asserted that Mancuso
	had a right to privacy and they could not disclose it.  We 
	ended up getting it from another source in November, but to 
	your point, I think that what has been the most troubling about
	this is that the more we have investigated it, the more we
	realize we needed to know, so in fact, this case is much more
	complicated than we originally thought it would be.
	Mr. Walden.  And I appreciate the work you are doing, and just 
	for the record, I am a big fan of adoption.  My two brothers are
	adopted, my niece is adopted.
	Ms. Flatley.  Adoption is what saved this child, and I just want
	to say that at many points in this discussion, James and I and 
	Masha and Faith have been accused of trying to somehow undermine
	adoption, stop adoption, being anti-adoption.  Nothing could be 
	further from the truth.  Let it be clear that adoption saved 
	this child�s life.  Faith adopted her.
	Mr. Walden.  No, I--
	Ms. Flatley.  And that Masha felt so strongly about the power of
	adoption in her own life that she actually wrote a letter to
	President Putin which was hand-delivered to him several months
	ago.  So I think we all want to say very clearly that the only 
	good adoption is a safe adoption--
	Mr. Walden.  Right.
	Ms. Flatley.  --and it makes it safer for all consumers of 
	adoption services to regulate adoption effectively and 
	consistently.
	Mr. Walden.  Masha, if I could, first of all, thank you for 
	speaking out.  I can�t begin to imagine the pain and suffering 
	and sorrow you have gone through, but what you are doing today 
	obviously will have enormous benefit for others.
	When Justin Berry was in that very seat not long ago, testifying 
	about the problems he encounters on the Internet and all, I 
	asked him a similar question, one I want to ask you.  As a 
	child, what advice do you have for parents and adults and for 
	other children who might be in your situation, who might be 
	watching this sometime and say I know somebody who may be in 
	this situation.  How could your friends have helped?  What 
	should we be looking for?  What would you tell other kids who might
	find themselves in a situation similar to that which you were in?
	Ms. Allen.  I would just say that even if you are threatened, you
	should speak out because that is the only way that it is going to
	stop.
	Mr. Walden.  Who do you speak out to, your teacher, your pastor, 
	your--
	Ms. Allen.  Whoever you trust more, because it is easier to talk 
	to someone you trust.
	Mr. Walden.  Right.
	Ms. Allen.  And I think parents should be watching out for their
	kids, too, like and doctors should be checking to see if the kids
	have any problems or eating disorders or anything like that.
	Mr. Walden.  Did you get any medical treatment in those years when
	you were--
	Ms. Allen.  Yes, I did.
	Mr. Walden.  And the medical providers didn�t question your 
	health status?
	Ms. Allen.  No.
	Mr. Marsh.  She did receive, if not routine, sporadic 
	healthcare.  We did get a copy of her medical records, and 
	ironically, in the context of all of this, we got the school 
	records.  It is obvious to me that Mancuso was a very savvy 
	operator.  His initial contact with the school was with the 
	school nurse, who he immediately befriended, knowing that as a 
	medical professional on site she would be a natural conduit for 
	any sort of abnormalities or information.  Although it is hard 
	to believe that the growth charts that are in the school records
	show Masha at the 10th percentile in terms of weight, and she 
	was quite a bit taller, so that even suppressed her more, 
	because her height was normal but her weight was severely 
	underweight.  So consistently throughout her school record, we 
	have--and we have a doctor here--a growth chart which indicates
	a child year after year after year, growing--
	Mr. Walden.  Did they never ask?
	Mr. Marsh.  They never asked, according to Masha.  No one ever 
	asked anything about her.  Nobody ever asked anything about her
	time in Russia, why she came to America.  It was as if the person
	is in front of your house screaming rape and no one is hearing, 
	seeing, or realizing what is going on right under their nose.
	And so for us, at least, the growth charts were a chilling 
	indication that something was very wrong with this child and 
	someone should at least have made an inquiry about her health 
	status, given that she was so underweight.
	Ms. Flatley.  If I could just add, I mean, having interviewed a 
	lot of people that were involved in life, what is shocking to me 
	as a parent myself--
	Mr. Walden.  Nobody noticed.
	Ms. Flatley.  --is that her teachers never said anything, 
	despite the fact that she looked emaciated.  The pictures of 
	Masha when she was rescued, she literally looks like a 
	concentration camp survivor.  The social service agencies 
	involved, there were three, none of them checked on this child.
	The neighbors never said a word, obviously.  It is somewhat 
	mystifying to me that her physician did not somehow want to 
	explore even perhaps a neglect allegation because she wasn�t 
	growing.
	So it is one of the issues in Masha�s case that is particularly 
	troubling is that this child was failed by literally everyone 
	that could have protected her.
	Mr. Walden.  Well, Masha, thank you, and thanks to all of you 
	on our panel, and to my colleague for the work that you are 
	doing to bring light to this problem.  Hopefully we can bring a
	little legislation to this problem, get a handle on it.
	So thank you, and thank you, Mr. Chairman.
	Mr. Whitfield.  Thank you, Mr. Walden.
	Mr. Chairman, Chairman Barton, do you have any questions for 
	this panel?
	Chairman Barton.  Not for this panel.  I am here to support 
	this panel, and I have questions for the second panel.
	Mr. Whitfield.  Thank you.
	Well, I want to thank those of you on the first panel.  Masha, 
	we once again appreciate very much your coming forward.  You 
	have been immensely helpful.  Mr. Marsh, Ms. Flatley, we will
	continue to stay in touch with you.  Ms. Allen, best wishes to 
	you, and Congressman Gingrey, thank you very much for being with
	us today, and for your legislation as well.  This panel is 
	dismissed.
	Mr. Marsh.  Thank you, Mr. Chairman.
	Mr. Whitfield.  At this time, we will call the second panel.  First,
	we have the Honorable Alice Fisher, who is Assistant Attorney 
	General for the Criminal Division, U.S. Department of Justice, 
	Washington, D.C.; and Mr. Raul Roldan, who is the Section Chief
	for the Cyber Crimes Section of the Cyber Division, FBI, U.S.
	Department of Justice.  And we have Mr. Arnold Bell, who is the
	Unit Chief, Innocent Images Unit, FBI, U.S. Department of 
	Justice.  They are also joined by Mr. Swecker from the FBI.
	As you all--I want to apologize to this panel as well.  I know
	when you arrived at 2:00 you thought you would probably be home 
	by 6:00, but we had a lot of interruptions, and thank you for 
	your patience.  We appreciate your being here.
	You are aware that the committee is holding an investigative 
	hearing, and when doing so, we have the practice of taking 
	testimony under oath.  Do any of you have any objection to 
	testifying under oath?  And of course, under the rules of the 
	House and rules of the committee, you are entitled to be advised
	by counsel.  Probably all of you are lawyers, so I am assuming 
	you don�t need to be advised by counsel.
	So if you would please stand and raise your right hand, I would
	like to swear you in.
	[Witnesses sworn.]
	Mr. Whitfield.  Thank you.  You are now under oath.  Ms. Fisher,
	you may give your 5-minute opening statement.

STATEMENTS OF ALICE S. FISHER, ASSISTANT ATTORNEY GENERAL, CRIMINAL 
DIVISION, UNITED STATES DEPARTMENT OF JUSTICE; AND RAUL ROLDAN, SECTION
CHIEF, CYBER CRIME SECTION OF THE CYBER DIVISION, FEDERAL BUREAU OF 
INVESTIGATION, UNITED STATES DEPARTMENT OF JUSTICE

Ms. Fisher.  Thank you, Mr. Chairman, Ranking Member Stupak, Chairman 
Barton, and other distinguished members of this committee.  Thank you 
for inviting me here to testify before you today about the Department of
Justice�s efforts to protect children from sexual exploitation on the 
Internet, and thank you for having these hearings that shine light on 
this horrific growing problem.
	The anonymity of the Internet has provided opportunities for 
	criminals who prey upon our children.  Our children face a 
	threat from molesters who troll the Internet, looking for
	young victims so they can lure and molest.  Other criminal 
	elements sponsor sex tourism aimed at children and facilitated 
	by the Internet, but the most pervasive crime against children 
	perpetrated on the Internet is child pornography.  The mere 
	thought, yet alone depictions, of children, some still in their
	infancy, being subjected to such degrading treatment turns the 
	stomach and boggles the mind.  Despicable, unconscionable, 
	intolerable, sickening.  These are words you have used over the 
	past weeks describing this problem, and I could not agree with 
	you more.
	In my role at the Department of Justice and as a mother of two
	boys, 4 and 8, I would like to see all child predators put 
	behind bars.  I am committed to doing what we can for this 
	problem.
	You have heard testimony about the scope of the problem, which 
	is enormous, but make no mistake, the investigation and 
	prosecution of those who generate, traffic in, and possess 
	child pornography is a top priority of the Department of 
	Justice.  The Attorney General has reiterated this time and 
	again, and he is personally committed.
	The Department of Justice prosecutes these cases in all 94 U.S.
	Attorney�s Offices across the Nation.  The Criminal Division
	also through its Child Exploitation and Obscenity Section 
	coordinates nationwide investigations, takedowns, and also 
	prosecutes these cases.  These career prosecutors, as well as 
	State prosecutors, as well as Federal and State law enforcement,
	I thank them all for their service, for they have one of the 
	hardest jobs.  I can tell you that I am still haunted today by 
	some of the materials which I have reviewed, but these 
	professionals who work day in and day out to protect our children
	are exposed to and are forced to review these horrific materials,
	photos, videos, every day, and then come home to their own 
	children.  These professionals come to work every day because
	they are committed to making a difference and protecting our 
	children, and stopping the pain that we have heard so much about 
	over these weeks at your hearings.
	The Department has made great progress, and I want to take a 
	moment just to give you a few examples of some of our recent
	prosecutions and takedowns.  First, an example of trading in 
	child pornography.  The Internet, as you know, has allowed
	predators who create and traffic in child pornography to create
	a virtual community where they can share and trade in these 
	disgusting images.  One such community, a chat room that went by
	the name "Kiddypics & Kiddyvids" allegedly included among the 
	images, a live streaming video of one member sexually molesting 
	an infant.  Law enforcement conducted an undercover operation 
	resulting in charges against 27 individuals in the U.S., Canada,
	Australia, and Great Britain, and seven child victims of sexual 
	molestation were identified.
	Second, an example of sexual abuse of children.  Child predators
	have also used the Internet to provide so-called molestation on
	demand.  In one case, a predator took scripts here in this 
	country, so-called orders, then went to Cuba and to Ecuador and
	paid poverty-stricken families to let him molest their children,
	some of whom were under the age of 12.  He would then send those
	pictures back over the video of him playing out these sick 
	fantasies.  We caught that man responsible for this ring.  We 
	prosecuted him and his co-conspirators, and he received a 
	100-year prison term.
	But our efforts did not stop there.  We launched Operation Lost
	Innocence to target Mariscal�s customers across the country, and 
	to date, that operation has resulted in 107 searches, 55 arrests, 
	and 44 convictions.
	Third, we also prosecute, as we must, the financial facilitators. 
	We pursue the companies that provide the means by which these 
	predators can create, market, and sell these horrendous images.  
	In the Regpay case, for example, we prosecuted the Belarus 
	company that had provided credit card processing services to 
	hundreds of child pornography sites.  We secured guilty pleas 
	from the executives, but again, that was only the beginning. 
	That Regpay case gave rise to a follow-on investigation, which
	resulted in 341 domestic and approximately 703 foreign arrests,
	254 indictments, and 241 convictions.
	I could go on all day with examples like these, successful 
	prosecutions of horrendous crimes.  Prosecuting child predators 
	is and remains a top priority for the Department of Justice.  The
	Attorney General made this clear when he announced the Project 
	Safe Childhood Initiative, which seeks to integrate Federal,
	State, and local efforts to prosecute child pornography, to
	educate the communities, and to provide enhanced training for 
	law enforcement, and $14 million will go out this year to 
	support ICECs across the country who prosecute these things on 
	a State and local level.
	Federal prosecutions, investigations, and caseloads in these 
	matters have dramatically increased in the last decade, and 
	the Department is working aggressively, but is it enough?  You
	heard from Ernie Allen of NCMEC last week who told you that
	1,500 leads come into the Cyber TipLine every week, and 
	50 percent of those come from ISPs, but it will take all of us 
	to combat this problem.  I pledge to you, as the Attorney 
	General has pledged, that the Department is committed and
	dedicated to this task.
	Congressman Barton said he had never been more revolted in
	preparing for a hearing than having to read the material about
	these predators who prey on our most vulnerable, our children.
	I have looked at the pictures and I have looked at the videos,
	and sir, you are right.  
	I thank you for this hearing, and I look forward to answering 
	your questions.
	[The prepared statement of Hon. Alice S. Fisher follows:]

Prepared Statement of the Hon. Alice S. Fisher, Assistant Attorney 
General, Criminal Division, United States Department of Justice

	Mr. Whitfield.  Thank you very much, Ms. Fisher.
	At this time, I recognize Mr. Roldan for his opening statement.
Mr. Roldan.  Thank you, chairman.
	Good evening Mr. Chairman, Congressman Stupak, and members of
	the subcommittee.  On behalf of the FBI, I would like to thank
	you for this opportunity to address the FBI�s role in combating
	the sexual exploitation of children through the use of the 
	Internet.
	I will start with the personnel involved in this particular 
	program.  The number of funded positions assigned to the FBI�s 
	Innocent Images program is 127.  Due to the seriousness of these
	matters, however, the FBI has consistently utilized the equivalent
	of 242 agents working child exploitation matters.  Let me
	emphasize something, too, that is just not the agents.  We have
	many other employees involved in this.  I don�t give you the 
	numbers because there are so many analysts, people involved in the
	forensic analysis, secretaries that are supporting this particular
	program, so it is just not the agents.
	The men and women involved in the Innocent Images program are
	some of the most dedicated and hardworking people in the Federal
	government.  They enjoy my respect and sincere appreciation for
	the work they do every day.  I can tell you this: I have been 
	assigned here for approximately 10 months.  I have been in the 
	FBI for over 18 years, and I have met some of the most committed
	individuals that I have worked with anywhere and anyplace.  So 
	I am very proud to be among them.
	At any one time, the FBI has more than 2,400 active child sexual 
	exploitation investigations.  Because of the magnitude of the
	crime problem, our primary focus is on complex investigations 
	targeting organized criminal groups, financiers, and illegal
	websites, individuals, or groups who engage in the production
	of child abuse images, sexual predators who travel from one 
	jurisdiction to another, and persons with large collections of 
	child abuse images.  As an example, I would like to describe
	how we work a typical sexual abuse website investigation.
	First, we must locate the server where the website content is 
	physically located.  Once the server is located, and upon 
	finding probable cause, a search warrant is requested.  Once a 
	search warrant is executed, the media containing the illegal
	content is seized for forensic analysis.  Once a computer
	analysis is completed, the targets of the investigation are 
	prioritized.  I want to state unequivocally that any 
	information that would lead us to a child who is being sexually
	abused is treated as a top priority, and not only as a top 
	priority, but as an urgency.  That includes expediting the 
	forensic analysis.  Then after we identify the website 
	administrators, the producers of the images, and the financiers
	of the website.  Once the illegal website and the organizations
	managing, financing, and producing the child pornography have
	been taken out of business, the information associated with 
	the customers paying for access to the website is analyzed and
	acted upon.  However, this endeavor is very complex.  
	First, we must attempt to accurately identify each and every
	customer accessing the website.  This piece of the investigation
	requires vast resources.  Child sexual abuse websites 
	investigated by the FBI have been found to contain anywhere from
	9,000 to more than 30,000 different customer entries.  The most
	useful data utilized to identify the customers at this time is
	the credit card information.  In order to obtain credit card 
	information from a financial institution, the FBI must seek a
	Federal Grand Jury subpoena for each bank who issued a credit
	card use for the website customers.  The information obtained
	can then be utilized to identify each and every individual 
	account holder who paid to enter the illegal website.  Even
	after all of the financial information is obtained, and a
	thorough analysis of all of the information is conducted, there
	is not enough probable cause established to request a search
	warrant on the customer�s residence.  The only option that 
	remains is knocking on the customer�s doors and asking for 
	consent to access their computers.  If this consent is not 
	granted, the investigation cannot proceed until additional 
	incriminating evidence is uncovered.  This whole process is 
	labor intensive and takes an excessive amount of time.  In 
	addition, it would also take more than 11 special agent hours 
	to accomplish what we would call a knock and talk type of 
	investigation on each illegal website customer.
	In contrast, another totally separate investigative technique 
	that the FBI currently utilizes addresses child sexual abuse 
	matters in a peer-to-peer investigation.  It allows for us to 
	capture the child sexual abuse images as they are being 
	transmitted real time and collect identifying information on
	the perpetrators the instant the crime occurs.  Immediately 
	thereafter we can obtain search warrants and seize the 
	evidence.  One such investigative initiative resulted in over
	400 cases open, 300 search warrants, 50 convictions, and 14 
	victim children identified and rescued.
	In conclusion, we would like nothing more than to knock on 
	each person that is involved as a customer in child sexual 
	abuse websites, but again, those are the resources that are
	required, for example, in a case of 30,000.  That is how many 
	people we would require to send out.  My comments today are 
	intended to reassure the subcommittee and the American people 
	that the FBI takes this matter very seriously, and has a very
	aggressive program assigned to address child sexual exploitation.  
	I would like to express my appreciation to the subcommittee for 
	addressing this very serious issue.  I look forward to answering
	your questions.
	[The prepared statement of Raul Roldan follows:]

Prepared Statement of Raul Roldan, Section Chief, Cyber Crime Section,
Cyber Division, Federal Bureau of Investigation, United States
Department of Justice

Good Morning Mr. Chairman, Congressman Stupak, and Members of the 
Subcommittee. On behalf of the FBI, I would like to thank you for this
opportunity to address the FBI�s role in combating the sexual 
exploitation of children through the use of the Internet.  Specifically,
I would like to explain to the Subcommittee how the FBI manages the 
Innocent Images National Initiative on a national and an international 
level.
Two weeks ago, the Subcommittee heard the testimony of Acting Executive
Assistant Director Chris Swecker which described this initiative and 
its accomplishments.  As he testified, over the past 10 years, the 
Innocent Images program has grown exponentially.  Between fiscal years
1996 and 2005, there has been a 2050% increase in cases opened (113 
to 2500). During this ten-year period, the program has recorded over 
15,556 investigations opened; 4,784 criminals being charged; 6,145 
subjects being arrested, located or summoned to appear in a court of 
law; and 4,822 convictions obtained.  
The FBI�s Innocent Images Unit is responsible for the creation and 
implementation of national and international initiatives targeting 
those who use the Internet to sexually exploit defenseless children.  
The unit, housed in Calverton, Maryland, also works closely with and 
has a sizable contingent assigned to the National Center for Missing 
and Exploited Children.  The Innocent Images Unit serves as a central 
location for addressing major cases such as the sexual exploitation of
children through pornographic websites, distributing investigative 
leads to our field divisions and Legal Attach� offices, and managing
the FBI�s national program.  Its responsibilities include developing
and publishing policy, managing program funds, certifying undercover
operations, and the training of FBI employees, state, local and 
international partners.  
The number of funded positions for the Innocent Images program is 
127 positions.  Due to the seriousness of these matters, however, the
FBI has consistently utilized personnel resources at a higher level
than those funded.  We currently have the equivalent of 242 Agents 
working child sexual exploitation matters.  Not just anyone can do this
work.  Our dedicated men and women are exposed to the most graphic and 
disturbing images and movies that you could possibly imagine.  They 
wade through thousands of pieces of material every day, all day, and
then they go home and tuck their own children into bed.  However, the
men and women of the Innocent Images Unit, and those involved in 
investigating the sexual exploitation of children in our field offices,
are some of the most dedicated and hard working people in the federal
government.  They enjoy my respect and sincere appreciation for the
work that they do everyday.  They are some of the most dedicated and
passionate employees I have met in my 18-year career as a Special Agent 
of the FBI.  
At any one time, the FBI has more than 2,400 active child sexual 
exploitation investigations.  Because of the magnitude of the crime
problem, and in an effort to capitalize on the FBI�s intelligence 
collection, analysis, and investigative strengths, our primary focus is
on complex investigations targeting organized criminal groups involved 
in commercial child sexual abuse websites.  As Mr. Swecker testified, 
these investigations almost always span multiple jurisdictions and
usually expand beyond the borders of the United States.   In an effort
to reach beyond the borders of the United States in a more efficient
manner, the FBI has partnered with law enforcement officials from 
several countries who work side by side with FBI agents in Calverton, 
Maryland in a task-force setting.  
Other areas where the FBI makes a major impact include investigating the
financiers of illegal websites, as well as individuals or groups who
engage in the production of child sexual abuse images.  The FBI also 
investigates sexual predators that travel from one jurisdiction to 
another to engage in sex with minors.  Finally, we target persons with
large collections of child sexual abuse images.  These individuals 
represent a real danger as we find a large percentage of those we arrest
for possession of images of child sexual abuse are also committing 
contact offenses.  Our investigative efforts attempt to maximize the 
impact the FBI can have on this very serious crime problem.   I would 
like to describe how we work a typical case, such as a child sexual 
abuse website investigation.
An investigation may sometimes be initiated from a referral by the 
National Center for Missing and Exploited Children.  We utilize a variety
of investigative techniques, to include administrative subpoenas and 
data base checks, to capture evidence in an attempt to locate the 
server where the website contents are physically located.   Once the 
server is located and upon finding probable cause, a search warrant 
is requested and issued.  In many cases the company that runs the 
server is not aware that its computers contain illegal content as they
may also host hundreds of legitimate websites.   Once the search
warrant is executed, the media containing the illegal content is seized
and delivered to our Computer Analysis and Research Teams (CART) for 
forensic analysis.   Given the tremendous amount of digital data seized 
by the FBI, this analysis could take months to accomplish, as these 
teams are responsible for the forensic examination of digital data in 
all of the FBI�s investigative programs, to include counterterrorism 
investigations and other high priority matters.  
Once the computer analysis is completed, the targets of the investigation
are prioritized in partnership with prosecutors from the Department of 
Justice.   I want to state unequivocally that any information that would
lead us to a child who is being sexually abused is treated not only as 
a top priority, but also as a matter of great urgency.  Our second 
priority is the identification of the website administrators.  
Generally, these individuals administer more than one child sexual 
abuse website.  Thereafter, the producer of the images is identified,
as these images represent evidence of the actual sexual molestation
of a child.   Next the funding vehicle and the financiers of the 
website are identified.  
Once the illegal website and the organizations managing, financing,
and producing the child sexual abuse and exploitation images have 
been taken out of business, the information associated with the 
customers paying for access to the illegal website is analyzed and 
acted upon.  Of course we recognize that the customers of the 
websites may also be sexually exploiting children and we do everything
possible to investigate these individuals.  But this endeavor is 
complex and labor intensive.  First, we must accurately identify the
customers accessing the website.  I must reemphasize the word 
accurately, because in order for us to initiate an investigation, 
each and every one of the perpetrators must first be accurately 
identified.  This phase of the investigation is very lengthy and 
requires vast resources as child sexual abuse websites investigated
by the FBI have been found to contain anywhere from 9,000 to more 
than 30,000 different customers entries.  Another issue to consider
is the fact that most illegal-website customer entries are normally
years old.  Once outdated, this information cannot be utilized to 
show probable cause, request search warrants, or acquire the 
appropriate evidence to proceed with an investigation.   
The most useful data for the purpose of attempting to identify the 
customer is the credit card numbers.  In order to obtain credit card
information from a financial institution on these types of 
investigations the FBI must seek a Federal Grand Jury subpoena. 
Currently this requires a presentation to a Grand Jury to request a 
subpoena for each individual bank in order to identify each and every
individual account holder who paid to enter the illegal website.  
Even after all of the financial information is obtained through these
subpoenas, and a thorough analysis of all of the information is 
conducted, there is rarely enough probable cause established to
request a search warrant on the customers� residences.  The only 
option that remains is knocking on the customers� doors and asking 
for consent to access to their computers.  If this consent is not 
granted, the investigation cannot proceed any further until additional
incriminating evidence is uncovered through other investigations. 
Under our current process, it takes an excessive amount of time for a
team of intelligence analysts to process and analyze a customer list 
on an average child pornography website.  It would also take more 
than 11 special-agent-hours to accomplish a knock-and-talk type of 
investigation on each illegal-website customer.  Again, let us 
remember that every illegal-website investigation will have a minimum
of thousands, and sometimes hundreds of thousands of customers.  We 
are exploring ways to expedite this process, but there are numerous
hurdles to overcome.    
In contrast, another totally separate investigative technique currently
being utilized by the FBI to address child sexual abuse matters through
Peer-to-Peer investigations, allows for us to capture child sexual abuse
and exploitation images as they are being exchanged by pedophiles, and
collect identifying information on the perpetrators the instant the 
crime is occurring.  Immediately thereafter, we can obtain search 
warrants, and have the authorities go in and seize evidence in as little
as a one-week time period.  Using the technique I just described, and
others also currently available, the FBI makes hundreds of arrests and 
prosecutable cases every year.  For example, one such investigative
effort resulted in over 400 cases opened, 300 search warrants, over 
50 convictions to date, and 14 victim children identified and rescued.  
This example was presented to you in order to better describe how the 
FBI has to prioritize not only who must be targeted in an investigation,
but also what investigative tools must be utilized in order to maximize
investigative results by making a serious impact on the overall crime 
problem, and putting the most egregious sexual offenders behind bars. 
My comments today are intended to reassure the Subcommittee and the 
American people that the FBI takes this matter very seriously and has
a very aggressive program designed to address child sexual exploitation.
In closing, the FBI looks forward to working with other law enforcement
agencies, private industry, and the Department of Justice in continuing
to combat this very serious crime problem.  The protection of our 
children requires the combined efforts of all sectors of our society.  I
would like to express my appreciation to the Subcommittee for addressing
this very serious issue, and I would also like to thank Chairman 
Whitfield, Ranking Member Stupak, and the Subcommittee for the privilege
of appearing before you today.  I look forward to answering your 
questions.  

	Mr. Whitfield.  Well, thank you, Mr. Roldan and Ms. Fisher both.
	The committee values your testimony and certainly the input the 
	FBI and the great job that you do in trying to bring 
	perpetrators of these crimes to justice.
	As you know, when we first started these hearings we got off on 
	a little bit of a rough edge, I guess, with the Bureau, the FBI,
	and the Department of Justice, and I think a lot of that stemmed
	from the fact that it appeared to us that in the Justin Berry
	case that there was some bias against Justin Berry.  There was 
	some relationship there that just did not work out with the FBI
	and the Department of Justice, and many of us felt--whether we 
	are correct in that perception or not, but we felt that valuable
	information that was given to the Department was not followed up
	on in an expedited way and a timely way and that, in effect, 
	jeopardized the opportunity to catch some perpetrators that you
	had some very hard evidence on.  
	So I would make that comment just starting off, and we will get
	into some of this later, but I know Ms. Fisher, for example, you
	had a meeting recently with some Internet service providers, and
	one of the issues that we have heard a lot about is maintaining 
	those records for a length of time that would facilitate an 
	investigation by the Bureau or other law enforcement agencies. 
	Could you tell us how your meeting with the Internet service 
	providers went?
	Ms. Fisher.  I would be happy to.  
	I think the data retention issue that was raised by the 
	Congresswoman is a very important one, because law enforcement 
	does need data to track down ISPs and track down some of these
	perpetrators, but it is also, as I learned from the ISPs, a very
	complex one, and I am glad that you will be hearing from them
	directly next week as to how data is stored and how you can 
	retrieve it and those issues.
	Many of the service providers retain it for a certain period of
	time, 90 days or longer.  Some retain it for much less periods 
	of time, some 14 days.  So I think it is important that we all 
	look at this issue.  The Attorney General, in a speech that he 
	gave at the National Center for Missing and Exploited Children 
	just last week or the week before, said that he wanted the
	Department to look at this issue and has set forth an expert
	group to deal with this issue, both with the policy people and 
	people that understand the technology.  That working group has 
	already been meeting and those meetings are going to go forward.
	Mr. Whitfield.  Now, do you have any information that would lead
	you to believe that some of the Internet service providers and
	remote computing services are not reporting apparent child 
	pornography on their network that they know about?
	Ms. Fisher.  Well, I know that there are several, about 217 ISPs
	that are reporting to the National Center for Missing and 
	Exploited Children, and have reported evidence of these crimes.
	Those go into the database, and then of course NCMEC sends it out
	to law enforcement so it can be acted on, whether it is in the 
	State, local, Federal level.
	Whether there are others out there that are not reporting on 
	evidence of these crimes is something that we are on the lookout
	for.  One thing that I would like to point out to you, because 
	now we are into talking about the statute that you have, 13032,
	that requires ISPs to report when they have this kind of 
	evidence, and in that statute it talks about liability when ISPs
	don�t report.  We just cleared today, the Administration just 
	cleared today a proposal that would add and enhance, I believe,
	significant penalties for ISPs to report in the following way. 
	Right now the statute provides that the penalties exist for
	people who willfully and knowingly fail to report.  This new 
	proposal which we have talked to your staff about just this
	morning, because it just got cleared, this new proposal would
	allow for civil penalties for people who negligently fail to
	report evidence of the crime.  That, I believe, enhances our 
	efforts and our ability to go after those who aren�t reporting 
	when we discover that they aren�t reporting.
	Mr. Whitfield.  Have you all ever prosecuted anybody under the
	existing statute?
	Ms. Fisher.  To date we have not prosecuted anyone under the 
	existing statute, but that certainly shouldn�t imply that we 
	wouldn�t, and it came to our attention that there were ISPs out
	there that were willfully and knowingly not reporting to NCMEC.
	We are on the lookout for that and we would prosecute under the
	statute.
	We want to enforce all the laws in this area and we want to 
	enforce them aggressively and we want to use the sentences and
	the penalties that Congress has given us under the PROTECT Act
	and others to put these people behind bars.
	Mr. Whitfield.  I would ask you and Mr. Roldan both this 
	question as people involved in law enforcement and prosecuting 
	what I would consider some of the worst crimes that could be 
	committed.  What is the most frustrating aspect of this whole
	process from your perspective, and what frustrates you the most
	in bringing people to justice for committing these crimes?
	Ms. Fisher.  Well, when we actually bring them to justice and 
	get them convicted, that doesn�t frustrate me.  That is a good
	thing.  But what I think, as these hearings have demonstrated,
	what is frustrating is that this problem continues to grow, and 
	it is going to take all of us working together.  Law enforcement
	alone is not the answer.  It is going to take Congress, it is 
	going to take educators, it is going to take parents, and that
	is why I think the visibility of these hearings and making 
	people aware of what happens when there are children going on 
	the Internet is so important.
	Mr. Whitfield.  It is so pervasive.  I know I was reading an 
	article just yesterday that a gentleman from Saudi Arabia, 
	37 years old, flew to California and he had been involved in 
	the Internet and he thought he was in a conversation with the 
	father of a two and a half year old child, and he flew to 
	California for the purpose of molesting this child and was 
	paying the parents.  Of course, when he arrived, it was law 
	enforcement that had set him up.  But this was a 37-year-old 
	psychiatrist from Saudi Arabia who flew to California for this
	purpose.
	Mr. Roldan, in your testimony you indicated that from �96 to 
	2005 that the FBI had opened something like 15,500 some odd cases
	in this area, but had obtained like 4,800 convictions.  I was 
	just curious what happened in those other cases.  The evidence 
	just was not good enough to convict, or--
	Mr. Roldan.  There is a variety of reasons.  I am going to go 
	ahead and defer to Mr. Bell because he has worked most of those 
	cases.  Arnold, please?
	Mr. Bell.  Thank you, Mr. Chairman.  Before I begin my remarks, 
	I would like to thank the committee for bringing this issue to
	light, and thanks for the opportunity to be here this evening.
	In cases that we investigate, oftentimes the evidence either is
	not there to have a successful prosecution, or in some 
	instances, cases are deferred to other agencies or deferred to
	a State authority, and we don�t capture some of those 
	statistics.
	Mr. Whitfield.  Okay.  Now, you all presented a legislative 
	proposal just in the last couple of days that you feel like 
	would assist the Department, is that correct?
	Ms. Fisher.  That is correct.
	Mr. Whitfield.  And could you briefly cover some of the
	provisions of that legislation that you think would be 
	particularly helpful?
	Ms. Fisher.  Are you referring to the legislation that was sent
	up last week and this is included in that--
	Mr. Whitfield.  Right.
	Ms. Fisher.  And this relates to ISP reporting.
	Mr. Whitfield.  Right.
	Ms. Fisher.  There is also some other legislation that I thank 
	the House for passing on child safety and that is now with the 
	Senate, but that is important.  The PROTECT Act was very 
	important to this effort.
	What this new legislation does is again, for ISPs that fail to
	report it increases the penalties for those who willfully and 
	knowingly fail to report, and in addition, it now allows us to 
	set up a regulatory scheme where ISPs that negligently fail to
	report will also be fined $50,000 for the first time, $100,000 
	for each subsequent time.
	We look forward to working with this committee and with 
	Congress in any other ideas in this area to move forward, and 
	we are constantly looking for new ideas.  I think it is
	important, again, to make sure that we have all the tools to
	fight this problem.
	Mr. Whitfield.  Well, do you feel like there is any specific 
	way that this committee can help or--
	Ms. Fisher.  Well like I said, I think you are already helping. 
	I think the fact that the House passed the Child Safety Act
	helped.
	Mr. Whitfield.  Okay.
	Ms. Fisher.  I would note also on sentencing, you know, 
	sentencing reform is an issue that the Department is very 
	concerned about.  The Sentencing Commission just did a look at
	what has happened in the post-Booker world, after the Supreme 
	Court came out and said that the sentencing guidelines were 
	advisory instead of mandatory.  And one important thing that 
	they noted was that in child sexual abuse cases they are seeing
	more downward departures, meaning more sentences given by judges
	under the guidelines.  So sentencing reform is another thing that
	should be focused on here.
	Mr. Whitfield.  Okay.  Well, I see my time is about expired, so 
	I am going to recognize Mr. Stupak, but I think he is yielding 
	his time to Ms. DeGette, so Ms. DeGette.
	Ms. DeGette.  Thank you, Mr. Chairman.  We are working together 
	because we both have scheduling constraints, so I will just take 
	a few minutes and then I will yield the rest of the time to 
	Mr. Stupak.
	I want to thank all of you for coming and I have a few
	questions.  One of them, my main issue as I discussed in my
	opening statement is this concept of retention of subscriber 
	information by ISPs, not, in fact, the communications, but 
	rather the subscriber information.  I am wondering if all of 
	you in law enforcement--and I know, believe you me, Ms. Fisher, 
	I have been meeting with these ISPs, too, and I know all of the
	explanations and the excuses and everything else, but the fact
	is, these ISPs retain subscriber information now.  What we would
	really be talking about is accounts that had been closed, 
	because if it was an ongoing account and law enforcement tried 
	to subpoena that, it would be available because it is an 
	existing account.  So what you are really talking about is 
	closed accounts, and I think that having that retained so if 
	there was probable cause to think that a crime had been 
	committed by that subscriber, law enforcement could subpoena 
	that and it would be useful in the investigation.  Don�t you 
	think that that would be helpful to investigators?  Maybe I
	should ask some of the investigators.
	Mr. Swecker, I think you testified before that that would be 
	useful.
	Mr. Swecker.  It would be.  We find that the information is often
	stale by the time we get the information, if we get it.  Most of 
	the major ISPs are keeping it for about 90 days, but you are 
	right on the money when you talk about retaining at least the 
	ISP.  Maybe not necessarily the content, but at bare minimum at 
	least the ISP addresses.
	Ms. DeGette.  I just keep thinking about that investigator who 
	we have talked to quite a bit in my office who talked about the 
	child who was being raped online, and then by the time they got 
	to Colorado the data was gone.  Mr. Roldan or Mr. Bell, do you 
	have any sense of how helpful do you think that would be 
	towards investigation of these cases?
	Mr. Roldan.  Yes, if you notice from my testimony, the process 
	is very long to initially identify the individuals, the 
	customers that are entering the illegal websites, and obviously
	the IP address would provide the first information.  The more 
	information we have, the more helpful it is to the investigation.
	Ms. DeGette.  And because it does take some time to identify the 
	perpetrator, you can�t always subpoena that information within
	14 or 30 days, correct?
	Mr. Roldan.  And there is also a difference in the subpoenas that
	are available.  On the credit cards, we have to go through a grand
	jury.  On the ISPs for the IP address, we go through--
	Ms. DeGette.  It is administrative, right.  
	I have a couple more questions, and then I will yield to 
	Mr. Stupak, about the search warrants.  In the Larry Walt case 
	in Missouri, there was a Sergeant Michael Ziglefa who was 
	involved in that case, the local FBI office got a warrant with 
	an e-mail address and an IP address, which led to a physical 
	address for the defendant, which was obtained from the ISP.  
	Nobody knew whether the computer was at that address or not, but
	the FBI got a search warrant anyway, and the judge said that
	probable cause for the issuance of a search warrant exists when
	there is "a fair probability that contraband or evidence of a
	crime will be found in a particular place.  Any of you who know
	the answer to this, is that the criteria used by the Justice 
	Department and the FBI when requesting search warrants for 
	child pornography?
	Ms. Fisher.  Certainly, all of the cases depend on the facts and
	circumstances, and I am not sure about the facts in that case.  
	But you have cited the right standard for probable cause.  Now,
	what is going to allow you to get a search warrant with your 
	judges in that district is going to be best known by the 
	prosecutors in that district, as far as what more you are going
	to need.  If you have an ISP address that takes you back to a
	computer and you have evidence that somebody is in the house 
	using that computer, what do you know about that person, are 
	they living there, et cetera.  But all of those facts and 
	circumstances are going to be looked at I believe that the
	prosecutors that I work with are going to look for that first
	opportunity to get that search warrant.
	Ms. DeGette.  So you wouldn�t have to prove that the computer
	was actually there, just that there was a fair probability?  
	That is the definition of probable cause, right?
	Ms. Fisher.  Well again, yes, but you would have to look at the
	whole facts and circumstances.
	Ms. DeGette.  Exactly.  Thank you very much, and I will yield to
	Mr. Stupak.  Thank you for your comity, Mr. Stupak.
	Mr. Stupak.  Ms. Fisher, you indicated that these new provisions
	have been sent up here on Section 13032, had there been any 
	prosecutions?  You said no.  Have any efforts been made to 
	prosecute anyone under 13032?
	Ms. Fisher.  I know that there have not been any prosecutions.
	Mr. Stupak.  Have any efforts been made to seek any 
	prosecutions under 13032?
	Ms. Fisher.  Well, certainly we are on the lookout for it, and
	if we found evidence of that.  I can�t tell you how far certain 
	investigations have gone, but I can assure you, Congressman--
	Mr. Stupak.  13032 was an act in �99 by the Congress, right?
	Ms. Fisher.  That is correct, sir.
	Mr. Stupak.  And in 2000, the Clinton Administration put forth 
	the regulations to implement the law, is that correct?
	Ms. Fisher.  I believe there were some regulations that did go 
	out, sir.
	Mr. Stupak.  And then since then, nothing has been done to use 
	this law to apply it to any cases, isn�t that correct?
	Ms. Fisher.  I can�t say that nothing has been done, but I will
	agree with you, sir, that there have been no prosecutions under 
	the standard that is put forth in the statute.  With regard to 
	ISPs, again, with regard to ISPs who have not reported--
	Mr. Stupak.  Has the Justice Department or you or anyone ever
	come to Congress and say we don�t feel your law is enforceable,
	and therefore we have to make some changes until today?
	Ms. Fisher.  No, I am not aware of that.
	Mr. Stupak.  Well, we had testimony at the last hearing from the
	Center for Missing and Exploited Children that you weren�t using
	the law because you didn�t think that it was enforceable, that 
	the Department of Justice didn�t think it was enforceable.
	Ms. Fisher.  There is nothing that strikes me about this law 
	that is not enforceable.
	Mr. Stupak.  Then why are you recommending changes to it?
	Ms. Fisher.  We believe that we are going to make it more 
	enhanced, because now we will be--
	Mr. Stupak.  Well, how would you know if it needed to be 
	enhanced if you have never used it?
	Ms. Fisher.  Sir, we have never prosecuted a case under that.  
	I can�t say that we have never used the statute.
	Mr. Stupak.  So why would you want--
	Ms. Fisher.  In fact, I think the whole--
	Mr. Stupak.  The law has never been used for prosecution, why
	would it have to be changed?
	Ms. Fisher.  Well, this act has a lot of provisions that have
	been used with regard to reporting in, and I am sure, as you 
	know, you heard from NCMEC, the reporting in is a success 
	story.  There are over 200 ISPs that are reporting--
	Mr. Stupak.  Out of how many ISPs are there?
	Ms. Fisher.  I don�t know the answer to that, sir, but 
	Congressman--
	Mr. Stupak.  And they don�t report underneath this law.  They 
	report under a different law.
	Ms. Fisher.  There are over 217 ISPs that are now reporting to 
	NCMEC.  This deals with ISPs that are not reporting and 
	willfully and knowingly not reporting.  That is correct.
	Mr. Stupak.  So why isn�t this law being enforced?
	Ms. Fisher.  I can�t say that it is not being enforced.  I think 
	we are talking past each other for there has not been a
	prosecution under this law.  That does not mean that it hasn�t
	been investigated.  That does not mean that we don�t stand
	ready, that when--
	Mr. Stupak.  Wait a minute.  We already had testimony that it
	hasn�t been used at all.  Are you saying that the people who 
	testified before did not tell the truth before this committee?
	Ms. Fisher.  No, absolutely not.
	Mr. Stupak.  Well, one of you--
	Ms. Fisher.  I think I am being completely consistent.
	Mr. Stupak.  Well, either Justice is not telling us the truth,
	or the other people who testified are not telling the truth.  
	We can�t have the same reading or the same understanding of
	the same law.  
	Let me ask you this question.  Isn�t it true, with your 
	so-called changes today, you are really shifting your
	responsibility, Justice Department�s responsibility, to the
	Federal Communications Commission?
	Ms. Fisher.  Absolutely not.
	Mr. Stupak.  Well, under Section C, the purpose of this 
	paragraph, "The Federal Communications Commission shall have
	the authority to levy civil fines under it and shall promulgate
	the rules and consultation with the Attorney General to 
	effectuate the purposes of subparagraph B and to provide the 
	appropriate administrative review of civil penalties."  To some
	of us sitting up here, it looks like you are shifting this 
	responsibility from Justice to the FCC.
	Ms. Fisher.  Absolutely not.  The criminal penalties for willful
	and knowing failure to report will still be prosecuted by the 
	Department of Justice.  The civil penalties in the civil regime
	as under this bill will be administered by the FCC, but now, 
	what is great about this is that we can get both.  We can get 
	people who negligently failed to report, but we can also get 
	people who willfully and knowingly failed to report.
	Mr. Stupak.  Have you ever used it?
	Ms. Fisher.  We stand by--it has not been prosecuted.  There 
	is--
	Mr. Stupak.  Can you tell me a case where you have used it?
	Ms. Fisher.  No, sir, I agree with you.  This statute has not 
	been used to prosecute an ISP for failing to report.
	Mr. Stupak.  And I will bet you if we never would have brought
	up these hearings, we wouldn�t have these so-called enhancements
	of this law unless we had these hearings, correct?
	Ms. Fisher.  I don�t know when exactly these enhancements were 
	starting to be discussed at the Justice Department.  I can tell
	you that we are always looking at enhancements on reporting and 
	looking at enhancements to laws that combat this horrific 
	problem.  I thank you for these hearings.
	Mr. Stupak.  Let me ask you about Operation Falcon.  You 
	discussed in your testimony, you said it resulted in 372 open 
	investigations, 579 search warrants, 341 domestic arrests, 254 
	indictments, and 241 convictions.  ISIS told us that they, as 
	well as State and local law enforcement, verified the names, 
	credit card information, and physical addresses of over 21,000
	individuals in the United States that paid to download images
	of the rape and torture of children.  You have testimony that
	at least one-third, as much as three-fourths of these 
	individuals have or will engage in such horrible acts 
	themselves.  There are at least 20,000 individuals known to the 
	Department of Justice that are a threat to the safety of 
	children where no attempt has been made to remove them from the
	community.  Are you content that CEOS has done everything it
	can to prosecute these individuals, these remaining 20,000?
	Ms. Fisher.  Well, I certainly, as I said, want all child 
	predators put behind bars.  That--
	Mr. Stupak.  I am just going off the 20,000.
	Ms. Fisher.  This investigation, like many others, continue, and 
	hopefully we will find and prosecute the people that are 
	committing these horrible acts on our children.
	Mr. Stupak.  So it is your testimony you can�t find the 20,000?
	You have the names and addresses--
	Mr. Whitfield.  Mr. Stupak, your 10 minutes have expired.  I am
	going to go to the full committee Chairman, and then we will
	come back.  Very good.
	Chairman Barton.  Mr. Chairman, thank you, but if Mr. Stupak 
	wants to conclude that, I am happy to defer until he has
	concluded that particular line.
	Mr. Stupak.  What happened to the other 20,000?  You had the 
	credit card information, their names, and their physical 
	addresses, so what happened to 20,000?  You said you couldn�t
	find them.
	Ms. Fisher.  I never said I couldn�t find them.
	Mr. Stupak.  Okay.
	Ms. Fisher.  I said that the investigation continues.
	Mr. Stupak.  Okay.  So you are still working on it?
	Ms. Fisher.  Absolutely.  We are still working on all of these
	investigations and these operations.
	Mr. Stupak.  Is that since we have had these hearings or--
	Ms. Fisher.  No, sir.
	Mr. Stupak.  I just wondered if it was like the statute, that 
	is all.
	Thank you, Mr. Chairman.  I will look forward to my 5 minutes 
	later.
	Mr. Whitfield.  Mr. Chairman.
	Chairman Barton.  Well, thank you, Chairman Whitfield, for 
	holding this hearing.  I am going to start off thanking all
	you witnesses for being here.  I mean that.  One of you has 
	been here before, in a little bit of a difficult situation.  The
	other three of you have gotten here in a somewhat unusual 
	fashion, but the truth is, you are here and we are happy you
	are here.  I want this to be a positive hearing.  I have not 
	normally had the Attorney General of the United States walk 
	into my office and say that either he would come or you folks 
	would come, and so I thank Attorney General Gonzalez for making
	that commitment, and I have not often had to call the Director 
	of the FBI and have the kind of conversation I had with him to
	get some of our FBI witnesses here.  So I am sincere in saying 
	we appreciate it and I think we are on the same team.  Congress 
	wants to bring these folks to justice, these child predators,
	and you folks obviously do.  You all have dedicated a large
	part of your professional career to that. 
	So I want to start off by kind of reestablishing what the 
	problem is, and I guess, Ms. Fisher, I go to you since you are
	the senior Department of Justice official here.  How many 
	perpetrators do we think there are in the country that engage 
	in child pornography and preying on children for pornographic 
	purposes?  Does the Department of Justice have an estimate of 
	that?
	Ms. Fisher.  I don�t have an estimate with me, but it is 
	hundreds of thousands.
	Chairman Barton.  Hundreds of thousands.  Mr. Swecker, as the 
	FBI senior person, would you agree with that?
	Mr. Swecker.  I would.  I mean, it is very difficult.  There
	are different categories, if you will, possessors versus people
	who are actually producing and abusing the children.  So there 
	are different--as you well know, there are different categories,
	but there are a lot of them out there and I think--
	Chairman Barton.  So you wouldn�t disagree with the order of
	magnitude?
	Mr. Swecker.  No, not at all.
	Chairman Barton.  Okay.  Do we have an estimate of the number of
	commercial child pornographic sites there are on the Internet on
	any given day?  Anybody?
	Mr. Bell.  I don�t know if there is a way to determine with 
	certainty a number like that.  I did a simple Google search on 
	some terms that I know, and I had 130,000 hits.
	Chairman Barton.  One hundred thirty thousand?
	Mr. Bell.  Right, and that was on one search term.
	Chairman Barton.  So we have hundreds of thousands of potential 
	if not actual predators.  We have hundreds of thousands of
	commercial sites.  What is our estimate on number of victims 
	then, the actual children themselves, based on that?  Would that
	also be in the hundreds of thousands, the millions, the tens of
	thousands?  Just kind of a general order of magnitude, what 
	would it be?
	Mr. Roldan.  Sir, it would have to be in the hundreds of 
	thousands--
	Chairman Barton.  Hundreds of thousands.
	Mr. Roldan.  --because every time we arrest someone, there is 
	more than one victim.
	Chairman Barton.  Okay.
	Now, at our previous hearing, one of our witnesses from law 
	enforcement made the point that I thought was rather telling, 
	that this wasn�t just a law enforcement problem, and I agree with
	that.  I mean, with this kind of an order of magnitude, we cannot
	ask a handful of Federal officials backed up by State and 
	local--I mean, this is a huge problem.  My first question, and I
	will direct this to Ms. Fisher, given the order of magnitude, 
	when I look at the number of officials at the Department of 
	Justice and the number of agents at the FBI that are dedicated
	to this problem, it is in the dozens at DOJ, and at the FBI, it 
	is several hundred.  What does the Congress need to do to
	significantly increase the personnel and the financial resources
	that are being dedicated to tracking this problem?  I have no
	doubt that everybody that is assigned is absolutely committed to
	bringing to justice these fiends, but I am a little puzzled as 
	to why given the order of magnitude that we all understand in 
	general terms, there hasn�t been a huge request to put more
	agents, more prosecutors, more resources into combating the 
	problem?  We are fighting a forest fire with a can of aerosol
	spray or something.  Is it a Congressional problem that we are 
	unwilling to work to increase the resources, or is it there are
	so many other problems that you just don�t feel like you can put
	more resources into it?
	Ms. Fisher.  I think you can always put more resources to attack 
	this problem.  One of the things that we have tried to do in the 
	Department of Justice, and I will let the FBI follow me, because 
	I know that they put a great deal of resources on this.  We use 
	all 94 of our U.S. Attorney�s offices to prosecute this. 
	Second, the Attorney General himself has told the prosecutors 
	and told the U.S. Attorneys this is our priority.  Third, we 
	have this new initiative called Project Safe Childhood, and what
	that does is it makes us link up with the State and locals who
	also have resources to prosecute these crimes, to train them, 
	to give them money to prosecute.  I think $14 million is going
	out to ISIS this year, and to enhance community awareness.
	So those are some of the things that we are trying to do to 
	address the problem, sir.
	Chairman Barton.  I don�t want to beat a dead horse here.  The 
	young man who was the primary witness at the last hearing who 
	had been sexually abused indicated that the website that he was 
	operating, his one website, if I understand, that one website 
	took in $1 million a month.  We estimate that the national take 
	on child pornography in the United States through the Internet 
	is upwards of $20 billion a year, $20 billion.  And we are 
	talking about a $14 million upgrade?  A million million, a 
	thousand million is a billion.  I think the Congress will work 
	with the Administration to find a way, instead of having a
	couple of hundred FBI agents, a dozen or so specialists at DOJ,
	or even--so let us put thousands.  If we are serious about this,
	let us put some real muscle in.  Again, I am not negative on
	what you are doing, but if I have got to put out a major forest
	fire, I don�t send out one firefighter, no matter how good he 
	is.  You know, I mobilize the entire operation.
	My next point.  The gentleman on the end here, Mr. Bell, said 
	that he put in a phrase and he got 130,000 hits that there 
	was--he thinks there may be a commercial site on the Internet
	for child pornography.  Now, it is illegal to engage in child 
	pornography.  Why wouldn�t it be possible, and if we need to 
	change the law, if you can prove that that is a site that is a 
	child pornographic trafficker, shut it down immediately?  Why 
	can�t you do that?  It is an illegal act, it is engaged in 
	illegal activity.  Why don�t we just take it off as soon as we 
	know it is there?
	Mr. Bell.  The difficulty in addressing the commercial websites
	in particular is there are several mechanisms for masking where 
	they actually are.  We have to identify where the host server
	is.  Oftentimes, that is not in the United States.  Oftentimes, 
	these websites are administered by people who are not in the 
	United States.
	Chairman Barton.  Is there anyplace in the world where child 
	pornography is legal?
	Mr. Bell.  Not that I am aware of, but I think as you mentioned 
	there are 90-some countries where it is not--I am sorry, there 
	are 94 countries where it is not illegal, we heard testimony
	today.  Some of the guys that are doing this that are doing it 
	for profit and as a business are situating themselves in those
	places where they kind of have safe harbors.  We have tried to 
	address this through international cooperation.  We have an 
	international task force.  I think some of your staff members 
	have met some of the officers that we have from overseas that
	are working with us, and we are trying hard to address these 
	sites, wherever they might be in the world.
	Mr. Whitfield.  Mr. Chairman, I might just make a comment,
	though, that 94 countries do not have any laws on child 
	pornography, but I have been told that it is estimated that
	40 percent of all the sites are right here in the U.S.
	Mr. Bell.  What we found through some of our investigation is 
	that oftentimes when we finalize our investigations, we find
	the services to be housed in the U.S. are in Western European
	modernized countries and the reason for that, we believe, is
	that the infrastructure is so much better here for high speed
	broadband and such.
	So the guys--the subjects who are administering these sites 
	tend to be offshore, but the mechanisms are here.
	Chairman Barton.  Do we have the technical capability, if it
	were legal, if I put up a child pornography site called 
	Kiddyporn.barton--or Bartonkiddyporn.com, and I am engaged in
	illegal transactions for child pornography, it is technically 
	possible to shut my site down and not let it be accessed.  Is 
	that not correct?
	Mr. Bell.  It is possible.  It is possible to shut the site 
	down, but what happens is sites are generally hosted in several
	locations at one time.  The analogy I like to use is owning 
	four homes.  If you are a drug dealer and you own four homes 
	and the police raid one of your homes, you just go to the next 
	home.  What we are finding in our investigations is that sites
	are located in multiple servers in multiple locations.
	Chairman Barton.  But my point is, if we have detective 
	capability to shut these sites down, why don�t we make sure you
	have the constitutional and legal ability to just do it if you
	can prove by accessing it there is child pornography on that
	site.  Boom, shut it down, just do it.  Make it tough on these
	guys, you know, make it tough on them.  There are not that many
	of you, so just--I mean, I think we will back you up.  I don�t
	believe anybody on either side of the aisle this is the 
	committee of jurisdiction for the Internet.  Now, we don�t have
	criminal penalty enforcement.  That is your friends on the 
	Judiciary Committee.  But if you need--I mean, what the Attorney
	General has sent up in terms of a legislative package I think is
	a step in the right direction, but it appears to me that there
	is so much that we could do if we are serious about this, and we
	just are not doing it.
	And so my plea is let us think big.  Let us think as big as the
	traffickers think.  They are having hundreds of thousands of 
	sites, hundreds of thousands of perpetrators, and we are 
	fighting that with, you know, just a handful of people.
	I have some other questions, Mr. Chairman, but my time is
	expired.  I do want Mr. Roldan�s thoughts in writing and will
	give him a question in writing.  He says the best way to get at
	these folks is through credit card information, but they have to
	go on a case-by-case basis to a Grand Jury to get a subpoena to 
	get that identification of the individual with the credit card 
	number.  I would like to see what we need to do to make it 
	possible to access those credit cards without having to go on a
	case-by-case basis.  Again, if you can prove that that credit 
	card has been used at a site that traffics in commercial child 
	pornography, I would be willing to vote for a bill that makes 
	it an automatic that you can go to the bank and get the 
	identification of that credit card holder.  If you prove that
	they purchased child pornography or accessed a site and paid 
	to go to a site where child pornography was there, that would
	be prima facie evidence that they are engaged in it and you can
	get their name.  You don�t have to spend all the time to go to 
	do th--and again, I don�t want to violate anybody�s 
	constitutional rights, but I would think if you can prove that
	that credit card has been used, you ought to be able to get the
	name of the person using it without having to do all the effort
	that the FBI and the State law enforcement people are having to
	do.
	Thank you folks for coming, and again, Mr. Whitfield, thank you,
	and Mr. Stupak for doing this investigation.
	Lastly, I am told that the million dollars a month was not a 
	site that was operated by Justin Berry, it was another case, the
	Reedy case.  Thank you.
	Mr. Whitfield.  Thank you, Mr. Chairman.
	At this time, I recognize Mr. Stupak for his remaining 6 minutes.
	Mr. Stupak.  Thank you, Mr. Chairman.
	Ms. Fisher, you said in your response to the Chairman that 94 
	DA�s are all working on this and it is a priority with the
	Attorney General to prosecute these cases.  Then what happened
	last July when Justin Berry came to the Justice Department with 
	some current IP addresses, physical addresses, credit card 
	information of persons who were subscribers to his website, but 
	neither the FBI nor Justice has used this information to obtain 
	search warrants?  What happened there?
	Ms. Fisher.  Of course because this is a pending investigation
	there is some stuff that is public that I can talk about and 
	there is material that is not public with regard to the
	investigation that I can�t talk about.  What is public is that
	there has been two people charged with regard to this 
	investigation, Mr. Mitchel and Mr. Richards--
	Mr. Stupak.  Two out of 1,500 I believe it is, right?  Wasn�t
	there 1,500?
	Ms. Fisher.  There have been two people charged.  One has been 
	convicted, one is pending trial.  There have been--the website 
	itself has been taken down.  There have been search warrants. 
	It would be inappropriate for me--that is public and that is
	what I can tell you about the investigation.
	Mr. Stupak.  Wait a minute.  You guys didn�t do anything to shut
	down this server.  The guy fled the country.
	Ms. Fisher.  I am sorry.  There were search warrants that were
	done that have taken down that commercial website.
	Mr. Stupak.  Tell me, what was done to put down this website 
	then?
	Ms. Fisher.  I will leave that to the FBI.
	Mr. Stupak.  Okay, someone tell me.
	Mr. Swecker.  I can just say that all the information that was 
	given to us is being aggressively pursued, very aggressively 
	pursued with substantial resources.  Without going into the 
	details--
	Mr. Stupak.  Sure.  So are there going to be more indictments
	or what?  You have 1,500 names and addresses, credit card 
	information, physical addresses, IP addresses.  Do you 
	anticipate more indictments or anything on this case?  It has 
	been 8 months.
	Mr. Swecker.  It is ongoing, but what I would like to do is have
	Mr. Bell just generically go over--
	Mr. Stupak.  We all sit here and talk about the courage of these
	young people coming here, and when they give you the information 
	and it is 8 months and you get two out of 1,500, their confidence 
	is rather shaken.  I think we do more harm to these young people 
	who are willing to step forward if we take the information and 
	it is such a slow process.  The website, the person fled the 
	country.  That is a given, right?  The operator fled the country
	by the time you got around to it.
	Mr. Swecker.  The agents working this case, the prosecutors 
	working this case are aggressively pursuing every lead in this
	case.
	Mr. Stupak.  Understood, and I have heard that so much today,
	but the point I hope you understand as we sit up here and these
	young people who are willing to come forward, and we hear oh, we
	are aggressively pursuing this case.  Justin Berry has gone to 
	you a couple times and asked for information, and no one would 
	give him information.  Don�t you think you at least owe him an 
	explanation what is going on, other than can�t talk about it or
	ongoing pending case?
	Mr. Swecker.  Sir, I know you have a law enforcement background
	and I know that you know that we don�t discuss cases with 
	witnesses in terms of the details of the case.  
	Mr. Stupak.  But you certainly discuss cases with the victim, 
	because they have the right to know.
	Let me ask this one.  The Chairman was making an excellent 
	point, Chairman Barton.  In the UK, Internet service providers 
	have a process for identifying websites that contain this filth
	and remove those images 48 hours after identification, unless
	law enforcement requests otherwise.  I understand that is a
	voluntary regulatory system that will not work here, as most of
	our ISPs are unwilling to even use the NCMEC reporting forms. 
	The UK reduced the percentage of its images located on their 
	servers from 18 percent of the worldwide total to four tenths
	of one percent in 2005.  In 2 years, they went from 18 percent
	to four tenths of one percent.  Of course, that doesn�t count
	the U.S. part.  
	So has the Department thought about requesting from the Congress
	some legislation that would create a mechanism to notify ISPs
	of violation or sites that may be violating and mandate removal
	of these sites from our servers within 48 hours of notification
	from either NCMEC or from law enforcement?  Have you thought 
	about that?
	Ms. Fisher.  Congressman, just last week when I met with the 
	ISPs I raised this issue with them, and I know they are coming
	in next week to talk about this.  In fact, one of the ones that
	I met with is AOL, who has been a very good reporter to NCMEC,
	but they, I believe, are on the board of that entity in the UK,
	and so I think that they would be better seen to address that 
	particular issue, but I can tell you that we constantly work 
	with the ISPs and with NCMEC to do everything that we can.
	Mr. Stupak.  All right, I guess we will talk to the ISPs.
	Do you have any suggestions?  We heard administrative warrants
	last hearing on how we crack down on this, other than talk to
	the ISPs?  We heard administrative warrants, which I thought was
	a good idea.  We will work on that.  Do you have any other 
	comments for us or this proposal that you gave us today where 
	you shifted to the Federal Communications Commission?  Any other
	suggestions?
	Ms. Fisher.  I applaud the legislation that was passed by the 
	House that is now pending with the Senate.  I think that you 
	should look at sentencing reform with regard to the downward 
	departures, that is an issue.  There is something called the
	cyber convention that is now pending also in the Senate that 
	tries to get our foreign countries that sign on to that cyber 
	crime treaty to have data retention in place so we can work with
	our international partners.  I think any--
	Mr. Stupak.  Let me ask you this idea.  How about if we pay
	overtime to local law enforcement who work this area?  You do 
	it Justice-based terrorism task force and violent crime task 
	force, because the sergeant who really broke Masha�s case 
	doesn�t do it anymore because his jurisdiction can no longer 
	afford the overtime.  So why doesn�t Justice use some of that 
	money and pay overtime to local law enforcement who seem to be
	ahead of this problem, or trying to stay ahead of this problem? 
	Would that be an idea?
	Ms. Fisher.  Certainly.  We do send money out through the ICECs
	to help the local efforts.  The State and locals do such an 
	amazing job at combating child exploitation, and I commend them
	for their work.
	Mr. Stupak.  Thank you, Mr. Chairman.
	Mr. Whitfield.  The gentleman�s time is expired.
	At this time, I recognize Mr. Walden for 10 minutes.
	Mr. Walden.  Thank you very much, Mr. Chairman.
	Ms. Fisher, at our hearing on April 4, concerns were raised by 
	Justin Berry and his attorney, Steve Ryan, about the handling of
	Justin�s case by Department of Justice.  I am sure you are aware
	of our hearing.  In particular, Justin and Mr. Ryan described
	how an affidavit was unsealed in the case involving Gregory 
	Mitchel, a man we understand allegedly molested Justin and also
	was engaged in a commercial enterprise involving the production
	of sexually exploitative images of children.  The unsealing of 
	this affidavit was particularly detrimental to Justin because it
	was only partially redacted and contained information that other
	child predators involved with Mr. Mitchel in this commercial 
	enterprise would realize came from Justin.  In effect, it 
	altered--it alerted, I should say, other potential perpetrators 
	that Justin was a government witness.
	Mr. Ryan, Justin�s attorney, testified under oath that he had 
	been assured the day before the unsealing of Mr. Mitchel�s 
	affidavit by Mr. Andrew Oosterbaan, head of the CEOS section, 
	that the affidavit would remain sealed.  Subsequently, we 
	learned that an error was made and the affidavit was unsealed.
	I understand that those sorts of mistakes can happen.  However,
	I asked Justin�s attorney, Steve Ryan, while he was under oath, 
	whether he, on behalf of Justin, ever requested the Justice 
	Department reseal the affidavit.  Mr. Ryan said that he would
	get back to us on that question because he wanted to make sure
	he gave us an accurate response.  I have an e-mail that was 
	forwarded from Mr. Ryan to staff the following day.  There 
	should be a copy of it on the dais for you if you want to read 
	it.
	Ms. Fisher.  That is okay.
	Mr. Walden.  We can share it with you.  I don�t know if somebody
	is able to do that.
	I would like to move that the e-mail be entered into our record,
	Mr. Chairman.
	Mr. Whitfield.  Without objection.
	[The information follows:]

	Mr. Walden.  The e-mail he forwarded staff is an e-mail dated 
	September 15 of 2005 from Holly Roth, an attorney working with 
	Mr. Ryan and Justin, to Mr. Andrew Oosterbaan, Sherri Stephan of 
	DOJ, and Stephanie Thacker of DOJ.  In this e-mail, Ms. Roth 
	writes, and I quote "Drew: Reserving all of our rights in light 
	of what has happened, we would like you to take every possible 
	action to get the warrant affidavit back under seal.  Please 
	advise us right away of your position on this."  We note this 
	affidavit remains unsealed.  Can you explain to us why this 
	affidavit was not resealed?
	Ms. Fisher.  Well, I can.  When this e-mail was sent about
	resealing the affidavit, which the complaint underlying arrest 
	warrant affidavit that describes all the facts that was unsealed
	in a redacted form by the court, that affidavit was already in 
	the public realm, and according to the U.S. Attorney, the press 
	already had that affidavit.  So the judgment was made that they 
	would offer protection for Justin, and I believe that that 
	offer--
	Mr. Walden.  Physical protection?
	Ms. Fisher.  Yes, physical protection and any other kind of 
	protection, and that was made.  Of course, because the Mitchel 
	case was ongoing, he had already had his initial appearance and
	he was going forward, that affidavit at some point was going to 
	become unsealed, but at that period of time after this Thursday
	e-mail, that is the event that took place.
	Mr. Walden.  But is that sort of standard procedure in these 
	types of cases?
	Ms. Fisher.  Eventually, yes.  The complaint and the affidavit--
	if there is a complaint and an affidavit, they are unsealed as 
	to the defendant because the defendant gets to know the charges
	against him.
	Mr. Walden.  Sure.
	Ms. Fisher.  And then as the case progresses, sometimes it is 
	30 days, sometimes it is immediate, sometimes it is a little bit
	later, those documents are unsealed because the case is going on
	and the defendant is making further appearances, and of course,
	our court proceedings are public.
	Mr. Walden.  Okay.
	Ms. Fisher.  But let me assure you, Congressman, because I think 
	this gets at the issue.  There would never be a deliberate 
	attempt by the Justice Department to put a victim or a 
	cooperating witness in harm�s way.  There certainly was no 
	attempt to do that here.  We want to protect our victims and we
	want to protect our investigation and our case.
	Mr. Walden.  Sure, but when Mr. Ryan asked that it be resealed,
	why was it--that just didn�t matter at that point?
	Ms. Fisher.  It is not that it didn�t matter at all.  
	Unfortunately, it was already in the public realm and so 
	resealing would have been ineffective, so the judgment was made
	at the time by the people on the ground to offer him protection.
	Mr. Walden.  Okay.  And when you say it is already in the public
	realm, does that mean that it was at one time open and available
	but could it--I am not an attorney, so you are going to have to 
	work with me on this.  But resealing it, would that take it out 
	of the public realm?
	Ms. Fisher.  Well, when I said it was already in the public 
	realm, the press in Roanoke already had a copy of the affidavit 
	and had called the U.S. Attorney in Roanoke, according to my 
	conversations with the U.S. Attorney in looking into this.  And 
	so it was already in the public realm, and of course, it had
	been made--
	Mr. Walden.  But it was like one reporter in Roanoke had it?
	Ms. Fisher.  I believe that is right but I am not sure that they
	knew that at the time.  But I think that when they were 
	considering whether resealing would be effective, and of course, 
	it would only have remained resealed for a certain period of 
	time--
	Mr. Walden.  How long would that be, normally, in a case?
	Ms. Fisher.  It would depend on the local rules in the
	courthouse down there.  Sometimes it is 15 days, sometimes it is
	longer.  It depends on your relationship with the court and the
	motions that are filed.  But this was not done on purpose.  We
	want to protect our victims.  I am sorry that it happened.  I
	believe everybody is sorry that it happened.
	Mr. Walden.  Okay.
	Mr. Roldan, what is the current budget for the Innocent Images
	Unit?
	Mr. Roldan.  Sir, I can break it down for you, but--
	Mr. Walden.  You need to turn your mic on there if you would. 
	Thank you, sir.
	Mr. Roldan.  I can break it down for you, sir, but right now it 
	is a little bit less than $20 million.
	Mr. Walden.  And is it--
	Mr. Roldan.  Including personnel.
	Mr. Walden.  And has the Unit�s budget been the same since its
	inception?
	Mr. Roldan.  No, sir.  It started in 1998 and we received 
	60 positions equivalent to $5.8 million.
	Mr. Walden.  That was in �98?
	Mr. Roldan.  In 1998.  We also received--
	Mr. Walden.  And what is it today?
	Mr. Roldan.  Total in personnel or non-personnel.  I will give 
	you the whole--1998, 60 positions, equivalent $5.8 million.
	Mr. Walden.  Okay.
	Mr. Roldan.  In addition, non-personnel $4.2 million.  In 1999,
	45 positions equivalent to $5.2 million.
	Mr. Walden.  So it has gone down?
	Mr. Roldan.  No, in addition.  This is reoccurring.  So in 
	addition to the 60 positions, we received an additional
	45 positions.
	Mr. Walden.  You got an additional 45 positions.
	Mr. Roldan.  Yes, sir.
	Mr. Walden.  Okay.
	Mr. Roldan.  And in 2005, in addition to the $4.2 million
	non-personnel, we received an additional $3 million 
	non-personnel.  No additional positions, but we received $3
	million in non-personnel.  So now we are up to $7.2 million 
	reoccurring.  It will reoccur every year.  And then in 2006, we
	received an additional 22 positions, which is approximately 
	$2.69 million.
	Mr. Walden.  Okay.  Do you believe that is adequate to keep up 
	with the volumes we are hearing about here?
	Mr. Roldan.  We could use more resources in this particular 
	matter, obviously, from the numbers we are getting.
	Mr. Walden.  All right.
	Within the cyber crimes section, what priority is placed on 
	Innocent Images investigations as opposed to intellectual
	property crimes, such as downloading music from the Internet,
	for example?  How many positions do you have on these 
	intellectual property cases?
	Mr. Roldan.  Minimal, sir.  As a matter of fact, the Innocent 
	Images program is just below the intrusion matters, which
	address counterterrorism and counterintelligence.
	This was just recently changed, too, by the way.
	Mr. Walden.  When?
	Mr. Roldan.  Most recently, we started working on a national 
	strategy approximately a year ago or a little less than a year
	ago, and that national strategy was recently signed.  That is
	where the changes were made.
	Mr. Walden.  Okay, because it used to be like third in your 
	priority, didn�t it?
	Mr. Roldan.  Yes, sir, you are correct.
	Mr. Walden.  After intellectual property cases, after hacking,
	and after intrusion?
	Mr. Roldan.  Yes, sir, you are correct.
	Mr. Walden.  Okay.  All right.
	Ms. Fisher, one final question on this affidavit issue.  Have
	you ever resealed an affidavit in a case?
	Ms. Fisher.  No, sir.  I have not had occasion to do so.
	Mr. Walden.  Does it ever happen in--I meant the Justice
	Department in general, not necessarily you personally.
	Ms. Fisher.  The Justice Department, I couldn�t say for the 
	entire Justice Department.  I think it unusual, but I would 
	never say that it couldn�t happen or wouldn�t happen.  It would 
	be up to the court, obviously.
	Mr. Walden.  All right.
	Ms. Fisher.  Could I clarify one thing--
	Mr. Walden.  Sure.
	Ms. Fisher.  --Mr. Chairman?  I think I mentioned the cyber crime 
	treaty earlier as something that could be done and could be 
	worked on that is in the Senate right now, and I mentioned it in
	regards to data retention.  It actually helps us with 
	international cooperation and information sharing, not data 
	retention, so I apologize for that.  I just wanted to clarify 
	that for the record.
	Mr. Walden.  All right.  Thank you, Mr. Chairman.  My time is 
	expired.
	Mr. Whitfield.  Thank you, Mr. Walden.
	At this time, I recognize Dr. Burgess for 10 minutes.
	Mr. Burgess.  Thank you, Mr. Chairman.  I apologize for being out
	of the room for a while during part of the testimony.
	When evidence comes to light that some of this activity has been
	going on, but it comes to you late, does it reach a point where 
	the evidence is just too stale to pursue an investigation or a 
	search warrant?
	Ms. Fisher.  There could be a staleness problem with regard to 
	search warrants, but as far as the investigation goes, I would 
	defer that to Mr. Swecker.
	Mr. Swecker.  Can you repeat that question?
	Mr. Burgess.  If you don�t catch something right away, is there 
	an expiration date on the ability to investigate it and pursue a
	search warrant?
	Mr. Swecker.  The answer is yes, because data can become stale and
	you can�t use it in a search warrant, for example, because it is
	not current enough.  We often get information that is a year, 
	2 years old, and unless you can update that information and get it
	to the point where it is fresh enough to get a search warrant, you
	can�t act on it without just knocking on the door and doing the 
	knock and talk that I think Raul discussed earlier.
	Mr. Burgess.  So then what happens?  Does the case just get 
	dropped?
	Mr. Swecker.  No.  I mean, if you have a list of subscribers that
	are 2 years old, for example, you continue with the 
	investigation.  It goes into a database.  If you do get to the
	names of the subscribers and you get the information on it, 
	that goes into the Innocent Images database and usually we run
	across these folks again.
	So it doesn�t just die, I mean, the investigation continues
	on.
	Mr. Burgess.  Is there any tool that we could give you here 
	that would help you with the staleness problem?  Is there any 
	legislative tool that Congress could supply you?
	Mr. Swecker.  I will defer to Justice on that one.  I mean, 
	we like data retention.  It is a question of how long and 
	how much data is going to be retained.  There is an issue 
	ith our regional forensic labs, frankly.  There is a bottleneck
	there.  Innocent Images cases, as we refer to them, have to 
	take a backseat to terrorism exploitation with respect to our 
	computer forensic examinations.  There are only about nine 
	labs, I believe, forensic labs around the country right now,
	and these are labs that are shared by State and local and FBI 
	and other Federal agencies.  There are times when we can�t get 
	to this information because of the press of terrorism, 
	counterintelligence cases, and other cases that the Director 
	has stated, and rightfully so, that are higher priorities.  So 
	more forensic labs would help.
	Mr. Burgess.  I have a hard time differentiating between this 
	type of terrorism and some of the other types that you pursue, 
	but I understand what you are saying.
	So you will try to pursue a case even though some of the 
	information has become quite dated?
	Mr. Swecker.  Yes.  Arnold, can you elaborate on that a little
	bit?
	Mr. Bell.  Yes, sir.
	Even when we receive dated information, we have several 
	databases that are contained in house.  In addition, we have 
	databases that are available to us at the National Center for 
	Missing and Exploited Children.  We will take the names of the 
	individuals that we have, we will take whatever information we
	have, and we will bounce it off those databases.  Sometimes we
	find people that we have encountered before, sometimes we find
	people that we already have active investigations on, or when 
	we go through the National Center, some other agency may have 
	active investigations on.  The information that we have, if 
	someone else has an investigation, our information generally
	will bolster some other investigation or allow us to continue 
	on with investigations we might already have ongoing on a 
	particular subject.  For example, on a website case we might
	have 10,000 such leads, but all that information might be 2 or
	3 years old.  We bounce that off of all the databases that are
	available to us.
	Mr. Burgess.  So you have someone who is continually working 
	on those?
	Mr. Bell.  We do those regularly.
	Mr. Burgess.  Do you have any--I mean, are there success stories
	from successful prosecutions from that?
	Mr. Bell.  You know what, I can�t think of any that came 
	specifically from some data of that age right now.  I am sure 
	there are.  I can get back to the committee if it is necessary.
	Mr. Burgess.  Well, I am sure all of you were in the room when 
	we heard the testimony from the pervious panel.  I have just got
	to tell you, I am really bothered by human traffickers 
	masquerading as adoption agencies.  I mean, I had no idea that
	that sort of thing could even happen. 
	Is there any role for the Department of Justice or the FBI in 
	working up these cases and pursuing these individuals?  I mean, 
	that is really at the heart of what we are talking about, from 
	the standpoint of the Internet.  The Internet has put all of 
	this stuff on steroids.  At the heart of it, you had a pedophile
	go overseas and adopt a baby, and went through three agencies in 
	order to do it.  Is that possible?
	Ms. Fisher.  It was such a sad and horrific story that she told,
	and she is such a brave girl.
	I was thinking that same thing as she was testifying, is there 
	something--
	Mr. Burgess.  Well, are you guys investigating--
	Ms. Fisher.  --for the Department--
	Mr. Burgess.  Go ahead--aspects of those adoption agencies?  I
	mean, I don�t want to come down hard on international adoption 
	agencies that are doing good work and providing people the 
	children they have always longed for, but this is so heinous.  
	Surely, the FBI is investigating adoption agencies, international 
	adoption agencies, after seeing this kind of information, because 
	as someone on the previous panel said, there have got to be other 
	Mashas out there.  We just haven�t found them yet.
	Mr. Swecker.  Can I address that?
	Mr. Burgess.  Sure, I wish you would.
	Mr. Swecker.  You hit it right on the head.  It is a human 
	trafficking case, and we address human trafficking cases.  We 
	have a pretty sizeable inventory of human trafficking cases.  We
	can get back to you as to how many of those that would involve 
	adoption agencies.  As you know, we played a role in this case, 
	although it was first scoped out by a local officer.  He came to 
	the FBI for some additional help in getting the search warrant 
	put together and actually conducting the raid.
	But to answer your question, we do have a role to play.
	Mr. Burgess.  Are any of the people who were involved in this 
	case that was before us today, any of the adoption agency 
	people in jail, on trial, awaiting trial?  Has anyone been 
	punished for what happened to this 5-year-old?
	Mr. Swecker.  Not that I am aware of.
	Ms. Fisher.  Other than the defendant, her adoptive father who
	is in prison, I am not aware of any others.
	Mr. Burgess.  And I mean, the failures are--her teachers, I 
	don�t know whether she got medical care during her 5 years with 
	this guy.  I don�t know whether he took her in for her 
	immunizations.  If she went to school, I presume she had 
	immunizations.  I presume she was weighed by a nurse and someone 
	should have noted that her weight was lower than the 20th 
	percentile for a 10-year-old.  I mean, it is just hard to 
	imagine how this was missed over and over and over again.  The
	failings of our system are just rampant in this case.
	The Toronto police department spent considerable time and 
	resources to find this child, only to learn that her identify
	had been--or that she had been found 2 years earlier by the 
	FBI working with the Chicago police department.  Do you have
	things in place internationally now to try to help that?  What
	is being done amongst Federal law enforcement agencies and the
	Justice Department?
	Mr. Swecker.  The answer is yes.  Our database has been merged
	with the National Center for Missing and Exploited Children 
	database, which is actually when the match was made in this case
	two years after she was recovered.  NCMEC has put out a list of
	protocols that need to be followed in these types of cases, and
	as a last resort, placing the child�s picture out on the public 
	domain.  That protocol wasn�t followed in this case, and I will 
	let Arnold follow up on that, but we can�t force other 
	international law enforcement agencies to follow those protocols. 
	They are really advisory in nature.  Most countries do.
	Mr. Burgess.  How do our efforts compare with that of other 
	countries?  Are we keeping up?
	Mr. Swecker.  We do.  We have recovered--in comparison to the
	international law enforcement agencies, we have recovered 124 
	children versus the combined efforts of 181 other countries in 
	the recovery of about 257 children.  So one agency has recovered
	124; combined, 181 agencies have recovered 250.  So we compare, 
	I mean, we lead the world in these types of investigations in 
	terms of recovered children.
	Mr. Burgess.  Is there any idea how big the universe of children
	who are exploited by child predators is?  I mean, how does that
	figure of 187 compare with--
	Mr. Swecker.  We tried to take a stab at that a little earlier,
	and we think it is hundreds of thousands internationally, 
	probably tens of thousands--
	Mr. Burgess.  Probably not a great figure.
	Mr. Swecker.  --nationally.
	Mr. Burgess.  Mr. Chairman, it has been a long day.  This is an 
	emotionally exhausting topic.  I am going to yield back the 
	balance of my time.
	Mr. Whitfield.  Thank you, Mr. Burgess.
	Once again, I want to thank the panel.  We look forward to 
	continuing to work with you as we continue efforts in this area.
	The record will remain open for 30 days and the documents and
	these records will be submitted in to be formally a part of the
	record. 
	[The information follows:]

	
Mr. Whitfield.  Mr. Roldan, I think Chairman Barton indicated he would
be getting a question to you, and we would appreciate an answer on that.
	I hope you all enjoyed being with the Energy and Commerce 
	Oversight Subcommittee this afternoon.  With that, the hearing 
	is adjourned.
	[Whereupon, at 7:25 p.m., the subcommittee was adjourned.]



<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>



</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
